<html>
<title> - REVIEW OF DEPARTMENT OF DEFENSE DETENTION AND INTERROGATION OPERATIONS</title>
<body><pre>[Senate Hearing 108-868]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-868
 
 REVIEW OF DEPARTMENT OF DEFENSE DETENTION AND INTERROGATION OPERATIONS 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

               MAY 7, 11, 19; JULY 22; SEPTEMBER 9, 2004

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

96-600 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  













                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  















                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
             Allegations of Mistreatment of Iraqi Prisoners
                              may 7, 2004

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense...................     5
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    11
Smith, Lt. Gen. Lance L., USAF, Deputy Commander, United States 
  Central Command................................................    13
Brownlee, Hon. Les, Acting Secretary of the Army.................    15
Schoomaker, Gen. Peter J., USA, Chief of Staff of the Army.......    16

             Allegations of Mistreatment of Iraqi Prisoners
                              may 11, 2004

Cambone, Hon. Stephen A., Under Secretary of Defense for 
  Intelligence...................................................    96
Smith, Lt. Gen. Lance L., USAF, Deputy Commander, United States 
  Central Command................................................   102
MG Antonio M. Taguba, USA, Deputy Commanding General for Support, 
  Coalition Forces Land Component Command........................   102

 Continue to Receive Testimony on Allegations of Mistreatment of Iraqi 
                               Prisoners
                              may 11, 2004

Alexander, LTG Keith B., USA, Deputy Chief of Staff, G-2; 
  Accompanied by MG Ronald L. Burgess, Jr., USA, Deputy Chief of 
  Staff, J-2; and MG Thomas J. Romig, USA, Judge Advocate General   391

             Allegations of Mistreatment of Iraqi Prisoners
                              may 19, 2004

Abizaid, GEN John P., USA, Commander, United States Central 
  Command........................................................   565
Sanchez, LTG Ricardo S., USA, Commander, Multi-National Force--
  Iraq...........................................................   568
Miller, MG Geoffrey D., USA, Deputy Commander for Detainee 
  Operations, Multi-National Force--Iraq.........................   574
Warren, COL Marc L., Staff Judge Advocate, CJTF-7................   574

                                 (iii)
   The Department of the Army Inspector General Report on Detention 
                    Operation Doctrine and Training
                             july 22, 2004

Brownlee, Hon. Les, Acting Secretary of the Army; Accompanied by 
  GEN Peter J. Schoomaker, USA, Chief of Staff of the Army; and 
  LTG Paul T. Mikolashek, USA, Inspector General of the Army.....   680

  The Investigation of the 205th Military Intelligence Brigade at Abu 
                          Ghraib Prison, Iraq
                           september 9, 2004

Kern, GEN Paul J., USA, Commanding General, United States Army 
  Materiel Command; Accompanied by LTG Anthony R. Jones, USA, 
  Deputy Commanding General, Chief of Staff, United States Army 
  Training and Doctrine Command; MG R. Steven Whitcomb, USA, 
  Special Assistant to the Commander, United States Central 
  Command; MG George R. Fay, USA, Deputy Commander, United States 
  Army Intelligence and Security Command; and MG Antonio M. 
  Taguba, USA, Deputy Assistant Secretary of Defense for Reserve 
  Affairs, Readiness, Training, and Mobilization.................  1049

  The Report of the Independent Panel to Review Department of Defense 
                          Detention Operations
                           september 9, 2004

Schlesinger, Dr. James R., Chairman, Independent Panel to Review 
  Department of Defense Detention Operations.....................  1313
Brown, Dr. Harold, Member, Independent Panel to Review Department 
  of Defense Detention Operations................................  1317


             ALLEGATIONS OF MISTREATMENT OF IRAQI PRISONERS

                              ----------                              


                          FRIDAY, MAY 7, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:45 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Roberts, Allard, Sessions, Collins, Talent, Chambliss, Graham, 
Dole, Cornyn, Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, 
Bill Nelson, E. Benjamin Nelson, Dayton, Bayh, Clinton, and 
Pryor.
    Other Senators present: Senator Bill Frist.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Regina 
A. Dubey, research assistant; Ambrose R. Hock, professional 
staff member; Thomas L. MacKenzie, professional staff member; 
Elaine A. McCusker, professional staff member; Lucian L. 
Niemeyer, professional staff member; Paula J. Philbin, 
professional staff member; Lynn F. Rusten, professional staff 
member; Joseph T. Sixeas, professional staff member; Scott W. 
Stucky, general counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Kenneth M. Crosswalt, professional 
staff member; Evelyn N. Farkas, professional staff member; 
Richard W. Fieldhouse, professional staff member; Jeremy L. 
Hekhuis, professional staff member; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; Michael J. McCord, 
professional staff member; William G.P. Monahan, minority 
counsel; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Michael N. Berger, Bridget Ward, 
Nicholas W. West, and Pendred K. Wilson.
    Committee members' assistants present: Cord Sterling and 
James B. Kadtke, assistants to Senator Warner; Christopher J. 
Paul, assistant to Senator McCain; Mark Powers, assistant to 
Senator Inhofe; Darren M. Dick, assistant to Senator Roberts: 
Arch Galloway II, assistant to Senator Sessions; Derek J. 
Maurer, assistant to Senator Collins; Lindsey R. Neas, 
assistant to Senator Talent; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Aleix Jarvis and Meredith Moseley, 
assistants to Senator Graham; Christine O. Hill, assistant to 
Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Sharon L. Waxman and Mieke Y. Eoyang, assistants to 
Senator Kennedy; Christina Evans and Erik Raven, assistants to 
Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi, assistant to Senator Akaka; William K. Sutey 
and Dan Shapiro, assistants to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; William Todd Houchins, 
assistant to Senator Dayton; Todd Rosenblum and Rashid 
Hallaway, assistants to Senator Bayh; Andrew Shapiro, assistant 
to Senator Clinton; and Terri Glaze, assistant to Senator 
Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The Committee on Armed Services meets 
today in the first of a series of hearings to receive testimony 
regarding the mistreatment of Iraqi prisoners by some--I 
repeat, some--elements and certain personnel of the Armed 
Forces of the United States in violation of U.S. and 
international laws.
    Testifying before us today is the Secretary of Defense, the 
Honorable Donald Rumsfeld. He is joined by the Chairman of the 
Joint Chiefs of Staff, General Richard Myers; Acting Secretary 
of the Army, Les Brownlee; Army Chief of Staff, General Peter 
Schoomaker; and Central Command (CENTCOM) Deputy Commander, 
Lieutenant General Lance Smith. We welcome each of you today.
    I have had the privilege of being associated with, and, 
more importantly, learning from, the men and women of the Armed 
Forces for close to 60 years of my life, and I can say that the 
facts I now have, from a number of sources, represent to me as 
serious an issue of military misconduct as I have ever 
observed. These reports could also seriously affect this 
country's relationships with other nations, the conduct of the 
war against terrorism, and place in jeopardy the men and women 
of the Armed Forces wherever they are serving in the world.
    This mistreatment of prisoners represents an appalling and 
totally unacceptable breach of military regulations and 
conduct. Most significantly, the replaying of these images day 
after day throughout the Middle East, and indeed the world, has 
the potential to undermine the substantial gains towards the 
goal of peace and freedom in various operation areas of the 
world, most particularly Iraq, and the substantial sacrifice by 
our forces, as well as those of our allies, in the war on 
terror.
    Let me be as clear as one Senator can be. This is not the 
way for anyone who wears the uniform of the United States of 
America to conduct themselves. This degree of breakdown in 
military leadership and discipline represents an extremely 
rare--and I repeat, rare--chapter in the otherwise proud 
history of the Armed Forces of the United States. It defies 
common sense. It contradicts all the values we Americans learn, 
beginning in our homes.
    Members of the committee, as we conduct this hearing, I 
urge you that we take every care that our actions, our words, 
and our individual and collective conduct in this hearing not 
reflect unfairly on the 99.9 percent of our uniformed personnel 
who are performing remarkable tasks and, in some cases, making 
the ultimate sacrifice of life and limb to win the global war 
on terrorism.
    Each of us on the committee has nothing but the strongest 
support for our brave men and women in uniform and their 
families. What we seek for the American people through this and 
following hearings, is only to strengthen and honor their 
efforts, not in any way to detract from them and their 
accomplishments.
    I would point out that while some systems have failed, we 
are here today because of a courageous enlisted man and his 
lieutenant, whose American values compelled them to step 
forward and inform their superiors. They did the right thing. 
As this committee performs its constitutional duties in 
hearings and oversight, we are working in the same spirit as 
those two soldiers.
    Questions before us today are: Who knew what, and when? 
What did they do about it? Why were Members of Congress not 
properly and adequately informed?
    In my 25 years on this committee, I have received hundreds 
of calls, day and night, from all levels, uniformed and 
civilian, of the Department of Defense (DOD), when they, in 
their judgment, felt it was necessary. I'd dare say that other 
members on this committee have experienced the same courtesy. I 
did not receive such a call in this case, and yet I think the 
situation was absolutely clear and required it, not only to me, 
but to my distinguished ranking member and other members of 
this committee.
    Members of the committee, our central task here today is to 
get all the facts in this difficult situation, no matter where 
they lead, no matter how embarrassing they may be, so that we 
can assess our response and, in the end, make sure that such 
dereliction of duty as in this case never happens again in the 
proud history of our country.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    The abuses that were committed against prisoners in U.S. 
custody at the Abu Ghraib prison in Iraq dishonored our 
military and our Nation, and they made the prospects for 
success in Iraq even more difficult than they already are. Our 
troops are less secure and our Nation is less secure because 
these depraved and despicable actions will fuel the hatred and 
fury of those who oppose us.
    General Taguba's investigation, as reported, paints an 
alarming picture of abuse and humiliation of Iraqi prisoners. 
It has enraged people here at home and throughout the civilized 
world. Humiliating and sexually abusing prisoners has nothing 
to do with the effective internment or interrogation of 
prisoners. In fact, such actions are counterproductive to those 
goals.
    As we seek to bring stability and democracy to Iraq and to 
fight terrorism globally, our greatest asset as a Nation is the 
moral values that we stand for. Those values have been 
compromised.
    To begin the process of restoring them, the people 
involved, who carried out or who authorized or suggested that 
we should ``loosen prisoners up'' or, ``make sure they get the 
treatment'' must be held accountable. So must anyone up the 
chain of command be held accountable who had command 
responsibility over the interrogation and security of 
prisoners, and who knew, or should have known, of these abuses 
and looked the other way.
    General Taguba's finding that, ``personnel assigned to the 
372nd Military Police (MP) Company were directed to change 
facility procedures to set the conditions for military 
intelligence interrogations,'' is bolstered by pictures that 
suggest that the sadistic abuse was part of an organized and 
conscious process of intelligence-gathering. In other words, 
those abusive actions do not appear to be aberrant conduct by 
individuals, but part of a conscious method of extracting 
information. If true, the planners of this process are at least 
as guilty as those who carried out the abuses.
    The President's legal counsel, Alberto Gonzalez, reportedly 
wrote, in a memorandum, that the decision to avoid invoking the 
Geneva Conventions ``preserves flexibility'' in the war on 
terrorism. Belittling or ignoring the Geneva Conventions 
invites our enemies to do the same, and increases the danger to 
our military service men and women. It also sends a disturbing 
message to the world that America does not feel bound by 
internationally accepted standards of conduct.
    The findings of General Taguba's report, as reported on a 
public Web site, raise a number of disturbing issues. For 
example, how far up the chain was there implicit or explicit 
direction or approval or knowledge of these prisoner abuses? 
Why was a joint interrogation and detention facility at Abu 
Ghraib established in a way which led to the subordination of 
the MP brigade to the military intelligence unit conducting 
interrogation activities? What was the role played by the 
military intelligence, the Central Intelligence Agency (CIA), 
and any other intelligence units in requesting or suggesting 
abusive activities? How is it in our Nation's interest to have 
civilian contractors, rather than military personnel, 
performing vital national security functions such as prisoner 
interrogations in a war zone? When soldiers break the law or 
fail to follow orders, commanders can hold them accountable for 
their misconduct. Military commanders don't have the same 
authority over civilian contractors.
    Finally, Secretary Rumsfeld and General Myers, I join our 
chairman in expressing deep dismay that when you briefed 
Senators in a classified session last week on events in Iraq, 
just hours before the story broke on television, you made no 
reference to the impending revelations. Executive branch 
consultation with Congress is not supposed to be an option, but 
a longstanding and fundamental responsibility.
    It is essential that our Nation, at the highest levels, 
apologize directly to the victims and to the Iraqi people, as a 
whole, for these actions. But words alone are not sufficient. 
Prompt and decisive action, which establishes responsibility 
and holds people accountable, is essential here. It will also, 
hopefully, convince the world that our free and open society 
does not condone, and will not tolerate, this depraved 
behavior.
    Chairman Warner. I'll ask our witnesses to rise. [Witnesses 
sworn.]
    The complete statements of all witnesses will be placed 
into the record. The committee will now receive the opening 
remarks of the Secretary, followed by the Chairman of the Joint 
Chiefs. I'm not certain if others desire some recognition for 
opening remarks; if so, indicate to the chair. Then we'll go 
into a 6-minute round of questions by each member.
    Mr. Secretary.

   STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE

    Secretary Rumsfeld. Mr. Chairman, members of the committee, 
in recent days there has been a good deal of discussion about 
who bears responsibility for the terrible activities that took 
place at Abu Ghraib. These events occurred on my watch. As 
Secretary of Defense, I am accountable for them, and I take 
full responsibility. It's my obligation to evaluate what 
happened, to make sure that those who have committed wrongdoing 
are brought to justice, and to make changes, as needed, to see 
that it doesn't happen again.
    I feel terrible about what happened to these Iraqi 
detainees. They're human beings, and they were in U.S. custody. 
Our country had an obligation to treat them right. We did not, 
and that was wrong. So to those Iraqis who were mistreated by 
members of the U.S. Armed Forces, I offer my deepest apology. 
It was inconsistent with the values of our Nation. It was 
inconsistent with the teachings of the military to the men and 
women of the Armed Forces. It was certainly fundamentally un-
American.
    Further, I deeply regret the damage that has been done. 
First, to the reputation of the honorable men and women of the 
Armed Forces, who are courageously, responsibly, and 
professionally defending our freedoms across the globe. They 
are truly wonderful human beings, and their families and their 
loved ones can be enormously proud of them. Second, to the 
President, Congress, and the American people; I wish I had been 
able to convey to them the gravity of this before we saw it in 
the media. Finally, to the reputation of our country.
    The photographic depictions of the U.S. military personnel 
that the public has seen have offended and outraged everyone in 
the DOD. If you could have seen the anguished expressions on 
the faces of those in our Department upon seeing those photos, 
you would know how we feel today.
    It's important for the American people and the world to 
know that while these terrible acts were perpetrated by a small 
number of U.S. military personnel, they were also brought to 
light by the honorable and responsible actions of other 
military personnel.
    There are many who did their duty professionally, and we 
should mention that, as well. First, Specialist Joseph Darby, 
who alerted the appropriate authorities that abuses were 
occurring. Second, those in the military chain of command who 
acted promptly, on learning of those abuses, by initiating a 
series of investigations--criminal and administrative--to 
assure that abuses were stopped and that the responsible chain 
of command was relieved and replaced.
    Having said that, all the facts that may be of interest are 
not yet in hand. In addition to the Taguba Report, there are 
other investigations underway, and we'll be discussing those 
today. Because all the facts are not in hand, there will be 
corrections and clarifications to the record as more 
information is learned.
    From the witnesses, you will be told the sequence of events 
and investigations that have taken place since the activities 
first came to light. I want to inform you of the measures 
underway to improve our performance in the future.
    Before I do that, let me say that each of us at this table 
is either in the chain of command or has senior 
responsibilities in the DOD. This means that anything we say 
publicly could have an impact on the legal proceedings against 
those accused of wrongdoing in this matter. So please 
understand that if some of our responses to questions are 
measured, it is to assure that pending cases are not 
jeopardized by seeming to exert command influence, and that the 
rights of any accused are protected.
    Now, let me tell you the measures we're taking to deal with 
this issue. First, to ensure we have a handle on the scope of 
this catastrophe, I will be announcing today the appointment of 
several senior former officials who are being asked to examine 
the pace, the breadth, the thoroughness of the existing 
investigations, and to determine whether additional 
investigations or studies need to be initiated. They're being 
asked to report their findings within 45 days of taking up 
their duties. I'm confident that these distinguished 
individuals will provide a full and fair assessment of what has 
been done thus far, and recommend whether further steps may be 
necessary.
    [Clarifying information provided by the DOD follows:]

    Charter for Independent Panel to Review DOD Detention Operations 
was signed on May 12, 2004. It allots a timeframe to provide advice 
``preferably within 45 days'' after beginning the review. The panel has 
announced that it will present its final report on August 18, 2004, 
with the caveat that it could be modified at a later date to reflect 
the results of reports or investigations completed after that date.

    Secretary Rumsfeld. Second, we need to review our habits 
and our procedures. One of the things we've tried to do in the 
DOD since September 11 is to try to get the Department to 
adjust our procedures and processes to reflect that we're in a 
time of war and that we're in the information age. For the past 
3 years, we've looked for areas where adjustments were needed, 
and we've made a great many adjustments. Regrettably, we've now 
found another area where adjustments may be needed.
    Let me be clear. I failed to recognize how important it was 
to elevate a matter of such gravity to the highest levels, 
including the President and the Members of Congress.
    Third, I'm seeking a way to provide appropriate 
compensation to those detainees who suffered such grievous and 
brutal abuse and cruelty at the hands of a few members of the 
United States Armed Forces. It's the right thing to do.
    I wish we had known more, sooner, and been able to tell you 
more, sooner. But we didn't. Today, we'll have a full 
discussion of these terrible acts, but first let's take a step 
back for a moment. Within the constraints imposed on those of 
us in the chain of command, I have a few additional words.
    First, beyond abuse of prisoners, there are other photos 
that depict incidents of physical violence towards prisoners, 
acts that can only be described as blatantly sadistic, cruel, 
and inhuman. Second, there are many more photographs and, 
indeed, some videos. Congress and the American people and the 
rest of the world need to know this. In addition, the photos 
give these incidents a vividness--indeed, a horror--in the eyes 
of the world. Mr. Chairman, that's why this hearing today is 
important. That's why the actions we take in the days and weeks 
ahead are so important.
    However terrible the setback, this is also an occasion to 
demonstrate to the world the difference between those who 
believe in democracy and in human rights, and those who believe 
in rule by terrorist code. We value human life. We believe in 
individual freedom and in the rule of law. For those beliefs, 
we send men and women of the Armed Forces abroad to protect 
that right for our own people and to give others, who aren't 
Americans, the hope of a future of freedom. Part of that 
mission, part of what we believe in, is making sure that when 
wrongdoings or scandals do occur, that they're not covered up, 
but they are exposed, they are investigated, and the guilty are 
brought to justice.
    Mr. Chairman, I know you join me today in saying to the 
world, ``Judge us by our actions. Watch how Americans, watch 
how a democracy, deals with wrongdoing and with scandal and the 
pain of acknowledging and correcting our own mistakes and our 
own weaknesses.''
    After they have seen America in action, then ask those who 
teach resentment and hatred of America if our behavior doesn't 
give the lie to the falsehood and the slander they speak about 
our people and about our way of life. Ask them if the resolve 
of Americans in crisis and difficulty and, yes, in the 
heartbreak of acknowledging the evil in our midst, doesn't have 
meaning far beyond their hatred.
    Above all, ask them if the willingness of Americans to 
acknowledge their own failures before humanity doesn't light 
the world as surely as the great ideas and beliefs that made 
this Nation a beacon of hope and liberty for all who strive to 
be free.
    We know what the terrorists will do. We know they will try 
to exploit all that is bad, and try to obscure all that is 
good. That's their nature. That's the nature of those who think 
they can kill innocent men, women, and children to gratify 
their own cruel will to power. We say to the world, ``We will 
strive to do our best, as imperfect as it may be.''
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Rumsfeld follows:]
             Prepared Statement by Hon. Donald H. Rumsfeld
    Mr. Chairman, members of the committee--thank you for the 
opportunity to testify today.
    In recent days, there has been a good deal of discussion about who 
bears responsibility for the terrible activities that took place at Abu 
Ghraib. These events occurred on my watch. As Secretary of Defense, I 
am accountable for them. I take full responsibility. It is my 
obligation to evaluate what happened, to make sure those who have 
committed wrongdoing are brought to justice, and to make changes as 
needed to see that it doesn't happen again.
    I feel terrible about what happened to these Iraqi detainees. They 
are human beings. They were in U.S. custody. Our country had an 
obligation to treat them right. We didn't do that. That was wrong.
    To those Iraqis who were mistreated by members of the U.S. Armed 
Forces, I offer my deepest apology. It was un-American. It was 
inconsistent with the values of our Nation.
    Further, I deeply regret the damage that has been done:

        <bullet> First, to the reputation of the honorable men and 
        women of our Armed Forces who are courageously, skillfully and 
        responsibly defending our freedom across the globe. They are 
        truly wonderful human beings, and their families and loved ones 
        can be enormously proud of them.
        <bullet> Second, to the President, Congress, and the American 
        people. I wish we had been able to convey to them the gravity 
        of this was before we saw it in the media;
        <bullet> Third, to the Iraqi people, whose trust in our 
        coalition has been shaken; and finally
        <bullet> To the reputation of our country.

    The photographic depictions of U.S. military personnel that the 
public has seen have unquestionably offended and outraged everyone in 
the Department of Defense (DOD).
    If you could have seen the anguished expressions on the faces of 
those of us in the Department upon seeing the photos, you would know 
how we feel today.
    We take this seriously. It should not have happened. Any wrongdoers 
need to be punished, procedures evaluated, and problems corrected.
    It's important for the American people and the world to know that 
while these terrible acts were perpetrated by a small number of the 
U.S. military, they were also brought to light by the honorable and 
responsible actions of other military personnel. There are many who did 
their duty professionally and we should mention that as well:

        <bullet> First the soldier, Specialist Joseph Darby, who 
        alerted the appropriate authorities that abuses of detainees 
        were occurring. My thanks and appreciation to him for his 
        courage and his values.
        <bullet> Second, those in the military chain of command who 
        acted promptly upon learning of those activities by initiating 
        a series of investigations--criminal and administrative--to 
        ensure that the abuses were stopped, that the responsible chain 
        of command was relieved and replaced, and that the Uniform Code 
        of Military Justice (UCMJ) was followed;
        <bullet> Third, units singled out for praise in General 
        Taguba's report for the care they provided detainees in their 
        custody and their intolerance of abuses by others;
        <bullet> Finally, the Central Command (CENTCOM) chain of 
        command for taking action and publicly announcing to the world 
        that investigations of abuse were underway.

    The American people and members of the committee deserve an 
accounting of what has happened and what's being done to fix it.
    Gathered today are the senior military officials with 
responsibility in the care and treatment of detainees.
    The responsibility for training falls to the U.S. Army. The 
responsibility for the actions and conduct of forces in Iraq falls to 
the combatant commander. The ultimate responsibility for the DOD rests 
with me.
    Each of us has had a strong interest in getting the facts out to 
the American people.
    We want you to know the facts. I want you to have all the 
documentation and the data you require. If some material is classified, 
we will ensure members get an opportunity to see it privately.
    Having said that, all the facts that may be of interest are not yet 
in hand. In addition to the Taguba Report, there are other 
investigations underway. We will make the results of these 
investigations available to you. But because all the facts are not in 
hand, there will be corrections and clarifications to the record as 
more information is learned. If we have something to add later, we'll 
do so. If we find something that we've said that needs to be corrected, 
we'll correct it.
    From the other witnesses here, you will be told the sequence of 
events and investigations that have taken place since these activities 
first came to light.
    What I want to do is inform you of the measures underway to remedy 
some of the damage done and to improve our performance in the future.
    Before I do that, let me make one further note: As members of this 
committee are aware, each of us at this table is either in the chain of 
command or has senior responsibilities in the DOD. This means that 
anything we say publicly could have an impact on legal proceedings 
against those accused of wrongdoing in this matter. Our responsibility 
at this hearing, and in our public comments, is to conduct ourselves 
consistent with that well known fact. So please understand that if some 
of our responses are measured, it is to ensure that pending cases are 
not jeopardized by seeming to exert ``command influence'' and that the 
rights of any accused are protected.
    Now let me tell you the measures we are taking to deal with this 
issue.
    When this incident came to light and was reported within the chain 
of command, we took several immediate actions. These will be discussed 
in detail by others here today, but let me highlight them.

        <bullet> General Sanchez launched a criminal investigation 
        immediately.
        <bullet> He then asked for an administrative review of 
        procedures at the Abu Ghraib facility. That is the so-called 
        Taguba Report.

    These two investigations have resulted thus far in criminal or 
administrative actions against at least 12 individuals, including the 
relief of the prison chain of command and criminal referrals of several 
soldiers directly involved in abuse.

        <bullet> The Army also launched an Inspector General (IG) 
        review of detainee operations throughout Afghanistan and Iraq. 
        That review continues.
        <bullet> The Army has initiated an investigation of Reserve 
        training with respect to military intelligence (MI) and police 
        functions.
        <bullet> General Sanchez also asked for an Army Intelligence 
        review of the circumstances discussed in General Taguba's 
        report and that is ongoing.
        <bullet> I also asked the Navy IG to review procedures at 
        Guantanamo and the Charleston Naval Brig.

    As these investigations mature, we will endeavor to keep you 
informed. But there is more to be done.
    First, to ensure we have a handle on the scope of this catastrophe, 
I will be announcing today the appointment of several senior former 
officials who are being asked to examine the pace, breadth, and 
thoroughness of the existing investigations, and to determine whether 
additional investigations need to be initiated.

    [Clarifying information provided by the DOD follows:]

    Charter for Independent Panel to Review DOD Detention Operations 
was signed on May 12, 2004. It allots a timeframe to provide advice 
``preferably within 45 days'' after beginning the review. The panel has 
announced that it will present its final report on August 18, 2004, 
with the caveat that it could be modified at a later date to reflect 
the results of reports or investigations completed after that date.
    They are being asked to report their findings within 45 days of 
taking up their duties. I am confident these distinguished individuals 
will provide a full and fair assessment of what has been done thus 
far--and recommend whether further steps may be necessary.
    I will encourage them to meet with Members of Congress to keep them 
appraised of their progress. I look forward to their suggestions and 
recommendations.
    Second, we need to review our habits and procedures. One of the 
things we've tried to do since September 11 is to get the DOD to adjust 
its habits and procedures at a time of war, and in the information age. 
For the past 3 years, we have looked for areas where adjustments were 
needed, and regrettably, we have now found another one.
    Let me be clear. I failed to identify the catastrophic damage that 
the allegations of abuse could do to our operations in the theater, to 
the safety of our troops in the field, the cause to which we are 
committed. When these allegations first surfaced, I failed to recognize 
how important it was to elevate a matter of such gravity to the highest 
levels, including leaders in Congress. Nor did we anticipate that a 
classified investigation report that had not yet been delivered to the 
senior levels of the DOD would be given to the media. That was my 
failing.
    In the future, we will take whatever steps are necessary to elevate 
to the appropriate levels charges of this magnitude.
    Third, I am seeking a way to provide appropriate compensation to 
those detainees who suffered grievous and brutal abuse and cruelty at 
the hands of a few members of the U.S. military. It is the right thing 
to do. I'm told we have the ability to do so. So we will--one way or 
another.
    One of the great strengths of our Nation is its ability to 
recognize failures, deal with them, and to strive to make things 
better. Indeed, the openness with which these problems are being dealt 
is one of the strengths of our free society. Democracies are imperfect, 
because they are made up of human beings who are, by our nature, 
imperfect. Of course, we wish that every person in our Government and 
our Armed Forces would conduct themselves in accordance with the 
highest standards of ethics. But the reality is some do not.
    One mistake we have made during our initial investigation into 
these charges, for example, was failing to sufficiently call to your 
attention the information made public in the CENTCOM press release 
regarding the investigations they had initiated back in January. We 
also failed to sufficiently call your attention and brief you on the 
preliminary findings of the criminal investigation announced on March 
20 by General Kimmitt. I am advised the Army has had periodic meetings 
to inform congressional staffs.
    There are indications that the information provided was penetrating 
at some level, however. On January 20, for example, CNN reported that a 
criminal investigation division (CID) investigation was being conducted 
into allegations of detainee abuse at Abu Ghraib, and mentioned the 
possible existence of photographs taken of detainees.
    Nonetheless, I know that we did not fully brief you on this subject 
along the way and we should have done so.
    I wish we would have known more sooner and been able to tell you 
more sooner. But we didn't. For that, I apologize.
    We need to discuss a better way to keep you informed about matters 
of such gravity in the future.
    The fact that abuses take place--in the military, in law 
enforcement, and in our society--is not surprising. But the standard by 
which our country and our Government should be judged is not by whether 
abuses take place, but rather how our Nation deals with them. We are 
dealing with them forthrightly. These incidents are being investigated 
and any found to have committed crimes or misconduct will receive the 
appropriate justice. Most of the time, at least, the system works.
    None of this is meant to diminish the gravity of the recent 
situation at Abu Ghraib. To the contrary, that is precisely why these 
abuses are so damaging--because they can be used by the enemies of our 
country to undermine our mission and spread the false impression that 
such conduct is the rule and not the exception--when, in fact, the 
opposite is true.
    Which is why it is so important that we investigate them publicly 
and openly, and hold people accountable in similar fashion. That is 
exactly what we are doing.
Questions
    When we first were told about these activities and saw those 
photographs, I and everyone at this table was as shocked and stunned as 
you were.
    In the period since, a number of questions have been raised--here 
in Congress, in the media, and by the public. Let me respond to some of 
them.
    Some have asked: Why weren't those charged with guarding prisoners 
properly trained?
    If one looks at the behavior depicted in those photos, it is fair 
to ask: what kind of training could one possibly provide that would 
stop people from doing that? Either you learn that in life, or you 
don't. If someone doesn't know that doing what is shown in those photos 
is wrong, cruel, brutal, indecent, and against American values, I am at 
a loss as to what kind of training could be provided to teach them.
    The fact is, the vast majority of the people in the United States 
Armed Forces are decent, honorable individuals who know right from 
wrong, and conduct themselves in a manner that is in keeping with the 
spirit and values of our country. There is only a very small minority 
who do not.
    Some have asked: Hasn't a climate allowing for abuses to occur been 
created because of a decision to ``disregard'' the Geneva Conventions?
    No. Indeed, the U.S. Government recognized that the Geneva 
Conventions apply in Iraq, and the Armed Forces are obliged to follow 
them. DOD personnel are trained in the law of war, including the Geneva 
Conventions. Doctrine requires that they follow those rules and report, 
investigate, and take corrective action to remedy violations.
    We did conclude that our war against al Qaeda is not governed 
precisely by the Conventions, but nevertheless announced that detained 
individuals would be treated consistent with the principles of the 
Geneva Conventions.
    Some have asked: Can we repair the damage done to our credibility 
in the region?
    I hope so and I believe so. We have to trust that in the course of 
events the truth will eventually come out. The truth is that the United 
States is a liberator, not a conqueror. Our people are devoted to 
freedom and democracy, not enslavement or oppression.
    Every day, these men and women risk their lives to protect the 
Iraqi people and help them build a more hopeful future. They have 
liberated 25 million people; dismantled two terrorist regimes; and 
battled an enemy that shows no compassion or respect for innocent human 
life.
    These men and women, and the families who love and support them, 
deserve better than to have their sacrifices on behalf of our country 
sullied by the despicable actions of a few. To that vast majority of 
our soldiers abroad, I extend my support and my appreciation for their 
truly outstanding service.
    One final thought:
    Today we'll have a full discussion of this terrible incident and I 
welcome that. But first, let's take a step back for a moment.
    Within the constraints imposed on those of us in the chain of 
command, I want to say a few additional words.
    First, beyond abuse of prisoners, we have seen photos that depict 
incidents of physical violence towards prisoners--acts that may be 
described as blatantly sadistic, cruel, and inhuman.
    Second, the individuals who took the photos took many more.
    The ramifications of these two facts are far reaching.
    Congress and the American people and the rest of the world need to 
know this.
    In addition, the photos give these incidents a vividness--indeed a 
horror--in the eyes of the world.
    Mr. Chairman, that is why this hearing today is important. That is 
why the actions we take in the days and weeks ahead are so important.
    Because however terrible the setback, this is also an occasion to 
demonstrate to the world the difference between those who believe in 
democracy and human rights and those who believe in rule by the 
terrorist code.
    We value human life; we believe in their right to individual 
freedom and the rule of law.
    For those beliefs we send the men and women in the Armed Forces 
abroad--to protect that right for our own people and to give millions 
of others who aren't Americans the hope of a future of freedom.
    Part of that mission--part of what we believe in--is making sure 
that when wrongdoing or scandal occur that they are not covered up, but 
exposed, investigated, publicly disclosed--and the guilty brought to 
justice.
    Mr. Chairman, I know you join me today in saying to the world: 
Judge us by our actions. Watch how Americans, watch how a democracy 
deals with wrongdoing and scandal and the pain of acknowledging and 
correcting our own mistakes and weaknesses.
    After they have seen America in action, then ask those who preach 
resentment and hatred of America if our behavior doesn't give the lie 
to the falsehood and slander they speak about our people and way of 
life. Ask them if the resolve of Americans in crisis and difficulty--
and, yes, the heartache of acknowledging the evil in our midst--doesn't 
have meaning far beyond their code of hatred.
    Above all, ask them if the willingness of Americans to acknowledge 
their own failures before humanity doesn't light the world as surely as 
the great ideas and beliefs that first made this Nation a beacon of 
hope and liberty to all who strive to be free.
    We know what the terrorists will do. We know they will try to 
exploit all that is bad to obscure all that is good. That is the nature 
of evil. That is the nature of those who think they can kill innocent 
men, women and children to gratify their own cruel will to power.
    We say to the enemies of humanity and freedom: Do your worst, 
because we will strive to do our best. I thank you Mr. Chairman. My 
colleagues each have a brief statement.

    Chairman Warner. Thank you, Mr. Secretary.
    You and I have had the privilege to know each other for 
many years. We've enjoyed a close working relationship. I want 
to say, I found that statement to be strong and, in every 
sense, heartfelt by you.
    Secretary Rumsfeld. Thank you.
    Chairman Warner. General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Mr. Chairman and Senator Levin, I would like 
to express my deep regret at being here under these 
circumstances. The incidents of prisoner abuse that occurred at 
Abu Ghraib prison are absolutely appalling. The actions of 
those involved are unconscionable and absolutely unacceptable.
    Since Brigadier General Kimmitt's public announcement of 
the allegations back in January, the commanders' response to 
the problems highlighted in these investigations has been 
timely and thorough. Just as a backdrop, we must also realize 
that our commanders had been handling some enormous challenges 
in Iraq, including the fighting that had intensified in 
Fallujah and in Najaf, the temporary plus-up of troops, which 
was a decision that was pending, and the departure of the 
Spanish brigade, all at the same time that they were dealing 
with some of these reports. Despite these extraordinary events, 
our commanders did exactly the right thing in a timely manner. 
I have great confidence in them, as should the American public 
and the citizens of Iraq.
    I've been receiving regular updates since the situation 
developed in January, and I've been involved in corrective 
actions and personally recommended specific steps. Again, I'm 
confident that the commanders are doing the right things.
    One of the military's greatest strengths comes from the 
fact that we hold our service men and women accountable for 
their actions. Our military justice system works very well. I 
took an oath to support the Constitution, and with that comes 
the responsibility to ensure that all military members enjoy 
the full protections of our Constitution, to include the due 
process of a fair judicial system. After all, it is respect for 
the rule of law that we're trying to teach and instill in 
places like Afghanistan and Iraq. So, as the Secretary said, we 
are now in the middle of a judicial process regarding detainee 
abuse. Because of my position, I have to be careful to not say 
anything that can be interpreted as direction or pressure for a 
certain outcome in any of these cases.
    Moreover, we have to understand that a fair judicial system 
takes time to work. I know you all understand that. No one is 
stalling or covering up information, but it's absolutely 
essential to protect the integrity of our judicial system. I 
have complete confidence in our military justice system. The 
accused will receive due process. Those found guilty will 
receive punishments based on their offenses.
    When I spoke to Dan Rather, with whom I already had a 
professional association, concerning the ``60 Minutes'' story, 
I did so after talking to General Abizaid, and I did so out of 
concern for the lives of our troops.
    The story about the abuse was already public, but we were 
concerned that broadcasting the actual pictures would further 
inflame the tense situation that existed then in Iraq, and 
further endanger the lives of coalition soldiers and hostages. 
Again, it's useful to remember the context here. We were in the 
midst of some very heavy fighting in Fallujah and other places 
in Iraq, and some 90 hostages had been taken. It was a very 
delicate situation that we were trying to resolve.
    Since the story of the photographs was already public, I 
felt we were on good ground in asking him to hold off airing 
the actual photos. As we are now seeing, the photos are having 
a very real, very emotional worldwide impact. I would identify 
myself with the Secretary's remarks on having seen more of them 
than I wish to have seen. They have had quite an impact on me.
    This situation is nothing less than tragic. The Iraqi 
people are trying to build a free and open society, and I 
regret they saw such a flagrant violation of the very 
principles that are the cornerstone of such a society.
    I am also terribly saddened that the hundreds of thousands 
of service men and women who are serving, or who have served, 
so honorably in Iraq and Afghanistan and elsewhere would have 
their reputation tarnished and their accomplishments diminished 
by those few who don't uphold our military's values. I know our 
service men and women are all suffering unfairly with a 
collective sense of shame over what has happened. Their 
credibility will be restored day by day as they interact with 
the Iraqi people, and I'm confident that our dedicated service 
men and women will continue to prove worthy of the trust and 
respect of our Nation and of the world. We continue to be very 
proud of them. As always, I thank you, on their behalf, for 
your steadfast support.
    Thank you.
    Chairman Warner. Thank you, General. That was a good 
statement.
    Secretary Brownlee, do you wish to----
    Mr. Brownlee. I think General Smith's going next.
    Chairman Warner. You defer to General Smith?
    Secretary Rumsfeld. Yes, sir.
    Chairman Warner. Fine, thank you.

 STATEMENT OF LT. GEN. LANCE L. SMITH, USAF, DEPUTY COMMANDER, 
                 UNITED STATES CENTRAL COMMAND

    General Smith. Senator Warner, Senator Levin, members of 
the committee, I wish to start by thanking you for the 
opportunity to testify before this committee concerning the 
mistreatment of Iraqi detainees.
    The more than 250,000 soldiers, sailors, airmen, and 
marines who have served in the CENTCOM area of responsibility 
(AOR) over the past year have faced numerous challenges in 
prosecuting the global war on terror and Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF). Throughout 
these operations, they have worked to better the lives of the 
people of Afghanistan and Iraq, to bring progress and stability 
to these countries. Their efforts, however, have been put at 
risk by the reprehensible actions of a few. These few have 
acted in a manner that is inconsistent with the proud history 
of the American soldier. There is no excuse for their actions, 
nor do I offer one. Their unprofessional and malicious conduct 
has caused considerable harm to our attempts to win the trust 
and confidence of the Iraqi people. Unfortunately, it has also 
facilitated the efforts of our enemy to malign our national 
intent and character, and gives weight to the charge of 
American hypocrisy.
    When the allegations of abuse and improper conduct of U.S. 
forces against legally detained Iraqis were brought to light by 
a soldier on January 13, 2004, our leadership in Iraq prudently 
informed us of what they knew and immediately initiated a 
criminal investigation. That investigation has resulted in 
preferral of charges against six service members, three of 
which have, thus far, been referred to courts-martial, and we 
are still investigating further allegations of criminal 
misconduct.
    At the request of the Commander, Joint Task Force 7 (CJTF-
7) on January 24, CENTCOM directed the conduct of a broader 
administrative investigation, now known as the Taguba Report, 
with the mandate to make a comprehensive examination of our 
detainee operations in Iraq in order to detect any systemic 
problems, and, if problems were identified, to take necessary 
steps to rectify the situation and hold accountable all those 
responsible who failed in their duties. That investigation is 
near completion, and we have already made significant progress 
in implementing its recommendations, but we have more ahead of 
us.
    Information flow up and down the chain of command was 
timely, and will continue to be. Commanders regularly brief 
their superiors as these investigations progress. The first 
public release of information on the Criminal Investigation 
Division (CID) investigation happened in January, and was 
reported by the media. The interim results of the Taguba Report 
were briefed to me in late March as the investigation made its 
way through command channels en route to approval by the 
Coalition Force Land Component Commander on April 6, and formal 
adverse administrative action by the CJTF on May 1. The 
investigation is ongoing.
    Some have asked why it took so long for the allegations to 
make it up the chain of command. One needs to look at this as a 
legal proceeding. Once the allegations were made, the 
investigation was initiated immediately. Evidence was gathered, 
people were questioned, and a number were removed from their 
posts. As with any prosecution, materials and evidence were 
kept within the investigatory chain, for obvious reasons: to 
maintain confidentiality, to protect individual rights, and to 
allow the investigation to proceed without danger of exposure 
to those being investigated.
    The actions of the chain of command in Iraq in conducting 
the investigations connected with detainee abuse or 
mistreatment have been swift, circumspect, and proper. They 
have carefully uncovered facts, analyzed evidence, and gauged 
the context of the situation, all the while under the stress of 
ongoing combat operations, and ever mindful of protecting the 
rights of the accused. Commanders are taking action both to 
ensure justice is done and to ensure that this kind of 
deplorable conduct is never repeated.
    With regards to the question of whether this abuse is 
systemic, the investigations underway should better inform us 
on that. At this point, we don't know, and that's part of what 
we're trying to determine by conducting investigations. When we 
have answers, we will provide them.
    The Taguba Report, in fact, highlights three units for 
praise for their performance of military detention duties. That 
is a hopeful sign that these abuses are not widespread, and I 
don't believe they are.
    The vast majority of coalition and U.S. forces have shown 
great humanity and restraint in this, and have acted with 
courage and compassion. The situation at Abu Ghraib is not 
representative of the conduct of U.S. and coalition forces. It 
is a distasteful and criminal aberration, and will absolutely 
not be tolerated. We deeply regret that these egregious actions 
occurred, and we are taking the necessary steps to preclude 
similar incidents in the future.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, General.
    Secretary Brownlee, we need to move on, but we certainly 
recognize that you might have a few opening remarks.
    Mr. Brownlee. Okay, sir. I'll go fast, sir.
    Chairman Warner. Thank you.

  STATEMENT OF HON. LES BROWNLEE, ACTING SECRETARY OF THE ARMY

    Mr. Brownlee. Chairman Warner, Senator Levin, and 
distinguished members of the committee, I appreciate the 
opportunity to be here today to offer testimony on actions 
taken by the Army in response to the appalling abuse of 
detainees at Abu Ghraib prison in Iraq. I join the Secretary of 
Defense in apologizing to those detainees who were abused 
there.
    Let me begin by outlining the range of investigations into 
detainee abuse. From December 2002 to present, the CID has 
conducted, or is continuing to conduct, investigations into 35 
cases of abuse or death of detainees held in detention 
facilities in the CENTCOM theater. Twenty-five of these are 
death cases, and 10 involve assault. The CID investigates every 
death in our custody.
    Of the 25 death investigations, the CID has determined that 
12 deaths were due to natural or undetermined causes, 1 was 
justifiable homicide, and 2 were homicides. The 10 remaining 
deaths are still under investigation.
    Additionally, 42 other potential cases of misconduct 
against civilians occurred outside the detention facilities and 
are currently under investigation by the Army CID or by the 
responsible units.
    On February 10, 2004, I directed the Inspector General (IG) 
of the Army to conduct a functional analysis of the 
Department's internment, enemy-prisoner-of-war (POW), and 
detention policies, practices, and procedures. I directed this 
inspection to determine if there might be systemic problems 
relating to the planning, doctrine, or training in the 
detention facilities operating within the CENTCOM theater. 
Phase 1 of this assessment is oriented on current operations in 
the CENTCOM AOR, with assessment-team visits to 16 detention 
facilities. Phase 2 of the IG assessment will encompass visits 
to defense facilities worldwide, including previously-visited 
facilities, to ensure compliance to established standards.
    Preliminary findings indicate that leaders and soldiers are 
aware of the requirement and expectation to treat detainees 
humanely, and that it is their duty to report incidents of 
abuse. To date, the majority of the abuse cases indicate the 
underlying cause has been twofold: an individual failure to 
adhere to basic standards of discipline, training, and Army 
values; and leadership failures to provide oversight and 
enforce standards.
    To date, the Army has taken numerous actions to improve the 
training for MPs and military intelligence (MI) soldiers. The 
Army is retraining select MP soldiers to serve as correctional 
specialists. We have incorporated detainee lessons learned from 
operations in both Iraq and Afghanistan into the MP school 
curriculum, and have deployed MP training teams to our combat 
training centers. In response to a request from the CJTF-7, the 
Army deployed integrated multi-discipline mobile training teams 
to oversee and conduct comprehensive training in all aspects of 
detainee and confinement operations in-theater.
    Additionally, the Chief of the Army Reserve has directed 
his IG to conduct a special assessment of training for Reserve 
personnel on the law of war, detainee treatment, ethics, and 
leadership. All Reserve component MI soldiers are now required 
to mobilize at the intelligence school at Fort Huachuca so they 
can receive the latest instruction on tactical questioning 
before deploying.
    Finally, the Army is improving the training of MP and MI 
personnel at our combat training centers by incorporating 
detainee holding situations into the tactical scenarios.
    These improvements were initiated for the later-deploying 
OIF, or OIF-2 units, and will be fully implemented for all OIF-
3 deploying units.
    The reported acts of detainee abuse at Abu Ghraib are 
tragic and disappointing, and they stand in sharp contrast to 
the values of our Army and the Nation it serves. For these 
incidents to reflect negatively on the courage, sacrifice, and 
selfless service of the hundreds of thousands of dedicated men 
and women who have volunteered to serve our Nation in uniform 
would be a tragedy, as well. Our soldiers, over 300,000 of whom 
are deployed in over 120 countries around the world, most in 
Iraq and Afghanistan, have provided the opportunity for freedom 
and democracy for over 46 million people who have never 
experienced it before, while, at the same time, providing 
protection to the American people.
    Mr. Chairman, we will find out how and why this happened, 
and ensure that those individuals determined to be responsible 
for these shameful and illegal acts of abuse are held 
accountable for their actions.
    I appreciate this opportunity to appear before you today. I 
thank you and the members of this distinguished committee for 
your continuing support of the men and women in our Army, and I 
look forward to answering your questions.
    Chairman Warner. Secretary Brownlee, your statement is very 
helpful, and a significant contribution to this hearing.
    General Schoomaker.

 STATEMENT OF GEN. PETER J. SCHOOMAKER, USA, CHIEF OF STAFF OF 
                            THE ARMY

    General Schoomaker. Chairman Warner, Senator Levin, 
distinguished members of the committee, I'll be brief.
    As the Chief of Staff of the Army, I am responsible for 
training and equipping our soldiers, as well as growing our 
Army leaders. I am also responsible for providing ready and 
relevant land power capabilities to the combatant commanders 
and the joint team. Although not in the operational chain of 
command, I am responsible for our soldiers' training and 
readiness; therefore, I take it personally when any of them 
fall short of our standards.
    To put it in perspective, what we are dealing with are the 
actions of a few, as has been pointed out. These are conscious 
actions that are contrary to all that we stand for. This is not 
a training issue, but one of character and values. Our Army 
values of loyalty, duty, respect, selfless service, honor, 
integrity, and personal courage are taught to our soldiers from 
the moment that they enter the training base. There's no 
question that potential consequences are serious, but we must 
not forget that these are a few among a great many others who 
are serving with great honor and sacrifice, as has been pointed 
out.
    We must be careful how we proceed, as it will affect the 
morale and the safety of a great majority of our soldiers who 
are meeting the standards and are daily placing themselves in 
harm's way. I promise you, they, too, take this personally.
    I am reminded that, in the report by Major General Taguba, 
he spoke of several soldiers and units who were challenged by 
the same set of demanding circumstances at the same place, and 
they did what was right. The inexcusable behavior of a few is 
not representative of the courageous and compassionate 
performance of the overwhelming majority of our soldiers who 
serve with pride and honor.
    We are currently undergoing an extensive investigation of 
every allegation. The system works, and will result in fairness 
and justice. We will also learn and adapt. Our Army has already 
taken corrective actions. Our soldiers are performing with 
distinction, and I am proud of them all. We owe them our 
confidence. Our Army is taking this very seriously, and will 
meet the standards that our Nation expects, as we have for 229 
years.
    Thank you.
    Chairman Warner. Thank you, General. That statement on 
leadership reflects your own strong record of leadership, and 
we're fortunate to have you at the helm of the United States 
Army today.
    We'll proceed with questions now. Colleagues, recognizing 
that almost the full membership of the committee is present, 
the chair will have to cut the time to 5 minutes.
    Mr. Secretary, I was particularly impressed by your phrase, 
``We're going to watch American democracy in action, as the 
President and all others address this problem swiftly, in 
accordance with the rule of law and American values.'' In the 
meantime, however, it's obvious to all of us that the impact of 
the facts of this case as they are unfolding is affecting our 
relationship with other nations, our foreign policy. So I ask 
you, what is that impact, as best you can assess it today? 
Second, will the impact of this situation affect, in any way, 
the transition that I and others support to take place on June 
30? Will it have any impact on other nations in the coalition 
to consider their continued participation at this time, and the 
chances of adding additional nations? Lastly, does it have any 
impact on the force levels that you anticipate, together with 
your on-scene commanders of CENTCOM, in the near future?
    Secretary Rumsfeld. Mr. Chairman, those are tough 
questions. I'm afraid no one has the ability to know precisely 
what will unfold. We have seen no shift in coalition countries, 
in answer to your first question.
    About future coalition countries, I think the key 
determinative there is whether or not we are successful in 
getting an additional United Nations (U.N.) resolution, in 
which case I think we will get additional countries to 
participate. It certainly will not have any effect on the 
determination to have sovereign responsibility assumed by 
Iraqis by June 30.
    I would just say one other thing. We have been enormously 
disadvantaged by false allegations and lies for the better part 
of a year--and, indeed, before that, with respect to 
Afghanistan--by terrorists and terrorist organizations alleging 
things that weren't true. So we have taken a beating in the 
world for things we were not doing that were alleged to be 
done. Now we're taking a beating, understandably, for things 
that did, in fact, happen.
    Chairman Warner. Thank you, sir.
    General Myers. Mr. Chairman, if I could just add to that. I 
just returned from a North Atlantic Treaty Organization (NATO) 
Military Committee meeting, and had the chance to talk to 
several of the countries that have major military units inside 
Iraq. They were very strong, in every case, about seeing this 
through, and seemed undeterred by any of the recent events. 
They were looking forward, and we were talking about the future 
and about their steadfastness in seeing this mission through.
    Chairman Warner. General, I direct my next question to you, 
because the Department of the Army has been in the forefront. 
CENTCOM, as we all know, is composed of officers--men, women--
of all branches of the Services. I would anticipate that you 
have consulted with your colleagues, not only on the Joint 
Chiefs, but particularly in CENTCOM, and that you are making, 
or have made and will continue to make, an assessment as to the 
possible personnel increase in the number of men and women of 
the Armed Forces, most particularly in Iraq, and perhaps 
elsewhere in the world. This story continues to reflect very 
deeply the thinking and actions of others.
    General Myers. Mr. Chairman, absolutely we will. We should 
not underestimate that impact. It was that impact of the 
pictures--the report of pictures was already out there. But the 
actual pictures possibly coming out on a news program, that 
prompted my call to try to delay their release. I thought those 
pictures, at that particular time, would have a particularly 
bad effect on our troops, perhaps resulting in death to our 
forces.
    I think we have a lot of troops in Iraq right now, after 
talking to General Smith and others, that are probably walking 
with--they're involved in combat, but they're walking with 
their heads just a little bit lower right now because they have 
to bear the brunt of what their colleagues up in Abu Ghraib 
did. It's going to take, as General Schoomaker said, good 
leadership and everything else we can do to get them back up on 
the net, because they are engaged in some very important work.
    As I said in my statement, I continue to think that the way 
we'll win their trust will be soldier by soldier, patrol by 
patrol, like we're winning the war over there, and we're just 
going to have to stay at it.
    Chairman Warner. Thank you. My time is expired.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Secretary Rumsfeld, I was struck by one of the photographs 
from the prison depicting three naked prisoners in a lump on 
the floor being overseen by a number of soldiers, while other 
soldiers in the cell block were assisting or were going about 
their business without any apparent interest in or concern 
about the obvious abusive treatment. It occurred to me that the 
conduct that we were witnessing and watching was not the 
aberrant conduct of a few individuals, but was part of an 
organized and conscious process to extract information.
    This picture reinforces the Taguba Report, which quotes 
Sergeant Davis as saying that he witnessed prisoners in the MI 
hold section, Wing 1A, ``being made to do various things that I 
would question, morally.'' He quoted the MI folks as saying, 
``loosen the guy up for us, make sure he has a bad night, make 
sure he gets the treatment.'' He further stated that the wing 
belonged to MI, and it appeared that MI personnel approved of 
the abuses.
    Now, in the Taguba Report itself, General Taguba says the 
following, and this is his finding, that ``military 
intelligence interrogators and other U.S. Government agency 
interrogators''--which I assume includes CIA--``actively 
requested that MP guards set physical and mental conditions for 
favorable interrogation of witnesses,'' and that personnel 
assigned to the MP company and brigade were ``directed to 
change facility procedures to set the conditions for military 
intelligence interrogations.''
    My question to you is, what were those changes that were 
made, and was it proper to make changes of the kind that 
General Taguba refers to?
    Secretary Rumsfeld. The conclusions you seem to have drawn 
in your question, Senator Levin, are issues that I believe are 
probably all being addressed in an investigation that was 
initiated last month. I think it's called the Fay 
Investigation--possibly you, General Smith, who have been 
involved in this, would want to comment.
    General Smith. Sir, there has been an investigation that 
was initiated in mid-April by Major General Fay, and it is to 
look into exactly those allegations.
    Senator Levin. All right.
    Secretary Rumsfeld, would you agree that people who 
authorized, or suggested, or prompted the conduct depicted in 
the pictures that we've seen, as well as those who carried out 
the abuses, must be held accountable? That anybody who 
authorized, knew about, prompted, or suggested, in the 
Intelligence Community or otherwise, that conduct must be held 
accountable? That's my very direct question to you.
    Secretary Rumsfeld. The pictures I've seen depict conduct 
and behavior that is so brutal and so cruel and so inhumane 
that anyone engaged in it or involved in it would have to be 
brought to justice.
    Senator Levin. Would that include anybody who suggested it, 
prompted it, or hinted at it directly or indirectly? I just 
want to know how far up this chain you're going to go. Are you 
going to limit this to people who perpetrated it, or are we 
going to get to the people who may have suggested it or 
encouraged it?
    Secretary Rumsfeld. That is exactly why the investigation 
was initiated, and that is why it's being brought forward. 
We'll find what their conclusions are, and I'm sure they will 
make recommendations with respect to prosecution.
    Senator Levin. But in terms of the standard, does anybody 
who recommended or suggested, directly or indirectly, that 
conduct in order to extract information--in your judgment, if 
that occurred, are they also violative of our laws and 
standards?
    Secretary Rumsfeld. Certainly, anyone who recommended the 
kind of behavior that I've seen depicted in those photos needs 
to be brought to justice.
    Chairman Warner. Thank you, Senator.
    Senator Levin. My time is up. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Secretary.
    I come to this hearing with a deep sense of sorrow and 
grave concern. Sorrow after the shock and anger of seeing these 
pictures for the first time, that so many brave young Americans 
who are fighting and dying are under this cloud. I attended the 
memorial service of Pat Tillman, a brave American who 
sacrificed his life recently. He and others, unfortunately, at 
least in some way, are diminished by this scandal.
    I'm gravely concerned that many Americans will have the 
same impulse I did when I saw these pictures, and that's to 
turn away from them. We risk losing public support for this 
conflict. As Americans turned away from the Vietnam War, they 
may turn away from this one unless this issue is resolved, with 
full disclosure, immediately.
    With all due respect to investigations ongoing and panels 
being appointed, the American people deserve immediate and full 
disclosure of all relevant information so that we can be 
assured and comforted that something that we never believed 
could happen will never happen again.
    Now, Mr. Secretary, I'd like you to give the committee the 
chain of command from the guards to you, all the way up.
    Secretary Rumsfeld. I think General Myers brought an 
indication of it, and we'll show it.
    Senator McCain. Thank you. I'd like to know what agencies 
or private contractors were in charge of interrogations. Did 
they have authority over the guards? What were their 
instructions to the guards?
    Secretary Rumsfeld. First, with respect to the----
    General Myers. We did not bring it.
    Secretary Rumsfeld. Oh, my.
    General Myers. Yeah, oh, my, sir.
    Secretary Rumsfeld. It was all prepared.
    General Myers. It was, indeed.
    Secretary Rumsfeld. Do you want to walk through it?
    Senator McCain. Well, anyway, who was in charge? What 
agency or private contractor was in charge of the 
interrogations? Did they have authority over the guards? What 
were the instructions that they gave to the guards?
    General Myers. I'll walk through the chain of command and--
--
    Senator McCain. No, you can just submit the chain of 
command for the record, please.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Secretary Rumsfeld. General Smith, do you want to respond?
    Senator McCain. No, Secretary Rumsfeld, in all due respect, 
you have to answer this question, and it could be satisfied 
with a phone call. This is a pretty simple, straightforward 
question.
    Who was in charge of the interrogations? What agencies and 
private contractors were in charge of the interrogations? Did 
they have authority over the guards? What were the instructions 
to the guards? This goes to the heart of this matter.
    Secretary Rumsfeld. It does, indeed. As I understand it, 
there were two contractor organizations. They supplied 
interrogators and linguists. I was advised by General Smith 
that there were maybe a total of 40.
    Senator McCain. Now, were they in charge of the 
interrogations?
    General Smith. Yes, sir. There were 37 interrogators that 
were----
    Senator McCain. I'm asking who was in charge of the 
interrogations.
    General Smith. They were not in charge. They were 
interrogators.
    Senator McCain. My question is, who was in charge of the 
interrogations?
    General Smith. The brigade commander for the MI brigade.
    Senator McCain. Did he also have authority over the guards?
    General Smith. Sir, he had tactical control over the 
guards, so he was----
    Senator McCain. Mr. Secretary, you can't answer these 
questions?
    Secretary Rumsfeld. I can. I thought the purpose of the 
question was to try to make sure we got an accurate 
presentation, and we have the expert here who was in the chain 
of command.
    Senator McCain. I think these are fundamental questions to 
this issue.
    Secretary Rumsfeld. Fine.
    Senator McCain. What were the instructions to the guards?
    Secretary Rumsfeld. There are two sets of responsibilities, 
as your question suggests. In one set, you have the people who 
have the responsibility for managing the detention process. 
They are not interrogators. The MI people, as General Smith has 
indicated, were the people who were in charge of the 
interrogation part of the process. The responsibility, as I 
have reviewed the matter, shifted over a period of time, and 
the General is capable of telling you when that responsibility 
shifted.
    [Clarifying information provided by the DOD follows:]

    The overall responsibility for the Baghdad Central Confinement 
Facility (Abu Ghraib) was transferred from the 800th MP Brigade to the 
205th MI Brigade by a CJTF-7 Fragmentary Order (FRAGO) on November 18, 
2003. In accordance with the order, the units operating at Abu Ghraib 
came under the tactical control of the 205th MI Brigade for security of 
detainees and FOB protection. The MP, however, retained responsibility 
for detention operations.

    Senator McCain. What were the instructions to the guards?
    Secretary Rumsfeld. That is what the investigation that I 
have indicated has been undertaken is determining.
    Senator McCain. Mr. Secretary, that's a very simple, 
straightforward question.
    Secretary Rumsfeld. As the Chief of Staff of the Army can 
tell you, the guards are trained to guard people. They are not 
trained to interrogate, and their instructions are to, in the 
case of Iraq, adhere to the Geneva Conventions. The Geneva 
Conventions apply to all of the individuals there, in one way 
or another. They apply to the POWs, and they're written out, 
and they're instructed, and the people in the Army train them 
to that. The people in the CENTCOM have the responsibility of 
seeing that, in fact, their conduct is consistent with the 
Geneva Conventions. The criminals in the same detention 
facility are handled under a different provision of the Geneva 
Conventions. I believe it's the fourth, and the prior one is 
the third.
    [Clarifying information provided by the DOD follows:]

    Detaines who are criminals, persons who attack the force and 
civilians who are security threats are called ``civilian internees'' 
and are protected persons under Geneva Convention IV. Geneva Convention 
IV applies to all categories of civilian personnel we have detained in 
Iraq.

    Senator McCain. So the guards were instructed to treat the 
prisoners, under some kind of changing authority, as I 
understand it, according to the Geneva Conventions.
    Secretary Rumsfeld. Absolutely.
    Senator McCain. I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. Thank you, Mr. 
Chairman.
    To the people in the Middle East, and too often today, the 
symbol of America is not the Statue of Liberty, it's the 
prisoner standing on a box wearing a dark cape and a dark hood 
on his head with wires attached to his body, afraid that he's 
going to be electrocuted. Now, these incidents of torture and 
abuse have resulted in a catastrophic crisis of credibility for 
our Nation.
    Since the beginning of the war, the International Committee 
of the Red Cross (ICRC) has provided the Pentagon officials 
with reports of abuses at this prison, saying that some of them 
were tantamount to torture. They issued serious complaints 
during the inspection of the prison in October 2003 and at 
several other times.
    The State Department and the Coalition Provisional 
Authority (CPA) appealed to you to stop the mistreatment of the 
military detainees. Secretary Powell raised this issue at 
Cabinet meetings and elsewhere, pleading with officials from 
your Department, Mr. Secretary, to see that detainees were 
properly cared for and treated, and your Department failed to 
act.
    The military leadership put the troops in charge of the 
prison. They weren't trained to do the job, and they assigned 
far too few guards to the prison that were required to do the 
job right. They relied on the civilian contractors to perform 
military duties, as I understand it, including the 
interrogation of Iraqi prisoners. As Senator Levin pointed out, 
the top-level DOD officials directed guards at the prison to 
set physical and mental conditions for favorable interrogation 
of the detainees, a decision that directly resulted in the 
abuses.
    The military leadership failed to respond in a systematic 
way even after it initiated the 35 criminal investigations into 
alleged mistreatment of detainees in Iraq and Afghanistan, 25 
of these investigations involving deaths. I know that Secretary 
Brownlee referred to this.
    In particular, in December 2002, military doctors at the 
Bagram Air Base in Afghanistan ruled that two Afghan men in 
U.S. custody died from blunt-force injuries. No one in the 
military has been held accountable for those homicides.
    You and your senior leadership have shown, I believe, a 
disregard for the protection of the Geneva Conventions in 
detainee operations. In January 2002, you were asked why you 
believed the Geneva Conventions do not apply to detainees in 
Guantanamo. You replied that you did not have the slightest 
concern about their treatment, in light of what occurred 
September 11.
    According to The New York Times, you have known about the 
graphic photographic evidence of abuse in the Abu Ghraib prison 
since mid-January. You told President Bush about these reports 
of abuse shortly thereafter. Yet, rather than work with 
Congress to deal with the problem together, you and other top 
DOD officials have apparently spent the last 3 weeks preparing 
a public relations plan.
    Can you tell us what exactly you did tell the President 
about these reports of abuse in late January, and what did he 
say? What did you do about it, and why did month after month 
after month have to pass before anything happened? Then we find 
out that the pictures came out, and the President is, indeed, 
angry.
    Secretary Rumsfeld. First, Senator Kennedy, your statement 
that other agencies of government were concerned about 
detainees and the DOD failed to act is simply not correct.
    Senator Kennedy. This wasn't brought to your attention by 
the State Department?
    Secretary Rumsfeld. I'll respond. I did not say that. I 
said your statement that the DOD----
    Senator Kennedy. It was brought to you then by the State 
Department. We don't want to parse words. Was this brought to 
you by the State Department? I mentioned Secretary Powell. The 
question is whether this was brought to you, and when did you 
know it? You gave us a laundry list in your presentation about 
the timeline on it. I'm trying to find out, because it's been 
published that you were notified about this and advised to do 
something about it a series of times and nothing was done.
    Secretary Rumsfeld. It's not correct to say nothing was 
done. You're making a set of conclusions that are just simply 
not accurate. We have had numerous discussions, interagency, on 
detainees. All in all, there have been some 43,000 people who 
were captured or detained in Iraq, of whom 31,850 have already 
been released. That is a big task for the Army to undertake. 
The actions of the ICRC--you said they came in and indicated 
concerns about the Abu Ghraib prison. That's correct. The 
prison officials began the process of making corrections, and 
General Taguba's report found that a number of those things 
were already underway, in terms of corrections. When he made 
his study, a number of additional things and corrections were 
made. So it seems to me that the ICRC report was helpful, and 
that the military command, as I understand it, undertook a 
series of corrections.
    Now, with respect to when we were knowledgeable of this, 
the situation was this. Specialist Darby told the CID that he 
had information about abuses in the prison. I believe it was on 
the 13th or 14th of January. By the 15th or 16th, an 
investigation had been initiated, and CENTCOM's public affairs 
people went out and told everyone in the world that there were 
allegations of abuse, and they were being investigated. Again, 
by mid-March, when some criminal--I don't know the legal term, 
but some criminal actions were initiated--the CENTCOM's public 
affairs people went out again and announced that not only were 
there allegations of abuses, but they listed the types of 
abuses. This was to the world; everyone knew it. CNN was there 
asking questions. That is the time frame when General Myers and 
I were meeting with the President and discussing the reports 
that we had obviously heard because--they weren't hiding 
anything. They disclosed it to the world.
    Chairman Warner. Thank you, Senator.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. I mean, in no 
way, to diminish the seriousness of what has occurred here, but 
it seems very clear to me that the task before Congress is to 
determine whether or not these abuses are the result of flaws 
in the system or if this was a matter, as has been indicated, 
of individuals who simply broke the rules.
    With that in mind, I'd like to know, Mr. Secretary, were 
any of the abuses that occurred in Iraq encouraged, condoned, 
or permitted by DOD regulations or policy? Were any local or 
unit-levels in effect that would have encouraged, condoned, or 
permitted these abuses?
    Secretary Rumsfeld. Certainly not to my knowledge. When one 
looks at the abuses and the cruelty, the idea that you would 
have regulations that would permit, condone, or encourage that 
type of thing is just not comprehensible. General Smith is the 
deputy at CENTCOM, under General Abizaid, and he is responsible 
for the management of the guidance and instructions. He can 
respond if you'd like.
    Senator Roberts. No, I think you've answered the question, 
at least to the degree that I want it answered right now. I 
want to move on.
    I do have the privilege of being the chairman of the Senate 
Intelligence Committee. Three days ago, we had a hearing. We 
had the MI representatives there. We had the CIA there. They 
indicated, at that particular time, that they did not know and 
had no evidence of any direction on the part of intelligence 
personnel at this prison suggesting that they commit these 
abuses at the behest of the military interrogators, who asked 
the MP to ``soften up'' the detainees to prepare them for the 
interrogation. This gets back to the opening statement by 
Senator Levin and the question by Senator McCain.
    Let me remind everybody that, as we speak, we have men and 
women in uniform engaged in combat in Najaf, and basically when 
we interrogate people, it is to get information from the 
prisoners, in terms of force protection and in terms of the 
mission in Iraq, to find out precisely what's going on. It's a 
very important mission. It was a closed hearing, but I said at 
the time that I would be stunned--and I've said it to the 
press--that anybody in MI would condone these kind of 
activities. This criteria is ingrained, in terms of their 
training. It's black and white.
    So my question to you is--and I think it is going to result 
in the Fay Report here--is there any truth to the allegations 
made in the press and by some of the accused MPs that they did 
commit these abuses at the behest of the military 
interrogators?
    Secretary Rumsfeld. I've read the same allegations and 
comments that you have. That is what the criminal 
investigations are looking at, among other things. We will, at 
an early date, know what the answers are to those questions.
    Senator Roberts. Can you give me a time frame on when the 
Fay Report will be completed?
    General Smith. Sir, it should be completed in the next 
couple of weeks, if he does not ask for an extension. Part of 
the problem is, that unit has redeployed back to Germany, and 
so there is traveling back and forth involved.
    Senator Roberts. That would help answer the question that 
was asked by Senator McCain as to actually who was ``in 
charge'' of that prison. I put the ``in charge'' in quotes. You 
had the intelligence, and then you also had the MPs, in terms 
of the maintenance of the unit, and then it seems to me that 
there's another command that you mentioned, in terms of the 
contractors.
    I think Senator McCain's question is right on. Who was 
really in charge? I think you have a tri-part system here. Is 
that being fixed? Will that be recommended by the Fay Report?
    General Smith. Sir, that's already been fixed with the 
appointment of Major General Geoff Miller as the----
    Senator Roberts. He's the person that straightened out 
Guantanamo Bay down in Cuba.
    General Smith. Sir, he is there doing that right now. He 
has been there since the middle of April.
    Senator Roberts. I thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Byrd.
    Senator Byrd. Mr. Chairman, thank you for calling this 
timely and important hearing. I apologize for my voice. I've 
been struggling with a bout of laryngitis.
    I share your outrage over the atrocities that have emerged 
from the Abu Ghraib prison. I believe Congress has the 
responsibility to demand a public accounting and a public 
explanation from the leadership of the DOD. I'm sure this is 
only the beginning of a long and painful process, but I am glad 
that you've taken the first steps to begin a necessary public 
examination of the massive policy failure that led to this 
catastrophe.
    Among the many aspects of this situation that are so 
troubling to me is why the President and his advisors are only 
now publicly condemning the prisoner abuses in Iraq, when 
apparently the DOD has known about them for months. I do not 
recall hearing a peep out of either of you, Secretary Rumsfeld 
or General Myers, about this before CBS broke the silence.
    Why did it take the televised broadcast of graphic photos 
of prisoner abuse, a broadcast General Myers has acknowledged 
he tried to suppress, to galvanize the leadership of the DOD to 
express its outrage over the situation?
    Why was a report that described sadistic, blatant, and 
wanton criminal abuses by American soldiers left to languish on 
a shelf in the Pentagon unread by the top leadership until the 
media revealed it to the world? Why wasn't Congress appraised 
of the findings of this report from the DOD instead of from CBS 
News?
    Mr. Secretary, it was President Truman who was said to have 
displayed the famous sign on his desk, ``The buck stops here.'' 
I served with President Truman. He was an honorable man. He did 
not shirk his responsibility.
    I see a very different pattern in this administration. I 
see arrogance and a disdain for Congress. I see misplaced 
bravado and an unwillingness to admit mistakes. I see finger-
pointing and excuses.
    Given the catastrophic impact that this scandal has had on 
the world community, how can the United States ever repair its 
credibility? How are we supposed to convince not only the Iraqi 
people, but also the rest of the world, that America is, 
indeed, a liberator and not a conqueror, not an arrogant power? 
Is a presidential apology to the King of Jordan sufficient? I 
ask you that question.
    Secretary Rumsfeld. Senator, the facts are somewhat 
different than that. The story was broken by CENTCOM, by the 
DOD, in Baghdad. General Kimmitt stood up, in January, and 
announced that there were allegations of abuses and that they 
were being investigated. He then briefed reporters. I think it 
was March 20. There's a timeline up here. By March 20, he went 
back out again and said that these had been filed.
    The idea that this was a story that was broken by the media 
is simply not the fact. This was presented by CENTCOM to the 
world so that they would be aware of the fact that these had 
been filed. What was not known is that a classified report with 
photographs would be given to the press before it arrived in 
the Pentagon.
    Senator Byrd. Mr. Secretary, we'll put my timeline in the 
record and compare it with yours.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Byrd. My question is, is a presidential apology to 
the King of Jordan sufficient?
    Secretary Rumsfeld. Senator, I guess that's for the 
President and Congress and others to decide. There have been 
many apologies. There have been apologies by every person at 
this table today. Any suggestion that there is not a full, deep 
awareness of what has happened and the damage it has done, I 
think, would be a misunderstanding.
    The report that we're talking about is sitting right there 
on the floor. It is--I don't know--what, 2-feet high?
    Senator Byrd. Did you read it?
    Secretary Rumsfeld. I read the executive summary, which is 
50 to 75 pages, and I looked at some of the annexes and 
appendices and references. I have been briefed on it in full, 
as have the people at this table, and you can be certain of 
that.
    Senator Byrd. The ICRC claims that it made reports of 
prisoner abuse in Iraq throughout 2003. I understand that those 
reports are confidential, by mutual agreement. Secretary 
Rumsfeld, how do we know that there isn't a broader problem 
here? We have heard reports of prisoner abuse from more than 
just the Abu Ghraib prison. Will you ask the ICRC to waive its 
confidentiality agreement on those reports, and make public all 
pertinent reports on U.S. military-run prison facilities, 
including those in Iraq, Afghanistan, Guantanamo, and 
elsewhere?
    Secretary Rumsfeld. We will certainly be happy to provide 
the committee with all the reports that we have. I think the 
issue of the ICRC allowing one of their reports to be made 
public is an issue for them, because they worry that they will 
not be told the truth when they go into countries where there 
are dictatorships and where people are systematically punished 
and tortured, and people do not want to talk to them if the 
ICRC gets a reputation for making their report public. So we 
will be happy to give you our reports, on a confidential basis 
that is respectful of the ICRC's stipulations.
    Chairman Warner. Thank you very much, Senator.
    Senator Byrd. May I just follow with a postscript?
    Chairman Warner. All right, Senator.
    Senator Byrd. With all due respect to you, the matter is 
far deeper than that. The American people need to know what's 
in those reports. When the ICRC supplies the DOD with those 
reports, Congress should have that material.
    Secretary Rumsfeld. We'd be happy to give it to you.
    Senator Byrd. Very well, thank you.
    Chairman Warner. Thank you.
    Senator Allard.
    Senator Allard. Mr. Chairman, first of all I want to thank 
you for holding this committee hearing. I know there was some 
discussion about the format and everything, but I think it's 
the right thing to do to have this as an open hearing. I want 
to also thank the panel for agreeing to come here and testify 
before us in an open hearing. That's the strength of America, 
that we're willing to come out in a public manner and talk 
about our strengths and weaknesses, and lay out how we're going 
to deal with those. As somebody who has participated in this, I 
think that we are sending a good message to the world that we 
are open; that we are not a perfect people, but we do our best. 
I just wanted to make that statement before I asked any 
questions.
    The thing that I heard in your testimony, Mr. Secretary--
and I think it needs to be elaborated on--is this issue of 
command influence. I know that as the facts become evident, 
that prosecutors of misconduct in the military have a real 
concern about command influence. I would like you to elaborate 
more on that, or maybe some other panel members might elaborate 
on that, and how that might affect a case for prosecution. You 
mentioned you had six courts-martial, I believe, and I wondered 
if you would share that with the committee.
    Secretary Rumsfeld. We are continuously advised by lawyers, 
counsels, that there are two issues that create a tension. One 
is the importance of having integrity in the criminal 
prosecution process, and that people in the chain of command 
that conceivably, over time, would be called upon to make a 
judgment about the decisions at the lower levels do not inject 
themselves into that process early or in a way that would lead 
people to believe that their comments were influencing the 
outcome of some of those criminal decisions or other decisions. 
Therefore, people in the chain are in a difficult position. To 
the extent we have a discussion like this about what's taken 
place, we can be certain that the defense counsels for these 
people who are being accused, and are going to be criminally 
prosecuted, will say that these hearings and this discussion 
had an influence on the case. We don't want to have that be the 
case, and that's why we're being careful in what we say.
    The other side of the coin is, we don't want someone's 
rights to be infringed upon, someone who is a defendant and may 
be innocent. A process could lead to a situation where their 
rights would not be fully protected. So we do have to be 
careful.
    Senator Allard. If there are six courts-martial now, do you 
anticipate there will be more courts-martial? Have any of those 
in command been indicted?
    Secretary Rumsfeld. I checked, and last year we had 
something like 18,000 criminal investigations opened, and we 
ended up with 3,000 courts-martial. So, at any given time, with 
a large organization like the DOD, there is always something 
happening.
    There is no way in the world I could anticipate. But the 
investigations are open, the investigators are determined, and, 
to the extent they find information that leads them to believe 
that a court-martial is indicated, or non-judicial punishment 
of other types, they certainly will do so. They understand the 
gravity of this.
    Senator Allard. I want to follow up on the ICRC report. 
Were they given full access? What main issues did that report 
raise?
    Secretary Rumsfeld. I have the report somewhere here, and 
I'd be happy to let you see it. I'm reluctant to start 
discussing it, but I can say what I already said, that they 
found a number of things that they were concerned about, as 
they always do. It's helpful, I must say. The people then began 
to read it, agree or disagree, and make the changes. When 
General Taguba came in and made his report, he indicated that a 
number of the issues that had been raised last year by the ICRC 
had, in fact, been corrected by the command structure between 
the time that they were observed by the ICRC and the time that 
General Taguba's team arrived on the scene.
    Senator Allard. Mr. Chairman, my time is expired. I do have 
a written statement for the record.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman. Let me first join you in welcoming our 
witnesses this morning to discuss the troubling issue of prisoner abuse 
involving our Armed Forces.
    I am deeply saddened and distressed over these allegations. When we 
commit our military to fight our country's wars, we fully expect each 
and every American soldier to serve as the model soldier-statesman, a 
standard bearer for people everywhere. Our American forces are to be 
feared for their unmatched effectiveness and valor in combat. More 
importantly, they are to be respected and valued for their humanitarian 
and compassionate conduct when carrying out their duties.
    We are at a delicate phase now, introducing to the Afghanis and 
Iraqis the promises of a democracy and the better times ahead. A major 
part of our difficulty is the fact that these people simply do not yet 
know what democracy holds for them--they have yet to experience the 
freedoms and justice that Americans take for granted.
    Today, we rely on our Armed Forces to set this stage, to help these 
emerging democracies take root. What is so disturbing is that these 
allegations erode, to the core, the basic principles of liberty we so 
desperately need to instill and uphold across this region.
    Based on my preliminary readings, Mr. Chairman, I don't believe we 
will uncover systemic problems in our military of wanton disregard for 
either the rule of law or general human rights. Rather, I believe the 
committee will see, in painful detail, a case study of the 
extraordinary damage that can occur when we experience such a 
disastrous breakdown in military leadership and discipline. It is of 
small consolation that there were many solid, upstanding soldiers in 
the middle of this leadership void that maintained their military 
bearing, sought command attention for these violations, and carried-on 
in accordance with the high professional standards we all expect.
    I find it extremely unfortunate that the activities of so few are 
now overshadowing the extraordinary accomplishments of so many. I 
visited both Afghanistan and Iraq earlier this year, and got to see 
firsthand many of our 130,000 uniformed service men and women 
undertaking heroic public works projects. General Smith's Central 
Command is engaged in building mosques, schools, hospitals, roadways, 
water, and sewage facilities, and other critical infrastructure 
desperately needed across the region. Now, however, we have a small 
minority of apparently misled, misfit commanders and soldiers casting a 
negative light over what should be, and what I hope will ultimately be, 
a proud accomplishment for our forces.
    Mr. Secretary and Chairman Myers, I understand the scope of your 
job and responsibilities are enormous. I believe that comprehensive 
remedies to this situation need to be among your top priorities. Let's 
get out in the open the relevant information and answers we need to 
close this issue soonest. Let's get the solutions and preventive 
measures identified and in place soonest. Let's get the few soldiers 
and commanders--those that let us all down--before the appropriate 
judicial process and punish the guilty accordingly.

    Chairman Warner. Thank you very much.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Mr. Secretary, the behavior by Americans at the prison in 
Iraq is, as we all acknowledge, immoral, intolerable, and un-
American. It deserves the apology that you have given today, as 
well as the apologies that have been given by others in high 
positions in our Government and our military.
    I cannot help but say, however, that those who were 
responsible for killing 3,000 Americans on September 11, 2001, 
never apologized. Those who have killed hundreds of Americans 
in uniform in Iraq, working to liberate Iraq and protect our 
security, have never apologized. Those who murdered and burned 
and humiliated four Americans in Fallujah a while ago never 
gave an apology to anybody. Wrongs occurred here by the people 
in those pictures and perhaps by people up the chain of 
command.
    But Americans are different. That's why we're outraged by 
this. That's why the apologies were due. That's why I hope, as 
we go about this investigation, we do it in a way that does not 
dishonor the hundreds of thousands of Americans in uniform who 
are a lot more like Pat Tillman and Americans that are not 
known, like Army National Guard Sergeant Felix del Greco, of 
Simsbury, Connecticut, who was killed in action a few weeks 
ago. We shall not dishonor their service or discredit the cause 
that brought us to send them to Iraq, because it remains one 
that is just and necessary.
    We have to get to the whole truth here, and nothing but the 
truth. We can't be defensive. We have to be aggressive about 
it. As Senator McCain said, we have to do it quickly so that we 
and you and, most of all, our soldiers can get back to fighting 
and winning the war on terrorism with determination.
    As far as I'm concerned, we do have to know how this 
happened, and we have to know it so we can stop it from 
happening ever again. You've said that the behavior of those 
soldiers was fundamentally un-American. I agree with you. This 
goes way back to the first American declaration, the 
Declaration of Independence, where we said that every human 
being has those rights as an endowment of our Creator. That 
even goes to human beings who have been apprehended by our 
military, as they have been in Iraq, because they are suspected 
of being part of the terrorists, of the jihadists, of the 
foreign fighters, of the Saddam loyalists, who are killing 
Americans and Iraqis every day.
    We know that people are flawed, and that's why we believe 
in the rule of law, to try to make us better and punish those 
who fall below appropriate humane standards.
    In that regard, it seems to me when it comes to the 
treatment of prisoners and detainees in conditions of combat, 
the Geneva Conventions, adopted by the United States as the law 
of the land--and that have been implemented by U.S. Army 
Regulation 190-8. You made some controversial statements early 
on, after Afghanistan, that said the Geneva Conventions were 
``not relevant here,'' that, ``by and large''--and I'm quoting 
generally--``American military interrogators or prison guards 
would try to carry out the rights of prisoners and detainees 
according to the Geneva Conventions.'' But I want to ask you 
today, as you look back to that, do you think you were right? 
Did anything replace the rules of the Geneva Conventions in 
Army Regulation 190-8? If not, why not?
    Secretary Rumsfeld. Senator, the President of the United 
States made a determination in early 2002 that the Geneva 
Conventions' provisions did not apply to our conflict with al 
Qaeda, although he concluded that Geneva Conventions did apply 
to the conflict with the Taliban. That was a decision by the 
President. He determined that Taliban detainees did not qualify 
as POWs under the third Geneva Convention criteria for POWs. He 
also made clear that it was, and will continue to be, America's 
policy to treat detainees humanely and in a manner that was 
consistent with the Geneva Conventions. So the people were 
treated consistent to the Geneva Conventions, but he made a 
distinction with respect to al Qaeda.
    Senator Lieberman. Are these detainees, do you assume, 
members of al Qaeda? That is, the thousands that have been held 
in Iraq? Or are they in another status?
    Secretary Rumsfeld. Oh, no, the President announced from 
the outset that everyone in Iraq who was a military person and 
was detained is a POW, and, therefore, the Geneva Conventions 
apply. Second, the decision was made that the civilians or 
criminal elements that are detainees are also treated subject 
to the Geneva Conventions, although it's a different element of 
it. I think it's the fourth instead of the third.
    Senator Lieberman. I appreciate that clarification, because 
I was not aware of that. Then you would say that all those held 
in prison, including those who were abused here, had the rights 
of POWs under the Geneva Conventions.
    General Myers. Absolutely.
    [Clarifying information from the DOD follows:]

    All detainees held in Iraq are protected under the Geneva 
Conventions. Enemy POWs are covered under Geneva Convention III. 
Civilians are protected under Geneva Convention IV. Those pictured in 
the photographs from Abu Ghraib are believed to be civilians.

    Senator Lieberman. Therefore, the fault clearly was that 
those we've seen, and hopefully not others, were either not 
properly trained, properly disciplined, or, in any case, not 
observing the law of the United States of America with regard 
to the rights of POWs.
    General Myers. If I may, I think that's exactly right. It's 
aberrant behavior. The Taguba Report, if you recall, looked at 
four installations where the 800th MP Brigade had operations. 
They found abuse in only one, and that's Abu Ghraib. They found 
abuse in one.
    Senator Lieberman. My time's up. Thank you.
    Chairman Warner. Thank you very much.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    These are, indeed, actions that go against the very core 
values of America. I want to say, however, that I believe the 
military responded properly immediately. I want to join with 
Senator Lieberman's courageous and strong comments about how we 
do not need to dishonor the soldiers out there this very day, 
at risk of their lives, withholding firing weapons, being in 
hostile situations, taking chances with their own lives to 
protect the people of Iraq. Yes, this is a serious problem, and 
we need to do something about it. Those who dishonored those 
soldiers need to be punished. But I feel very strongly that the 
military deserves a lot of credit here, and I want to go over 
this chart, General Myers, that you have there.
    First, I want to say to Secretary Rumsfeld and all of you 
there, thank you for your leadership. Yes, you have some 
complainers in Congress, but we voted to send our soldiers to 
this effort. Nobody else authorized you to go. We voted to 
support it. I would also note that the terrorists aren't happy 
with you, either. I saw they put a $15 million bounty on your 
head, along with General Kimmitt and General Sanchez. I thank 
you for that service.
    General Myers. Senator Sessions, you want me to go through 
the----
    Senator Sessions. I would just like to ask you a little bit 
about it, because our time is short.
    General Myers. Right.
    Senator Sessions. As I see it, back in August of last year 
you appointed an assessment team. Is that right? Long before 
this occurred.
    General Myers. Right. As I said in my opening statement, I 
think we ought to have a lot of confidence in our military 
leadership handling the detention situation in Iraq. It was on 
August 11 that General Sanchez was worried about detention and 
interrogation operations, and that resulted in General Miller 
going over there and submitting a report.
    We pushed General Miller on them in August 2003 because he 
was so successful in Guantanamo--to look at our detention 
operations to make sure that we're doing it right, and also 
that it's well connected, that the intelligence is getting to 
the analysts and so forth, so we can win this.
    Senator Sessions. Now, was this in response to any incident 
or was it on your own initiative?
    General Myers. That was our own initiative. That was a 
discussion between the Secretary and myself and our staffs.
    You can see from the chart when the abuse took place. We 
were told of the abuse on January 13, 2004. The next day, the 
Army police, the CID, went on that particular case. We talked 
about the press.
    Senator Sessions. No, let's slow down. On January 14, you 
started a criminal investigation based on the complaint of one 
soldier.
    General Myers. They did.
    Senator Sessions. On January 16, Major General Kimmitt 
briefed the world about the investigation commencing. Is that 
correct?
    General Myers. Right, and he talked about abuse. As I 
remember it, he said there may be pictures involved with this 
abuse, as well. Then it was 3 days later where General 
Sanchez--based on that criminal investigation he had started--
asked for an investigating officer who turned out to be General 
Taguba. The general was asked to look at this MP brigade that 
was responsible for detention operations in Abu Ghraib and 
those three other locations.
    I know we need to do things quickly with full disclosure 
and everything. But this 15-6 Report, the Taguba Report, can 
result in administrative actions such as relief from command 
and other administrative admonishments to military personnel. 
So it has to be very thorough. That's why you'll see it was 
requested on January 16. It was not approved by General Sanchez 
until May 1. As you go through the various chains, the people 
that are implicated in wrongdoing have a chance to look at the 
report and rebut the report. That's part of this process that I 
think we owe it to our troops to uphold.
    Senator Sessions. But, General Myers, on January 18, 
according to that chart, the 320th MP Battalion had leadership 
suspended. Is that correct?
    General Myers. That's correct.
    Senator Sessions. That's a pretty dramatic action to take, 
is it not?
    General Myers. It is. But the first look by the Army CID, I 
think, gave them indications that things were not right.
    Senator Sessions. Now, this wasn't by any pressure from the 
media or anyone else; this was the military's own decision that 
their high standards had been violated, and that strong actions 
should be taken.
    General Myers. This was General Abizaid, General Sanchez, 
and their folks, absolutely.
    Senator Sessions. I know some on this committee have 
complained when you took strong action against the brigade 
commander publicly, the soldier who fired a weapon as part of 
an interrogation effort. He had a fine record. You took strong 
action on that case, and some of us in Congress complained you 
were too tough.
    General Myers. The standards are the standards, Senator.
    Chairman Warner. Thank you very much, Senator.
    Senator Sessions. We thank you for your service, all of 
you.
    Chairman Warner. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    Let me begin by stating the obvious. For the next 50 years, 
in the Islamic world and many other parts of the world, the 
image of the United States will be that of an American dragging 
a prostrate, naked Iraqi across the floor on a leash. This is 
unfair to the honor and the courage to our soldiers, but, 
unfortunately, I think it's become a fact. This is disastrous.
    Mr. Secretary, let me follow up on your proposed 
commission. As I understand your comments, this commission, or 
this group of people, will not have the authority to call 
witnesses to obtain material independent of your investigation. 
They will simply review what you're doing?
    Secretary Rumsfeld. We will be happy to give you a copy of 
the draft charge to the individuals. They will have, I can 
assure you, the absolute full cooperation of the DOD.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Reed. Will they have the opportunity to call 
individuals to testify?
    Secretary Rumsfeld. Indeed.
    Senator Reed. Thank you.
    Secretary Rumsfeld. I wouldn't use the word ``testify,'' 
but certainly they can call individuals.
    Senator Reed. Mr. Secretary, the Taguba Report indicated 
the principle focus of Major General Miller's team was on the 
strategic interrogation of detainees in Iraq. Among its 
conclusions in its executive summary was that CJTF-7 did not 
have authorities and procedures in place to effect a unified 
strategy to detain, interrogate, and report information from 
detainees/internees in Iraq. The executive summary also stated 
that detention operations must act as an enabler for 
interrogation.
    Major General Miller was involved with Guantanamo, a DOD 
operation in another theater. He was sent to Iraq. I don't 
think major generals in the United States Army make up policies 
about strategic interrogation of detainees unless they've 
coordinated and communicated to the higher headquarters. Did 
you ever see, approve, or encourage this policy of enabling for 
interrogation? Did Secretary Cambone ever see, approve, or 
encourage this policy at either facility?
    Secretary Rumsfeld. I don't recall that a policy came to me 
for approval. I think that what we have known since September 
11 is that we had three issues with respect to people that were 
detained. One issue was to get them off the street so they 
can't kill again--more innocent men, women, and children. A 
second was the question of criminal prosecution for wrongdoing. 
The third was to interrogate and see if additional information 
could be found that could prevent future terrorist acts against 
our country or our forces or our friends and allies. So all of 
those things have been parts of it since the beginning. They're 
different functions, as you point out.
    Senator Reed. Is that Secretary Cambone's view, too? Did he 
either see, approve, or encourage--he's behind you. Can he 
respond?
    Secretary Rumsfeld. Sure he can respond.
    Mr. Cambone. Sir, the original----
    Chairman Warner. Would you identify yourself for the 
record, please?
    Mr. Cambone. Yes, sir. My name is Steve Cambone. I'm the 
Under Secretary of Defense for Intelligence, Senator.
    The original effort by Major General Miller was done with 
respect to Guantanamo, and had to do with, in fact, whether or 
not we had the proper arrangements in the facilities in order 
to be able to gain the kind of intelligence we were looking 
from those prisoners in Guantanamo. We had then, in Iraq, a 
large body of people who had been captured on the battlefield 
that we had to gain intelligence from for force-protection 
purposes, and he was asked to go over, at my encouragement, to 
take a look at the situation as it existed there. He made his 
recommendations.
    Senator Reed. Were the recommendations made to you, Mr. 
Secretary? Did you approve them?
    Mr. Cambone. To me directly? No. They were made to the 
command.
    Senator Reed. But you were aware of the recommendations 
about enabling interrogation?
    Mr. Cambone. I was aware of those recommendations. I was 
aware that he made the recommendation that we get a better 
coordination between those who are being held and those who 
were being interrogated.
    Senator Reed. Mr. Secretary, were you aware that a specific 
recommendation was to use MPs to enable an interrogation 
process?
    Mr. Cambone. In that precise language, no; but I knew that 
we were trying to get to the point where we were assuring that 
when they were in the general population, those that were under 
confinement were not undermining the interrogation process.
    Senator Reed. So this was Major General Miller's own 
policy?
    Mr. Cambone. No, sir, it was not a policy; it was a 
recommendation that he made to the command.
    Senator Reed. So General Sanchez adopted this policy, 
making it a policy of the United States Army and the DOD, 
without consultation with you on any specific----
    Mr. Cambone. Sir, I don't think that's a proper rendering 
of it.
    Senator Reed. I don't know what the proper rendering is, 
but that seems to be at the core of this issue. Were you 
encouraging a policy that had MP officers enabling 
interrogations, which created the situation where these----
    Mr. Cambone. No, sir.
    Secretary Rumsfeld. May I comment? I think it is probably 
best put this way. They are different responsibilities, 
detaining and interrogating. However, they do need to be looked 
at together. They found, in Guantanamo, that how they are 
detained, in terms of the rhythm of their lives, can affect the 
interrogation process. So the linkage between the two is 
desirable if, in fact, you're concerned about finding more 
information that can prevent additional terrorist acts or, in 
the case of Iraq, the killing of our forces. So it's important 
that there be a linkage, a relationship. The way it can be put 
is that it has a bad connotation. Goodness knows, that's not 
desirable or a policy that General Miller would have 
recommended.
    On the other hand, it can----
    Senator Reed. The policy seems to be to link----
    Chairman Warner. Senator, I have to ask if you would 
require the witnesses to provide further responses for the 
record.
    Senator Reed. Mr. Chairman, I will certainly ask for 
additional responses.
    Chairman Warner. Thank you very much.
    Senator Reed. Thank you.
    Chairman Warner. Senator Collins.
    Senator Collins. Mr. Secretary, the vast majority of 
American troops performed their duties with compassion, 
fairness, and courage. This abuse makes the tasks which they've 
been assigned far more difficult and far more dangerous, and 
that troubles me greatly. Worst of all, our Nation, a Nation 
that, to a degree unprecedented in human history, has 
sacrificed its blood and treasure to secure liberty and human 
rights around the world, now must try to convince the world 
that the horrific images on their TV screens and front pages 
are not the real America, that what they see is not who we are.
    That is why, Mr. Secretary, I'm so troubled by the 
Pentagon's failure to come forward to fully disclose this 
appalling abuse, to express outrage and concern, and to outline 
swift, tough, corrective actions. I believe that had you done 
that, it would have mitigated somewhat how this abuse has been 
perceived around the world, particularly in the Muslim 
communities. I'm not talking about issuing a press release from 
Baghdad. I'm talking about you personally coming forward and 
telling the world what you knew about this abuse.
    In retrospect, do you believe that you erred in not coming 
forward, not just to the President and Congress--you've made 
very clear today that you regret not doing that--but to the 
world community? Would it have made a difference if it had been 
the Pentagon itself that had disclosed the full extent of this 
abuse, whatever you knew, and what actions you were going to 
take?
    Secretary Rumsfeld. I think in my statement I responded in 
full to your question. I would characterize what was done in 
CENTCOM, by way of swift corrective action, as being just 
that--swift corrective action.
    Second, I don't know quite how to respond to your question. 
The DOD announced that abuse was being charged, there were 
criminal investigations underway. No one had seen the 
photographs. They were part of a criminal investigation, and I 
say no one in the Pentagon had seen them. They were part of 
that CENTCOM investigative process. It is the photographs that 
give one the vivid realization of what actually took place. 
Words don't do it. The words that there were abuses, that it 
was cruel, that it was inhumane, all of which is true--that it 
was blatant--you read that, and it's one thing. You see the 
photographs, and you get a sense of it, and you cannot help but 
be outraged.
    There are, at any given time, in the DOD, these 3,000 
courts-martial underway--general courts-martial, some 1,200; 
criminal investigations, 18,000 last year. The importance of 
protecting the people charged, protecting their rights, and the 
importance of seeing that if, in fact, they're guilty, they 
don't get off because of command influence--so there's a 
pattern of not reaching down into those things, bringing them 
up, and looking at all the evidence before it ever arrives. In 
this case, it was released to the press.
    Now, we announced the problem to the press. We did not 
release the Taguba Report to the press. That was done by 
someone, to release, against the law, a secret document. That's 
how it surprised everyone. It shocked Congress. It shocked me. 
It shocked the President. It shocked the country.
    But to suggest that they had not taken tough, swift, 
corrective actions in CENTCOM, it seems to me is inconsistent 
with what took place.
    Senator Collins. Mr. Secretary, that's not what I said. 
What I said is--and I have no doubt that the military is 
committed to swift corrective action--it's the disclosure of 
the abuse, and the promise to take those actions. That's where 
I feel the Pentagon fell short. I think that rather than 
calling CBS and asking for a delay in the airing of the 
pictures, it would have been far better if you, Mr. Secretary, 
with all respect, had come forward and told the world about 
these pictures and of your personal determination--a 
determination I know you have--to set matters right and to hold 
those responsible accountable.
    Secretary Rumsfeld. Senator Collins, I wish I had done 
that, as I said in my remarks. We have to find a better way to 
do it, but I wish I knew how you reach down into a criminal 
investigation when it is not just a criminal investigation, but 
it turns out to be something that is radioactive, something 
that has strategic impact in the world. We don't have those 
procedures. They've never been designed. We're functioning with 
peacetime constraints, with legal requirements, in a wartime 
situation, in the information age where people are running 
around with digital cameras and taking these unbelievable 
photographs, and then passing them off, against the law, to the 
media, to our surprise, when they had not even arrived in the 
Pentagon. There isn't a person at this table, except General 
Smith, who had even seen them.
    Chairman Warner. You're free to amplify that for the 
record, if you wish, Mr. Secretary.
    Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Secretary Rumsfeld, according to General Taguba's report, 
civilian contractors were found wandering around Abu Ghraib 
unsupervised and with free access to the detainee areas. I have 
two questions on that. What are the roles of the private 
contractors at this and other detention facilities in Iraq and 
Afghanistan? Who monitors and supervises these contracted 
employees?
    Secretary Rumsfeld. The answer is that the civilian 
contractors, as I indicated, numbered something like 37 in this 
particular facility. They tend to be interrogators and 
linguists. They're responsible to MI personnel who hire them 
and have the responsibility for supervising them.
    Mr. Brownlee. Sir, if I might?
    Senator Akaka. Secretary Brownlee.
    Mr. Brownlee. In the theater, we have employed civilian 
contract interrogators and linguists. CENTCOM has done this. 
These people have no supervisory responsibilities at all. They 
work under the supervision of officers or noncommissioned 
officers (NCOs) in charge of whatever team or unit they are on. 
They, most of them, are retired military, and they are usually 
of the skill that they retired in, and that's what they're 
employed for. They assist in these processes, but they are not 
in a supervisory role. In fact, they would be forbidden from 
doing that, because it would be inherently governmental.
    General Smith. Sir, I might add to that. In this particular 
case, there is a ``tiger team'' that interrogates and goes 
through that process. One is an interpreter, normally; one is 
an analyst; and one is an interrogator. Where we have shortages 
in the military of interrogators and translators, we go to 
contractors to do that.
    I gave the wrong numbers. The number of contractors we have 
with CACI for interrogators is 27. Then we have hundreds of 
translators that are under contract throughout the country, 
under Titan Corporation.
    Senator Akaka. Secretary Rumsfeld, the alleged abuse at 
this detention facility has been characterized as sadistic, 
blatant, wanton, and criminal abuse. So far, we have discussed 
allegations against military members. Are there allegations of 
abuse against contractors who are working with the military 
members? If so, are any of these allegations being 
investigated?
    Secretary Rumsfeld. My recollection is--and I think it's 
okay to say this--that the investigations are ongoing, and that 
time will tell.
    Go ahead, General.
    [Clarifying information from the DOD follows:]

    David Passaro, a CIA contractor, was indicted Thursday, June 17, 
2004, in connection with the beating death of a prisoner in 
Afghanistan. Passaro is the first civilian to face criminal charges 
related to U.S. treatment of prisoners in Afghanistan and Iraq.
    Information on two other CACI contractors (Steve Stepanowicz and 
John Israel) has been forwarded to the U.S. Attorney General's Office 
by the U.S. Army CID to determine whether evidence supports criminal 
charges against these two contractors.
    An ongoing investigation is reviewing the MI operations and 
includes a review of the actions of civilian contractors involved in 
interrogation activities.

    General Smith. Yes, sir. There are two contractors that are 
being investigated under the investigation for the MI brigade, 
and that is from the recommendation of the Taguba Report.
    Senator Akaka. Mr. Chairman, I want to say that I recently 
traveled to Iraq and Afghanistan, and I was so impressed with 
the professionalism of the men and women serving in our 
military who I had the opportunity to meet. I want to say that 
I am really proud of what they are doing there.
    General Myers, General Taguba's AR 15-6 Report finds a 
general lack of knowledge, implementation, and emphasis of 
basic legal, regulatory, doctrinal, and command requirements 
within the 800th MP brigade and its subordinate units. 
Understanding that there is an issue with authority between the 
MP and MI units at Abu Ghraib, how is it that an entire brigade 
could be deployed to Iraq and not train for their mission?
    Chairman Warner. Senator, I'll have to ask that General 
Myers provide his response for the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. I thank you for your cooperation.
    Senator Akaka. Thank you very much. Mr. Chairman, I have a 
written statement that I would like to submit for the record.
    Thank you for your responses.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement by Senator Daniel K. Akaka
    Thank you, Mr. Chairman. I want to take this opportunity to express 
my thoughts regarding the deplorable acts committed by soldiers at the 
Abu Ghraib prison. The graphic and disturbing acts that are depicted in 
these pictures are inexcusable. These actions have tarnished the heroic 
and patriotic acts performed by so many of our military members during 
this difficult war.
    I recently traveled to Iraq and Afghanistan. I was so impressed 
with the professionalism exhibited by the men and women serving in our 
military who I had the opportunity to meet. Unfortunately, the rest of 
the world and the Nation will not see or hear about these outstanding 
individuals. Instead these pictures published on the front pages of 
newspapers around the world depict our military members as thugs.
    This outcry has been exacerbated by the manner in which this 
situation has been handled. Members of Congress, even the President, 
according to media reports, learned about this situation from Dan 
Rather when ``60 Minutes II'' broadcast this story. I find this cloud 
of secrecy that continues to permeate the Department of Defense (DOD) 
disturbing and destructive. I find this cavalier attitude towards 
accountability and transparency to be a dereliction of duty and an 
abrogation of military and civilian control over the ``post-war'' 
situation.
    I find it amazing that Secretary Rumsfeld stated as late as Monday, 
May 3, 2004, that he had not yet read the AR 15-6 Report written by 
Major General Antonio Taguba which was submitted in March 2004. I find 
it unconscionable that soldiers being deployed to a war zone would not 
be provided with proper training pertaining to the treatment of 
detainees under the Uniform Code of Military Justice (UCMJ) and the 
Geneva Conventions.
    I am troubled by the apparent lack of accountability by DOD 
leadership. In my opinion, for these soldiers to be so cavalier and 
nonchalant as depicted in these photos, which had to have been taken by 
other detention facility personnel, tells me that such behavior was 
widespread and condoned in this prison.
    I remain concerned with the lack of supervision and discipline in 
this brigade and even more concerned with the unsupervised and 
unlimited access private contractors had inside this facility. I remain 
disturbed by the dismissive attitude exhibited by the civilian 
leadership in the Pentagon towards this situation which has undermined 
our military and damaged our country's reputation.

    Chairman Warner. Senator Graham is next.
    Senator Graham. Mr. Secretary, have you seen the video?
    Secretary Rumsfeld. I have not. The disk I saw that had 
photos on it did not have the videos on it. I checked with 
General Smith, and he indicates he does have a disk with the 
videos on it. I don't know if that means there are two disks 
with all these photographs, or if the photographs are the same, 
and one just doesn't have the video.
    Senator Graham. I mention that because I want to prepare 
the public. Apparently the worst is yet to come, potentially, 
in terms of disturbing events. We don't need to leave here 
thinking that we've seen the worst. There's more to come. Is 
that correct?
    Secretary Rumsfeld. I indicated in my remarks that there 
are a lot more pictures and many investigations underway.
    Senator Graham. My colleagues, rightly, want it done 
quickly, but my concern is to do it right. I don't want to rush 
to judgment here and let some people go that deserve to be 
prosecuted. I would be very disappointed if the only people 
prosecuted are sergeants and privates. That would be very bad, 
and sad. So I want it done right, and the sooner, the better. 
I'll pick right over sooner.
    I'm confused. General Smith, when did you first learn of 
these photos and see them yourself?
    General Smith. Sir, we knew that there were photos on 
January 14, because that's how the investigation started.
    Senator Graham. When did you see the photos?
    General Smith. CENTCOM headquarters received the photos 
towards the end of March. I first viewed the photos on May 6.
    Senator Graham. Who did you tell about the photos when you 
saw them?
    General Smith. Sir, that was part of the investigation, and 
that went forward.
    Senator Graham. Did it dawn on you that, when you saw these 
photos, ``We're in a world of hurt. This is going to look 
bad''?
    General Smith. Certainly, sir. If those were released, we 
certainly----
    Senator Graham. General Myers, when you called CBS, had you 
seen the photos?
    General Myers. No, I hadn't.
    Senator Graham. What had you been told about what CBS was 
about to air, and by who?
    General Myers. They were going to air the photos. We didn't 
talk about that with CBS. In our discussions back in January, 
when they said there were photos, they described them up 
through the chain of command to the Secretary, and I just 
happened to be there. It was discussed several times. The 
general nature of the photos, about nudity, some mock sexual 
acts, and other abuse, was described.
    Senator Graham. When you were informed that these photos, 
even though you hadn't seen them, were going to come out, who 
did you tell about that, and when?
    General Myers. There were a lot of people that knew, inside 
our building. The people that had been working with the media 
knew that there were photos out there, and the media was trying 
to get their hands on them from January on. So they had been 
working that for 3 months.
    Senator Graham. At that time, is it fair to say you knew 
there was a story about to come out that was going to create a 
real problem for us?
    General Myers. At that time, my concern was the impact it 
could have on our forces in Iraq. My focus at the time was, if 
these photos are revealed right now, given the intensity of 
operations, what could be that impact on our troops? My 
conclusion was, this would be the worst of all possible times 
for these to come forward; realizing that eventually they were 
going to come forward.
    Senator Graham. Did you feel a need to inform Congress or 
the President or the Secretary of Defense about the potential 
damage this could do?
    General Myers. We had discussed the potential damage back 
in January, February, and March. As we marched through those 
events on that chart, a lot of those events were based on our 
concern with where this might lead.
    Senator Graham. Long story short, I do trust the people in 
uniform to get it right, and I want to take the time necessary 
to make sure the people who are responsible are brought to 
justice, and anybody innocently accused has their day in court. 
You are right about that, Secretary Rumsfeld.
    Here's the problem. It doesn't take a rocket scientist to 
figure out the explosive nature of these photos, apart from 
court-martial, apart from legal proceedings. Most of us here 
found out about it on television. If we knew enough to say, 
``Don't air a show that's going to be bad,'' why did we not 
call the President and call senior Members of Congress to 
prepare us for what we were eventually going to see? That's the 
essence of my concern about all this.
    General Myers. Senator Graham, in my opinion we could have 
done a better job of informing Congress of these pictures and 
this situation.
    Senator Graham. That is a honest and fair answer.
    Secretary Rumsfeld, people are calling for your 
resignation. Somebody is drafting an article of impeachment 
against you right now. I have my own view about people who want 
to call for your resignation before you speak, but I'll leave 
that to myself. Do you have the ability, in your opinion, to 
come to Capitol Hill and carry the message and carry the water 
for the DOD? Do you believe, based on all the things that have 
happened and that will happen, that you're able to carry out 
your duties in a bipartisan manner? What do you say to those 
people who are calling for your resignation?
    Secretary Rumsfeld. I's a fair question. Certainly, since 
this firestorm has been raging, it's a question that I've given 
a lot of thought to. The key question for me is the one you 
posed, and that is whether or not I can be effective. We have 
tough tasks ahead. The people in the DOD, military and 
civilian, are doing enormously important work here, in 
countries all over the world. The issue is, can I be effective 
in assisting them in their important tasks? Needless to say, if 
I felt I could not be effective, I'd resign in a minute. I 
would not resign simply because people try to make a political 
issue out of it.
    Chairman Warner. Thank you, gentlemen.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, when did you first see the photos?
    Secretary Rumsfeld. Last night, at about 7:30. I had seen 
the ones in the press, I had seen the ones that are doctored 
slightly to suit people's taste. We had been trying to get one 
of the disks for days and days and days, and I'm told, by 
General Smith, that there were only a couple of these, that 
they were in the criminal investigation process. Dick Myers and 
I finally saw them last night.
    Senator Bill Nelson. Mr. Secretary, when did you first find 
out about the abuses?
    Secretary Rumsfeld. With everybody else, when they were 
announced by CENTCOM on January 16. They announced that they 
had a series of criminal investigations underway. They told the 
world, Congress, me, everyone else, that they were underway. 
Then they came back March 20 and said, ``Not only are they 
underway, but now we have specific charges.'' Then they 
detailed some abuses. You read it, as I said, and it's one 
thing; you see these photographs, and it's just unbelievable.
    Senator Bill Nelson. When did you first tell the President, 
Mr. Secretary?
    Secretary Rumsfeld. I don't know. Dick Myers and I see the 
President every week, and he recalls that sometime after we 
were apprised of it through the press, through CENTCOM's 
announcement, that it was brought up in one of our meetings. Do 
you recall?
    General Myers. I don't recall specifically, because I think 
the day it was brought up it was General Pete Pace that was 
standing in for me. But he remembers roughly when it was, 
within a week or so of when he was in that meeting and informed 
the President. They talked about it.
    Senator Bill Nelson. Was this back in January, Mr. 
Secretary?
    General Myers. I think General Pace would say early 
February. It could have been late January.
    Secretary Rumsfeld. I meet with the President once or twice 
a week. We cover 8, 10, 15 different points. General Myers or 
General Pace are generally there with me. I don't keep notes 
about what I do, and I just don't remember when it was.
    Senator Bill Nelson. When you all had this discussion with 
the President, what did the President say that you should do 
about those abuses?
    Secretary Rumsfeld. I don't know that I'm going to get into 
private discussions with the President. If I don't remember 
when it was, my guess is it was more an information item from 
us to him, where we were transmitting and saying, ``Here's the 
problem.'' The problem, at that stage, was one-dimensional; it 
wasn't three-dimensional, it wasn't video, it wasn't color. It 
was quite a different thing.
    As I indicated in my remarks, if there's a failure, it is 
me. It is my failure for not understanding and knowing that 
there were however many there are of these things that could 
eventually end up in the public and do the damage they've done. 
But I certainly never gave the President a briefing with the 
impact that one would have had, had you seen the photographs or 
the videos. Let there be no doubt about that. He was just as 
blindsided as Congress and me and everyone else.
    Senator Bill Nelson. Mr. Secretary, what are your 
instructions from the President to inform him of matters such 
as this?
    Secretary Rumsfeld. I don't know that I'm going to--we have 
had so many discussions, and clearly a Secretary of Defense has 
the responsibility to try to put himself in the shoes of the 
President and say, ``What ought a President know about all the 
tens of thousands of things that are happening in the DOD at 
any given time?'' We sit down every week, and General Myers and 
I go through all the things that we have going on, and we pick 
and choose. We say, ``What are the things that are appropriate? 
What do we owe him so that he can provide the kind of 
leadership that this country deserves? What is it that the 
Department's doing now that we can get in his head and apprise 
him of so that he knows about that?'' It may be a contingency 
plan, it may be a problem of personnel. It just runs the gamut.
    Chairman Warner. Thank you, Senator.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    I certainly want to echo the sentiments of my colleagues 
and the American people by saying that I am extremely 
disappointed that any American, and especially one in uniform, 
would mistreat or humiliate another human being and commit such 
atrocious acts.
    The acts depicted in those photographs shown around the 
world do not, in any way, represent the values of the United 
States of America or our Armed Forces. I know our military men 
and women serve their country with great honor.
    The abuse of these Iraqi detainees is a serious issue, not 
just because it violated human rights; it also tarnished our 
Nation's credibility. Furthermore, the inflammatory actions of 
a few have provided our enemies with a lucrative venue to 
question American values and our true intentions in the war on 
terror. Unfortunately, a breakdown of discipline, combined with 
a handful of morally deficient individuals, has resulted in 
serious implications for our national security and the security 
of over 130,000 service members striving to accomplish our 
goals in Iraq.
    Over the past year, through dedication and sacrifice and, I 
must emphasize, strong military leadership, our soldiers have 
made incredible breakthroughs. The United States and its allies 
have freed 50 million people from oppressive regimes, removed 
credible threats to our Nation's security, destroyed burgeoning 
terrorist incubators, and set two countries on the path to 
democratic and free market reform. In Iraq, 2,600 schools have 
been rehabilitated, and now more than 5\1/2\ million children 
are enriching their minds, free from the corruption of a 
repressive regime and its teachings. Women now have a voice in 
their own government. All 240 hospitals in Iraq are open. More 
than 1,200 clinics have been established. On the streets and in 
the countryside each day, our military medical professionals 
offer assistance to the citizens of Iraq, in addition to caring 
for their own. After 30 years of being denied the most 
fundamental freedoms, today more than 170 independent 
newspapers are operating throughout Iraq, providing each member 
of that country an opportunity to participate in free and 
robust debate, and, yes, the opportunity to view those 
horrendous pictures.
    Trust among the Iraqi people had slowly been established, 
bonds have been made, and, sadly for now, many of those bonds 
have been broken. This legislative body is absolutely correct 
in focusing on the root causes behind these instances of 
prisoner abuse, and doing everything within its power to ensure 
that such abuse never happens again. I would expect no less 
from the DOD. Transparency is of the utmost importance to our 
Nation's credibility and security.
    Fundamental to our success in the global war on terror is 
winning the hearts and minds of freedom-loving people who are 
held captive by a violent few. We are not company to that 
violent element, and we denounce anyone who is.
    Secretary Rumsfeld, the damage already done cannot be swept 
away, but it can be repaired. You touched briefly on your plan 
for a way ahead. Could you go into more detail on this plan? 
Will it require more or different troops, quicker processing of 
detainees, more Iraqi police involvement? You mentioned 
reparations. Could you please provide more details?
    Secretary Rumsfeld. I don't think I used the word 
``reparations.'' I hope I used the word ``compensation'' for 
the detainees who were cruelly treated. I am told that we have 
lawyers who have looked into it, and we believe there are 
authorities where we can do that. It is my intention to see 
that we do it, because it is the right thing to do.
    With respect to the processing of detainees, in Iraq a 
total of 43,671 were captured. We have released 27,796, and 
transferred 4,054. We currently detain something in the 
neighborhood of 11,821, which includes 3,842 of the so-called 
Majahedim-e Khalq Organization (MEK), who are really not 
detainees. They are in a separate status. So it's really closer 
to 7,000 or 8,000 that are currently detained.
    The key is to process them as rapidly as possible. General 
Miller, who was out there and has been addressing all of these 
things, also believes a key element is to see that they are 
properly identified, and that their families know they're 
there, and why they're there, and that it isn't mysterious, and 
that we continue to process them. The only people that need to 
be retained, obviously, are the ones that are either 
criminals--and that's a different category, and a number of 
them are--or they are individuals who are terrorists and need 
to be kept off the street, or they have intelligence value. The 
people have to find out what it is they know so we can track 
down the remaining remnants of the Baathist regime and the 
Fedayeen Saddam people, and the people that are out killing 
Iraqis--not just Americans and coalition people, but are 
killing Iraqis every single day in that country.
    Chairman Warner. Thank you very much, Senator.
    Senator Dole. Thank you.
    Chairman Warner. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and gentlemen, for being here today.
    First of all, I appreciate the apologies. Clearly, the 
President's apology, I think, is an important step in moving 
forward, as are the apologies of all of you today, and, I 
think, the apology of the American people, for these 
unfortunate incidents.
    I agree with my colleague from Connecticut that what this 
represents is so unfortunate that it somehow would adversely 
impact on the lives and the deaths of those who have served 
with such distinction for freedom in Iraq.
    Last night, I heard Secretary Armitage say that, ``We're in 
a bit of a hole.'' I think those are exact words. When you're 
in a hole, the first thing you have to do is stop digging. I 
hope that we have now gotten to the point where we've stopped 
digging, where we're not making matters worse.
    Mr. Secretary, you're right when you say there are times 
when words just simply don't do it justice. Pictures, and 
perhaps symbols, are more important for expressing or conveying 
thoughts or images. In this case, I think tearing down the 
statue of Saddam, statues all over Iraq, was a symbolic gesture 
to say that there was a new era. I wonder if it wouldn't be 
just as important to join together to tear down Abu Ghraib as a 
statement that the torture chamber of Saddam that carried forth 
past and present is no longer, and create a memorial to freedom 
in the future, and the absence of tyranny of any kind.
    But what I want to do is, I want to get to a question 
dealing with what seems to be an operative word today: ``the 
few.'' I think perhaps there are sergeants and privates, as 
Senator Graham indicated, who have been involved in this 
activity. Obviously, the chain of command would be under 
consideration here. Criminal action will be taken. I suspect 
responsible action will be taken, in terms of the chain of 
command.
    Is it the aberrant behavior of a few, or can we expect to 
have, out of the investigation, an indication that there was 
something more systemic? I know that we have a two-star Reserve 
general who has been in some way removed from duty, but isn't 
there, to date, some expectation that there was a severing of 
the chain of command somewhere along the line, through MI or 
other intelligence operations coming in? It's my understanding 
that there are reports that General Karpinski was banned from 
sections of her own prison system.
    I am hopeful that we'll be able to get to the bottom of 
that with the reports. In the interim, is there anything that 
you might be able to enlighten us with right now?
    Secretary Rumsfeld. Let me answer a couple of pieces, and 
let General Smith answer the last piece.
    First, you say the first rule if you're in a hole is to 
stop digging. I've said today that there are a lot more 
photographs and videos that exist.
    Senator Ben Nelson. I didn't mean that. Is anything 
progressing on today, beyond what we already know or what we're 
going to find out from past performance?
    Secretary Rumsfeld. If these are released to the public, 
obviously it's going to make matters worse. That's just a fact. 
I looked at them last night, and they're hard to believe. So, 
be on notice. That's just a fact. If they're sent to some news 
organization, and taken out of the criminal prosecution 
channels that they're in, that's where we'll be, and it's not a 
pretty picture.
    Second, there are people who were talking about the Abu 
Ghraib prison and tearing it down, and certainly that's 
something that the CPA and the Iraqi Governing Council (IGC) 
and the Iraqi government, the interim government that will take 
over by June 30, will be addressing and deciding. Frankly, from 
my standpoint, I think it's not a bad idea, but it's really up 
to the Iraqis.
    Senator Ben Nelson. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Chairman Warner. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Mr. Secretary, listening to the questions and the answers 
that have been given so far leads me to at least tentatively 
conclude that there are two major problems here. One is, first, 
the shock to our collective conscience at what we have seen 
human beings do to degrade and abuse other human beings. 
Second, the shock to our sensibilities as Members of Congress 
who have a collective responsibility to the American people, to 
see these pictures in the press. I believe that it was General 
Myers who talked about what we have seen as being a violation 
of American values. I agree with that, but I also want to talk 
about other American values. General Myers alluded to this when 
he talked about due process, and you mentioned the issue of 
command influence.
    First, I would like to direct your attention back to the 
news release that CENTCOM issued on January 16, 2004, 
announcing this investigation. The second and third sentences, 
I want to direct your attention to specifically. This news 
release says, ``This release of specific information concerning 
the incidents could hinder the investigation, which is in its 
early stages. The investigation will be conducted in a thorough 
and professional manner.''
    I think what the American people expect of all of us here 
is not only that we have high standards of conduct, which I 
know the military subscribes to, but we have the training, the 
oversight, the leadership, the accountability, and also the due 
process and desire to seek justice when it comes to holding 
people accountable for their crimes. I want to tell you that 
what you've described here, in terms of this chronology of 
investigation, gives me confidence that the DOD has taken this 
matter as seriously as it should have. Indeed, as you and 
others have said, not all the facts are in yet. But I do see on 
this chronology that, indeed, after this investigation, there 
have been criminal charges preferred against some who are 
guilty of these crimes. I would ask you, please, just to 
briefly talk about your obligation, in terms of seeing that the 
persons who are accused of these crimes get that due process, 
and to make sure that you maintain the integrity of the 
investigation by not dripping information out on this incident 
in a piecemeal basis over the course of the next few months.
    Secretary Rumsfeld. You have your finger on the dilemna, on 
the tension that exists between assuring that you protect the 
rights of individuals that are in a serious, difficult criminal 
prosecution circumstance, and avoiding saying things that 
either would infringe on their rights or would enable them to 
escape punishment by virtue of being able to successfully 
allege that command influence was exercised in a way that 
prejudiced the decisions up the chain of command. So we have 
that problem. To the extent senior people in the DOD dive down 
in and start looking in criminal prosecutions in the early and 
mid-stages, the hue and outcry would be horrendous. On the 
other hand, if you have a situation where something like this 
is buried in there, along with 3,000 other courts-martial, and 
buried in there is something of this significance, we have to 
find a way to know that. Our country doesn't need those kinds 
of shocks, and the troops don't need it.
    Chairman Warner. Senator, I have to thank you. We must move 
on. The panel leaves here and goes over to the House Armed 
Services Committee.
    Secretary Rumsfeld. We'll have to leave by about 2:30, Mr. 
Chairman.
    Chairman Warner. That is correct. That was made clear, and 
I think we will have sufficient time to include our next 
Senator, Senator Bayh, followed by Senator Chambliss, Senator 
Clinton, Senator Pryor, and Senator Dayton.
    Senator Bayh. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today and, in addition 
to that, for serving our country. These are difficult times, 
and your service is not without some personal cost. I am going 
to assume some facts up here and then ask what I think may be 
two somewhat difficult questions.
    I assume that you serve at the pleasure of the President. I 
assume that he sets a policy for our national security, in 
general, and for Iraq, in particular. I assume that he is 
engaged in overseeing the implementation of those policies and, 
like you, accepts responsibility for that implementation. This 
is a long way of saying, as Senator Byrd mentioned, that in our 
system we have a tradition of the buck stopping at 1600 
Pennsylvania Avenue. As we're all aware, we're now engaged in a 
debate about who the occupant of that residence will be, come 
next January.
    So in many respects, I view this as a question of 
presidential leadership. How does he react? How aggressively? 
Does he try and minimize the situation, or does he try and take 
dramatic steps to address the magnitude of the problem? As has 
been noted, he has apologized for what took place. As all of 
you have indicated, particularly you, Mr. Secretary, the 
criminal process will move forward. That is a hallmark of our 
system of justice.
    One of the questions that's overhanging this proceeding 
today, and the situation in general, is, is that enough? So the 
difficult question I'd like to ask is to follow up on the 
question from Senator Graham. Mr. Secretary, I could tell that 
you struggled in answering his question, that this is something 
that's been on your mind. Your resignation has been called for. 
That's a pretty serious thing for any of us. You answered that 
if you ever concluded that you could not be effective in 
discharging your duties, you would step down, but that you 
would not do so as a part of a political ``witch hunt,'' so to 
speak.
    There's another aspect of this, though, I'd like to ask 
your opinion about. I know it's ultimately a decision for the 
President to make, but, in your opinion, even though you 
weren't personally involved in the underlying acts here, would 
it serve to demonstrate how seriously we take this situation, 
and, therefore, help to undo some of the damage to our 
reputation, if you were to step down?
    Secretary Rumsfeld. That's possible.
    Senator Bayh. I appreciate your candor.
    My second question has to do with some comments that 
Senator Lieberman made, and I would like to associate myself 
with what I thought were very appropriate and moving comments 
by Senator Lieberman. I believe very strongly that our cause--
and these are not words I use frequently--but that our cause is 
morally superior to our adversaries', both the terrorists we 
fight and those who now seek to undo the future of a free Iraq. 
There is growing concern by the supporters of this cause that 
this situation we're inquiring into today is part of a broader 
problem, that the effort may be bogging down, that we may be 
approaching a tipping point, that momentum needs to be regained 
if we're going to prevail.
    I'd like to just read a couple of sentences from a column 
in yesterday's New York Times by Tom Friedman, who supported 
this endeavor in Iraq. He says, ``We are in danger of losing 
something much more important than just this war in Iraq. We 
are in danger of losing America as an instrument of moral 
authority and inspiration in the world. This administration 
needs to undertake a total overhaul of its Iraq policy; 
otherwise, it is courting a total disaster for us all.'' He 
goes on to say how he hopes that such an overhaul can be 
undertaken, because we need to prevail in Iraq.
    So my final question is, Mr. Secretary, do you believe 
we're on the right course presently, or is dramatic action 
necessary to regain the momentum so that we can ultimately 
prevail in what is a very noble and idealistic undertaking?
    Secretary Rumsfeld. I do believe we're on the right track. 
It's a tough road. It's a bumpy road. It's always been bumpy 
going from a vicious dictatorship to something approximating a 
representative government that's respectful of its different 
varied religious and ethnic groups. That's not an easy path.
    I am convinced that we are doing exactly what ought to be 
done, and that is to pass responsibility for that country to 
the Iraqis. I am convinced we're doing exactly what ought to be 
done in recognizing that they need to have the ability to 
provide for their own security, which is why so much effort's 
gone into developing police and civil defense corps and an army 
and border patrols and site-protection people.
    They do not want Americans or coalition forces in their 
country over a prolonged period, and, goodness knows, we don't 
want to be there. The only proper way to pass it off is if they 
have their own security forces, which is why we're spending the 
money and making the effort. It's why General Abizaid and 
General Sanchez and General Petraeus now are over there working 
that problem. I think that we have a crack at doing it.
    [Clarifying information from the DOD follows:]

    LTG Petraeus was not in Iraq at the time of this hearing. LTG 
Petraeus was in Iraq from March 2003 to March 2004 as commander of the 
101st Airborne Division and returned for a second tour in late May 2004 
to train Iraqi Civil Defense Corps battalions.

    Secretary Rumsfeld. I don't think it will be smooth. I 
think it will be rough. It will be bumpy. But if you don't take 
your hand off the bicycle seat, you're not going to be able to 
ride the bike, and we have to do that. We're going to do that.
    Chairman Warner. Thank you very much, Mr. Secretary, 
Senator Bayh.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Mr. Secretary, it's interesting that Senator Roberts and I 
had previously been talking about the fact that one thing that 
probably should be done is exactly what Senator Ben Nelson just 
recommended, and that's tear down that wall--and that wall is 
Abu Ghraib prison--to show another sign of the destruction of 
Saddam Hussein.
    Mr. Secretary, there are different kinds of leaders. 
Different leaders even provide different kinds of leadership. 
One easy thing for a leader to do is sometimes hide behind the 
lower echelon in the chain of command. I just want to say to 
you, I've been prepared to be very critical of you if I needed 
to be critical today. But by your coming in here and making an 
admission, as a strong leader, that a mistake was made and that 
you're going to be doing whatever is necessary to correct that 
mistake, that shows just what kind of leader you are. Anybody 
who questions your effectiveness and your ability to lead the 
United States military has had their question answered today. 
So, for that, I commend you.
    I commend you also for your selection of General Miller. 
I've been to Guantanamo twice. I was worried about what might 
happen down there with respect to those detainees. I had the 
privilege to observe several different interrogations. I think 
I was there the day that General Miller first arrived, as a 
matter of fact. I observed random interrogations down there. 
General Miller did correct a problem that existed. There were 
charges of abuse that were much slighter than these charges of 
abuse, and General Miller dealt with those swiftly and 
directly.
    I am concerned, though, about a couple of different things. 
First of all, General Ryder did make his report following his 
visit to Abu Ghraib from the period of October 13 to November 
6. We had a United States Army general doing an investigation 
of a prison and the activities that were ongoing in that prison 
during a point in time when these alleged atrocities took 
place. Now, my understanding from General Ryder is that he was 
never told about any of this while he was there. I don't 
understand that. I don't understand how the chain of command 
could be so faulty within that system to allow that to happen.
    The only answer I ever got was that these atrocities 
occurred on the night shift. Well, the Army doesn't operate 12 
hours a day. We operate 24 hours a day, and there is a failure 
in the chain of command that I hope you're in the process of 
addressing very directly from that standpoint.
    Also, in response to Senator McCain, you made two 
comments--first of all, that guards are trained to guard 
people, not interrogate; and that guards are trained in the 
requirements of the Geneva Conventions. Now, I understand those 
are policies of the DOD, as well they should be. But the fact 
of the matter is, when you look at page 10 of the Taguba 
report, you find out that was not done in this case. These MPs 
simply were not trained in what they were supposed to be doing.
    So, again, I hope your folks are moving in the direction of 
making that correction with respect, particularly, to 
reservists that are brought onboard. One obvious judgment is 
that the 800th MP Brigade was totally dysfunctional, from 
Brigadier General Karpinski on down, with few exceptions. On 
the surface, you could portray the 800th MP Brigade as a 
Reserve unit with poor leadership and poor training. However, 
the abuse of prisoners is not merely a failure of an MP 
brigade. It is a failure of the chain of command, Mr. 
Secretary.
    I want to leave here today knowing and taking comfort in 
the fact that, as Senator Graham said, we're not going to just 
prosecute somebody with one stripe on their sleeve or four 
stripes on their sleeve, but you're going to carry this thing 
to whatever extent is necessary to ensure that there's no 
``good old boy'' system within the United States Army. 
Irrespective of whether they have a stripe on their sleeve or 
four stars on their shoulder, we're going to get to the bottom 
of this, and we're going to make sure that corrective action is 
taken, and, where necessary, criminal action is taken, against 
anybody involved in the particular acts or in the shielding of 
this and the failure or negligence on their part of keeping 
this information from you, in a quick and swift manner.
    Secretary Rumsfeld. I agree with everything you've said, 
and there's no question but that the investigations have to go 
forward. They have to be respectful of people's rights, but 
they have to be handled in a manner that reflects the gravity 
of this situation. It does not matter one whit where the 
responsibility falls. It falls where it does.
    Senator Chambliss. Thank you, Mr. Secretary.
    Chairman Warner. Thank you very much, Senator.
    General Schoomaker. Senator Chambliss, I'd like to----
    Chairman Warner. General.
    General Schoomaker. Mr. Chairman, Senator Chambliss 
characterized our Army in a way that I don't agree with. It 
doesn't matter whether a soldier is on active duty, in the 
active component, in the Guard, or the Reserve; there's one 
standard. We expect that our leadership and our soldiers adhere 
to the same standard, and those are Army values, the Soldier's 
Creed, and the things that we all believe in. So I disassociate 
with your remarks there that, for some reason, because this was 
a Reserve unit there isn't a standard that's equal to everybody 
else's.
    Senator Chambliss. General, my remarks were not directed 
towards this unit being a Reserve unit; they just happen to be 
a Reserve unit. But the fact of the matter is that the Taguba 
Report says that this unit, which is a Reserve unit, did not 
receive training during their mobilization, and that was a 
fault in the system, and it's a fault because they are a 
Reserve unit.
    General Schoomaker. Yes, sir. We're going to look into 
that. We are looking into it, and if that's true, we're going 
to correct it.
    Senator Chambliss. Thank you.
    General Schoomaker. Nevertheless, they have one standard.
    Chairman Warner. Thank you, gentlemen.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I think, Mr. Secretary, that you can discern from the 
questions that there are still many issues that we need further 
clarification on. I particularly look forward to the answer 
that you will provide to Senator Reed's last question, 
following up on his line of questioning concerning the enabling 
of interrogation by MPs. That is something which, based on Army 
regulations, was not to be either done or condoned.
    But, Mr. Secretary, in January 2002, when you publicly 
declared that hundreds of people detained by U.S. and allied 
forces in Afghanistan do not have any rights under the Geneva 
Conventions, that was taken as a signal. It is clear, in 
looking through the number of investigations that are currently 
ongoing, that it wasn't just this particular battalion, but 
others that did not receive appropriate training and 
information about their responsibilities with respect to 
detention or the Geneva Conventions.
    The atrocities that have been depicted in photographs were 
very graphically described verbally in the Taguba Report. It 
doesn't take a lot of imagination to read those descriptions 
and have one's stomach just turn, in disgust.
    The focus on the pictures being released is, with all due 
respect, missing the point. The report was well known, and 
apparently discussed on numerous occasions, and obviously the 
release of the pictures to the entire world was devastating, 
but the underlying conduct and the failure of the command, both 
at the site and further up the chain, to act with the 
appropriate quick response is really at the heart of what the 
most serious problems we face here today are.
    The information in the Taguba Report links the atrocities 
at Abu Ghraib to Camp Bucca. In fact, some of the same people, 
some of the same command, some of the same MPs were apparently 
involved. With respect to the recommendations at the end of 
General Taguba's report, they call for establishing the 
conditions with the resources and personnel required to prevent 
future occurrences of detainee abuse.
    I would appreciate, since we don't have time in this round 
of questioning, to receive, for the committee, a report about 
exactly how that is being handled. What changes have been made? 
Is the Geneva Conventions training going on now? Are the 
appropriate rules being posted, in both English and Arabic? 
Certainly we would like an explanation as to the adequacy of 
the punishment that was meted out, because, with respect to who 
is being punished for what, there is a clear distinction, at 
least as reported by General Taguba, between enlisted personnel 
and those up the command.
    But I'm also concerned by a related matter. Let me just 
quickly reference the case of Chaplain Yee, the Muslim Army 
chaplain from Guantanamo Bay who was arrested and placed in 
solitary confinement. Ultimately, all the charges were dropped, 
after his reputation was sullied. It's obvious that the 
information about this particular case came from Government 
sources. It was pushed out, and it was widely disseminated. So, 
Mr. Secretary, how is it that a case with no basis in fact gets 
such widespread publicity based on information from Government 
sources, while egregious conduct, like that at the Abu Ghraib 
prison, is cloaked in a classified report and is only made 
available when the investigation is leaked to the press?
    Secretary Rumsfeld. Senator, first let me say, with respect 
to the question that Senator Reed raised, I can't conceive of 
anyone looking at the pictures and suggesting that anyone could 
have recommended, condoned, permitted, encouraged--subtly, 
directly, in any way--that those things take place.
    Second, the decision that was made by the President of the 
United States, that you referred to, was announced. In the 
announcement, it was said that the al Qaeda in Guantanamo that 
were captured around the world, mostly in Afghanistan, would be 
treated in a manner consistent with the Geneva Conventions. 
That is a fact.
    [Clarifying information from the DOD follows:]

    The guidelines for handling al Qaeda detainees were in the 
President's February 7, 2002, directive, which states (in part): ``As a 
matter of policy, the United States Armed Forces shall continue to 
treat detainees humanely and, to the extent appropriate and consistent 
with military necessity, in a manner consistent with the principles of 
Geneva.''

    Secretary Rumsfeld. You say the report was ``well known.'' 
I don't know how you know that. All I know is, when it was made 
public, when somebody took a secret document out of 
prosecutorial channels and released it to the press, I do not 
believe it was yet anywhere in the Pentagon. Certainly I had 
not been given it, or seen it.
    I quite agree with you. When you read the report, you do 
get an impression, as you suggested, that there is something 
much worse than what was in the press release, for example, in 
January, or the discussion in March by CENTCOM. But that was 
not something that had been moved past CENTCOM, to my 
knowledge. It may have been somewhere in the DOD, but certainly 
I had not received a copy. It was still in those channels.
    Chairman Warner. Thank you very much, Senator.
    Senator Pryor.
    Secretary Rumsfeld. Mr. Chairman, I'm going to have to 
remind you that we do have to leave at 2:30. I apologize for 
that. Normally I'd stay, but we're due in the House.
    Chairman Warner. That is my understanding, and we're within 
6 minutes of finishing at the 2:30 deadline.
    Secretary Rumsfeld. Thank you.
    Chairman Warner. Thank you very much.
    Senator Pryor. Mr. Chairman, thank you.
    I'm not sure my microphone's working today, for some 
reason, so I'll borrow this one over here.
    In Arkansas, Mr. Secretary, we have an expression that 
says, ``You cannot unring the bell.'' At this point, we know 
where we find ourselves, and that is, these photos--and, as you 
indicated, there may be more to come, and even videos--are now 
in the public domain. We all know that they will be used to 
undermine U.S. credibility for years to come, and that they put 
our soldiers at more jeopardy inside Iraq and other places 
today than they were just a few days ago.
    In fact, this morning, I must tell you, I had trouble 
explaining the photographs and what's going on inside that 
prison, with my 10-year-old son. They're very hard to explain.
    Mr. Secretary, let me say that there has been a pattern 
that I have to bring to your attention from our perspective. 
First, for months and months, we've asked, ``Do you need more 
troops inside Iraq?'' In the last few days, even though you've 
assured us many times, and many people at the Pentagon and the 
White House have said no, we now have learned that you do need 
them.
    Second, we've asked, for weeks and weeks and weeks, maybe 
months--Senator Byrd could probably tell you more than I could 
about that--about whether you'll need a supplemental. 
Originally the answer was no, at least until very late in the 
year. Now it appears that you do need one.
    We've been surprised on those two occasions. Now we're 
surprised today. Mr. Secretary, I must tell you that we do not 
like these types of surprises here in Congress. I don't want to 
sound glib in asking this question, but let me ask it anyway. 
We know the photographs are coming out, but do you anticipate 
anything else coming out in relation to this story that we need 
to know about today?
    Secretary Rumsfeld. I'm certain there will be. You have six 
investigations going on. You can be absolutely certain that 
these investigations will discover things, as investigations 
do, and that they'll elevate other individuals for prosecution 
in criminal matters. You can be certain that there's going to 
be more coming out.
    With respect to your other comments, the commanders on the 
ground, from the beginning, asked for and received all the 
troops they needed, all the troops they wanted, all the troops 
they asked for. They got them. You're right, General Abizaid 
called up and said, ``Look, the situation in Iraq is difficult. 
I'd like to keep an extra 20,000 during this crossover period, 
and go from 115,000 to 135,000.'' We said yes. I went to the 
President, and the President said yes. The senior military 
advisor, General Myers, said he thought that was correct. You 
say you don't like surprises--my Lord, who likes surprises? 
Nobody in the world likes surprises. But the world's not 
perfect. Facts change on the ground. When facts change on the 
ground, commanders tell us. When commanders tell us, they get 
the troops they need.
    Now, on the budget, you don't like surprises. Well, I don't 
either. It happens to be the case that more troops are needed, 
and more money is needed. It happens that it's a difficult 
thing for the military commanders to cash-flow, taking out of 
one account to sustain something that came up that was not 
anticipated. So the President said, ``Fine.'' He did not want 
to ask for a supplemental. General Myers and I went in to him 
and said, ``We think we need one. We think that that's not a 
good way to manage the DOD, by jerking money out of one account 
and sticking it in another account, trying to get 
preprogramming authority by Congress,'' and we said, ``We 
believe that it's the appropriate thing to do.'' He didn't want 
to do it. He knew what he had said. But he said he'd do it. 
Now, that's not a surprise. It's just a fact.
    Senator Pryor. Mr. Chairman, thank you for your time.
    Chairman Warner. Thank you very much.
    Senator Dayton. Mr. Secretary, were you aware, or did you 
authorize, General Myers to call CBS to suppress their news 
report?
    Secretary Rumsfeld. I don't have any idea if he discussed 
it with me. I don't think he did.
    Senator Dayton. Over the last 2 weeks, calling CBS to 
suppress the news report, you don't----
    Secretary Rumsfeld. ``Suppress'' is not the right word at 
all. It's an inaccurate word, I should say.
    Senator Dayton. General Myers, did you discuss it with the 
Secretary?
    General Myers. This had been worked at lower levels by the 
Secretary's staff and my staff for some time, and--
    Senator Dayton. That you would call CBS to suppress their 
news report.
    General Myers. I called CBS to ask them to delay the 
pictures showing on the CBS program ``60 Minutes,'' because I 
thought it would result in direct harm to our troops.
    Senator Dayton. Is that standard procedure for the military 
command of this country, to try to suppress a news report at 
the highest level?
    General Myers. Senator Dayton, this is a serious 
allegation.
    Senator Dayton. It sure is.
    General Myers. It is absolutely--the context of your 
question, I believe, is wrong.
    Senator Dayton. I understand the context, General. You told 
us the context earlier. I have very limited time, sir. I just 
want to get----
    General Myers. Well, when I----
    Senator Dayton. --this is my question.
    General Myers. I want to take as much time as we need to 
straighten this out. This report was already out there. The 
news was out there about the abuse. The thing that I----
    Senator Dayton. General, if the news had been out there and 
we had all known about it----
    General Myers. Right. Let me just----
    Senator Dayton. --to extent of this----
    General Myers. Senator, please, let me----
    Senator Dayton. --we would have----
    General Myers. Senator----
    Senator Dayton. --had this hearing----
    General Myers. Senator, please----
    Senator Dayton. --months ago.
    General Myers. --let me--let me finish, Senator.
    Chairman Warner. Senator, I ask that the witness be allowed 
to respond to your question. They're very important questions.
    General, would you proceed?
    General Myers. Thank you, sir. Thank you, Senator Dayton.
    This was not to suppress anything. What I asked CBS to do 
was to delay the release of the pictures, given the current 
situation in Iraq, which was as bad as it had been since major 
combat ended. I thought it would bring direct harm to our 
troops, it would kill our troops.
    We talked about it, and I said, ``I know this report will 
eventually come out, but if you can delay it for some period of 
time it would be helpful.''
    Senator Dayton. What period of time, sir?
    General Myers. I did it based on talking to General 
Abizaid, and his worry was like mine, and he convinced me that 
this was the right thing to do. This report has been around 
since January. What was new were the pictures. I asked for the 
pictures to be delayed.
    Senator Dayton. Did you discuss calling CBS to ask them to 
delay their report with the Secretary of Defense or the Vice 
President or the President?
    General Myers. Of course not.
    Senator Dayton. None of those. All right.
    General Myers. Of course not.
    Senator Dayton. I would just say, General, that I agree 
with your assessment of the consequences of this on our troops. 
That is the great tragedy of this. But attempts to suppress 
news reports, to withhold the truth from Congress and from the 
American people, is antithetical to a democracy.
    General Myers. You bet it is, and that's not what we've 
been doing.
    Senator Dayton. Whatever the intentions may be, sir, the 
result is always the same. It is, I think, terribly tragic that 
the President, who wants to expand democracy around the world, 
by actions of his own administration is undermining that 
democracy in the United States. As is always the result when 
people try to control information, delay it, manage it, and 
suppress it, it has that result. It's antithetical to a 
democracy.
    Secretary Rumsfeld. Senator, throughout the history of this 
country, there have been instances where military situations 
have existed that have led governments to talk to members of 
the media and make an editorial request of them that they 
delay, for some period, disclosing some piece of information. 
It is not against our history. It is not against our 
principles. It is not suppression of the news. It's a 
misunderstanding of the situation to say it is.
    Senator Dayton. It is against our principles. It's against 
our principles when you come before 40 to 45 Members of the 
Senate 3 hours before that news report is going to occur, and 
don't mention one word about it, sir. That is antithetical to 
democracy and the Constitution, which gives the Senate and the 
House coequal responsibility for this country.
    I want to just ask about the escalation of American forces, 
sir. You're bringing in, in response to all of this--and, yes, 
this is also important--this is the future of this Nation and 
the people who are over there. You're increasing the number of 
forces, the number of tanks over there. How can this do 
anything but escalate the level of violence, the opposition of 
the Iraqis, and intensify the hatred across the Arab world to 
the United States and create more atrocities? How can this have 
any result other than to put us deeper into this situation and 
make the conditions there worse for our forces and for our 
Nation and for the world?
    Chairman Warner. Senator, I'm going to ask that the witness 
respond to your important question for the record, and I thank 
you for your cooperation.
    [The information referred to follows:]

    In fact, during late April/early May 2004 U.S. troop levels in Iraq 
were on their way down. There was a 2 week or so increase in troop 
levels during this period due to ``overlap'' as incoming forces replace 
troops rotating back to the United States.

    Chairman Warner. Mr. Secretary and witnesses, we've had a 
very thorough exchange of views. We've had a full and complete 
hearing. I wish to commend my colleagues. I wonder if you might 
indulge the Majority Leader for 1 minute.
    Senator Levin. Mr. Chairman, could the answers for the 
record, which the Secretary has promised, be expedited, given 
the circumstances? Would that be all right?
    Chairman Warner. Yes, absolutely. That will be done.
    Senator Frist.
    Senator Frist. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for appearing before the Armed 
Services Committee today. It is important for this body, the 
United States Senate, to hear from you about the reprehensible 
incidents at Abu Ghraib prison. Needless to say, the 
individuals that committed these despicable acts must be held 
accountable. Justice must and will be served in a swift and 
fair and transparent matter.
    We are all troubled by the fact that the actions of a few 
have tainted the efforts of all Americans who are serving so 
nobly abroad.
    Mr. Secretary, I commend you for taking responsibility for 
what occurred at Abu Ghraib prison. If we're ever going to 
repair the damage done to our efforts in Iraq and to the 
reputation of the Armed Forces, it's important that we get all 
the facts out in a quick and a thorough manner.
    The committees of jurisdiction here in the Senate will be 
conducting their own inquiries into this matter. We do look 
forward to regular updates from you and others on the panel and 
the DOD as your investigations proceed, as well as updates on 
any other actions you may take to ensure that justice is served 
and heinous acts never occur again.
    Thank you.
    Chairman Warner. Thank you, Mr. Leader.
    Secretary Rumsfeld. Thank you very much.
    Chairman Warner. The hearing is concluded.
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Susan Collins
                       red cross recommendations
    1. Senator Collins. General Schoomaker, the International Committee 
of the Red Cross (ICRC) has said that it has had the opportunity to 
speak with the detainees about their treatment, and based on these 
discussions, it has repeatedly requested that U.S. authorities take 
corrective action to correct alleged abuses. The ICRC says that its 
recommendations were not taken seriously by the administration. Were 
ICRC recommendations taken seriously? If so, then how do you address 
these reports that many of the organization's recommendations were 
ignored?
    General Schoomaker. The ICRC visits to the detention facilities in 
Iraq and Afghanistan and reports generated from such visits fall under 
the responsibility of the U.S. Army Central Command (CENTCOM); 
therefore, I cannot speak to any specific allegations or incidents that 
fall within the CENTCOM area of responsibility (AOR). The ICRC provides 
their reports only to the chain of command of the detention facility 
that they are visiting. It is up to the commander of the detention 
facility to reply to the ICRC report and make corrective actions as he 
or she see fit; corrective actions will be conducted based on that 
commander's assessment of the current military situation, the 
availability of support, and other factors.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                            the ryder report
    2. Senator Levin. General Myers, according to Seymour Hersh's 
article in The New Yorker magazine, General Ryder's report of November 
5, 2003, on the prison system in Iraq found ``system-wide'' problems 
relating to human rights, training, and manpower issues. General Ryder 
reportedly recommended that procedures be established to ``define the 
role of military police soldiers . . . clearly separating the actions 
of the guards from those of the military intelligence personnel.'' 
General Taguba is reported to find that ``many of the systemic problems 
that surfaced during [Ryder's] assessment are the very same issues that 
are the subject of this investigation.'' Since the release of General 
Ryder's report on November 5, 2003, has the Army implemented General 
Ryder's recommendation to establish procedures separating the role of 
military police (MPs) from that of military intelligence personnel?
    General Myers. Major General Ryder conducted an assessment of 
detention and correction operations in Iraq and provided 
recommendations to CJTF-7 to improve those operations. The specific 
recommendation referred to above was to, ``Determine the scope of 
intelligence collection that will occur at Camp Vigilant. Refurbish the 
Northeast compound to separate the screening operation from the Iraqi-
run Baghdad Correctional Facility. Establish procedures that define the 
role of military police soldiers securing the compound, clearly 
separating the actions of the guards from those of the military 
intelligence personnel.'' CJTF-7 did take action on this recommendation 
concerning force protection responsibilities of military police 
soldiers securing the compound.
    Further, CJTF-7, under Major General Miller's supervision, has 
defined the proper roles for military police and military intelligence 
personnel, and has ensured that they understand their respective 
responsibilities. The roles of the military police and military 
intelligence complement one another. The military police are 
responsible for custody and detainee control; the military intelligence 
has screening and interrogation responsibilities. Military police can 
assist the military intelligence by observing detainees and reporting 
on their associations and activities.
    CJTF-7 initiated numerous additional improvements to detention 
operations based on Major General Ryder's recommendations. These 
included strict control of weapons in detention facilities, centralized 
planning for interrogation priorities, separation of high value 
detainees, augmentation of staffs with subject matter experts, 
employment of a detention mobile training team, certification of 
personnel on critical detention tasks, and multiple projects to improve 
living conditions for detainees and soldiers. Improved medical care, 
use of the Biometric Assessment Tool (BAT), and a review of theater 
release procedures also resulted from CJTF-7 action on Major General 
Ryder's recommendations.

    3. Senator Levin. General Myers, will General Miller, who is in 
charge of detention operations in Iraq, take steps to ensure that the 
role of MP soldiers is defined and clearly separate from the role of 
military intelligence personnel at detention facilities?
    General Myers. Major General Miller has taken steps to ensure that 
both military police and military intelligence personnel understand 
their respective roles. Military police can assist military 
intelligence personnel by observing detainees and reporting on their 
activities and associations. This ``passive'' involvement of the 
military police is what MG Miller has advocated.

                     taguba report recommendations
    4. Senator Levin. General Smith, General Taguba's report contained 
a number of recommendations resulting from his investigation. To what 
extent have the recommendations contained in the Taguba Report been 
adopted and implemented? Please address each of the specific 
recommendations in the three parts of the report.
    General Smith. The attached summary of MNF-I actions taken after 
the reports is responsive to this question.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                     red cross visits to abu ghraib
    5. Senator Levin. General Myers and General Smith, the ICRC report 
of February 2004 states that the ICRC was aware of abuses at Abu Ghraib 
prison for months prior to the period covered by General Taguba's 
investigation and had repeatedly asked U.S. authorities to take 
corrective action. What was the extent of the ICRC's access to the 
facilities at Abu Ghraib? Did it include the part of the facility where 
the abuses depicted in the photos are alleged to have occurred?
    General Myers and General Smith. The ICRC Summary Report of 
February 2004 refers to an ICRC visit to the Abu Ghraib Correctional 
Facility conducted in October 2003, during the same period that many of 
the alleged abuses occurred. A written report related to the October 
2003 visit was provided to CJTF-7 Staff Judge Advocate's office in 
November 2003. Both ICRC reports provide indications of detainee abuse, 
however, not to the extent depicted in the photographs. The CJTF-7 
Staff Judge Advocate Office circulated the November report among 
relevant commands and staffs, proposed a draft response and, following 
discussions and meetings with leadership of the military intelligence 
and military police units involved, forwarded the draft document to the 
800th Military Police BDE. A written response to the ICRC was signed by 
the Commander, 800th Military Police Brigade in December 2003 and 
delivered to the ICRC. A staff action plan was implemented for the next 
ICRC visit to Abu Ghraib in January 2004. During the October visit to 
Abu Ghraib and in subsequent visits, ICRC representatives did have 
access to the part of the prison where the abuses are alleged to have 
occurred.

    6. Senator Levin. General Myers and General Smith, what specific 
steps were taken to correct the situation at Abu Ghraib in response to 
these ICRC requests?
    General Myers and General Smith. The longstanding arrangement 
between the ICRC and the Department of Defense is that issues are 
discussed and resolved at the local level or at the lowest practicable 
level of command. At Abu Ghraib, the lowest practicable level of 
command would have been the 800 Military Police Brigade and 205 
Military Intelligence Brigade, overseen by CJTF-7. Following receipt of 
the November ICRC report, a staff action plan was developed. 
Improvements in detention conditions were made by the commands 
following the October 2003 visit as noted by the ICRC in a subsequent 
visit in January 2004. Since January 2004, the Department of Defense 
has initiated numerous investigations regarding the treatment of 
detainees and instituted changes at every level to ensure improved 
conditions of detention facilities and appropriate treatment of 
detainees.
    Included in these initiatives are significant organizational and 
policy changes. The Office of the Secretary of Defense has established 
an office, the Deputy Assistant Secretary of Defense for Detainee 
Affairs, which focuses on worldwide detainee operations. The Joint 
Staff has also expanded staff organizational responsibilities. As a 
result of a policy change, reports from the ICRC are forwarded 
expeditiously by commands to the Department of Defense, reviewed by 
these staffs and significant issues are brought to the attention of the 
leadership.

    7. Senator Levin. General Myers and General Smith, there are 
reports of ``ghost detainees'' who were moved around within the 
facility in order to conceal them from ICRC inspection teams. Have you 
investigated these reports, and if so, what were your findings?
    General Myers and General Smith. The allegations were investigated 
and other investigations are ongoing. Apparently there existed a 
practice in the fall of 2003 of allowing Other Government Agencies 
(OGA) to drop off detainees for up to a 72-hour hold without being 
processed and issued Internee Security Numbers (ISN) in accordance with 
Army and CJTF-7 procedures. CJTF-7 learned of this practice in early 
January 2004 and stopped it.
    In other instances, the OGA detainees were in-processed and 
registered with the ICRC. Reports received indicate that ICRC 
representatives observed these detainees in cells marked with their 
Geneva Conventions status. The ICRC was not allowed to meet with 
certain detainees during visits because they were being interrogated. 
Under provisions of the Geneva Conventions, detainees may be held for a 
reasonable period of time without registering them with the ICRC for 
military necessity. This may include the time required to process 
detainees from point of capture to a detention facility.
    All detainees currently in the custody of the Department of Defense 
have been registered with the ICRC.

    8. Senator Levin. General Myers and General Smith, the ICRC told 
the Department of Defense (DOD) of the alleged abuses at Abu Ghraib 
months before a U.S. soldier notified his superiors in January of this 
year. What steps were taken to investigate, verify, address, or stop 
the abuses detailed by the ICRC?
    General Myers and General Smith. An ICRC visit to the Abu Ghraib 
Correctional Facility was conducted in October 2003. A written report 
related to the October 2003 visit was provided to the CJTF-7 Staff 
Judge Advocate's office in November 2003. This ICRC report provided 
indications of detainee abuse, however, not to the extent depicted in 
the photographs. CJTF-7, the 800th Military Police Brigade and the 
205th Military Intelligence Brigade staffed the report locally. 
Corrective actions were taken as noted by the ICRC during the January 
2004 visit. I am not aware of any other reporting of ICRC findings to 
Department of Defense officials. To ensure visibility above the local 
level, the Department of Defense has implemented a policy that requires 
ICRC reports to be forwarded higher.

    9. Senator Levin. General Myers and General Smith, other than 
Brigadier General Karpinski, was anyone else within DOD, the Coalition 
Provisional Authority (CPA), or other Federal agencies briefed about 
the abuses, detailed by the ICRC, at Abu Ghraib? Who were they and when 
were they briefed?
    General Myers and General Smith. The November 2003 ICRC report gave 
indications of detainee abuse at Abu Ghraib, but not to the level of 
abuse later revealed in the photographs. General Abizaid notified me on 
13 January 2003 of the allegations of abuse at Abu Ghraib reported by a 
soldier in the 372d Military Police Company. I don't recall an ICRC 
report being mentioned during that conversation. I am not aware of 
briefings concerning the November ICRC report being conducted within 
the Department of Defense or any other Federal agency until after the 
investigation into the alleged abuses was opened in January.

    10. Senator Levin. General Myers and General Smith, which senior 
administration officials have received the reports by the ICRC 
detailing abusive behavior at U.S. detention facilities in Iraq? When 
did they receive such reports? What actions were taken in response to 
such reports?
    General Myers and General Smith. I personally was not provided 
copies or summaries of any ICRC reports detailing abusive behavior at 
U.S. detention facilities in Iraq. The ICRC generally provides working 
papers, reports, and observations to the lowest level organization that 
the ICRC believes can resolve the issues. In Iraq, the ICRC reports 
were provided to the detention facility visited, to the CJTF-7 staff, 
or in at least one instance to the CPA. The ICRC does not provide 
reports to the Joint Staff. The ICRC may on occasion provide 
information to the Department of State or to the Office of the 
Secretary of Defense (OSD). I am not aware of any senior officials in 
OSD, or in any other Federal agency, who may have received ICRC reports 
detailing abusive behavior at U.S. detention facilities in Iraq.

                            information flow
    11. Senator Levin. General Myers, USA Today reports that on January 
13, 2004, General Abizaid made a phone call to you in which he 
``described the allegation of mistreatment'' and told you about the 
pictures, saying `here's what basically the pictures might show.' Is 
this an accurate accounting of this conversation?
    General Myers. Yes, it is accurate. The CENTCOM chain of command 
immediately recognized the significance of the allegations of abuse at 
Abu Ghraib. Determined to take proper action, a criminal investigation 
was immediately initiated and the matter was reported to the chain of 
command. General Abizaid contacted me telephonically and informed me 
that a soldier had reported the abuse. As I recall, he also informed me 
that the soldier provided photos of abusive acts that were significant, 
although I do not believe the acts depicted in the photos were 
precisely described. General Abizaid further informed me that the 
Criminal Investigation Division (CID) was investigating the report and 
that LTG Sanchez would direct a separate investigation into the matter.

    12. Senator Levin. General Myers, at the hearing you said that you 
had meetings starting in January 2004, including with Secretary 
Rumsfeld, in which you discussed the detainee abuse situation at Abu 
Ghraib, and that you understood at that time the potential damage of 
the problem, and of photos you were aware of. Please provide the dates 
of the meetings you had at which you discussed this detainee abuse 
problem, and whether you discussed the photos and the potential for 
this issue to cause damage. When did you plan on informing the relevant 
congressional committees about this matter?
    General Myers. In January 2004, General Abizaid informed me of the 
allegations of abuse and the nature of the photographs. Subsequently, 
various meetings were held with the Secretary of Defense in January, 
February, and March, and a meeting with the President, Secretary 
Rumsfeld, and Vice Chairman Pace was held in mid-April. The abuse issue 
was one of many topics mentioned at these meetings. While we were 
advised of the allegations, we had not seen the photos. We were aware 
that reports of detainee abuse could potentially affect the world's 
opinion of the United States and impact our forces in Iraq, especially 
at a time when former regime elements had increased the tempo of their 
attacks. We were also aware that public discussion of the 
investigations into these allegations by senior leaders could be 
interpreted as direction or pressure for a certain outcome in these 
cases. It was our intent to provide information to the relevant 
congressional committees about this matter once the investigations were 
complete, the chain of command had the opportunity to make decisions, 
and we had sufficient information to release to the committees. This 
plan was preempted by unauthorized release of the photographs and Major 
General Taguba's report. As I stated in my 7 May testimony, we could 
have done a better job of informing Congress of the situation and the 
existence of the photographs.

                        number of investigations
    13. Senator Levin. Secretary Rumsfeld, during the week of May 3, 
General Casey, the Army Vice Chief of Staff, said that there were some 
35 investigations under way relating to detainee abuses or deaths or 
similar allegations. On May 11, General Romig testified that the Army 
was tracking some 83 different detainee abuse cases in Iraq and 
Afghanistan. As of today, how many cases of abuses have been reported 
and how many investigations have been initiated? How many relate to 
abuse, and how many relate to deaths?
    Secretary Rumsfeld. As of 7 May, a total of 56 cases of abuse had 
been reported and were being investigated. Of these 56 cases, 33 
involve allegations of abuse and 23 involve deaths. These numbers will 
almost certainly change as more information becomes available and we 
will continue to brief the committee as additional findings arise.

    14. Senator Levin. Secretary Rumsfeld, how many people are under 
investigation in these cases? Is it more than the ones identified in 
the Taguba Report?
    Secretary Rumsfeld. As of 7 May, a total of 122 people were under 
investigation in the 56 detainee abuse and death investigations. It is 
believed this number exceeds the number of individuals identified in 
the Taguba Report. 

    15. Senator Levin. Secretary Rumsfeld, given the apparently large 
number of investigations, and based on the Taguba Report, this appears 
to be a systemic problem. Do you agree?
    Secretary Rumsfeld. The Department of the Army Inspector General, 
after completing his inspection of detainee operations, concluded that 
the abuse of detainees does not appear to be a systemic problem. This 
conclusion was shared by the Schlesinger Panel, which noted that there 
was no ``policy of abuse'' at Abu Ghraib. This conclusion is also 
consistent with the findings of the Fay Report. We have other 
investigations in progress and will continue to brief the committee on 
additional findings.

                  classification of the taguba report
    16. Senator Levin. Secretary Rumsfeld, the DOD has classified the 
Taguba Report. I have concerns about how this process was conducted. 
Why is the section detailing abuses classified while the names of the 
alleged perpetrators were not?
    Secretary Rumsfeld. In preparing his report, I am advised that 
General Taguba relied upon material marked classified as sources of 
information. Under established classification guidance, General Taguba 
was required to carry that classification forward on all statements in 
his report that were derived from this source material. Additionally, 
his entire report is required to be marked at the highest 
classification level of any material in it. Consequently, while most 
portions of General Taguba's report were marked unclassified, the 
entire report was marked Secret NOFORN. We have, however, released 
large portions of that report and the several others that followed.

    17. Senator Levin. Secretary Rumsfeld, Section 1.7 of Executive 
Order 12958 states: ``In no case shall information be classified in 
order to . . . conceal violations of law [or to] prevent embarrassment 
to a person, organization, or agency.'' What was the justification for 
classifying some of the report and not the portions naming the alleged 
perpetrators? Who was involved in the classification process and how 
was their decision reached? Do you believe that it was appropriate 
given the nature and content of the report?
    Secretary Rumsfeld. See answer above.

                      reading of the taguba report
    18. Senator Levin. General Myers, you testified that you had 
discussed the prisoner abuse issue with Secretary Rumsfeld in January. 
You called CBS in early April to request that they delay broadcast of 
the photos showing the abuse, which they did. Yet a week after CBS had 
broadcast the photos, you had still not read the Taguba Report, even 
though it had been completed in March. Given that you knew of the abuse 
problem in January, and you knew in early April that release of the 
photos could cause serious problems, why did you not read the Taguba 
Report as soon as it was completed?
    General Myers. While Major General Taguba completed his 
investigation on 12 March, required chain of command actions were not 
complete until the end of April. The appointing authority reviewed 
Major General Taguba's findings and recommendations and recommended 
appropriate actions on 6 April. In accordance with required procedures, 
adverse actions were referred to the individuals involved, providing 
them an opportunity to respond. The chain of command took final action 
on 30 April. The final report was not received in Washington, DC, until 
shortly thereafter, well after my conversation with CBS and after the 
unauthorized release of the photographs and Major General Taguba's 
report to the media.

    19. Senator Levin. Secretary Rumsfeld, at the hearing General Myers 
testified that he had discussed the detainee abuse problem with you in 
January, recognizing that it had the potential to cause serious 
problems. Yet you had not fully read the Taguba Report a couple days 
before the hearing. Given that you were aware of the serious nature of 
this abuse problem as early as January, why did you not read the Taguba 
Report as soon as it was completed?
    Secretary Rumsfeld. The Taguba Report was initiated on 31 January 
2004. An interim report was completed on 12 March and approved by LTG 
McKiernan on 6 April. LTG Sanchez approved the report's recommendations 
on 1 May, although the report was publicized by The New Yorker on 30 
April. The full Taguba Report numbered in the thousands of pages. I 
received a briefing from MG Taguba on 6 May 04.

                        april 28 senate briefing
    20. Senator Levin. Secretary Rumsfeld, you briefed the Senate on 
April 28, 2004 on Iraq in a classified session. This was the same day 
that CBS broadcast the photos that General Myers had successfully 
requested be delayed. However, you never mentioned the detainee abuse 
scandal to the Senators at that briefing, even though you say you were 
aware of the seriousness of the issue and of the existence of photos 
showing the abuse. Given that you knew well before April 28 about the 
abuse scandal, that there were photos of the abuse, and that General 
Myers had called CBS in early April to request delay in broadcast of 
the photos, why did you not inform the Senate of the detainee abuse 
scandal, even as late as the date on which the photos were broadcast?
    Secretary Rumsfeld. As I said in my testimony, one cannot truly 
appreciate the significance and ramifications of the allegations of 
detainee abuse at Abu Ghraib until viewing the photographs. At the time 
of the April 28 briefing, I had not seen the photographs. The command 
had responded promptly and several criminal investigations were 
underway when these allegations came to light in January. Public 
announcements were made then, and again when certain individuals were 
identified for further investigations in March. Had I seen the 
photographs before April 28, they would have been part of my brief.

                        viewing the photographs
    21. Senator Levin. Secretary Rumsfeld, during the hearing you said 
that you did not see the photos of the abuse until after they were 
broadcast by CBS, and they appeared in the news media. You also said 
that you did not have a chance to personally review the photos until 
the night before the hearing, May 6. Given that you knew of the abuse 
problem in January and knew of the existence of photos well before they 
were broadcast, and given that General Myers asked CBS to delay 
broadcast of the photos in early April, did you ever ask to see the 
photos before they were broadcast? If not, why not?
    Secretary Rumsfeld. As I indicated in my testimony before the 
committee, hearing a description of abuse, or hearing someone's 
description of a picture of abuse, does not compare to actually seeing 
the photographs. It was not until I had seen the photographs that I 
appreciated the significance and broad ramifications of the abuse 
allegations. The criminal investigations then underway and publicly 
announced were appropriate responses to the allegations. The photos 
were part of a criminal investigation. It is not established practice 
to reach into criminal investigations higher in the chain of command to 
review evidence of a possible crime. As I testified, though, in the 
digital age, with 24/7 news coverage, we need to develop a process to 
elevate such items to senior officials more rapidly than the current 
processes allow.

    22. Senator Levin. Secretary Rumsfeld, given that you knew the 
nature of the abuse that was under investigation before the photos were 
broadcast, and that General Myers called CBS in early April to request 
that broadcast of the photos be delayed because they could cause 
serious problems, why did you say you did not understand that the 
photos of the abuse would be very disturbing until you had actually 
seen the photos? Is it not obvious, even without seeing the actual 
photos, that a photo of abuse would be very disturbing?
    Secretary Rumsfeld. See answer above. 

                           geneva conventions
    23. Senator Levin. Secretary Rumsfeld, during your May 4, 2003, 
interview with Matt Lauer, when speaking about Iraq you stated that: 
``The decision was made that the Geneva Conventions did not apply 
precisely, but that every individual would be treated as though the 
Geneva Conventions did apply.'' You went on to state in the interview 
that ``the United States Government, the lawyers, made a conscious 
decision and announced it to the world and announced it to all the 
people engaged in the detention process that these people would, in 
fact, be treated as though the Geneva Conventions did apply.''
    At the May 7, 2004, hearing before the Senate Armed Services 
Committee, you stated that ``the President announced from the outset 
that everyone in Iraq who was detained is a prisoner of war (POW) and 
therefore the Geneva Conventions apply. Second, the decision was made 
that the civilians or criminal elements that are detainees are also 
treated subject to the Geneva Conventions, although it's a different 
element of it. I think it's the fourth instead of the third.'' 
Furthermore, you replied ``absolutely'' when asked if ``all those in 
prison had the rights of POWs.''
    How do you reconcile these statements? Do the Geneva Conventions 
apply for all detainees in Iraq or are detainees treated in a manner 
``consistent with'' the Conventions?
    Secretary Rumsfeld. The Geneva Conventions apply during all phases 
of Operation Iraqi Freedom. The plans for Operation Iraqi Freedom that 
were prepared by Commander, U.S. Central Command, and briefed to the 
President and me before outbreak of hostilities included provisions 
that clearly stated that enemy prisoners of war, retained persons, 
civilian internees will be handled and other detainee ``operations will 
be conducted in compliance with the 1949 Geneva Convention and 
applicable U.S. military regulations.'' Further, component and 
supporting commanders were responsible under the plans for Operation 
Iraqi Freedom for ``[e]nsuring treatment of all detained persons is in 
accordance with the Conventions and other applicable international 
law.'' The President directed these plans to be executed. Detention 
operations during all phases of Operation Iraqi Freedom are required to 
be conducted in accordance with the Geneva Conventions.

    24. Senator Levin. Secretary Rumsfeld, when did the President 
announce that the Geneva Conventions would apply for all detainees in 
Iraq? How was this announcement made public? What steps were taken to 
inform coalition forces about this decision? When were they made?
    Secretary Rumsfeld. On March 24, 2003, shortly after Operation 
Iraqi Freedom began, White House spokesman Ari Fleisher, when asked if 
the Geneva Conventions applied in Iraq, stated that Iraq was a 
traditional conflict, ``[a]nd we have always treated people humanely 
consistent with our international agreements. In the case of the fight 
in Iraq, there's no question that it's being done in accordance with 
the Geneva Conventions.''
    Prior to the commencement of Operation Iraqi Freedom, Commander, 
U.S. Central Command, prepared Operational Plan (OPLAN) 1003-V. 
Appendix 1 to Annex E of OPLAN 1003-V specifically addressed the 
treatment of the operational plan annex on enemy prisoners of war, 
retained persons, civilian internees, and other detainees. It outlined 
responsibilities, policies, and procedures with respect to the handling 
of detainees, and provided specific guidance that the Geneva 
Conventions applied to all persons held by U.S. forces. This means of 
promulgation is consistent with the usual manner in which commanders 
provide guidance to their subordinate commanders. The subordinate 
commands would review the OPLAN and draft their own orders. For 
instance, the CJSC EXORD itself does not specifically address the 
Geneva Conventions; rather, it refers back to OPLAN 1003-V.
    In addition to the promulgation of this OPLAN and its annexes, 
commanders were responsible for ensuring that detainees were treated in 
accordance with the Geneva Conventions and applicable international law 
and that measures were implemented to ensure the forces were aware of 
and complied with the Law of War.

    25. Senator Levin. Secretary Rumsfeld, do you believe that the 
Interrogation Rules of Engagement (ROEs) utilized by the CJTF-7 comply 
with the Geneva Conventions? What is your legal basis for this 
understanding?
    Secretary Rumsfeld. This matter was thoroughly reviewed by the 
Kern/Fay investigation. Further, General Sanchez, General Abizaid, and 
the CJTF-7 Staff Judge Advocate testified before the committee on the 
matter. I have no independent knowledge or assessment.

    26. Senator Levin. Secretary Rumsfeld, did you personally review 
these ROEs prior to their being issued? If not, who did and when?
    Secretary Rumsfeld. Neither I nor my staff was ever requested to 
review the CJTF-7 counter resistance interrogation policy. LTG Sanchez 
issued his October 12, 2003, policy guidance after consultation with 
U.S. Central Command staff. He has the authority to promulgate such 
policies, which were reviewed, as I understand, by the Commander of the 
U.S. Central Command.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                       presidential notification
    27. Senator Bill Nelson. Secretary Rumsfeld, in your testimony you 
indicated that General Pace, Vice Chairman of the Joint Chiefs of 
Staff, had notified the President about the abuse allegations in late 
January or early February. Could you provide the committee the date of 
that meeting and any details regarding what the President was told with 
respect to this case by General Pace?
    Secretary Rumsfeld. During the period of time in question, I met 
with the President once, sometimes twice, weekly and either General 
Myers or General Pace would accompany me. I cannot recall with clarity 
at which particular meeting we notified the President of the abuse 
allegations, nor the details of what was conveyed.

                           april 28 briefing
    28. Senator Bill Nelson. Secretary Rumsfeld, when you appeared 
before the Senate in a secure setting on April 28, why did you decide 
not to brief the Members on the abuse allegations and photographs at 
that meeting?
    Secretary Rumsfeld. As I said in my testimony, one cannot truly 
appreciate the significance and ramifications of the allegations of 
detainee abuse at Abu Ghraib until viewing the photographs. At the time 
of the April 28 briefing, I had not seen the photographs. The command 
had responded promptly and several criminal investigations were 
underway when these allegations came to light in January. Public 
announcements were made then, and again when certain individuals were 
identified for further investigations in March. Had I seen the 
photographs before April 28, they would have been part of my brief.

    [Whereupon, at 2:36 p.m., the committee adjourned.]


             ALLEGATIONS OF MISTREATMENT OF IRAQI PRISONERS

                              ----------                              


                         TUESDAY, MAY 11, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Chambliss, 
Graham, Cornyn, Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, 
Bill Nelson, E. Benjamin Nelson, Dayton, Bayh, and Clinton.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Gregory T. Kiley, professional staff 
member; Lucian L. Niemeyer, professional staff member; Paula J. 
Philbin, professional staff member; Lynn F. Rusten, 
professional staff member; Scott W. Stucky, general counsel; 
Diana G. Tabler, professional staff member; and Richard F. 
Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Jeremy L. Hekhuis, professional staff member; Gerald J. 
Leeling, minority counsel; Peter K. Levine, minority counsel; 
William G.P. Monahan, minority counsel; and Arun A. Seraphin, 
professional staff member.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Bridget E. Ward.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; John A. Bonsell, assistant to Senator Inhofe; 
Lance Landry, assistant to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; Dirk J. Maurer, assistant to 
Senator Collins; D'Arcy Grisier, assistant to Senator Ensign; 
Lindsey R. Neas, assistant to Senator Talent; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Meredith Moseley, assistant 
to Senator Graham; Christine O. Hill, assistant to Senator 
Dole; Russell J. Thomasson, assistant to Senator Cornyn; Mieke 
Y. Eoyang, assistant to Senator Kennedy; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi and Richard Kessler, 
assistants to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Rashid Hallaway, assistant to Senator Bayh; and Andrew 
Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today for the second 
of a series of hearings regarding the mistreatment of Iraqi 
prisoners by some elements, and certain personnel, few in 
number, I hope, of the Armed Forces, in violation of United 
States and international law.
    Testifying before us today is Major General Antonio M. 
Taguba, U.S. Army, Deputy Commanding General for Support, 
Coalition Forces Land Component Command (CFLCC).
    On January 31, 2004, General Taguba was appointed by 
General Sanchez, Commander, Combined Joint Task Force-7 (CJTF-
7), to conduct a Procedure-15 investigation into allegations of 
prisoner abuse at the Abu Ghraib prison. General Taguba's 
report was received by this committee on Tuesday, May 4, and 
its related annexes were received yesterday, May 10. As members 
know, they are in the possession of the committee, and members 
and staff worked on those reports until very late last night.
    Joining General Taguba are Lieutenant General Lance L. 
Smith, U.S. Air Force, Deputy Commander of Central Command 
(CENTCOM); and Dr. Stephen A. Cambone, Under Secretary of 
Defense for Intelligence (USDI).
    We welcome our witnesses. General Taguba, I wish to 
personally commend you for your public service.
    General Taguba. Yes, sir.
    Chairman Warner. Following the testimony of our witnesses, 
we'll receive testimony from a second panel of witnesses this 
afternoon, commencing at 2:30.
    As I stated last week, this mistreatment of prisoners 
represents an appalling and totally unacceptable breach of 
military regulations and conduct. The damage done to the 
reputation and credibility of our Nation and the Armed Forces 
has the potential to undermine substantial gains and the 
sacrifices by our forces and their families, and those of our 
allies fighting with us in the cause of freedom.
    This degree of breakdown in military leadership and 
discipline represents an extremely rare chapter in the 
otherwise proud history of our Armed Forces. It defies common 
sense, and contradicts all the values for which America stands. 
There must be a full accounting for the cruel and disgraceful 
abuse of Iraqi detainees, consistent with our laws and the 
protections of the Uniform Code of Military Justice (UCMJ).
    I'm proud of the manner in which the Armed Forces have 
quickly reacted to these allegations, undertaken appropriate 
investigation, and begun disciplinary actions. We are a nation 
of laws, and we confront abuses of our laws openly and 
directly.
    We have had an apparent breakdown of discipline and 
leadership at this prison, and possibly at other locations. We 
think it important to confront these problems swiftly, assuring 
that justice is done, and take the corrective actions so that 
such abuses never happen again. At the same time, it is 
important to remember that our commanders and their troops in 
Iraq are confronted with a very difficult, dangerous, complex 
military situation. Defeating insurgents and terrorists who 
seek to deny freedom and democracy to all Iraqis and who 
threaten our troops is the highest priority. Our troops are 
working very hard and courageously sacrifice to achieve that 
mission. Intelligence obtained in the course of any military 
action, obtained in accordance with proper laws and 
professional procedures, is an essential element of any 
military campaign.
    I was heartened by President Bush's words of support for 
our men and women of the Armed Forces, as he stated yesterday, 
in visiting the Department of Defense (DOD)--and I quote our 
President: ``All Americans know the goodness and the character 
of the United States Armed Forces. No military in the history 
of the world has fought so hard and so often for the freedom of 
others. Today, our soldiers, sailors, airmen, and marines are 
keeping terrorists across the world on the run. They're helping 
the people of Afghanistan and Iraq build democratic societies. 
They're defending America with unselfish courage. These 
achievements have brought pride and credit to this Nation. I 
want our men and women in uniform to know that America is proud 
of you, and that I'm honored to be your commander in chief.''
    Speaking for myself, I feel our President, our Secretary of 
Defense (SECDEF), Chairman of the Joint Chiefs of Staff (CJCS), 
and the other officers of our military have very correctly and 
properly addressed the seriousness of these issues, and I 
commend them.
    We must not forget our overall purpose in Iraq. Success 
there is absolutely essential. Our men and women in uniform 
make a remarkable institution in this great America. From time 
to time it must heal itself, consistent with law and tradition, 
and that is what we're doing in this particular case. We have a 
responsibility here in Congress to help them do that, and that 
is precisely the purpose of these hearings.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Today's hearing continues the committee's examination of 
the events at Abu Ghraib detention facility and the effort to 
learn what led to the abuses of Iraqi prisoners so graphically 
depicted in the photographs that have shocked and disgusted the 
civilized world; and who may have authorized, encouraged, or 
suggested those despicable actions. Getting to the truth of 
what happened and who was responsible is important for our 
military men and women, for the American people, for the 
success of our mission in Iraq, and for a watching world.
    General Taguba, while your report paints a disturbing 
picture of horrible abuses and leadership failures at Abu 
Ghraib, your report reflects an honest and detailed assessment 
of the situation there, and includes sensible recommendations 
on how to begin fixing those problems. I thank you for your 
professionalism in carrying out this service to our Nation.
    The hearing we held last week barely scratched the surface 
of the issues that this committee must examine. It yielded 
little in the form of detailed information as to how these 
abuses could possibly have occurred and who was responsible for 
them, including those within and without the chain of command 
whose policy decisions created an environment in which the 
abuses could occur.
    The despicable actions described in General Taguba's report 
not only reek of abuse, they reek of an organized effort and 
methodical preparation for interrogation. The collars used on 
prisoners, the dogs, and the cameras did not suddenly appear 
out of thin air. These acts of abuse were not the spontaneous 
actions of lower-ranking enlisted personnel who lacked the 
proper supervision. These attempts to extract information from 
prisoners by abusive and degrading methods were clearly planned 
and suggested by others.
    Today, we begin what must be a determined pursuit of the 
answers to the questions:

        Who organized the effort?
        Who oversaw it?
        Under what directives and policies were these actions 
        implemented?

    All of those up and down the chain of command who bear any 
responsibility must be held accountable for the brutality and 
humiliation they inflicted on the prisoners and for the damage 
and dishonor that they brought to our Nation and to the United 
States Armed Forces, which is otherwise filled with honorable 
men and women acting with courage and professionalism to bring 
stability and security and reconstruction to Iraq.
    Thank you, Mr. Chairman.
    Chairman Warner. I'll ask the witnesses to rise. [Witnesses 
sworn.]
    In accordance with the time-honored traditions of our 
country of civilian control over the military, we recognize 
Secretary Cambone, who is speaking on behalf of the DOD.
    Mr. Secretary?

   STATEMENT OF HON. STEPHEN A. CAMBONE, UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Secretary Cambone. Mr. Chairman, thank you.
    Members of the committee, we're here today to continue the 
discussion on the terrible activities at Abu Ghraib, begun last 
Friday by the SECDEF, the CJCS, and other members of the panel.
    Before going further, let me say that we are dismayed by 
what took place. The Iraqi detainees are human beings. They 
were in U.S. custody. We had an obligation to treat them right. 
We didn't do that. That was wrong. I associate myself, without 
reservation, to the sentiments expressed by the SECDEF. To 
those Iraqis who were mistreated by members of the U.S. Armed 
Forces, I offer my deepest apology. It was un-American, and it 
was inconsistent with the values of our Nation.
    Now, a number of issues arose related to those events 
during the hearing last Friday, which, as Senator Levin has 
noted, were not fully engaged. I wanted to tick off a short 
list that we have been developing since then as a way of 
preparation in answer to the questions we know that you have.
    But before I go through those, let me say, again, that we 
will give you this information today, to the best of our 
knowledge. We do not have, yet, all the facts related to this 
case. There are at least five other investigations ongoing, and 
we will need that information in order to come to a full 
understanding.
    So, first, with respect to the application of the Geneva 
Conventions to detainees in Iraq, from the outset of the war in 
Iraq, the United States Government has recognized and made 
clear that the Geneva Conventions apply to our activities in 
that country. Members of our Armed Forces should have been 
aware of that. If they were not--if they were not--Lieutenant 
General Sanchez, the CJTF-7 commander, reminded them, on more 
than one occasion, that the forces under his command operated 
under that obligation.
    Nevertheless, there clearly was a breakdown in following 
Geneva Conventions procedures at Abu Ghraib, and we are in the 
process of investigating why that happened.
    As Major General Miller, who is now in charge of detainee 
operations in Iraq, remarked on Saturday, ``The procedures 
established for interrogations in Iraq were sanctioned under 
the Geneva Conventions and authorized in U.S. Army manuals. All 
permissible''--permissible--``interrogation activities were 
within the requirements and boundaries of applicable provisions 
of the Geneva Conventions.'' We are currently investigating why 
soldiers--some soldiers--at Abu Ghraib did not abide by those 
understood procedures and guidelines.
    Early in the war on terrorism, long before the war in Iraq, 
the President made a determination that the Geneva Conventions 
did not apply to al Qaeda detainees. That decision was made 
because the Geneva Conventions govern conflicts between states, 
and the al Qaeda is not a state, much less a signatory of the 
Geneva Conventions. Moreover, the Geneva Conventions forbid the 
targeting of civilians, and require that military forces wear 
designated uniforms to distinguish them from noncombatants. 
Terrorists don't care about the Geneva Conventions, nor do they 
abide by its guidelines. They deliberately target civilians, 
for example, and have brutalized and murdered innocent 
Americans. To grant terrorists the rights they so cruelly 
reject would make a mockery of the Geneva Conventions.
    Nevertheless, President Bush did order--did order--that 
detainees held at Guantanamo be treated humanely and consistent 
with the Geneva Conventions' principles. In fact, those 
detainees in the war on terror are being provided with many of 
the privileges typically afforded to enemy prisoners of war.
    The notion that this decision in some way undermined the 
Geneva Conventions or created a poor climate is false. To the 
contrary, the administration made this decision with the 
objective of assuring that those who would claim protection 
under its auspices, and not act in keeping with its intent, did 
not abuse the Geneva Conventions. Far from disrespect, the 
decision was made out of a notion of respect. The notion of a 
departmental belief that the alleged climate created and led to 
abuse in Iraq is, therefore, not in keeping with clear and 
stated determination to adhere to the Geneva Conventions.
    Second, Major General Miller's recommendations. Major 
General Miller was sent to Iraq--it was late August 2003--based 
on his experience with the flow of information gained by 
interrogation at Guantanamo Bay. He was sent under Joint Staff 
auspices--and, as I said on Friday before this committee, with 
my encouragement--to determine if the flow of information to 
CJTF-7 and back to the subordinate commands could be improved. 
He laid out an approach to do this in a series of 
recommendations to General Sanchez. He had no directive 
authority in that visit.
    One recommendation on detention operations was to dedicate 
and train a detention guard force subordinate to the joint 
intelligence commander that would, in the words of General 
Taguba's report and others, ``set the conditions for the 
successful interrogation and exploitation of internees and 
detainees.'' In making this recommendation, Major General 
Miller was underscoring the need for military police (MP) and 
military intelligence (MI) personnel, both of whom serve 
different functions, to act in a fashion such that the one, MP, 
did not undermine the efforts of the other, MI, to discover, 
during interrogation, the information that was important to 
coalition forces and to the lives of Iraqi civilians. 
Consequently, he underscored the need for a legal review of his 
recommendations by a dedicated command staff judge advocate 
(SJA).
    With respect to detention operations, Major General Miller 
noted that their purpose is to provide a safe, secure, and 
humane environment that supports the expeditious collection of 
intelligence. In addition, he observed that detention 
operations must be structured to ensure the detention 
environment focuses the internees' confidence and attention on 
their interrogators. He recommended training in building the 
teamwork the interrogator and detention staffs needed to 
accomplish the objectives.
    The order placing the MP at Abu Ghraib under the tactical 
control of the 205th Military Intelligence Brigade--and here, 
for more of the detail, I can defer to General Smith--but on 
November 19, 2003, General Sanchez issued an order effectively 
placing Abu Ghraib under the tactical control of the 205th 
Military Intelligence Brigade. This order was within the 
authority of General Sanchez to give. As I say, Lieutenant 
General Smith might elaborate on the reasons that the order was 
given. But what it did is, it gave a senior officer 
responsibility for the facility. For the facility. We needed 
someone to take care of such matters as security, force 
protection, the internal security, living conditions for the 
troops, and other things. It did not give, as far as I 
understand it, the MI brigade commander the authority over MP 
operations. If I might note, if you look at General Karpinski's 
CNN interview last night, she makes comments to that effect.
    Let me stress that the promulgation of the order in no way 
changed the rules governing the conduct of MP and military 
personnel in Iraq with respect to the laws of war, the Geneva 
Conventions, CENTCOM directions, or CJTF-7 directions and 
instructions.
    Third, the role of contractors. Contractors may not perform 
interrogations except under the supervision of military 
personnel. There may have been circumstances under which this 
regulation was not followed. I cannot tell you that it was 
followed in all respects. This is a matter that General Fay is 
now examining. In addition, contractors may not supervise or 
give orders or direction to military personnel. While 
contractors are not under military discipline--another issue 
raised on Friday--they are subject to suspension from their 
contracts by the government for cause. Furthermore, criminal 
sanctions for any crimes a contractor may commit may be 
available in U.S. Federal Court and may be be referred to U.S. 
Federal Court.
    Fourth, with respect to the oversight of military 
intelligence criminal investigation in the operations of 
combatant commanders, I have, on page 8 of the statement that I 
prepared for you, listed the roles of the office I presently 
hold, that of the joint commands and that of the Services. I 
then go on and talk about oversight of criminal investigations 
and the role of the DOD Inspector General's (IG) office and the 
counterintelligence oversight.
    On page 9, I begin the actions underway. The SECDEF 
reviewed those with you on Friday, and I will not take your 
time here unless the committee wishes to return to them, but to 
add one development since we were here last, and that is that 
the SECDEF is now preparing a personal message for the men and 
women of the Armed Forces, underscoring his dismay over the 
events at Abu Ghraib, expressing his confidence in the valor 
and professionalism of the men and women, stressing, once 
again, that the Geneva Conventions apply to our conflict in 
Iraq, and expressing his confidence in the ultimate success of 
our mission in Iraq.
    Mr. Chairman, this is an occasion to demonstrate to the 
world the difference between those who believe in democracy and 
those who do not. We value human life. We believe in the right 
to individual freedom and the rule of law. For those beliefs, 
we send our men and women abroad to protect that right for our 
own people and to give millions of others hope for freedom in 
the future. Part of that mission is making sure that when 
wrongdoing or scandal occurs, it's not covered up, but exposed, 
investigated, publicly disclosed, and the guilty brought to 
justice.
    I believe we can repair the damage done to our credibility 
in the region. If we hold true to our principles and continue 
to keep our commitments to the people of Iraq and Afghanistan, 
eventually the nobility of that mission will touch the hearts 
of more people in the Arab world. I am confident of this 
because of the outstanding service that has been rendered by 
the vast majority of the men and women of the U.S. Armed 
Forces.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Cambone follows:]
             Prepared Statement by Hon. Stephen A. Cambone
    Mr. Chairman, members of the committee. We are here today to 
continue the discussion on the terrible activities at Abu Ghraib begun 
last Friday by the SECDEF, the CJCS, Acting Secretary of the Army, Army 
Chief of Staff, and the Deputy Commander, CENTCOM, who is with us 
today.
    Before going further, let me say that we are dismayed by what took 
place. The Iraqi detainees are human beings, they were in U.S. custody, 
we had an obligation to treat them right, and we didn't do that. That 
was wrong. I associate myself without reservation to the sentiments 
expressed by the SECDEF: ``To those Iraqis who were mistreated by 
members of U.S. Armed Forces I offer my deepest apology. It was un-
American, and it was inconsistent with the values of our Nation.''
    A number of issues related to those events arose during the hearing 
last Friday or have been the subject of public commentary before or 
since. I'd like to take a moment to address some of them.
    First, with respect to the application of the Geneva Conventions to 
detainees in Iraq: From the outset of the war in Iraq, the United 
States government has recognized and made clear that the Geneva 
Conventions applied to our activities in that country. Members of our 
Armed Forces should have been aware of that.
    If they were not, Lieutenant General Sanchez, CJTF-7 Commander, 
reminded the forces under his command of the obligation.
    Nevertheless, there clearly was a breakdown in following Geneva 
Conventions procedures at Abu Ghraib, and we are in the process of 
investigating right now why that happened.
    As Major General Miller, who is now in charge of detainee 
operations in Iraq, remarked on Saturday, the procedures established 
for interrogations in Iraq were sanctioned under the Geneva Conventions 
and authorized in U.S. Army manuals. All permissible interrogation 
activities were within the requirements and boundaries of applicable 
provisions of the Geneva Conventions.
    We are currently investigating why some soldiers at Abu Ghraib did 
not abide by those understood procedures and guidelines.
    Early in the war on terrorism, long before the war in Iraq, the 
administration made a determination that the Geneva Conventions did not 
apply to al Qaeda detainees.
    That decision was made because the Geneva Conventions govern 
conflicts between states and the al Qaeda is not a state, much less a 
signatory of the convention. Moreover, the conventions forbid the 
targeting of civilians and requiring that military forces wear 
designated uniforms to distinguish them from noncombatants. Terrorists 
don't care about the Geneva Conventions nor do they obey its 
guidelines. They deliberately target civilians, for example, and have 
brutalized and murdered innocent Americans in their custody.
    To grant terrorists the rights they so cruelly reject would make a 
mockery of the Geneva Conventions. Nonetheless, President Bush did 
order that detainees held at Guantanamo be treated humanely and 
consistent with the Geneva Conventions' principles. In fact, those 
detainees in the war on terror are being provided with many privileges 
typically afforded to enemy prisoners of war (EPW).
    The notion that this decision in some way undermined the Geneva 
Conventions is false. To the contrary, the administration made this 
decision with the objective of assuring that those who would claim 
protection under its auspices and not act in keeping with its intent 
did not abuse the Geneva Conventions. Far from disrespect, the decision 
was made out of respect.
    The notion of a departmental belief that the alleged climate 
created and led to abuse in Iraq is therefore not in keeping with clear 
and stated determination to adhere to the Geneva Conventions.
    Second, Major General Miller's recommendations: Major General 
Miller was sent to Iraq based on his experience with the flow of 
information gained by interrogation at Guantanomo Bay. He was sent 
under Joint Staff auspices to determine if the flow of information to 
CJTF-7 and back to the subordinate commands could be improved. His 
report laid out an approach to do this in a series of recommendations 
to General Sanchez.
    One recommendation on detention operations was to dedicate and 
train a detention guard force subordinate to the Joint Interrogation 
and Detention Center (JIDC) commander that ``sets the conditions'' for 
the successful interrogation and exploitation of internees/detainees. 
In making this recommendation, Major General Miller was underscoring 
the need for MP and MI personnel to act in a fashion such that the one 
did not undermine the efforts of the other to discover, during 
interrogation, information that was important to coalition forces and 
the lives of Iraqi civilians. Consequently he underscored the need for 
legal review by a dedicated command SJA.
    With respect to detention operations, Major General Miller noted 
that their purpose is to provide a safe, secure, and humane environment 
that supports the expeditious collection of intelligence.
    In addition, he observed that detention operations must be 
structured to ensure the detention environment focuses the internee's 
confidence and attention on their interrogators. He recommended 
training in building the teamwork between the interrogator and 
detention staffs to accomplish this objective.
    Order placing MPs tactical operation (TACON) to MI: On November 19, 
2003 General Sanchez issued an order effectively placing Abu Ghraib, 
under tactical control of the 205th Military Intelligence Brigade. This 
order was within the authority of General Sanchez to give and 
Lieutenant General Smith might elaborate on the reasons this order was 
given. It gave a senior officer responsibility for the facility. This 
included force protection, internal security, living conditions for the 
troops, and so forth. It did not give the MI brigade commander 
authority over MP operations. Let me stress that its promulgation in no 
way changed the rules governing the conduct of the MP and MI personnel 
in Iraq with respect to the laws of war, the Geneva Conventions, 
CENTCOM direction or CJTF-7 directions and instructions.
    Third, role of contractors: I am informed that contractors may not 
perform interrogations except under the supervision of military 
personnel. There may have been circumstances under which this 
regulation was no, followed. This is a matter that General Fay will 
examine. In addition, contractors may not supervise or give orders or 
direction to military personnel. While contractors are not under 
military discipline, they are subject to suspension from their contract 
by the government. Furthermore, criminal sanctions for any crimes a 
contractor may commit may be available in U.S. Federal Court.
    Fourth, with respect to oversight of MI, criminal investigation, 
and the operations of combatant commanders.

        <bullet> Intelligence support--The USDI ensures that 
        intelligence support across DOD meets warfighters' 
        requirements. This includes ensuring the alignments of policies 
        and programs with current operational requirements, oversight 
        of certain special access programs and development of 
        intelligence-related strategies and assessments. Joint commands 
        provide oversight to ``intelligence activities,'' consistent 
        with their ongoing oversight responsibilities for 
        ``operations.'' Services have responsibility for policy, 
        training, doctrine, and allocation of forces to joint commands. 
        Services are also responsible for counterintelligence 
        investigations and oversight. 
        <bullet> Criminal investigations--The DODIG oversees the 
        military departments' criminal investigative missions. Within 
        the DODIG's office, the office of Investigative Policy and 
        Oversight develops and maintains DOD policy addressing 
        investigative and law enforcement matters in DOD, as well as 
        corresponding legislative issues. Specifically, the Oversight 
        Directorate examines investigative and law enforcement 
        operations and programs to assess effectiveness and efficiency, 
        compliance with established policy and procedures, and need for 
        new or revised policy applicable to investigations or law 
        enforcement.

    Actions taken or underway:

    A. Lieutenant General Sanchez, Commander, CJTF-7, launched a 
criminal investigation immediately.
    B. He asked Major General Taguba for an administrative review of 
procedures at the Abu Ghraib facility. These have resulted already in 
criminal or administrative actions against many individuals, including 
the relief of the prison chain of command and criminal referrals of 
several soldiers directly involved in abuse.
    C. The Army has launched an IG Review of detainee operations 
throughout Afghanistan and Iraq, which continues.
    D. The Army has initiated an investigation of Reserve training with 
respect to MI and MP function.
    E. Lieutenant General Sanchez asked for an Army Intelligence review 
of the circumstances discussed in Major General Taguba's report.
    F. The SECDEF has directed the Naval IG to review our operations at 
Guantanamo and the Charleston Naval Brig.
    G. Several senior former officials, led by former SECDEF James 
Schlesinger, have been asked to examine the pace, breadth, and 
thoroughness of the existing investigations, and to determine whether 
additional investigations need to be initiated. They are being asked to 
report their findings within 45 days of taking up their duties, and the 
SECDEF will encourage them to meet with you to keep you apprised.
    H. The SECDEF is preparing a personal message for the men and women 
of the armed forces underscoring his dismay at events at Abu Ghraib, 
expressing his confidence in the valor and professionalism, stressing 
once again that the Geneva Conventions applies to our conflict in Iraq 
and expressing his confidence in the ultimate success of our mission in 
Iraq.

    This is an occasion to demonstrate to the world the difference 
between those who believe in democracy and human rights and those who 
believe in rule by the terrorist code. We value human life; we believe 
in their right to individual freedom and the rule of law. For those 
beliefs, we send our men and women of the Armed Forces abroad--to 
protect that right for our own people and to give millions of others 
the hope of a future of freedom. Part of that mission is making sure 
that when wrongdoing or scandal occurs it is not covered up, but 
exposed, investigated, publicly disclosed--and the guilty brought to 
justice.
    I believe we can repair the damage done to our credibility in the 
region. If we hold true to our principles and continue to keep our 
commitments to the people of Iraq and Afghanistan, eventually the 
nobility of that mission will touch the hearts of more people in the 
Arab world. I am confident of this because of the outstanding service 
that has been rendered by the vast majority of the men and women of 
U.S. Armed Forces.
    Thank you Mr. Chairman. My colleagues have some comments to make.

    Chairman Warner. Thank you very much, Secretary Cambone.
    General Smith, do you have a few opening comments?

 STATEMENT OF LT. GEN. LANCE L. SMITH, USAF, DEPUTY COMMANDER, 
                 UNITED STATES CENTRAL COMMAND

    General Smith. Senator Warner, Senator Levin, members of 
the committee, sir, I'll stand by the comments that I made on 
Friday, but to add that, once again, on behalf of General 
Abizaid and all the men and women of CENTCOM, we regret very 
much that these events ever occurred, and apologize to those 
who are victims of the abuse.
    I would like to assure you that, in every case where the 
investigations have had recommendations and findings, that we 
have either implemented the recommendations or are in the 
process of making the fixes necessary to alleviate the 
problems, sir.
    That in all cases where we have had recommendations and 
findings, they have either been implemented or we are in the 
process of implementing fixes to ensure that those gaps that we 
had, either in policy, procedures, or leadership, are being 
fixed.
    We, at the same time, have a number of investigations that 
are ongoing that should give us more answers to some of the 
questions that we all have about what actually went on in the 
Abu Ghraib prison, the most significant of which is the General 
Fay investigation over the MI brigade. We will continue to try 
and make every effort to ensure that we implement the proper 
procedures, policies, and practices to ensure that this never 
happens again, sir.
    Thank you, Senator Warner.
    Chairman Warner. General Taguba, we welcome you.

   STATEMENT OF MG ANTONIO M. TAGUBA, USA, DEPUTY COMMANDING 
  GENERAL FOR SUPPORT, COALITION FORCES LAND COMPONENT COMMAND

    General Taguba. Thank you, sir.
    Mr. Chairman, Senator Levin, members of the committee, good 
morning, all.
    I am Major General Antonio M. Taguba, the Deputy Commanding 
General for Support, U.S. Army Central Command and Coalition 
Forces Land Component Command (CFLCC) that is headquartered in 
Camp Arifjan, Kuwait.
    Let me continue, sir. On January 24, 2004, I was directed 
by Lieutenant General David McKiernan, the Commanding General. 
I sent CFLCC to conduct an investigation into the allegations 
of detainee abuse at Abu Ghraib prison, which is also known as 
the Baghdad Central Confinement Facility. I appreciate the 
opportunity to appear before you today to discuss the purpose, 
the findings, and the recommendation of that investigation.
    The purpose of the investigation, with specific 
instructions, were as follows:
    First, inquire into all of the facts and circumstances 
surrounding the recent allegations of detainee abuse, 
specifically allegations of maltreatment at the Abu Ghraib 
prison.
    Second, inquire into detainee escapes and accountability 
lapses, as reported by CJTF-7, specifically allegations 
concerning these events at the Abu Ghraib prison.
    Third, investigate the training, standards, employment, 
command policies, internal procedures, and command climate in 
the 800th MP Brigade, as appropriate.
    Finally, make specific findings of fact concerning all 
aspects of this investigation, and make recommendations for 
corrective action, as appropriate.
    My investigation team consisted of officers and senior 
enlisted personnel who are military policemen, experts in 
detention and corrections, judge advocates, psychiatrists, and 
public affairs officers. At the onset, I did not have MI 
officers or experts in military interrogation on my team, 
because the scope of my investigation dealt principally with 
detention operations and not intelligence-gathering or 
interrogations operations.
    However, during the course of my team's investigation, we 
gathered evidence pertaining to the involvement of several MI 
personnel or contractors assigned to the 205th MI Brigade in 
the alleged detainee abuses at Abu Ghraib. As stated in the 
findings of the investigation, we recommended that a separate 
investigation be initiated under the provisions of Procedure 
15, Army Regulation 381-10, concerning possible improper 
interrogation practices in this case. Again, my task was 
limited to the allegations of detainee abuse involving MP 
personnel and the policies, procedures, and command climate of 
the 800th MP Brigade.
    As I assembled the investigation team, my specific 
instructions to my teammates were clear: maintain our 
objectivity and integrity throughout the course of our mission 
in what I considered to be a very grave, highly sensitive, and 
serious situation; to be mindful of our personal values and the 
moral values of our Nation; to maintain the Army values in all 
of our dealings; and to be complete, thorough, and fair in the 
course of the investigation. Bottom line, we'll follow our 
conscience and do what is morally right.
    As agonizing as this investigation was, I commend the 
exceptional professionalism of my teammates, their 
extraordinary efforts, and the outstanding manner by which they 
carried out my instructions. I also commend the courage and 
selfless service of those soldiers and sailors who brought 
these allegations to light, discovered evidence of abuse, and 
turned it over to the military law enforcement authorities. The 
criminal acts of a few stand in stark contrast to the high 
professionalism, competence, and moral integrity of countless 
active, Guard, and Army Reserve soldiers that we encountered in 
this investigation.
    At the end of the day, a few soldiers and civilians 
conspired to abuse and conduct egregious acts of violence 
against detainees and other civilians outside the bounds of 
international law and the Geneva Conventions. Their 
incomprehensible acts, caught in their own personal record of 
photographs and video clips, have seriously maligned and 
impugned the courageous acts of thousands of U.S. and coalition 
forces. It put into question the reputation of our Nation and 
the reputation of those who continue to serve in uniform and 
who would willingly sacrifice their lives to safeguard our 
freedom.
    Thank you for the opportunity to speak before you today, 
and I look forward to answering your questions.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, General. I must say 
that I was very heartened by your use of the phrase ``Follow 
our conscience. Do what is morally right.''
    General Taguba. Yes, sir.
    Chairman Warner. I think you've done that.
    Colleagues, we'll have a 6-minute round. We take note that 
votes will start at 11:30, but it's the intention of Senator 
Levin and myself to continue this hearing on into approximately 
the 12:30 to 12:45 time frame, in hopes that further 
opportunity can be given to members for question.
    Senator Inhofe. Mr. Chairman, will there be one round?
    Chairman Warner. We'll continue until 12:45, and we'll do 
our best given the votes. We will try to keep the hearing going 
during a portion of the votes. Thank you.
    Senator Inhofe. Thank you.
    Chairman Warner. Secretary Cambone, my understanding is, 
and in my briefings with you--and I thank you for discussing 
these matters with me over the weekend--that your office has 
the overall responsibility for policy concerning the handling 
of detainees in the global war on terrorism. Is that correct?
    Secretary Cambone. Not precisely, sir. The overall policy 
for the handling of detainees rests with the Under Secretary of 
Defense for Policy by directive.
    Chairman Warner. Wait a minute. Rests with----
    Secretary Cambone. The Under Secretary of Defense for 
Policy by directive. My office became involved in this issue 
primarily from the perspective of assuring that there was a 
flow of intelligence back to the commands, and done in an 
efficient and effective way.
    Chairman Warner. Then I would presume that it would be 
incumbent upon this committee to get the Under Secretary for 
Policy over, and let him provide this committee with such 
knowledge that he has.
    Secretary Cambone. Yes, sir, and that--his 
responsibilities--and I have talked with Mr. Feith about this--
he issued any number of statements and directives, to the 
effect that detainees in Iraq, civilian or military, were to be 
treated under the provisions of the Geneva Conventions.
    Chairman Warner. Did you work with him in that?
    Secretary Cambone. Yes, sir, I was aware of that work, and 
knowledgeable of it, and endorsed it, of course.
    Chairman Warner. I'm trying to ascertain the degree to 
which the civilian authority in the DOD, under the SECDEF, be 
it yourself----
    Secretary Cambone. Yes, sir.
    Chairman Warner.--or the other under secretary, reviewed 
the procedures by which interrogations took place in our places 
of incarceration, and, most specifically, by those doing it in 
Iraq.
    Secretary Cambone. Yes, sir.
    Chairman Warner. You did review the procedures that were 
being followed for the interrogation of detainees in Iraq?
    Secretary Cambone. We gave direction that the--the DOD gave 
direction that the Geneva Conventions were to be followed. The 
procedures for interrogation are established via the use of--
and General Taguba and General Smith can clarify--but they are 
established on the basis of approved techniques for 
interrogation. There is a list of those, and you will find them 
in Army doctrine and manuals.
    Chairman Warner. Right.
    Secretary Cambone. Those are approved for use by the 
commanding general. Any exceptions to those activities that he 
authorizes, he would then set terms and conditions for 
exceptions to his guidance. At the level of those techniques 
and so forth, they were signed out at the command level, and 
not in the DOD.
    Chairman Warner. Now, you've had time to reflect on this. 
In simple and plain words, how do you think this happened?
    Secretary Cambone. With the caveat, sir, that I don't know 
the facts, it's, for me, hard to explain. I have spent a good 
deal of time over the last 10 days to 2 weeks looking at the 
various elements of this issue, and I think what we did have 
here was a problem of leadership with respect to the 372nd 
Battalion. That was the MP unit.
    Chairman Warner. Failure of leadership starting at what 
level?
    Secretary Cambone. That is decidedly more difficult to say, 
sir. Again, in simple terms, you asked. There was clear 
direction moving down the chain from the SECDEF to General 
Abizaid to General Sanchez to those people who were in charge 
of the MP. That, in this case, is General Karpinski. She had, I 
think it's eight battalions----
    General Smith. Yes, sir.
    Secretary Cambone.--eight battalions under her control, 
lodged at a large number of locations. She, as best I 
understand it, was not frequently present at Abu Ghraib.
    Abu Ghraib, itself--and let's remember the time frame that 
we're talking about. We're coming out of the period of active 
combat operations. We have a large number of detainees who are 
being moved from a facility--
    Chairman Warner. I'm going to ask you to be brief, because 
I'm holding myself to my time.
    Secretary Cambone. I understand, sir--moved them from 
temporary facilities into permanent facilities, the places 
being mortared and attacked frequently. The local commander was 
unable to bring order to that place. For that reason, I would 
argue, General Sanchez looked to Colonel Pappas, the head of 
the 205th Military Intelligence Brigade, and gave him the 
responsibility, then, for taking care of Abu Ghraib as an 
installation.
    Chairman Warner. All right. Now, the reports that were 
developed by international organizations--the International 
Committee of the Red Cross (ICRC) and others--in my 
understanding, they came to your office for an assessment and a 
determination as to what was to be done in response to those 
reports.
    Secretary Cambone. No, the reports that are at issue here 
is--the ICRC, the International Committee of the Red Cross----
    Chairman Warner. But you told me, I thought, over the 
weekend, that you----
    Secretary Cambone. I've seen the report.
    Chairman Warner. You've seen them, and----
    Secretary Cambone. I have seen it.
    Chairman Warner.--you took some steps to implement some of 
their recommendations?
    Secretary Cambone. Steps were taken to implement their 
recommendations. I saw those reports well after they were 
issued. The one in question was issued on November 6, 2003. It 
was addressed, to my knowledge, to General Karpinski, and she 
replied, at her command level, on December 24, 2003, to the 
ICRC.
    Chairman Warner. Who else in the building had access to 
those reports? Did they reach the SECDEF's level?
    Secretary Cambone. No, sir, they did not. Those reports, 
those working papers--again, as far as I understand it--were 
delivered at the command level. The process is designed so that 
the ICRC can engage with the local commanders and make those 
kinds of improvements that are necessary in a more 
collaborative environment than in an adversarial one, and so 
they tend to try to work these problems at that level.
    There was, sir, just for the record, another paper 
developed by the ICRC, which was delivered to the Coalition 
Provisional Authority (CPA) in February 2004. That paper is a 
historical paper. It is a review of activity from March or so 
of 2003 through the end of January.
    Chairman Warner. My time is running out. Sorry to cut you 
off. We've asked for those reports.
    Secretary Cambone. Yes, sir. The SECDEF is going to give 
them to you, sir.
    Chairman Warner. General Taguba, in your orders were there 
any restrictions placed upon you by General McKiernan, Generals 
Sanchez or Abizaid, in the scope of your inquiry? In other 
words, were you given a free hand to do what you felt had to be 
done?
    General Taguba. Sir, the scope, as I described to you, was 
related to the detainee abuse at Abu Ghraib. However, because 
there were detention operations under the purview of the 800th 
MP Brigade, we also looked at the operations at Camp Bucca, the 
high-value detention facility at Camp Cropper, and also the 
Mujahedin-e Khalq (MEK) facility at Camp Ashraf.
    Chairman Warner. I ask the same question to you. In simple, 
layman's language, so it can be understood, what do you think 
went wrong, in terms of the failure of discipline and the 
failure of this interrogation process to be consistent with 
known regulations, national and international? Also, to what 
extent do you have knowledge of any participation by other than 
U.S. military--namely, Central Intelligence Agency (CIA) and/or 
contractors--in the performance of the interrogations?
    General Taguba. Sir, as far as your last question--I'll 
answer that first--the comments about participation of other 
government agencies or contractors were related to us through 
interviews that we conducted, it was related to our examination 
of written statements and, of course, some other records.
    With regards to your first question, sir, there was a 
failure of leadership----
    Chairman Warner. In other words, in the material that 
you've now submitted to the Senate, or the DOD has submitted, 
we will find in there all of your knowledge with respect to 
participation by other government agencies.
    General Taguba. Yes, sir.
    Chairman Warner. It's nine volumes and about 6,000 pages. 
We just got it yesterday.
    General Taguba. Yes, sir.
    Chairman Warner. Can you give us a quick synopsis of 
participation by other U.S. Government agencies?
    General Taguba. Sir, they refer to other government 
agencies as OGAs or MIs. When I asked for clarification, it's 
because of the way they wore their uniform. Some of them did 
not wear a uniform. So I would ask them to clarify further if 
they knew any of these people, and they gave us names as 
stipulated on their statements. They also gave us names of 
those who are of MI, uniform MI in--personnel in the U.S. Army. 
That was substantiated by the comments made to us by other 
witnesses as we conducted our interviews.
    Chairman Warner. All right. In simple words, your own 
soldiers' language, how did this happen?
    General Taguba. Failure in leadership, sir, from the 
brigade commander on down, lack of discipline, no training 
whatsoever, and no supervision. Supervisory omission was 
rampant. Those are my comments.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. General Taguba, the ICRC said that the MI 
officers at the prison confirmed to them that these activities 
were all part of the MI process. Would you agree with the ICRC 
that coercive practices, such as holding prisoners naked for 
extended periods of time, were used, in their words, ``in a 
systematic way'' as part of a MI process at the prison?
    General Taguba. Sir, I did not read the ICRC report.
    Senator Levin. Would you agree with that conclusion?
    General Taguba. Yes, sir, based on the evidence that was 
presented to us and what we gathered and what we reviewed. Yes, 
sir.
    Senator Levin. Now, that's more than a failure of 
leadership. That's an active decision on the part of 
leadership. It's not just oversight or negligence or neglect or 
sloppiness, but purposeful, willful determination to use these 
techniques as part of an interrogation process. Would you 
include that in your definition of failure of leadership?
    General Taguba. Yes, sir, they were.
    Senator Levin. Secretary Cambone told us a few minutes ago 
that the shift in command at the prison did not mean that the 
MI commander had command authority over the MPs. But your 
report says the opposite, that the decision to transfer that 
command to the MI commander did effectively put that commander 
in charge of the MP. Now, do you stick by your statement?
    General Taguba. Is that to me, sir?
    Senator Levin. Yes.
    General Taguba. Sir, I did not question the order that was 
given to Colonel Pappas on the fragmentary order (FRAGO) that 
he received on November 19, 2003. That was not under my 
purview. I did ask him to elaborate on what his 
responsibilities were.
    Senator Levin. Your report states that that change in 
command, ``effectively made an MI officer rather than an MP 
officer responsible for the MP units conducting detainee 
operations at that facility.'' Is that your conclusion?
    General Taguba. Yes, sir, because the order gave him TACON 
of all units that were residing at Abu Ghraib.
    Senator Levin. All right. Secretary Cambone, do you 
disagree with that?
    Secretary Cambone. TACON is----
    Senator Levin. Do you disagree----
    Secretary Cambone.--reflected here.
    Senator Levin.--with what the General just said?
    Secretary Cambone. Yes, sir.
    Senator Levin. Pardon?
    Secretary Cambone. I do. I do not believe that the order 
placing Colonel Pappas in charge gave him the authority to 
direct the MP's activities in direct operational control 
(OPCON) conditions. Is that true, General?
    Senator Levin. Thank you. No, it's okay. Let me just keep 
going. You'll have just a disagreement over that.
    Secretary Cambone, in an article in last Sunday's 
Washington Post, in April 2003 the DOD approved about 20 
interrogation techniques for use at Guantanamo that permit 
reversing normal sleep patterns of detainees and exposing them 
to heat/cold sensory assault. The use of these techniques 
required the approval of senior Pentagon officials and, in some 
cases, of Secretary Rumsfeld, according to that article. These 
procedures, according to the Pentagon spokesman, Brian Whitman, 
are controlled and approved on a case-by-case basis. Then it 
says that the defense and intelligence officials said that 
similar guidelines had been approved for use on ``high-value 
detainees in Iraq, those suspected of terrorism or of having 
knowledge of insurgency operations.'' Is that true? Were those 
techniques adopted for Guantanamo? Were they then used or 
accepted or adopted for Iraq?
    Secretary Cambone. They are command-level guidelines for 
the use in interrogation. They are, in some cases, the same; 
and, in many cases, not.
    Senator Levin. They're not the same in Iraq?
    Secretary Cambone. Not the same.
    Senator Levin. In Iraq. Can you give us a copy of the 
guidelines?
    Secretary Cambone. I can do that.
    [The information referred to follows:]

    [Deleted.]

    Senator Levin. Both. So there were specific guidelines for 
Guantanamo, and they were different from the guidelines for 
Iraq.
    Secretary Cambone. I believe that they were, and I will 
give you the comparisons.
    Senator Levin. All right. You'll give those to the 
committee, then. Let me go to another issue.
    There was an interview in the New York Times last week in 
which Major General Miller said that 50 techniques that the 
military officially uses in prisoner interrogations--including 
hooding, sleep deprivation, and forcing prisoners into stress 
positions--have been adopted. Are you familiar with those 50 
techniques?
    Secretary Cambone. As I said in my opening statement, there 
are those techniques in Army doctrine, yes, sir.
    Senator Levin. Those are 50 techniques?
    Secretary Cambone. I don't know that it's 50, sir. There is 
a----
    Senator Levin. But it includes stress positions?
    Secretary Cambone. I believe they do.
    [Subsequently, the witness provided the following 
information for the record:] It does not.
    Senator Levin. All right, and is that something that you 
will also supply to the committee?
    Secretary Cambone. We can supply the manual to you, yes, 
sir.
    [The information referred to follows:]
   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Levin. All right. Now, in an annex in the Taguba 
Report it says the following as being a permissible technique 
for use in the Iraqi theater: ``The interrogation officer in 
charge will submit memoranda for the record requesting harsh 
approaches for the commanding general's approval prior to 
employment--sleep management, sensory deprivation, isolation 
longer than 30 days, and dogs.''
    Secretary Cambone, were you personally aware that 
permissible interrogation techniques in the Iraqi theater 
included sleep management, sensory deprivation, isolation 
longer than 30 days, and dogs?
    Secretary Cambone. No, sir. That list, both in terms of its 
detail and its exceptions, was approved at the command level in 
the theater.
    Senator Levin. That was a command-level approval?
    Secretary Cambone. As far as I understand it, yes, sir.
    Senator Levin. Mr. Secretary, you said that you had 
decided, right at the beginning, that the Geneva Conventions 
would apply to our activities in Iraq.
    Secretary Cambone. Yes, sir.
    Senator Levin. Yet Secretary Rumsfeld repeatedly has made a 
distinction between whether or not those Geneva Conventions 
rules must be applied, whether people--prisoners will be 
treated, ``pursuant to those rules'' or ``consistent with those 
rules.'' He said--and this is just a few days ago--that the 
Geneva Conventions did not apply precisely.
    Secretary Cambone. Yes, sir.
    Senator Levin. You, this morning, said, again, the Geneva 
Conventions apply to our activities in Iraq.
    Secretary Cambone. In Iraq.
    Senator Levin. But not precisely?
    Secretary Cambone. No. Sir, I think what--let me tell you 
what the facts are. The Geneva Conventions apply in Iraq.
    Senator Levin. Precisely?
    Secretary Cambone. Precisely.
    Senator Levin. Do the----
    Secretary Cambone. They do not apply in the precise way 
that the Secretary was talking about in Guantanamo and the----
    Senator Levin. He was----
    Secretary Cambone.--unlawful combatants.
    Senator Levin.--talking about Iraq. Let me cut you right 
off there. The whole interview here was about Iraq----
    Secretary Cambone. And I----
    Senator Levin.--and the conditions at that prison. That's 
what this whole entire interview was about. It was on NBC. It 
was May 5, 2004. It was an interview about Iraq. Guantanamo is 
no longer the issue here. The Secretary said something he's 
said elsewhere, and I've heard this with my own ears recently. 
He said that the Geneva Conventions apply not precisely, that 
prisoners are treated ``consistent with, but not pursuant to.''
    Now, he did say the other day and this is a quote: ``The 
Geneva Conventions did not apply precisely.'' Are you saying 
that the SECDEF misspoke on----
    Secretary Cambone. I can't speak for the SECDEF. I can only 
tell you what my understanding is, Senator----
    Senator Levin. You don't know what he meant by that?
    Secretary Cambone. I can tell you what I understand, and 
that is that----
    Senator Levin. No. Do you know what he meant----
    Secretary Cambone.--the Geneva Conventions apply.
    Senator Levin.--by that?
    Secretary Cambone. Sir, I can't speak for the SECDEF on 
that issue. I'll----
    Senator Levin. You've not talked to----
    Secretary Cambone.--take the--I will take the question for 
the record, and I will ask him. I can't----
    Senator Levin.--the May 5 interview.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Thank you.
    Chairman Warner. Thank you very much, Senator Levin.
    I think, at this juncture, Secretary Cambone said the 
question of the utilization of dogs and other things were at 
the command level. Can you speak to that response to that 
important question?
    General Smith. Sir, I can. The rule on dogs, that I'm aware 
of, is that they can patrol in the areas, but they have to be 
muzzled at all times.
    Chairman Warner. Have you examined the exact language that 
your command promulgated down to these prisons?
    General Smith. Sir, I have the Army techniques that are 
authorized, which is what they live by.
    Chairman Warner. All right. We have to clarify this. 
Secretary Cambone said it came from your command, so I ask you 
to focus on it and provide it for the committee.
    [The information referred to follows:]

    [Deleted.]

    Senator McCain?
    Senator McCain. Thank you.
    Senator McCain. General Taguba, I want to thank you for 
your excellent report, and I think it's been very helpful to 
this committee, as well as to the American people.
    General Miller--first of all, we know that the detainees at 
Guantanamo Bay are not subject to the Geneva Conventions 
because they're al Qaeda--at least those that are al Qaeda--
and, therefore, being terrorists, they are not subject to the 
Geneva Conventions for the treatment of prisoners of war. I 
don't disagree with that assessment, and I don't think you do, 
either. Do you?
    General Taguba. Yes, sir, no.
    Senator McCain. Yet General Miller was quoted in your 
report, when he arrived in Iraq--I believe Secretary Cambone 
was one of those who urged his transfer there--that he wanted 
to ``Gitmo-ize'' the treatment of prisoners in--throughout 
Iraq, including Abu Ghraib prison. What do you make of that 
statement?
    General Taguba. Sir, I'd defer that to General Miller, sir. 
But, for the record, I've never been to Guantanamo. I'm only 
knowledgeable of my experience and my observations at Abu 
Ghraib, which is a detention operation, along with the other 
detention operations under the command and control of the 800 
MP Brigade, as under combat conditions, separate and distinct 
of what I consider to be a sterile environment in Cuba.
    Senator McCain. But you found, clearly in your report, 
violations of the rules for the treatment--Geneva Conventions 
for the treatment of prisoners of war, right?
    General Taguba. Yes, sir.
    Senator McCain. Including moving prisoners around to avoid 
ICRC inspections?
    General Taguba. Yes, sir. That was conveyed to us by those 
that we interviewed, and comments that we assessed in the 
written statements.
    Senator McCain. In your report, General Karpinski says that 
General Sanchez said that in the case of problems in the 
prison--there was uprising and riot and escape--an American, I 
believe, was killed--that they should use lethal means 
immediately, and not non-lethal means to start with. Isn't that 
according to your report?
    General Taguba. Yes, sir. They changed their rules of 
engagement (ROE), I believe, four times, to use lethal and then 
to--non-lethal to lethal force based on the levels of the 
events. I believe the last time they changed the ROE, sir, was 
in November of last year. That's contained in one of the 
annexes that we have.
    Senator McCain. In your judgment, were these abuses a 
result of an overall military or intelligence policy to 
``soften up'' detainees for interrogation?
    General Taguba. Sir, we did not gain any evidence where it 
was an overall MI policy of the sort. I think it was a matter 
of soldiers, with their interaction with MI personnel, who they 
perceived or thought to be competent authority that were giving 
them--or influencing their actions to set the conditions for 
successful interrogations operations.
    Senator McCain. According to your report, these abuses were 
very widespread, correct?
    General Taguba. Sir, the manner by which we conducted our 
investigation and collected evidence was that they were between 
mid- to late-October, and as late as December, perhaps early 
January.
    Senator McCain. Mr. Cambone, the media report that 
complaints were made by Ambassador Bremer and Secretary Powell 
concerning the treatment of prisoners in Iraq, do you know 
anything about that?
    Secretary Cambone. No, sir, I am not aware of those 
complaints.
    Senator McCain. In your opinion--well, maybe I'd better ask 
General Taguba--how far up the chain of command did awareness 
of these ongoing abuses--let me ask this.
    When someone says that they're going to ``Gitmo-ize'' a 
prison, wouldn't a subordinate think, ``We're going to change 
the rules''?
    General Taguba. Sir, I'd rather not speculate on that. I 
don't exactly know what General Miller meant by ``Gitmo-izing'' 
Abu Ghraib because it's a different situation there.
    Senator McCain. I think it's pretty obvious, but I thank 
you for your testimony and your report.
    Tell me, again, about your view of General Karpinski's role 
in this. She says that she was excluded from certain parts of 
the prison and certain areas where some of these abuses took 
place. Do you have anything on that?
    General Taguba. Sir, I disagree with that.
    Senator McCain. You agree or disagree?
    General Taguba. I disagree with the fact that she was 
excluded from certain areas of the prison. I believe, in my 
interview of her, she was still in charge of detention 
operations in-theater, and it's hard for me to believe that she 
would be excluded from any of those facilities, or even 
portions of those facilities.
    Senator McCain. What evidence did you find that these 
individuals received any training in the Geneva Conventions for 
the treatment of prisoners of war?
    General Taguba. Sir, the evidence that we gathered were 
training records from the training that they received at the 
mobilization station and home station, their mission essential-
tasks list that they developed to prepare them for deployment, 
that sort of thing. Several of these soldiers intimated to us--
at least conveyed to us--that they were never trained on 
internment or resettlement operations. But as far as I was 
concerned, sir, they were--their leaders should have, could 
have, provided the necessary resources to which they are 
expected to do so in training their soldiers.
    Senator McCain. But they did not receive it.
    General Taguba. No, sir.
    Senator McCain. Mr. Cambone states that they did, and the 
SECDEF states they did. I thank you, General.
    Thank you very much, Mr. Chairman.
    Secretary Cambone. Mr. Chairman, could I just be a little 
more clear with Senator McCain?
    Chairman Warner. Yes, indeed.
    Secretary Cambone. You asked if I was aware of concerns 
expressed by Ambassador Bremer and the Secretary of State, and 
I assumed you meant specifically on these cases.
    Senator McCain. No, I----
    Secretary Cambone. I mean, that's what I intended to 
answer.
    Senator McCain.--on the treatment of prisoners of war.
    Secretary Cambone. Yes, let me give you a broader answer, 
which is----
    Senator McCain. Thank you.
    Secretary Cambone.--Ambassador Bremer had been concerned 
about the number of people who were in custody, and was anxious 
to see them move through the system and released as rapidly as 
possible, as was Secretary Powell.
    Senator McCain. But my question was----
    Secretary Cambone.--on the broad question----
    Senator McCain.--but my question was--and I'm sorry to 
interrupt; my time's expired----
    Secretary Cambone. Forgive me.
    Senator McCain.--were you aware of the complaints about 
treatment of prisoners of war made by Ambassador Bremer?
    Secretary Cambone. Per se, in that sense, no. That he was 
worried about prisoners of war, that I knew.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    General Smith. Sir, could I also add that I have all the 
standard operating procedures (SOP) here for Gitmo. In every 
case, it is very specifically and clearly written that the 
humane treatment of prisoners is first and foremost, and 
inhumane treatment of detainees is never justified. It is all 
in the spirit of the Geneva Conventions.
    Senator McCain. I thank you. But clearly there's a 
difference between adherence to the Geneva Conventions for 
treatment of prisoners of war----
    General Smith. Yes, sir, but we were operating under the 
Geneva Conventions in Iraq. We clearly understood that.
    Senator McCain. I thank you.
    Thank you, sir.
    Chairman Warner. Now, those applied to the prison in Iraq.
    General Smith. Sir, when he went over there, and he 
talked----
    Chairman Warner. When who went?
    General Smith. When General Miller went over there, and he 
spoke and addressed this with each of the commanders, he gave 
them the SOP that they were using at Gitmo to use as an example 
on how they should generate their own operating procedures.
    Chairman Warner. That included the phraseology to----
    General Smith. Exactly, sir. I just read it to you.
    Sir, may I also just mention, on your question on 
promulgation of policy, the policy regarding dogs was 
established and put out by CJTF-7 on October 12, 2003, and it 
specifically says that interrogators must ensure the safety of 
security internees, and approaches must in no way endanger 
them. Interrogators will ensure that security internees are 
allowed adequate sleep, that diets--et cetera, et cetera--and 
then it says, ``Should military working dogs be present during 
interrogations, they will be muzzled and under control of a 
handler at all times to ensure safety.''
    So General Sanchez, through those things, very specifically 
addressed what was allowed in the interrogation room and what 
was not allowed and those things that required his approval, 
such as segregation from the population in excess of 30 days.
    Chairman Warner. Can you throw any light, then, on where 
this thing broke down, given that he started in the proper way?
    General Smith. Sir, given the guidance that was put out 
there, I can't. I have to agree with General Taguba's 
assessment of it, in that these rules and regulations were out 
there, and, somewhere in the leadership chain execution and 
implementation of these policies broke down.
    Chairman Warner. Is CENTCOM trying to find out where that 
happened?
    General Smith. Absolutely, sir.
    Chairman Warner. All right. Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    General Taguba, I want to join others in commending you and 
thank you for the service to this country.
    Secretary Cambone, I hope when you have a chance to read 
through the 2004 report, which, according to the ICRC, was 
given to Paul Bremer, General Sanchez, and the U.S. Permanent 
Mission in Geneva, according to Christopher Girard, who's from 
the ICRC, it talks about the ICRC collected allegations of ill 
treatment following the capture that took place in Baghdad, 
Basra, Ramadi, and Tikrit.
    General Taguba. Yes, sir.
    Senator Kennedy. It isn't only focused on this one prison 
camp, but lists the others, as well. I think we have to be 
aware of that.
    General Taguba. Yes, sir.
    Senator Kennedy. Now, let me just go quickly to this 
report. Newsweek Magazine reports that, since September 11, 
Secretary Rumsfeld has insisted on personally signing off on 
the harsher methods used to squeeze suspected terrorists held 
at U.S. prison in Guantanamo Bay, Cuba. He's approved such 
tactics as the use of stress positions, stripping of detainees 
naked, prolonged sleep deprivation. Have you advised Secretary 
Rumsfeld on these issues? What other officials of the DOD have 
participated in these decisions?
    Secretary Cambone. Sir, I can answer----
    Senator Kennedy. Has the General Counsel been involved in--
--
    Secretary Cambone. Yes, sir.
    Senator Kennedy.--giving advice?
    Secretary Cambone. Yes, sir.
    Senator Kennedy. He's been involved?
    Secretary Cambone. If I may, sir.
    Senator Kennedy. Yes.
    Secretary Cambone. With the permission of the chair and 
yourself, the SECDEF has a deep regard for the well-being of 
those being held in Guantanamo and their well-being and their 
care. Therefore, any procedure, which is of the type that 
General Smith suggested, which are in the approved rules, but 
are harsh, he has withheld to his approval first.
    Second, when the issue of how these prisoners, detainees, 
in Guantanamo were to be treated--there was convened, under the 
GC, the General Counsel of the Department, a working group 
whose objective it was to work through all of these issues. So 
that matrix that has been reported is the product of that 
effort.
    Senator Kennedy. All right. Let me--because my time is 
short--has the SECDEF--so he has, evidently, approved these 
kinds of things.
    Secretary Cambone. I don't know in detail, sir, but those 
that he--there is a list that he has approved.
    Senator Kennedy. He has approved. What about on Iraq? Has 
he approved signing off on harsher methods of interrogation in 
Iraq?
    Secretary Cambone. Again, sir, no. That, as General Smith 
said, is CJTF-7 promulgation.
    Senator Kennedy. If not, who--has someone had that 
authority in Iraq?
    Secretary Cambone. If there is anything that exceeds 
General Sanchez's direction, he is, as I understand it, to sign 
off on that exception.
    Senator Kennedy. So he has the authority, General Sanchez. 
Do you know whether he's used that or not?
    Secretary Cambone. General Smith?
    General Smith. Sir, he----
    Senator Kennedy. Just quickly.
    General Smith. Yes, sir. Just in that policy that I told 
you, where separation of greater than 30 days--he would be the 
approval authority. To the best of my knowledge, he has not 
used anything beyond that.
    Senator Kennedy. Let me ask you, Secretary Cambone, about 
``rendering.'' There are a number of reports about detainees in 
U.S. custody, U.S. intelligence officials being transferred for 
interrogations to governments that routinely torture prisoners. 
In December 2002, The Washington Post stated, ``Detainees that 
refuse to cooperate with Americans have been rendered to 
foreign intelligence services''--Saudi Arabia, Jordan, Morocco, 
Syria, and other countries. Can you assure the committee that 
the administration is fully complying with all of the legal 
requirements, and that all reports of U.S. officials engaging 
in the practice of rendering are false?
    Secretary Cambone. Sir, to the best of my knowledge, that 
is a true statement.
    Senator Kennedy. We are not--we have not--your statement, 
sworn statement, now--to your knowledge, the United States has 
not been involved in any rendering, any turning over of any 
personnel to any other country.
    Secretary Cambone. No. No, you said that they were turned 
over for torture and misbehavior--mistreatment. We have 
returned, for example, individuals to the United Kingdom. There 
may be three or four of them that have been returned from 
Gitmo.
    Senator Kennedy. Have you turned over, to your knowledge, 
any suspects to Saudi Arabia, Jordan, Morocco, or Syria to 
gather information?
    Secretary Cambone. From those people in DOD custody, not 
that I am aware of, sir.
    Senator Kennedy. Well, you would know----
    Secretary Cambone. I am not aware of any that have been 
transferred for that purpose. If I----
    Senator Kennedy. Well, for----
    Secretary Cambone.--if there are----
    Senator Kennedy.--for any other purpose?
    Secretary Cambone. If there are, I will come back to you 
and tell you. As best I know, there are not any persons under 
our custody that have been transferred.
    Senator Kennedy. Do the interrogators for MI, the CIA, and 
also the contract intelligence--do they all have identical 
rules and regulations, in terms of interrogating the detainees 
or prisoners of war or combatants, or is there any distinction 
among the three?
    Secretary Cambone. Within Iraq, the rules of the Geneva 
Conventions apply. So, therefore, the rules----
    Senator Kennedy. I was not--that isn't my question. That's 
not my question.
    Secretary Cambone. Sir----
    Senator Kennedy. My question is, do they have different 
kinds of rules of questioning? Do each of those services have 
rules? If they do have rules, how are they different?
    Secretary Cambone. I can speak for the DOD contractor and 
military personnel, and those rules are the same. The people we 
hire----
    Senator Kennedy. Identical.
    Secretary Cambone.--the people we hire, in most cases, are 
required to have had that training in the military in order to 
become interrogators.
    Senator Kennedy. They are bound by the same set----
    Secretary Cambone. Yes, sir.
    Senator Kennedy. So your testimony is, the private 
contractors, MI, and the military interrogators all operate at 
the same--and the CIA--all operate with the same rules of 
interrogation.
    Secretary Cambone. I can only speak for the last, the 
military, inside of Iraq, sir.
    Senator Kennedy. You're going to provide those rules to us?
    Secretary Cambone. I can do that.
    [The information referred to follows:]

    [Deleted.]

    Senator Kennedy. Let me just ask you, finally, in the 
opinion of General Taguba, the setting of conditions for 
favorable interrogation is not authorized or consistent with 
Army regulations. You seem to reach a different conclusion in 
your testimony today.
    Secretary Cambone. Yes, sir.
    Senator Kennedy. Do you agree you and General Taguba differ 
on that issue?
    Secretary Cambone. Yes, sir. We do, and in this sense----
    Senator Kennedy. I think it's important that we understand, 
when we're talking about the abuses that are taking place with 
the MP, and you have two entirely different kinds of viewpoints 
on this issue--how in the world are the MP that are supposed to 
implement going to be able to get it straight, particularly 
when you have General Miller there that is following what you 
believe, Mr. Secretary?
    Secretary Cambone. Yes, sir.
    Senator Kennedy. How are we--how do you expect the MPs to 
get it straight if we have a difference between the two of you?
    Secretary Cambone. Let me try and explain it. As far as I 
understand it, there is doctrine relative to the MP which gives 
them the responsibility for conveying to the interrogators the 
attitudes of those who are going to be interrogated--their 
disposition, who they've been talking to, and so forth--and as 
the interrogators, in turn, under doctrine, Army doctrine, ask 
the MP those kinds of questions. So there is designed in the 
system a collaborative approach with respect to gaining that 
information.
    With respect to the issue of ``Gitmo-izing,'' if I may 
return to that, Senator Kennedy, let's go back to the 
conditions that were in Abu Ghraib. They were disorderly, as 
the General has pointed out. The notion, it seems to me, that 
General Miller had was that order needed to be established in 
the processes and procedures.
    Senator Kennedy. Just to finish, because my time is up--
General Taguba, why do you believe that there should be a 
separation between the MP and MI officers?
    General Taguba. Sir, there's a baseline that we use as a 
reference, which is Army Regulation 190-8, which is a multi-
service regulation, establishing the policy of an executive 
agency for detention operations. In there it enumerates, in 
paragraph 1-5, the general policy and the treatment of not just 
EPWs, but civilian internees, retained personnel, and other 
detainees. That's the baseline that we use. We also use the 
MP's doctrine on detention operations, which is Field Manual 3-
19.40. We further refer to the interrogations operations 
doctrine used by the MI, which is Field Manual 34-52.
    Chairman Warner. Thank you very much, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I regret I wasn't here on Friday. I was 
unable to be here. But maybe it's better that I wasn't, because 
as I watch this outrage, this outrage everyone seems to have 
about the treatment of these prisoners, I was, I have to say--
and I'm probably not the only one up at this table that is more 
outraged by the outrage than we are by the treatment. The idea 
that these prisoners--they're not there for traffic violations. 
If they're in cell block 1A or 1B, these prisoners, they're 
murderers, they're terrorists, they're insurgents. Many of them 
probably have American blood on their hands. Here we're so 
concerned about the treatment of those individuals.
    I hasten to say, yes, there are seven bad guys and gals 
that didn't do what they should have done. They were misguided 
and, I think, maybe even perverted. The things that they did 
have to be punished. They're being punished. They're being 
tried right now, and that's all taking place.
    But I'm also outraged by the press and the politicians and 
the political agendas that are being served by this. I say 
``political agendas'' because that's actually what is 
happening. I would share with my colleagues a solicitation that 
was made. I'm going to read the first two sentences. ``Over the 
past week, we've all been shocked by the pictures from Abu 
Ghraib prison in Iraq, but we have also been appalled at the 
slow and inept response by President Bush, which has further 
undermined America's credibility.'' It goes on to demand that 
George Bush fire Donald Rumsfeld, and then it goes on to a 
timeline, a chronology. At the very last--and they say, ``a 
solicitation for contributions.'' I don't recall this ever 
having happened before in history.
    Mr. Chairman, I ask unanimous consent that this 
solicitation be made a part of the record at this point.
    Chairman Warner. Without objection.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Inhofe. Mr. Chairman, I also have to say, when we 
talk about the treatment of these prisoners, that I would guess 
that these prisoners wake up every morning thanking Allah that 
Saddam Hussein is not in charge of these prisons. When he was 
in charge, they would take electric drills and drill holes 
through hands. They would cut their tongues out. They would cut 
their ears off. We've seen accounts of lowering their bodies 
into vats of acid. All these things were taking place. This was 
the type of treatment that they had.
    I would want everyone to get this and read it. This is a 
documentary of the Iraqi Special Report. It talks about the 
unspeakable acts of mass murder, unspeakable acts of torture, 
unspeakable acts of mutilation, the murdering of kids--lining 
up 312 little kids, under 12 years old, and executing them--and 
then, of course, what they do to Americans, too.
    There's one story in here that was in the--I think it was 
The New York Times--yes, on June 2. I suggest everyone take 
that--get that and read it. It's about one of the prisoners who 
did escape as they were marched out there, blindfolded, and put 
before mass graves, and they mowed them down, and they buried 
them. This man was buried alive, and he clawed his way out and 
was able to tell his story.
    I ask, Mr. Chairman, at this point in the record, that this 
account of the brutality of Saddam Hussein be entered into the 
record, made a part of the record.
    Chairman Warner. Without objection, so ordered.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
          
    Senator Inhofe. I am also outraged that we have so many 
humanitarian do-gooders right now crawling all over these 
prisons looking for human-rights violations while our troops, 
our heroes, are fighting and dying. I just don't think we can 
take 7 bad people--there are some 700 guards in Abu Ghraib, 
there are some 25 other prisons, about 15,000 guards all 
together, and 7 of them did things they shouldn't have done, 
and they're being punished for that. But what about some 
300,000 troops who have been rotating through all this time, 
and they have--all the stories of valor are there.
    Now, one comment about Rumsfeld. A lot of them don't like 
him. I'm sorry that Senator McCain isn't here, because I just 
now said to him, ``Do you remember back 3 years ago when 
Secretary Rumsfeld was up for confirmation? I said, `These guys 
aren't going to like him, because he doesn't kowtow to them, 
he's not easily intimidated.' '' I've never seen Secretary 
Rumsfeld intimidated. Quite frankly, I can't think of any 
American today as qualified as Donald Rumsfeld is to prosecute 
this war.
    Now, all the ideas about these pictures. I would suggest to 
you any pictures--and I think maybe we should get direction 
from this committee, Mr. Chairman, that if pictures are 
authorized to be disseminated among the public, that for every 
picture of abuse or alleged abuse of prisoners, we have 
pictures of mass graves, pictures of children being executed, 
pictures of the four Americans in Baghdad that were burned and 
their bodies were mutilated and dismembered in public. Let's 
get the whole picture.
    Now, General Taguba, many, many years ago I was in the 
United States Army. My job--I was a court reporter. I know a 
little bit about the history. The ``undue command influence'' 
that is the term that you've heard, and I'd like to make sure 
that we get into the record what that is. I'm going from memory 
now, but it's my understanding that the commanders up the line 
can possibly serve as appellate judges. Consequently, 
commanders up the line are not given a lot of the graphic 
details, but merely said, as in the case of Rumsfeld, ``Serious 
allegations need to be investigated,'' and they started an 
investigation. This is back in January. Now, Rumsfeld said, and 
I'm quoting him now, ``Anything we say publicly could have the 
impact on the legal proceeding against the accused. If my 
responses are measured, it is to assure that pending cases are 
not jeopardized.'' Do I have an accurate memory as to why they 
have this particular ``undue command influence'' provision that 
we have been following now for five decades, that I know of?
    General Taguba. Sir, I'm not a lawyer, and----
    Senator Inhofe. But isn't that the reason you were called 
in? I should ask General Smith.
    General Smith, isn't that the reason that General Taguba 
was brought in, in the first place, to keep this from 
happening?
    General Smith. Yes, sir, to do the investigation and do the 
fact-finding so that the commanders could make informed 
decisions on what actions should be taken thereafter. The 
difficulty in the command-influence piece is that, should 
General Sanchez, or should I or General Abizaid, say something 
along the lines that, ``We must take this action against these 
individuals,'' then that is command influence and down the line 
those that are making judgment on them would be influenced and 
biased in their decisions.
    Senator Inhofe. That, sir, has not changed over the last 45 
years.
    General Smith. That has not changed. That has happened, we 
have had a number of folks who have had their sentences 
impacted by command influence.
    Senator Inhofe. Mr. Chairman, one last question to General 
Smith. All kinds of accounts are coming out now and many of 
them are fictitious, I would suggest. One was about a guy being 
dragged out of a barbershop--this was in The Washington Post 
this morning--and blindfolded. They talked about the person 
doing this and said he had an AK-47. Are our troops issued AK-
47s?
    General Smith. They are not, sir.
    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    For the benefit of all Members, the subject of the pictures 
has been raised, and I'd like to address that. In consultation 
with the DOD over the weekend, the DOD indicated its 
willingness to cooperate in every way to provide these pictures 
to the Senate Armed Services Committee. But it occurred to me, 
in my capacity as chairman, that this issue was a Senate 
institutional issue--it went beyond this committee--because I 
think other Senators should be entitled to receive that 
information in the same way as members of this committee.
    I, thereby, asked the Senate leadership, majority, 
minority, and invited Senator Levin to join me, and we 
discussed this issue very carefully yesterday. We are seeking 
the advice of Senate counsel and the respective counsel of the 
majority/minority leader, and counsel to this committee, and we 
will before, hopefully, the end of the day, have adopted a 
procedure by which that transmission of further evidence can 
come to the whole Senate. We'll focus on how it would be made 
available to all Senators, and under what conditions, in 
compliance with Senate procedural rules and to protect the 
legal interests of all parties involved. Thank you.
    Senator Byrd.
    Senator Byrd. Thank you, General Taguba, for your report 
and for your service to your country.
    In Friday's hearing before the Senate Armed Services 
Committee, General Schoomaker, the Army Chief of Staff, said of 
the prison abuse, ``This is not a training issue, but one of 
character and values.'' It's becoming clear to me that this 
abuse wasn't just about values; it was about policies and 
planning. General Taguba, based on your investigation, who gave 
the order to ``soften up'' these prisoners, to give them ``the 
treatment''? Was this a policy? Who approved it?
    General Taguba. Sir, we did not find any evidence of a 
policy or a direct order given to these soldiers to conduct 
what they did. I believe that they did it on their own 
volition. I believe that we--they collaborated with several MI 
interrogators at the lower level, based on their conveyance of 
that information through interviews and written statements. We 
didn't find any order whatsoever, sir, written or otherwise, 
that directed them to do what they did.
    Senator Byrd. Doesn't the lack of training of our troops 
for prison duty actually demonstrate a monumental failure in 
planning for the long-term occupation of Iraq? How else could 
the military and civilian leadership of the Pentagon explain 
why this training wasn't even offered?
    General Taguba. Sir, the training of the Geneva Conventions 
is inherent every time we--from as a recruit all the way up to 
my rank level. In terms of these MPs, as far as internment and 
resettlement, some of them received training at home station 
and the Mobility Station, and some did not. That was our 
recommendation, that a mobile training team be deployed to 
theater to ensure that they are in compliance with training 
tasks to do that. There was the capacity to do that during the 
conduct of their operation because there were competent 
battalion commanders. The battalion commander at Camp Ashraf 
was conducting his detention operations to standard. At Camp 
Bucca--they did that at Camp Bucca, and also Camp Cropper. 
Somehow it did not pan out at Abu Ghraib.
    General Smith. Sir, I might also mention that this 
organization, the 800th MP, is a specific task-organized 
internment and resettlement organization. Their job was this 
sort of stuff.
    Senator Byrd. So you don't agree that there was a 
monumental lack of planning, that there was a monumental 
failure of planning for the long-term occupation of Iraq? You 
don't agree with that?
    General Smith. Sir, I'm--are you talking to me?
    Senator Byrd. Yes.
    General Smith. I'm just addressing the specific training 
issue for the 800th MP that you related to, that this was their 
task, to come over and do that. I mean, that's what they did as 
an organization. So they were brought over to conduct 
internment and resettlement issues.
    Secretary Cambone. If I may, Senator Byrd, I don't think 
that the difficulties we found at Abu Ghraib indicate that 
there was a long-term planning effort. In fact, Major General 
Ryder, who also did a report, was there specifically for that 
purpose, ``What is the long-term basis for confinement 
facilities and training and care and so forth?'' So, no, there 
was attention being paid to the longer-term occupation issue.
    Senator Byrd. Secretary Cambone, when, if ever, did 
Ambassador Bremer first raise any concerns about how the 
military was running prisons in Iraq?
    Secretary Cambone. Sir, as I said earlier, the broad 
question of moving detainees through the prison system was a 
concern of Ambassador Bremer early on. With respect to the 
specific conditions inside of those facilities, I am not aware 
of his having raised them. I don't know when that might have 
been. I do know that--I am told that sometime in the February/
March time frame he raised this issue, but I would have to 
check records for you, sir.
    Senator Byrd. Didn't Ambassador Bremer have overall 
responsibility for what was going on in Iraq?
    Secretary Cambone. Yes, sir. He was the occupying power, 
the one in whom that was invested.
    Senator Byrd. Shouldn't he have known how Iraqi prisons 
were being run? Shouldn't he have sounded the alert if he 
thought that the military was doing something wrong?
    Secretary Cambone. Again, sir, the working papers that are 
issued by the ICRC are done at the level of the command that 
they are investigating, and they don't frequently elevate to 
that level. They did meet in February 2004, which is the 
result--the resulting paper is the one that has been 
distributed. At that time, the ICRC presented to Ambassador 
Bremer their findings for that previous year. It is my guess it 
is that point that the specific issues that you're addressing 
may have been raised by Ambassador Bremer.
    Senator Byrd. Do you know if Ambassador Bremer made any 
recommendations to the DOD?
    Secretary Cambone. He was anxious that the DOD find a way 
to, as I've said, move the prisoner detainee more rapidly 
through the system, provide addresses for the location to the 
dependents, and things of that character, that is a general 
treatment of the detainees within the system in Iraq.
    Senator Byrd. Do you know if he made any recommendations 
with reference to policy?
    Secretary Cambone. No, sir, not beyond what I've said. 
Again, his concern would have been for the broad population and 
assuring that we were moving people through that system, doing 
what was necessary for interrogations, and releasing those who 
had either served their time or had no reason for being in 
custody. He was anxious to see those people returned to their 
homes and families.
    Senator Byrd. My time is up.
    Chairman Warner. Thank you, Senator Byrd. Thank you very 
much.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    I think my questions are somewhat repetitive. But, at any 
rate, General, thank you for the job that you've done. Many are 
called, and few are chosen, and you have done an outstanding 
job.
    In your report, you indicated that the 800th Military 
Police Brigade had not been directed to change its policies and 
procedures to set conditions for intelligence interrogations, 
but you concluded, indeed, such changes had been made at lower 
levels. Were these changes made at the battalion or the company 
level?
    General Taguba. Sir, we didn't find any changes, either at 
the company or the battalion, or even at the brigade.
    Senator Roberts. I'm going to repeat the question by 
Senator Byrd. Did these changes result from orders or direction 
from the MI unit at the prison?
    General Taguba. Sir, there were interactions between the 
guards and the MI at that level.
    Senator Roberts. But the changes were not policy.
    General Taguba. No, sir.
    Senator Roberts. Did you discuss with Major General Miller 
his recommendation that the MPs and the MI functions be better 
coordinated to determine exactly what he had in mind? As a 
follow-up--this is the ``Gitmo-ize'' question--is there some 
level of coordination between the MP and the MI units that is 
permitted by Army regulations? You cited a whole series of Army 
regulations. General Ryder, I believe, states that we should 
have a firewall in between the MPs and the military 
interrogators. But yet General Miller says from his experience 
in regards to Gitmo that that basically, if not impossible, is 
actually detrimental, in terms of cooperation; but insists that 
if you do have that kind of cooperation, you must have 
leadership, you must have discipline, and you must have 
training. Were the MI officers at Abu Ghraib familiar with 
Major General Miller's recommendations?
    General Taguba. Sir, I cannot answer that. I was not there 
for the debriefing, nor did I discuss in any detail General 
Miller's report.
    Senator Roberts. Did the intelligence officers then at the 
prison believe that Major General Miller's recommendations had 
been accepted and adopted? If so, what was the basis of this 
belief?
    General Taguba. Sir, I cannot answer that. I was not there, 
nor did I question whether the CJTF-7 accepted his 
recommendations or not. I just read his report.
    Senator Roberts. Okay. General Smith, an order to ``soften 
up'' a detainee would not be a lawful order, is that correct?
    General Smith. Sir, that's correct.
    Senator Roberts. What legal basis then would a soldier have 
for following that order?
    General Smith. Sir, none. Especially if you're an 
organization of that type and have read any of the regulations. 
All of them are replete with guidance on humane treatment, as 
well as a number of fragmentary orders that were put out 
through General Sanchez telling them that they could not do 
many of these--or take actions that were inhumane.
    Senator Roberts. Secretary Cambone, thank you for your 
appearance. We welcome you to the Intelligence Committee 
tomorrow.
    Some accused of the abuses at the prison claim they were 
acting under orders from intelligence officers. Do any of the 
DOD regulations or policies encourage, condone, or permit such 
acts?
    Secretary Cambone. No, sir.
    Senator Roberts. In your review of this matter, have you 
learned of any local or unit-level policies--I emphasize the 
word ``policies''--that encourage or condone or permitted these 
abuses?
    Secretary Cambone. No, sir.
    Senator Roberts. Were you aware of Major General Miller's 
recommendations that MPs set the conditions for the 
interrogations at the prison? Did you discuss this 
recommendation with anybody at the CJTF-7?
    Secretary Cambone. I did not discuss them with anybody at 
CJTF-7, no, sir.
    Senator Roberts. What did you understand this 
recommendation to mean?
    Secretary Cambone. That there had to be a basis for the 
transfer of information from those who had custody, on a daily 
basis, of those who were being interrogated--to those who were 
being interrogated in order that the interrogators understood 
personalities, relationships, in order to be able to gain the 
information that they were trying to gain from the----
    Senator Roberts. From a pragmatic standpoint, is this a 
good thing or a bad thing? Is Ryder right, and Miller wrong? 
Miller right and Ryder wrong? Or is this somewhere in between?
    Secretary Cambone. While it is written in doctrine, it 
seems to me doctrine is meant to be adapted to circumstance, 
and that was what the substance of General Miller's 
recommendation was.
    Senator Roberts. When is the Fay Report going to come out?
    Secretary Cambone. It's my understanding--and, General, you 
can correct me--that he is completing his work in Iraq over 
this week. He has to go to Germany to see people who have since 
rotated from Iraq to Germany, and then will come back here to 
meet others. So we're looking toward the end of this month and 
perhaps the first part of June.
    Senator Roberts. Is the policy in regards to the MP and the 
MI functions at Gitmo--is this being reviewed for compliance 
with Army regulations?
    Secretary Cambone. If General Fay didn't realize that was a 
subject of his investigation, sir, he is now painfully aware of 
it.
    Senator Roberts. Was your encouragement to Major General 
Miller to inspect the prison in any way prompted or otherwise 
linked to concerns about any abuse at the prison?
    Secretary Cambone. No, sir. To the contrary, it was the 
desire to make certain that we had the proper conditions within 
those places in order for the information to be gathered.
    Senator Roberts. When you learned of the abuse, and knowing 
of the intelligence activities at the prison, did you have any 
concern about a possible link to the intelligence unit?
    Secretary Cambone. I understood--it was probably in 
February--that there were MI personnel who were implicated. I 
did not know the nature of that implication, the extent or 
scope of the abuse that had taken place. So I didn't make a 
connection in the sense that there was a significant issue here 
until we moved down the path and realized exactly was taking 
place.
    Furthermore, I still don't know that there is a significant 
issue here.
    Senator Roberts. I thank the chairman.
    General Smith. Sir, could I clarify on the MP/MI regulation 
here? It is not absolutely clear in this regulation that the 
MPs and the MI guys should not have some relationship. What is 
absolutely clear in the regulation is that the MPs are not 
allowed to be in the interrogation process. So do not take it 
that there is some Army regulation out there that says, ``This 
shall not be.'' I have it right here, and I'll be glad to 
provide it for the record.
    [The information referred to follows:]

    [Deleted.]

    Senator Roberts. I think that would be helpful. My point 
was, I don't think you can set up a firewall between those who 
are interrogating and the MPs. I don't even think that would be 
desirable. On the other side of the fence, you don't want them 
directly involved----
    General Smith. Yes, sir.
    Senator Roberts.--and with the lack of discipline and 
leadership and training, to have something like this happen.
    General Smith. I agree with you. I believe when you read 
the document you will see that that allows that sort of 
activity.
    Senator Roberts. Mr. Chairman, it would be helpful if we 
had Secretary Cambone's statement. I don't have that. I don't 
know if it was made available. He has it now.
    Chairman Warner. It was made available just shortly before 
the hearing.
    Senator Roberts. All right, thank you, sir.
    Chairman Warner. It's being reproduced now. Thank you.
    I acknowledge, as chairman of the Intelligence Committee, 
you're conducting a separate inquiry on this matter, but I 
think it's important--and I picked up on something Secretary 
Cambone said.
    Secretary Cambone. Yes, sir.
    Chairman Warner. Do you have any knowledge of any CIA 
participation in the interrogation process in the cell blocks?
    Secretary Cambone. I do know that there were people who 
were brought by CIA personnel to that place, to the cell 
blocks, and there may be--and, again--there may have been 
interrogations conducted by the CIA personnel while they were 
there. That's about the extent of my knowledge of specifically 
what they were engaged in, in terms of interrogation.
    Chairman Warner. General Smith, do you have any additional 
knowledge?
    General Smith. No, sir, I do not.
    Chairman Warner. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Taguba, to the best of your knowledge, when did 
this pattern of abuse begin, as we've seen in the pictures?
    General Taguba. Sir, to the best of the evidence that we 
gathered, it happened sometime after October 15, 2003, 
thereabouts----
    Senator Reed. 15th of----
    General Taguba.--mid- to late-October.
    Senator Reed. Right.
    General Smith, General Miller came to Iraq in August with 
the baseline from Guantanamo, which had a series of coercive 
measures, which was being employed in Guantanamo. We all 
recognized that area was not subject to the Geneva Conventions. 
He briefed, as you indicated in your previous testimony, 
individuals at the prison. He also recommended the 
establishment of a theater JIDC there. Is that correct?
    General Smith. I believe so.
    Senator Reed. That's correct.
    General Taguba. Yes, sir.
    Senator Reed. That was August. Then in October, we start 
seeing a series of abusive behaviors, which the accused suggest 
were a result of encouragement or direction from these 
intelligence people in this theater JIDC. General Taguba has 
testified that he did not investigate, talk to, or in any way 
know anything about what was going on in that JIDC. Is that a 
fair chronology?
    General Smith. Sir, it's a fair chronology. I would only 
say that in speaking with General Miller, he has to be the one 
that answers some of this, he spoke directly to the brigade 
commanders who were involved here, and he had the special 
operating procedures with him, and left those with them.
    Senator Reed. General, to your knowledge, General Miller 
made it very clear to these brigade commanders that because of 
the Geneva Conventions, many of these provisions could not be 
applied?
    General Smith. Sir, according to General Miller, that was 
very clear to the commanders.
    Senator Reed. That was very clear. Then why would he bring 
those procedures over and brief them?
    General Smith. Sir, to the best of my knowledge--and, 
again, these are questions you're going to have to ask General 
Miller--but, to the best of my knowledge, he did not bring 
those coercive procedures over with him.
    Senator Reed. Thank you.
    Mr. Secretary, you encouraged General Miller to visit.
    Secretary Cambone. Yes, sir.
    Senator Reed. Were you in communication, or anyone in your 
office in communication, with General Miller during his trip or 
after his trip?
    Secretary Cambone. He technically went under Joint Staff 
auspices, but with my encouragement and that of other senior 
members of the DOD, to look at the issues that we've talked 
about. Now, on his return, when he completed his report, I 
received a briefing on it, and then asked for people to look at 
its subsequent progress and what had taken place.
    Senator Reed. So you were briefed on his recommendation to 
use the guard force actively to condition the----
    Secretary Cambone. No, sir. Again, the----
    Senator Reed. You weren't briefed on that.
    Secretary Cambone. No, no. Excuse me. I want to phrase this 
right, and that is, on the issue of making certain that we had 
the kind of cooperative relationships, I understood that. I 
don't know that I was being told, and I don't know that General 
Miller said, that there should be that kind of activity that 
you are ascribing to his recommendation.
    Senator Reed. General Taguba--excuse me, I'm probably doing 
violence to your name; forgive me--was it clear from your 
reading of the report that one of the major recommendations was 
to use guards to condition these prisoners?
    General Taguba. As I read it on the report, yes, sir, that 
was recommended on the report.
    Senator Reed. But General Miller didn't think it was 
important enough to brief you, Mr. Secretary?
    Secretary Cambone. Sir, I was not briefed by General 
Miller.
    Senator Reed. Who were you briefed by?
    Secretary Cambone. My deputy, General Boykin, briefed me on 
the report.
    Senator Reed. So General Boykin and General Miller were 
collaborating on this exercise?
    Secretary Cambone. Oh, not at all. Not at all, sir. Not at 
all.
    Senator Reed. General Boykin didn't think it was important 
enough to brief you on that.
    Secretary Cambone. No, sir. Again, your suggestion that the 
report on the phrase ``setting the conditions'' is tantamount 
to asking the MP to engage in abusive behavior, I believe, is a 
misreading of General Miller's intent.
    Senator Reed. Mr. Secretary, what I'm suggesting is, anyone 
in your position should have asked questions. One, 
specifically, would be, what does it mean to ``set the 
conditions'' of these troops, under the Geneva Conventions?
    Secretary Cambone. Yes, sir.
    Senator Reed. Did you ask that question?
    Secretary Cambone. I didn't have to ask that question. Why? 
Because we had been through a process in which we understood 
what those limits were with respect to Iraq and what those were 
with respect to Guantanamo.
    Senator Reed. Mr. Secretary, what is the status of the 
detainees in that prison under the Geneva Conventions?
    Secretary Cambone. I'm sorry, sir, which prison?
    Senator Reed. Abu Ghraib.
    Secretary Cambone. Abu Ghraib? They are there under either 
Article 3 or Article 4 of the Geneva Conventions.
    Senator Reed. Let me recite Article 4, ``Persons protected 
by the Geneva Conventions are those who, at any given moment 
and in any manner whatsoever, find themselves, in case of a 
conflict or occupation, in the hands of a party to the conflict 
or occupying power of which they are not nationals.'' These are 
protected persons.
    Let me read Article 31, ``No physical or moral coercion 
shall be exercised against protected persons in particular to 
obtain any information from them or from third parties.''
    Secretary Cambone. Sir, we're in agreement here.
    Senator Reed. We're in agreement--I don't think we are, Mr. 
Secretary.
    Secretary Cambone. We are in agreement on----
    Senator Reed. General Miller suggested that guard forces be 
used to ``set the conditions.'' Based on the template at 
Guantanamo, those methods were coercive. Yet you did not choose 
to ask about this. You're completely oblivious.
    Secretary Cambone. No, sir. Again, what I said was, we knew 
what the circumstances were with respect to Guantanamo. We knew 
what the circumstances were with respect to Iraq. We understood 
that the Geneva Conventions, and all of its articles, applied 
in Iraq. That--again, I come back to what I keep saying here--
the notion was that you had to have a cooperation, a 
cooperative attitude, team-building, call it what you will 
between the MPs and----
    Senator Reed. Mr. Secretary, please.
    Secretary Cambone.--the MIs.
    Senator Reed. Please.
    Secretary Cambone. Sir----
    Senator Reed. This is not a cooperative attitude. This is 
not a guard observing the comments of a prisoner.
    Secretary Cambone. That is exactly true, sir.
    Senator Reed. That is--is that happening in Guantanamo?
    Secretary Cambone. No. Sir, what took place----
    Senator Reed. Is that what's happening in Guantanamo?
    Secretary Cambone.--what took place in the prison, we have 
all said, exceeded the regulations, laws, and laws of war, 
conventions of the Geneva Conventions, and everything else. 
General Taguba has said repeatedly that there was no policy, he 
discovered no direction, that these were not directed acts on 
the part of those individuals----
    Senator Reed. Mr. Secretary, people failed to ensure, by 
asking appropriate questions, that these recommendations were 
transmitted down to individual soldiers in a way that they 
would understand----
    Secretary Cambone. Yes, sir.
    Senator Reed.--this is just--is cooperating, not 
participating in the ``setting the conditions,'' as was done--
as is done in Guantanamo.
    Secretary Cambone. Senator, I agree with you on the 
transmission of those directions. As I said to you, and as 
General Smith has alluded to, there is a paper from General 
Sanchez making precisely those points. Moreover, if you read 
General Miller's report, he says, ``Before you do anything with 
this, we need a command staff judge advocate to work this 
problem and make sure it's done''----
    Senator Reed. Did a command SJA issue a legal opinion?
    Secretary Cambone. When--again, what I have is his report, 
and it says that that was an activity in progress. I have not 
heard--what I know is that General Sanchez subsequently----
    Senator Reed. General Sanchez ordered this policy without 
advice of counsel.
    Secretary Cambone. No, sir, he did not. If you read General 
Taguba's report, he will tell you that, at the time he was 
there, he had not seen any action--it's page 12, I think--to 
implement the procedures, specifically and officially, from 
General Sanchez down to anyone in the lower ranks of his 
command that the activity that was taking place was not 
authorized.
    General Smith. I would add that there were numerous FRAGOs 
out there that direct other than what you are suggesting.
    Chairman Warner. Thank you very much. If there's further 
amplification to the Senator's question, please provide it for 
the record.
    Senator Allard.
    Senator Allard. Mr. Chairman, I want to thank you for 
moving forward on this investigation quickly here at the 
committee level. I think it's something we need to move off our 
agenda so that we can begin to concentrate on how many good 
things are happening in Iraq, as far as moving them towards a 
sovereignty, their own sovereignty. I do have a statement I'd 
like to have put in the record and I'd ask unanimous consent, 
prior to my questioning.
    Chairman Warner. Without objection.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman. I would like to thank our witnesses for 
appearing this morning to help us discuss the allegations that have 
been raised.
    I would like to begin my remarks by reminding us all of the 
phenomenal progress we are making in the transformation of the Iraqi 
government. Specifically, the Iraqi Governing Council approved the 
Transitional Administrative Law (TAL), representing the most liberal 
basic governance document in the Arab world. As I understand this 
historic document, it represents an Iraqi ``bill of rights,'' including 
the assurances for all Iraqis of freedom of religion, freedom of 
expression, freedom of the press, and freedom of assembly. In addition, 
this TAL includes fundamental rights for women.
    Our progress in Iraq also includes remarkable public works 
accomplishments. Oil production and power generation now surpass pre-
war levels. All 22 universities and 43 technical institutes and 
colleges are open. Coalition forces have rehabilitated more than 2,200 
schools. All 240 hospitals and more than 1,200 health clinics are open. 
Health care spending in Iraq has increased 30 times over pre-war 
levels. Additionally, 170 newspapers are being published.
    Our military forces are directly responsible for this positive 
change, and should be commended. These accomplishments, in my mind, are 
what define the valor, commitment, and compassion of our Armed Forces. 
It is not the incidents that are the subject of this hearing. 
Gentlemen, I know you share my frustration and concern over the 
reported incidents of prisoner abuse involving our Armed Forces.
    My frustration comes from believing our soldiers know better than 
to carryout those activities now splashed all over our public media. 
Several of my colleagues and I have been to Iraq and Afghanistan 
recently, and we have seen the unmatched skills of our soldiers in 
defeating a hostile enemy, as well as rebuilding a public works 
infrastructure. Yet, here we are discussing how the misdeeds of a few 
can overshadow the accomplishments of so many.
    My concern comes from understanding that we need to develop and 
employ all prudent measures to ensure our military men and women, as 
well as millions of locals, remain safe and secure throughout the 
reconstruction of this region. Without a doubt, our forces need 
effective detention and interrogation tools for terrorists, insurgents, 
and others trying to kill us. Successful exploitation of these enemy 
combatants will ultimately deny them the opportunity to plan, prepare, 
or execute more killings. Today, we must examine events that got out of 
control, and figure out how to realign our people and our practices 
toward a humane and legal alternative.
    Mr. Chairman, it also appears to me that the military has done a 
good job with investigating these allegations and taking appropriate 
actions. However, it was disappointing that senior leaders did not 
recognize and report the serious consequences that the underlying 
allegations entail. I look forward to your continued leadership, as 
well as the leadership of SECDEF Rumsfeld, in getting to the bottom of 
this matter and getting our focus back on the job well done by our 
security and reconstruction forces.

    Senator Allard. I'd also share my shock and dismay that 
Senator Inhofe mentioned, in the fact that this unfortunate 
situation at Abu Ghraib prison is actually being used as a 
fundraiser by the Kerry campaign. I just find that appalling.
    Now I'd like to move forward and pose a question to you, 
General Taguba. In my statement, I find that your reporting 
supports that the Army has taken the initiative in following 
through appropriately on our own affairs. Just so that I'm 
clear in my own understanding, were you directed by any of your 
superiors to remove any findings that you felt were credible or 
relevant?
    General Taguba. Sir, I was not directed by my superiors.
    Senator Allard. Were you directed by any of your superiors 
to withhold or remove recommendations for any adverse personal 
actions regarding subjects of your investigation?
    General Taguba. Sir, none whatsoever.
    Senator Allard. Just so I'm clear also about the makeup of 
the prison population, my understanding, from some of the 
testimony that we've received here today, that if somebody is 
classified as a terrorist--in other words, they're not 
associated with any country, officially--then there's a 
difference; they don't fall under the Geneva Conventions' 
guidelines. Is that correct?
    Secretary Cambone. The President designated the al Qaeda as 
being unlawful combatants, sir.
    Senator Allard. So just that particular terrorist 
organization, or any terrorist organization?
    Secretary Cambone. I know for a fact it's al Qaeda, and my 
guess is that depending on the circumstances, if we found 
ourselves in armed conflict with some other organization, such 
as--the President would take that under advisement.
    Senator Allard. Okay. Now, did we have terrorists in the 
population at this prison?
    General Taguba. Sir, none that we were made aware of.
    Senator Allard. So as far as we know, these were all 
related to those guidelines that generally you were complying 
with, as far as the military is concerned, on how you handle 
prisoners.
    General Taguba. Sir, they were either classified as 
security detainees or ``other'' detainees--criminals, things of 
that nature.
    Senator Allard. But no terrorist classification.
    General Taguba. None that we were given, no, sir.
    Senator Allard. Okay.
    Secretary Cambone or General Smith, in your estimation why 
was anyone taking pictures in the security detention facility 
at Abu Ghraib? Is there any explanation, from a physical 
security or prisoner security or MI perspective?
    General Smith. Sir, the photographing of prisoners, 
especially with private cameras, is against----
    Senator Allard. Private cameras?
    General Smith. By private cameras--is against the rules.
    Senator Allard. So these were taken by private cameras?
    General Smith. Sir, I believe they were taken by digital 
cameras that belonged to the individuals, but I don't know 
that. Maybe General Taguba does.
    Senator Allard. I see.
    General Taguba. Sir, they were personal cameras.
    Senator Allard. They were personal cameras.
    General Smith. This specifically says ``photographing, 
filming, and videotaping of individual EPW/civilian internee, 
other than internal internment facility administration or 
intelligence/counterintelligence purposes, is strictly 
prohibited.''
    Senator Allard. So this didn't have anything to do with the 
way you managed the prisoners or any of their interrogation or 
any physical security of the prison. This was taken on by 
individuals, unknown to those in command at the time?
    General Smith. That is my belief, but I don't know----
    General Taguba. Sir, as far as we know, based on the 
evidence and the interviews and the statements, they were taken 
with personal cameras.
    Senator Allard. Individuals taking that on their own, 
without any instruction from command.
    General Taguba. Yes, sir.
    Senator Allard. Okay.
    Now, General Smith, in General Taguba's report he 
recommended that a mobile training team be assembled and 
dispatched to your area of operations to oversee and conduct 
comprehensive training in all aspects of detainee and 
confinement operations. Were these teams dispatched, as 
recommended?
    General Smith. Sir, they were dispatched before the report 
was actually approved. About 50 percent of the training is 
complete, and they will continue and have all of this completed 
by the end of June, although everybody who is out there is 
getting training weekly, awaiting the mobile training team 
specifically getting down there. That will be followed by 
sustained required training every week in all of these rules. 
Additionally, the Geneva Conventions are required to be briefed 
at every change of shift.
    Senator Allard. Your point is, is that when you got General 
Taguba's report, even before it was finalized you were 
beginning to take corrective action, and so action was--you 
were responding immediately to concerns about how--what was 
being reported in the camp at Abu Ghraib.
    General Smith. That's correct, sir.
    Senator Allard. Okay.
    General Smith, General Taguba--I understand the necessity 
and significance of maintaining a strategic interrogation 
exploitation process. After all, a primary goal along these 
lines is to save the lives of Americans, Iraqis, and other 
partners in the region. Can you share with us whether or not 
your command is actually developing good intelligence based on 
your approved interrogation techniques? In other words, are we 
saving lives?
    General Smith. Sir, my belief is that we are. We absolutely 
have built the networks and what they look like and who the 
players are, based on intelligence information from human 
intelligence (HUMINT). A portion of that is this kind of 
activity. So, sir, I would say, absolutely, that there have 
been lives saved because of the people that we have been able 
to go out and pick up, because of the HUMINT process.
    Chairman Warner. Thank you very much, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Taguba, I want to commend you and your team for 
submitting a very, what I consider, a candid and thorough 
report. Your task was not an easy one. However, your honesty 
and your integrity reflect the character we expect from 
soldiers in our military.
    General Taguba, in your report, you reference the lack of 
supervision over U.S. civilian contractor personnel, third-
country nationals, and local contractors within the detention 
facility at Abu Ghraib. During your investigation, did you 
determine how many civilian contracted personnel were working 
there? Who supervised these individuals? Can you describe what 
you observed, in terms of type of access these individuals had 
to the detainee areas?
    General Taguba. Sir, we did not make a determination of how 
many civilian contractors were assigned to the 205th MI Brigade 
and operating at Abu Ghraib. I personally interviewed a 
translator, and I also personally interviewed an interrogator, 
both civilians, contractors. There was also a statement--and 
substantiated by the witnesses that we interviewed of another 
translator--a third-country national, in fact, who was 
involved. There was another third-country national who was 
acting as a translator for the interrogators, that was involved 
in one of the interrogation incidents where dogs were used.
    Their supervision, sir, from the best that we could 
determine or discern from the information that we gathered, 
was, they were under the supervision of the JIDC, who was then 
under the supervision of one--a lieutenant colonel, who was 
also supervised by the brigade commander, the MI brigade 
commander. That was the chain, sir.
    Senator Akaka. What access did these individuals have to 
the detainee?
    General Taguba. Sir, they had an open access to the 
detainees.
    Senator Akaka. General Taguba, your report finds that two 
contractors were either directly or indirectly responsible for 
the abuses at Abu Ghraib. Were either of these contractor 
personnel supervising soldiers or in a position to direct 
soldiers to take specific actions?
    General Taguba. Sir, they were not in any way supervising 
any soldiers, MP or otherwise. However, the guards, those who 
were involved, looked at them as competent authorities as in 
the manner by which they described them, as the MI or by name 
or by function.
    Senator Akaka. Secretary Cambone, what kind of training did 
the U.S. civilian contractors have prior to going to Iraq? I've 
been informed that the training for interrogators included 
training tactics and techniques used by other countries. Did 
such training occur? If so, are these tactics and techniques 
approved by DOD intelligence officials?
    Secretary Cambone. The only tactics and techniques that 
would be approved, sir, are those that are approved by the 
command for use in that situation. As I said earlier, the 
recruitment--and if you look at the advertisements for the 
recruitment, they look for people who have had the experience 
of being interrogators. I am told that, in fact, some of the 
retired personnel and those who have since left the service are 
quite capable and are, in terms of the interrogator's art, 
better able to conduct those interrogations than the younger 
individuals who are new to that activity.
    General Smith. Sir, most have gone through the 19\1/2\ week 
training at Fort Huachuca, either while they were in the 
service or afterwards.
    Senator Akaka. General Smith, who is keeping a record of 
all the employees that work for all the contracted firms in 
Iraq and Afghanistan? Is it the contracted firm or DOD?
    General Smith. Sir, you're beyond my knowledge there, 
except that the contracting officer who contracts with the 
company is responsible for ensuring that they comply with the 
contract. By name, I suspect he has who those contractors are. 
But I can't tell you that for sure.
    Senator Akaka. Thank you for your responses.
    Chairman Warner. Thank you very much, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you.
    I first want to, again, state my appreciation for the 
superb work of our soldiers in Iraq and Afghanistan. In many, 
many instances, some of which we've seen on television, they 
demonstrate restraint day after day. They've maintained their 
poise and their professionalism sometimes under very intense 
pressure. They've risked their lives, and we've seen a soldier 
going to the bridge to save an Iraqi woman under hostile fire. 
They have, on their off-hours, built schools and hospitals, and 
treated the sick. So this is particularly painful for all of 
us, to have this experience.
    But I absolutely have visited those soldiers there. They've 
told me of things that they've done and the relationships 
they've had with Iraqi citizens. I strongly--it's interesting 
how many want to volunteer and go back, because they believe in 
the work and they want to see this to be a healthy, stable 
country. Nothing we say today should denigrate that.
    I have been somewhat concerned at the suggestion that there 
is a policy of abuse here. General Smith, I think you've read, 
clearly, that the explicit statements from every level of 
command are in existence that would absolutely prohibit this 
kind of behavior, is that not correct?
    General Smith. Sir, that's absolutely correct, in many 
venues and a number of times where FRAGOs have been republished 
for the purpose of doing that. I would like to present those 
for the record. I know Senator Reed is very concerned about it, 
and I would like to put those in the record.
    [The information referred to follows:]

    [Deleted.]

    Senator Sessions. With regard, General Smith, of the Geneva 
Conventions, I was in the Army Reserve. I, for a short time, 
had a Judge Advocate General (JAG) slot, although I'm not like 
Colonel Lindsey Graham over here, who is an actual practicing 
JAG officer, but I remember in the transportation unit I had to 
train the transportation soldiers, enlisted people in the 
Geneva Conventions. Isn't that done throughout the Army?
    General Smith. Sir, that is. That continues to be a 
requirement.
    Senator Sessions. In basic training, every soldier has been 
trained in the Geneva Conventions, is that not correct?
    General Smith. That's correct, sir.
    Senator Sessions. I heard you say that they are briefing 
the Geneva Conventions at every shift change now in Abu Ghraib 
prison?
    General Smith. That's correct, sir.
    Senator Sessions. Before that occurred, one of the 
criticisms I think General Taguba mentioned was, they were 
supposed to be briefing the Geneva Conventions periodically, 
but perhaps it was not occurring. Are you familiar with that 
part of the report and what the requirement was?
    General Smith. I'm familiar with the report.
    Senator Sessions. General Taguba, you made some reference 
to the fact that there was a procedure established to train 
periodically, and it may not have been occurring?
    General Taguba. Yes, sir. It's required, under AR-190-8, to 
post the Geneva Conventions in the language of the detainee. So 
you have many detainees there of different languages. They have 
to post that. It's a requirement, especially for those units 
that are conducting internment and resettlement mission 
requirements. Those guards, in terms of discipline, were 
supposed to conduct by their own SOP, guard mounts, where you 
have shifts--you're changing shifts, and you have guard mount. 
Sir, we found evidence that was not being done. They did kind 
of a replacement, so to speak, during their shift time, because 
they were not conducting guard mounts by which they were to 
reinforce tenets of the Geneva Conventions, or made clear that 
the postings of the Geneva Conventions were to be made 
available, not only to the detainees in a language from which 
they come from, but also where they could see them.
    Senator Sessions. That was never challenged or rejected by 
General Abizaid, General Sanchez, or anyone else in authority 
in Iraq. I mean, those policies were in effect, and amounted to 
a violation of the established Army policy when that did not 
occur. Is that correct?
    General Taguba. Sir, I cannot speak for General Abizaid or 
General Sanchez, but that's the responsibility of the battalion 
commander and also those personnel who are conducting 
internment and resettlement or detention operations. It's 
clear, it's in their doctrine, it's in the regulation.
    Senator Sessions. Of course, General Smith, MPs have more 
of this training than other soldiers, I assume, in how to 
handle prisoners.
    General Smith. Sir, I can't speak to that, but my 
assumption would be that certainly they have more training than 
the average soldier would.
    Senator Sessions. I thank you for your comments, and would 
note that--my time is expiring, but this ``Gitmo-ize'' issue, I 
think, really misses the point. Yes, we wanted to use some of 
the procedures that were working in Guantanamo, and try to 
share that information to get it up to the people in authority 
so we could save lives, get it out to the people who could use 
it to identify who these attackers and terrorists were, but I 
don't think there's any indication that General Miller would in 
any way suggest this kind of behavior was legitimate.
    General Smith. Sir, you're absolutely right in both counts. 
In a counter-insurgency like this, intelligence is critical, in 
that if you want to go find the guys that are making the 
improvised explosive devices (IED) or the ones who are shooting 
down helicopters with surface-to-air missiles like SA-7s, or 
folks who are fomenting the insurgency, then you have to use 
HUMINT to do that. You can't do that by technical means alone.
    Chairman Warner. Thank you very much, Senator.
    General Smith. So it is a critical piece of the process. 
Clearly, time and time again, we are told: humane treatment in 
concert with the Geneva Conventions.
    Senator Sessions. Thank you, Senator.
    Chairman Warner. That's a very important inquiry and 
response, and I appreciate that, General.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    I don't think General Miller is where the problem lies, 
Senator Sessions. I think it lies elsewhere.
    General Taguba, on page 16 of your report you state, ``I 
find that the intentional abuse of detainees by military police 
personnel included the following acts.'' You list a whole 
number of those acts; among them, videotaping and photographing 
naked male and female detainees; forcibly arranging detainees 
in various sexually explicit positions for photographing; 
forcing groups of male detainees--and I will insert 
paraphrasing here--certain sexual acts while being photographed 
and videotaped; a male MP guard having sex with a female 
detainee; using military dogs, without muzzles, to intimidate 
and frighten detainees, and, in one case, biting and severely 
injuring a detainee; sodomizing a detainee with a chemical 
light and perhaps a broomstick; using military working dogs to 
frighten and intimidate detainees with threats of attack, and, 
in one instance, actually biting the detainee. Is that your 
report?
    General Taguba. Yes, sir.
    Senator Bill Nelson. All right.
    Mr. Secretary, when did you become aware of the nature of 
these prisoner abuses and the existence of the photographic and 
video evidence? That's two questions.
    Secretary Cambone. The photographic evidence--be clear--
that there were photographs associated with this inquiry, I 
knew early, in the change of the year. The nature----
    Senator Bill Nelson. I'm sorry, I didn't understand.
    Secretary Cambone. I'm sorry. I understood, at the 
beginning of this year, that there were photographs associated 
with the criminal investigative inquiry.
    Senator Bill Nelson. Did you know about these acts?
    Secretary Cambone. I did not know about these acts, and 
learned of them in specificity when I read the report and when 
I was exposed to some of those photographs.
    Senator Bill Nelson. You read the report when?
    Secretary Cambone. It has to be in the last week, sir. It 
was not out of the command until the end of last month.
    Senator Bill Nelson. Now, the SECDEF told us last Friday 
that he learned about these abuses in the middle of January.
    Secretary Cambone. That we had abuses, true. The nature of 
them, I was not aware of.
    Senator Bill Nelson. Did you know that they were horrific?
    Secretary Cambone. No, sir. I received a report that there 
was an inquiry underway--a number of--six or seven, by the way, 
and this being one of them--in which there were people 
implicated in abuses of prisoners in Iraq. The character of it, 
the scope, the scale, I was not aware of.
    Senator Bill Nelson. Specific to this prison, what was your 
role in alerting others that you work for, such as the SECDEF?
    Secretary Cambone. Yes, sir. Again, as the Secretary 
testified, corporately we were aware--and I was one of those 
who told him so--that there were investigations underway with 
respect to this facility, and ultimately the report that 
General Taguba's done, in the February time frame. I mean, and 
so it was a report of an investigation about acts of abuse.
    Senator Bill Nelson. What was your role in alerting the 
SECDEF to the danger posed to our theater strategy and the 
general perception around the world?
    Secretary Cambone. Yes, sir, and let me throw out 
gradations here. There are instances of people having been 
mistreated in their apprehension, transportation, and 
interrogation. That was--a level of poor performance and 
behavior on the part of our people was understood, but it was 
understood a fairly low level of abuse and incidence--rate of 
incidence. The scale of this was unknown to any of us. Had we 
known its scale, scope--the earlier we would have known, the 
sooner we would have been able to come to you, to the 
President, and to others to talk about it.
    Senator Bill Nelson. You're saying you didn't know about 
that until last week?
    Secretary Cambone. Scope, scale--until the pictures began 
appearing in the press, sir, I had no sense of that scope and 
scale. I knew of the problem, that there was abuse, that there 
was a criminal investigation, that there was an investigation 
being done by General Taguba, but I had no sense of it, sir.
    Senator Bill Nelson. Okay, given that fact, why was the 
SECDEF unprepared when he came before us in the secure room in 
the Capitol on April 28, 2004--why was he unprepared to share 
the information that he knew of with Members--probably some 35 
or 40 Members of the U.S. Senate?
    Secretary Cambone. Sir, I don't--I can't answer for the 
SECDEF on that question. He was here. He spoke with this 
committee and gave his answers, I recall. I can't speak for him 
on why he did not raise it that evening. I don't know.
    Senator Bill Nelson. You had not discussed that with him?
    Secretary Cambone. That day, I had not discussed it with 
him, no, sir.
    Senator Bill Nelson. Had you discussed it with him anytime 
before, after you learned, in mid-January, about these abuses?
    Secretary Cambone. Again, I informed him that there were 
investigations underway, of which this is one of six or seven 
that I was informed of. I--again, I did not understand the 
scope and scale. If I had, I assure you, Senator, I would have 
told him.
    Chairman Warner. Thank you very much, Senator.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    Secretary Cambone, very quickly, one of the things that 
I've wondered about, when you said you didn't recognize scope 
and scale, is it possible that not having seen the pictures, 
you didn't recognize what the significance of the pictures 
would be, in terms of the impact of this internationally?
    Secretary Cambone. Yes, sir.
    Senator Talent. General Taguba, your report--I think if we 
summed it up, we'd say that the unit at the prison was under-
disciplined, under-manned, and poorly led. Is that a fair 
summation?
    General Taguba. Sir, very fair.
    Senator Talent. In the middle of an Army that I think all 
of us would agree is very well-disciplined and very well-led. 
So the question in my mind--well, how? Why is this particular 
unit so below the standards in performance of the rest of the 
United States Army? I'm going to make a comment, and you can 
comment on it if you want. I was in the other body all 
throughout the 1990s, during which time the highest civilian 
authorities here and on the other side of Pennsylvania Avenue 
were cutting the size of the Army, and, in my judgment, not 
funding adequately what--the end strength that we had 
remaining. What I saw consistently was the Army, in order to 
keep the tip of the spear sharp, if you will, allowing some of 
the rest of the spear to go rusty. Sooner or later, those 
chickens come home to roost. You have a poor commander, you 
don't have enough people, the guys you have are not trained up 
adequately because you don't have the money for it, and then 
something like this happens. I'll just say, I wish we had had 
the interest nationally through the 1990s about funding the 
Army adequately, and maybe we wouldn't all be sitting here.
    General Smith, let me ask you a question. I had a phone 
call, actually, from a constituent who raised an issue that 
might help in one aspect of this. As I understand it, one of 
the difficulties with getting this up to the various highest 
civilian levels is that--the concern about command influence, 
because the same people that you'd want to report this through 
and to are the people who would be involved in passing on any 
court-martials that may emerge from this. I know this is a 
problem. My wife used to be in the JAG corps. A constituent let 
me know that there is an office in the Air Force, the reporting 
office on special-interest cases, which is evidently designed 
to deal exactly with this. Are you aware of that office?
    General Smith. Sir, I'm not aware of that office, and this 
was in basically Army channels.
    Senator Talent. Right. What I'm wondering, and maybe to 
recommend to the SECDEF, this office exists for--as I am told, 
and we're checking this out in my office--in the Air Force to 
deal with cases like this. So you can--if you think something's 
of special significance, you can get it up to higher authority, 
but through a separate, specially-created chain of command so 
you don't compromise the command influence, and then you can 
get it to somebody who then has the discretion, if they want 
to, to go directly to the SECDEF or the Deputy SECDEF. We're 
certainly going to be looking--and I'd recommend it to you, if 
you're not aware of it, because evidently it functions pretty 
well in the Air Force. You're not aware of it, though, as of 
now, I take it.
    Secretary Cambone. Now that you mention that office, yes, I 
recall that there is one, and I can tell you that the SECDEF 
has more than that on his list of ideas--or will have more than 
that on the list of his ideas.
    Senator Talent. Okay.
    Thank you, Mr. Chairman.
    Secretary Cambone. You are right. Some way has got to be 
found to do this.
    Senator Talent. Yes, because we clearly have a defect in 
this. Command influence is a problem but I think everybody 
involved in this probably wishes they had just said, ``The heck 
with command influence, we have to pick up the phone and 
call''----
    Secretary Cambone. Yes, sir.
    Senator Talent.--``and let people know.''
    Secretary Cambone. Yes, sir. Indeed, at least to the extent 
that the sergeant delivered the disk to the criminal 
investigative division (CID), he put in train, at least, a 
process that has brought all this to light.
    Senator Talent. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Dayton? I'm sorry, we have a different sheet, but I 
think Senator Nelson is preceding. All right, thank you very 
much.
    Senator Ben Nelson. I hate to cheat my colleague from 
Minnesota out of his place, but----
    Chairman Warner. You've been getting here earlier and 
earlier each time. [Laughter.]
    Senator Ben Nelson. I thank you, Mr. Chairman.
    I thank the witnesses today, as well, for your very strong 
statements about your opinions, as well as the nature of the 
investigations. I'm going to ignore some of the partisan 
sniping that's been going on from the other side today, because 
I don't think it's particularly helpful.
    Having said that, General Taguba, in your opinion this is 
not a top-down problem. I think what you're saying is that this 
was something that may have been spontaneous, but an abuse 
involving only a handful--last week, the operative word was 
``few'' individuals, but I think that right now I think that 
perhaps it's a limited number of people. Is that accurate?
    General Taguba. Yes, sir. Based on the interviews and the 
statements that were given to us by both the detainees, MP 
personnel, and those that we examined, there were others, but 
we just could not track them down.
    Senator Ben Nelson. Who is the highest-ranking officer you 
interrogated?
    General Taguba. My interviews, sir, Brigadier General 
Janice Karpinski.
    Senator Ben Nelson. You didn't talk to General Sanchez?
    General Taguba. No, sir.
    Senator Ben Nelson. Did you talk to Colonel Pappas?
    General Taguba. Yes, sir, I did.
    Senator Ben Nelson. Who's the highest-ranking official--not 
officer--you may have talked to?
    General Taguba. Sir, none. I stopped at General Karpinski.
    Senator Ben Nelson. So what may have happened above General 
Karpinski is an open book. In other words, it's not--or it's a 
closed book. No one knows what may or may not have occurred 
above that level. Is that accurate? Insofar as your 
investigation is concerned.
    General Taguba. Yes, sir. She did intimate to me other 
officials from the CPA that she interacted with, in terms of 
the prison system, the Iraqi prison system, but I did not go 
after that. I did do a midcourse brief to General Sanchez and 
General McKiernan, but only in that we were proceeding on the 
timeline without any great delay.
    Senator Ben Nelson. But General Karpinski says that her 
command was severed by the infusion of MI dealing with certain 
detainees. Is that accurate or an approximation of her 
statement?
    General Taguba. Sir, I don't understand where her command 
authority--her command was severed from Abu Ghraib?
    Senator Ben Nelson. Because others were put in, and she was 
given the instruction--Colonel Pappas appeared on the scene, 
and MI not under her command were there, as well. Is that 
accurate?
    General Taguba. Sir, it's contained in my report that when 
I asked her if she had known about FRAGO 1108 dated 19 
November, the first time--the only time I interviewed her--she 
had no knowledge of that until about 2 days afterwards, of 
which I asked her what did she do after that, and then she 
wanted clarification from her chain of command, when she was 
told that the FRAGO was, indeed, in effect, and that the MI 
brigade commander was the commander, the forward-operating base 
commander.
    Senator Ben Nelson. Under those circumstances, if her 
command wasn't severed, was it at least interfered with, in 
your judgment?
    General Taguba. Sir, truthfully, she challenged that.
    Senator Ben Nelson. In what way?
    General Taguba. She challenged the authority that was given 
to Colonel Pappas.
    Senator Ben Nelson. What was the result of the challenge?
    General Taguba. Sir, it created confusion and friction 
between those two commanders.
    Senator Ben Nelson. So what we have now is confusion, a 
lack of clarity of command. We have a handful, at least, of 
spontaneous abusers, as it relates to detainees. Do we know 
whether, in that prison or in other prisons where there were 
criminal prisoners, as well, not detainees, whether there was 
any abuse that carried over into their lives?
    General Taguba. Sir, the FRAGO only affected Abu Ghraib. 
Camp Bucca was still under the 800th MP brigade, exclusively. 
So was Camp Cropper and Camp Ashraf.
    Senator Ben Nelson. Were the abuses there anywhere similar? 
Were there photographs there, as in the case of Abu Ghraib?
    General Taguba. None that we gathered, in terms of 
evidence, no, sir.
    Senator Ben Nelson. Those other prisons were under her 
command. Is that correct?
    General Taguba. Yes, sir. There were--you might consider 
abuse, but that was in terms of slapping a prisoner, and there 
were----
    Senator Ben Nelson. Not similar type abuses as we have 
here.
    General Taguba. Not to the gravity that was exposed, no, 
sir.
    Senator Ben Nelson. And not photographs.
    General Taguba. Not photographs, no, sir.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman.
    General Taguba, it's refreshing to those of us who deal 
with the military every day, not only to look at your report, 
but to see your frankness here today. I think every military 
officer can certainly walk a little taller and a little 
straighter because of the work that all of you gentlemen are 
doing, but particularly, General, with respect to the way you 
have handled yourself and being willing to be critical where 
you need to be critical.
    Now, General Smith, you made the statement earlier that 
this particular unit, the 800th MP brigade, was--they were 
trained--their job was this sort of stuff. Now, I'm assuming 
you mean from that that their job was to go over there and run 
this prison.
    General Smith. Sir--and maybe General Taguba can jump in on 
this a little bit--but I believe there are only one or two 
organizations of its type in the United States Army, and it is 
an internment and resettlement brigade.
    Senator Chambliss. Okay.
    General Smith. Is that correct, General?
    General Taguba. That's correct, sir.
    Senator Chambliss. General Taguba, while General Schoomaker 
took exception to a comment I made the other day relative to 
the lack of training of this unit that just happened to be a 
Reserve unit, the fact of the matter is, there were a few 
dysfunctional individuals within this unit that, according to 
your report, was a very poorly trained unit that didn't have 
knowledge of what they were supposed to do. In fact, as I read 
your statement here, there's a general lack of knowledge, 
implementation, and emphasis of basic legal, regulatory, 
doctrinal, and command requirements within the 800th MP brigade 
and its subordinate units. Do you still stand by that 
statement?
    General Taguba. Yes, sir, I stand by that statement.
    Senator Chambliss. In fact, your report is replete with 
comments relative to the lack of training of this particular 
unit that was supposed to be highly specialized and trained to 
do exactly what they were sent there to do, isn't that correct?
    General Taguba. Sir, when I interviewed the company 
commander and asked them to outline for me what training he 
received at the mobility station, he basically gave me the 
typical basic requirements to only marksmanship, things of that 
nature. When I asked him, ``Did you get any additional training 
prior to your deployment and into deployment with regard to 
internment and resettlement or anything that has anything to do 
with detention operations,'' he said he did not.
    I did not interview the battalion commander, the 320th MP 
battalion commander, because he invoked his rights; however, 
those that we interviewed within that chain of command also 
concluded that.
    Senator Chambliss. Okay.
    General, there's something that has puzzled me throughout 
this process that's evolved over the last--or been made public 
over the last 10 days or so. One thing is the fact that Major 
General Ryder went in there in October and November 2003 and 
did a report. In his report, according to your report, his 
objective was to observe detention and prison operations, 
identify potential systemic and human rights issues, and 
provide near-term, mid-term, and long-term recommendations to 
improve operations in the Iraqi prison system. Yet during the 
time that he was there, in Abu Ghraib, some of these incidents 
were occurring. I think your report confirms that. Certainly 
when he testified the other day before the Intelligence 
Committee, that was obvious. I have asked the question, 
privately and publicly, why didn't somebody come forward and 
tell Major General Ryder about this during the time that he was 
there when these incidents were going on? Do you have any--can 
you shed any light on that particular question?
    General Taguba. Sir, I read General Ryder's report. I did 
not discuss it with him. I know that within the content of his 
report he visited quite a bit of the detention centers, not 
just exclusively Abu Ghraib. The results, of course, were his 
recommendations, I agreed with, in terms of putting things 
under single command and control, things of that nature. I 
don't want to speculate about anything with regards to any 
knowledge of detainee abuse having not been reported or being 
reported up the chain of command. It was apparent in our 
investigation that these things were happening, but we were 
puzzled also at the fact, sir, that none of this stuff was 
going above the battalion commander level. That's what we 
concluded, that none of this stuff was going above the 
battalion commander level.
    Senator Chambliss. Okay, thank you, General.
    Chairman Warner. Thank you very much, Senator.
    The committee will continue right through the first vote, 
and if there's a second, likewise, until every Senator has had 
their opportunity to ask questions.
    Next week we have our bill on the floor, according to the 
current schedule, so, in all likelihood, we'll have to suspend 
this series of hearings until after the bill has been 
considered.
    Senator Bill Nelson. Mr. Chairman, will we continue with a 
second round?
    Chairman Warner. No, Senator, because I think we would be 
infringing on the policy counsels for both parties.
    Thank you very much.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I thank you for 
holding today's hearings, and for your resolve to face these 
atrocities. You're an honorable man, and would that everyone 
shared your resolve to find the truth rather than to deny it or 
deflect it.
    Unfortunately, we in this committee were overshadowed 
yesterday by President Bush's words and actions, traveling to 
the Pentagon with the Vice President to tell the SECDEF, the 
country, and the world, ``You're doing a superb job.'' The 
President looked at a dozen more pictures of abuse, and 
reportedly shook his head in disgust, but the apologies, 
regrets, and mea culpas are now history. It's back to business 
as usual.
    If anyone missed those subtleties, the Vice President was 
even more direct over the weekend when he said, ``People ought 
to get off of his case and let him do his job,'' referring to 
the SECDEF. In other words, we should stop meddling and 
interfering and let them go back to running the war.
    This morning illustrates the difficulty in a hearing to get 
beyond the words to the realities. General Taguba's report and 
directness here today are notable exceptions. But it shows why 
the pictures made such a difference. They showed us the truth. 
Most of the words today have managed to obscure that truth. 
We're told there were papers and procedures, policies and 
protocols, there were directives given, conditions set, and 
everyone followed the Geneva Conventions, international law, 
United States principles, except for a few people, who did very 
bad things unbeknownst to anyone else, all of whom were doing 
what they were doing to save American lives. So let's dispense 
with this and get back to our good intentions, the great 
progress going unreported in 95 percent of Iraq, the upcoming 
handoff of democracy to whoever the recipients shall be.
    That's why those pictures are so disruptive, because they 
defy that sanitizing. They can't be obscured by non-
descriptions like, ``the inappropriate behavior of a sexual 
nature,'' which were words used to describe the forced 
masturbation of one detainee or the rape of another. That's why 
Pentagon officials are reportedly preventing the additional 
pictures from being publicly released.
    The White House communications director said that the 
President wants the Pentagon to, ``use its best judgment about 
the release of the photos.'' Well, we've seen where that best 
judgment has gotten us so far, and I think it's deplorable that 
they intend, again, to try to suppress the truth and all the 
truth from the American people.
    Chairman Warner. Senator, having worked on that question 
with the DOD, at this point in time the decision as to public 
release is an ongoing review. To the best of my knowledge, as 
of late last night, no final decision has been made by the DOD, 
the White House, or others.
    Senator Dayton. All right. Thank you, Mr. Chairman.
    If you go elsewhere--and thank goodness for a free and 
vigilant press, because I don't think we would find most of 
this out any other way--but there is an ICRC report which 
describes excessive patterns of--patterns of excessive force 
used by U.S. soldiers in prisons, and not just the one subject 
to this investigation, but throughout the country. The ICRC 
wrote that ill treatment during capture was frequent, that it 
often included pushing people around, insulting, taking aim 
with rifles, punching, kicking, striking, which seem to go 
beyond--seem to reflect a usual modus operandi, and appear to 
go beyond the reasonable, legitimate, proportional use of force 
required to apprehend suspects or restrain persons resisting 
arrest or capture.
    The published reports say that as many as 43,000 Iraqis 
were detained at various times, and that an estimated 90 
percent of them were determined to have not had any involvement 
in the matters that are under--that were of concern to U.S. 
authorities, that only 600 were turned over for prosecution, 
that 8,000 remain in detention now for indefinite periods of 
time, although I gather that there are now steps being taken to 
release all but 2,000 of them.
    My time is up, but I'm just going to complete here by just 
referring to one individual who said he was taken from a 
barbershop where he was getting a shave, and he was beaten with 
pipes, starting on his legs and back, and moving to his head. 
He was bleeding from his mouth and ears, he fainted. When he 
woke up, he was in a dog's cage at a local military base. He 
was left naked in the cage for several days, receiving only 
scant food and water, until soldiers hung him from a tree by 
his cuffed hands, ``They told me they would bring my wife and 
hang her next to me.'' I don't take any pleasure in recounting 
these incidents, but I take umbrage that there are still those 
who want to deny that they occurred to any degree or those that 
want to ascribe other motives to those of us who are just 
trying to face up to them.
    I want the United States to succeed in Iraq. I'm deeply 
concerned that what's occurred there is going to cause further 
violence that will come down on our troops, that will bear the 
brunt of this, and set back our ability to meet our objectives 
there. But I don't see how that's going to be served by trying 
to obscure or deny what's occurring there or what has occurred 
there and make sure--try to make sure it doesn't happen again 
there or anywhere else in the world.
    Thank you, Mr. Chairman. My time's expired.
    Chairman Warner. I thank you, Senator.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    General Taguba, Chairman Warner asked, I believe, earlier, 
the question, ``What went wrong?'' You answered, there was a 
failure of leadership from the brigade level on down--and down. 
In your investigation, did you find any evidence--any evidence 
whatsoever--that culpability extended beyond the brigade level?
    General Taguba. No, sir, we did not. However, we did 
recommend, based on some evidence that we gathered of the 
complicity of MI interrogators, and we recommended that a 
separate investigation be provided under Procedure 15 of 380-
10.
    Senator Cornyn. How many individuals do you believe were 
involved in this abuse at Abu Ghraib?
    General Taguba. Sir, directly, there were those six or 
seven, I believe. I know that the ongoing investigation 
continues under Article 32. I don't know of any others. In 
terms of those soldiers' supervisors and leaders, I enumerated 
that on my report. I believe there was a total of 17 there that 
I identified.
    Senator Cornyn. So there were seven--there was disciplinary 
action taken against the seven supervisors, and then there was 
the actual criminal charges that have now been brought, I 
guess, against another seven, is that correct?
    General Taguba. Yes, sir. Those were the criminal 
investigations, but I'm not involved in that whole process, but 
my investigation was purely administrative, to gather facts and 
circumstances that were related to detainee abuse and the other 
things that I mentioned to you earlier, principally their 
leaders.
    Senator Cornyn. I ask those questions because I'm concerned 
that there are those who are suggesting that somehow what you 
have said was exceptional misconduct on the part of these 
guards and their supervising--their superior officers was 
somehow the norm. Indeed, there was a question asked earlier, 
attempting to suggest that this was the implementation of 
policies and procedures that are in existence at Guantanamo 
Bay. There was a question asked about whether Guantanamo Bay 
was somehow the baseline, and that now that represented the 
norm, and this was the logical conclusion of those policies and 
procedures at Guantanamo Bay.
    I have to tell you that, like other members of the 
committee, no doubt, I've traveled to Guantanamo Bay because of 
my interest in the detention of the individuals there who--of 
course, who plan, finance, and execute terrorist acts against 
Americans and other innocent civilians. I had an opportunity to 
meet General Geoffrey Miller, who was the commander of the 
Joint Task Force at Guantanamo. I was very impressed with the 
treatment, with the policies and procedures that allowed the 
humane interrogation of detainees there.
    Let me just ask you, is there any--whether they're enemy 
combatants or unlawful combatants or common criminals, is there 
any policy that you're aware of in the United States military 
that allows for less than humane treatment of detainees?
    General Taguba. No, sir. I did not find that anywhere.
    Senator Cornyn. Of course, we are concerned about the 
atypical conduct on the part of these individuals who committed 
these crimes, and those who failed to see that they got the 
supervision and the leadership necessary in order to avoid 
these crimes. But I must add my voice to those of others that 
say, while we are absolutely committed to getting to the bottom 
of this--and your report gets us a long way there--and of 
making sure that the guilty are held accountable, we can't 
forget the context in which all of this is taking place, and 
that is in a larger context of many other military troops 
serving honorably in Iraq and Afghanistan and elsewhere, and 
the need to get essential information from some of these 
detainees that could well protect America from the next 9/11.
    So I want to commend you and the others for the wonderful 
service that you're performing, and thank you for helping us 
get to the bottom of this. I hope that we will ultimately be 
successful in doing so, holding those accountable who are 
responsible, and then making sure we focus on our greater and 
more important job of making sure that America's safe in this 
war on terror.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I want to join in thanking you, General Taguba, for your 
service and for this report.
    I don't think anyone disagrees with the last comment by my 
colleague that our objective is to both prosecute this war on 
terrorism successfully and also to ensure the safety and 
security of our own people from future attacks. The question is 
whether behavior and conduct and decisions with respect to the 
treatment of these detainees undermine the potential success 
that we all agree is essential to our national security.
    I am still confused, and my confusion is this. With respect 
to the actions that are described in your report, General 
Taguba, you also included a number of other problems at other 
detention facilities. But is it your best information that no 
detention facility that was in any way connected with the 800th 
MP brigade had the level of problems that you reported in this 
unit at Abu Ghraib?
    General Taguba. Yes, ma'am. The scope, again, was within 
the context of those facilities that the 800th MP operated.
    Senator Clinton. The 800th MP brigade was under the command 
of General Karpinski. Is that correct?
    General Taguba. Yes, ma'am.
    Senator Clinton. Now, if the problems were severe and 
located principally in this one unit, then I think it is 
appropriate to follow the chain of command up to the decision 
to send General Miller to that prison, where, as I understand 
the testimony thus far, he set up a specific joint 
interrogation unit. He did, however one wants to describe it, 
either coordinate or direct the MP's involvement in the 
conditioning of the detainees. Is that a correct statement, 
General?
    General Taguba. Yes, ma'am.
    Senator Clinton. All right. So it seems to me that if, 
indeed, General Miller was sent from Guantanamo to Iraq for the 
purpose of acquiring more actionable intelligence from 
detainees, then it is fair to conclude that the actions that 
are at point here in your report are in some way to General 
Miller's arrival and his specific orders, however they were 
interpreted by those MPs and the MI that were involved. 
Therefore, I, for one, don't believe I yet have adequate 
information from Mr. Cambone in the DOD as to exactly what 
General Miller's orders were, what kind of reports came back up 
the chain of command as to how he carried out those orders, and 
the connection between his arrival in the fall of 2003 and the 
intensity of the abuses that occurred afterwards.
    Now, we know that General Karpinski has been rightly 
singled out for appropriate concern about her behavior and her 
failure of command. But I just want to read to you a comment 
she made in an interview, which I find extraordinary. I quote, 
``But when I looked at those pictures, and when I continued to 
see those pictures, I don't think that there was anything that 
was improperly done, because this wasn't something that was a 
violation of a procedure. This was something they were 
instructed to do as a completely new procedure. I'm not sure 
that those MPs had ever been confronted with any instructions 
like this before.''
    General Taguba, can you explain for us the disparity 
between holding this brigade commander completely accountable, 
and the comments that I just read to you, in light of the fact 
that certainly the 205th Military Intelligence Brigade was 
given tactical control over that prison? Can you explain 
General Karpinski's comment?
    General Taguba. Yes, ma'am. During the course of our 
investigation, there was clear evidence, based on my interview 
of General Karpinski and Colonel Pappas, that there was 
friction between those two commanders in the operation of Abu 
Ghraib. The dissension was who was in charge of--when, and at 
what time. They could not explain. So that's the context of the 
ambiguity of the order that was given to Colonel Pappas. It was 
clear that he was directed to be the forward operating base 
commander there for security detainees and force protection. 
However, General Karpinski challenged that, and she noted that 
in her recorded testimony. Point one.
    I held her accountable and responsible, not exclusively and 
solely for the abuse cases there at Abu Ghraib, but the context 
of her leadership, the lack of leadership on her part overall, 
in terms of her training, the standards, supervisory omission, 
the command climate in her brigade. Those were all, in 
totality, why I held her accountable and responsible, ma'am.
    Senator Clinton. Just one last follow-up, General. Did 
Colonel Pappas report directly to General Miller?
    General Taguba. That I did not know because General Miller 
was not there. He reported, I believe, to CJTF-7.
    Senator Clinton. General Smith, do you know who Colonel 
Pappas reported directly to?
    General Smith. Yes, ma'am. Through CJTF-7. Ma'am, General 
Miller had no command relationship in this at all. He came over 
to do an investigation and make some findings and 
recommendations on how to improve. Nobody reported to him. He 
had no relationship whatsoever, other than to report details.
    Senator Inhofe [presiding]. Thank you, Senator Clinton.
    Senator Graham.
    Senator Graham. Thank you, Senator.
    I think they've left, but just a few minutes ago there were 
some foreign military officers who came to the hearing, and I 
would just want to say, for the record, that I'm very proud of 
the fact that our military command system, civilian and 
military, comes out in the open, is asked hard questions, and 
has to appear before the public.
    You've documented, General Taguba, some failings. I think 
we're failing the country ourselves up here a bit. I think 
we're overly politicizing this. This should be what binds us, 
not what tears us apart. I think Republicans and Democrats may 
have a different view of a lot of things, but it seems to me 
that investigating a prison abuse scandal, when you say you're 
the good guys, should pull you together, not tear you apart. I 
would just hope my colleagues can understand that when you say 
you're the good guys, you have to act as the good guys.
    So, General Taguba, how long have you been in uniform?
    General Taguba. Sir, this is my 32nd year.
    Senator Graham. Saddam Hussein is in our control. How would 
you feel if we sicced dogs on him tomorrow?
    General Taguba. Sir, on Saddam Hussein?
    Senator Graham. Yes.
    General Taguba. Sir, we still have to follow the tenets of 
international law.
    Senator Graham. As much as you and I dislike him, as mean a 
tyrant as he is, and you know he'd kill us all tomorrow, I am 
so proud of you. What are we fighting for, General Taguba, in 
Iraq? To be like Saddam Hussein? Is that what we're fighting 
for?
    General Taguba. No, sir.
    Senator Graham. Our standard, General Smith, can never be 
to be like Saddam Hussein, can it be, sir?
    General Smith. No, sir.
    Senator Graham. How long have you been in the service?
    General Smith. Thirty-four years.
    Senator Graham. Is it okay with you if the ICRC comes and 
looks at our prisons?
    General Smith. Absolutely, sir, and they should.
    Senator Graham. Okay. God bless you both.
    General Taguba, it comes down to this for me. You have one 
prison that was run differently than other prisons. The photo 
we see of the detainee on the stool, wired up, was that just 
six or seven people having a good time in a perverted way at 
that person's expense, or is there something deeper going on 
there, and do you know?
    General Taguba. Sir, based on the evidence, it was six or 
seven people who created that type of a scenario or situation.
    Senator Graham. Okay. To the dog scenario, where you see 
the detainee with two dogs, was that a couple of guards with 
dogs in a perverted way having a good time, or was there 
something else going on?
    General Taguba. No, sir. The dogs were invited in there 
according to written statements, and collaborated by 
interviews, by the two MP guards.
    Senator Graham. The way these people were stacked up in 
sexual positions and the sexual activity, was that just 
individual guards or was that part of something else going on?
    General Taguba. Sir, those were individual acts, as based 
again on interviews and statements and collaborated by the 
detainees' statements.
    Senator Graham. Part of the defense that we're going to be 
hearing about in these court-martials is that the people that 
we're charging are going to say this system that we see 
photographic evidence of was at least encouraged, if not 
directed, by others. Do you think that's an accurate statement?
    General Taguba. Sir, I would say that they were probably 
influenced by others----
    Senator Graham. Okay.
    General Taguba. --but not necessarily directed specifically 
by others.
    Senator Graham. We're not going to have a seminar in 
military law today, but I have a different view of command 
influence than some people have suggested, in terms of what we 
can disclose and how it would affect court-martials. There is 
another level of accountability in the military beyond just 
participating in out-of-bounds behavior, Geneva Conventions or 
otherwise. Do you agree with me that the UCMJ prevents this 
conduct regardless of the Geneva Conventions?
    General Taguba. Absolutely.
    Senator Graham. So, ladies and gentlemen, what we're here 
today is to show the world that our military is governed by the 
rule of law, just like all of us. Having been a JAG officer for 
over 20 years, a prosecutor, a defense attorney, and now a 
Reserve judge, I have great confidence that we will get to the 
bottom of this. Do you agree with that, General Smith?
    General Smith. Yes, sir, I do.
    Senator Graham. Now, dereliction of duty is a concept 
unique to military law. It probably should apply to us in 
politics. A lot of us would be in trouble, probably me 
included, if that were the case. But in the military, as a 
commander, it can be a criminal offense if you derelict your 
duty to maintain good order and discipline in a way that 
crosses the line. Is that correct?
    General Taguba. Yes, sir.
    Senator Graham. You interviewed a general officer. In your 
report, you indicated that you thought that general officer 
misled you about how many times that person had been to the 
prison system. Is that correct?
    General Taguba. Yes, sir. That was collaborated by her own 
aide.
    Senator Graham. I would suggest to you, General Taguba, 
that out of this investigation, not only should we focus on the 
privates and the sergeants and the specialists who did criminal 
activity, but we also should have a higher accountability, that 
if a general officer misrepresents what they did, in terms of 
command and control, that a letter of reprimand may not be the 
appropriate sanction. But I will leave that discussion for 
others.
    Colonel Phillabaum?
    General Taguba. Colonel Phillabaum, yes, sir.
    Senator Graham. Your description of his time there was 
classic dereliction of duty. You have recommended a letter of 
reprimand for him.
    General Taguba. Relief from command, sir, and to be removed 
from a promotion list.
    Senator Graham. My point is that Secretary Rumsfeld should 
not be held accountable for the criminal activity of others. It 
would be unfair to any military commander, politician, or 
otherwise to have to take a fall when people break the law and 
take the law in their own hands. However, those of us in 
responsibility do have a burden to bear.
    Senator Inhofe. Senator Graham, your time has expired.
    Senator Graham. Can I just end with this one thought, Mr. 
Chairman?
    Senator Inhofe. Yes, sir.
    Senator Graham. Secretary Rumsfeld has to manage the whole 
war. I think it would be unfair for him to take a fall if this 
is just a limited activity of a few people or of a prison 
poorly run. At the end of the day, General Taguba, 
responsibility, command and otherwise, is very much part of the 
military law and culture, and I appreciate what you've done to 
expose the failings.
    Thank you very much.
    Senator Inhofe. Thank you, Senator Graham.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your presence here today.
    Two quick questions for you, Mr. Cambone, then one 
observation that if any of you want to react to, I would 
appreciate it. I apologize for moving expeditiously, but there 
is a vote that is about to expire.
    Mr. Cambone, I'd like to follow up on the questions of some 
others--I think Senator McCain started, and then it was touched 
upon a little bit later--with regard to Ambassador Bremer's 
warnings.
    Secretary Cambone. Yes, sir.
    Senator Bayh. The published reports indicate that he began 
raising these warnings in about August of last year. As I 
understand your testimony, these were sort of general in 
nature, about the overcrowding and the concern for transiting 
people through there and returning them to their civilian 
situation when they didn't need to be retained any longer.
    The ICRC report came to his attention in February or March, 
and you seemed to imply that perhaps his warnings became more 
specific with regard to activities in the prison thereafter. Is 
that the case?
    Secretary Cambone. With respect to the first part of your 
question, sir--or your statement--I believe that to be the 
case. That is to say, I was not in communications with 
Ambassador Bremer, nor know of any statements by him specific 
to these abuses.
    Senator Bayh. So in these meetings with the SECDEF, you 
were never present?
    Secretary Cambone. I did not know of those. I did know of 
his general concern, as you said, for the prison population.
    Senator Bayh. What about following the ICRC report?
    Secretary Cambone. With respect to the 2004 report, I can 
only tell you, again, what I know, and that is that there was a 
meeting in that time frame, of February, at which members of 
the--senior members of the CPA staff met with members of the 
ICRC, and this report was made available. From that, there were 
some communications from CPA to the State Department and 
elsewhere with respect to these concerns.
    Senator Bayh. About these abuses.
    Secretary Cambone. That's what I think I know. Sir, I did 
not see the ICRC report until I began working my way into this 
problem over the last 2 weeks.
    Senator Bayh. My second question involves the dispute 
between you and the general about who had tactical control at 
the prison. As I understand it, he believes that the MI 
individuals did exert practical tactical control, and it's your 
opinion that they did not. As I understand your position, the 
intelligence authorities were given control over the facility, 
but not control over the individuals running the facility. What 
exactly does that mean? How do you have control over a 
facility, but not the people who are running it? What were they 
in charge of, the plumbing or the----
    Secretary Cambone. No, sir. In the same way that you have a 
building supervisor who doesn't tell the tenants how to do 
their business. In other words, you do require someone who is 
senior in command to be able to be responsible for the 
facility--that is, for its security from outside activity, 
internal security, the care and feeding of folks, all of those 
administrative and logistics tasks that go with running a large 
facility. Then there are, within that facility, a number of 
operations and activities that take place, which are under the 
command of other individuals, and those individuals are 
responsible for the exercise of command over those activities.
    Senator Bayh. That's a layman's opinion. General, I'd be 
interested in your opinion. It seems to me the attempt here to 
draw this line may have contributed to the confusion about who 
was in charge, which may have led to some of these troubles. 
General, is that a fair comment?
    General Taguba. Yes, sir. We followed doctrine in the 
context of our investigation as a matter of our baselines. We 
used those as references. Doctrinally, TACON, as given to 
Colonel Pappas, was that his mission was for security detainees 
and force protection. Doctrinally, if you are TACON to him, he 
establishes priorities.
    Secretary Cambone. That doesn't go, sir, though, to the 
heart of his being able to give what would have been--and, 
General, correct me--unlawful orders to the commander of that 
MP battalion.
    General Taguba. Yes, sir.
    General Smith. Nor, sir, does it allow him to change their 
mission. In other words, they're trained to a specific task. 
It's the person with operational control that is allowed to 
change how they do business and the like. So as General Taguba 
said, he can change the priorities for these folks, but they 
still have to operate within the guidelines and the doctrine 
that they are trained to. So they are still cops doing cop 
business.
    Senator Bayh. General?
    General Taguba. Sir, there were established standards two, 
in fact--that were signed by Lieutenant General Sanchez that 
stipulated what you can and cannot do. Those were clear. 
However, the failing here was that some leaders just did not 
comply with it. They were posted for a purpose, sir, and there 
are certain standards that they have to follow.
    Senator Bayh. Compounded by a number of other things, 
including lack of uniformity in training.
    My last comment--and this gets to the dilemma; we face this 
repeatedly in the intelligence arena, Mr. Chairman--and that is 
the following. Timely and accurate intelligence information is 
essential to our protecting our troops, civilians, winning the 
war against this insurrection and the larger war against 
terrorism. At the same time, preserving our honor and our moral 
integrity is also vitally important, in the longer term, to 
winning this struggle, because that, at the end of the day, is 
what differentiates us from those with whom we fight.
    Now, it seems to me there are--you've laid our, all of you, 
in your testimony--we begin taking our instruction, but how do 
you draw the line? How do you draw the line between vigorous 
but acceptable interrogation versus morphing into abuse? We 
start with the Geneva Conventions, as general principles. I 
think, Mr. Cambone, you then used the term ``approved 
interrogation techniques,'' of which there were 20 or 30, so we 
try and refine that general guidance into more specific 
guidance. Then exceptions are allowed at the behest or the 
direction of the commander, who, I assume, in this case, would 
have been General Sanchez, is that correct?
    General Smith. Yes, sir.
    Senator Bayh. I assume he didn't authorize any exemptions.
    General Smith. No.
    Senator Bayh. That's the process that we go through in 
trying to determine where the line is, what you can do and what 
you can't do.
    I'd just like to conclude by saying, I think it is 
absolutely critical that we enforce the line as we defined it, 
vigorously, hold those who crossed it to account to show that 
we don't tolerate this kind of thing. But let's learn the 
lessons of the past, as well. We are currently trying to 
overcome some past intelligence abuses, 20, 30 years ago, and 
our reaction to those abuses that have hamstrung us in the 
covert arena, and otherwise. So let's draw the line, bright and 
clear. Let's institute training. Let's hold commanders who 
don't insist that the line be followed to account, as well as 
the foot soldiers. But let's not throw the baby out with the 
bath water, because gaining access to appropriate information 
is also important as we also preserve our moral integrity and 
our honor.
    Secretary Cambone. Thank you for that, Senator. If I may 
say, in trying to answer the committee's questions today on 
these issues, if in any way I suggested that if we find that 
there was misconduct or misbehavior or inappropriate behavior 
on the part of anyone associated with the MI side of this, 
which General Fay is now looking at today, I can assure you and 
other members of this committee that we will be back here, and 
we will tell you that.
    Senator Bayh. Thank you.
    Senator Inhofe. Thank you, Senator Bayh.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Thanks to the 
witnesses.
    In absentia, I wanted to thank Chairman Warner and Senator 
Levin for the speed and intensity with which they have convened 
this series of hearings, and I thank you gentlemen for being 
here.
    We have a real challenge here, which is to deal with this 
inhumane, immoral, unacceptable, un-American behavior that 
happened in this prison, and maybe others--I want to ask some 
questions about that--and to do it as quickly as we can so that 
we can get back to fighting the war on terrorism, and to do it 
in so comprehensive and aggressive a way that we do not allow, 
or even facilitate unintentionally, the erosion of public 
support in this country for the critically important mission 
our troops are performing in Iraq and in the broader war 
against terrorism. That's why I appreciate these hearings. In 
that regard, I think the comprehensiveness of our 
investigation--yours, really--is critically important.
    General Taguba, I just want to make clear, when you were 
asked to investigate, you were asked to investigate conditions 
at Abu Ghraib and two of the other most populated prison 
facilities in Iraq, is that correct?
    General Taguba. Yes, sir. Matters related to training, 
standards, internal policies, and the like, yes, sir.
    Senator Lieberman. Are there other prison facilities in 
Iraq beyond those three, therefore, that have not been 
reviewed, or are they being reviewed now for conduct that we're 
concerned about?
    General Taguba. Sir, I did not go beyond the four that I 
looked at during the course of the investigation, and I believe 
a subsequent investigation by the Army IG conducted that 
following my investigation. They looked at other facilities, 
also.
    Senator Lieberman. Is that General Ryder's investigation?
    Secretary Cambone. No, sir, there's an independent 
investigation put in train by the acting Secretary of the Army 
that covers all--as I understand it--not only facilities in 
Iraq, but in Afghanistan, as well.
    Senator Lieberman. That was my next question. Afghanistan, 
as well.
    General Smith. That is ongoing, Senator.
    Senator Lieberman. That is ongoing?
    General Smith. Yes, sir.
    Senator Lieberman. In the sense that it predates this 
scandal?
    General Smith. No, sir. It continues today.
    Senator Lieberman. I gotcha. So that--would it be fair for 
you to say, through us, to the American people, that we are 
essentially looking everywhere throughout the American military 
prison system to make sure nothing like what happened at the 
Abu Ghraib prison is occurring anywhere else?
    General Smith. I would have to look at the specific charge 
that the Department of Army IG was given, but I believe that to 
be the case, certainly.
    Secretary Cambone. With respect to the CENTCOM area of 
responsibility (AOR) and the handling of prisoners there, and 
terrorists who are in detention, the SECDEF has asked the 
Secretary of the Navy to take a look, as well, as Charleston 
and in other places where there may be internees.
    Senator Lieberman. Okay, that's very important. Let me come 
back. Obviously you will continue to report to us on the 
conclusions of those investigations.
    I had an exchange with Secretary Rumsfeld on Friday that 
reverberated in my own mind over the weekend. I think one of 
the other Senators may have asked one of you a question about 
this. It is about the relevance of the Geneva Conventions to 
the prisoners being held in Iraq. I had read various statements 
by the SECDEF and others that confused me on this, because I 
don't think the Geneva Conventions were being applied precisely 
to detainees. In response to--in Iraq--my question on Friday, 
Secretary Rumsfeld said the President announced from the outset 
that everyone in Iraq who was a military person and was 
detained is a prisoner of war; therefore, the Geneva 
Conventions apply.
    Second, continuing with the Secretary's statement, the 
decision was made that civilians or criminal elements that are 
detainees are also treated subject to the Geneva Conventions, 
although it is a different element of it.
    At an earlier point in an interview he did on television, 
he--and this is, I think, what was asked--before he said that 
they're not entitled to the Geneva Conventions--oh, I'm sorry, 
here it is--``The decision was made that the Geneva Conventions 
did not precisely apply, but every individual would be treated 
as though the Geneva Conventions did apply.'' So, first of all, 
my staff can't find the statement that the President made 
announcing that policy. Secretary Cambone, I would ask you----
    Secretary Cambone. Sir, I'd be happy to get that for you, 
and I'm happy to ask the SECDEF this afternoon what, indeed, he 
had in mind in that expression. Senator Levin asked that 
question earlier, and I will ask him, and I will get you an 
answer.
    Senator Lieberman. I would appreciate that. As part of 
that, I would ask General Taguba or General Smith to respond to 
this part of it. How do we--there's a report in one of the 
papers today, based on an ICRC Report, that 70 to 90 percent of 
the detainees, according to the ICRC, were captured without 
solid evidence of their guilt, but--and the numbers are large--
is there a process for determining--considering what Secretary 
Rumsfeld said on Friday--who is an EPW, and who is a detainee? 
Who's military, and, therefore, treated as a prisoner, or who's 
a detainee, and, therefore, who gets the higher level of 
rights, legally?
    Secretary Cambone. We have at the moment very few, as I 
recall, EPWs left in the system. What we have, primarily, are 
those who have posed a threat to the security of the coalition 
forces, the Iraqi Government, the Iraqi people, or others who 
may have committed crimes of one kind or another against Iraqi 
citizens. There are some of those latter who are, as I 
understand it, in custody and being in the custody of Iraqi 
security police and things of that sort, and they are in a 
process to be brought forward before an Iraqi judicial process, 
which, itself, is slowly and painfully standing up.
    Senator Lieberman. Okay. So my final question--and I think 
my time is up, maybe I should ask you to bring it back to the 
Pentagon and then respond to it if you could--is the status, 
which is--because, as I read the Geneva Conventions, I think 
that detainees have rights under the convention. They're a lot 
lower than the rights of prisoners of war. So I'm confused by 
what seems to be the policy that Secretary Rumsfeld articulated 
on Friday, that though they're not entitled to the rights of 
Geneva Conventions, that we're giving it to them.
    Secretary Cambone. Yes, sir. I will take one more step on 
behalf of my General Counsel, and I will offer you him----
    Senator Lieberman. Fine.
    Secretary Cambone. --for a period of time, to come by and 
brief you and other Senators, as you might wish, Mr. Chairman, 
on precisely how this has unfolded, so that there is no 
confusion left in the committee or in the American people about 
where we stand on the Geneva Conventions.
    Senator Lieberman. I appreciate that.
    Thanks, Mr. Chairman.
    Chairman Warner [presiding]. Thank you, Senator.
    I will be discussing, with the SECDEF and others, the other 
witnesses that I think should come before the committee, and I 
am considering the General Counsel, given his expertise in this 
area. So we'll do that.
    Secretary Cambone. Yes, sir.
    Chairman Warner. I wish to thank the SECDEF, through you, 
Mr. Secretary, for the cooperation in putting together this 
series of hearings that we're holding today.
    I would ask now, do you or any other witness have a 
response to a question or wish to make any added statement 
before we close out this morning's record?
    Secretary Cambone. I do. Sir, I ordinarily begin my 
presentations here by saying that it's a pleasure. This is not. 
It is a duty and a responsibility. We take it seriously. 
General Dayton's point, we will get to the bottom of this.
    Moreover, I would like to thank you for your courtesies. 
They are important to all of us who are grappling with a very 
difficult problem. In the end, we will answer this committee's 
questions and those of the other committees of Congress to the 
best of our knowledge, with as much knowledge as we have at the 
time we are asked the question. Sir, therefore, I say to you, 
if we read through this record and we find we have made a 
mistake, I have misspoken on the Geneva Conventions or I have 
told you something about command relationships that is 
incorrect, I would beg your indulgence to allow us to correct 
that record as quickly and as accurately as we can, and make 
any changes known to every member of the committee when we do 
so.
    Chairman Warner. I thank you for that offer, and it will be 
done.
    Secretary Cambone. Thank you.
    Chairman Warner. This afternoon we'll be having Lieutenant 
General Keith B. Alexander--he's the Deputy Chief of Staff, G-
2, United States Army, handling intelligence matters; Major 
General Ronald L. Burgess, Jr., Director for Intelligence, J-2, 
The Joint Staff; and Major General Thomas J. Romig, Judge 
Advocate General, United States Army.
    If there are no other comments, I thank my colleagues for 
the sincerity, the tremendous time that each of them is putting 
in to prepare for this hearing. I think it has been a very 
successful hearing. I thank you, Secretary Cambone, General 
Smith, and General Taguba. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                      abu ghraib chain of command
    1. Senator McCain. Secretary Cambone and General Smith, I would 
like to request a document that will lay out the entire chain of 
command, from the guards and interrogators in the prison all the way up 
to the SECDEF. I believe we need to see exactly how this chain of 
command operated, who it included, and who was ordering the personnel 
in Abu Ghraib to act in this way. Under whose authority did the prison 
personnel operate and who issued instructions governing prison 
operations? Can you provide such a document to this committee?
    Secretary Cambone. The military police operated under the command 
of the 372nd Military Police Company of the 800th Military Police 
Brigade. The interrogators were controlled by the Joint Interrogation 
Debriefing Center (JIDC) and the 205th Military Intelligence Brigade. 
Tab 1 contains the charts that reflect the chain of command, and has 
been previously provided to the Senate Armed Services Committee.
    General Smith. The premise of the question implies that abuse was 
ordered at some level. This is not established fact and certainly was 
not the policy of CJTF-7 or CENTCOM. Specific written policies were in 
effect and signed by Lieutenant General Sanchez that emphasized 
applicability of the Geneva--Hague Conventions and the importance of 
treating all protected persons in a humane manner.
    The interrogator chain of command was as follows:

        Interrogator--205th MI Bde--CJTF-7--CENTCOM--SECDEF.

    The MP chain of command was as follows:

        Guard--320th MP Battalion--800th MP Bde--[CJTF-7/CFLCC] \1\--
        CENTCOM--SECDEF.
---------------------------------------------------------------------------
    \1\ CJTF-7 had TACON of 800th MP Bde, CFLCC had OPCON of 800th MP 
Bde.

                         gitmo-izing abu ghraib
    2. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, it has been reported that General Miller wanted to GITMO-ize 
the confinement operations at Abu Ghraib prison because of your concern 
in that facility that MI was not getting the information from detainees 
like he thought they should be. What did he mean by GITMO-izing Abu 
Ghraib prison?
    Secretary Cambone. I am unaware of any such statement being made by 
MG Miller.
    General Smith. CENTCOM is not in a position to speculate about what 
Major General Miller might have meant by the phrase ``GITMO-ize Abu 
Ghraib'' attributed to him in Senator McCain's question. Major General 
Miller was not assigned to CENTCOM during the period in which he is 
alleged to have made that remark nor was he conducting his review at 
CENTCOM's request. Also, his perception of the facility may have 
changed since his recent assignment to our AOR. Recommend directing 
this question to General Miller who is in a better position to respond 
as to his intention.
    General Taguba. I have never been to Guantanamo so I would not know 
specifically what Major General Miller meant by the term ``GITMO-
izing'' Abu Ghraib Prison. This question should be directed to Major 
General Miller.

                             guantanamo bay
    3. Senator McCain. Secretary Cambone and General Smith, are you 
comfortable with the open-ended detentions at Guantanamo Bay, Cuba?
    Secretary Cambone. The United States has no interest in holding 
detainees at Guantanamo Bay any longer than is necessary. However, 
hostilities in the war on terrorism continue and we do not intend to 
take any action that would present an undue risk to our security 
interests. Within that framework, the U.S. Government has released and 
transferred out of detention at Guantanamo 140 detainees. Additionally, 
DOD has instituted an Administrative Review Board and procedures to 
determine annually if enemy combatants at Guantanamo Bay should be 
released, transferred, or continue to be retained. I expect this 
comprehensive review process to result in additional detainee transfers 
and releases.
    General Smith. To the extent these detainees represent a real 
threat to safety and security, their continued internment is necessary 
and essential for the protection of U.S. forces, our coalition allies, 
and the American people.

           general officer approval of interrogation tactics
    4. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, General Miller announced that certain practices would be 
discontinued, including hooding, stress positioning, and sleep 
deprivation, but that they would be permitted with approval by a 
general officer. Under what authority can a general officer permit 
these techniques?
    Secretary Cambone. This matter was reviewed extensively in the 
Kern/Fay investigation, on which the committee held hearings. Further, 
General Sanchez and General Abizaid testified before the committee and 
discussed their authorities in detail.
    General Smith. Practices not violative of international or national 
law or contrary to regulations issued by higher authority may be 
approved by a commander pursuant to the exercise of his command 
authority.
    General Taguba. These practices were outlined in a CJTF-7 
memorandum dated 12 October 2003, Subject: Interrogation and Counter 
Resistance Policy in which such practices would have to be approved by 
the Commander, 205th MI Brigade or by Lt. Gen. Ricardo Sanchez, CG 
CJTF-7. Commanders may approve practices which do not violate 
international or national law or which are not contrary to regulations 
issued by a higher authority.

           cause of death of former head of iraq's air force
    5. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, the Denver Post reports an allegation that the former head of 
the Iraqi Air Force died during interrogation when he was rolled up 
inside a sleeping bag so only his feet stuck out, and then sat on and 
rolled back and forth until he died of suffocation. Apparently the 
investigation concluded that this was a death from ``natural causes.'' 
What can you tell me about this?
    Secretary Cambone. The case concerns Major General Mowhosh, the 
former Iraqi Air Defense commander. General Mowhosh died on November 
26, 2003, at Forward Operating Base Tiger, in western Iraq. The U.S. 
Army Criminal Investigation Command was notified of the death and 
initiated an investigation that same day. The Office of the Armed 
Forces Medical Examiner (OAFME) performed an autopsy on December 2, 
2003, with preliminary indications that the manner of death was a 
homicide and the cause of death was asphyxia. OAFME issued a death 
certificate on May 12, 2004. I am advised that there is a criminal 
investigation into this incident.
    General Smith. At the 3d Armed Cavalry Regiment detention facility 
(FOB Tiger) in Iraq, an Iraqi detainee, Iraqi Army Major General A. 
Mowhosh, believed to be former Chief of Army Air Defense, died while in 
U.S. custody. On 26 November 2003, the detainee died while undergoing 
interrogation by MI soldiers. An autopsy was conducted which disclosed 
evidence of blunt force trauma to the body. The preliminary report, 
however, lists the cause of death as asphyxia due to smothering and 
chest compressions. The manner of death is listed as homicide. A 
criminal investigation is still ongoing.
    General Taguba. I have no knowledge regarding the cause of death of 
this detainee.

        evidence of abuse in other u.s.-operated detention sites
    6. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, have you seen any evidence of abuses at other detention centers 
in Iraq, at Guantanamo, in Afghanistan, or at any other detention 
center operated by the U.S. worldwide?
    Secretary Cambone. As of late August, of the more than 50,000 
individuals apprehended and detained since the beginning of 
hostilities, there have been about 300 cases of alleged detainee abuse 
across the Joint Operations Areas. 157 individual investigations have 
been completed and 66 cases were substantiated so far. Of those 66, 8 
occurred in Guantanamo, 3 in Afghanistan, and 55 in Iraq. About one 
third of these cases occurred prior to, the detention facilities at the 
point of capture or tactical collection point, frequently under trying 
circumstances.
    There has also been a series of 11 major, comprehensive 
investigations conducted prior to and since the situation at Abu Ghraib 
became known. Eight of these are complete and have been briefed to 
Congress or otherwise released. As the remaining three investigations 
develop their conclusions, we will share them with Congress as well.
    General Smith. No; I have not personally witnessed any evidence of 
abuse at a DOD-operated detention facility. 
    General Taguba. My investigation team visited only the four 
detention sites in Iraq-Abu Ghraib, Camp Cropper, Camp Ashraf, and Camp 
Bucca during the period of the 15-6 investigation. Other than Abu 
Ghraib, there were two reported detainee abuses cases at Camp Bucca. 
The 310th MP Batallion Commander at Camp Bucca took legal action on 
those cases.

                             prison guards
    7. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, is it now, or has it been, administration policy that prison 
guards should ``facilitate'' detainee interrogations? If so, how were 
they instructed to do this?
    Secretary Cambone. This matter has been investigated in several of 
the reviews the DOD initiated when the abuse allegations came to light. 
It is my understanding that the matter was addressed by those 
investigations during briefings to SASC members or staff and during 
hearings covering those investigations.
    General Smith. Prison guards are not to take an active role in 
detainee interrogations. A passive role such as observing and reporting 
is permissible.
    General Taguba. The U.S. Army is the executive agent for EPW and 
Detainee Operations in accordance Army Regulation 190-8, and also Army 
Field Manual 3-19.40. There are no provisions outlined in these 
documents where prison guards should `facilitate' detainee 
interrogations, nor do I know of any administration or command policy 
that directs it.

                  permissive climate of prisoner abuse
    8. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, in Secretary Rumsfeld's May 7, 2004 testimony, he testified 
that the Abu Ghraib prison personnel followed the provisions of the 
Geneva Conventions and that the Geneva Conventions were posted for all 
prison personnel to see. General Taguba has stated that neither the 
camp rules nor the provisions of the Geneva Conventions were posted in 
English or in the language of the detainees at any of the detention 
facilities in the 800th MP Brigade's area of responsibility. Would this 
supervisory error not contribute to a permissive climate of prisoner 
abuse?
    Secretary Cambone. Posting of camp rules and the applicable Geneva 
Conventions is required by the conventions and service regulations. 
Detention facilities have posted Geneva Conventions rules both in 
English and detainee languages. In addition, I understand that it is 
standard operating procedure within MNF-I that the rules regarding both 
detention and interrogation, including the principles of the Geneva 
Conventions, are routinely briefed at shift changes and guard mounts.
    General Smith. If the provisions of the Geneva Conventions were not 
posted at 800th MP Brigade Facilities, this would be in error. However, 
the failure to post does not excuse individual instances of prisoner 
abuse. All MPs should have received training in the Geneva Conventions 
and Law of War prior to receipt of their military occupational 
specialty designation.
    General Taguba. In accordance with Army Regulation 190-8, the 
Geneva Conventions are required to be posted in English or in the 
language of the detainees and must be available to the detainees. 
Guards and interrogators must also have general knowledge regarding the 
requirements of the Geneva Conventions Relative to the Treatment of 
Prisoners of War and be trained on the provisions of the Geneva 
Conventions. It is possible that non-compliance with the requirement to 
post the Geneva Conventions and have them available for detainees and 
guards could be a contributing factor to a permissive climate of 
prisoner abuse.

            international committee of the red cross request
    9. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, the ICRC has stated that it repeatedly asked U.S. authorities 
to take corrective action with respect to the treatment of prisoners in 
Iraq. Which U.S. authorities were asked and why did they refuse?
    Secretary Cambone. The DOD's internal reviews concluded that we 
needed to improve our handling of ICRC reports to ensure that the 
concerns raised by the ICRC are reviewed by the proper authorities in 
the chain of command. It should be noted that the ICRC did, however, 
report their own concerns to responsible commanders at various levels 
and how those concerns were addressed is under review in the ongoing 
investigations we initiated after those allegations came to light.
    General Smith. During the period in question, ICRC reports were 
normally handled at the CJTF-7 level. I will defer to those military 
officials to provide any relevant details responsive to your questions.
    General Taguba. I do not know specifically the U.S. authorities to 
whom the ICRC repeatedly requested that corrective actions be taken 
with respect to the treatment of prisoners in Iraq.

                          numbers of detainees
    10. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, how many persons do we currently have detained in Iraq, 
Afghanistan, and elsewhere as part of the wars there and the war on 
terror?
    Secretary Cambone. Although the figures vary daily as persons are 
released and others are interned, as of 29 August there were 5,405 
persons under the control of MNF-I in Iraq, 476 persons under the 
control of CFC-A in Afghanistan, and 586 persons in Guantanamo Bay.
    General Smith. Although the figures vary daily as persons are 
released and others are interned, as of 6 August 2004, there were 9,416 
persons under the control of MNF-I in Iraq and 454 persons under the 
control of CFC-A in Afghanistan.
    General Taguba. The investigation covered the period of June 2003 
to January 2004. Since there were no specific or common detainee 
accounting system in theater utilized by the 800th MP Brigade, the 
estimates of detainees in U.S. custody were from 11,333 as of June 2003 
to 11,699 as of December 2003 in the four detention camps I mentioned 
earlier. I do not know the detainee population in Afghanistan or 
elsewhere.

            prosecution of civilian operators in abu ghraib
    11. Senator McCain. Secretary Cambone, General Smith, and General 
Taguba, interrogation specialists from private defense contractors were 
operating inside Abu Ghraib and may have taken part in these 
atrocities. Given the UCMJ has been amended by the Military and 
Extraterritorial Jurisdiction Act of 1999, do you intend to prosecute 
the contractors who allegedly abused prisoners and committed other 
atrocities under the UCMJ?
    Secretary Cambone. The Department of Defense is taking a wide range 
of actions to address the abuses at Abu Ghraib, including criminal 
investigative action. Such investigations can result in charges being 
brought against military members under the UCMJ, and against DOD 
civilian personnel and DOD contractors under the Military 
Extraterritorial Jurisdiction Act of 2000 (P.L. 106-778) (MEJA). The 
MEJA extended Federal criminal jurisdiction to misconduct committed by 
persons employed by or accompanying the Armed Forces outside the United 
States. This includes civilian employees of both the Department of 
Defense and of contractors of the Department of Defense. Of course, 
authority to initiate prosecutions rests with the Department of Justice 
(DOJ), not the Department of Defense.
    Additionally, the Fay investigation's review of the role of 
contractors at Abu Ghraib is now complete. The report includes' 
recommendations to forward its findings to Army General Counsel and the 
DOJ for determination of appropriate action.
    General Smith. Culpable persons who abused prisoners will be 
referred to the relevant judicial authority system for appropriate 
action.
    General Taguba. The U.S. Military does not have jurisdiction to 
prosecute civilians under the UCMJ except in time of war as officially 
declared by Congress. That is not the situation in Iraq. The criminal 
prosecution of U.S. civilians could only be effected by the host 
country or by the U.S. Department of Justice in coordination with a 
U.S. Attorney's office for violation of U.S. laws that have extra-
territorial application.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
               gravity of initial abu ghraib prison abuse
    12. Senator Collins. General Taguba, did you see any indication 
that the initial reports of abuse at Abu Ghraib prison were not taken 
seriously by investigators or the DOD chain of command?
    General Taguba. I believe the initial reports of detainee abuse 
were taken seriously by the CG, CJTF-7 and Commander, CENTCOM. Upon 
being made aware of these abuses, Lieutenant General Sanchez almost 
immediately requested that the CENTCOM commander appoint a two star 
general to investigate reports of detainee abuse and other matters 
relating to the 800th MP Brigade. The CENTCOM Commander, through his 
Chief of Staff, then directed the CFLCC Commander, Lt. Gen. David 
McKiernan to appoint such an investigating officer.

                      abu ghraib chain of command
    13. Senator Collins. General Smith, please describe the chain of 
command beginning with the alleged abusers. Who in that chain of 
command was aware of the initial reports of abuse of Iraqi prisoners?
    General Smith. The initial reports of abuse were reported to CID by 
a soldier stationed at Abu Ghraib. CID informed the suspects' 
commanding officer who in turn made notification through the 
operational chain of command. The Commander of CJTF-7, Lieutenant 
General Sanchez, promptly reported the matter to General Abizaid, who 
in turn quickly advised Chairman of the Joint Chiefs of Staff, General 
Myers. Other reporting may have occurred through both Service and CID 
channels. Those alleged to have committed the abuse are assigned to the 
372nd MP Company, 320th MP Battalion, 800th MP Brigade. The brigade 
commander was under the tactical control of the Commander, CJTF-7 and 
the Operational Control of the Combined Forces Land Component Commander 
(CFLCC).
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                             miller report
    14. Senator Levin. Secretary Cambone, in early September 2003, 
Major General Geoffrey Miller, Commander, Joint Task Force Guantanamo, 
led a team to review current ability to rapidly exploit internees in 
the Iraqi theater for actionable intelligence. It has been generally 
reported that General Miller's team recommended that military police in 
Iraq be used to set the conditions for the successful interrogation and 
exploitation of internees/detainees . Why was General Miller sent to 
Iraq, what were his specific orders, and who recommended that he be 
sent and why?
    Secretary Cambone. MG Miller was dispatched to Iraq via joint staff 
message to advise CENTCOM and the Iraq Survey Group on detainee 
operations in Baghdad, including interrogations. Dr. Cambone was 
involved only to the extent that he was interested in having MG Miller 
help improve the flow of intelligence information to CJTF-7 and back to 
the subordinate commands. MG Miller had no directive authority in that 
visit. He was in Iraq from August 31 to September 9, 2003.

    15. Senator Levin. Secretary Cambone, who in the Office of the 
SECDEF was briefed on General Miller's recommendations and who approved 
these recommendations?
    Secretary Cambone. The USD(I) was never officially briefed on MG 
Miller's report and only received a copy of the report April 2004.

    16. Senator Levin. Secretary Cambone, when and how were General 
Miller's recommendations conveyed to commanders at CJTF-7?
    Secretary Cambone. Major General Miller conducted briefings to the 
staff on 3 and 7 September 2003 during the course of his visit and 
concluded with an exit briefing on 9 September 2003.

    17. Senator Levin. Secretary Cambone, does the DOD agree with 
General Taguba's conclusion that MP should not be involved with setting 
``favorable conditions'' for subsequent interviews?
    Secretary Cambone. The Department agrees with the statement General 
Sanchez made before the SASC on 19 May: ``MPs were involved in passive 
enabling of those operations and had no involvement in the conduct of 
interrogations. Those were the orders in the SOPs that remained after 
General Miller's visit.''

    18. Senator Levin. General Smith, according to the Washington Post, 
General Sanchez is reported to have issued a memorandum on October 12, 
2003, calling for a ``harmonization'' of military policing and 
intelligence work at Abu Ghraib to ``maximize the efficiency of the 
interrogation.'' Did General Sanchez issue this memorandum based on the 
recommendations of General Miller's report?
    General Smith. The 12 October memorandum was the CJTF-7 Command 
Interrogation and Counter-Resistance Policy. To the best of my 
knowledge, it was issued, in part, based upon Major General Miller's 
recommendations.

           end strength and training of the 800th mp company
    19. Senator Levin. General Smith, it appears all MP functions at 
Abu Ghraib were performed by Reserve MP units, at least during the 
period in question. The Taguba Report noted that the units of the 800th 
MP Brigade are greatly under strength, as Reserve component units do 
not have individual personnel replacement system to mitigate medical 
losses or the departure of individual soldiers. Why was an inadequately 
staffed, inadequately trained, and unprepared unit sent to handle such 
a critical task? Who bears responsibility for this staffing decision?
    General Smith. This Reserve Brigade's purpose was to fulfill the 
mission for which it was assigned. Brigade leadership was expected to 
fulfill its mission by adapting and utilizing soldiers who were 
supposed to be trained to accomplish mission requirements. As the 
Taguba Report notes, there are only two MP (Internment/Resettlement) 
Battalions in the Army, which have corrections training on their 
Mission Essential Task List (METL). The Taguba Report also noted that 
the Commander of the 800th MP Brigade did a poor job of allocating 
resources. The Commander also did not train her soldiers in confinement 
operations after it became clear that the mission of her soldiers was 
to change after the fall of the former Iraqi regime. Adapting to the 
mission is expected of commanders, especially senior commanders. Some 
of the ``staffing decisions'' were dictated by the limitations in 
specific resources available; a situation which the U.S. Army has 
identified and is taking steps to correct.

    20. Senator Levin. General Smith, is this a problem faced by Guard 
and Reserve units throughout Iraq?
    General Smith. Guard and Reserve units deployed throughout Iraq are 
expected to be trained and ready to perform their missions. Training 
and readiness are responsibilities of the Service components and are 
issues currently under review by those components.

    21. Senator Levin. General Smith, have there been any changes in 
the training of the MP units and personnel since the detainee abuses 
were first discovered? If so, what changes have been made to date, and 
when were they made?
    General Smith. Training and readiness are the responsibilities of 
the Service components and I would defer to those officials to report 
on changes made.

                     taguba report recommendations
    22. Senator Levin. General Smith, General Taguba's report contained 
a number of recommendations with regard to the situation at Abu Ghraib 
detention facility. To what extent have the recommendations contained 
in the Taguba Report been adopted and implemented? Please address each 
of the specific recommendations in the three parts of the report.
    General Smith. The attached summary of MNF-I actions is responsive 
to this question.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                international committee of the red cross report
    23. Senator Levin. General Smith, the February 2004 report of the 
ICRC indicates that the abuses revealed in the Taguba Report were 
consistent with allegations of abuse collected by the ICRC in the 
course of some 29 visits to 14 internment facilities in central and 
southern Iraq during the period of March to November 2003. The ICRC 
report makes clear that since the beginning of the conflict in Iraq, 
the ICRC regularly brought concerns about the ill-treatment of 
detainees to the attention of coalition forces. In addition, ICRC 
President Jacob Kellenberger has said that he met with senior 
administration officials in May 2003 and January 2004 to discuss issues 
related to the treatment of detainees at Guantanamo Bay, in 
Afghanistan, and elsewhere. How many times since the beginning of the 
conflict in Iraq were ICRC reports brought to the attention of 
coalition forces? Please provide any written reports provided by the 
ICRC to coalition forces concerning the treatment of detainees.
    General Smith. While ICRC reports are not classified documents, 
they must be handled as such. The information contained in these 
reports pertains to ongoing military operations and identifies 
facilities, practices, personnel, and detainees, including by name. 
This information is sensitive and requires protection. Staffers within 
DOD have worked closely with staffers of the congressional committees. 
The staff and members of the SASC have been briefed on this issue and 
DOD has made available all of the relevant ICRC reports to the 
committee members.

    24. Senator Levin. General Smith, who in CENTCOM was aware of the 
ICRC's reports of prisoner abuse throughout 2003? What action was taken 
in response to these reports and why wasn't it more successful in 
addressing the underlying problems?
    General Smith. I was not personally aware of the ICRC reports of 
prisoner abuse throughout 2003. Based upon further inquiry, I have 
learned that only one ICRC report, dated 12 May 2003, was ever 
addressed to this command. This predated my assumption of duties by 
approximately 5 months. All other such reports have been addressed to 
subordinate organizations or officials at the Pentagon.
    Our subordinate commands will hold accountable those who failed in 
their duties and they will ensure that the necessary training will be 
conducted to curtail future incidents. New leadership at the 
confinement facility is clearly aware of the need to heighten their 
vigilance to prevent any possible mistreatment of Iraqi detainees. 
Additional training on the Geneva Conventions has been conducted for 
the new units that are taking over detention operations to ensure the 
new soldiers are aware of their duties and responsibilities. 
Additionally, the reported allegations prompted Lieutenant General 
Sanchez to request the immediate provision of a team to conduct 
additional training on confinement operations, with emphasis on 
treating detainees with dignity and respect. A single senior officer 
with proper authorities and support to oversee all aspects of detainee 
operations has been appointed. Maj. Gen. Geoff Miller has been in place 
since 15 April 2004 and is properly focused and making a positive 
difference.

    25. Senator Levin. General Smith, did CENTCOM keep senior 
administration officials informed of the ICRC's concerns about the ill-
treatment of Iraqi prisoners? If so, at what level and on what 
occasions were they informed?
    General Smith. With one exception, ICRC reports and concerns were 
handled at the CJTF-7 level. CENTCOM did not receive ICRC reports. Had 
I known about the abuses as outlined in the ICRC reports which have now 
been furnished to this command, senior administration officials at the 
Pentagon would have been promptly informed. In fact, as soon as the 
abuses at Abu Ghraib were reported to CENTCOM, that information was 
immediately passed to the Joint Chiefs of Staff.

    26. Senator Levin. Secretary Cambone, on how many occasions did 
senior DOD or administration officials meet with representatives of the 
ICRC and when did these meetings occur?
    Secretary Cambone. There were four such occasions--May 27, June 27, 
October 15, and December 19.

    27. Senator Levin. Secretary Cambone, were any investigations, 
changes in policy, or other actions initiated as a result of these 
meetings?
    Secretary Cambone. The Department of Defense has already launched 
no less than 12 separate investigations into the ICRC's allegations of 
prisoner mistreatment:

          a. MG Ryder, the Army Provost Marshall General, launched an 
        investigation to assess ongoing detention and corrections 
        operations in Iraq. MG Ryder completed that assessment on 
        November 6, 2003, and a copy of the Ryder Report has been 
        provided to Congress.
          b. MG Miller, Commander of the Guantanamo facility, launched 
        an assessment of intelligence and detention operations that was 
        completed on September 5, 2003. A copy of the Miller Report was 
        provided to Congress..
          c. MG Taguba's administrative investigation of detainee 
        operations and the 800th MP Brigade was completed May 6, 2004, 
        and a copy was submitted to Congress.
          d. VADM Church completed a review of procedures at Guantanamo 
        and Charleston on May 11, 2004.
          e. LTG Jones and MG Fay are currently reviewing military 
        intelligence and contractor interrogation procedures of the 
        205th MI Brigade at Abu Ghraib.
          f. LTG Mikolashek, the Army Inspector General, is currently 
        performing an overall assessment of doctrine and training 
        related to detention operations.
          g. BG Jacoby is currently reviewing detainee operations and 
        facilities in Afghanistan.
          h. Secretary Rumsfeld has ordered an investigation to collect 
        authorized interrogation practices in the all DOD detention 
        facilities used for the war on terror and to ensure that all 
        appropriate policy guidance is being followed.
          i. BG Formica is currently performing an administrative 
        investigation into detainee abuse by CJSOTF-AP.
          j. COL Ertman is performing an Army Reserve assessment of 
        Reserve training with a focus on military intelligence and 
        military police.
          k. Hon. Schlesinger is leading an independent examination of 
        detainee issues for the Department of Defense.
          l. Finally, there are the criminal investigations of detainee 
        abuse at Abu Ghraib and other detainee deaths while in 
        Coalition custody.
          m. To coordinate these various investigations and ensure a 
        coherent policy response to their recommendations, the 
        Department of Defense has created a new position, the Deputy 
        Assistant Secretary of Defense for Detainee Affairs. This 
        position will allow a single office to ensure compliance with 
        DOD policy directives and coordinate with the ICRC. As part of 
        this effort, DOD has taken steps to ensure that all ICRC 
        reports (which formerly went only to officers in the field) are 
        submitted directly to the Pentagon. The Departments of the Army 
        and Navy are currently taking steps to launch criminal 
        investigations into each instance of abuse alleged by the Red 
        Cross.

    28. Senator Levin. General Smith, the February 2004 ICRC report 
indicates that during a mid-October 2003 visit to the Abu Ghraib 
Correctional Facility, ICRC delegates witnessed ``the practice of 
keeping [detainees] completely naked in totally empty concrete cells 
and in total darkness, allegedly for several consecutive days.'' In 
response to ICRC inquiries, the report states that ``The military 
intelligence officer in charge of the interrogation explained that this 
practice was `part of the process' '' for obtaining confessions and 
extracting information. In response to the allegations documented by 
the ICRC in mid-October 2003, or any other ICRC reports, what specific 
steps were taken to correct the situation at Abu Ghraib or any other 
detention facilities run by coalition forces and when were they taken?
    General Smith. My expanded answer to question 24 responds to this 
question.

    29. Senator Levin. General Smith, what was the extent of the ICRC's 
access to the facilities at Abu Ghraib and did it include the part of 
the facility where the abuses depicted in the photos are alleged to 
have occurred?
    General Smith. During the period in question, ICRC visits were 
coordinated by CJTF-7. I will defer to those military officials to 
provide any details responsive to your questions.

    30. Senator Levin. General Smith, whom did the ICRC brief about 
these alleged abuses?
    General Smith. The ICRC exercised its prerogative to brief at the 
levels they thought were appropriate. The ICRC did not brief anyone in 
HQ, CENTCOM, to include me.

                        interrogation techniques
    31. Senator Levin. Secretary Cambone, in an interview with The New 
York Times, Major General Geoffrey D. Miller, the new commander of 
American prisons in Iraq, stated that the roughly 50 techniques the 
military officially uses in prisoner interrogations include hooding, 
sleep deprivation, and forcing prisoners into ``stress positions.'' An 
unclassified December 12, 2003, Situation Update to Major General 
Miller is included as an annex to the Taguba Report. The document 
describes interrogation techniques permissible for use in the Iraqi 
theater of operations, and reportedly it includes a process allowing 
for the use of sleep management, sensory deprivation, isolation longer 
than 30 days, and dogs. Were you personally aware that permissible 
interrogation techniques in the Iraqi theater included sleep 
management, sensory deprivation, isolation longer than 30 days, and 
dogs?
    Secretary Cambone. The USD(I) did not know what specific 
interrogation techniques were being used in the Iraqi theater. The 
techniques used in theater were developed and approved in theater 
without any USD(I) involvement.

    32. Senator Levin. Secretary Cambone, who within the Army or DOD 
authorized the use of these additional techniques and were they 
specifically authorized for use in Abu Ghraib?
    Secretary Cambone. Development of interrogation policies consistent 
with the standing guidance was within the authority of Combined Joint 
Task Force-7 and did not require higher-level approval.

    33. Senator Levin. Secretary Cambone, what steps were taken to 
ensure that interrogation techniques complied with the Geneva 
Conventions?
    Secretary Cambone. Prior to the commencement of Operation Iraqi 
Freedom, Commander, U.S. Central Command, prepared Operational Plan 
(OPLAN) 1003-V. Appendix 1 to Annex E of OPLAN 1003-V specifically 
addressed the treatment of the operational plan annex on enemy 
prisoners of war, retained persons, civilian internees, and other 
detainees. It outlined responsibilities, policies and procedures with 
respect to the handling of detainees, and provided specific guidance 
that the Geneva Conventions applied to all persons held by U.S. forces. 
This means of promulgation is consistent with the usual manner in which 
commanders provide guidance to their subordinate commanders. The 
subordinate commands would review the OPLAN and draft their own orders. 
For instance, the CJSC EXORD itself does not specifically address the 
Geneva Conventions; rather, it refers back to OPLAN 1003-V.
    In addition to the promulgation of this OPLAN and its Annexes, 
commanders were responsible for ensuring that detainees were treated in 
accordance with the Geneva Conventions and applicable international law 
and that measures were implemented to ensure the forces were aware of 
and complied with the Law of War.

    34. Senator Levin. Secretary Cambone, who within DOD made the legal 
determination as to whether these interrogation techniques comply with 
the Geneva Conventions, including the requirement of Article 31 of the 
Geneva Conventions that ``No physical or moral coercion shall be 
exercised against protected persons, in particular to obtain 
information from them or from third parties'' and to whom was that 
determination briefed?
    Secretary Cambone. I understand that the CJTF-7 policy issued on 
October 12, 2003, titled ``Interrogation and Counter Resistance 
Policy,'' included interrogation approaches contained in existing 
interrogation doctrine (e.g., Army Field Manual 34-52), reflected 
longstanding DOD interrogation practice, and was issued after 
consultation with the CJTF-7 Staff Judge Advocate and lawyers within 
the U.S. Central Command.

    35. Senator Levin. Secretary Cambone, what role did your office 
play in developing DOD policy on interrogation in Iraq?
    Secretary Cambone. My office did not play any role in developing 
DOD policy on interrogation in Iraq.

    36. Senator Levin. Secretary Cambone, did your office provide 
direction on interrogation guidelines to either General Abizaid or 
General Sanchez? If so, when and to whom?
    Secretary Cambone. The USD(I) did not provide direction on 
interrogation guidelines to either General Abizaid or General Sanchez.

    37. Senator Levin. Secretary Cambone, did you provide direction on 
guidelines to either Secretary Rumsfeld or Deputy Secretary Wolfowitz? 
If so, when and to whom?
    Secretary Cambone. The USD(I) did not provide direction on 
interrogation guidelines to either Secretary Rumsfeld or Deputy 
Wolfowitz.

    38. Senator Levin. Secretary Cambone, at a May 14, 2004, DOD press 
briefing, senior military officials stated that since last October 
General Sanchez had approved 25 requests to hold detainees in isolation 
for more than 30 days, but had not approved the use of any other 
interrogation technique requiring commanding general approval. General 
Sanchez also reportedly announced that he would deny requests to use 
other harsh methods that required his explicit approval. How many 
requests were made since the issuance of the Interrogation ROE for 
permission to use the interrogation techniques requiring General 
Sanchez's approval?
    Secretary Cambone. The number of requests is unknown. However, the 
``Interrogation Rules of Engagement'' were a graphic aid prepared by 
the 205th Military Intelligence Brigade. This aid is not a policy 
document and was not prepared or approved by Combined Joint Task Force-
7. Lieutenant General Sanchez signed an ``Interrogation and Counter-
Resistance Policy'' document on 14 September 2003. Revised policies 
were published on 12 October 2003 and 13 May 2004. Some of those 
policies required certain specific interrogation techniques to be 
approved in advance by Lieutenant General Sanchez on a case-by-case 
basis and after a legal review.

    39. Senator Levin. Secretary Cambone, besides the 25 cases 
mentioned in the May 14 briefing, are there any other cases in which 
the use of these techniques was granted in the Iraqi theater?
    Secretary Cambone. The only restricted technique that was approved 
for use was segregation in excess of 30 days. The figure ``25'' 
mentioned in the 14 May briefing was an estimate. Records at 
Multinational Force in Iraq Headquarters (successor to Combined Joint 
Task Force-7) indicate Lieutenant General Sanchez approved fewer than 
20 segregations.

    40. Senator Levin. Secretary Cambone, did General Sanchez suspend 
the use of these techniques as a matter of policy, or has a 
determination been made that they are not compliant with U.S. 
international obligations?
    Secretary Cambone. Of the techniques that required his approval, 
only segregation in excess of 30 days was ever approved and used. 
Whether any of the other techniques could, as a hypothetical matter, 
have been approved under any specific set of circumstances is 
uncertain. However, both policy and law can be factors in reviewing the 
suitability of various interrogation techniques depending on the status 
of the detainee and the manner in which the technique might be 
employed.

    41. Senator Levin. Secretary Cambone, in your testimony, you 
promised to provide a comparison of the command-level guidelines for 
the use in interrogation for detainees in Guantanamo and Iraq. Please 
provide this comparison.
    Secretary Cambone. Attachment prepared by Detainee Task Force on 28 
September 2004.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                           geneva conventions
    42. Senator Levin. Secretary Cambone, Secretary Rumsfeld testified 
on May 7, 2004, that the Geneva Conventions apply to all prisoners of 
war, retained personnel, civilian internees, and other detainees in the 
custody of U.S. forces in Iraq. General Taguba has stated that the 
Geneva Conventions were not posted at Abu Ghraib and military police at 
that facility were not trained in the applicability of the Geneva 
Conventions. When was the determination made that the Geneva 
Conventions did apply to all detainees in Iraq and by whom was it made?
    Secretary Cambone. The Geneva Conventions applied during Operation 
Iraqi Freedom. The plans for Operation Iraqi Freedom that were prepared 
by Commander, U.S. Central Command, and briefed to the President and me 
included provisions that clearly stated that enemy prisoners of war, 
retained persons, civilian internees, and other detainee ``operations 
will be conducted in compliance with the 1949 Geneva Convention and 
applicable U.S. military regulations.'' Further, component and 
supporting commanders were responsible under the plans for Operation 
Iraqi Freedom for ``[e]nsuring that treatment of all detained persons 
is in accordance with the Geneva Conventions and other applicable 
international law.'' The President directed these plans to be executed. 
Detention operations during Operation Iraqi Freedom were always to be 
conducted in accordance with the Geneva Conventions.

    43. Senator Levin. Secretary Cambone, how was this decision 
disseminated to troops in the field and were specific directives or 
guidance sent out, of which the military police at Abu Ghraib should 
have been aware?
    Secretary Cambone. (from 7 May Levin W, SECDEF, also used for #33): 
Prior to the commencement of Operation Iraqi Freedom, Commander, U.S. 
Central Command, prepared Operational Plan (OPLAN) 1003-V. Appendix 1 
to Annex E of OPLAN 1003-V specifically addressed the treatment of the 
operational plan annex on enemy prisoners of war, retained persons, 
civilian internees, and other detainees. It outlined responsibilities, 
policies and procedures with respect to the handling of detainees, and 
provided specific guidance that the Geneva Conventions applied to all 
persons held by U.S. forces. This means of promulgation is consistent 
with the usual manner in which commanders provide guidance to their 
subordinate commanders. The subordinate commands would review the OPLAN 
and draft their own orders. For instance, the CJSC EXORD itself does 
not specifically address the Geneva Conventions; rather, it refers back 
to OPLAN 1003-V.
    In addition to the promulgation of this OPLAN and its Annexes, 
commanders were responsible for ensuring that detainees were treated in 
accordance with the Geneva Conventions and applicable international law 
and that measures were implemented to ensure the forces were aware of 
and complied with the Law of War.

    44. Senator Levin. Secretary Cambone, will the JAG be conducting 
his own review of the interrogation techniques listed in the October 12 
Situation Update included in an annex to the Taguba Report to determine 
his assessment of their compliance with the Geneva Conventions?
    Secretary Cambone. Department-wide, much has been done to improve 
detainee operations:
Army:
        <bullet> Established Provost Marshal General in September 2003 
        as Army executive agent for detainee operations.
        <bullet> Planning for general officer-level Military Police 
        command in Army future force.
        <bullet> Developed detainee operations integration plan--
        prioritized plan addressing policy, doctrine, organization, 
        training, materiel, leadership, personnel, and facilities.
        <bullet> Synchronized Army with joint policy and doctrine.
        <bullet> Established Detainee Operations Oversight Council.
CENTCOM:
        <bullet> Assigned a general officer to be in charge of all 
        detention and interrogation operations in Iraq.
        <bullet> Issued standard interrogation policies that emphasize 
        application of Geneva Conventions and that are fully consistent 
        with overall DOD policies.
        <bullet> Upgrading detention facilities for soldiers and 
        detainees.
Joint Staff:
        <bullet> Created Joint Staff Detainee Affairs Division to 
        address worldwide detainee operations.
        <bullet> Drafted Multi-Service Tactics, Techniques & Procedures 
        on Detainee Operations by the Air, Land, & Sea Applications 
        Center.
        <bullet> Expediting publication of Joint Doctrine for Detainee 
        Operations (Joint Publication 3-63).
        <bullet> Including Joint Interrogation Operations in ``Joint 
        and National Intelligence Support to Military Operations.'' 
        (Joint Publication 2-01)
        <bullet> Added Detainee Operations to ``Joint Training Policy 
        and Guidance for the Armed Forces of the United States.'' 
        (Chairman, Joint Chiefs of Staff Instruction 3500.01C)
OSD:
        <bullet> Established Deputy Assistant Secretary of Defense for 
        Detainee Affairs (DASD-DA) office.
        <bullet> Established a Joint Detainee Coordination Committee on 
        Detainee Affairs chaired by DASD-DA.
        <bullet> Issued policy ``Procedures for Investigations into the 
        Death of Detainees in the Custody of the Armed Forces of the 
        U.S.''
        <bullet> Issued policy ``Handling of Reports from the 
        International Committee of the Red Cross.''
        <bullet> Initiated a department wide review of detainee-related 
        policy directives.

    As part of that department wide review of detainee-related policy 
directives, the Judge Advocate General will review all policies and 
directives in order to ensure their compliance with the Geneva 
Conventions.

    [Whereupon, at 12:35 p.m., the committee adjourned.]


 CONTINUE TO RECEIVE TESTIMONY ON ALLEGATIONS OF MISTREATMENT OF IRAQI 
                               PRISONERS

                              ----------                              


                         TUESDAY, MAY 11, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Talent, Chambliss, Graham, 
Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Dayton, Clinton, and Pryor.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Elaine 
A. McCusker, professional staff member; Paula J. Philbin, 
professional staff member; Lynn F. Rusten, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Jeremy L. Hekhuis, professional staff member; 
Gerald J. Leeling, minority counsel; and William G.P. Monahan, 
minority counsel.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, Sara R. Mareno, and Bridget E. Ward.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren M. Dick, assistant to Senator Roberts; 
Lance Landry, assistant to Senator Allard; Derek J. Maurer, 
assistant to Senator Collins; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Meredith Moseley, assistant to Senator 
Graham; Mieke Y. Eoyang, assistant to Senator Kennedy; Erik 
Raven, assistant to Senator Byrd; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; Eric Pierce, assistant to Senator Ben Nelson; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze and 
Randy Massanelli, assistants to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good afternoon. The Armed Services 
Committee reconvenes for a second panel to resume our hearing, 
a series of hearings regarding the mistreatment of Iraqi 
prisoners by some elements and certain personnel, few in 
number, I hope, of our Armed Forces, in violation of the United 
States Constitution and laws and international laws.
    Testifying before us are Lieutenant General Keith B. 
Alexander, Deputy Chief of Staff, G-2, United States Army--
General Alexander is the senior intelligence officer in the 
Army; Major General Ronald L. Burgess, Director for 
Intelligence, J-2, Joint Staff; and Major General Thomas J. 
Romig, Judge Advocate General (JAG) for the United States Army.
    We're privileged to have you here. I thank you, Secretary 
Rumsfeld, and the Acting Secretary of the Army, Les Brownlee, 
for facilitating your presence here today.
    Senator Levin, you can make any comments you want.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Let me add my welcome to our three witnesses this 
afternoon. We all appreciate their appearing before us.
    This morning, General Taguba agreed with the conclusion of 
the International Committee of the Red Cross (ICRC), based on 
the evidence presented to him, that coercive practices, such as 
holding prisoners naked for an extended period of time, were a 
systematic part of the intelligence process at Abu Ghraib.
    Additionally, we heard from Under Secretary Cambone that 
stressful and harsh approaches, including sleep deprivation and 
use of dogs, could be approved by the commander. But that 
doesn't square with the statements by the witnesses that the 
Geneva Conventions provisions and principles were supposed to 
be followed, since they don't allow for such practices. For 
instance, Article 31 of the fourth Geneva Conventions states 
that ``no physical or moral coercion shall be exercised against 
protected persons, in particular to obtain information from 
them or from third parties.'' I hope that our witnesses this 
afternoon will address, in great detail, that issue.
    Finally, Mr. Cambone said this morning that one of General 
Miller's recommendations for Iraq was to dedicate and train a 
detention guard force, subordinate to an intelligence 
commander, who would set the conditions for successful 
interrogation. But General Taguba told us this morning that 
under Army doctrine that should not be the function of a guard 
force. So that is also an issue which I hope our witnesses will 
address, along with a multitude of other matters which I know 
are before this committee.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin.
    Gentlemen, will you kindly stand and raise your right 
hands? [Witnesses sworn.]
    General Alexander and other witnesses, I presume each of 
you has a brief opening statement. Your entire statements will 
be admitted to the record.
    If you will proceed, General Alexander.

   STATEMENT OF LTG KEITH B. ALEXANDER, USA, DEPUTY CHIEF OF 
  STAFF, G-2; ACCOMPANIED BY MG RONALD L. BURGESS, JR., USA, 
DEPUTY CHIEF OF STAFF, J-2; AND MG THOMAS J. ROMIG, USA, JUDGE 
                        ADVOCATE GENERAL

    General Alexander. Chairman Warner, Senator Levin, and 
members of the committee, on behalf of the men and women of the 
United States Army Intelligence, we appreciate the opportunity 
to appear before you today. With me today is Major General Ron 
Burgess, J-2, Joint Staff, and Major General Tom Romig, the JAG 
of the Army. I am making this statement on behalf of the three 
of us.
    First, let me assure you that we find the alleged abuses of 
detainees in Abu Ghraib prison, Iraq, totally reprehensible. 
Army Intelligence neither condones, nor tolerates, these 
actions. Furthermore, we would like to emphasize that Army 
Intelligence soldiers are trained to abide by the highest 
standards for the humane treatment of all personnel in the 
custody of our soldiers worldwide.
    We conduct extensive legal training for all of our Army 
Intelligence professionals, especially interrogators, in the 
law of war and the provisions of the Geneva Conventions of 
1949. Our training manuals specifically prohibit the abuse of 
detainees, and we ensure all of our soldiers trained as 
interrogators receive this training.
    Geneva Conventions protocols are reinforced during each 
practical exercise. Sir, there are 12 practical exercises that 
the interrogators go through, each of those last 2 hours. An 
interrogator will flunk an exercise should he or she 
inadvertently violate a Geneva Accord.
    The contemptible behavior of a few soldiers does not 
represent the professionalism, dedication, and compassion 
demonstrated by the majority of soldiers in Iraq. Commanders 
and soldiers at every level have the duty to respect and follow 
the established international laws of armed conflict, and to 
treat everyone, to include those within our military detention 
facilities, with dignity and decency in the same ways that we 
expect to be treated, as Americans. Those soldiers who 
mistreated or humiliated detainees will be brought to justice 
swiftly. Again, the Army does not condone or tolerate such 
behavior.
    The allegations of misconduct at Abu Ghraib have hit at the 
very core values of our Nation, the Department of Defense 
(DOD), and the Army, causing us grave concern, and prompting a 
very focused and thorough review of these incidents. Senior 
leaders at all levels take every report seriously, and expect 
an extensive investigation of every allegation.
    The Combined Joint Task Force-7 (CJTF-7) in Iraq has an 
ongoing investigation of allegations that intelligence soldiers 
were involved in the abuse of detainees in Abu Ghraib. This 
investigation, called a Procedure 15, is currently ongoing and 
being conducted by Major General Fay for Lieutenant General 
Sanchez, and will identify and report questionable intelligence 
activities that may have violated law, executive order, or 
presidential directive.
    Army Intelligence will not tolerate soldiers who violate 
the dignity and rights of others, to include those whom we have 
detained. We remain steadfastly committed to dealing 
expeditiously with any complaint or allegation of mistreatment, 
and to ensuring our commanders take appropriate action.
    Sir, I would like to address a few issues that arose during 
this morning's testimony.
    First, on the interrogation rules of engagement (ROE), we 
brought with us the rules of engagement that were in effect at 
the CJTF-7 in Iraq prior to October 2003. These rules are in 
compliance with the Geneva Conventions, and directly stem from 
our interrogation manual, Field Manual (FM) 34-52. These are 
the rules that interrogation soldiers are trained on at Fort 
Huachuca. In addition, contractors were to read and sign that 
they understood these rules.
    Second, in the timing of events, the ICRC reports cover 
periods from March 2003 through the end of 2003, and perhaps 
into 2004. They visited Abu Ghraib, we know for sure, in 
October 2003, on the 11th and 12th, and again on the 23rd, and 
conducted a series of interviews with detainees. That report, 
as Major General Taguba stated, was given to Brigadier General 
Karpinski to respond, and she provided her response on the 24th 
of December 2003. A formal report was produced in February 
2004. Important to note is, many of the problems that were 
identified during that time period were prior to the issue of 
when the military intelligence (MI) brigade took over, on 19 
November 2003.
    Chairman Warner. Did you personally get copies of those 
reports?
    General Alexander. Sir, I got copies of those reports this 
week. I did not get those last year. No, I did not.
    Sir, reference tactical control (TACON), my understanding, 
in discussions with General Sanchez, was that the military 
police (MP) would remain in charge of detainee operations, but 
he needed Colonel Pappas to take over force protection and the 
overall management of the forward operating base (FOB) at Abu 
Ghraib and kick off many of the initiatives he wanted 
accomplished to upgrade the facility. However, this is a key 
issue, and I would recommend that we take this for the record, 
from the Joint Staff to Central Command (CENTCOM).
    Sir, I would like to briefly go over interrogation 
operations, because I think this gets to the key that we see a 
split between MI and MPs. I think we need to understand that. 
In my discussions with General Ryder, we do not have a split. 
There is a door at places, and there is openness at places, and 
I'd like to explain that.
    First, if you were to look at the general population for 
when prisoners of war (POW) come in there, that general 
population is seen most clearly by the MPs, and is screened by 
MI personnel who talk to the MPs on who are the key folks that 
are there. Sir, as you may expect, the MPs understand who are 
the ringleaders, who is the person who is in charge, and who 
are the key folks that may have intelligence value. It is a 
requirement in that phase that the MP and MI work closely 
together to develop and understand who are the high-value 
detainees.
    The second step, isolating and getting those high-value 
detainees into the Joint Interrogation and Debriefing Center 
(JIDC), and looking at what goes on with those prisoners. The 
people who understand the environment that those prisoners are 
in day in and day out, 24 hours a day, are the MPs, and the 
best way to understand that interrogation plan and the methods 
that the interrogator will use is the MP and the personnel who 
are around him, and that is one of the things that we need to 
have MP and MI talk about. Is this detainee or prisoner having 
a good day or bad? Has he been quiet, or has he been talking? 
What is the way to discuss this with him?
    There is a gate, and that gates starts at the interrogation 
cell itself. That's where the MPs should not be involved, and 
that is the door that General Ryder talked about in my 
discussions with him. I think we need to be clear on that, 
because when we talk about doors we give the inference that we 
mean, ``No MPs over here, and no MI over there.''
    That is what General Miller found when he went over there. 
He found that the MPs and the MI were not talking enough 
together, so that we missed key people who ought to have been 
interrogated, and that we weren't making the best value of it.
    Now, there's another part of this that I need to walk 
through, and that is how we develop the interrogation plan. 
Because, sir, this is not something that we just say, ``Okay, 
bring 'em in. What are we going to do?'' We develop an 
interrogation plan. In that plan, we look at the prisoner. What 
do we want to get from this prisoner? What are the approaches, 
the techniques to be used? Sir, those techniques, again, are in 
our FM 34-52, and are in the ROE that I talked about. What are 
the questions to be asked? What do we learn?
    That interrogation plan is to be approved by the chain of 
command. Then, from that, we get an interrogation report that 
comes out, the information that was received during that 
interrogation. The leaders review and approve both of those 
parts of that plan.
    All of that stems from the priority intelligence 
requirements that the theater, the divisions, and the brigades 
have.
    Sir, in early August, I went over to Iraq. One of the 
things that I found, in talking with the division commanders 
and the brigade commanders and CJTF-7, is that the flow of 
information that Dr. Cambone talked about, was not getting back 
to the units that apprehended these people. There was a 
problem. That flow of information--so if they grabbed a 
prisoner, the information on what that prisoner had that could 
have been useful for that brigade, the interrogation reports, 
were not getting there. That's important to saving soldiers' 
lives.
    That was one of the key things that we were trying to fix. 
How do you get, when you consolidate all the prisoners from 
Iraq at one facility, information that goes back to 4th 
Infantry Division to this brigade to say, ``This is the guy who 
fired the improvised explosive device, and he's part of this 
network.'' If it does not get there, we are not going to stop 
those attacks, and we're going to have soldiers killed. That 
was one of the things that we were looking at.
    Chairman Warner. Did you visit the prison and look at that?
    General Alexander. Sir, at the time I was there--I got 
there in early August--Abu Ghraib was not yet stood up. Abu 
Ghraib was in the phases of getting the prison stood up. The 
engineers were there, so it was not stood up. There were not 
prisoners at Abu Ghraib at that time. I have not been back to 
Iraq since August, sir.
    Sir, once again, thank you for the opportunity to speak 
before you today, and we look forward to answering your 
questions.
    [The prepared statement of General Alexander follows:]
           Prepared Statement by LTG Keith B. Alexander, USA
    Chairman Warner, Senator Levin, and members of the committee, on 
behalf of the men and women of United States Army Intelligence, I 
appreciate the opportunity to appear before you today.
    First, let me assure you that I find the alleged abuses of 
detainees in Abu Ghraib Prison, Iraq, totally reprehensible. Army 
Intelligence neither condones nor tolerates these actions. Furthermore, 
I would like to emphasize that Army Intelligence Soldiers are trained 
to abide by the highest standards for the humane treatment of all 
personnel in the custody of our soldiers worldwide.
    We conduct extensive legal training for all of our Army 
Intelligence professionals, especially interrogators, in the Law of War 
and the provisions of the Geneva Conventions of 1949. Our training 
manuals specifically prohibit the abuse of detainees, and we ensure all 
of our soldiers trained as interrogators receive this training. Geneva 
Conventions protocols are reinforced during each practical exercise. An 
interrogator will flunk an exercise should he or she inadvertently 
violate a Geneva accord.
    The contemptible behavior of a few soldiers does not represent the 
professionalism, dedication, and compassion demonstrated by the 
majority of soldiers in Iraq. Commanders and soldiers at every level 
have the duty to respect and follow the established international laws 
of armed conflict and to treat everyone, to include those within our 
military detention facilities with dignity and decency in the same ways 
that we expect to be treated as Americans. Those soldiers who 
mistreated or humiliated detainees will be brought to justice swiftly. 
Again, the Army does not condone or tolerate such behavior.
    The allegations of misconduct at Abu Ghraib have hit at the very 
core values of our Nation, the Department of Defense and the Army 
Intelligence Community, causing us grave concern and prompting a very 
focused and thorough review of these incidents. Senior Leaders at all 
levels take every report seriously and expect an extensive 
investigation of every allegation. CJTF-7 has an ongoing investigation 
of allegations that Intelligence Soldiers were involved in the abuse of 
detainees in Abu Ghraib. This investigation, a ``Procedure 15,'' 
currently ongoing and being conducted by Major General George Fay, will 
identify and report questionable intelligence activities that may have 
violated law, Executive Order, or presidential directive.
    Army Intelligence will not tolerate soldiers who violate the 
dignity and rights of others, to include those we have detained. We 
remain steadfastly committed to dealing expeditiously with any 
complaint or allegation of mistreatment, and to ensuring our commanders 
take appropriate action.
    Once again, thank you for this opportunity to speak before you 
today. I look forward to answering your questions.

    Chairman Warner. Thank you very much.
    General Burgess.
    General Burgess. Sir, I will stay with the statement as 
read by Lieutenant General Alexander, and I look forward to 
your questions.
    Chairman Warner. Fine.
    General Romig.
    General Romig. Sir, I have no comments, either. I look 
forward to your questions.
    Chairman Warner. Let us proceed with a 6-minute round, in 
hopes that we can get in two rounds this afternoon.
    General Alexander, with due respect to you, you laid out 
very concisely and professionally, exactly what the manuals 
say, what everybody was supposed to do, but it didn't happen, 
and this committee--and you pointed out, General Fay is looking 
into that--is trying to put together a record for the Senate, 
for the American public, that lends some explanation to what 
happened.
    Now, you're the chief of all Army Intelligence. Number one, 
the MI people that did the interrogations participated, 
presumably to some degree, with the guards. They were your 
people down the chain, correct?
    General Alexander. Yes, sir.
    Chairman Warner. General Karpinski was in your chain, so to 
speak. Is that correct?
    General Alexander. She's in the Army, yes, sir.
    Chairman Warner. I realize that, but she was working with 
your people.
    General Alexander. Yes, sir.
    Chairman Warner. Now, what can you tell the committee, of 
your own knowledge, to help us and the American public and, 
indeed, much of the public in the world, to understand what 
went wrong? We know the wrongs occurred. We've gotten the 
initial reports--General Taguba. We, through the press, have 
seen pictures. It's a possibility the Senate may see additional 
pictures. The Pentagon is very forthcoming in trying to help 
this committee and the leadership of the committee and the 
leadership of the Senate develop that evidence. What can you 
personally tell, as chief, as to what went wrong?
    General Alexander. Sir, on the specifics, my assessment, it 
was a failure of leadership. What we need to--in terms of the 
MP leadership, as General Taguba said--the question, the real 
question is, did intelligence personnel tell those individuals 
to do that? Were those personnel low-level people who said this 
would be a good idea, or was that high-ranking personnel that 
said, ``This is the method of operations?'' My understanding 
and, to date, my belief, is that this was interaction between 
low-level people, who were not in the action of their duties, 
who were not doing interrogations at the time, or who made 
statements to these folks that, ``Yes, what you're doing''--as 
it was in General Taguba's report--``is softening them up. 
They're speaking like crazy.''
    What General Fay has to find out in his investigation is, 
where was there complicity? Who and at what level did that go? 
To this point, my belief is that that was informal, and that 
these were a group of undisciplined MP soldiers who felt that 
they had some, according to their statements, preference from 
MI to go and do what they were doing. But we don't have any 
facts to an individual that did that, other than a couple of 
civilian contractors who were involved.
    That's what we're looking for, sir. We will investigate 
that to find out exactly who said it and where does it go.
    Chairman Warner. So even though you're the chief of Army 
Intelligence, even though this series of problems has been 
going on since the fall of 2003, you cannot provide the 
committee any facts that help us understand exactly what was 
done and not done--by all levels, not just low levels--of those 
in the Intelligence Command. Is that correct?
    General Alexander. No, sir. I----
    Chairman Warner. All right.
    General Alexander. Let me go up higher. Clearly, at the 
higher levels, the rules of----
    Chairman Warner. A lot of people are following this. I 
think the committee understands ``high'' and ``low.''
    General Alexander. Yes, sir.
    Chairman Warner. What's your definition of ``high,'' what's 
the definition of ``low''?
    General Alexander. Let's start at the brigade level, where 
Colonel Pappas was involved. The two incidents that----
    Chairman Warner. He was an MI man, is that correct?
    General Alexander. He was an MI colonel, subordinate to the 
CJTF-7, working for General Sanchez. His responsibilities and 
his policies that he put out were--as an example, these 
interrogation ROE and the procedures. I know of two incidents--
--
    Chairman Warner. You know for a fact he did that?
    General Alexander. Yes, sir. We have--in fact, we also have 
his rules that he had folks coming in to brief them on. We had 
General Sanchez's statements of, ``Here are the interrogator 
rules of engagement.'' Both of those are the same, and they 
stem from that same manual. In every case, it says, ``Treat 
prisoners humanely.''
    Also, sir, I think it's important to note that when we talk 
about this humane treatment, when Colonel Pappas found a 
soldier having a prisoner walk naked, he found out about that 
and disciplined that soldier right away. So when actions were 
brought----
    Chairman Warner. What's the date/time group of that action?
    General Alexander. I don't have the date/time group, but 
I'll get you that, sir, for the record.
    [The information referred to follows:]

    On 16 November 2003, a military intelligence soldier decided to 
strip a detainee in response to what the solder believed was 
uncooperative and physically recalcitrant behavior. Later the soldier 
walked the semi-naked detainee across the camp. Colonel Pappas left the 
issue to Lieutenant Colonel Jordan to handle. Lieutenant Colonel Jordan 
temporarily removed the soldier from interrogation duties. The soldier 
was counseled by her immediate supervisor but did not received an 
Article 15, UCMJ.

    General Alexander. But he took action. So my thoughts are, 
when he knew something was going on, he took action. There were 
other cases of discipline that he took on soldiers who did an 
interrogation at the wrong time, and I will get you the exact 
date/time group of that, too. It's in General Taguba's report, 
but I think we need to get that, and I'll put that for the 
record.
    [The information referred to follows:]

    On 7 October 2003, three MI personnel conducted an interrogation 
without authorization. The three soldiers each received nonjudicial 
punishment, Field Grade Article 15s, from Colonel Pappas for failing to 
get authorization to interrogate the detainee. Additionally, Colonel 
Pappas removed them from interrogation operations.

    General Alexander. So it's clear, from where I sit, that 
both Colonel Pappas and the theater knew the ROE.
    Chairman Warner. But somehow that information either didn't 
flow down the chain or there was absolute total breakdown in 
discipline and disregard.
    General Alexander. That's what I believe.
    Chairman Warner. Go below Pappas. What's the next level?
    General Alexander. Sir, the next level was----
    Chairman Warner. Battalion commander, isn't it?
    General Alexander. There's the battalion commander, and 
there is the JIDC.
    Chairman Warner. All right. Can you tell us about their 
level of responsibility and inquiry into this situation?
    General Alexander. Right. Yes, sir. Lieutenant Colonel 
Jordan was the officer in charge of the JIDC. He is also 
mentioned in the Taguba Report for not doing his job. What we 
have to find out is, in executing his, and in executing Colonel 
Pappas's, what did they or did they not do. That's one of the 
things that General Fay has to find out, and that's part of 
that Procedure 15, sir. That's part of an ongoing 
investigation.
    Chairman Warner. I feel that, as hard as this committee 
tries to discharge its oversight, we're at the point where 
we're not likely to learn much about what took place and where 
that level struck a breakdown of discipline until this Fay 
Report is out. Is that your thinking?
    General Alexander. Yes sir, to get the accurate answer. I 
can give you an assessment, but that assessment will change as 
we find these facts out and as General Fay completes his 
investigation.
    Chairman Warner. Give us your assessment to date.
    General Alexander. Sir, my assessment is there was a 
complete breakdown in the discipline on the MP side, and there 
were some MI soldiers, contractors who may have been involved, 
or at least in some of those pictures. The question is, what 
did they say to the MPs to get them to do this? To this point, 
as General Taguba said, there is nothing that we know that a MI 
person told them to do this.
    Chairman Warner. All right.
    General Alexander. That's what we're trying to find out.
    Chairman Warner. Did the MI people hire the contractors?
    General Alexander. Sir, the contract actually stems under a 
CENTCOM contract, and that CENTCOM contract then went to CJTF-
7. But the MI people there at Abu Ghraib were responsible for 
oversight of those contractors. It's important to note that 
what Major General Fast required of those contractors--and 
she's the C-2 in Iraq, the senior MI person in Iraq----
    Chairman Warner. I met her on my visit over there during 
the same time frame you were there.
    General Alexander. Right. Sir, they were to read and state 
they understood the interrogation ROE.
    Chairman Warner. Did she check their level of experience 
and training?
    General Alexander. Sir, that was part of the contract, that 
they were supposed to have the 97 Echo, which is our 
interrogation military occupational specialty (MOS), or 
equivalent, to be hired.
    Chairman Warner. All right. Do you have any knowledge of 
other government--U.S. Government agencies, Central 
Intelligence Agency (CIA) or otherwise, Defense Intelligence 
Agency (DIA) or any other group, that were working with your MI 
people?
    General Alexander. Sir, I know that there were other 
government agencies that visited the facility and talked to 
prisoners, but I know of no wrongdoing on their behalf.
    Chairman Warner. I'm not suggesting that. Who are they? 
What are they?
    General Alexander. The CIA.
    Chairman Warner. CIA.
    General Alexander. The CIA also conducted some 
interrogations, as I understand it, at that facility.
    Chairman Warner. What about DIA?
    General Alexander. Sir, I do not know that DIA conducted 
that. I would have to check that.
    Chairman Warner. All right. My time is expired.
    Senator Levin.
    Senator Levin. You say you have no evidence that MI people 
were actively involved in and directing, and suggesting that 
harsh activities occur?
    General Alexander. Sir, we have not found any.
    Senator Levin. But----
    General Alexander. That's what we're looking for.
    Senator Levin.--the Taguba Report itself quotes--for 
instance, on page 18, Sergeant Davis, the MP company Sergeant 
or Specialist Connell. He said, ``I saw them nude, but MI''--
military intelligence--``would tell us to take away their 
mattresses, sheets, and clothes.'' Isn't that evidence that 
MI----
    General Alexander. Sir, that----
    Senator Levin.--told them to take away their clothes? Then 
you have Sergeant Davis stating that he heard MI insinuate to 
the guards to abuse the inmates. Isn't that evidence? When he 
asked what MI said, he stated, ``Loosen this guy up for us. 
Make sure he has a bad night. Make sure he gets the 
treatment.'' Isn't that evidence that the intelligence folks 
were involved in this?
    General Alexander. Sir, those are the statements that 
spawned the Procedure 15 to look into exactly who said it. 
Because the statements, as you read those, it says, ``MI 
personnel or people in civilian or people of authority.'' But 
when you ask, you get, ``Well, who specifically told you to do 
this?'' That's the question that we have to get to.
    Senator Levin. But you've----
    General Alexander. They can't be----
    Senator Levin.--some evidence, at least.
    General Alexander. Oh, absolutely. Sir, and that's why the 
investigation is going on.
    Senator Levin. But I thought a minute ago you said you 
haven't seen any evidence that MI was involved.
    General Alexander. Sir, we have no proof that a person in 
authority told them to do this activity.
    Senator Levin. Let's go back to the MI personnel. There is 
evidence, I take it, in the Taguba Report that MI personnel 
gave suggestions to the MPs that they ``loosen this guy up,'' 
that they take his clothes away, that they make sure he has a 
``bad night,'' and that he gets ``the treatment.'' That is 
evidence, isn't it, of MI personnel involvement?
    General Alexander. Yes, sir, that's a statement by those 
soldiers.
    Senator Levin. Right. All I'm saying is, is that evidence? 
I'm not saying it's conclusive. I'm not saying anything other 
than it is evidence, is it not?
    General Alexander. Yes, sir. That's the evidence that led 
to the beginning of the Procedure 15.
    Senator Levin. All right. So you've seen that evidence. 
Now, these interrogation ROE that I think you handed out----
    General Alexander. Yes, sir.
    Senator Levin.--these are the ones that were adopted by 
whom?
    General Alexander. Sir, these were the interrogation ROE 
that were used by the 205th Military Intelligence Brigade and 
their interrogators.
    Senator Levin. Who was in charge of that brigade?
    General Alexander. Sir, Colonel Pappas.
    Senator Levin. Okay. Now, Colonel Pappas adopted these ROE, 
which talk about how long you can have sleep management, 
sensory deprivation, and stress positions. Are those all 
consistent, as far as you are concerned, and do you have a 
legal opinion saying those are consistent with the Geneva 
Conventions?
    General Alexander. Yes, sir. More importantly, because 
those are--and as it states in our manual, those are ones that 
we have to be very careful that we do not exceed the Geneva 
Conventions. It requires the commander's written approval to 
implement those.
    Senator Levin. All right. You're saying that they are 
approved by the Geneva Conventions----
    General Alexander. Yes, sir.
    Senator Levin.--that they're authorized by the Geneva----
    General Alexander. Yes, sir.
    Senator Levin. But, second, you're saying that only with 
commander's approval. Do you have commander's approval for 
those activities in that prison?
    General Alexander. Sir, I am not aware of any situations 
that General Sanchez gave them written approval to do the ones 
that are under his part there.
    Senator Levin. Do you have any situation where he was asked 
for written approval?
    General Alexander. No, none, sir.
    Senator Levin. So there was no case where he was either 
requested, and, therefore, obviously, no case where he would 
have granted, written approval, although this specifically says 
that these activities require the commander's approval.
    General Alexander. That's correct. None that I know of, 
sir.
    Senator Levin. All right. Thank you. Have you asked General 
Sanchez whether or not he had any requests?
    General Alexander. Sir, we have asked, and we have gotten--
but I will ask formally, and I will----
    Senator Levin. We've gotten----
    General Alexander.--I will respond----
    Senator Levin.--what?
    General Alexander. Gotten the same response that I gave 
you----
    Senator Levin. All right.
    General Alexander.--that none were there. But I will ask 
that formally and reply that back for the record.
    [The information referred to follows:]

    Lieutenant General Sanchez testified at the Senate Armed Services 
Committee hearing, 19 May 2004, with General Abizaid, Major General 
Miller, and Colonel Warren on Iraqi prisoner abuse that the only 
request he had approved was for continued segregation beyond 30 days. 
He testified that he never saw any other method come to his level 
requesting approval.

    Senator Levin. Okay. Finally, in the annex to the Taguba 
Report, the document describes interrogation techniques, again, 
which are permissible with certain approvals of commanders. But 
then it says the following, ``Interrogation officer in charge 
will submit the memorandum for the record requesting harsh 
approaches for the commanding general's approval prior to 
employment--sleep management, sensory deprivation, isolation 
longer than 30 days, dogs.''
    Are you familiar with that description that the officer in 
charge will submit memoranda to the commanding general (CG) 
requesting harsh approaches? Are you familiar with that 
language, which was in the annex, but left off this document?
    General Alexander. Sir, those are what's under the CG's 
approval, part of that document you're holding. If you look in 
the right-hand----
    Chairman Warner. It says right here, ``requires CG's 
approval.''
    Senator Levin. No, I'm talking about the harsh-approaches 
language.
    General Alexander. Yes, and when you read the harsh-
approaches language, sir, read the--if you would read the 
language----
    Senator Levin. No, I understand that. I'm talking about the 
characterization of this list as being harsh approaches. This 
is quotes. This comes from the annex in the Taguba Report.
    General Alexander. Right.
    Senator Levin. It says that in an unclassified December 12 
situation update--in that situation update. Have you seen that 
situation update?
    General Alexander. No, sir, I have not.
    Senator Levin. It's that update which is included--to 
Miller--included as an annex to the Taguba Report. It says the 
document describes these techniques which are permissible, and 
that document, which you say you haven't seen, but which is in 
the annex, says that a request for harsh approaches. That's 
their description. You're saying harsh approaches are approved 
by the Geneva Conventions?
    General Alexander. Sir, I'm saying that when you read the 
interrogation manual, there are--when you look at the ways of 
talking to prisoners, it stems--and I have a copy of the manual 
that we can leave here, and when you look at it, it talks about 
harsh approaches, and it talks about the way that you talk to a 
prisoner, it talks about the direct approach. It goes all the 
way through all of these. As Dr. Cambone stated this morning, 
and others, we have gone to great extent trying to ensure that 
everything that we're doing is in compliance with the Geneva 
Conventions.
    Senator Levin. Thank you.
    General Alexander. Yes, sir.
    Chairman Warner. Thank you.
    Senator McCain.
    Senator McCain. I thank you.
    General Alexander and General Burgess and General Romig, 
thank you for being here today.
    General Alexander, maybe you can't answer this, but we have 
a sort of contradiction here. General Taguba, who gave, I 
think, an excellent testimony this morning, basically concludes 
that these abuses were somewhat confined to a relatively small 
area. Is that what you get out of it, General Alexander, as 
well?
    General Alexander. Sir, the abuses of this nature, yes, 
sir, that's correct.
    Senator McCain. But yet, on the other hand, we have reports 
that Ambassador Bremer complained, that Secretary Powell 
complained, at the highest level, that the ICRC issued a long 
series--a number of reports concerning prisoner abuses. 
Something doesn't connect there. Can you help us out on that?
    General Alexander. Sir, I've not seen the reports from 
Secretary Powell and from Mr. Bremer.
    Senator McCain. How about the ICRC?
    General Alexander. I have read the ICRC, and the key ones 
that are in the ICRC, when I read that, which was this week, 
when I looked at that, and you look at the allegations, and you 
look at the pictures, you immediately make the connection that 
what the ICRC had and what the pictures said are the event.
    Senator McCain. The ICRC alleged, as I understand it, that 
these situations were widespread, and not confined to just one 
small area.
    General Alexander. Yes, sir. But I don't know where the 
ICRC went. I do know that in the memo that I saw, it talked 
about Abu Ghraib, and it listed those allegations in Abu Ghraib 
that were exactly what we saw in those pictures.
    Senator McCain. All right. I think we need to pursue that 
line, because I--again, as serious as it was for Ambassador 
Bremer and Secretary Powell to repeatedly complain about this 
situation, I think it leads one to believe that it was 
widespread. That may not be the case.
    But I want to get into a little philosophical discussion 
with you very quickly. Unfortunately, we don't have much time 
for all three of you, do you think we should have signed the 
Geneva Conventions for the treatment of POWs?
    I'll begin with you, General Burgess.
    General Burgess. Yes, sir, I do.
    General Alexander. Yes, sir.
    General Romig. Absolutely, sir.
    Senator McCain. Why do you think we should? Because this 
keeps us from getting information that may save American lives. 
This is a restraint by humanitarian do-gooders. Why don't we 
just throw them in the trash can and do whatever is necessary? 
We certainly have developed sophisticated techniques that we 
could just go after these people and get what we need, and save 
American lives.
    General Burgess.
    General Burgess. Sir, two things. One, it applies to us, as 
well. Number two, we're a nation of law, sir.
    Senator McCain. Good point, General.
    General Alexander. I think, sir, one of you mentioned 
earlier, either last week or this week, that we hold these 
standards, and our military to that standard, to set a symbol 
for the rest of the world. Why we're here today and what we're 
doing today is explaining the problems that we have openly and 
honestly, and trying to fix those problems. We are not perfect. 
We make mistakes. When we identify those mistakes, get 'em out.
    So when you go back to this, absolutely we should do the--
--
    Senator McCain. I'm talking about the----
    General Alexander.--the Geneva Conventions.
    Senator McCain.--extent and the problem we're facing here.
    General Alexander. Yes.
    Senator McCain. It seems to me, General, that we 
distinguish ourselves from our enemies by our treatment of our 
enemies. Would you agree with that?
    General Alexander. Absolutely, sir.
    Senator McCain. General Romig--I ask you three because 
you've served this Nation with distinction, and, obviously, 
from looking at you, you've seen incoming fire on occasion--
please go ahead.
    General Romig. Yes, sir. I agree with everything that was 
said. It impacts on the way our soldiers are treated--our 
soldiers, sailors, airmen, and marines--but it's the right 
thing to do, too, sir. Those are our values. That's what we 
stand for, those sorts of values that we see in the Geneva 
Conventions.
    Senator McCain. So, General Alexander, are we overreacting 
to this situation, in your view? Please be candid, and if you 
think we are, please say so.
    General Alexander. Sir, at times, sitting here, one might 
want to say, yes, we're overreacting. But the reality is, we 
are not. I think these were reprehensible acts, and I think we 
have to get to the bottom of it. I think if we have a problem, 
if it is an intel oversight problem, if it is an MP problem, or 
if it's a leadership problem, we have to get to the bottom of 
it, we have to do it honestly and objectively, and then we have 
to hold those who were responsible accountable. That standard 
is so that the rest of the countries of the world know that we 
will do that.
    Senator McCain. That way we remove the stain on those 
million--1.399 million men and women in the military who would 
never consider such behavior.
    General Alexander. Exactly, sir.
    Senator McCain. I thank the chairman. I think it's well to 
put this in perspective, particularly in the fact that we are 
going to fight other conflicts, I'm very much afraid. I'm very 
much afraid Americans may become prisoners. If we somehow 
convey the impression that we have to do whatever is necessary 
and humanitarian do-gooders have no place in this arena, which 
I believe the ICRC has an important role to play, then I think 
we're setting ourselves up for some very serious consequences 
for American fighting men and women in conflicts in the future.
    I see you nodding your head, General Romig. Do you agree 
with that?
    General Romig. Absolutely, sir.
    Senator McCain. General----
    General Alexander. Yes, sir.
    General Burgess. Yes, sir.
    Senator McCain. I thank the chairman. I thank the witnesses 
for their candor and for their service.
    Chairman Warner. Thank you.
    I want to do a follow-up. You said you saw the material 
that was sent by Ambassador Bremer expressing his concern, and 
from the Secretary of State, is that correct?
    General Alexander. Sir, I said I had not seen that.
    Chairman Warner. Oh, you had not seen it.
    General Alexander. I have not seen that, no, sir.
    Chairman Warner. But you know it existed somewhere.
    General Alexander. I heard--yes, sir, in earlier 
testimonies, I heard that, watching the testimonies, but I had 
not seen the specific documents from either Secretary Powell or 
Mr. Bremer. I've not seen those.
    Chairman Warner. Were those transmissions in documentary 
form, though, to those that received them?
    General Alexander. I don't know, sir.
    General Burgess. Sir, I do not know.
    Chairman Warner. All right, thank you very much, because 
the committee is anxious to get a hold of those documents. 
Thank you.
    Senator Kennedy.
    Senator Kennedy. Thank you very much to our panel.
    I'd like to address this to General Romig. During the lunch 
hour, I read through this United Press International story 
about Arnaud de Borchgrave, who's a very experienced writer. He 
writes, ``Long before the official reports and journalistic 
exposes revealing the horrific abuse of Iraqi prisoners, high-
ranking American officers and the Judge Advocate General (JAG) 
expressed their deep concern that the civilian officials at the 
Pentagon were undermining the military's detention rules and 
regulations and ignoring interrogation procedures, even citing 
cases of torture. The Pentagon civilian leadership were 
appraised in late spring of 2003, and again in October 2004. 
JAG officers are quoted as telling Scott Horton, the chairman 
of the Committee on International Law of the Bar Association--
New York Bar Association, that Feith had significantly weakened 
the military rules and regulations governing prisoners of war. 
JAG informants also blame the DOD's Chief Counsel, William 
Haynes, who's been recently appointed by President Bush through 
the Federal Appeals Court, along with Feith, for creating an 
atmosphere of legal ambiguity that allowed mistreatment of 
prisoners. These were eight JAG officers that went and spoke 
with Scott Horton. One deputy counsel at the Pentagon, a 
staunch Republican, recently resigned, as he explained, not for 
attribution, that right-wing ideologues are putting at risk the 
reputation of the U.S. military. JAG officers who spoke to 
Horton said civilian officials, directed by Feith, removed 
safeguards that were designed to prevent the abuses that the 
world has now witnessed. At Abu Ghraib, these safeguards should 
have included observations of interrogations behind two-way 
mirrors by JAG officers--would then be authorized to stop any 
misconduct on the spot.''
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Kennedy. Now, do you know anything, General Romig, 
about any of your officers in the DOD being concerned about 
these issues?
    General Romig. Sir, first, I received both of these 
articles from one of your staffers immediately----
    Senator Kennedy. I wanted you to know it before I asked you 
the question.
    General Romig. Yes, sir. I appreciate that.
    I also contacted my office immediately and said, ``Let's 
get to the bottom of this and find out''--for one thing, I 
can't tell, really--and I skimmed through the articles--if 
these are Army JAGs, Air Force JAGs, Navy JAGs, or Marine JAGs. 
It's troubling, regardless of who said it, but we're trying to 
get to the bottom of it.
    Senator Kennedy. Do you know whether they--any of these 
safeguards had been removed with regard to these prisons, such 
as the two-way mirror? Have there been changes? Have there been 
alternatives for what--a process where JAG had been monitoring, 
watching, or observing these kinds of interrogations?
    General Romig. Sir, I'm not aware of the use of the two-way 
mirror as a regular standard method of monitoring 
interrogations. The fact that there are so many interrogations 
going on at different locations, we wouldn't have enough JAG 
officers to sit through all of these.
    Senator Kennedy. Do you know if there's been a change? Here 
is--``Mr. Horton and the bar colleagues wrote to Haynes and the 
CIA's general counsel in an effort to clarify U.S. policy on 
the treatment and interrogation of detainees. `These 
inquiries,' he recalls, `were met with a firm brush-off. We 
then turned to Senators who have raised the issue previously, 
and assisted their staff in pursuing it. These inquiries were 
met with a similar brush-off.' ''
    What do you know about any of the changes that have taken 
place with regards to the JAG position, in terms of observing 
the interrogation of detainees, POW, combat----
    General Romig. Sir, I'm not aware of any change in that 
regard.
    Senator Kennedy. That has not been brought at all to your 
attention in the----
    General Romig. Not the issue of the role of the JAG in 
the----
    Senator Kennedy. No one in your department has come to you 
and expressed any kind of concern that they had heard that 
there were these kinds of activities, inappropriate kinds of 
activities taking place in any of the prisons? I have to move 
along. Either yes or no.
    General Romig. Sir, I'm not aware of anybody specifically 
talking about any issues in a prison who have looked into 
those.
    Senator Kennedy. With regard to the contractors, as I 
understand, the Uniform Code of Military Justice (UCMJ) doesn't 
apply to the contractors, does it?
    General Romig. Sir, technically it would in a 
congressionally-declared war. Article 2 of the UCMJ----
    Senator Kennedy. In the kind of situation we have now, it 
does not.
    General Romig. It does not, that is correct.
    Senator Kennedy. All right. What about the Status of Forces 
Agreement (SOFA)? I understand we have a SOFA that excludes 
prosecution for the military, also civilian personnel.
    General Romig. It depends on which SOFA we're talking 
about, sir.
    Senator Kennedy. I'm talking about those that are 
applicable. We're talking about Iraq, and we're talking about 
Afghanistan. If there are other places you want to distinguish 
you can do that.
    General Romig. Yes, sir. Basically, my understanding right 
now is that we do not have a SOFA in Iraq because we are in a 
mode where we are really operating the sovereignty there. But 
once it's turned over, that'll be one of the issues that we 
must have, is a SOFA.
    Now, there is another piece of legislation that I think 
you're aware of----
    Senator Kennedy. That's going to happen pretty quickly.
    General Romig. Yes, sir.
    Senator Kennedy. Give me, quickly, the answer in 
Afghanistan, so I know that. Can they be prosecuted? Will 
civilians be protected under the SOFA?
    General Romig. Again, it depends on the kind of offense, 
but my understanding is that we would have jurisdiction over 
those.
    Senator Kennedy. Homicide.
    General Romig. Homicide----
    Senator Kennedy. There are two individuals----
    General Romig.--U.S. on U.S., we'd have jurisdiction.
    Senator Kennedy. You'd have jurisdiction.
    Let me just, finally, ask General Alexander, what's going 
to be the status of these camps on June--at the time of the 
transfer of sovereignty? Who's taking them over? Is the United 
States still going to be running these camps? Is it going to be 
the Iraqis? Tell us what exactly is going to be the status in 
these prison camps in Iraq.
    General Alexander. Sir, I'm not sure of what the status is 
going to be of those camps. I believe that we will still run 
some of those camps. I know that when General Ryder went over, 
one of his issues was to figure out when the Iraqis would be 
capable of running the camps, the prison system, themselves. 
I'm not sure what the status is, sir. I'd have to take that for 
the record.
    [The information referred to follows:]

    At the time of the transfer of sovereignty, all detainee facilities 
will remain under the operational control of U.S. military forces.

    Senator Kennedy. My time is up.
    Senator Inhofe [presiding]. Thank you, Senator Kennedy.
    Senator Roberts has an Intelligence Committee commitment, 
so I'm going to defer to him and then take his turn, without 
objection.
    Senator Roberts. I thank the Senator, and I will try to be 
very brief. I think many of the questions, while important, are 
a little repetitive.
    This is a question for General Romig. There has been a 
great deal of discussion about the fact that the MI brigade at 
the prison was given TACON of the MP unit there. Now, given the 
fact that the abuse at issue is a violation of the UCMJ, what 
impact does the issue of TACON have on the culpability of those 
who have committed these acts?
    General Romig. Virtually none, sir. If you commit an 
offense under the code, regardless of what the chain of command 
is, charges can be preferred, and they would go up to the 
general court-martial convening authority--or the special 
court-martial convening authority, but if it's serious 
offenses, it would go up to the general court-martial convening 
authority, which would probably be either III Corps or CJTF-7.
    Senator Roberts. The same question I asked this morning, 
and a related question--an order to ``soften up'' a detainee 
would not be a lawful order, is that correct?
    General Romig. That's exactly right, sir, depending on how 
it was conveyed. But on its face, it does not sound like a 
lawful order.
    Senator Roberts. So what legal basis, then, would a soldier 
have for following that order?
    General Romig. Sir, there would be none. Our soldiers are 
taught, ``Illegal orders are orders that you first must, or 
should, apprise the person giving the order that it's an 
illegal order, and, if they don't cease and desist, then you 
must disobey.''
    Senator Roberts. General Alexander, I know you went over, 
in some detail, who had the accountability and the 
responsibility on the lack of training and the lack of 
leadership and the lack of discipline. Who had the 
responsibility to ensure the MPs were properly trained and were 
actually fulfilling the unit's mission? Are we talking about 
Colonel Pappas or Lieutenant Colonel Jordan or General 
Karpinski? Who is it?
    General Alexander. General Karpinski and Colonel 
Phillabaum, sir.
    Senator Roberts. And Colonel Phillabaum.
    General Alexander. The battalion commander.
    Senator Roberts. Okay. Let me just say that--for the 
record, and I hesitate doing this, but I think it's pertinent 
to what has been discussed by Senator McCain--there's just been 
a video posted on an Islamic militant Web site showing a group 
affiliated with al Qaeda that beheaded an American civilian in 
Iraq, saying the death was revenge for the abuse of the 
prisoners by American soldiers. I will not get into the 
individual's name. After reading the statement, the men were 
seen pulling the man to his side, and putting a large knife to 
his neck, a scream sounded as the men literally cut off his 
head, shouting, ``Allah akbar,'' God is great, and then held 
the head out before the camera.
    It seems to me that this underscores, in part at least, the 
tremendous value of interrogation and better intelligence to 
prevent atrocities like this. I don't think this was a one-for-
one cause. In other words, I think this happens anyway, under 
the circumstances. But there's a different value system going 
on here. I know we have to reach--for the very highest levels 
of conduct, and I know we will. I know as soon as we get 
through with the inquiry--or the investigation, pardon me--the 
Fay Report--that you'll report back to the Intelligence 
Committee and this committee on what happened.
    I mention that only to show that this is a very difficult 
situation, and, under the circumstances, I think that the 
American public certainly understands that.
    I thank the Senator for yielding me the time.
    Senator Inhofe. Thank you, Senator.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    The ICRC has reported that it warned about prison abuses 
throughout 2003, but it was only when a young soldier came 
forward, on January 13, 2004, that an investigation was 
launched. The question must be asked, why did the military only 
get serious about this problem when one of its own broke 
silence?
    General Alexander and General Burgess, you're both senior 
military officers with responsibilities for intelligence 
collection. The ICRC made a litany of complaints about 
interrogations at Iraqi prisons for more than a year. Why 
wasn't an investigation launched into those complaints? Why 
were our civilian and military leaders sitting on their hands 
waiting for a whistleblower to come forward, when ICRC reports 
were being stacked from floor to ceiling?
    General Alexander. Sir, I'll answer that first. I believe 
you're correct, that when that report went forward--and, as I 
understand, it went forward to General Karpinski, and she 
responded to it. What I would do in that situation is just as 
you said, I think an investigation should be done to look into 
the incidents that the ICRC had done at that time. I do not 
know if General Karpinski did such an investigation. I do not 
know the answer to that. But I do agree with you that if those 
allegations that were made in there were known to them, they 
should have investigated it right then.
    General Burgess. Sir, and I would agree with what General 
Alexander said. I would also highlight that on the Joint Staff, 
as the J-2, I never saw the ICRC report, until here in the last 
week.
    Senator Byrd. Why were not the ICRC reports taken 
seriously? Didn't anyone stop to think that there was a problem 
here? Was everyone just passing the buck, right up until the 
moment that this young soldier stepped forward? Why did it take 
until last week for the ICRC reports to make it to your desk? 
Shouldn't you have been seeking out these reports rather than 
waiting for them to come to you?
    General Alexander?
    General Alexander. Sir, that is a great question. As I 
understand it, those reports go to the JAG at the CJTF-7 and 
were given to the MP brigade commander at the time who was in 
charge of the facility to answer. They were not widely 
disseminated at that time. Why they were not widely 
disseminated, I do not know. Going out and finding them, it's 
hard to understand. I would like to do that. I mean, exactly 
what you said. Had I known that there was a report out there, 
exactly, I would go after it. It's difficult to know to go 
after one that you don't know is there, to be honest.
    Senator Byrd. General Burgess?
    General Burgess. Sir, I understand the system, as he has 
laid out, and I would highlight that is also the system that I 
am familiar with, based on Guantanamo. When the ICRC does their 
looks down there also, they are provided to the commander down 
there, which is the situation I'm more familiar with, because I 
was involved in that process. So it should have been dealt 
with, but that is the process that we currently have in place.
    Senator Byrd. The ICRC reports that 70 percent to 90 
percent of the Iraqis in detentions were wrongfully arrested. 
If the military and the administration seek to win the hearts 
and minds of the Iraqi people, it will not be done by rounding 
up the usual suspects and throwing them in dysfunctional 
prisons for no reason. General Alexander, how can you justify a 
wrongful arrest rate of up to 90 percent? Who ordered the 
policies that resulted in the arrest of nine innocent Iraqis 
for every one criminal or terrorist taken to prison? Has anyone 
ordered an end to arbitrary arrest of the Iraqi people, or is 
this just another issue that will be subject to another 
investigation?
    General Alexander. Sir, I don't know how to answer that 
question, but let me try this way. As I understand it, no one 
is going out and just arresting people. In each case, the 
reasons for arrest are based on shootings, an incident, or 
intelligence that they have. I saw the report that you saw, 
that 70 to 90 percent. I do not know that that's true. I do 
know that there are a number of people that have been arrested 
that, after further screening, it was determined should not be 
arrested, but I don't know the percentage to that, sir.
    I do know that the commanders on the ground who are trying 
to protect their troops and the Iraqi civilians, when you have 
people armed with weapons who are in an area that is shooting 
at either our people or the Iraqi people, that's wrong, and 
that is one of the reasons that many of these people are 
apprehended. How you go about that, that is a very difficult 
thing. The essence of your question, though, and how to, as you 
put it, win the hearts and minds of the people, is one of the 
things that we really have to work at. That is the key to 
solving not only that problem, but the rest of the problems in 
the Middle East.
    Senator Byrd. Has anyone ordered an end to these arbitrary 
arrests?
    General Alexander. You see, sir, I don't know that anybody 
is doing arbitrary arrests, as you say. I don't know that. So, 
therefore, I don't know that they've ordered an end to it. I 
don't know that they're setting up--as far as I know, they are 
not doing that.
    General Burgess. I have not seen any indication of 
arbitrary arrests, sir. The only thing that I am familiar with, 
in terms of--as individuals that have intelligence value are 
picked up by the units, whether it be battalion or brigade, the 
general standing operating procedure is, the brigade will hold 
onto them for up to 14 days and conduct interrogations for 
actionable intelligence, and then, following that time frame, 
they will be evacuated to Abu Ghraib or to another holding 
area.
    Senator Byrd. I thank you, Mr. Chairman.
    Senator Inhofe. I thank the Senator.
    In case our panel is wondering, there is a vote taking 
place right now, and so I'm going to stay here and keep it open 
until someone returns. So I may have 15 or 20 minutes here.
    First of all, let me share a thought with you. You 
describe, General Alexander, the acts perpetrated by the seven 
as being reprehensible, and I certainly agree with you. I have 
spent a lot of time looking, since this first became public--
and I think it's gotten way too much publicity, quite frankly, 
and I think a lot of it, as I said this morning, is politically 
charged. But those reprehensible acts, as near as I can 
determine, were confined to about seven people. I understand 
those seven people are, right now, being prosecuted within the 
system, and that's taking place as we're talking.
    Now, first of all, is that your understanding, too?
    General Alexander. Yes, sir. I would add that others who 
witnessed it, and did not report it, are also responsible, and 
those people will be held accountable, too.
    Senator Inhofe. Do you know about how many of those there 
are?
    General Alexander. Right now, I know of two or three more 
who will come forward in that category, so that those that you 
see in the pictures, that they were in the pictures, even if 
they say, ``All I did was see this,'' they should have reported 
it, and they were wrong.
    Senator Inhofe. Yes. My concern has been what effect this 
is having on our ability to get actionable intelligence. This 
has been a great concern of mine. First, if this hadn't become 
public, if this hadn't come into the public arena as it has, is 
it your belief, each one of you, that this would have been 
handled internally anyway?
    General Alexander. Absolutely, sir.
    General Burgess. Yes, sir.
    General Romig. Yes, sir.
    Senator Inhofe. In fact, wasn't it being handled long 
before that happened?
    General Alexander. Yes, sir.
    Senator Inhofe. As I look at the timeline and I see that 
starting on January 3, 2004, the different things that 
happened, they jumped right in, and I commended them this 
morning--General Taguba--the fact that he did that all in just 
a little over 1 month, that's beyond the call of duty. So I 
would say that, and I think it's important that we tell the 
people of America that this would have happened anyway.
    I had--45 years ago, I was in the Army, and I was in the 
court system. I was a court clerk. I think I saw one general 
the entire time I was in the Army. But, nonetheless, I recall 
some of the things that were going on at that time, and there 
are always court-martial going on. This is not unusual. It's 
taking place. They're not highly publicized. It's probably good 
that they aren't highly publicized, and sometimes these are 
being abused.
    Now, would you say that because of this, things are going 
on, in terms of securing actionable intelligence as if this 
hadn't happened?
    General Alexander. Sir, I will tell you that General Miller 
is now in charge of Abu Ghraib. He is a great officer. He 
understands the process, and he understands the law. He has 
gone around and talked to all of the MPs and all the 
interrogators and the rest of the support troops there at Abu 
Ghraib and the other facilities and told them how important 
their work is. Don't let the actions of a few stop the 
important work that they're doing, because it is important. 
Sir, I think that is exactly right. He is a great leader. He's 
not an MP officer, he's not an MI officer. He's a combat leader 
who's taken charge of that facility based on experience and 
lessons that he learned at Guantanamo.
    Senator Inhofe. I was down at Guantanamo, and I saw that, 
and I think it's very important for you folks, or us, to keep 
reinforcing this, that these are things that are confined to 
just a small handful of people. If you had, such as we know 
there were, about 700, I understand, guards at just this one 
prison, but there's some 25 other prisons, too--that it's 
something that we need to keep reminding people.
    Chairman Warner [presiding]. You can go vote.
    Senator Inhofe. Let me finish when I get back.
    Chairman Warner. A vote is on, and we're trying to keep the 
hearing going.
    Senator Dayton, have you voted?
    Senator Dayton. Yes, sir.
    Chairman Warner. Fine. Would you like to take your turn 
now?
    Senator Dayton. Thank you.
    General Alexander, if I understand your remarks correctly, 
are you asserting that the Taguba Report, the ICRC Report, and 
the pictures of the prisoner abuses that we saw last week all 
refer to the same limited number of events that were carried 
out by a few MPs, with a couple of unidentified low-level MI 
officials perhaps interacting with them to lead them to those 
actions?
    General Alexander. Sir, I'd note that in the ICRC Report it 
says that one of the detainees had women's underwear on their 
head. I, you, the American public saw that photo on TV. That 
led me to make that statement that those same things that they 
noted in their report we see in a photograph. So, yes, sir, 
that is why I made that. Now, I'm not asserting that it is only 
isolated to seven people at one facility, everybody else is 
pure. I would not make that statement. I'm saying that the 
incidences I looked at, the ICRC allegations, and as I look at 
these allegations I see a very close parallel, and that that 
committee report was done on two visits in October.
    Senator Dayton. I'm sorry, what committee, sir?
    General Alexander. The ICRC Report was done based on their 
visits in October to Abu Ghraib. That's why I made that 
statement, and I believe that is accurate. Now, the ICRC could 
say--you see, I don't know who was photographing, and they 
didn't know either; they just said it was being photographed, 
and they made that statement. Does that make sense?
    Senator Dayton. It does make sense. It may well be the same 
individuals, although the report, as I read it, refers to other 
abuses that occurred in that prison to other prisoners that 
didn't fit the descriptions in those pictures. But I guess I 
just wanted to clarify, for my own understanding, what you're 
implying here, because, as I read the ICRC Report, it refers to 
14 other--or a total of 14 detention centers or prisons, and I 
don't know how to quantify the extent of the violations that 
they are alleging, but it certainly appears to be far broader 
and more systemic than one set of incidents photographed at one 
prison. Would you concur with that sir, or do you----
    General Alexander. Yes, sir, I think--in the ICRC Report, 
there was one portion on Abu Ghraib----
    Senator Dayton. Right.
    General Alexander.--which is what I was referencing.
    Senator Dayton. Okay.
    General Alexander. There are allegations, and there are 
investigations ongoing at other prisons. Anytime someone does 
something that violates the law, we ought to ensure that we 
begin an investigation. Normally, a criminal investigation, the 
Army Criminal Investigation Division (CID) does that.
    Senator Dayton. The references--and, again, it's hard to 
know exactly who--it's impossible to know who they're referring 
to, but there are a number of references in the ICRC Report to 
MI personnel, and how that they--to characterize these--what 
they say are various abuses. Some officers told the ICRC that 
the widespread ill-treatment of persons deprived of their 
liberty during arrest, initial internment, and tactical 
questioning was due to a lack of MPs on the ground to supervise 
and control behavior, the lack of experience of intelligence 
officers in charge of ``tactical questioning.'' What is 
tactical questioning?
    General Alexander. Sir, that's at the maneuver-battalion/
maneuver-brigade level. When you first get a prisoner, what are 
the questions that you ask him? We actually did send a tactical 
questioning training team over to all the divisions to train 
them on the standards for that.
    Senator Dayton. All right, thank you.
    Another part of the report says, ``Several military 
intelligence officers confirmed to the International Red Cross 
that it was part of the military intelligence process to hold a 
person deprived of his liberty naked in a completely dark and 
empty cell for a prolonged period, to use inhumane and 
degrading treatment, including physical and psychological 
coercion against persons deprived of their liberty to secure 
their cooperation.'' This is not referring to the Abu Ghraib 
facility. I take it that certainly would appear to violate the 
edicts that you have described.
    General Alexander. Absolutely, sir.
    Senator Dayton. It also refers to other MI. Referring to 
Abu Ghraib, the MI officer in charge of the interrogation that 
they witnessed in early October explained that this practice of 
denying them of their--keeping them completely naked in empty 
concrete cells, in total darkness, allegedly for several days. 
The ICRC investigators interrupted his visit and requested an 
explanation from the authorities. The MI officer-in-charge of 
the interrogation explained that this practice was ``part of 
the process.'' The process appeared to be a give-and-take 
policy, whereby persons deprived of their liberty were ``drip-
fed'' with new items--clothing, bedding, hygiene articles--in 
exchange for their ``cooperation.'' Again, this would violate 
the practices of the----
    General Alexander. Absolutely wrong.
    Senator Dayton.--instructions?
    General Alexander. Absolutely wrong.
    Senator Dayton. How, then, were these--if these are MI 
officers, how are they getting--how are they deviating, then, 
from--and to what extent were they--to what extent were there 
MI officers who were deviating from what you said were the 
clear instructions they had received?
    General Alexander. Right. Sir, here's what we have to 
clarify on that point, which we do not know. Who is the person 
they referred to as a ``military intelligence officer''? Was it 
one of the contractors or was it one of the interrogators? Both 
did not wear rank, as is normal practice, because you don't 
want an interrogator who is a Spec-4 interrogating a major. In 
some cultures, that would never--they would never get anything. 
So they go in without rank, and so it may be that an 
interrogator, civilian or military, indeed, said that. If that 
happened, that is one of the individuals that we need to find 
and hold accountable.
    Senator Dayton. I'd just--my time is expired, but how are--
what steps have been taken to assure that this is not happening 
now, and will not happen in the future there?
    General Alexander. Sir, clearly, with General Miller there, 
not only do we have the supervision, but he is going back and 
ensuring everybody understands those requirements and, I think, 
forcing the leadership from both the units to be at the 
facility 24 hours a day. That's what needs to happen.
    Senator Dayton. Thank you.
    General Alexander. Yes, sir.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Dayton.
    I'm going to ask the indulgence of my colleagues. I just 
left the floor, as all of us did, in connection with voting, 
and the Senators on the floor are in a virtual state of shock 
about this report about this alleged beheading, and it brings 
to mind a concern. It's all right in here, very clearly. We're 
waiting for the Fay Report. We don't know how long that's going 
to be. How many weeks or months might that Fay Report take?
    General Alexander. Sir, he's trying to get it done within a 
month.
    Chairman Warner. Within a month. Then I suppose, it has to 
be chopped on by General Abizaid in the chain--in CENTCOM. 
Would that be correct? In other words, how soon can--whether 
it's Congress or internally within the executive branch, 
Department of the Army, DOD--we begin to address where the 
problem might lie so that it can't be repeated? Because it is 
clear in this report that our service men and women serving in 
Iraq, Afghanistan, and around the world are now--could well be 
subjected to this type of threat.
    General Alexander. Yes, sir.
    Chairman Warner. As a matter of fact, the first question I 
asked on the last--to the hearing with Secretary Rumsfeld and 
the Chairman of the Joint Chiefs was to General Myers. I asked 
if these stories are generating a greater risk to your men and 
women in uniform worldwide? The answer was yes.
    You have to balance the UCMJ, comparing all these reports 
with the need to really, and on almost a real-time basis, begin 
to deal with this problem so it can't happen again or 
proliferate further.
    Can you comment on the enhanced risk to our forces in your 
intelligence channels? What evaluation have you made?
    General Alexander. Sir, first, we are taking actions right 
away. We are not waiting on the Fay Report to fix anything. 
We're waiting on the Fay Report to find more information on 
others who should be held accountable. We are taking actions, 
and that's what you're seeing. Those people who we can hold 
accountable now, who should be charged, are being charged. As 
General Taguba explained, he did not go into the depths on the 
MI part of this, and we need to do that and find out, just as 
Senator Dayton brought out, if there were MI officers or 
personnel involved, and hold them accountable. So we're doing 
that in parallel. We're not waiting.
    Chairman Warner. All right.
    General Alexander. Currently, sir, we're fixing----
    Chairman Warner. I don't want to take up too much time.
    Did you have any further comments, General Burgess, on this 
situation, the enhanced risk to our forces worldwide, 
particularly in Iraq and Afghanistan?
    General Burgess. Sir, as you highlighted, from what 
Chairman Myers and Secretary Rumsfeld said, Chairman Myers has 
given me direction to pay attention since this incident, and we 
have been following the intelligence. There has been an up-
tick, a little bit----
    Chairman Warner. Don't use the word up-tick.
    General Burgess. I'm sorry, sir. There has been an 
increase, if you will, in some of the threat reportings. We 
have followed that. We have also been following the foreign 
press as we have followed that. This incident this last weekend 
that you're reading about, which occurred on Saturday, is one 
that we are taking a look at to see if we can make a direct 
correlation to, but at this time have not been able to.
    Chairman Warner. The committee would like to have copies. 
You have a report that goes out, which is--it's in the open--
about intelligence repercussions. I used it once upon a time. 
We'll see that we get it from you.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Roberts brought up the beheading article in his 
questions and I just want to compliment you on the great 
response that I think you gave. We still need to comply with 
the Geneva Conventions and that we still need to welcome 
oversight, like from the ICRC, and that you do welcome 
oversight, like from the committee. But there is an inherent 
risk when we make this public, and I think we all need to 
recognize that. But I also think it highlights the difference 
between our system and our way of doing things, as opposed to 
our opposition so many times, who refuse to comply with that. I 
understand the need to do that. Because if we can make these 
work, and we get our adversaries to comply with it, it means 
our people, our men and women who are serving in the Armed 
Forces, if they happen to be prisoners, have a better chance of 
survival.
    So I compliment you on your foresight. This is unfortunate 
that this happened, and it's just--when you make things public 
like this, this is what happens. You're going to increase 
antagonism on the other side, and we need to think about those 
things.
    I was struck by the fact that there were people within the 
prison, an individual, at least one, who knew the rules well 
enough to report an infraction, and knew that he could do that. 
In fact, he was encouraged to do that. So the message got down 
to some of those people who were working in the prison. 
Apparently, it didn't get to some of the others. Can you 
explain the discrepancy in why some of them got the message and 
some of them didn't? Or is it your view that some of them 
decided just to ignore the law?
    General Alexander. Sir, I believe that it was a group that 
lacked discipline and leadership. I think that--your latter 
statement is the more accurate. I think that's really what 
happened. I know that, as I stated earlier, cases that were 
brought up, people were disciplined, and corrective action 
taken. So there were people who knew the rules and brought them 
forward consistently. It was not just that one. There were a 
couple of instances that I--for the record, those incidences. 
But you will see, in those incidents, that, in fact, they 
were--when they were brought up, the leadership immediately 
took action, brought the JAG in, said, ``Okay, what happened?'' 
So I think that--I think that needs to come out. Because I 
think the perception is that we're not all--but when those 
things were going on--I don't know, as I said earlier, what was 
done about the ICRC Report, whether an investigation was 
started on that.
    Senator Allard. My perception is that actually there was a 
problem being recognized before this incident actually 
happened, in October and December, and there were already----
    General Alexander. Right.
    Senator Allard.--people beginning to become made aware of 
this, and there was beginning to be some review. But, 
obviously, you can't jump ahead of the review. You have to 
establish the facts before you can take action. Am I correct in 
assuming that there already was some review beginning to take 
place, before the 1st of October, of the prison system and how 
we were handling prisoners?
    General Alexander. There clearly are reviews that went on, 
in terms of when General Ryder went over to look at the prisons 
for General Sanchez.
    Senator Allard. That was part of routine review, I guess.
    General Alexander. That was part of a routine--yes, sir.
    Senator Allard. Okay, very good.
    General Alexander. When General Miller went over to look at 
how they set up and how they get that--how they set the flow of 
information, that also was important.
    Senator Allard. General Alexander, at any time after 
September 11, 2001, did the Army staff develop or issue to 
field commanders a revised doctrine for collecting intelligence 
specifically through the strategic exploitation of battlefield 
detainees or enemy prisoners of war?
    General Alexander. Sir, we didn't put out a revised 
doctrine, per se. But I will tell you that we did look at how 
we do data-mining, as the Department of the Army and as the 
Intelligence Community, and how we used that data-mining to 
support analysis. Our intelligence system has an awful lot of 
information, and that some of that information may apply to the 
guy who is being interrogated. In the past, we were never able 
to use that. Some of the tools and things that we do use and 
that we have pushed forward, allow us to take advantage of all 
parts of our Government for the interrogators, so when they set 
that interrogation package up--that's one of the things that is 
evolving, and I think it's exceptional.
    Senator Allard. General Burgess, did the Joint Staff 
develop--same question--or issue to field commanders revised 
doctrine for collecting intelligence specifically through the 
strategic exploitation of battlefield detainees or enemy 
prisoners of war?
    General Burgess. Sir, there wasn't any doctrine, if you 
will, that was promulgated. But what I will tell you, since you 
picked on September 2001, is that as we stood up Guantanamo 
Bay, in December 2002, we pulled together across the community, 
across the Intelligence Community and the military, those folks 
who had some insights into how we would do that. I had to go 
back to the Vietnam War and the Korean War to find the last 
time we had held detainees and conducted strategic debriefing, 
if you will, in the numbers we were talking about, because even 
when we conducted Operations Desert Shield/Desert Storm, in the 
early 1990s, we gathered a lot of people, but we didn't do 
much, in terms of interrogation, before the war was over and we 
released. So we hadn't set up a process. So it was a re-
learning experience in some cases.
    Senator Allard. General Romig, would you characterize for 
us the number, just a rough estimate, of the UCMJ hearings the 
Army conducted during Operations Enduring Freedom or Iraqi 
Freedom regarding the mistreatment of enemy prisoners of war or 
battlefield detainees or other such prisoners? Then, the final 
question, where is the threshold? At what point does this trend 
reach such a level that the Chairman or the Secretary of 
Defense (SECDEF) needs to intervene?
    General Romig. Sir, we've been tracking these since 
probably end of November, first part of December, all detainee 
abuse cases, both in Iraq and Afghanistan. We currently have 
about 83 cases. Twenty-two of those cases were cases that were 
initiated at the unit level. Somebody came forward and reported 
misconduct. A lot of it was low-level misconduct. Often, at the 
unit level, it was at roadblocks and things like that, where 
somebody mistreated a civilian. But we're tracking all of 
those. The units are handling those with a wide variety of 
disciplinary actions, from court-martial down through article 
15 non-judicial punishment and administrative actions, reliefs, 
administrative eliminations from the service, and all those 
kinds of things. So 83 is the number we have right now, sir.
    Senator Allard. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    I've been thinking--and I gave voice to this the other day 
in this hearing--that in our pursuit of justice for those who 
have committed what you, General Alexander, quite appropriately 
described as reprehensible acts in the prison in Iraq, which 
have angered, embarrassed you in the military, we in Congress, 
the American people, that there was a danger that people might 
misunderstand who has the moral high ground generally, and Iraq 
specifically. In my opinion, the zeal with which we pursue this 
wrongdoing, punish those responsible, make sure nothing like it 
exists anywhere else in our American military prison system, 
assures us and the world that we do have the moral high ground. 
I've worried, as I've watched the public opinion polls, with 
support seeming to drop in the last week for our mission in 
Iraq and the focus on these investigations, that there was 
beginning to be a blurring of that distinction.
    Then we hear this story, which I assume, for the moment, is 
true, of al Qaeda beheading an American. There we see what is 
exactly the truth. We have the moral high ground in Iraq. Our 
enemies are the exact opposite. They are inhumane and immoral. 
There's not going to be any investigation by any al Qaeda 
legislative body of how that happened. Osama bin Laden and 
Zarqawi are not going to apologize to that man's family or to 
the American people.
    I hope that this awful inhumane act brings us to clarity 
that what happened in that prison was wrong, that we will 
search it out and eliminate it, and that it does not diminish 
the support for our cause in Iraq, which I consider to be not 
only moral, but fundamental to the future security of the 
American people.
    What's going to happen if these people, who beheaded this 
man, our enemies who are fighting us, force us to retreat from 
Iraq? Think about how they will be emboldened and how our 
future and the future of our children will be compromised.
    In that regard, I greatly appreciated your answer to 
Senator McCain's question about the Geneva Conventions, we 
embrace it because it's the law of the land, and we believe in 
the rule of law, and we want our prisoners to be treated 
humanely.
    In that regard, I want to ask you a few questions. I remain 
uncertain about the application of the Geneva Conventions to 
detainees in the prisons in Iraq. Secretary Rumsfeld testified 
the other day that he felt they weren't entitled to the rights 
under the Geneva Conventions, but they were generally going to 
be given them. Maybe General Romig, on behalf of JAG, if you 
participate in any meetings and you understand this--we 
understand that the people at Abu Ghraib didn't follow the 
Geneva Conventions, that's obviously and painfully clear. But 
what was the state of the understanding of the rights of those 
who were taken as detainees if they were not formally under the 
Geneva Conventions? If they were not, why weren't they?
    General Romig. Sir, there's really two bases to say that we 
apply the Geneva Conventions to these folks. First is, DOD 
policy and Joint Chiefs of Staff instructions say, for all 
conflicts that we're going to be involved in, we're going to 
apply the Geneva Conventions, but, additionally, Geneva 
Conventions number four applies to the situation of an 
occupation or where we're running the government, and these 
individuals--number four is for civilians.
    Senator Lieberman. Right.
    General Romig. Number four is the one that we are applying 
in Iraq. One of the things that we're doing, and I don't know 
if this is the time to do it, but I wanted to dispel the----
    Senator Lieberman. Forgive me----
    General Romig. Yes, sir.
    Senator Lieberman.--I just wanted to make clear that you 
would say that all of these security detainees are entitled to 
rights under the Geneva Conventions--not as great as POWs, but 
rights, nonetheless.
    General Romig. A sliding scale of rights, depending on what 
they're being detained for and--but, certainly, yes. What I was 
going to illustrate is, we have a procedure for detainees being 
brought in, in Abu Ghraib and all of the other detention 
facilities, where there is--first off, they have to have an 
apprehension form, Coalition Provisional Authority apprehension 
form, two sworn statements. They go through a screening 
process, and, within 72 hours, our magistrate cell of three to 
five JAGs at Abu Ghraib, do a review of the evidence to see if 
they're being properly detained, if there's evidence to support 
probable cause to believe that they've committed the offense. 
On top of that, we also afford them Article 78 of the Geneva 
Conventions number four, which requires that you apprise them 
of why they're being held, and an opportunity to either appeal 
or provide a statement. We do that for every detainee.
    Senator Lieberman. As far as you know, that was done, the 
detainees who we see humiliated and otherwise abused in those 
pictures?
    General Romig. Yes, sir.
    Senator Lieberman. Let me ask you another kind of question, 
which goes to the credibility of the investigation. I know 
there are a lot of investigations going on. General Fay, the 
Inspector General, seems to be doing something, and we've asked 
questions here at our hearings about up the chain of command. 
Is there any group now investigating that question of whether 
there was culpability up the chain of command of the behavior 
that we have all been so offended by in the Abu Ghraib prison?
    General Romig. Sir, there are two ongoing investigations. 
General Alexander mentioned the Procedure 15, which is looking 
at the MI side, but that's up the MI side of the chain, and 
there is an ongoing CID investigation that is looking at taking 
all the leads from all the interviews they do and running it 
wherever it might go.
    Senator Lieberman. Again, none of those is limited to the 
people seen in the pictures or in cell block 1A or even at Abu 
Ghraib. They're going to go as high as the investigation takes 
them.
    General Romig. It depends on the evidence they develop, 
yes, sir.
    Senator Lieberman. A final question--I apologize, my time's 
up--what about this group Secretary Rumsfeld announced Friday, 
which seemed to get lost in all the news about his testimony, 
the commission that is headed by Secretary Schlesinger and 
Secretary Brown and a couple of others. Do you know what their 
authority is here?
    General Romig. Sir, I do not know the authority. I've not 
seen their charter, but I think it is a good idea.
    Senator Lieberman. What do you think they're going to do?
    General Romig. Sir, I think they're probably going to make 
recommendations on both detention procedures and interrogation 
procedures, and look at just an outside look at what we're 
doing.
    Senator Lieberman. Okay, thank you.
    Thanks, Mr. Chairman.
    Chairman Warner. I thank you, Senator Lieberman, for 
bringing out those points.
    We're almost in a lock-down for getting information, 
subject to the completion of all these investigations, which 
are necessary. But I'm just concerned.
    Senator Inhofe, you had some time.
    Senator Inhofe. Yes, my questions were interrupted by a 
vote, so let me just go back and pick up where we left off.
    First off, I think we concluded that in the absence of all 
the publicity and all of this, that the seven people who are 
responsible for the acts we've been talking about would have 
been and were being prosecuted anyway to the same degree, and 
then also that I believe you said my concerns should not be all 
that great, that because of all of this that you are inhibited 
in what you're able to do, in terms of your gathering 
intelligence information now. In other words, you're still 
ongoing in getting this information. Do you all agree to that?
    General Alexander. Yes, sir.
    Senator Inhofe. Okay. Now, you were here, I think, when 
General Taguba was testifying this morning, and I asked him a 
series of questions, in terms of did he really feel that the 
offenses, that the reprehensible acts, were confined to cell 
block 1A and 1B of one prison, and then, in addition to that, 
that we don't have any evidence that this is going on at any of 
the other 25 prisons. He agreed to that. Do the three of you 
agree with that?
    General Alexander. Yes, sir.
    Senator Inhofe. As far as you know.
    General Alexander. Of this sort.
    General Burgess. As far as I know.
    Senator Inhofe. I think that's very important, because 
there's an article this morning in the Washington Post that 
alleged abuses like those in the prison are widespread, and not 
isolated, and I just think it's a bad message to send out since 
the message is wrong, and I wanted to hear all of you express 
yourselves.
    Now, as far as the cell blocks 1A and B are concerned--more 
hard-core guys, aren't they?
    General Alexander. Yes, sir.
    Senator Inhofe. I understand that you have three 
categories. One was enemy POWs, one was Iraqi crimes against 
Iraqis, and one was Iraqi crimes against the coalition. So it 
is that last category where the most serious ones are, is that 
correct?
    General Alexander. Those who have great intel value, yes, 
sir.
    Senator Inhofe. Intel value, that's good. Now, something 
was brought up by Senator Byrd, and he was quoting from this 
report, and I want to clarify this, because I think it's very, 
very important. In fact, I was criticized. These people didn't 
understand what was said in the report that came from the ICRC. 
They talked about 70 to 90 percent of the persons were deprived 
of their liberty in Iraq and had been arrested by mistake. I 
have been told that as you arrest people, and we find out that, 
number one, they didn't do anything that was all that bad, and, 
number two, they had no value, in terms of intelligence, that 
there's a revolving door, they go right back out. I would 
suggest that this 70 to 90 percent would include all those 
people who were brought in, and then they found out they didn't 
have anything of any value to us, in terms of intelligence. Do 
you want to comment on that?
    General Alexander. Sir, the 70 to 90 percent, I don't know 
where we get that number, and I don't know that that is an 
accurate number. I do know that, just as you said, when they 
find they have a person who was wrongfully arrested, the intent 
is to get that person back out as quickly as possible.
    Senator Inhofe. I think that's exactly the answer I was 
looking for. A lot of people out there are thinking that 90 
percent of the people arrested didn't do anything, and that 
just flat isn't true.
    Mr. Chairman, thank you very much.
    Chairman Warner. Thank you very much, Senator Inhofe.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    General Alexander, when was General Fay appointed to 
conduct his investigation?
    General Alexander. Sir, the 7th of April is my 
understanding of the date that he was appointed, and I think 
that was the day after the 15-6 investigation was signed off.
    Senator Reed. Now, General Sanchez received a report from 
the ICRC in February, is that correct?
    General Alexander. Sir, General Sanchez's headquarters 
received it. I don't know when General Sanchez got it.
    Senator Reed. But his headquarters received it in February. 
Within this report, there are allegations or actually 
statements by the inspectors. In particular, they witnessed the 
practice of keeping persons deprived of their liberty, 
completely naked in totally empty concrete cells, in total 
darkness, allegedly for several consecutive days. First, that's 
a violation of the commander's guidance.
    General Alexander. Yes, sir.
    Senator Reed. That's a violation of the Geneva Conventions.
    General Alexander. Exactly, sir.
    Senator Reed. So this report is received in February.
    General Alexander. Yes, sir.
    Senator Reed. In this particular incident, the explanation 
for this behavior was because the MI officer said it was part 
of the process.
    General Alexander. Yes, sir.
    Senator Reed. From February to April----
    General Alexander. No, sir. Let me, if I might----
    Senator Reed. Go ahead, General.
    General Alexander. We touched on this briefly before. In 
the identification of who's a MI officer----
    Senator Reed. General, if you'll excuse me, the sequence is 
that the report's received by headquarters in February----
    General Alexander. That's correct.
    Senator Reed.--containing this information, which would 
raise, I think, serious concerns about policy, about practice, 
about compliance with the Geneva Conventions in the 
intelligence operation, regardless of who the individual is. It 
takes until April 4 to appoint an investigating officer.
    General Alexander. Sir, there's an ongoing investigation at 
that time, which is the Taguba investigation on that facility.
    Senator Reed. General Taguba testified earlier today 
because of his mission he was not required to, nor was he 
encouraged to, investigate the MI aspects. Is that correct?
    General Alexander. That's correct. When that was brought 
out--as soon as that was brought out and made public, to the 
best of my knowledge--you see, I did not receive a copy of the 
ICRC Report until this week.
    Senator Reed. Now, I understand from your testimony that 
General Karpinski received a report even before General 
Sanchez.
    General Alexander. That is correct, sir. My understanding 
is, she did an out-brief in November of that report, and she 
responded on the 24th of December with actions.
    Senator Reed. She did not inform General Sanchez or his 
headquarters of these allegations which violated his policy and 
which violated the Geneva Conventions?
    General Alexander. I do not know who--I understand, but I 
do not know who, other than the JAG--is my understanding is the 
only person who had information at the CJTF-7. But, sir, I will 
have to take that for the record to give you the exact answer. 
I do not know.
    [The information referred to follows:]

    Lieutenant General Sanchez can provide the most authoritative 
answer on when he became knowledgeable on the findings of the 
International Committee of the Red Cross on Abu Ghraib.

    General Alexander. The other part that we answered on that 
was, we do not know if General Karpinski started an 
investigation based on the incidents that were in those 
reports, because, as you point out, they're illegal.
    Senator Reed. General Burgess, the JIDC, that's a joint 
asset, not an Army asset, is that correct?
    General Burgess. Sir, it is joint.
    Senator Reed. Colonel Norton is an Army officer, former 
JDIC commander, Colonel Steve Norton?
    General Burgess. I'm not sure if he is an Army officer or 
not.
    Senator Reed. Do you know anything about his background, 
where he's served before?
    General Burgess. No, sir, I do not.
    Senator Reed. Were you involved with General Miller's trip, 
in terms of being briefed about it or being involved in his 
trip in August in which he talked about a different regime, if 
you will, in that prison?
    General Burgess. Yes, sir, I was.
    Senator Reed. Are you aware of the recommendations he made, 
including that the MP should be preparing prisoners for 
interrogation?
    General Burgess. Sir, when he did his report, that was 
provided to the theater, and it was not provided to the Joint 
Staff; however, I did talk to General Miller, and subsequently 
received a copy of that report.
    Senator Reed. So you were aware of the fact that he was 
recommending something which General Taguba had recognized as 
being--at least if carried out, would be violating Army 
regulations and maybe even implicated in the Geneva 
Conventions?
    General Burgess. Sir, I was aware, as I looked at what 
General Miller said, and I have read his report, and I have 
looked at slides that accompany that. I interpreted what 
General Miller had said in a different manner, I think, than 
maybe General Taguba may have, and that probably came from my 
working with him down at Guantanamo.
    Senator Reed. Did Secretary Cambone's office receive the 
same briefing, to your knowledge?
    General Burgess. Sir, I do not know if Secretary Cambone 
received it or not.
    Senator Reed. Who else, to your knowledge, received the 
briefing from General Miller about his recommendations or saw 
the report or slides?
    General Burgess. Sir, as far as I know, I can only confirm 
that General Miller's report was provided to Lieutenant General 
Sanchez. If it was provided higher, I'm not certain. I have 
slides that were prepared for the DOD, but I have not been able 
to confirm that they were ever presented.
    Senator Reed. The ROE that you have handed out, General 
Alexander, were they changed in any respect with respect to the 
Miller----
    General Alexander. No, sir. Those rules, as I stated, stem 
from our FM on interrogation operations, and so when you look 
at that, that manual was written in 1984, and it's consistent. 
So it's one that we have----
    Senator Reed. General Miller recommended the establishment 
of the theater JIDC in his report. Is that correct?
    General Burgess. Yes, sir, he did comment on that.
    Senator Reed. General Sanchez approved that?
    General Burgess. Sir, I would assume General Sanchez 
approved that, because they, in fact, formed a JIDC.
    Senator Reed. Can you also assume that General Sanchez 
approved his recommendation with respect to using MP to prepare 
the prisoners for interrogation?
    General Burgess. No, sir, I cannot assume that, because I 
have not seen any authorities or promulgation put from General 
Sanchez following the release of the Miller Report to him.
    General Alexander. Sir, may I comment on that? Because I 
think it's taken out of context. I know what it says, but I 
honestly believe that that is taken out of context. I have 
talked to General Miller on what he meant. I have read our 
doctrine from both the MP and the MI side. The part about where 
MP and MI have to work together for screening and for 
understanding the mindset of the prisoner before he's 
interrogated is something that we do have to closely work on, 
and it is something that was broken.
    Senator Reed. Mr. Chairman, might I ask one follow-up 
question?
    Chairman Warner. Yes. If I may say, you have a very 
important line of questioning, and you may take another minute.
    Senator Reed. General Alexander or General Romig, is, 
anywhere within the Miller report or the slides, clearly stated 
that the situation in Iraq is different than Guantanamo, that 
the Geneva Conventions applies in Guantanamo? I ask this 
because the interpretation of what is meant by preparing 
prisoners in the Guantanamo environment has a much different 
legal and practical connotation. In the Iraq environment, it 
has a much, much different connotation. It appears that the 
Guantanamo connotation found itself in Iraq, as prisoners were 
being, in this report, subject to the violations of the 
commander's guidance. Also the Geneva Conventions, did you see 
anything where it was emphasized the fact that this would be 
two separate situations? General Romig, I think you concur with 
my analysis.
    General Romig. Yes, sir, they are two separate situations, 
but I did not see the slides on that, so I don't know.
    Senator Reed. General Alexander? General Burgess?
    General Alexander. Sir, I've seen the slides, and, again, 
I've been to Guantanamo, and I talked to General Miller after 
his visit to Iraq. Clearly, before going to Iraq, his concern 
was they had enough people. Iraq was getting all the 
interrogators. They don't need the help. He went over there, 
and he saw some of the conditions in the camp--that was prior 
to Abu Ghraib--and he helped fix that. That was the old Camp 
Cropper. So one of the things that he did in his time there 
was, for General Sanchez, looked at what needed to be fixed in 
other camps, the humane treatment, and the facilities that we 
have at Guantanamo are an order or magnitude better than the 
facilities we have in Iraq. He understood that right away. Sir, 
he also understood that the ability to integrate intelligence 
into interrogations and what he called the flow of information 
that he had at Guantanamo does not exist in Iraq, because the 
system was not there to support it. All of those needed to be 
fixed, and those were the key things he was talking about. 
Nowhere--and he added a line in his report to have the legal 
review or recommendations to make sure what we're saying is 
correct. But, sir, I believe that what he said was honestly 
correct, and I believe that there was no intent to, as it is 
taken, to, quote, ``soften up'' prisoners for interrogation. I 
know it says it, and people are quoting those, but I've talked 
to General Miller, and I will tell you, I honestly believe that 
he did not say it in those manners.
    Senator Reed. Just a final question.
    Chairman Warner. We need to move on, Senator. I thank the 
Senator.
    General Romig. Sir, if I could, there's one final point, if 
I could, on General Miller's--if you read his report, his 
primary focus was in three areas--integration, synchronization, 
and fusion. That's where his report went and how that comes 
together and works. The line on ``softening up,'' as I read the 
report, that does not come out, to me, in terms of doing that.
    Chairman Warner. Thank you. We will hopefully have General 
Miller before the committee at some point.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Alexander and General Burgess, the February 2004 
report of the ICRC states that there was a particular category 
of prisoners that was particularly at risk for abuse, and I 
want to quote to you from the report. It says that ``persons 
deprived of their liberty under the supervision of the MI were 
at high risk of being subjected to a variety of harsh 
treatments, ranging from insults, threats, and humiliations to 
both physical and psychological coercion, which, in some cases, 
was tantamount to torture, in order to force cooperation.'' 
That's pretty strong language, talking about prisoners who were 
under the control of MI being of particularly high risk.
    General Alexander, you've said that this report only came 
to your attention, I believe you said, last week, or relatively 
recently. General Burgess, when did you learn of the ICRC 
Report? I'm talking about the February report?
    General Burgess. Yes, ma'am. Just last week.
    Senator Collins. Shouldn't this report, with its indictment 
of certain MI, have been brought to your attention sooner than 
that? Who should have brought this to your attention, General 
Alexander?
    General Alexander. Ma'am, clearly it should be brought to 
the attention of the commander responsible for that theater so 
he can take action on it. My understanding is that the initial 
report did go to General Karpinski, and that she was asked to 
respond to that report, and did so on the 24th of December. I 
do not know if she, in fact, started an investigation into 
those, because they are serious, and I agree with you that as 
soon as we hear about one of those allegations an investigation 
should begin right away, and we shouldn't wait for it.
    Senator Collins. I want to bring up a second issue and have 
all three of you comment. If a small group of guards, on their 
own initiative, decided to abuse their prisoners, I am very 
skeptical that they would have chosen bizarre sexual 
humiliations that were specifically designed to be particularly 
offensive to Muslim men. It seems to me that it is far more 
likely that a group of out-of-control, undisciplined guards 
would beat up prisoners, not strip them naked and put them in a 
human pyramid. That really troubles me, because it just 
doesn't--it implies too much knowledge of what would be 
particularly humiliating to these Muslim prisoners. That is 
why, even though I do not yet have the evidence, I cannot help 
but suspect that others were involved, that MI were involved, 
or people further up the chain of command, in suggesting to 
these guards specific types of abuse that were designed to 
break these prisoners.
    I would like to ask each of you to comment on that, 
starting with General Alexander.
    General Alexander. Ma'am, your logic is correct. I think 
that the difficulty is to find out who told whom what to do. As 
you state, the soldiers that are charged are saying that, 
``Military intelligence told me to do this.'' Now, the question 
is, ``Who?'' A defense can't be, ``I was told to do it by that 
group or that group.'' ``Who told you?'' That's really where we 
need to get to. Who told them to do this? Who was that 
individual? That is the key to all of this.
    Now, in the General Taguba Report, there were three 
soldiers, not interrogators, who are MI analysts that were 
listed, and there were two contractors listed. It appears that 
at least one of the contractors did tell some of them some of 
this, but it's not clear what they said. What complicates that, 
as I understand it, is, some of these soldiers now that are 
charged have pleaded the Fifth and are not talking to the 
investigators to give out the rest of what they know. So we 
want to get exactly the facts that you're stating, because that 
is important to us. To fix the system, we have to know who, we 
have to know what they did and why they did it, and then we 
have to take action, hold them accountable and fix it so that 
it doesn't happen again. So I agree with the way that you put 
that out.
    Senator Collins. General Burgess?
    General Burgess. Ma'am, what you've laid out is logical. 
What I would say is, I've learned, doing intelligence work, 
that you close no doors, you see where the threads, as I call 
them, will take you. But the last point I would leave you with, 
in my short 30 years in the military, I'm not surprised much 
anymore what one person will do to another person. Just dealing 
with things that I've had to deal with through my career, just 
dealing with the situations that come up. So anything is 
possible. I'm not condoning, not saying it's right. It's just 
human nature in some cases.
    Senator Collins. General?
    General Romig. Senator, since we have an ongoing CID 
investigation and pending cases, it would be inappropriate for 
me to comment.
    Senator Collins. I thought you would answer that way.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, it's an excellent line of 
questioning. We keep coming up against the following: ``CENTCOM 
knew it, but we didn't know it,'' or, ``investigation is going 
to learn the facts.'' We're creeping along here trying to get 
at these questions. At the same time, I guess we have to 
observe the integrity of these investigations. But I agree with 
you, these youngsters didn't understand the nuances of Muslim 
culture, who some people say staged those photographs, which I 
understand were going to be shown to the prisoners' families, 
by way of threat, unless he came forward with some valuable 
information. The plot is thickening.
    But I'm just curious, General Alexander, you wear three 
stars, you're the Chief of Army Intelligence, you train all 
your people, you send them to the combatant commanders. It 
would seem to me if they are represented to have done wrong--I 
don't care whether it's CENTCOM, Southern Command (SOUTHCOM), 
European Command (EUCOM)--they should inform you promptly of 
what your people are doing wrong. That's my view.
    Now, we turn over here to our good friend, Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I've been asking questions about contracted personnel. 
General Burgess, how many U.S. contracted personnel do we have 
working with our MI units? The big question is, do all of these 
individuals have the proper security clearance?
    General Burgess. Sir, I would like to take the response to 
your question for the record so I can give you an exact 
response.
    [The information referred to follows:]

    [Deleted.]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    General Burgess. We've broken the number out in terms of 
interrogators, linguists, and others that are providing some 
analytical assistance, so it actually breaks out in different 
ways and in three different locations. That's not--I'm talking 
Afghanistan, Iraq, and Guantanamo. So to give you a specific 
answer, I'd like to provide that to the committee.
    Sir, in those cases where security clearance is required, 
that is written into the contract, and that is worked. There 
are some of the skills that we're talking about, though, 
depending on the category of the linguists, where different 
security clearances are required or may not be.
    Senator Akaka. General Burgess, it is reported that one of 
the two civilian contractors named in Major General Taguba's 
report did not have a security clearance. What are the rules 
regarding security clearances for contracted personnel who will 
be interrogating detainees?
    General Burgess. Sir, as a general rule--and I highlight 
``general rule''--we require at least a collateral clearance, 
depending on the access that the individual's going to have. 
However, I have asked for the specific statements of work for 
those contract, and have not read them yet.
    Senator Akaka. I've also read some articles on this, and 
would ask the question, whose responsibility is it to ensure 
that all of the U.S. contracted personnel have the appropriate 
clearances?
    General Burgess. Sir, as a general rule, that resides with 
the organization that ``lets the contract,'' and you have a 
contracting officer who is responsible for seeing that the 
contract is executed in accordance with the standards. That is 
normally done at the Unified Command and lower, depending upon 
where you're executing the contract.
    Senator Akaka. I've read some reports where the hired 
contractor firms claim that it is not their responsibility to 
do any background research or checks or investigations on any 
of the people they hire. Do you know that to be true?
    General Burgess. Sir, I do not know that to be true.
    Senator Akaka. Also, General Taguba's report stated that 
contracted personnel from third-world nations were involved in 
this. Do you have any comment about that?
    General Burgess. Sir, depending on your definition of 
third-world country, it is a true statement to say that we use 
foreign nationals with security clearances to do interrogations 
or translations.
    Senator Akaka. Can you name some of the countries that 
these foreign nationals are from?
    General Burgess. Sir, for example, we are using some Iraqis 
to do some linguist work for us, if you will, not only 
translation work, but also just providing those skills for the 
soldiers on the ground.
    Senator Akaka. What kind of training did the U.S. civilian 
contractors have prior to going to Iraq? I've been informed 
that the training for interrogators included training tactics 
and techniques used by other countries. Did such training 
occur? If so, are these tactics and techniques approved by DOD 
intelligence officials?
    General Alexander. Sir, as far as I know, they did not. The 
contract that I'm familiar with, the personnel who were brought 
on from the CACI contract were former soldiers or former U.S. 
who had an interrogation MOS and had been trained on the rules. 
Sir, as we stated earlier, they were also supposed to sign and 
understand the interrogation ROE.
    General Burgess. I would highlight the approaches or the 
interrogation techniques would still be those that are laid out 
in the Appendix H of the Army FM that we discussed earlier.
    Senator Akaka. Another concern I have is about records. 
General Burgess, who is responsible for keeping a record of all 
of these civilian contractors that the U.S. has in Iraq? Is 
this responsibility of the individual contracted firms or the 
DOD?
    General Burgess. Sir, I do not know the answer to that 
question.
    Senator Akaka. General Romig, was there any consultation 
between commanders--that's commanders from company, battalion, 
or brigade--between commanders and the command JAG regarding 
the treatment of detainees at Abu Ghraib?
    General Romig. Sir, we had a JAG officer assigned to the 
brigade, the MI brigade. I can't tell you the day-to-day 
discussions, but there was a JAG officer assigned to the 
brigade. In addition, the MP brigade had a couple of JAG 
officers. As I said, there was a magistrate cell in Abu Ghraib 
of three to five JAG officers. So there was ample--we believe--
now, having said that, we're taking a look at the resourcing 
and the training for our JAG and MI units to make sure we're 
doing it right, so we're looking at that also.
    Senator Akaka. Thank you for your responses.
    Chairman Warner. Thank you very much.
    Senator Lindsey Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Hat's off to the panel. You all have done an excellent job 
answering a lot of questions. I think the truth is, we won't 
know yet. When somebody offers as a defense in a court-martial, 
``Someone else made me do it,'' it's going to take awhile to 
find out who that someone else is. I share Senator Collins' 
concern that this is probably not just six or seven people 
having an out-of-bounds perverted experience, it probably goes 
deeper. But in terms of what Senator Kennedy was asking, 
General Romig--is that right? Am I pronouncing your name right?
    General Romig. Yes, sir.
    Senator Graham. I'm informed the Extraterritorial 
Jurisdiction Act exists that would allow the Department of 
Justice to prosecute contractors serving overseas. Are you 
familiar with that?
    General Romig. Yes, sir, that is correct.
    Senator Graham. I would make this invitation to you. Could 
you and your JAGs look at that, and maybe get the other JAGs to 
look at it and see if we need to improve that? Because I'm not 
so sure it gives us all the tools that we need, but I would 
appreciate it if you would do that.
    General Romig. Yes, sir, we would look at it.
    [The information referred to follows:]

    Section 3266 of title 18, United States Code, enacted by the 
Military Extraterritorial Jurisdiction Act of 2000 (MEJA), directs the 
Secretary of Defense, after consultation with the Secretary of State 
and Attorney General, to prescribe regulations governing the 
apprehension, detention, delivery, and removal of persons under MEJA. 
The Department of Defense is currently engaged in that process. The 
Department is also reviewing legislation to amend MEJA. H.R. 4390 was 
introduced on May 19, 2004, to amend MEJA to apply to employees of 
contractors of other Federal agencies when their ``employment relates 
to supporting the mission of the Department of Defense.'' Currently 
with respect to contractor employees, MEJA applies only to an employee 
of a Department of Defense contractor.

    General Romig. One additional point about that. There are 
implementing instructions that are on the Federal Register 
right now that DOD has put out. Prior to that, though, the Air 
Force has prosecuted two cases under that act.
    Senator Graham. Thank you, and if we need to improve it and 
make it tighter, I would appreciate that.
    General Alexander, you've been very candid. One of the 
things that jumps out at me about this report is that the 
prison is being shelled every day, it seems like. These people 
are in a war zone, so you could have the best-trained, highly-
motivated people in the world, and this was just a tough job. 
But if you have poorly-trained people who were told they were 
going to go home, and had that yanked out from under them, and 
poor command, it's a cocktail for disaster. Do you agree with 
that?
    General Alexander. Yes, sir.
    Senator Graham. Okay. Part of this hearing--and I 
appreciate so much what the Chairman and Senator Levin have 
done by having these hearings--is to try to make sure that we 
get it right next time. Seven-hundred people guarding 7,000 at 
one time is not a good ratio, I don't believe. Do you have the 
men and women under your command necessary to, in a valid way, 
get MI gathered? Is it your opinion we have enough people in 
uniform in the Reserve component to act as MPs to prevent this 
problem in the future?
    General Alexander. Sir, that's a great question. Army 
transformation is at the heart of what you're getting to right 
now. I know that the Army leadership has been over here to 
brief that, but let me give it to you from my perspective, 
because it is important.
    Today we have about 240 active duty interrogators. We will 
more than triple that under Army transformation and that key 
change and some of the other changes we make for our analysis 
and other areas to fight this new emerging threat is where our 
Army is going under that transformation, and that's very 
important to our country in the future.
    So I would say that continue please, sir, supporting as you 
have that transformation process. It's vital to resolving this 
issue and others.
    Senator Graham. Chairman Warner asked a very good question 
in just simple terms, and give us an educated guess, because I 
know you don't know everything, what do you think happened in 
that prison between the MI community and the MPs?
    General Alexander. Speculation----
    Senator Graham. Just your gut feeling as a three-star 
general.
    General Alexander. I believe you had not only poor 
leadership, you had a group that were essentially leadership 
and controlled their environment on the midnight shift. Nobody 
came to check on them for periods of time and their leaders may 
have been absent at those times, and that other people came up 
and heard that some of this was going on, and they did things 
that were incorrect, reprehensible, and should be punished. If 
any leaders participated in that, they should receive the same 
punishment, and if anyone told them to do that, in my mind, 
they should receive the same punishment.
    What we have to do, sir, is find out exactly who told them 
and what they did do, and I think that will come out.
    Senator Graham. One final thought. I think everyone here, 
Republican or Democrat, will make sure you have the resources 
necessary to gather intelligence in a lawful way to protect our 
troops to do your job, and we will look at retooling the 
military. We can learn from this experience.
    But I would like to end on this thought. Senator Lieberman 
I think spoke to a lot of us here a few minutes ago. The 
beheading video is not only shocking, but it should be a wake-
up call as to exactly who we're dealing with here. We're 
dealing with an enemy who has absolutely no boundaries, who's 
despicable in every way, and really behaves like animals in the 
name of God.
    Our challenge as a nation, General Alexander, is to keep 
the fight going, vanquish this enemy, because losing is 
unacceptable to the international community. We learned one 
thing if nothing else from Hitler, one more country wasn't 
enough. You could never appease him, and we'll never be able to 
appease the folks we're fighting today. So for the 
international community, it is now time to join this fight. We 
have made mistakes, and I'll be the first to admit it, but the 
war itself is not a mistake. These people need to be controlled 
and vanquished, and in the process we need not become animals 
ourselves. That's what this is all about.
    Mr. Chairman, I know we can do both of these things. We can 
vanquish this enemy and we can do it with honor, because we've 
done it before as a nation, just as we defeated Hitler working 
together, we can defeat these people. I believe that these 
hearings, no matter how bad it makes us look for the moment, is 
an opportunity for us to show the world that there is a better 
way, and I hope the people of Iraq will be watching and 
listening, because they need to have higher expectations about 
their future.
    I appreciate you all serving our country and we will stay 
in touch.
    Chairman Warner. Thank you very much, Senator Graham, for 
those observations.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. We haven't 
ceded the moral high ground in this situation, no matter how 
bad the abuses are, no matter how many there were. We haven't 
ceded the moral high ground, no matter what we find out, as to 
who was involved, and as to what level. We will correct it, 
we'll prosecute those who have engaged in criminal acts, and we 
will hold everyone accountable no matter what their level of 
authority.
    It will help remove the stain, but in the process of doing 
that, it's important that we don't create the opportunity for 
scapegoats or duck responsibility as it might be our 
responsibility to deal with, simply because it's painful, or it 
puts us all in a very difficult situation to deal with it.
    So I have to ask this, General Alexander. As you look at 
your future investigations and current investigations, would 
you expect to find anything that would bear on the court-
martial that are underway or about to get underway? Would there 
be any factual evidence that you might determine that would 
have any impact on those trials?
    General Alexander. Sir, I think the one key thing that will 
impact that is if someone in authority told them to do what 
they did, that has great impact. It does not condone it, but it 
clearly in my opinion is a mitigating factor. We have not found 
that.
    Senator Ben Nelson. Will you find it, or do you know 
whether you'll find it?
    General Alexander. Sir, I don't know that it exists.
    Senator Ben Nelson. That's what I mean. But if you don't 
know whether it exists, you don't know that it doesn't. I guess 
I certainly don't want to sweep anything aside, I don't want to 
put anything in limbo, but I am concerned that we're moving 
forward before all the investigations are complete and no one 
would want us to rush to judgment. It would also, I think, be 
inappropriate if we look like we're rushing to judgment.
    General Alexander. Yes, sir. I think the allegations, and I 
think this perhaps may be something that----
    Senator Ben Nelson. I think you might want to pass it off 
to General Romig.
    General Romig. I would say that it looks like that the 
cases are being moved very quickly, but you have to realize 
that the investigation started in mid-January, and so the chain 
of command has had the information as the investigation was 
developed.
    Senator Ben Nelson. I agree. I shouldn't have used the word 
quickly as opposed to prematurely. That's, I think, what my 
concern is, and then as it relates to General Karpinski, it's 
my understanding that the MI may have taken over November 2003. 
Is that after the abuses that are in question here? I guess, 
General Alexander, you gave the time frame.
    General Alexander. Sir, she was given a report by the ICRC 
on November 6.
    Senator Ben Nelson. About these particular abuses or the 
fact that there were abuses?
    General Alexander. About the fact that there were abuses 
and some of the abuses listed in there sounded the same as some 
of the abuses we're seeing. Now, what we have to do is get the 
exact dates of those. I do not have those.
    Senator Ben Nelson. Would this have been by the midnight 
shift?
    General Alexander. Yes, sir.
    Senator Ben Nelson. These abuses?
    General Alexander. Yes, sir. My understanding, because when 
you read in the ICRC, that one statement, you immediately think 
of that one picture, at least I do. Now, that report was given 
to her on 6 November, and as I said, the Fragmentary Order 
(FRAGO) took place on 19 November.
    Senator Ben Nelson. Do we have any explanation from General 
Sanchez about why he interrupted the command by putting Colonel 
Pappas in place to deal with both the intelligence, and force 
protection side?
    General Alexander. Sir, it was just as you say. That 
General Sanchez wanted Colonel Pappas to move his headquarters 
to Abu Ghraib and take charge of the force protection. As was 
pointed out earlier, they were receiving artillery or mortar 
fire. People were getting shot. The facility is not being 
policed, and going along with the initiatives as quickly as he 
wants to. The MP battalion commander on the ground was not 
making that headway. He felt that by putting one of his senior 
commanders there, moving Pappas up to do that and putting him 
in charge of that, it was the correct thing to do for the 
soldiers and the detainees. So that is why I believe he made 
that decision.
    Senator Ben Nelson. General Burgess, I'm sure you're 
familiar with the term, rendering detainees or prisoners in 
terms of shifting them off to other locations, other 
governments for intelligence-gathering purposes?
    General Burgess. Yes, sir, I am aware of the term 
rendering.
    Senator Ben Nelson. Do you know of any instances where 
we've participated in that by sending any detainees or anyone 
within our custody to another country for any other purpose or 
any purpose?
    General Burgess. Sir, I am aware that we have currently 
kept individuals under U.S. Government control in terms of 
conducting interrogations. I am familiar, but it would not be 
appropriate to go into in this session and could discuss with 
the leadership another particular case, but it would not be 
appropriate here.
    Senator Ben Nelson. I wouldn't want you to go into it, but 
you are aware it might be something we could take up in a 
secure environment?
    General Burgess. Yes, sir, but--yes, sir. That's all I'll 
say about it here.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman. I had one question 
for General Romig. Before that, I'll comment on something 
Senator Collins said. I understand her saying that it's hard to 
believe how these enlisted soldiers would have known that this 
was the way to humiliate these particular prisoners. That 
actually is less of a question mark in my mind. Anybody who's 
worked in the civilian prison system or is relying on anybody 
who has, knows something about Islam, that's not uncommon, and 
I would think know something about how to humiliate people too, 
because unfortunately, that's not uncommon in the civilian 
prison system.
    What is inexplicable to me, and I'd appreciate your comment 
even if you're going over old ground, is where the officers of 
this brigade were. If I ask myself what is unusual, truly 
incomprehensible about the conduct of these enlisted people is 
that they would have done this to this scale and with this 
documentation without having asked the officers in their direct 
line of command whether they should do it.
    Now, maybe you know this and are not commenting on it 
because it's part of the cases, I don't know, but that to me is 
the true question mark here, because I'm not used to an Army 
operation where there seems to be such an abdication of the 
first rule of a chain of command, which is to know what is 
going on with those immediately beneath you. General, if you 
want to comment, go ahead.
    General Romig. Senator, as you point out, it would be 
inappropriate with an ongoing investigation and criminal cases 
moving forward for me to comment on that.
    Senator Talent. This is the crux of what, at the 
appropriate time, I want to know about this, because I agree 
with you, General Burgess, that people can be pretty inventive 
even on their own in figuring out ways to do the wrong thing. 
But for them to take this on their own responsibility just 
seems to me to be extremely unlikely, and the natural place 
they would have gone to check this out is their own chain of 
command, not somebody in MI.
    General Romig, let me ask you a question that I raised with 
the panel this morning, and you can just maybe enlighten me 
because another side of this is, why, once General Taguba 
issued his report, it took so long to work its way up the upper 
level of the chain of command, and of course, everybody is 
talking about command influence, which I know is an issue. Now, 
could we maybe deal with this in the future by having a 
separate line apart from the chain of command for the purposes 
of court-martial and the UCMJ where you can report a special 
interest case? In other words, get it to the top through a 
separate line? I'm told the Air Force has this kind of an 
office. Are you aware of that? I have an all-green panel here 
so maybe you're not, but I mean, are you aware of that? Is this 
something the Army could look into?
    General Romig. Sir, I'm not sure what you're exactly 
referring to.
    Senator Talent. It's called the Reporting Office on Special 
Interest Cases, and what I'm told is that you can go to this 
office if you think the case has some interest beyond the 
particular case for the policy of the Air Force, and you don't 
have to worry about command influence, because this office is 
not in the chain of command for those purposes.
    General Romig. There's a difference, I guess, between 
reporting, which this was reported up, we knew about it in 
January, versus having the entire report up with all, as I've 
heard, 6,000 pages if you count the annexes. It's not 
necessary, I don't think, to have a full report if you're 
apprised of what's in the report, and that occurred much 
earlier. But this is something we ought to look at, you're 
right.
    Senator Talent. Yes, because if the higher level officers 
are caught between their responsibilities from a command 
influence standpoint and their desire to expedite this up the 
chain because of the effect on the mission and the strategy, 
then maybe we can do something to free them from that conflict.
    General Romig. That's something that should be looked at, 
you're right, sir.
    Senator Talent. Thank you, Mr. Chairman.
    Chairman Warner. I thank you. We have to look at that. If 
you could take that on yourself to look at that situation----
    Senator Talent. We're looking at it in my office, Mr. 
Chairman. I'll talk to the staff of the committee about it too.
    Chairman Warner. When you sit here and say you knew about 
it in January, did you blow some whistles and alert people that 
we have a problem?
    General Romig. Sir, I did not see the videos or the photos, 
but I knew of the case and that it was going to be a nasty 
case, had meetings with the Vice Chief of Staff and other 
leadership in the Army, so we were working the issue. But this 
was also----
    Chairman Warner. As early as January?
    General Romig. Mid- to late-January, yes, sir. This was 
also in the context of tracking all the detainee abuses, which 
we started well before this.
    Senator Talent. Excuse me, Mr. Chairman, I asked Secretary 
Cambone this morning, and I think that what I can sense that 
those at the top level saw this as a UCMJ-type situation and 
their command influence protocols cut in in their own minds, 
and they said, okay, we have to go by the book on this because 
we don't want to prejudice the prosecution, which is 
understandable, because you know how that's drilled into them. 
So maybe some separate reporting-type situation where we'd have 
people who would be more free to really rattle everybody's cage 
about it is the way we need to--we will look into it, Mr. 
Chairman.
    Chairman Warner. Yes, some assessment as to how it affects 
American, overall foreign policy, everything. We now have 
Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. General Romig, I 
want to follow up if I may on Senator Graham's and also Senator 
Akaka's questions about contractors, and specifically, just for 
clarification, in your view, what rule of law applies to these 
civilian contractors?
    General Romig. It depends on what they do. If they have 
committed an offense that, for example, a homicide or a serious 
assault, maiming of somebody, these would be prosecuted under 
Federal law, under the Military Extraterritorial Jurisdiction 
Act, brought back to the United States and prosecuted in 
Federal courts.
    Senator Pryor. By the Department of Justice?
    General Romig. Yes, sir.
    Senator Pryor. Do you happen to know how many contractors 
were involved in this prison? Do you know how many----
    General Romig. Sir, I have no idea.
    Senator Pryor. Do you?
    General Alexander. Yes, sir. There were 29 as I understand 
it, 8 interrogators, 10 screeners, 9 analysts, and 2 reports 
writers, so 29.
    Senator Pryor. So 29 civilian contractors?
    General Alexander. Yes, sir.
    Senator Pryor. Were they all with the same company or is 
that different companies?
    General Alexander. Sir, they were all with the same 
company. Now, those were the interrogators. There was also a 
linguist contract under another contractor type.
    Senator Pryor. Who had the bigger--the 29, who had that 
contract?
    General Alexander. That was CACI, sir.
    Senator Pryor. Okay. Who was the commanding officer there 
at the prison?
    General Alexander. Sir, right now today----
    Senator Pryor. No, who was it at the time?
    General Alexander. Sir, that was the report, so I want to 
make sure I answer this exactly correct. After 19 November, 
Colonel Pappas was the FOB commander. Prior to that, it was 
Lieutenant Colonel Phillabaum, who ran Abu Ghraib for the 800th 
MPs, and that was under General Karpinski.
    Senator Pryor. Great. General Alexander, you have 
mentioned, I think almost all witnesses have mentioned, 
discipline and leadership. Is it your conclusion that part of 
the problem there with the discipline and the leadership is the 
failure to train or is it the failure to screen? Where does 
this start to break down?
    General Alexander. Sir, I can tell you from my experience 
when I was a lieutenant, one of the first things my platoon 
sergeants taught me to do was to visit the billets at all times 
day and night, so that's one of the first things you learn as a 
lieutenant is to go and see what your troops are doing day and 
night. We did that in Germany because of drug problems back 
then.
    I think right there the question is, where was the 
leadership on the night shift? When did they come by and visit? 
That is, when people refer to a breakdown in the leadership, 
that's what forms in my mind.
    Senator Pryor. Does that go for training as well?
    General Alexander. Absolutely, sir. In training, it is laid 
out both in the CJTF orders about make sure your soldiers are 
trained on the humane treatment. That's specific in the orders. 
Sir, I think it was pointed out earlier that this was an 
internment, this is the duty of this unit. This was something 
that you are trained to do. That is the first basic thing that 
all noncommissioned officers and junior leaders know to do, and 
I can't answer why it was not done.
    Senator Pryor. Let me ask one last question or one last 
line of questions, and that is, understandably, in the last few 
days we've been very focused on the conditions in the prison 
itself. There have been some question today and previously 
about the qualifications for getting yourself into this prison, 
and we've talked about that a little bit. There's this ICRC 
Report that 70 to 90 percent were wrongly arrested and 
detained. We can--we don't know all the background on that, so 
I'm not going to ask about that. But my question is, once 
they're in the prison, from that point, where do they go? If 
you're going to prosecute these people or whatever decision you 
make, where do they go from here?
    General Alexander. Sir, the facility that is there at Abu 
Ghraib--and I'll let General Burgess add in here if I state 
anything incorrectly--has three areas, a general detainee 
population area, an Iraqi criminal area, and then this JIDC. 
The general population is where most everyone is brought in who 
is captured by our troops who are doing something against our 
soldiers or we believe, or against Iraqi civilians. The 
criminals are the ones who are brought in for criminal acts, 
and that is now under Iraqi control.
    The JIDC is where personnel who are of intelligence value 
are placed because they either participated in an act against 
our forces or know something that is important for the priority 
information requirements that the commanders have.
    Senator Pryor. There's a report, and forgive me, but I 
can't remember if it's in The Washington Post or exactly where 
I saw it, that talks about, it says the Americans have 
established a secret court. I was curious about this central 
criminal court of Iraq and what exactly is that and how does 
that work. I assume some of these prisoners there would be 
tried in that court. Could you elaborate on that?
    General Alexander. I guess it's a secret court because I'm 
not aware of it, sir, I really, truly am not.
    General Romig. Sir, that's--I wouldn't really characterize 
it as a secret court. It's a court that functions within Iraq 
for criminal cases, serious criminal cases. One of the things, 
sir, I wanted to point out was that these individuals undergo a 
6-month review. If the feeling is we need to continue to detain 
them, at the 6-month mark, a review and appeals panel reviews 
and makes recommendations for their release if they feel they 
should be released. That goes up to Baghdad to an appeals board 
that is chaired by some very senior officers.
    Senator Pryor. Thank you. Mr. Chairman, that's all I have.
    Senator Sessions [presiding]. I'm proud to be a 
representative of the people in a country that takes these 
things seriously, that believes in truth and facts, honor and 
duty, and responsibility, and we're all humans and we 
frequently all of us fail. There have been some failures here. 
We're going to get to the bottom of it, and I appreciate your 
candor, all three of you, as we go forward, and I most of all 
appreciate the great service of our soldiers under very 
stressful conditions at this very moment, because this Senate 
and this Congress voted to send them there by a three-fourths 
majority vote. If anybody thought that everything was going to 
go smoothly, they're not worthy of the office of United States 
Senator, because anybody that knows history knows that there 
will be problems.
    But we don't believe in them, we believe in eliminating 
them, and I'm just proud of the way you've responded to date. 
The beheading that we hear about, I pray it's not true. If it 
is true, it would not be untypical of what we're seeing in the 
enemy that we're facing. They are not going to have their own 
internal inquiries and they're not going to condemn these 
actions because they justify these actions and they believe in 
them.
    One of the things I think it's important for us to remember 
and I just want to get straight, maybe General Alexander, of 
this MP unit, is even last year four members were submitted to 
court-martial for abusive procedures, were they not?
    General Alexander. Sir, I'm not aware of that.
    General Romig. That may be correct, sir. I'd have to double 
check.
    Senator Sessions. I think it's in the report, referred for 
court-martial. I'm not sure how that came out, but they were 
disciplined for abusing prisoners last year, which means, 
number one, I'm glad somebody in the unit took charge of it, 
number two, the military's not tolerating this. I have not 
forgotten a very fine brigade commander who, in a combat 
situation, lost his discipline and fired a gun by an Iraqi's 
head, thinking he had to have information. He was removed from 
the service, basically, and a spotless record otherwise, 
because the military did not tolerate this kind of activity.
    I'm also aware that within 1 day of this specialist, not an 
officer, a specialist coming forward, an investigation was 
opened under the CID. General Romig, that's what you do to 
prosecute people, take them to court-martial and put them in 
jail with, is it not?
    General Romig. Yes, sir.
    Senator Sessions. So that was commenced the next day. Can 
you tell me, any of you, about the suspensions? I know we've 
talked about the Brigadier General in charge of the brigade, 
but there's been some actions within a few days of this report 
to actually remove people from their official position, not 
privates, not people out there at the lowest level who were in 
the photographs, but officers of substantial rank. What can you 
tell me about that, General Romig?
    General Romig. Yes, sir. The battalion commander received a 
general officer memorandum of reprimand and was relieved for 
cause.
    Senator Sessions. Within a week perhaps?
    General Romig. Sir, I could get the time frame. I just 
don't have it in front of me.
    Senator Sessions. It was a short period of time, as I 
recall.
    General Romig. Yes, sir. After a chance for the command to 
review the evidence and the facts. There are a number of folks 
that they're waiting for their rebuttal on their general 
officer memorandum of reprimand. An operations sergeant major 
was relieved with a general officer memorandum of reprimand, so 
there were a number of actions taken, and all of these are very 
significant actions to a person's career obviously.
    Senator Sessions. That was long before any news media, any 
Congress got involved in this. Sometimes I think this Congress 
reminds me, in this instance particularly, of the little dog 
that chases an automobile down the road barking and thinks it 
ran the automobile off. Like we were demanding you do 
something, you've already done it.
    Let me ask about this MP situation, General Alexander, and 
I think it was somewhat confusing about the chain of command 
and the orders. As I understand, Senator Levin indicated there 
was some evidence. I think as the good lawyer he is, he was 
correct. There was some evidence that perhaps MI personnel had 
done wrong. Is it your opinion that there was not persuasive 
evidence, and if not, why?
    Let me just ask you, are you saying to us that you were not 
persuaded by the evidence that you've seen to date that any of 
these MI people authorized anything like this?
    General Alexander. Sir, that is a good statement and I 
appreciate the opportunity to clear it up, because I have not 
seen any indications that a person in the intelligence chain of 
command told them to take these activities on. There are 
numerous statements, as you point out, that allege MI officers, 
which could be any of the people there, told them to do this. 
We need to find out the specifics and the facts of that, 
wherever that may lead this.
    Senator Sessions. I agree with that. We need to follow that 
up where it leads. I will say, as a person who's been involved 
in prosecutions for over 15 years, in fact, they didn't get any 
names and specific allegations, and I believe the phrase was 
insinuated, that these officers insinuated this or that does 
cause me some concern. If somebody had told me to do something 
and you were complaining to me about it, I'd say this person 
told me to do it and I'd give the name.
    But I think we do need to follow that up. I don't believe 
that the MI deserves any pass on this in terms of an 
investigation, I don't think you do. I do think it's quite 
possible that an MP working in that prison, if they had been, 
if it had been suggested they do these kind of things, may have 
felt they had some authority or ability to do so.
    Senator Bill Nelson. Senator Sessions?
    Senator Sessions. Can you share any more with us on that?
    Senator Bill Nelson. Did you know we're in a vote and we 
have 3 minutes left?
    Senator Sessions. I did not, and my time just ended 1 
minute ago.
    Senator Bill Nelson. I need to go and vote.
    Senator Sessions. I do too.
    Senator Bill Nelson. So if you're chairing the meeting, 
would you recess it until we can get back?
    Senator Sessions. Senator Nelson, that is a brilliant 
suggestion.
    Senator Levin. Mr. Chairman?
    Senator Sessions. Oh, Senator Levin, you want to chair it 
for us?
    Senator Levin. There's someone else coming back here as 
well, so we'll keep it going if that's all right with you.
    Senator Sessions. I would just try to follow up on that. I 
think we need to know that. I think we need to know if there 
were any suggestions that, going beyond these interrogation 
ROE, which I think makes sense, occurred. Also, I'm aware, 
General Alexander, that this was a dangerous place to be, and 
our soldiers were at great risk, and this Congress, we're on 
the top defense officials and military people to get more 
intelligence, because we said repeatedly good intelligence 
saves lives, and so I know there's a great pressure on.
    Are you satisfied now that since January and since these 
things have arisen that we've gotten our people back on the 
right side of that line if they ever got across of it? Are they 
clearly informed now where the line is, what is legitimate for 
them to do in interrogation, and are they on the right side of 
it?
    General Alexander. Yes, sir. I am convinced we have taken 
those actions.
    Senator Sessions. It seems to me we have at least five 
investigations ongoing on policies. Our policies are being 
reemphasized and I think we're on the right track, and I 
believe that is what a good nation does that has high ideals. 
If they mess up, they get themselves straight, but we don't 
give up on the mission that we're undertaking, which is noble 
and honorable and going to be a great improvement for the lives 
of the people of Iraq. Senator Levin.
    Senator Levin. Thank you. I was going to have some 
additional questions in the second round.
    Senator Sessions. You're available to commence the 
questioning if you would like.
    Senator Levin. We might as well start a second round before 
the first round is over and save some time later on, if that's 
all right with you, Mr. Chairman.
    Senator Sessions. I think it makes sense.
    Senator Levin. Thank you. First of all, let me ask you, 
General Romig, about this interrogation ROE that require the 
commanding general's approval. In your opinion, are those 
actions and activities, including stress positions, sensory 
deprivation, and so forth, consistent--not consistent with--
would the Geneva Conventions say that those are okay?
    General Romig. Sir, this is the first that I've seen of 
these. They were--the legal review, as I understand, was done 
down at CJTF-7, but if I'm not mistaken, these are taken out of 
your FM, is that correct?
    Senator Levin. Could you tell us which FM that is? We're 
having trouble finding that FM. What's the date of it, that 
field manual?
    General Alexander. Sir, it's FM 34-52.
    Senator Levin. What's the date of that?
    General Alexander. Sir, it's 1984, I believe. No, 1992, I'm 
sorry.
    Senator Levin. What page are you on?
    General Alexander. Sir, I'm on the date where these are, 
they're on 3-16 roughly.
    Senator Levin. So those specific items are listed in that 
FM?
    General Alexander. Yes, sir.
    General Romig. Sir, the point I was going to make is those 
get an exhaustive legal review to ensure that they're 
appropriate and consistent with the conventions, international 
conventions, the field manuals do.
    Senator Levin. That protected persons under the Geneva 
Conventions can be subjected to these, is that what you're 
saying, General?
    General Romig. Again, sir, I have to fall back on the prior 
legal review that was much more exhaustive than my taking a 
look at right now, and saying that if that's the case, yes, I 
would concur with that.
    Senator Levin. General Alexander, can you tell us who the 
lawyer was who said that these items are consistent for 
protected persons, that these are allowed to be applied to 
protected persons under the Geneva Conventions?
    General Alexander. Sir, I don't know the lawyer's name on 
that. I do know that that was done, as General Romig said, at 
CJTF-7. It is consistent with our FMs, so I don't know who, 
which lawyer at CJTF-7, but we can take that for the record.
    [The information referred to follows:]

    The Interrogation Rules of Engagement Chart was prepared by the 
officer-in-charge of interrogation operations at Abu Ghraib prison. It 
was intended as a graphic aid to assist interrogators in determining 
what interrogation approaches they could or could not use without 
higher approval. It was informally review by the 205th Brigade Judge 
Advocate and attorneys assigned to the Office of the Staff Judge 
Advocate, CJTF-7.

    Senator Levin. That would be within the last year or so?
    General Alexander. Yes. That part there where these are 
laid out are also laid out in the guidance from CTJF-7 on their 
interrogation operations.
    Senator Levin. So this would be within the last how many 
months?
    General Alexander. Sir, those came out when the CJTF was 
stood up in July, and we have copies of those and their 
standing orders that came out.
    Senator Levin. Just so I can be real clear again, that FM 
specifically lists these items with the same words?
    General Alexander. No, sir. In fact, I'll give you the 
manual, a copy of the manual to leave here with the committee.
    Senator Levin. That would be very helpful, but my question 
is, does the FM say specifically that you can apply stress for 
up to 45 minutes?
    General Alexander. No, sir, it does not say you can apply 
stress up to 45 minutes. It says on here, and this is where the 
lawyers have to get involved, just as you say, sir, and I 
understand you're a lawyer, so I feel I'm on the short end of 
the stick.
    Senator Levin. No, no, I won't either use that or misuse 
that. I'm not sure it's even a plus.
    General Alexander. What it says here in the manual is that 
you can't use stress positions for a prolonged period of time 
is exactly what it says.
    Senator Levin. So that's been interpreted by a lawyer to 
mean up to 45 minutes?
    General Alexander. Yes, sir.
    Senator Levin. Unless you get something approved in writing 
and then it says sleep management, and what are the words in 
the manual, about 72 hours without sleep?
    General Alexander. It says abnormal sleep deprivation, 
examples of mental torture include abnormal sleep deprivation. 
I understand that at the general counsel's, as they convene to 
look at what sleep deprivation, and again, that would go on, 
but they looked at exactly, okay, so what is sleep deprivation, 
is that 16 hours in a day, and so they went through that and 
those are the periods, and you can see that because those have 
caveats in the FM, those are the ones that General Sanchez 
personally had to get involved with.
    Senator Levin. No, I understand that, that's if it's more 
than 72 hours, but I'm talking about the----
    General Alexander. Sir, it says 72 hours----
    Senator Levin. You're correct. What are the words in the 
manual about sleep management or sleep----
    General Alexander. Abnormal sleep deprivation.
    Senator Levin. So have you seen the legal opinion that 
interprets that to mean you can do sleep management up to 3 
days with the commanding general's approval?
    General Alexander. No, sir, I have not seen the legal 
opinion----
    Senator Levin. That supports that.
    General Alexander. That supports it exactly like that, but 
I do know that both they and a larger one was done for the DOD.
    Senator Levin. All right. If you could get that for us, I'd 
appreciate it. Have you seen that, General Romig?
    General Romig. No, I have not, sir.
    [The information referred to follows:]

    ``Sleep deprivation'' is not an approved interrogation technique in 
U.S. Army Field Manual 34-52. In January 2003, the Secretary of Defense 
directed the DOD General Counsel to establish a working group to review 
various interrogation techniques for use in operations at Guantanamo 
Bay, Cuba. The concept of ``sleep deprivation'' as an interrogation 
technique was addressed in the Working Group. Their analysis, however, 
was limited to possible techniques for use on unlawful combatants in 
Guantanamo. It did not address operations in Iraq. After considering 
the Working Group Report, the Secretary of Defense approved 
interrogation procedures in April 2003 that did not include ``sleep 
deprivation.'' As previously noted, the chart prepared at Abu Ghraib 
prison was informally reviewed by the 205th Brigade Judge Advocate. I 
have been informed that sleep deprivation, or ``sleep management'' as 
it is delineated on the chart, was never requested nor approved for use 
by the Commanding General, CJTF-7.

    Senator Levin. Thank you. Now, on the ROE, this document 
here, it's been declassified, in effect, I guess, since the 
charts have been used already. Apparently CENTCOM did not 
approve the initial draft of these ROE. Do you know anything 
about that?
    General Alexander. No, sir.
    Senator Levin. The ICRC report, page 3.2, called MI 
section, and paragraph 27 under that section says the 
following, that: ``the ICRC visited people at the Abu Ghraib 
correctional facility. They witnessed the practice of keeping 
persons deprived of their liberty, completely naked in totally 
empty concrete cells and in total darkness allegedly for 
several consecutive days. Upon witnessing such cases, the ICRC 
interrupted its visits and requested an explanation from the 
authorities. The military intelligence officer in charge of the 
interrogation explained that this practice was `part of the 
process.' ''
    Did you see this before I just read it to you?
    General Alexander. Yes, sir.
    Senator Levin. Does that trouble you?
    General Alexander. Absolutely, sir.
    Senator Levin. Would that be evidence that the MI officer 
in charge of interrogation had something to do with this 
process?
    General Alexander. Clearly, that's one of the individuals 
we would like to know who that was, specifically what is his 
name or her name so that we can take action. Sir, you point out 
a good question, a good point. As soon as we know that, we 
should begin an investigation.
    Senator Levin. No, you should begin an investigation to 
find that out.
    General Alexander. Yes, sir.
    Senator Levin. That's a lot different. You said as soon as 
you know that you should begin an investigation. I would hope 
you're investigating to find out who these folks are. There's 
all kinds of evidence that MI is involved here. We have the 
statements in General Taguba's report over and over again 
referring to MI people. Sergeant Davis stated he'd heard MI 
insinuate to the guards to abuse them. When he said, what did 
MI say, he said, loosen this guy up, make sure he had a bad 
night. The rest of the wings, according to this witness, are 
regular prisoners and 1A, 1B, are MI holds. Was that your 
understanding that 1A and 1B are MI holds?
    General Alexander. That's my understanding, yes, sir.
    Senator Levin. Does anybody here on this panel know what 
Secretary Rumsfeld meant when he said the Geneva Conventions 
did not apply precisely to Iraq? That's clearly the context 
that he was referring to on that date, back on May 5.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Levin. Do any of you know what he meant? General 
Romig?
    General Romig. No, sir. I did not hear that quote, but I do 
not know what he meant either. I do know that I had a 
discussion with some folks at DOD a day ago, and their view 
was, DOD general counsel, that it did apply.
    Senator Levin. But in your judgment, does the Geneva 
Conventions apply precisely to Iraq?
    General Romig. Yes, sir.
    Senator Levin. General Alexander, do you know what the 
SECDEF possibly is referring to in the month of May of this 
year? He says the Geneva Conventions do not apply precisely. Do 
you have any idea what he could be referring to?
    General Alexander. Sir, I did not hear the context of what 
he said, so, sir, I can't comment on that.
    Senator Levin. Can I ask one more question?
    Chairman Warner [presiding]. Sure.
    Senator Levin. I will ask you, General Burgess, do you know 
what the SECDEF meant?
    General Burgess. No, sir, I do not.
    Senator Levin. Secretary Cambone could not tell us either 
this morning. He said he would try to find that out, but it's 
pretty significant when the SECDEF does not even--or put it 
this way, states with great ambiguity and confusion what the 
rule of law is relative to the treatment of prisoners in Iraq. 
You can understand, it seems to me, how that confusion could 
filter down to the lowest levels.
    Now, there was on order on November 19, 2003, effective 
immediately, commander of the 205th MI brigade assumes 
responsibility for the Baghdad confinement facility and is 
appointed FOB commander. So the commander on November 19 of 
that facility is the commander of the MI brigade. So those MPs 
are taking orders, at least on one chain of command, from the 
head of the MI brigade. Is that correct?
    General Alexander. Yes, sir, for the security, as I 
understand it, for the security of the facility and for the 
initiatives that General Sanchez had to fix it up.
    Senator Levin. But that's their mission, is it not?
    General Alexander. But it was not for the detainee 
operations. As I understood, that stayed with the MPs, but 
that's something that has to be clarified, and we need to get 
you that.
    Senator Levin. You're saying that the what of the----
    General Alexander. The security of the detainees, which is 
inherently an MP mission, stayed with the MPs, as I understand 
it. There's two parts, sir, if I could just add to this. I 
think the timing of the date is also important, and the reason 
I bring up the timing is the 19th, the first ICRC report that 
went to General Karpinski happened on the 6th, so I believe 
that what General Sanchez was doing was to try to fix the force 
protection issues at that FOB.
    Senator Levin. Let me read you the last line. It says, 
``units currently at Abu Ghraib are TACON to the 205th Military 
Intelligence Brigade for security of detainees.'' That's what 
it says. So they're taking orders, those MPs are taking orders 
relative to the security of detainees from the commander of the 
205th Military Intelligence Brigade, are they not?
    General Alexander. On the 19th----
    Senator Levin. And after the 19th.
    General Alexander. After November 19, yes, sir.
    Senator Levin. So that's who they're getting orders from. 
So why is there any doubt in your mind that we ought to go to 
the--up that chain of command to find out how it is that these 
MPs were performing these actions without the knowledge, 
control, of the people in their chain of command, which is the 
MI brigade commander. That's the right person to look to, isn't 
it?
    General Alexander. Yes, sir, if they occurred after the 
19th.
    Senator Levin. Of course.
    General Alexander. If they occurred before, and we have 
indications that at least the ICRC report was given to General 
Karpinski on the 6th, and those took place in October, so 
that's where the difference is.
    Senator Levin. After the 19th----
    General Alexander. Absolutely.
    Senator Levin.--that's where you look.
    General Alexander. Yes, sir.
    Senator Levin. To the MI brigade commander before the 19th 
otherwise. Got you.
    Chairman Warner. You're next, Senator, but let me just 
finish up the colloquy that the Senator and I were having here 
before you arrived. That FRAGO of the 19th was the subject of a 
lot of discussion. It was issued by General Abizaid, is that 
correct?
    General Alexander. No, General Sanchez.
    Chairman Warner. Which he had perfect right to do it. What 
concerns me is were you asked to chop on it, because you're 
looking at the worldwide picture, you're looking at all of the 
combatant commanders. You're looking at SOUTHCOM, which is 
running the Guantanamo operation and if this departed from what 
you're doing in other commands, it seems to me that's 
troublesome.
    General Alexander. Sir, it actually was consistent as a 
matter of fact with what was done during Panama--or excuse me, 
during Haiti.
    Chairman Warner. During Haiti?
    General Alexander. Yes. In Haiti, the battalion commander 
had responsibility over that prison facility and the MPs there.
    Now, you asked the question of why did General Sanchez not 
chop that through me. But, sir, it would not normally come back 
to the Department, because we aren't in that chain per se.
    Chairman Warner. I know people are ducking and running from 
that chain, but you're the chief of intelligence, you're the 
Lieutenant General, you're looking after all your people all 
over the world, you train them. It seems to me the combatant 
commanders should have an affirmative responsibility to keep 
you informed about your sphere of responsibility in the 
Department of the Army. The ICRC Report went into details about 
allegations of your people performing acts inconsistent with 
law and regulation, am I not correct?
    General Alexander. Yes, sir.
    Chairman Warner. That should have been brought immediately 
to your attention in my judgment, whether it's CENTCOM, 
SOUTHCOM, PACOM, or whatever command it is. But it's not the 
case, that is not the procedure?
    General Alexander. That's correct, sir.
    Chairman Warner. Then this committee's going to look into 
that, because we cannot have these--I call them symptoms--out 
here, which I understand we put them together in Goldwater-
Nickles operating in such a manner that headquarters here in 
Washington with individuals of your rank in important positions 
having overall examination throughout the whole of the globe 
not knowing about it. For example, General Fast. This committee 
was asked to expedite her promotion from one star to two stars, 
and literally we agreed to have her jump over ahead of others 
who were in the normal order of promotion to two stars. I met 
her over there on my trip this summer and I was impressed. Now, 
she was the J-2 officer for General Abizaid, is that correct?
    General Alexander. General Sanchez, sir.
    Chairman Warner. I mean General Sanchez, I understand that. 
Does she keep you informed as a part of her responsibility of 
what's going on in that command?
    General Alexander. Sir, clearly we talk a lot, we do.
    Chairman Warner. But is there any formality by which she 
has an obligation to keep you advised?
    General Alexander. No obligation, sir, other than in terms 
of resources, outfitting, and training, we clearly have that 
responsibility, and for policies where they fall short. So for 
fixing the capabilities in Iraq, that is a responsibility that 
we have for all our soldiers, and so in that we looked at what 
were all the problems, and sir, we came up with 127 different 
areas that we needed to fix, some of which fell into that human 
intelligence area. That was briefed back by me to both General 
Fast and General Sanchez and then that is something that we 
here at the headquarters and throughout the Army are working 
quickly to fix those, and we fixed about 123 of them.
    Chairman Warner. But the training fell down in these 
allegations. Your intelligence people were trained according to 
your manual presumably, but it collapsed, and it seems to me 
that should have been reported back to you ASAP that somehow 
all of the indoctrination and training, which presumably these 
MI people had, didn't function.
    General Alexander. You bring out another good point, sir. 
We did the training and doctrine command for the Army, did send 
teams over to Iraq on intelligence support to counterterrorism 
interrogation training, and that went on from early October 
2003 for about a month and a half, along with another set of 
courses we talked about earlier called tactical questioning. So 
those mobile training teams were both established to go 
overseas to hit our divisions and then have hit units here.
    Chairman Warner. So you're saying they were training at the 
very time that these wrongful acts were taking place?
    General Alexander. Throughout Iraq, not necessarily at Abu 
Ghraib, but through the units----
    Chairman Warner. Throughout Iraq.
    General Alexander. Throughout Iraq, yes, sir.
    Chairman Warner. Senator Bill Nelson.
    Senator Bill Nelson. Mr. Chairman, I want you to recognize 
Senator Clinton, because she was before me, but I think you're 
on to something. I want to develop it when it comes my turn. I 
think Senator Levin is on to something and that needs to be 
further developed.
    Chairman Warner. Senator Clinton.
    Senator Clinton. I thank my friend and colleague. I don't 
think that's the right order, but I won't argue about it. Mr. 
Chairman, I first want to thank you for your leadership of this 
committee. The last 2 days have been extremely challenging, and 
in every way you have given tremendous leadership. Of course I 
thank our ranking member who's been by your side the whole 
time. This is not anything any of us would wish on our Army or 
on our Senate or on anyone in any administration, but it comes 
to us to try to deal with this and to understand it as best we 
can, and I thank each of you for the time you've spent with us 
this afternoon.
    Chairman Warner. I thank you, Senator. To the extent that 
Senator Levin and I have given this particular series of 
hearings, leadership has been highly dependent on the total 
cooperation of every single member. We've had 100 percent 
attendance of our committee for 2 days.
    Senator Clinton. Gentlemen, I am still trying to understand 
exactly what some of the testimony we've already heard actually 
means. When General Sanchez on November 19, 2003, issued what 
has been referred to as a FRAGO effectively placing Abu Ghraib 
under TACON of the 205th Military Intelligence Brigade, is that 
the only instance in which General Sanchez placed any other 
military--any other facility under MI command?
    General Alexander. Yes, ma'am, because I think that's the 
only place where there is a MI unit of that capability under 
him, so that's the only place, there is only one. It is the 
205th.
    Senator Clinton. So that intel--when you say MI unit, 
you're talking about the 205th, right?
    General Alexander. MI Brigade, yes, ma'am.
    Senator Clinton. MI Brigade. They were solely assigned to 
Abu Ghraib?
    General Alexander. No, they were not solely assigned. They 
were subordinate to General Sanchez as the theater, the core 
level brigade that they have for the theater of Iraq. Their 
headquarters was about 20 miles south of Abu Ghraib, and he was 
the closest senior tactical leader that General Sanchez had to 
go in and fix what he saw as severe force protection issues at 
Abu Ghraib.
    Ma'am, I would have done the same. I think the force 
protection issues that he had, the fixing of the facility for 
both our soldiers and the detainees were things that he saw 
were languishing.
    Senator Clinton. General Alexander, may I just clarify that 
for my own understanding? When Secretary Cambone testified this 
morning, he said that the 205th Military Intelligence Brigade 
under Colonel Pappas, as I recall, was given control of the 
facility, but not of the MPs. That struck me as a distinction 
without any meaning. Was Colonel Pappas put in charge of the 
facility under General Sanchez's order?
    General Alexander. As I understand it, and this is one that 
I said early on we need to take for the record to get General 
Sanchez's language on here exact, as I understand it in my 
discussions with General Sanchez, is that what Colonel Pappas 
was put in charge of was this facility of Abu Ghraib, which had 
the prison, it had the living area for the soldiers, it had the 
feeding area, it had the perimeter security, it had the MP 
detention area, it had an Iraqi criminal area, and it had a 
JIDC.
    So this whole base, very much like Fort Drum, but smaller, 
this base, the garrison commander, and that's the distinguish 
that I think Dr. Cambone tried to make, the one responsible for 
fixing the garrison of Abu Ghraib was removed from the MP to 
the MI battalion commander. I do not believe that it was 
General Sanchez's intent to take the security detainee of those 
other detainees and say to Colonel Pappas, you also tell the 
MPs how to do detainee operations. I believe that was not--and 
his comments to me said that, but we need to get his statement 
for you on that, because I think he was the commander on the 
ground who made that decision.
    Senator Clinton. That would be very helpful. Also, as I'm 
piecing together the chronology, the order by General Sanchez 
apparently flowed from a set of recommendations from General 
Miller, is that correct?
    General Alexander. No, ma'am, it did not. Although your 
chronology is correct in terms of General Miller was there from 
August 31 to roughly September 9, there were a series of 
incidents of force protection, and I think it's important to 
note that Abu Ghraib was totally almost demolished in many 
areas before the first of August so that the engineers had to 
go in and build it. That part of building it up is some of the 
stuff General Miller got to there, the actual compound for 
detaining these folks was at what was called Old Camp Cropper, 
the Old Camp Cropper area, and then that was moved, those folks 
were moved as they opened this up from the mid-August to mid-
September time period up to Abu Ghraib, which became the 
theater holding and became the JIDC.
    When General Miller went there, the concerns that he had, 
as General Burgess has brought out, was intel fusion, 
synchronization, the flow of information, and how you work 
together as a team to accomplish the mission. Nowhere in my 
military experience have I ever seen it where a MI person goes 
down and tells an MP that we soften the units up and that's 
good behavior. That is totally wrong. We ought to find out if 
anyone did say that, hold them accountable.
    Now, in October, there was a series of ICRC visits 
throughout Iraq and two times they visited Abu Ghraib. It was 
those statements that came out in that document that you've 
seen that was given to General Karpinski in a draft form for 
her to respond on December 24, so that was November 6. So, as 
you look at the sequence of events, there was a series of 
mortar attacks and persons injured that went on through early 
November that I think led General Sanchez to say, I have a 
responsibility to protect my forces, you're not moving out fast 
enough, Pappas, I want, Colonel Pappas, I want you to move your 
unit up there and take charge for that force protection mission 
and for getting these initiatives, the quality of living for 
those soldiers fixed, and ma'am, you're familiar with that 
quality of living because it's the same thing we would say for 
our soldiers at Ft. Drum. If we put them in--they didn't have 
heat up there--being familiar with in New York State--if you 
don't give them heat and they are living in barracks without 
heat and the garrison commander went 2 months without having 
heat, he'd be out of there and you'd put a new one in charge.
    I think that's what General Sanchez did, and I think that 
was clearly--I think it is being read into the events that 
General Miller said these nefarious things that caused this to 
happen. Ma'am, I do not see that, and I do not believe that is 
correct.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator Clinton, for 
those helpful comments. Senator Nelson, you've been patient.
    Senator Bill Nelson. Mr. Chairman, if I could get Senator 
Levin's attention.
    Senator Levin. You have it.
    Senator Bill Nelson. It seems to me that we have a 
revelation here that the two of you as our leaders have 
discovered that there was a military intelligence unit after 
November 19. When you juxtapose that then upon the testimony 
this morning, where there was a difference of opinion between 
General Taguba and Secretary Cambone. General Taguba said he 
was clearly under the impression that MI had direction over the 
MPs there. Secretary Cambone said no, that they didn't.
    So with the information that you've gotten here, I think 
it's starting to clarify, and the question I would have, and I 
wish Secretary Cambone was here, is why does he have a 
different impression? Let me ask you this.
    Chairman Warner. I think it would be proper if you were to 
pose that question to these three witnesses and see what their 
views are.
    Senator Bill Nelson. Go ahead, gentlemen.
    General Alexander?
    General Alexander. Sir, I----
    Chairman Warner. The MPs, what was their chain of command 
up and who had UCMJ authority over them?
    Senator Levin. After November 19.
    Chairman Warner. After the 19th.
    General Alexander. Thank you. I've not studied the FRAGO, 
I've not seen it. I know of it, but that would specify in there 
who has UCMJ authority.
    Chairman Warner. Have we got it here? We're going to send 
it right down to you for a good judicial interpretation.
    General Alexander. All right, sir.
    Senator Levin. You don't have the FRAGO, General?
    Senator Bill Nelson. While we're waiting for that, I'll 
just ask General Alexander, when did you become aware of the 
abuses?
    General Alexander. Sir, I heard of the abuses when the 
initial reports came out in January that there were abuses 
going on. I did not understand at the time that there were MI 
personnel in charge because the way it was characterized was of 
an MP. So when I look at the abuses, I do not get normally the 
abuses of those outside MI.
    As soon as we found out that there were MI involved, that's 
when they came to us and they said we need somebody, a senior 
officer that we could appoint who is senior to these level----
    Senator Bill Nelson. When was that?
    General Alexander. Sir, that was on November 7 when they 
asked me for General Fay.
    Senator Bill Nelson. November 7?
    General Alexander. No, sir, April 7, I'm sorry, sir.
    Senator Bill Nelson. April 7.
    General Alexander. Yes, sir.
    Senator Bill Nelson. When did you see the photographic 
evidence?
    General Alexander. Sir, on television.
    Senator Bill Nelson. All right. When did you read the 
Taguba report?
    General Alexander. Sir, last week.
    Senator Bill Nelson. What was the Army's plan for dealing 
with the strategic and operational consequences of the release 
of this evidence of prisoner abuse?
    General Alexander. Sir, I'm not sure I understand your 
question.
    Senator Bill Nelson. If there was, it has been testified in 
front of this committee last Friday by the SECDEF, that he knew 
of abuses as far back as the middle of January, we've had other 
testimony to that effect. Now, what I want to know is, what was 
the Army's plan, knowing of abuses, that--what was your plan 
for dealing with the consequences of those abuses?
    General Alexander. Sir, there was a series of 
investigations, and when those came out, those series of 
problems--one of the things that the acting Secretary of the 
Army took upon him was, we have to look throughout the Army to 
see how our detainees are being operated, and he gave the--and 
I'll read you exactly, sir, here--he gave, for starting on 
February 11, the Department of the Army Inspector General, the 
mission to conduct a functional analysis of the Army's 
internment, enemy POW detention, interrogation policies, 
practices and procedures based on current DOD and Army policies 
and doctrine.
    Senator Bill Nelson. Okay, I don't understand, I don't 
understand all that language.
    General Alexander. Yes, sir.
    Senator Bill Nelson. The Army had to have a plan once they 
found out about abuses that if those abuses became public, 
there were going to be consequences in Iraq that were going to 
be inimical to our goal in Iraq, which is to stabilize Iraq.
    So my question is, what were, are, the Army's plans for 
dealing with the consequences of abuses such as this being made 
public?
    General Alexander. Sir, the Army has not developed a plan 
as you say on going against--we are looking at all the things 
that we ought to do that as an Army in terms of what measures 
can we take with our allies, what are the things that we have 
to show as we are here today, what other venues should we do, 
what are the actions, is examples that folks like General 
Abizaid and others take in the leadership to show the Iraqi 
people that we are sorry and that we apologize for these, how 
do we police up our own ranks to ensure this will never happen.
    All of that are things that the Army leadership and, I 
think it's important, the CJTF and the CENTCOM leadership are 
concurrently doing, because it's a combined----
    Senator Bill Nelson. Okay, let me just wrap up here and 
then we can go back into this matter that you were talking 
about, Mr. Chairman. So you know of no plan, I call it a plan, 
but brainstorming session, if for that reason, of first finding 
out about these abuses and then saying, what in the world is 
this going to do to us out there in the Muslim world, 
specifically in Iraq, that is going to hinder the ultimate 
objective that we have, which is to stabilize Iraq? You know of 
no discussions or plan?
    General Alexander. No, absolutely, sir, in terms of 
brainstorming. At all levels we are brainstorming, we are 
looking at what are the things that we ought to do, what are--
and I've been asked this, sir, last week by--in another 
committee, what could Congress do.
    Senator Bill Nelson. Did anybody specifically discuss the 
kind of physical and torture violence and perhaps even 
beheading that would occur as a result of these abuses?
    General Alexander. No, sir. Nobody could come out and say, 
we think a civilian is going to be beheaded. I think we all are 
concerned that these events will increase the number of 
incidents, attacks against our soldiers and civilians 
throughout the region. We are clearly concerned about that, and 
that's one of the things that we as an Army, we as a military, 
and we as a Nation need to get out front, because those 
terrorist organizations that oppose us are going to use this as 
a rallying flag to go against that.
    We all understand. We are all working on that, sir. From 
both the Joint Staff side, our side, we've had a working group 
amongst us with the Joint Staff to talk about, what are the 
things that we could or should do. So those are going on, sir.
    Senator Bill Nelson. Mr. Chairman, I would just submit for 
our future discussion, and obviously General Alexander is not 
responsible here. But the question is that were we prepared 
about Muslim sensitivities in trying during an occupation to 
prepare that country for something they've never experienced in 
recent history called democracy, and so that had we been better 
prepared, that we would have immediately jumped on prison 
abuses and found out more about what they were.
    Why don't you pursue the line on the difference on MI and 
MP?
    Chairman Warner. Yes, I will do that, but I think this 
hearing has really raised a lot of very important questions 
which the committee has to work to resolve, and I'm told by my 
staff that I may have inadvertently used the word ducking and 
bobbing, but that did not refer to this panel before us today, 
because I think you have been direct in your responses and 
pointed out, it's almost like a bowling alley. Everybody's been 
in his lane doing his job but somehow we need more cross action 
between these individuals.
    So we come back to this order, FRAGO, and we now have the 
distinguished JAG interpreting. Judge?
    General Romig. Yes, sir. The FRAGO, it would appear that 
since they are under TACON of the 205th, I'm talking about the 
800th people, the MPs, that they have, the 205th has control 
for missions and tasking and things like that, but UCMJ remains 
with the 800th MP brigade.
    Chairman Warner. Remains with that. But now TACON then did 
go to the MI side?
    General Romig. It did.
    Chairman Warner. It did.
    General Romig. That's for control of movements and detailed 
direction of the operation of, it appears the facility.
    Chairman Warner. Then----
    Senator Bill Nelson. Including the interpretation, I mean, 
the interrogation, if I might?
    Chairman Warner. That's my understanding, and that Taguba 
report, he took that position this morning.
    General Romig. Sir, absent anything else, that's what it 
would appear to be.
    Chairman Warner. That's the way it reads to you. General 
Alexander, do you want to take a look at it?
    General Alexander. No, sir, I've looked at it, and that's 
why I said, I know that this is a key issue----
    Chairman Warner. But why don't you take a few moments and 
look at it?
    General Alexander. Sir, I've read it.
    Chairman Warner. Oh, you've read it.
    General Alexander. I have read it. It's my book that I 
passed over to him, and the key issue though is, what did 
General Sanchez convey to the two commanders and what did he 
expect of them, and my understanding from him is what we need 
to clarify to you, and that's one of the things that, as I 
started out, I said we'll take that for the record so that we 
get it to you exactly correct, go through the Joint Staff to 
CENTCOM so that you know that we've done that, because I think 
that is one of the key issues of when he said that, who was 
expected to have responsibility for the MP part of security 
detainee operations?
    It was pointed out, I think by General Taguba, if I'm not 
mistaken, that in fact General Karpinski thought that she still 
had that and it was 2 days after her initial investigation that 
she said, well, this order came out. So there is clearly 
disagreement, so this is one of the issues that has to be 
ironed out, and we owe that back to you accurately from----
    Chairman Warner. What does the plain English say?
    General Alexander. Just as General Romig read it, sir. 
TACON.
    Chairman Warner. The plain English language according to 
your interpretation is that TACON went from the MP commander to 
the MI commander.
    General Alexander. Yes, sir. It says under the first 
paragraph, effective immediately, the 205th Military 
Intelligence brigade commander assumes responsibility for the 
Baghdad central confinement facility and is appointed the FOB 
commander. Units directly at Abu Ghraib are under the TACON for 
security of detainees and FOB protection. Now----
    Chairman Warner. Embraced in there is the responsibility 
for the interrogation procedures?
    General Alexander. I think all of that is what needs to be 
laid out by General Sanchez so that we answer it exactly 
correct. But as I understand it, the 205th Military 
Intelligence Brigade remained responsible for the interrogation 
and the overall security of the facility itself, protecting all 
the persons there, both the detainees and the soldiers. That's 
what I think General Sanchez intended. I know how it reads, and 
we have to clarify that point.
    Chairman Warner. I come back again. So you feel that you 
need to do further research to determine whether or not this 
FRAGO in fact reposed in the MI the responsibility for the 
conduct of the interrogations?
    General Alexander. Sir, they always had----
    Chairman Warner. They always had that?
    General Alexander. They always had the conduct of the 
interrogations. I think the question, the key point, is did the 
MI brigade commander tell the MPs out in the general detention 
facility how to do their job? That was the key point.
    Chairman Warner. Which is a--to use a phrase--a preparatory 
step for the MI to come in, so in a sense----
    General Alexander. That's correct.
    Chairman Warner.--they were telling--I'm not suggesting 
what they did because we don't know, we're waiting for the 
reports. But someone is likely to have told the MPs, here are 
certain steps you can take, and I use the word soften up these 
prisoners, so when we come to the cell block, they're mentally 
and physically in such a condition that our interrogation can 
be more fruitful. Is that about right?
    General Alexander. That's how it's reported, sir, but it is 
my understanding--and that's why the November 19 and when these 
acts took place is such a key time, because if the ICRC report 
is correct, as we believe it is, then it took place in October, 
or at least some of them.
    Chairman Warner. What took place?
    General Alexander. Some of these allegations by the ICRC of 
detainee abuse took place in October.
    Chairman Warner. Correct.
    General Alexander. Before the MI brigade was in charge.
    Chairman Warner. Correct. But they continued after the 
FRAGO is my understanding.
    General Alexander. Sir, that's what has to be clarified, 
because I don't know that we accurately know when they started, 
when they stopped, and what happened. Those dates, I don't have 
the dates of all the pictures. But I understand that they were 
late October, they were from early October, late October, early 
November, but I don't know how far that went on.
    Chairman Warner. To the extent that I have any knowledge, 
it's because of testimony perhaps the day before yesterday that 
this didn't stop until this very courageous enlisted man took 
the disk with photos on it and gave it to his superior, and at 
that point in time, then everybody turned to and realized we 
have a problem and it stopped. Has that scenario been related 
to any of you gentlemen?
    General Alexander. Not in those words, no, sir.
    Chairman Warner. Anything approximating?
    General Alexander. As I understand it, that at least we 
know it was going on through the October-November time period, 
so the detainee abuse cases or events, clearly October, 
November, and now the question is when did they stop. I think 
the key point of this November 19, so they're going on before 
the MI brigade takes command, did they change it and make it 
retroactive? No, they couldn't. So that could not have 
happened. We all agree on that.
    So my concern is that we are trying to say that when we put 
the MI brigade commander in charge, what we did was already 
make the conditions to soften them up. Sir, look at what was 
going on in October and early November. It is clear that they 
had already had these infractions, and I don't know how long 
that went on. But clearly we have to find that out.
    Chairman Warner. I would go back, again we're trying to 
surmise in the October time frame, prior to the November 19 
FRAGO, these actions of abuse were going on, but they were 
going on in the context of interrogations being conducted by MI 
people. Am I not correct in that?
    General Alexander. Those are the statements, and in each 
statement----
    Chairman Warner. There were MI people assigned to do those 
duties at that prison.
    General Alexander. Yes, sir. That's exactly right.
    Chairman Warner. Presumably they were trying to elicit 
intelligence from the prisoners.
    General Alexander. Those are named in General Taguba's 
report. There are three soldiers and two contractors named in 
his report. But as you state, there are indications that there 
are more and there are indications in places that say MI 
officers, and so what General Taguba recommended was that a 
Procedure 15 look into that because he did not have the 
specific data to say it was that person who did it.
    What they got was, they told me to do it, and that's where 
we really need to make sure we get the facts, wherever they may 
lead, sir, and bring them out and hold those who did wrong 
accountable.
    Chairman Warner. Good. Let me read you from the Taguba 
report, it's page 45, that Colonel Thomas Pappas, Commander of 
the 205th Military Intelligence Brigade be given a general 
officer memorandum of reprimand and investigated UP Procedure 
15 AR activities for the following acts, which have been 
previously referred to in the aforementioned findings. So he 
was punished for the following: failure to ensure that soldiers 
under his direct command were properly trained in and followed 
the interrogation ROE. So he failed to ascertain that all of 
his soldiers had the proper training to adhere to the 
interrogation ROE, is that correct?
    General Alexander. That's correct, sir.
    Chairman Warner. That implies to me that MI people were not 
performing their duties, perhaps because they'd never been 
trained. Do you infer that from that language?
    General Alexander. Well, sir----
    Chairman Warner. Or improperly trained.
    General Alexander. I think, and as he listed out, and he 
lists out the four people, he, Colonel Jordan, and two others, 
who acted improperly, and any soldier, it says here, any 
soldier who does not report that is not following the 
interrogation ROE. We know that there were soldiers who were in 
some of those photographs who observed it and didn't report it.
    Chairman Warner. But if they--what this says, as I read it, 
ensure that soldiers in his command were properly trained, he 
didn't ensure that, so that training would have come under your 
jurisdiction, wouldn't it, for those soldiers?
    General Alexander. Sir, all the training for our soldiers 
under the interrogation ROE for the unit there would fall under 
the joint command that he's operating under. The doctrinal 
training that we have falls under the Army, and that's what we 
give them at Fort Huachuca. We also provide a mobile training 
team to bring them up.
    Chairman Warner. Okay. Much work has to be done, and I 
thank you all three of you--I have one or two questions left--
for your cooperation and your direct response today, and I 
assure you that I have the highest respect for each of you and 
what you've tried to do.
    But let me press on into this area. This goes to General 
Burgess. According to the CJTF-7 policies on interrogation ROE, 
there are certain interrogation techniques whose employment 
would require the explicit approval of the commanding general. 
The attachment to the Taguba Report included at least one 
memorandum requesting such approval from the commanding 
general, General Sanchez.
    How frequently were requests made for approval to employ 
interrogation techniques requiring explicit approval?
    General Burgess. Sir, based on the knowledge that I have, 
there were no requests to General Sanchez.
    Chairman Warner. Therefore, the next question you've 
answered, how often were such requests approved by Sanchez? 
There were none.
    Now, accountability. That's a subject that's very much on 
the minds of us here in Congress. I'll ask this to the JAG. 
Court-martial action against certain individuals has been, 
that's past tense, recommended, but only administrative action 
against leaders in the chain of command such as Brigadier 
General Karpinski and Colonel Pappas, Lieutenant Colonel 
Jordan, Lieutenant Colonel Phillabaum, and others. The apparent 
failures of leadership of these individuals as documented in 
the Taguba Report could suggest more stringent responses than 
``a memorandum of reprimand'' essentially letters of 
admonishment.
    In your view, are the disciplinary actions recommended for 
members of the chain of command appropriate for the offenses in 
this situation?
    General Romig. Mr. Chairman, first I would point out that 
it was the commander on the scene who assessed the evidence 
before them in the context of what was going on there and made 
those decisions. It's certainly within the realm of the 
reasonable and that's why in our system you have the ability of 
a commander to choose a couple different options or more.
    I would say that some of these, you mentioned Colonel 
Pappas, that is still pending the Procedure 15, and there may 
be some other things that could come out of this as the cases 
move forward and more investigation is done. So I'm not sure 
it's over as it stands right now.
    Chairman Warner. That's the next question. Do the 
administrative and non-judicial actions taken to date preclude 
reexamination of any of these cases and potential judicial 
action under the UCMJ?
    General Romig. No, sir.
    Chairman Warner. So that avenue is still open?
    General Romig. Yes, sir.
    Chairman Warner. Gentlemen, I think we had a marathon, 
close to 7 hours of hearing, but we thank you very much first 
for your distinguished careers of service, for your continuing 
effort to assist the SECDEF and the Acting Secretary of the 
Army and all others to get to the bottom of it, including the 
United States Senate and the Congress of the United States. So 
thank you very much.
    I will be in consultation with the ranking member, Mr. 
Levin, with regard to future hearings of this committee. It's 
apparent to me that we need to do a good deal more work and 
there are a lot more witnesses to work with. But we're faced 
with the fact that our bill is on the floor beginning Monday, 
and it's at the moment not clear to me that we can next week 
continue with a hearing in view of the heavy commitment of all 
members of this committee to floor action. Then following 
that's a recess period, so we could be 2 weeks away, although 
I'll examine Thursday of this week with the staff and Senator 
Levin and see whether or not the availability of some of the 
witnesses we have in mind can be arranged for that hearing.
    So for the moment, subject to further announcement, we'll 
let you know of our schedule. But thank you again for today. 
The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                         gitmo-izing abu ghraib
    1. Senator McCain. General Alexander, General Burgess, and General 
Romig, it has been reported that General Miller wanted to GITMO-ize the 
confinement operations at Abu Ghraib prison because of your concern in 
that facility that military intelligence was not getting the 
information from detainees like he thought they should be. What did he 
mean by GITMO-izing Abu Ghraib prison?
    General Alexander. I am unaware of any such statement being made by 
Major General Miller.
    General Burgess. I am unaware of any such statement being made by 
Major General Miller. During General Miller's testimony in the Senate 
hearing on Iraq prison abuse on 19 May 2004, Senator Daniel Akaka (D) 
Hawaii asked him: ``Did you tell General Karpinski that you were going 
to GITMO-ize Abu Ghraib? My question is, what did you mean by this 
statement?
    General Miller responded: ``Senator, I did not tell General 
Karpinski I would GITMO-ize Abu Ghraib. I don't believe I've ever used 
that term. Ever.''
    General Romig. I am unaware of any such statement being made by 
Major General Miller.

           general officer approval of interrogation tactics
    2. Senator McCain. General Alexander, General Burgess, and General 
Romig, General Miller announced that certain practices would be 
discontinued, including hooding, stress positioning, and sleep 
deprivation, but that they would be permitted with approval by a 
general officer. Under what authority can a general officer permit 
these techniques?
    General Alexander. Concur with Major General Romig and Major 
General Burgess.
    General Burgess. A general officer can only approve techniques that 
are approved by doctrine and in accordance with applicable 
international law. In addition, the Secretary of Defense may further 
limit authority by requiring that he receive specific notification and/
or provide approval of certain lawful techniques.
    General Romig. If a practice or technique is lawful, a commander 
may restrict the use of that practice or technique in many ways, 
including that a general officer approve its use. To the extent that 
any practice involving detainees violates U.S. or international law, no 
general officer would have authority to permit the practice or 
technique.

           cause of death of former head of iraq's air force
    3. Senator McCain. General Alexander, General Burgess, and General 
Romig, the Denver Post reports an allegation that the former head of 
the Iraqi Air Force died during interrogation when he was rolled up 
inside a sleeping bag so only his feet stuck out, and then sat on and 
rolled back and forth until he died of suffocation. Apparently the 
investigation concluded that this was a death from ``natural causes.'' 
What can you tell me about this?
    General Alexander. I have been informed that the case is presently 
being investigated by the Army's Criminal Investigation Command as a 
suspected homicide.
    General Burgess. Army Criminal Investigation Division (CID) 
initiated an investigation immediately after the death of Major General 
Mowhosh, the former Iraqi Air Defense Minister, on November 26, 2003. A 
preliminary investigation determined that General Mowhosh died during 
interrogation by two U.S. Army interrogators. The CID investigation is 
ongoing and being treated as a suspected homicide.
    General Romig. I have been informed that the case is presently 
being investigated by the Army's CID as a suspected homicide.

                             prison guards
    4. Senator McCain. General Alexander, General Burgess, and General 
Romig, is it now, or has it been, administration policy that prison 
guards should ``facilitate'' detainee interrogations? If so, how were 
they instructed to do this?
    General Alexander. I don't know of any administration policy that 
prison guards should facilitate detainee interrogations. However, it is 
clear that in screening prisoners and understanding the state-of-mind 
of detainees to be interrogated, MI and MP should work together. 
Specifically, FM 34-52 says on page 3-9, ``Interrogators should 
question guards about the sources, time permitting, as part of 
preparation. Since the guards are in constant contact with the sources, 
they may be able to provide information on:

        <bullet> Their physical condition.
        <bullet> Demonstrated attitude and behavior.
        <bullet> Contact made with other guards or sources.
        <bullet> How the source has been handled since capture.
        <bullet> Hearsay (H/S) information from others who have handled 
        the source.
        <bullet> Confirmation of capture data, especially the 
        circumstances under which the sources was captured.''

    General Burgess. I am not aware of any policy that prison guards 
should facilitate detainee interrogations.
    General Romig. I don't know of any administration policy that 
prison guards should facilitate detainee interrogations. I am aware 
that this issue was reviewed by both Major General Miller, Commander of 
JTF-GITMO, and Major General Ryder, Army Provost Marshal General, last 
fall, and more recently by Major General Taguba, CFLCC Deputy 
Commanding General, in his investigation of the 800th Military Police 
Brigade. Neither Army doctrine on detention operations (Army Regulation 
190-8, Enemy Prisoners of War, Retained Personnel, Civilian Internees 
and Other Detainees) nor the Army's Field Manual 34-52, Intelligence 
Interrogation, addresses the issue other than to specifically prohibit 
physical or moral coercion and inhumane treatment to compel 
information. In my opinion, we need to revise our doctrine to better 
define the relationship between interrogators and those responsible for 
operating detention facilities.

                  permissive climate of prisoner abuse
    5. Senator McCain. General Alexander, General Burgess, and General 
Romig, in Secretary Rumsfeld's May 7, 2004 testimony, he testified that 
the Abu Ghraib prison personnel followed the provisions of the Geneva 
Conventions and that the Geneva Conventions were posted for all prison 
personnel to see. General Taguba has stated that neither the camp rules 
nor the provisions of the Geneva Conventions were posted in English or 
in the language of the detainees at any of the detention facilities in 
the 800th Military Police (MP) Brigade's area of responsibility. Would 
this supervisory error not contribute to a permissive climate of 
prisoner abuse?
    General Alexander. Posting of camp rules and the applicable Geneva 
Conventions is required by the conventions and service regulations. 
However, the absence of these postings cannot be directly related to a 
permissive climate of prisoner abuse.
    General Burgess. At this time ongoing investigations will determine 
where and how the camp rules and Geneva Conventions provisions were 
posted in the 800th MP Brigade's area during the time the alleged 
offenses took place.
    General Romig. Posting of camp rules and the applicable Geneva 
Conventions is required by the conventions and service regulations. 
Failure to adhere to this requirement could be one of a number of 
indicators that regulations were not strictly followed. Without more 
facts, however, I cannot conclude that a failure to post the documents 
would necessarily contribute to a permissive climate of prisoner abuse.

            prosecution of civilian operators in abu ghraib
    6. Senator McCain. General Alexander, General Burgess, and General 
Romig, interrogation specialists from private defense contractors were 
operating inside Abu Ghraib and may have taken part in these 
atrocities. Given the Uniform Code of Military Justice (UCMJ) has been 
amended by the Military and Extraterritorial Jurisdiction Act of 1999, 
do you intend to prosecute the contractors who allegedly abused 
prisoners and committed other atrocities under the UCMJ?
    General Alexander. Concur with Major General Romig.
    General Burgess. As standard practice, military commanders order 
investigations when personnel under their command are suspected of 
committing UCMJ offenses, including atrocities of this nature. The 
Department of Justice has the authority to prosecute contractor 
employees of the Department of Defense under the Military 
Extraterritorial Jurisdiction Act (MEJA). Contractors are only subject 
to the UCMJ during a declared state of war. I would respectfully defer 
all legal opinions to General Romig.
    General Romig. The MEJA of 2000 is a separate and distinct Federal 
criminal statute. It does not amend the UCMJ, nor does it enforce the 
punitive articles of the UCMJ. Under MEJA, the decision to prosecute is 
made by the Department of Justice (DOJ). It is my understanding that 
DOJ is currently reviewing the conduct of certain private defense 
contractors in Iraq.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                     chain of command at abu ghraib
    7. Senator Levin. General Alexander, we have heard that Abu Ghraib 
Prison was placed under the command of the 205th Military Intelligence 
Brigade commander on November 19, 2003. According to General Taguba, 
this effectively made an MI Officer, rather than a Military Police (MP) 
Officer, responsible for the MP units conducting detainee operations at 
that facility, which is not doctrinally sound due to the different 
missions and agendas assigned to each of these respective specialties. 
Who made the decision to put the MI commander in charge of the Abu 
Ghraib facility and why?
    General Alexander. According to Lieutenant General Sanchez's 
testimony before Congress, he put the 205th as TACON authority on 
November 19 to enhance the force protection posture of Abu Ghraib, 
i.e., to act as the garrison commander of FOB Abu Ghraib, not to assume 
the responsibilities for detention operations

    8. Senator Levin. General Alexander, does the Department agree with 
General Taguba's conclusion that this decision was ``not doctrinally 
sound''?
    General Alexander. It normally would not be ``doctrinally sound'' 
to place a Military Intelligence (MI) commander in charge of the 
Military Police in order to run a prison as MI personnel are not 
trained in the running of a prison; however, as stated before, 
Lieutenant General Sanchez testified it was never his intent for MI to 
run the prison, but to assume responsibility for the force protection 
of the base.

    9. Senator Levin. General Alexander, General Taguba specifically 
recommended that General Karpinski, brigade commander, be relieved from 
command and issued a General Officer Memorandum of Reprimand. General 
Karpinski was issued a General Officer Memorandum of Admonishment on 
January 17, 2003 but as of early March was still in command of the 
800th Military Police Brigade. On what basis was General Karpinski 
issued a General Officer Memorandum of Admonishment on January 17?
    General Alexander. General Karpinksi was issued a General Officer 
Memorandum of Admonishment on January 17 by Lieutenant General Sanchez 
because incidents that had occurred ``reflect a lack of clear 
standards, proficiency and leadership within the brigade.''

    10. Senator Levin. General Alexander, why was General Karpinski not 
relieved of command at that time?
    General Alexander. As this is a command decision, refer to CJTF-7, 
Lieutenant General Sanchez.

    11. Senator Levin. General Alexander, it has been reported that 
General Miller's review team recommended that military police set the 
conditions for the successful interrogation and exploitation of 
internees/detainees and that the guard force be actively engaged in 
setting the conditions for successful exploitation of the internees. 
General Taguba has stated that these recommendations would appear to be 
in conflict with the recommendations of General Ryder's Team and AR 
190-8 that military police do not participate in military intelligence 
supervised interrogation sessions. Do you agree with General Taguba's 
conclusion that military police should not be asked to ``set the 
conditions'' for interrogations?
    General Alexander. Military Police are part of the interrogation 
mission. Their role is not only to secure the detainees as well as 
escort them to and from interrogation booths but also to provide 
passive intelligence to interrogators. Per Field Manual 34-52, 
``interrogators should question guards about the sources, time 
permitting, as part of preparation. Since the guards are in constant 
contact with the sources, they may be able to provide information on: 
their physical condition; demonstrated attitude and behavior; contact 
made with other guards or sources. . .'' MPs are in a unique position 
to provide information on detainees because of their daily interaction 
with them. Army G2 believes Military Police should not play an active 
role during actual interrogations, meaning except for security 
presence, they should not interact with detainees during interrogations 
nor conduct their own ``interrogations'' of detainees. Military 
doctrine and policy has to be updated to reflect the roles and 
responsibilities of both MPs and MI for future detention operations.

    12. Senator Levin. General Alexander, doesn't the subsequent 
decision to appoint General Miller to take over Abu Ghraib prison 
appear to ratify his recommendation for using military police to 
support interrogations? Doesn't this send the wrong message after the 
abuses at Abu Ghraib?
    General Alexander. See answer to question #11.

    13. Senator Levin. General Alexander, who made the decision to 
appoint General Miller?
    General Alexander. Refer to CJTF-7, Lieutenant General Sanchez, for 
answer.

                  role of the judge advocate generals
    14. Senator Levin. General Romig, the Army Judge Advocate General 
(JAG) Corps has consistently served as one of our strongest lines of 
defense against unlawful or indefensible conduct by members of the 
military. That line of defense appears to have broken down at Abu 
Ghraib prison. To your knowledge, was there a JAG assigned to Abu 
Ghraib prison--with either the military police battalion or the 
military intelligence brigade responsible for the prison? If so, was 
the JAG consulted on the detention and interrogation techniques used by 
military police and military intelligence at the prison?
    General Romig. The 800th Military Police Brigade had a Lieutenant 
Colonel Staff Judge Advocate with an organic legal element that 
provided area coverage to the Abu Ghraib detention facility. The 205th 
Military Intelligence Brigade had two Brigade Judge Advocates, one of 
whom was assigned to the Abu Ghraib detention facility with his brigade 
in late November. A magistrate's cell, typically consisting of three 
Judge Advocates, was placed at Abu Ghraib in late September 2003 in 
order to conduct legal reviews of detention. The 205th Military 
Intelligence Brigade Judge Advocate was consulted on interrogation 
approaches as necessary. Additional legal support was provided by the 
CJTF-7 SJA section.

    15. Senator Levin. General Romig, did the JAG review interrogation 
plans on a case-by-case basis to ensure their compliance with Army 
regulations and the Geneva Conventions?
    General Romig. The Brigade Judge Advocate would review 
interrogation plans and observe interrogations on a periodic basis. He 
did not review all plans or attend all interrogations. The Judge 
Advocate reviewed all requests for exception to CJTF-7s 12 October 2003 
Interrogation Policy. The CJTF-7 Staff Judge Advocate reviewed requests 
for exception that were submitted to the CJTF-7 Commander.

    16. Senator Levin. General Romig, who has responsibility for 
ensuring that the Interrogation Rules of Engagement (IROE) in Iraq, 
provided to this committee at today's hearing, are properly applied and 
adhere to the Geneva Accords?
    General Romig. This is a command responsibility. Under Army 
doctrine as reflected in FM 34-52, Intelligence Interrogation, the 
command's J2, G2, or S2 has primary staff responsibility to ensure 
interrogation activities are performed in accordance with the Geneva 
Conventions and U.S. policies. The manual further states that if there 
is any doubt as to the legality of a proposed form of interrogation, 
the advice of the Command Judge Advocate should be sought before using 
the method in question. The IROE document provided to the committee was 
locally-produced by the officer in charge of interrogations at the Abu 
Ghraib Prison and informally reviewed by the 205th Military 
Intelligence Brigade Judge Advocate along with members of the Office of 
the Staff Judge Advocate, CJTF-7. [I would also like to point out that 
the term ``IROE'' is an improper use of the concept of ROE. In military 
operations, the term ``rules of engagement (ROE)'' refers to 
limitations on the use of force.]

    17. Senator Levin. General Romig, what role does your office play 
in vetting and approving rules for the conduct of interrogations?
    General Romig. We provide legal advice to the Army Chief of Staff 
and the Army Staff on a wide range of matters, including the DOD Law of 
War Program and the DOD Program for Enemy Prisoners of War and Other 
Detainees. This includes reviewing Army interrogation doctrine for 
legal sufficiency. In the case of interrogations at Guantanamo, we 
participated in a review of interrogation procedures as part of a DOD 
Working Group (please see my answer to question 28). In Iraq, my office 
does not have a direct role in vetting and approving rules for the 
conduct of interrogations. The collection of intelligence is tasked to 
components assigned to the Subordinate Joint Force Command (CJTF-7) in 
accordance with collection plans prepared by the Command's J2. The 
chain of command runs from CJTF-7 through the Combatant Command 
(USCENTCOM) to the Joint Staff. Legal officers are assigned to each of 
these headquarters. Although my office is not technically in the chain 
of command, we are a ``reach-back'' source from which judge advocates 
in the field can request advice or opinions regarding any legal issue 
affecting current operations. I am not aware of this happening for this 
particular issue.

    18. Senator Levin. General Romig, did your office review these 
IROEs?
    General Romig. No.

                 accountability of civilian contractors
    19. Senator Levin. General Romig, there is evidence that civilian 
contractors may have been involved in some of the potentially criminal 
actions documented in the Taguba Report. It has been reported that a 
contractor serving as an interrogator at Abu Ghraib allowed and/or 
instructed MPs, who were not trained in interrogation techniques, to 
facilitate interrogations by ``setting conditions'' which were neither 
authorized and in accordance with applicable regulations/policy and he 
clearly knew his instructions equated to physical abuse. If you 
conclude that civilian contractors overseas have committed criminal 
acts, what systems are in place to hold them accountable and is there a 
court with jurisdiction to try them for criminal conduct?
    General Romig. U.S. contractors accompanying a force are not 
subject to the UCMJ except in time of a congressionally declared war. 
However, they are still subject to U.S. Federal jurisdiction under the 
War Crimes Act (which provides for jurisdiction over any U.S. national 
who commits a ``war crime''), 18 USC Sec. Sec. 2340-2340A (implementing 
the Torture Convention), and potentially to the Military 
Extraterritorial Jurisdiction Act.

    20. Senator Levin. General Romig, has anybody in the Department 
reviewed the use of civilian contractors as interrogators to determine 
whether this is an appropriate use of contractors or is an inherently 
governmental function?
    General Romig. I believe the Army is reviewing the issue.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
    process in formulation of detention and interrogation rules of 
                               engagement
    21. Senator Kennedy. General Romig, I provided you with two media 
reports (the UPI article by Arnaud de Borchgrave and the Salon.com 
article by Joe Conason, both dated May 11, 2004). Were you previously 
aware that senior Judge Advocate General (JAG) officers went outside 
the Department to the New York City Bar Association to raise their 
concerns on the formulation of military interrogation and detention 
rules?
    General Romig. No.

    22. Senator Kennedy. General Romig, the JAG officers reportedly 
said that civilian appointees, and particularly Mr. Feith and Mr. 
Haynes, have ignored or bypassed the military lawyers with respect to 
the formulation, drafting, vetting, and implementation of interrogation 
rules of engagement and other legal issues related to the subjects of 
our hearings. Please describe the process for establishing policies on 
interrogation rules of engagement and detention and the role of JAG 
officers in the process.
    General Romig. Army doctrine and policies for intelligence 
interrogation are contained in Field Manual 34-52, Intelligence 
Interrogation. The most current version is dated 28 September 1992. The 
FM implements general principles contained in Field Manual 34-1, 
Intelligence and Electronic Warfare Operations, and several 
standardization agreements (STANAGs) that the U.S. has entered into 
with our NATO allies (i.e., STANAG 2033, Interrogation of Prisoners of 
War; STANAG 2044, Procedures for Dealing with Prisoners of War; and 
STANAG 2084, Handling and Reporting of Captured Enemy Equipment and 
Documents). The principles and techniques of interrogation set out in 
the FM specifically incorporate the constraints established by the UCMJ 
and the 1949 Geneva Conventions. The FM recognizes that intelligence 
interrogation execution will vary depending on unit mission, task 
organization, and collection priorities. The current manual was 
reviewed for legal sufficiency and comment by Judge Advocates assigned 
to U.S. Army Intelligence Center (the agency proponent) and in the 
Office of The Judge Advocate General (OTJAG). All changes recommended 
by OTJAG were incorporated in the final FM. Regarding the role of Judge 
Advocates assigned to commands in the field, please see my answer to 
questions 16 and 17.

    23. Senator Kennedy. General Romig, have the processes changed 
since September 11, 2001? If so, please describe the previous process, 
highlighting the differences between then and now.
    General Romig. Please see my answer to question 28.

    24. Senator Kennedy. General Romig, since the assumption by Mr. 
Feith and Mr. Haynes of their current positions, what has been their 
role in the matters and processes described in the previous question?
    General Romig. Aside from the formulation of a working group noted 
in question 28, I am not aware of any role Mr. Haynes may have played 
in the processes described in the previous question. With regard to Mr. 
Feith, on January 17, 2002, he issued a memorandum, subject: 
Responsibility for detainees in association with the global war on 
terrorism, in which he advised that the Assistant Secretary of Defense 
(Special Operations and Low-Intensity Conflict) would assume 
responsibility for ``overall development, coordination, approval, and 
promulgation of major DOD policies and plans related to persons 
detainees in association with the global war on terrorism. This 
include[d] development, coordination, approval, and promulgation of 
major DOD policies, and new courses of action with DOD components and 
other Federal agencies as necessary.'' This memorandum also advised 
that DOD Directive 2310.1 would be adjusted to reflect this decision. I 
have no knowledge of what other role, if any, Mr. Feith has had in 
these matters.

    25. Senator Kennedy. General Romig, after assuming their positions, 
did either Mr. Feith or Mr. Haynes alter the role of civilian 
appointees in the process? If so, was this done by formal order, by 
oral directions, or some other means? Please provide any documentation 
that would indicate when this change was made and the substance of 
those changes.
    General Romig. Please see my answer to question 24.

    26. Senator Kennedy. General Romig, if the decisions on IROE and 
other legal issues were not made and implemented through the regular 
pre-existing assignments, channels, and command chain, including JAG, 
how were they made and communicated to the action commands and 
officers? Please provide details on the rules and other orders most 
relevant to these hearings and list the others affected.
    General Romig. Please see my answer to question 16. I am not aware 
of any other decisions involving legal matters that were made outside 
regular pre-existing assignments, channels, and command chain.

    27. Senator Kennedy. General Romig, if such decisions were 
communicated by Mr. Feith and/or Mr. Haynes horizontally or upwards to 
other civilian officials, and then downward to military officials, 
please describe those channels in as much detail as you can, providing 
documentation where available.
    General Romig. I have no personal information on how Mr. Feith or 
Mr. Haynes communicates decisions aside from established channels and 
modes, such as information papers, directives, instructions, and policy 
guidance.

                     mr. haynes' ``working group''
    28. Senator Kennedy. General Romig, are you familiar with the 
``working group'' under the direction or other leadership of Mr. 
Haynes, described to us by another witness, in connection with the 
matters under review by the committee? Please describe the membership 
and functions of that working group. If you or any member of your 
office were a member, please provide all documentation with respect to 
that group. If no one in your office was a member, please explain why, 
when, and how that occurred.
    General Romig. In early January 2003, a working group of various 
attorneys and operators was formed within the Department of Defense 
regarding detainee interrogation. The group was generally directed to 
review interrogation procedures at Guantanamo, and make recommendations 
regarding appropriate techniques and approaches. The specific function, 
membership, reports, and comments of the working group are contained in 
classified documents maintained by the Department of Defense. The group 
was headed up by Mary Walker, Air Force General Counsel, who reported 
the findings of the group to Mr. Haynes. Members of my staff served on 
the working group. In March, I submitted a memorandum to Ms. Walker 
expressing a number of reservations and concerns with the final draft 
of the working group report. In addition, we briefed the Army Chief of 
Staff and Deputy Chief of Staff, G-3, of our concerns in preparation 
for Joint Staff meetings on this issue.

                  news articles and the taguba report
    29. Senator Kennedy. General Romig, do you believe that the 
concerns reportedly raised by JAG officers in the above mentioned 
articles may have been a contributing cause of any of the gaps, faults, 
and misbehavior described in the Taguba Report? Please explain in 
detail.
    General Romig. Please see my answer to question 30.

             interrogation safeguards and jag's involvement
    30. Senator Kennedy. General Romig, the civilian officials 
reportedly removed safeguards designed to prevent the abuse of 
prisoners. One of those safeguards was the routine observation from 
behind a two-way mirror by a JAG officer who was empowered to stop any 
misconduct. The instructions originated by these officials also 
reportedly granted private contractors unprecedented participation in 
the interrogation process--precisely because such civilian contractors 
are not covered by the UCMJ and therefore are ``free to do whatever 
they want to do.'' An April 26, 2002, report in the Wall Street Journal 
stated that the JAG Corps ``keeps a lawyer on hand during 
interrogations, for quick decisions on the degree of physical or mental 
pressure allowed.'' Was this military policy? If so, under what 
circumstances? Is this no longer policy? If so, when was this change in 
policy made, who made it, how was it transmitted to the field, and did 
the JAG Corps have any role in making this policy change?
    General Romig. I believe the individuals who reported that 
officials removed safeguards designed to prevent abuse of prisoners, 
specifically that these officials prevented judge advocates from being 
present during all interrogations, are incorrect in their understanding 
of the facts. To the best of my knowledge, judge advocates have never 
routinely observed all intelligence interrogations. During Operations 
Desert Shield/Desert Storm, judge advocates at the division, corps, and 
theater level were available to advise commanders on a wide-range of 
operational law issues, including the application of the law of war and 
the UCMJ as to interrogations and treatment of detainees. Judge 
advocates were neither required to nor precluded from observing 
interrogations. As a practical matter, it would have been physically 
impossible for judge advocates to routinely observe all of the large 
number of interrogations that occurred during those operations. After 
discussing the issue with command legal advisors, it is my 
understanding that the current practices at Guantanamo and in Iraq are 
the same: judge advocates are neither required to nor precluded from 
observing interrogations.

    31. Senator Kennedy. General Romig, have JAG lawyers been present 
during all interrogations conducted by military or intelligence 
personnel in Iraq, Afghanistan, and Guantanamo Bay? If not, do you 
believe that the absence of JAG lawyers may have contributed to any of 
the reported abuses in Iraq, Afghanistan, and Guantanamo Bay?
    General Romig. Please see my answer to question 30.

    32. Senator Kennedy. General Romig, according to the Taguba Report, 
a new policy authorizing the use of ``stress and duress'' practices was 
initiated by the Pentagon in late 2002 or early 2003. Are you aware of 
this change in policy? Who made it and when, how was it transmitted to 
the field, and did the JAG Corps have a role in making this policy 
change?
    General Romig. I am not aware of any change of policy other than 
noted in my answer to question 28.

    33. Senator Kennedy. General Romig, do you believe that this change 
in policy contributed to any of the reported abuses in Iraq or 
Afghanistan?
    General Romig. Please see my answer to question 32.

    34. Senator Kennedy. General Romig, was the JAG Corps involved in 
the decision to give private contractors much broader authority to 
interrogate military detainees?
    General Romig. My office was not involved in the decision to employ 
private contractor interrogators or how much authority private 
contractors should have when interrogating military detainees.

    35. Senator Kennedy. General Romig, who made this decision and when 
and how was it transmitted to the field?
    General Romig. I don't know.

    36. Senator Kennedy. General Romig, in making this policy change, 
did policymakers discuss the lack of accountability under the UCMJ for 
civilian contractors?
    General Romig. I don't know.

    37. Senator Kennedy. General Romig, was there any discussion of the 
limits of jurisdiction for prosecuting military contractors?
    General Romig. There has been considerable discussion within all 
the Services regarding the increasing reliance of contractors on the 
battlefield, the lack of UCMJ jurisdiction except during periods of a 
congressionally declared war, and the other possible forums for 
exercising criminal jurisdiction (the War Crimes Act, 18 USC 
Sec. Sec. 2340-2340A, and potentially the Military Extraterritorial 
Jurisdiction Act). However, I am not aware of discussions focused on 
contractors hired to perform interrogations.

    38. Senator Kennedy. General Romig, do you share the concerns 
reportedly expressed by the JAG articles as summarized in the three 
articles I have referenced?
    General Romig. As set out in my answer to question 30, I believe 
the concerns reportedly raised by Judge Advocates in the articles were 
based upon an incorrect understanding of JAG roles in observing 
interrogations, both during Operation Desert Storm and in our present 
conflicts. To that extent, I do not share their concerns. As to any 
concerns I may have had regarding the formulation of interrogation 
policies at Guantanamo, please see my answer to question 28.

    [Whereupon, at 5:57 p.m., the committee adjourned.]


             ALLEGATIONS OF MISTREATMENT OF IRAQI PRISONERS

                              ----------                              


                        WEDNESDAY, MAY 19, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 8:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Allard, Sessions, Collins, Ensign, Talent, Chambliss, 
Graham, Dole, Cornyn, Levin, Kennedy, Byrd, Lieberman, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Dayton, Bayh, Clinton, 
and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; William C. Greenwalt, professional 
staff member; Gregory T. Kiley, professional staff member; 
Elaine A. McCusker, professional staff member; Lucian L. 
Niemeyer, professional staff member; Paula J. Philbin, 
professional staff member; Lynn F. Rusten, professional staff 
member; Scott W. Stucky, general counsel; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Jeremy L. Hekhuis, professional staff member; and 
William G.P. Monahan, minority counsel.
    Staff assistants present: Michael N. Berger, Andrew W. 
Florell, and Bridget E. Ward.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren M. Dick, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Derek J. 
Maurer, assistant to Senator Collins; D'Arcy Grisler, assistant 
to Senator Ensign; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Aleix Jarvis and Meredith Moseley, assistants to 
Senator Graham; Christine O. Hill, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Sharon L. 
Waxman and Mieke Y. Eoyang, assistants to Senator Kennedy; 
Frederick M. Downey, assistant to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Davelyn Noelani Kalipi and 
Richard Kessler, assistant to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Rashid Hallaway, assistant to Senator Bayh; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets today for the third in a series of hearings regarding the 
mistreatment of Iraqi prisoners by a small--hopefully, a very 
small--number of personnel of the Armed Forces of the United 
States, in violation of U.S. and international laws.
    Testifying before us today are General John P. Abizaid, 
Commander, U.S. Central Command (CENTCOM); Lieutenant General 
Ricardo Sanchez, Commander, Multi-National Force-Iraq; Major 
General Geoffrey Miller, Deputy Commander for Detainee 
Operations, Multi-National Force; and they are joined this 
morning by their Judge Advocate General (JAG), which I think is 
a very wise decision.
    We welcome our witnesses and thank them again for their 
service. Many times members of this committee and other Members 
of Congress have gone abroad and visited each of you in 
CENTCOM, and, most particularly, in Afghanistan and Iraq. We 
must all be mindful of the role of our witnesses in the 
operational chain of command and of their related 
responsibilities in the administration of military justice. 
Each witness this morning will use caution with regard to their 
comments, such as not to inadvertently influence, in any way, 
the ongoing criminal or administrative proceedings and the 
investigations. Many investigations instituted by the 
Department of Defense (DOD) are now ongoing. Indeed, this 
morning we see the opening of the first trials, an opening in a 
manner in which the entire world can see democracy in action.
    As I have previously stated, this mistreatment of prisoners 
represents an appalling and totally unacceptable breach of 
military regulations and conduct. Our committee, a part of the 
United States Congress, a coequal branch of government, has a 
solemn responsibility to determine, as best we can, how this 
breakdown in military leadership and discipline occurred, and, 
most importantly, what steps are being taken, by the civilians 
in control and, indeed, those in the uniform, to see that it 
never, ever happens gain.
    I firmly believe this prisoner mistreatment represents an 
extremely rare chapter in the otherwise proud, magnificent 
history of the United States military. It is counter to every 
human value that we, as Americans, have learned beginning in 
our earliest stage with our families, our schools, and our 
churches. It is counter to what this Nation stands for, and it 
is counter to the principles that the men and women of the 
Armed Forces, today and in years past, have fought to protect 
wherever they are in the world. It is counter to the cause of 
freedom.
    There must be a full accountability for the abuse of Iraqi 
detainees, and important questions must be asked of the chain 
of command to understand what happened, how it happened, when 
it happened, and how those in positions of responsibility 
either ordered, encouraged, authorized, or maybe looked the 
other way at such conduct.
    Our witnesses today are uniquely qualified to answer many 
of these important questions, including:
    What policies and procedures were established for the 
treatment of prisoners and detainee interrogations?
    What was the chain of command at the prison?
    Were military police (MPs) or military intelligence (MI) 
personnel in charge, and at what times?
    When did you--I say that collectively and individually--
realize the magnitude, seriousness, and uniqueness of these 
allegations?
    What measures did you take to inform the civilian 
structure, from the President to the DOD, Department of State, 
and others, that civilian structure that has the ultimate 
responsibility for the control of the United States military, 
which goes back to the very origins of this country?
    What steps were taken to respond to earlier reports of 
mistreatment of prisoners received from the International 
Committee of the Red Cross (ICRC) and possibly other sources?
    Finally, how did the conduct of interrogations and detainee 
operations evolve from May 2003 until January 2004?
    I am confident that you will, to the best of your ability, 
be responsive to these and other questions.
    I am proud of the manner in which the Armed Forces of the 
United States, represented by these extraordinarily 
accomplished officers before us, have promptly reacted to the 
allegations, undertaken the appropriate investigation, and 
begun disciplinary actions under the Uniform Code of Military 
Justice (UCMJ). The trials, in some instances, begin today.
    We are a nation of laws. We confront breaches of our laws 
openly and directly, and we must find the evidence to hold 
those who break the law accountable. We must not forget our 
overall purpose in Iraq and, indeed, in Afghanistan. Success in 
both areas is essential not only to our Nation and the people 
of Iraq, but to the entire world as we fight global terrorism.
    We all have an important stake in learning the truth. We 
must not allow these acts of a few to tarnish the honor of the 
many dedicated men and women in uniform, 99.99 percent of whom 
are valiantly upholding the values they were taught in the 
cause of freedom, and doing so at great personal risk and with 
great sacrifice.
    Lastly, how this hearing originated is spelled out in a 
letter that I wrote to the Secretary of Defense (SECDEF) last 
week on May 13, in which I thanked him for his participation 
and assistance in facilitating the hearings that we had had. I 
indicated that our committee would pursue further hearings and 
involve a list of witnesses, and I named them all, you three 
among them.
    Then I will recite this paragraph: ``To date, in 
scheduling, the committee has tried to meet your requirements, 
and we hope to continue such cooperation in arranging the 
earliest possible date for appearances of these witnesses. 
Given that some witnesses may need to remain in Iraq for 
operational reasons, we are open to exploring the option of 
video teleconferences for some hearings.''
    In the course of the last few days, in working with the 
Department on having, I thought, several civilians come up 
today, somewhat unexpectedly my distinguished colleague, 
Senator Levin, and I were informed that you were in town, 
General Abizaid, and had been for several days, and that the 
other witnesses were coming for consultation to the DOD. 
Therefore, the Secretary made you available here this morning. 
That is, plain and simple, how it happened.
    As to the conduct of this hearing, the buck stops right 
here on this desk, and I am the chairman, and I consult with my 
members, as my distinguished ranking member consults with his, 
and I am very proud in the manner in which this committee has 
pursued its responsibilities under the Constitution. We are 
trying to search for the facts and put together a record so 
that we here in Congress, and, indeed, the American public can 
better understand these problems.
    This story has been unfolding in many ways. First, a very 
brave enlisted man sought to bring to the attention of his 
superiors a problem which, frankly, in his gut he knew was 
wrong. He is to be commended for that. Thereafter, the military 
very quickly took action, and the rest is history. The press 
has been diligent. The victims have actually gone on to tell 
their story. The lawyers are trying to interpret it. Really, 
the distressing thing is watching the families of the soldiers 
who are under the UCMJ now being examined, as well as the 
families of other soldiers. I felt it was imperative that, at 
some point in time--and the Pentagon basically selected when 
that time would be: this morning--you would face the American 
public and then face the world and give your own personal 
accounts of how this situation happened and, most importantly, 
what we are going to do to see that it never happens again. 
That is the executive and legislative branches working 
together.
    We are proud of the democracy here in America. It is an 
open process, and we are going to show the world how we fairly, 
firmly, and calmly deal with this situation.
    Thank you.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    First I want to join you in welcoming our witnesses this 
morning. I want to join you in thanking each one of them for 
their service to our Nation. Most importantly of all, I join 
you, Mr. Chairman, in asking our witnesses to pass along to the 
troops under their command the gratitude of every member of 
this committee and of our Nation for their service.
    The allegations of abuses of Iraqi detainees have shocked 
our country and shocked our justifiably proud Armed Forces and 
their families. The committee's hearing this morning is part of 
our continuing effort to investigate and find out the full 
extent of these abuses and how they could have happened. 
Insisting on accountability will help prevent future abuses, 
and hopefully help restore the credibility of our Nation within 
Iraq, the region, and throughout the world.
    The inquiry is not just about the behavior of a few 
soldiers at a detention facility. We, of course, must do 
whatever we can to ensure that the perpetrators of the abuses 
are held accountable. But those who were responsible for 
encouraging, condoning, or tolerating such behavior, or who 
established or created an atmosphere or climate for such 
abusive behavior, must also be held accountable.
    The February 2004 report of the ICRC presents an overview 
of documented abuses that extend beyond the conduct of 
interrogations at one cell block in one detention facility. The 
report sets forth an extensive list of methods of ill treatment 
used ``in a systematic way'' by MI at Abu Ghraib and a number 
of other facilities. The abuses that are alleged apparently are 
not limited to detention facilities. Many of the alleged 
violations are reported to have occurred at the time of arrest. 
This is particularly disturbing, given the statement in the 
ICRC report that ``certain military intelligence officers'' 
told the ICRC that, in their estimate, between 70 and 90 
percent of the persons deprived of their liberty in Iraq had 
been arrested by mistake.
    In addition, according to their report, the ICRC, in May 
2003, handed over to CENTCOM, in Doha, a memorandum based on 
``over 200 allegations of ill treatment of prisoners of war 
during capture and interrogation.'' I know that General Abizaid 
and General Sanchez will inform us today about when the ICRC 
report and other reports of abuse were brought to their 
attention and what actions were ordered to address those 
concerns.
    In addition to reports that were made in the field, ICRC 
President Kellenberger stated that he briefed administration 
officials, including Coalition Provisional Authority (CPA) 
Administrator Paul Bremer, Secretary Powell, National Security 
Advisor Rice, and Pentagon officials, concerning allegations of 
abuse on a number of occasions, including in early- and mid-
2003 and January 2004. We would be interested in hearing from 
our witnesses about what word, if any, was received from 
Washington or Ambassador Bremer as a result of those 
allegations of abuse being brought to the attention of 
administration officials.
    Finally, I want to commend you, Mr. Chairman, for your 
determination to carry out the oversight responsibility of this 
committee. Committees of jurisdiction have an obligation to 
understand these events, to deter future abuses, and to help 
assure proper accountability. Mr. Chairman, you are leading 
this committee in a responsible way to do just that, and the 
Nation is in your debt for carrying out your duty as you see 
it.
    Chairman Warner. Senator Levin, the committee is acting as 
a whole. All members, and most especially yourself, have been 
responsible for conducting ourselves, I think, in strict 
accordance with the institution of the Senate and in the best 
interest of the Constitution.
    Gentlemen, I ask you to rise. [Witnesses sworn.]
    Chairman Warner. General Abizaid.

STATEMENT OF GEN JOHN P. ABIZAID, USA, COMMANDER, UNITED STATES 
                        CENTRAL COMMAND

    General Abizaid. Thank you, Mr. Chairman.
    Senator Warner, Senator Levin, and members of the 
committee:
    A few days ago I had the honor to talk to the class of 2004 
at West Point, a group of young men and women who have 
dedicated themselves to service to the Nation, and who clearly 
understand that within the first year of their duties they will 
likely find themselves in combat, probably in the CENTCOM 
theater of operations. I could have just as easily been talking 
to young cadets at the Air Force or Naval Academies, or at 
countless other colleges or places where our young people are 
about to be commissioned as officers in our Armed Forces. One 
of the most important messages I had for them is my deep belief 
in the principle that officers of the United States military 
are responsible; that, when in charge, we must be in charge. 
This is as true for the lowest second lieutenant in the chain 
of command as it is for me. Every officer is responsible for 
what his or her unit does or fails to do. I accept that 
responsibility for CENTCOM.
    I come before you as a senior regional commander to address 
the Abu Ghraib prison case, and, at the same time, I hope you 
will allow me to discuss the conduct of the war, not only in 
Iraq, but throughout the region.
    As all of you understand, both General Sanchez and I, as 
members of the chain of command, have yet to examine all the 
facts about the incidents at Abu Ghraib and have made no 
judgement as to the guilt or innocence of any person associated 
with events there, nor have we precluded further action against 
others that additional testimony or evidence may indicate acted 
inappropriately or failed in their duties.
    From evidence already gathered, we believe that systemic 
problems existed at the prison that may have contributed to 
events there. Other investigations are currently underway, and 
we will consider their findings carefully once they become 
available. We will follow the trail of evidence wherever it 
leads. We will continue to correct systemic problems. We will 
hold people accountable. In accordance with the UCMJ, we will 
take appropriate action.
    On my way back to the States, I stopped and talked to many 
of the region's top military and political leaders to discuss 
Abu Ghraib and the situation in Iraq to assess the damage that 
this incident has done to our reputation. They, like us, and 
like the many Iraqis who talked to me before I last left Iraq, 
were shocked, disgusted, and disappointed at the images of 
abuse. Yet all of them expressed confidence that our system 
could and would produce answers and hold people accountable.
    If we endanger our ability to see that justice is served, 
through failure to thoroughly investigate allegations, by 
inadvertently exerting inappropriate command influence, or 
through the inappropriate handling of evidence, we will do 
ourselves, the region, and Iraqis, in particular, a great 
disservice.
    As concerned as the good people of the region are about 
what happened at Abu Ghraib, they are more concerned about our 
willingness to stay the course in Iraq and Afghanistan. They 
are more worried that we will lose our patience with the 
difficult task of stabilizing those places, and we will walk 
away, come home, and bring up the drawbridges and defend 
``Fortress America.'' For some of the nations in the region, 
our departure could be fatal. I reassured our friends that we 
are tough, that we cannot be defeated militarily, and that we 
will stay the course.
    We know that we must move quickly from occupation to 
partnership in Iraq. We know that we must help the Afghan 
Government of President Karzai extend its influence throughout 
its own land. We must find and destroy al Qaeda and its 
ideological partners wherever we find them, and we must help 
the nations of the Middle East help themselves in fighting this 
desperate war against terror and extremism. We have given much 
blood and treasure since September 11, and we will give more.
    Allowing moderation to succeed in a region where talented 
people seek prosperity and hope for their children is as an 
important victory as were our struggles against totalitarian 
regimes in World War II. Our enemies are in a unique position, 
and they are a unique brand of ideological extremists, whose 
vision of the world is best summed up by how the Taliban ran 
Afghanistan. If they can outlast us in Afghanistan and 
undermine the legitimate government there, they will once again 
fill up the seats at the soccer stadiums and force people to 
watch executions. If, in Iraq, the culture of intimidation 
practiced by our enemies is allowed to win, the mass graves 
will fill again.
    Our enemies kill without remorse, they challenge our will 
through the careful manipulation of propaganda and information, 
and they seek safe havens in order to develop weapons of mass 
destruction (WMD) that they will use against us when they are 
ready. Their targets are not Kabul and Baghdad, but places like 
Madrid and London and New York. They are a patient and 
despicable enemy who seek to break our will, to terrorize us in 
such a manner as to cause us to leave the fight, to isolate us 
from our allies, to destroy those who seek a better future, and 
to wreck the patient work required to build reliable 
infrastructure and sophisticated economic structures. Unlike 
us, they will not hold themselves accountable for their 
outrages.
    Our enemies believe they have scored a great victory in 
Madrid. They believe they changed a government and forced a 
valued ally off the battlefield. They see before them elections 
in Iraq, elections in Afghanistan, and, indeed, elections here 
at home and elsewhere. They see us mired in scandal and 
preoccupied with failure.
    We should not kid ourselves about the violent times ahead. 
Yet we should also understand that despite the images of Abu 
Ghraib and burning High Mobility Multipurpose Wheeled Vehicles 
that constantly play on our media screens, we are winning the 
battle against extremism. Our troops are confident. They win 
tactical battle after tactical battle. They work with Iraqis 
and Afghanis to build viable security forces. One day these 
viable security forces will allow us to come home. They know 
that the enemy is elusive and dangerous, and they know that 
they need to fight this war with balanced ferocity and 
compassion.
    As we fight this most unconventional war of this new 
century, we must be patient and courageous. It will require a 
great amount of intelligence work. We must focus all of our 
national power, and recognize that this war requires as much 
political, economic, diplomatic, and national willpower to win 
as it does the courage to fight and to sacrifice with our young 
people in harm's way.
    There are more people in the region who value peace over 
terrorism, who know that moderation brings prosperity and hope 
for their children. They also know that if they cannot stand 
alone, they certainly cannot expect that the United States of 
America will walk away from them.
    Our gift to them has to be to give them a chance to win. 
Our great gift to ourselves will be to show a great and open 
demonstration that the rule of law applies in time of war, that 
despite the great demands of the day-to-day battles, we will 
fix what is broken, and we will let justice be served.
    No doubt, we have made mistakes in Abu Ghraib. We have 
suffered a setback. I accept responsibility for that setback. 
But the failures of a few will not keep the many courageous 
young men and women of ours from accomplishing their dangerous 
and important work to defend the Nation abroad.
    I thank the committee.
    Chairman Warner. Thank you, General, for a very good 
statement.
    General Sanchez.

  STATEMENT OF LTG RICARDO S. SANCHEZ, USA, COMMANDER, MULTI-
                      NATIONAL FORCE--IRAQ

    General Sanchez. Mr. Chairman, members of the committee, 
thank you for the opportunity to appear before the committee 
and talk to you about events in Iraq, and specifically the 
events at Abu Ghraib.
    Before I talk about these events, I am proud to report that 
over 150,000 coalition military personnel are doing great work 
in Iraq under very difficult circumstances. They are fighting 
an insurgency, rebuilding and protecting infrastructure, and 
setting the conditions for the inevitable turnover to an 
interim government on the June 30. Those soldiers, sailors, 
airmen, and marines of America, and the people who support 
them, are stunned, disappointed, and embarrassed by the events 
that transpired at Abu Ghraib prison. However, like me, these 
great service members also understand that we must continue 
with our mission.
    Regarding the events at Abu Ghraib, we must fully 
investigate and fix responsibility as well as accountability. I 
am fully committed to thorough and impartial investigations 
that examine the role, commissions, and omissions of the entire 
chain of command, and that includes me. As a senior commander 
in Iraq, I accept responsibility for what happened at Abu 
Ghraib, and I accept, as a solemn obligation, the 
responsibility to ensure that it does not happen again.
    We have already initiated courts-martial in seven cases, 
and there may very well be more prosecutions. The Army Criminal 
Investigative Division's (CID) investigation is not final, and 
the investigation of MI procedures by Major General Fay is also 
ongoing. We may find that the evidence produced in these 
investigations not only leads to more courts-martials, but 
cause us to revisit actions previously taken to determine 
whether to initiate judicial or non-judicial action in cases 
which may have been handled to date by adverse administrative 
action.
    In this regard, I must be very circumspect in what I say. 
We must let our military justice process work. It is a process 
in which the American people can and should have confidence, 
and one in which I take great pride.
    I cannot say anything that might compromise the fairness or 
integrity of the process, or in any way suggest the result in a 
particular case. I have taken an oath to support and defend the 
Constitution of the United States, and that includes ensuring 
that all persons receive a fair trial and, if found guilty, 
appropriate punishment.
    This respect for the rule of law has been a guiding 
principle for my command. There is no doubt that the laws of 
war, including the Geneva Conventions, apply to our operations 
in Iraq. This includes interrogations. I have reinforced this 
point by way of orders and command policies. In September and 
October 2003, and in May 2004, I issued interrogation policies 
that reiterated the application of the Geneva Conventions and 
required that all interrogations be conducted in a lawful and 
humane manner with command oversight.
    In October 2003, I issued a memorandum for all coalition 
forces personnel that was titled ``Proper Treatment of Iraqi 
People During Combat Operations.'' I reissued this memorandum 
on January 16 after learning about the events that had taken 
place at Abu Ghraib.
    On March 4, 2004, I issued my Policy Memorandum Number 18, 
titled ``Proper Conduct During Combat Operations.'' This 
document, which I also reissued in April, emphasized the need 
to treat all Iraqis with dignity and respect. This policy 
memorandum also contained a summary for distribution, down to 
the individual soldier level, that provided clear guidance and 
mandated training on the following points: Follow the law of 
war and the rules of engagement (ROE); treat all persons with 
humanity, dignity, and respect; use judgement and discretion in 
detaining civilians; respect private property; and treat 
journalists with dignity and respect.
    With regards to Abu Ghraib, as soon as I learned of the 
reported abuses, I ensured that a criminal investigation had 
been initiated, and requested my superior appoint an 
investigating officer to conduct a separate administrative 
investigation under Army Regulation 15-6 into this matter. 
Within days of receiving the initial report, I directed 
suspension of key members of the chain of command of the unit 
responsible for detainee security at Abu Ghraib.
    The criminal investigation, while still underway, resulted, 
thus far, in the decision to initiate court-martial proceedings 
against seven individuals. The administrative investigation 
that was conducted by Major General Taguba has caused me to 
change the way we conduct detention, internment, and 
interrogation operations.
    One significant change has been the addition to my staff of 
a general officer with responsibility for detention operations. 
Major General Geoffrey Miller was assigned this task, and has 
taken numerous positive steps to eliminate the possibility that 
such abuse could occur in the future.
    Well before I received the January 14 report and viewed the 
shocking photographs later on, I had directed steps be taken to 
improve the overall condition of detainees at Abu Ghraib. Back 
in August 2003, I requested that subject-matter experts conduct 
a comprehensive assessment of all detention operations in Iraq. 
This was the genesis for the report completed by Major General 
Ryder, the Provost Marshal General of the Army.
    In September, a team headed by General Miller assessed our 
intelligence interrogation activities and humane detention 
operations. We reviewed the recommendations with the express 
understanding, reinforced in conversations between General 
Miller and me, that they might have to be modified for use in 
Iraq, where the Geneva Conventions were fully applicable.
    Plans for the new detainee camp at Abu Ghraib, which will 
now be called Camp Redemption, were begun in November of 2003 
in order to relieve overcrowding at the facility. After a 
series of mortar attacks against the facility in September 
which killed and injured both Iraqi detainees and U.S. 
soldiers, I directed increased force-protection measures be 
taken in order to protect coalition forces and detainees. Plans 
to upgrade the facilities for soldiers and detainees were also 
implemented.
    Finally, the rate at which detainee case files were 
reviewed and recommended for release or continued internment 
was increased, both in November 2003 and again in February 
2004, in order to ensure that only those detainees who posed a 
threat to security were detained. Indeed, our February 2004 
changes resulted in the review of over 100 cases per day. The 
terrible events that occurred in the fall of 2003 have 
obviously highlighted additional problems that we have moved 
quickly to address.
    While horrified at the abusive behavior that took place at 
Abu Ghraib, I believe that I have taken the proper steps to 
ensure that such behavior is not repeated. I further believe 
that my actions have sent the correct message that such 
behavior is inconsistent with our values, our standards, and 
our training. I have faith in our military justice system to 
resolve the cases brought before it.
    I would like to read the concluding paragraph from my 
memorandum to the command on proper conduct during combat 
operations. I believe it is an accurate summary of my standards 
and expectations. ``Respect for others, humane treatment of all 
persons, and adherence to the law of war and rules of 
engagement is a matter of discipline and values. It is what 
separates us from our enemies. I expect all leaders to 
reinforce this message.''
    In closing, the war in Iraq continues against a relentless 
enemy that is focused on preventing the Iraqi people from 
achieving their dream of freedom, prosperity, and security. 
This awful episode at Abu Ghraib must not allow us to get 
distracted. America's Armed Forces are performing 
magnificently, sacrificing every single day to defeat an enemy 
that is ruthless and elusive in its quest to terrorize Iraq and 
the world. The honor and value systems of our Armed Forces are 
solid and the bedrock of what makes us the best in the world. 
There has been no catastrophic failure, and America's Armed 
Forces will never compromise their honor. America must not 
falter in this endeavor to defeat those who seek to destroy our 
democratic value systems. In Iraq, the coalition military, 
including our 130,000 Americans, remain focused, and I 
guarantee you they will not fail.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, General. That is a very 
comprehensive statement, and I would ask, on behalf of the 
committee, that the documents that you referred to in your 
testimony--could copies be provided to the committee?
    General Sanchez. We will comply, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Warner. Thank you very much.
    General Miller.

 STATEMENT OF MG GEOFFREY D. MILLER, USA, DEPUTY COMMANDER FOR 
        DETAINEE OPERATIONS, MULTI-NATIONAL FORCE--IRAQ

    General Miller. Mr. Chairman, members of the committee, 
thank you for affording me this opportunity to appear this 
morning. While I have no opening statement, I do stand with the 
statements of General Abizaid and General Sanchez.
    Thank you.
    Chairman Warner. Thank you very much.
    Colonel Warren, do you wish to add anything?

 STATEMENT OF COL MARC L. WARREN, STAFF JUDGE ADVOCATE, CJTF-7

    Colonel Warren. Mr. Chairman, I have no opening statement, 
but I would be happy to respond to any questions.
    Chairman Warner. Thank you very much.
    We will have a 6-minute round and I advise the committee 
that, in consultation with General Abizaid and the ranking 
member, there will be a brief closed session following the open 
session, such that we can receive some classified material.
    General Abizaid, what policies has CENTCOM established for 
the conduct of interrogations in detainee operations? When were 
these policies established? What allegations of abuse are you 
aware of that could have also occurred in Afghanistan? Are the 
policies being uniformly applied and enforced throughout your 
area of responsibility (AOR)?
    General Abizaid. Thank you, Mr. Chairman.
    As I believe the Army has come over and discussed with the 
committee, the total number of detainee abuse cases that have 
been investigated since, I believe, the beginning of the 
conflict in Afghanistan is around 75. Of course, there are some 
death investigations, as well. We have homicide investigations 
that go back as far as December 2002 in Afghanistan that we 
absolutely have to move on and understand what happened there. 
We are working with the Army CID to understand that. But I 
believe the committee has the statistics on abuse.
    Abuse has happened. Abuse has happened in Afghanistan, it 
has happened in Iraq, it has happened at various places. The 
question is, is there a systemic abuse problem with regard to 
interrogation that exists in the CENTCOM AOR?
    Yesterday--and I know the committee has not had a chance to 
review it yet--I did see the preliminary findings of a 
Department of the Army Inspector General (IG) investigation 
that talked about problems in training, problems in 
organization, very specific changes that will need to be made 
in doctrine, et cetera. I specifically asked the IG of the Army 
if he believed that there was a pattern of abuse of prisoners 
in the CENTCOM AOR. He looked at both Afghanistan and Iraq, and 
he said no. I sent my IG out in August of last year, asking him 
the same question, Are we treating people with dignity and 
respect?
    Chairman Warner. What findings did he report back when you 
sent him out in August?
    General Abizaid. He came back and said that we were 
struggling with the number of prisoners, we were struggling 
with the facilities, and we were struggling to, in particular, 
deal with criminal detainees that needed to go into an Iraqi 
criminal detention system that still did not exist.
    Chairman Warner. But he did not discover any of the 
evidence that is now being revealed about these abuses?
    General Abizaid. No, sir, he did not.
    Chairman Warner. All right. That is a direct answer.
    Can you provide the committee, without violating UCMJ 
procedures, your own personal observations as to what you 
believe happened from the breakdown of the orders to General 
Sanchez, as clearly documented here this morning, and where it 
happened?
    General Abizaid. Sir, I think you know that Major General 
Fay is still conducting----
    Chairman Warner. Yes.
    General Abizaid.--an investigation, and so I am not quite 
ready to say where I think all the breakdowns were. But it is 
clear that there were some breakdowns in procedures, in access, 
in standards of interrogation, in confusion between the roles 
of what the MI people were doing, versus the MPs. There was 
also, clearly, criminal misconduct that took place.
    Chairman Warner. All right.
    General Abizaid. The criminal misconduct is not the subject 
of any order or policy that I believe exists anywhere.
    Chairman Warner. There has been, of course, concern that 
the initial steps by the chain of command were directed at a 
group of enlisted people who are now subject to various forms 
of UCMJ accountability. Can you assure this committee that you 
will diligently pursue all evidence and--no matter how high up 
the chain, or sideways or down the chain--all persons will be 
brought forward, subject to the UCMJ?
    General Abizaid. Sir, I assure the committee that we will 
do that.
    Chairman Warner. Fine.
    General Abizaid. I can also assure the committee that I 
have been in this business a long time, and when General 
Sanchez called me up and told me, I think, probably within 24 
hours of the evidence being handed to his CID people in 
Baghdad, he followed it up very shortly with a decision to 
suspend the entire chain of command, which is a pretty strong 
action that does not just focus at a low level. He initiated 
investigations and he moved ahead in a way that I thought was 
commendable.
    Chairman Warner. Do you feel that the UCMJ procedures and 
other regulations impeded, in any way, your responsibility to 
keep the civilian control structure back in Washington advised?
    General Abizaid. No, sir, it did not impede us. As always, 
we believe that we have to do everything possible to protect 
the evidence that is available to keep the investigatory 
information within investigatory channels, and that is what we 
tried to do.
    Chairman Warner. You tried to do that in a timely fashion.
    General Abizaid. That is what we tried to do, yes, sir.
    Chairman Warner. General Sanchez, on November 19 you 
directed that the commander of the 205th MI Brigade assume 
command of all units and operations in the Abu Ghraib prison. 
Why did you put MI in charge of the prison? In your view, did 
this new command arrangement improve intelligence and detainee 
operations? What objections did General Karpinski, commander, 
have concerning the change in command responsibilities?
    General Sanchez. Mr. Chairman, on November 19, I issued a 
Fragmentary Order that placed all elements at Abu Ghraib under 
the tactical control of Colonel Pappas, the 205th MI commander. 
The specific order stated that this was for forward-operating 
base (FOB) protection and for security of detainees. The 
context of the order was that we had been receiving significant 
amounts of direct and indirect fire, and, during the conduct of 
one my visits, I had found that force protection and the 
defensive planning of that FOB was seriously lacking, and I 
needed to get a senior commander in charge of the defense of 
that FOB, and that was the purpose of the order.
    The order did not intend to eliminate any of the 
responsibilities of the 800th MP Commander, and that was a 
specific purpose for the tactical control (TACON). TACON placed 
the 320th under the 205th MI Brigade Commander, and what that 
does--specifically, it gives the MI brigade commander authority 
to conduct local direction and control of movements or 
maneuvers to accomplish the mission at hand. All of the other 
responsibilities for continuing to run the prison, for 
logistics, training, discipline, and the conduct of police--or, 
correction--of prison operations remained with the 800th MP 
Brigade Commander. There was never a time where General 
Karpinski surfaced to me any objections to that TACON order.
    Chairman Warner. Thank you.
    General Abizaid, you have, quite properly, advised this 
committee this morning that you are fighting a war. This 
responsibility, occasioned by these abuses, has taken a measure 
of your time, but you have continued, and your troops have 
performed bravely.
    Here is the question I put to you, eliciting your 
professional and personal view: Is the scheduled change of 
limited sovereignty on July 1 consistent and achievable, in 
your judgement, given the security situation?
    General Abizaid. Mr. Chairman, it is achievable, but it 
needs to emerge soon as to who is going to be in charge, what 
their names are, where they are going to be, and what they are 
going to do.
    Chairman Warner. That is on the Iraqi side.
    General Abizaid. That is correct.
    Chairman Warner. It is clear on our side that we have a 
United States Ambassador in place to provide the security?
    General Abizaid. Sir, we are going to be there, no matter 
what.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you.
    General Sanchez, your answer to Senator Warner about who 
was responsible for the MP units conducting detainee operations 
at that facility leaves me uncertain now, because General 
Taguba says that your order of November 19 effectively made the 
MI officer, rather than the MP officer, responsible for the MP 
units conducting detainee operations. That is a quote. Do you 
disagree with General Taguba, then, on that point?
    General Sanchez. Senator, the purpose of the order was as 
described. It was to ensure that I had synchronized FOB 
defenses, and that was the purpose for the TACON order that was 
issued to the MP unit at that installation.
    Senator Levin. In addition to its purpose, though, General 
Taguba said that the MI officer then became responsible for the 
MP units conducting the operations. Do you differ with that?
    General Sanchez. They were responsive to the MI officer for 
the specific purpose of defending the FOB, Senator.
    Senator Levin. That did not, then, include conducting 
detainee interrogations.
    General Sanchez. That is exactly right, sir. It did not 
include that.
    Senator Levin. There is a difference there between you and 
General Taguba.
    General Sanchez. Yes, sir.
    Senator Levin. General Abizaid, in May 2003, the ICRC sent 
to the coalition forces a memorandum based on over 200 
allegations of ill treatment of prisoners during capture and 
interrogation at collecting points, battle-group stations, and 
temporary holding areas, according to the ICRC report, which I 
am now reading. It said here that CENTCOM in Doha received this 
memorandum. I am wondering if, in fact, you remember receiving 
that memorandum and what action you took on it.
    General Abizaid. There are some ICRC reports, Senator, that 
we received. Which one are you talking about?
    Senator Levin. May 2003.
    General Abizaid. I know that the May 2003 report was 
received at our headquarters, that is correct.
    Senator Levin. What action do you remember taking?
    General Abizaid. I was the deputy commander at the time. I 
know that we discussed the report, we sent it forward to the 
Coalition Forces Land Component Commander, General McKiernan, 
and we asked for his take on it.
    Senator Levin. Did you receive a report from him, do you 
remember?
    General Abizaid. I do not believe we received a report in 
writing. I do not recall having a lot to do with this 
particular report, or paying much attention to it.
    Senator Levin. Perhaps you could check your records and 
supply to the committee any documents relative to that.
    General Abizaid. I will, sir.
    [The information referred to follows:]

    CENTCOM was unable to locate the requested document. A memo is 
attached explaining.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Levin. In early July, according to the ICRC, they 
sent to the coalition forces a working paper detailing 
approximately 50 allegations of ill treatment in the MI section 
of Camp Cropper. This, according to their report, set forth 
requiring or using stress positions for 3 or 4 hours, physical 
hits, prolonged exposure to sun, and a number of other 
allegations. Can you tell us whether the early July ICRC report 
was received at headquarters?
    General Abizaid. No, and we have a real problem with ICRC 
reports and the way that they are handled and the way that they 
move up and down the chain of command. For example, the 
February report of 2004, I first read in May.
    Senator Levin. But relative to the early July report----
    General Abizaid. I will not make any excuses for it, 
Senator. I will just say that we do not all see them. Sometimes 
it works at a lower level. Sometimes commanders at the lowest 
level get the report, and they work on it confidentially. I 
think what we have to do is have a system, when there is 
something that comes to the attention at any level of command, 
that is not being worked through at the lower level, but that 
it surface all the way up through the chain of command. So we 
have a problem there that has to be fixed.
    Senator Levin. Thank you.
    General Sanchez, is there a record of the ICRC working 
paper being received by you or at your level?
    General Sanchez. Is this the July paper?
    Senator Levin. The July working paper detailing 50 
allegations of ill treatment.
    General Sanchez. Not that I am aware of, Senator.
    Senator Levin. So there is no indication at your level, at 
your headquarters, that that document was ever received?
    General Sanchez. No, Senator. The working paper that I am 
aware of that made it to my headquarters was the November 
paper.
    Senator Levin. The Interrogation Rules of Engagement is a 
document which was presented to this committee by General 
Alexander, saying that the ROE that were in effect at the 
Combined Joint Task Force 7 (CTJF-7) in Iraq prior to 2003 are 
set forth on a piece of paper, which--are you familiar with 
it?--called ``Interrogation Rules of Engagement''?
    General Sanchez. Yes, sir, I have seen that.
    Senator Levin. Did you approve this? Did you have legal 
advice? What is this document that General Alexander told us 
were the ROE that were in effect at the CJTF?
    General Sanchez. Sir, the first time I saw that paper was 
when it was shown in one of the prior hearings in this same 
forum.
    Senator Levin. So that he would----
    General Sanchez. I had no role in preparing it or approving 
it.
    Senator Levin. All right. So he was in error, then, 
relative to that? General Alexander, then, would have been in 
error if he said this was the document----
    General Sanchez. Right, sir. I have never seen that, I had 
never approved it, and I had no part in putting that together, 
sir.
    Senator Levin. I do not believe this committee has your 
October 12 policy statement. If I am wrong, then fine. But 
would you provide that October 12 statement to the committee?
    General Sanchez. Yes, sir.
    [The information referred to follows:]

    The requested document was provided to the committee as an 
attachment to the question for the record (QFR) 76 for Lieutenant 
General Sanchez.

    Senator Levin. Finally, the newspaper reported that a 
hundred or so high-value detainees do not fall under your 
command, General Sanchez, but are the responsibility of General 
Dayton, who is commander of the Iraq Survey Group and reports 
directly to General Abizaid. Is that accurate, as far as you 
know?
    General Sanchez. Yes, sir, that is accurate.
    Senator Levin. Do you know why?
    General Sanchez. My MPs provide security at that----
    Senator Levin. Can you just tell us, then, why that was 
done that way, General Abizaid?
    General Abizaid. Sir, that was done that way because the 
people at Camp Cropper happened to be those people who had 
theoretical information concerning WMD information, and also 
were the high-value detainees who we hope someday to turn over 
to a legitimate Iraqi government for trial.
    Senator Levin. But why should they be treated differently 
from other detainees, separated out that way?
    General Abizaid. They were separated out that way to ensure 
that we understood, I guess I would call it, the strategic 
environment, as opposed to the tactical environment, where we 
would get information from lower-level detainees. It was 
established that way as a result of discussions that had taken 
place here in Washington regarding having a better and more 
efficient way to really understand what was going on with 
regard to WMD.
    Senator Levin. That was all, then, WMD-information related, 
basically?
    General Abizaid. It was, sir, but it was also dealing with 
very senior levels of the former Iraqi Government.
    Senator Levin. Thank you.
    Chairman Warner. Thank you very much, Senator.
    I have just been told that the DOD has informed the 
committee that another disk of pictures has been located, and I 
will soon advise the committee on the conditions under which 
that can be viewed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses, particularly Generals 
Miller, Abizaid, and Sanchez, for their outstanding service to 
our Nation under the most difficult circumstances. I was 
pleased to hear that you were here on other business and did 
not have to be called back from the theater of operations. I 
thank you for all the time and effort you have devoted to 
trying to resolve this terrible issue. We are very grateful for 
that and for your appearance here today.
    General Sanchez, according to a November 19, 2003, message, 
as you responded to questions from Senator Warner and Senator 
Levin, you transferred full responsibility to Colonel Pappas to 
assume full responsibility for Abu Ghraib and appointed the 
National Guard units to be under the tactical control of 205th 
MI Brigade Commander for security of detainees and FOB 
protection. I quote from your message. I think that is 
accurate.
    In his statement to General Taguba, Colonel Pappas said, 
``Policies and procedures established by the joint detention 
and detention center at Abu Ghraib relative to detainee 
operations were enacted as a specific result of a visit by 
Major General Geoffrey Miller, Commander Joint Task Force 
Gitmo.'' He went on to say, ``The key findings of his visit 
were that the interrogators and analysts developed a set of 
rules and limitations to guide interrogation and provide 
dedicated MPs to support interrogation operations.'' I repeat, 
``and provide dedicated MPs to support interrogation 
operations.''
    Now, General Sanchez, General Miller's report, as I 
understand it, had observations and recommendations. One of 
those recommendations was, ``It is essential that the guard 
force be actively engaged in setting the conditions for 
successful exploitation of the internees.''
    Am I accurate so far, General Sanchez?
    General Sanchez. Yes, Senator.
    Senator McCain. General Miller.
    General Miller. Yes, sir, you are.
    Senator McCain. Well, General Miller, do you believe that 
your instructions may have been misinterpreted?
    General Miller. Senator, I do not. On our visit to the JTF 
to be able to give an assessment of the intelligence function--
it is three major areas: intelligence fusion, the interrogation 
process, and humane detention--the team of 19 experts laid out 
those standards that would allow for humane detention, 
interrogation in accordance with the Geneva Conventions, and 
then recommended procedures by which intelligence could be 
fused more rapidly to provide actionable intelligence for units 
and for the JTF itself.
    Senator McCain. Well, thank you. But it seems to me that 
this order that I just quoted turned over certain MP duties to 
the control of Colonel Pappas and then certain things happened. 
According to General Taguba's report, soldiers were questioned 
who were involved in this.
    Soldier number one, question: ``Have you ever been directed 
by the MI, military intelligence, personnel or any government 
agency to soften up a prisoner prior to interrogation?''
    Answer: ``Yes. Sometimes they would ask me to show a 
prisoner, `special attention.' ''
    Soldier number two: ``Have you ever been told by MI 
personnel to work over a prisoner?''
    ``Yes. MI told us to rough them up to get answers from the 
prisoners.''
    ``Why didn't you report the abuse?''
    ``Because I assumed that if we were doing anything wrong or 
out of the ordinary or outside the guidelines, someone would 
have said something. Also, the wing belonged to military 
intelligence, and it appeared military intelligence personnel 
approved of the abuse.''
    Soldier number three, question: ``What can you tell us 
about the abuse of prisoners at Abu Ghraib?''
    ``Yeah, the MI staffs, to my understanding, have given 
compliments to us on the way we were handling the MI holds. 
Example being statements like: `Good job. They're breaking down 
real fast;' '' `` `They answer every question now. Keep it up;' 
'' and `` `They're giving out good information.' ''
    Soldier number four: ``Have you heard MI insinuate the 
guards to abuse inmates of any type of manner?''
    ``Yes.''
    ``What was said?''
    Answer: ``They said, `Loosen this guy up for us. Make sure 
he has a bad night. Make sure he gets the treatment.' ''
    Do you see my point, Major General Miller? According to 
General Taguba's report, there were at least a number of 
guards, MPs, who were under the impression, or stated that they 
were under the impression, that they were under specific 
directions of MI personnel to, ``rough up, soften up, given `em 
a bad night,'' et cetera. How do we respond to that, General 
Miller?
    General Miller. Senator, in the recommendations that we 
made----
    Senator McCain. This goes back to my first question. Does 
this lead you to believe that your orders were misinterpreted?
    General Miller. No, sir. The leadership that received the 
recommendations throughout the JTF had a clear understanding of 
the recommendations that we made in those three areas of 
intelligence fusion, interrogation, and humane detention that 
laid out those requirements, that laid the base that they must 
be in concert with the Geneva Conventions, and gave 
recommendations from our experience about how those three 
functions could be done successfully.
    Senator McCain. There must have been a breakdown somewhere.
    General Miller. Sir, in my estimation, it was a breakdown 
in leadership on how follow-on actions may have occurred, but I 
was not present at that time, so it would be difficult for me 
to give a----
    Senator McCain. General Sanchez, my time is expired.
    Chairman Warner. Yes, go ahead.
    Senator McCain. General Sanchez, please?
    General Sanchez. Senator, I wanted to make one 
clarification, that General Miller did not issue any orders, 
and he has not issued any orders, until he arrived as the 
deputy commanding general for detainee operations. Those orders 
were my orders, sir.
    Senator McCain. I guess my question was better directed to 
you. Were those orders misinterpreted?
    General Sanchez. Sir, I do not believe those orders were 
misinterpreted. The procedures that General Miller and I had 
discussed, that he recommended, were very detailed, and it very 
clearly stated that MPs were involved in passive enabling of 
those operations and had no involvement in the conduct of 
interrogations. Those were the orders in the standard operating 
procedures (SOPs) that remained after General Miller's visit.
    Senator McCain. I thank the witnesses. My time has expired.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Kennedy.
    Senator Kennedy. Thank you very much. General, I echo the 
sense that all of us greatly respect you and the troops who you 
are commanding. We have lost 23 very brave soldiers from my 
State of Massachusetts and we are all very mindful of the 
complexities and the difficulties that the uniformed service 
personnel are facing over there. So we thank you so much for 
your leadership and your careers of public service in serving 
our country.
    General Sanchez, as an old MP myself, I am surprised that 
you think the MI are better at protecting the forces than the 
MPs, but we will leave that for another time.
    When we had the SECDEF here, General Abizaid, last week, he 
denied that there was any failure to take any of these reports 
seriously. The military, not the media, discovered these 
abuses, he said. Specialist Joseph Darby reported the acts of 
abuse at Abu Ghraib prison in mid-January. According to 
Secretary Rumsfeld, by the next day, investigations were 
authorized.
    Yet now we learn, both from the front page of The New York 
Times and the front page of The Wall Street Journal today, that 
the ICRC observed abuses in the prison during the two 
unannounced inspections in October 2003 and it complained in a 
strongly-worded written report on November 6. This report was 
reviewed by senior military officials in Iraq, including two 
advisors to General Sanchez, according to this report.
    So it appears that the military's first reaction was to 
restrict future ICRC visits to Abu Ghraib. That is the story in 
here. After the ICRC had provided two critical reports, the 
reaction of the military personnel who were dealing with the 
prison then was to restrict access. They said, ``You have to 
give us notice.'' All of us understand what that means. If you 
are going to give notice prior to the inspections, it obviously 
compromises the inspections.
    So according to those news reports, nothing was done in the 
prison for 2 months. The military previously acknowledged that 
the worst abuses continued into December 2003.
    So we have the SECDEF saying one thing, and we are 
learning, from two newspapers, another story. That is why I 
think we were trying to find out exactly who was in charge and 
who bears the responsibility. These are completely conflicting 
stories that have come out within a period of just a few weeks 
here before this committee. I do not know whether you have any 
reaction to those stories, whether you had a chance to see 
those this morning.
    I want to move on quickly. I suppose it is fair to ask, who 
in Iraq or in CENTCOM is responsible for receiving and 
responding to the reports of violations of international law or 
conventions by U.S. military personnel?
    General Abizaid. I am responsible. If someone brings it to 
my attention, I am responsible, and I will not turn my back on 
any report that I receive.
    Senator Kennedy. Well, you obviously did not get these 
reports.
    General Abizaid. No, I did not, but----
    Senator Kennedy. Well, I am asking who would have gotten 
these reports. Who would have received this report in the chain 
of command? General?
    General Sanchez. Senator, the November report was received 
by the brigade commander. Then, as I find out now, the CJTF-7 
staff assisted her in responding to that report.
    Senator Kennedy. Did that brigade commander receive all of 
the reports, or just who, institutionally----
    General Sanchez. No, sir. What----
    Senator Kennedy.--receives, within your organization, any 
of the--like for the ICRC violations that come on in. Who is in 
charge on that? Who receives it?
    General Sanchez. When the February 2004 report came in, 
that is when I found out that the November working papers had 
been issued to the brigade commander. At that point, I 
immediately changed the procedure and required that those 
reports come to me as the senior commander in the country. That 
is the procedure now.
    Senator Kennedy. There was no central receiving officer in 
charge prior to what you have just established? Is that right?
    General Sanchez. Sir, prior to that, those all would come 
to the Staff JAG's Office. That was the repository, and he was 
the point of contact, in terms of commander--it was coming at 
the lowest level.
    Senator Kennedy. At the staff JAG officer----
    General Sanchez. Yes, sir, that is correct.
    General Abizaid. If I may, sir, this system is broken.
    Senator Kennedy. Okay. All right.
    General Abizaid. We have to fix it.
    Senator Kennedy. Let me move on to General Miller. After 
your assessment of the detention interrogation in Iraq, you 
stated that it was essential that the guard force be actively 
engaged in setting the conditions for the successful 
exploitation of the internees. General Taguba strongly 
disapproved of the recommendation, and he has stated that 
setting of the conditions for the detainees' successful 
exploitation through interrogation is fundamentally 
inconsistent with Army regulations and undermines the goals of 
running a safe and secure detention facility. That is what he 
testified to here, before this committee.
    The New York Times reported yesterday that Colonel Thomas 
Pappas, who is the MI Brigade Commander at Abu Ghraib, told 
General Taguba that there were no safeguards to ensure the MPs 
at Abu Ghraib behaved properly in setting conditions for the 
detainees. ``There would be no way for us to actually monitor 
whether that happened,'' Colonel Pappas said. ``We have no 
formal system in place to do that.'' General Taguba also found 
the MPs had not been trained on the Geneva Conventions.
    Was this not a catastrophic failure of leadership? How 
would you expect an average soldier in the Army to understand 
the term ``successful exploitation'' is not simply an euphemism 
for ``anything goes''? Do you take responsibility for that 
failure?
    General Miller. Thank you, Senator.
    The Taguba Report was very thorough, but I would like to 
clarify on this one point. The recommendation that my team made 
in the September time frame was that the MPs help set the 
conditions for successful interrogation as we had learned of 
their success in Guantanamo. The recommendation was that they 
conduct passive intelligence-gathering during this process. 
That meant to observe the detainees, to see how their behavior 
was, to see who they would speak with, and then to report that 
to the interrogators so the interrogators could better 
understand the human dynamic of the detainee as he would come 
into the interrogation booth.
    We also recommended that the MPs, for security reasons, 
would accompany the detainee from the cell block, or the area 
where they were held, up to the interrogation booth, because 
they are security risks. Then the MP would wait somewhere else, 
and then accompany the detainee back. Our recommendation was 
that the MPs did not actively participate in any form of the 
interrogation itself. That was explained, in detail, to the 
chain of command. The SOP that laid that out was provided to 
them. It is about 200 pages long, and it goes into great detail 
about how this system works, because it says, in the SOP, that 
the MPs are not trained intelligence officers and should not 
initiate questioning or anything like that; they were just to 
be observers of that process. So that was the active support 
for the interrogation process that was recommended.
    So, Senator, I will tell you, I believe that the 
recommendations we made, had they been implemented, would have 
not only increased the intelligence value of what was being 
done, but helped ensure that humane detention was accomplished 
throughout every facility.
    Chairman Warner. Thank you very much, Senator.
    Before responding, General Sanchez, you made full reference 
to the brigade commander. Now, that would be General Karpinski?
    General Sanchez. Yes, sir, that is correct.
    Chairman Warner. All right. I want the record to reflect 
that.
    General Abizaid. Mr. Chairman, just for the record, I would 
like to caution the committee. We still do not know what we do 
not know.
    Chairman Warner. That is very clear, and we recognize that. 
It has been a struggle to get a full understanding throughout 
this whole thing and that is why we have to entrust credibility 
to what the DOD, and the Army particularly, are doing now with 
a series of investigations. We fully appreciate that.
    General Abizaid. I think that Major General Fay's report 
will go a long way to make us understand this dynamic between 
MPs and MI, in particular, relative to Senator McCain's 
questions.
    Chairman Warner. I share that. Thank you, General.
    Senator Roberts.
    Senator Roberts. General Abizaid, you realize that your 
statement is contrary to the United States Senate, where we 
always know what we do not know. [Laughter.]
    Let me say that I want to thank Senator McCain for his 
comments, because I think he spoke for the whole committee in 
reference to the contribution that you are making to our 
country and your service to our country, and I would like to 
associate myself with his remarks.
    I am going to try to get my fast questions in to General 
Miller and basically--well, first let me ask of General 
Sanchez, no soldier would be justified in interpreting an order 
in such a way as to violate the UCMJ, is that correct?
    General Sanchez. Sir, I would agree with that, absolutely.
    Senator Roberts. So even if a soldier did misinterpret 
General Miller's recommendation, even though I doubt if they 
had it, to carry out these acts, it would not be an excuse, 
would it?
    General Sanchez. Sir, that is correct. That is a basic 
instinct we have built into the soldier.
    Senator Roberts. General Miller, would the abuse evidenced 
by the photos be permitted or condoned under any practices or 
policies that were recommended in your report?
    General Miller. Senator, they absolutely would not be.
    Senator Roberts. Would the abuse evidenced in the photos be 
permitted or condoned at any of the practices or policies at 
Guantanamo Bay?
    General Miller. Senator, they would not.
    Senator Roberts. Do you have any problem with General 
Ryder, who allegedly said there should be a firewall between 
the MPs and MI, given your rationale as to why they should work 
together, if we have the leadership and the training and the 
discipline that you have indicated that we now have?
    General Miller. Sir, our doctrinal publication said that 
there should be cooperation between the MPs and the 
intelligence function in a detention facility, but it does say 
there should not be any active participation by the MP force in 
any interrogations.
    Senator Roberts. I have a staffer who works on the 
Intelligence Committee for me. I have the privilege of being 
chairman. He has been down at Guantanamo, in a Reserve 
capacity. He indicates that you made a remarkable turnaround 
down there. Many Senators have gone down. It only takes a day. 
I encourage every Senator here to do that. I credit you for 
improving a very difficult kind of situation.
    In Iraq, it is my understanding that there are three 
prisons, five battalions. Four of the five are Reserves. Is 
that correct?
    General Miller. Senator, in the organization that I now 
lead, as the Deputy Commanding General for Detainee Operations, 
that is a correct statement.
    Senator Roberts. After the incident at Abu Ghraib, how 
would you determine the leadership today in regards to 
discipline, training, and leadership of those personnel who you 
command as of right now?
    General Miller. Sir, in the first 30 days of my opportunity 
to work in this capacity, I was able to visit every facility 
and talk to virtually every leader and soldier who is involved 
in this. I will tell you that there is strong, positive, 
dynamic leadership throughout this chain of command.
    Senator Roberts. So we have seen a hell of a change.
    General Miller. Sir, we have seen soldiers and leaders who 
know what standards are and execute them 7 days a week, 24 
hours a day.
    Senator Roberts. At Guantanamo Bay, you had one MP per two 
prisoners. In Iraq, you have one MP per eight and a half 
prisoners. Is that correct?
    General Miller. Sir, those are approximately the correct 
numbers.
    Senator Roberts. Okay. But you have indicated that 50 
percent of the prisoners in Abu Ghraib will be released. You 
have 3,800 prisoners now; that will bring it down to 1,500. 
What is happening to the 1,500? I understand there are 74 being 
tried by the Central Court of Iraq. Will all 1,500 be tried?
    General Miller. Sir, those approximately 1,500 security 
internees have been interned. That means that we have strong 
evidence that they have committed attacks on the coalition, and 
they will most likely be referred to the Central Criminal Court 
of Iraq for trial by the Iraqi system for those. There are a 
number of those, approximately 600 to 700, who are so dangerous 
that, should they be released back into Iraqi society, they 
would put that society at risk of a high probability of attack 
on their fellow citizens.
    Senator Roberts. So they are the worst of the worst.
    General Miller. Sir, those are the worst of the worst.
    Senator Roberts. If the ICRC investigated today, what would 
they find?
    General Miller. Sir, the ICRC is, as a matter of fact, 
investigating today. They are at Camp Bucca, which is one of 
our theater facilities down by Umm Qasr, on the southern 
border. They have found that we are making an enormous effort 
to improve conditions every day, that we take their findings 
seriously, and that we have addressed them. General Sanchez 
made a change when I arrived in the theater and put the ICRC 
responsibility directly on me. So all reports come to me, and I 
move them to General Sanchez and the command leadership as 
rapidly as possible.
    Senator Roberts. So until we get the report by General Fay 
to assess responsibility and accountability, you think there 
has been a big change in regards to leadership, training, and 
discipline, which are all directed at interrogation, to provide 
better intelligence to save Iraqi lives and American lives, is 
that correct?
    General Miller. Yes, sir, that is absolutely correct.
    Senator Roberts. I thank you, Mr. Chairman.
    Chairman Warner. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    General Abizaid and General Sanchez, this travesty of 
justice occurred on your watch. The Iraqi prisoner abuse 
scandal has dealt a body blow to the heroic efforts of scores 
of American military troops and civilian workers in Iraq to win 
the hearts and minds of the Iraqi people. I do not know if that 
damage can ever be fully repaired. Certainly, a lot depends on 
what else might emerge about this scandal and on what you and 
the civilian leadership at the Pentagon do to set things right.
    General Sanchez, you told Senator Levin that you never saw 
the ROE presented to this committee last week. If you did not 
see or set the so-called ROE for the interrogation of prisoners 
in Iraq, who does? Who does set them?
    General Sanchez. Senator, what I stated was that I had not 
seen the specific slide that was referred to. I was the one who 
approved the interrogation ROE on September 12 and again in the 
October time frame, sir.
    Senator Byrd. Does anyone in the civilian leadership of the 
Pentagon need to approve the rules of interrogation operations?
    General Sanchez. Senator, those rules were forwarded to 
CENTCOM in the September time frame, and, based on the inputs 
from CENTCOM, resulted in the October memorandum.
    Senator Byrd. I will ask the question again. Does anyone in 
the civilian leadership of the Pentagon need to approve the 
rules of interrogation operations?
    General Sanchez. Sir, I do not know. As far as I know, 
there is no requirement for the civilian leadership to approve 
those rules of engagement.
    General Abizaid. Senator, I would say we are all 
responsible for making sure what happens in our organizations 
happens right. Things do not have to go all the way to the top 
to be approved. We know what is right and we know what is 
wrong.
    Senator Byrd. The committee needs to know if you can answer 
this question. Does anyone in the civilian leadership of the 
Pentagon need to approve the rules of interrogation operations? 
If so, who?
    General Abizaid. My answer is no. It is our responsibility.
    Senator Byrd. Then you are saying that nobody in the 
Pentagon approves these rules.
    General Abizaid. No, I am not saying that, sir.
    Senator Byrd. Then what are you saying?
    General Abizaid. I am saying that the ROE for interrogators 
are a product of Army doctrine, of Army training, of practices 
in the field, and of commanders doing their job out there.
    Senator Byrd. General Abizaid, if someone at the Pentagon 
is required to approve these ROE, surely you know.
    General Abizaid. If I knew, Senator, I would tell you. I 
would not forward any ROE to anybody. Nobody has asked me for 
any, and I would not have forwarded it to them.
    Senator Byrd. So you are, indeed, saying that nobody in the 
Pentagon approved these rules.
    General Abizaid. I do not know that I am saying whether 
they reviewed them or not. I am saying that I have not 
personally forwarded anything to the Pentagon for their 
approval.
    Senator Byrd. Did the SECDEF have to approve these rules to 
your knowledge?
    General Abizaid. Sir, I am just telling you what I said. In 
CENTCOM, I have not forwarded anything to the Pentagon for 
approval with regard to ROE.
    Senator Byrd. I am not asking you what you forwarded to the 
Pentagon. To your knowledge, did the SECDEF have to approve 
these, or did he approve these ROE, to your knowledge?
    Colonel Warren. Senator, if I might, I was the legal 
advisor for the command and participated in the drafting of the 
counter-resistance and interrogation policy. There is no 
requirement that the DOD review or approve the methods that we 
used. As Generals Abizaid and Sanchez have said, they were 
operating in a combat environment. The commanders have the 
authority to approve those policies.
    Senator Byrd. All right, if there is no requirement, to 
your knowledge, did the SECDEF approve these ROE?
    Colonel Warren. Sir, to my knowledge, no.
    Senator Byrd. General Sanchez, as Senator Kennedy stated, 
The New York Times reported this morning--and here it is, right 
here--the headline says, ``Officer Says Army Tried to Curb ICRC 
Visits to Prison in Iraq.'' Is that allegation accurate?
    General Sanchez. Sir, I never approved any policy or 
procedure or requirement to do that.
    Senator Byrd. Let us see what this says. ``Two announced 
inspections in Iraq,'' and, ``The ICRC observed abuses in one 
cell block on two unannounced inspections in October, and 
complained in writing on November 6. The military responded 
that inspectors should make appointments before visiting the 
cell block.'' Well, we know what that means.
    General Abizaid, the ICRC has alleged a pattern of abuse at 
detention centers in Iraq. With all due respect, how can you 
explain the culture of abuse that was allowed to develop in a 
prison system under your ultimate command?
    General Abizaid. I do not believe that a culture of abuse 
existed in my command. I do not believe that based on what my 
IG told me and what the Department of the Army IG told me. I 
believe that we have isolated incidents that have taken place. 
I am aware that the ICRC has its view on things. A lot of its 
view is based upon what happens at the point of detention where 
soldiers fighting for their lives detain people, which is a 
very brutal and bloody event.
    Senator Byrd. Thank you, Mr. Chairman, my time is up.
    Chairman Warner. Thank you, Senator Byrd.
    Senator Allard.
    General Abizaid. Mr. Chairman, if I may?
    Chairman Warner. Feel free, General, when you wish to add 
some information.
    General Abizaid. Policies do flow from the top of the DOD 
and I do not want to give any impression that they do not.
    Chairman Warner. We recognize the tradition of civilian 
leadership.
    General Abizaid. But SOPs are our business and we work 
them.
    Senator Byrd. These are not SOPs we are talking about, I 
hope.
    Chairman Warner. Fine.
    Senator Allard.
    Senator Allard. Mr. Chairman, I just want to point out that 
I think the real travesty of justice is on the other side, 
where we see women and children used as shields, where we see a 
fight being carried on in mosques and other religious 
structures by our adversaries, where I see that conflict being 
carried in schools, and where our adversaries do not care about 
innocent lives. They will cheat and lie and do anything. I 
think that we have to understand the challenges that our men 
and women are facing in Iraq, and I think that it is a very 
difficult situation.
    Now, that does not justify, I think, what we have seen by a 
few individuals here in this prison, and I want to fully 
understand how it is that that kind of incident would happen in 
the prison. I think we all have to understand it. I think, 
General Abizaid, that you have recognized that there is a 
problem and that we are in the process of correcting that 
problem.
    Major General Miller, of the list of reports that came out, 
yours was the first report. You looked at Guantanamo and then 
you went on ahead and briefed, I think, the command in Iraq as 
to what you learned in Guantanamo, is that correct?
    General Miller. Senator, when I briefed the command of 
CJTF-7, it was on the findings and recommendations that the 
team I brought found of our assessment of the operations within 
CJTF-7 in Iraq.
    Senator Allard. Did you share with them some of the lessons 
learned and what not in Guantanamo, and explain to them what to 
watch out for?
    General Miller. Yes, sir. We used our SOPs that we had 
developed for humane detention, interrogation, and intelligence 
fusion, to be able to use that as a starting point where they 
could go about improving their capability.
    Senator Allard. So when you did your briefing, how far down 
did that information go? Did it go to those interrogators or 
were you relying on individuals further down in the command to 
pass on your words?
    General Miller. Sir, the recommendations that I made from 
the assessments were given to the senior leadership of the JTF 
for them to make decisions, upon their applicability, and then 
to, if they chose, make additional modifications to their 
procedures to go about doing that. In no case did the team have 
the opportunity to or ask to brief down at the lowest level. It 
was at the senior leadership level, at the commander and the 
senior staff-officer level.
    Senator Allard. Now, with those lessons learned, can 
anybody on this panel explain to me what happened to the 
information that was shared by Major General Miller to the 
higher command? How was that passed down?
    General Sanchez. Yes, Senator. After I received the 
recommendations of General Miller, I then forwarded those to my 
staff and the commander of the detention center for 
modification, in accordance with the Geneva Conventions, since 
we knew that there was a difference in climates between the two 
different operations.
    Senator Allard. By that difference in climate, you are 
saying that, in Guantanamo, it was not as pertinent to actually 
what was happening in the field of battle, but what was 
happening in Iraq was very pertinent to what was happening on a 
day-to-day basis in the field of battle, and that information 
was crucial to the survival of Americans. Is that correct?
    General Sanchez. Yes, sir, that is exactly right. We were, 
at that point in time, working very hard to get intelligence 
fusion at a higher level that could allow us to target, 
precisely, the enemy forces. We had to very rapidly take those 
recommendations and modify them to the theater, modify them to 
ensure that they were in accordance with the Geneva 
Conventions, get the lessons that had been learned before in 
interrogation and detention operations, and be able to adjust 
our own procedures and fix the procedures that we had in 
country.
    Senator Allard. Now, General Abizaid and General Sanchez, I 
would like for you to describe the checks and balances, or the 
command-wide reporting and supervision, that was in place 
during 2003, when the subject prisoner abuses occurred. General 
Taguba's report clearly shows abuses reported as early as May 
2003 in Iraq, as well as major accountability and leadership 
and basic discipline breakdowns through the 800th MP Brigade. I 
guess the bottom line is, did Brigadier General Karpinski, the 
800th MP Brigade Commander, keep you informed as to the 
deteriorating conditions in her command?
    General Abizaid. I did not talk to the 800th MP Brigade 
Commander.
    Senator Allard. General Sanchez.
    General Sanchez. Sir, as far as the deteriorating 
conditions of her command, part of our basic understanding in 
the July/August time frame was that we had a detainee situation 
that had not been faced by our Army in over 50 years. That was 
the reason why I had requested the Ryder team to come in to 
assist us in establishing those operations so that they would 
be efficient, effective, and treating people with dignity and 
respect. That is why I supported the Miller team coming into 
the country. We were providing the resources that were 
necessary in order for us to stand up the capabilities of the 
800th to be able to function effectively.
    Senator Allard. So the Ryder Report, that was a first 
report in trying to deal with any hint of impropriety that was 
happening at the prison, is that correct?
    General Sanchez. Senator, there were investigations that 
had been conducted as a result of allegations of abuse that 
were out in the command, not at the detention centers, at that 
point. As we have stated before, there were allegations at the 
point of contact, where the soldiers are fighting every single 
day, from the ICRC, that prisoners were being treated roughly. 
Those were the allegations that were being investigated at that 
point in time. As far as detention center abuses at that point, 
I did not have knowledge of that.
    General Abizaid. But I would like to make sure that the 
committee understands we did have detention center problems. 
They were overcrowded, we didn't have the MPs in the right 
place, we were moving into facilities that had been destroyed 
or damaged by the war, and we had an intelligence problem, in 
that the tactical units were not getting feedback from the 
detainees who moved into the detention centers. From Ambassador 
Bremer's point of view, he had a problem, in that we were not 
releasing detainees back into the population quickly enough, 
and he wanted us to come up with a system that would make that 
more efficient.
    So let us be clear that we understood there were problems 
in the detainee system, linked to the intelligence system, 
linked to the political system, that had to be addressed and we 
were working on them. But I would also like to remind you that 
these images are not the kind of thing that we thought was 
happening out there, that anyone in the chain of command would 
have condoned or allowed to be practiced.
    Senator Allard. Mr. Chairman, my time is expired.
    General Miller. Sir, if I may just add one clarifying 
point, because I think it is important. During the assistance 
visit that my team made in the August/September time frame, we 
were also charged with the responsibility of looking for humane 
detention at the CJTF-7 level detention facilities. In doing 
that assessment in one of the facilities, the team found that 
it was being operated in an unsatisfactory manner. I stopped 
the assessment, went to General Sanchez and made this report. 
He directed that there be corrective action made within 48 
hours in this facility. That action was immediately started and 
was continuing on as the assessment team that I led departed 
theater. So there were reports. I will tell you there was very 
aggressive action taken by the chain of command to go about 
correcting those shortfalls.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Allard. My time is expired.
    Chairman Warner. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Colonel Warren, is it accurate to say that all the 
prisoners at Abu Ghraib were entitled to the protections of the 
Geneva Conventions, that they were either enemy prisoners of 
war (POWs) or protected persons? Is that correct?
    Colonel Warren. Sir, that is right. They were protected 
persons, either under the Third or Fourth Geneva Conventions.
    Senator Reed. Under the Geneva Convention Article 31, no 
physical or moral coercion shall be exercised against any 
protected persons, in particular to obtain information about 
them or from third parties. Is that correct?
    Colonel Warren. Sir, you are quoting from Article 31 of the 
Fourth Convention. That is an accurate recitation of what the 
Article says. I would cite for you Pictet's Commentary on the 
Article for elaboration that coercion should not be taken out 
of context.
    Senator Reed. Colonel, thank you. But that is the operative 
rule.
    Colonel Warren. That is the literal rule.
    Senator Reed. Let us go back to the ROE here. Sleep 
management, 72 hours, sensory deprivation, 72 hours. Would you 
consider that to be physical or moral coercion?
    Colonel Warren. Sir, not prohibited coercion, under Article 
31, for security internees and unlawful combatants.
    Senator Reed. I am talking about ``in particular to obtain 
information about them or from third parties.''
    Colonel Warren. No, sir, I would not.
    Senator Reed. So these are not methods to use for 
interrogation.
    Colonel Warren. Sir, the list on the right-hand side of 
the----
    Senator Reed. Can you answer the question, Colonel?
    Colonel Warren. Sir, that does not require a yes or no 
answer. I have to elaborate upon it.
    Senator Reed. Well, Colonel, my time is 6 minutes, so let 
me just move on.
    Colonel Warren. Yes, sir.
    Senator Reed. You have just said that these are coercive 
means.
    Colonel Warren. No, sir, I did not. What I said is----
    Senator Reed. For a protected person to obtain information.
    Colonel Warren. No, sir. What I said was those that are on 
the right are a list on a slide, which was produced at a low 
level, which was not representative of our counter-resistance 
and interrogation policy.
    Senator Reed. Excuse me, Colonel. I am not asking how it 
was evolved, but if 72 hours with a bag over your head is 
contrary to Article 31 of the Fourth Geneva Convention.
    Colonel Warren. That would be. Yes, sir.
    Senator Reed. Thank you.
    General Sanchez, in today's USA Today, it has been reported 
that you ordered or approved the use of sleep deprivation, 
intimidation by guard dogs, excessive noise, and inducing fear 
as an interrogation method for a prisoner in Abu Ghraib prison. 
Is that correct?
    General Sanchez. Sir, that may be correct that it is in a 
news article, but I never approved any of those measures to be 
used within the CJTF-7 at any time in the last year.
    Senator Reed. Excuse me. Now I want to get back to this. It 
may be correct that you ordered those methods used against a 
prisoner, is that your answer?
    General Sanchez. No, sir, that is not what I said. I said 
it may be correct that it is printed in an article, but I have 
never approved the use of any of those methods within CJTF-7 in 
the 12\1/2\ months that I have been in Iraq.
    Senator Reed. What level of command produced this slide?
    General Sanchez. Sir, my understanding is that that was 
produced at the company commander level.
    [The information referred to follows:]

    In response to questions by Senator Reed concerning whether I had 
ordered or approved specific interrogation approaches, I stated, ``I 
have never approved the use of any of those methods within CJTF-7 in 
the 12.5 months that I've been in Iraq.'' I provided a similar response 
to follow-up questions by Senators Collins and Dayton.
    In the context of Senator Reed's questions, ``those methods'' 
referred to a list of interrogation approaches on the right column of a 
chart entitled, ``Interrogation Rules of Engagement'' (IROE), which 
would require a written exception to policy for use, and to ``Sleep 
Deprivation, Intimidation by Guard Dogs, Excessive Noise and Inducing 
Fear,'' which were reported in a USA Today article as having been 
approved by me for a specific prisoner at Abu Ghraib prison.
    CJTF-7 Interrogation and Counter-Resistance Policy in the fall of 
2003 was stated in two memoranda, the first dated September 14, 2003, 
and the second dated October 12, 2003. Both CJTF-7 Interrogation and 
Counter-Resistance Policy memoranda were furnished to the committee on 
May 19. The September 14 Policy authorized the methods listed in the 
right column of the IROE chart, except for ``sensory deprivation'' and 
``sleep deprivation.'' Use of the authorized methods was subject to the 
general and specific safeguards listed in Enclosure 2 of the Policy, as 
well as the implementation guidance of the commander, 205th MI Brigade. 
The September Policy remained in effect for less than 1 month, until 
superceded by the October 12 Policy.
    The October 12 Policy, which remained in effect for 7 months, 
authorizes the methods listed at its Enclosure 1. These methods do not 
include sleep deprivation, presence of military working dogs, or 
excessive noise. Use of any methods not listed at Enclosure 1 of the 
October 12 memorandum would require an exception to policy granted by 
me, as well as legal review and review by the command's senior 
intelligence officer. The methods listed in the right column of the 
IROE chart are similarly not authorized under the October 12 Policy 
without an exception to policy granted by me.
    Except for segregation in excess of 30 days, I have neither 
received nor approved any requests for the use of any methods requiring 
an exception to policy. Except for segregation in excess of 30 days, I 
have not approved the use of any of those methods for a particular 
prisoner.

    Senator Reed. How could the company commander evolve such a 
specific list? How could the company commander then turn around 
and say some of these things would require your permission, 
without any interaction between your commands? It seems to me 
just difficult to understand.
    General Sanchez. Sir, it is difficult for me to understand. 
You would have to ask the commander.
    Senator Reed. This is the company commander that you 
relieved and gave a letter of admonition?
    General Sanchez. No, sir.
    Senator Reed. No? Okay.
    General Miller, at Guantanamo it has been reported that you 
developed a 72-point matrix for stress and duress that lays out 
types of coercion and escalating levels. They include harsh 
heat or cold, withholding food, hooding for days at a time, and 
naked isolation in cold, dark cells. Is that correct?
    General Miller. Sir, that is categorically incorrect.
    Senator Reed. That never happened.
    General Miller. Sir, that is categorically incorrect.
    Senator Reed. All right. When you were dispatched by 
Secretary Cambone and General Boykin to go to Iraq, did they 
give you any specific instructions about increasing the 
aggressiveness of interrogations?
    General Miller. Sir, I was tasked to conduct an assistance 
visit by the Joint Chiefs of Staff. They tasked U.S. Southern 
Command (SOUTHCOM), who then tasked CJTF-Guantanamo to put the 
team together.
    Senator Reed. Did you have conversations with General 
Boykin and Secretary Cambone, prior to your departure, about 
your trip?
    General Miller. Sir, I did not.
    Senator Reed. You did not. Did you have any discussions 
after your visit, after you returned?
    General Miller. Sir, I submitted the report up to SOUTHCOM. 
I had no direct discussions with Secretary Cambone or General 
Boykin.
    Senator Reed. Well, Secretary Cambone testified that 
General Boykin briefed him on your discussions, and he led to 
the implication that you and General Boykin had--have you 
spoken to General Boykin about any of these issues?
    General Miller. No, sir. The report was provided up, and 
this is my speculation, because I do not know--it may have gone 
to General Boykin, but he and I have not had personal 
conversations about this inspection visit.
    Senator Reed. Your team, when they went down and briefed at 
the--how low a level did you brief and talk to the people in 
that prison?
    General Miller. Yes, sir. Sir, that team went at several 
different levels. They started at the CJTF level.
    Senator Reed. How far did they go in the prison?
    General Miller. Then went down to the battalion commander 
level at the MP function, and to the company commander level at 
the MI function.
    Senator Reed. That might be the level where this document 
was developed?
    General Miller. Sir, I do not know what level that document 
was developed at.
    Senator Reed. Did your team specifically brief that these 
techniques, which you deny being in place in Guantanamo, could 
not be used? Did they in any way suggest that methods could be 
used in that prison that are contrary to the Geneva 
Conventions?
    General Miller. Sir, no methods contrary to the Geneva 
Conventions were presented at any time by the assistance team 
that I took to CJTF-7. There is no--because you brought it up 
again, sir--there is no status, or there is no program at JTF-
Guantanamo that has any of those techniques that are that are 
prohibited by the Geneva Conventions.
    Senator Reed. One of the problems we have, General, is that 
we have not yet, after repeated requests, received that 
documentation about the interrogation techniques at Guantanamo, 
which is another lack of cooperation in this investigation.
    My time has expired. Will we have a second round, Mr. 
Chairman?
    Chairman Warner. It is important that we conclude today's 
round with a closed session, and Senators will be given an 
opportunity to ask questions.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I thank all of 
you for your service in a difficult and dangerous area of the 
world. You are serving your country with distinction.
    General Abizaid, I appreciate your leadership and your 
comments earlier today. We have made progress in Afghanistan 
and Iraq. We have had al Qaeda on the run and we have avoided 
another attack on this country, for which we can be grateful. I 
think you are correct to suggest that sometimes in this city, 
people get preoccupied with failure and error, rather than 
seeing the progress that has occurred.
    I am troubled by this suggestion that the interrogation 
rules are some sort of a smoking gun of illegality and 
impropriety. You have been asked about sleep adjustment, or 
sleep management, for 72 hours. Those, as I read this 
document--this is a restrictive document that says such an 
action must have the direct approval of the commanding general. 
Is that the way you understand it, General Sanchez?
    General Sanchez. Sir, that is the way I read that document 
also.
    Senator Sessions. Are you the commanding general, or who 
was the commanding general referred to?
    General Sanchez. That referred to the commanding general of 
CJTF-7. That is me, sir.
    Senator Sessions. So the system was set up to restrict 
these kind of activities. They could never be done, even 
though, as Colonel Warren, the JAG officer, said, they could be 
acceptable under--some of them, at least--the Geneva 
Conventions, but they had to make a written report and request 
to you before any of those could be used.
    General Sanchez. That is exactly right, sir.
    Senator Sessions. Were any of these ever approved by you?
    General Sanchez. Sir, the only approvals that I ever had at 
my desk were for continued segregation beyond 30 days, and 
there were 25 of those that were approved. I never saw any 
other method come to my level requesting approval.
    Senator Sessions. So the only requests under this category 
of what some referred to as ``harsher treatment'' were the 
isolation requests, which is done in American prisons every 
day. These isolations requests were, in fact, submitted to you 
in writing. Did you or your staff make an evaluation before you 
approved them?
    General Sanchez. Yes, sir. Those came forward. My staff, 
both the intelligence officer and my staff judge advocate, 
evaluated those, and then my staff judge advocate brought them 
in to me, and I personally approved them.
    Senator Sessions. I would like to note that, in big print 
here, it says, ``Safeguards. Approaches must always be humane 
and lawful. Detainees will NEVER''--in capital letters--``be 
touched in a malicious or unwanted manner.'' Were the actions 
in this prison in violation of that directive? The allegations 
and the pictures we have seen, those would be in violation of 
that directive, would they not?
    General Sanchez. Sir, if those allegations are proved in 
the investigative process to be true, those would be 
violations.
    Senator Sessions. It says, ``Geneva Conventions must be 
complied with.''
    General Sanchez. Absolutely, sir. That was always the 
standard.
    Senator Sessions. Now, General Abizaid or General Sanchez, 
General Ryder was a provost marshal. That is the person in 
charge of the military prison system, is that not correct?
    General Abizaid. Yes, sir, that is correct.
    Senator Sessions. He is the Army's top expert on how to 
house prisoners. It is not easy in the United States, I am 
telling you. Senator Kennedy and I sponsored a bill recently to 
crack down on sexual abuse in prisons, the prison rape bill, 
because it happens in American prisons, we have abuses. But it 
is difficult in a theater of combat operations. You brought him 
over to help you bring order to this situation in the post-
hostility conflict, is that what you did?
    General Abizaid. Yes, sir. We have asked for a lot of help, 
because we needed a lot of help in this theater on a lot of 
different things. But what is the most helpful is where 
commanders travel and look and see with their own eyes what is 
going on and how it is going on. General Sanchez and I and 
others have been all around the theater, have talked to 
interrogators, we have looked to make sure what was happening 
was right, and we emphasized to them, all the time, that they 
need to treat people right.
    Senator Sessions. Well, things go awry. There is just no 
doubt about it. It is more difficult in a combat environment.
    General Miller, you had a reputation for being able to 
manage a prison and to obtain information from detainees in a 
way that was closely inspected and observed by the ICRC and 
other people on a continuing basis. We had soldiers at risk in 
Iraq. We have civilian leadership of the new Iraqi Government 
at risk of their very lives, as we saw one just killed 
recently. It certainly would have been wonderful if we had 
obtained intelligence so we could have interdicted the latest 
murder of the head of the Iraqi Governing Council (IGC).
    General Abizaid, you said you want to get information to 
the tactical commanders. For the American people who may not 
understand this language, part of the problem was, as I 
understood it, you were obtaining information, but were not 
getting it out to the people who could benefit from having it, 
is that fair to say?
    General Abizaid. Well, Senator, as I traveled around--and I 
spend most of my time when I go around going to tactical 
units--I was extremely impressed by the amount of information 
that they had about local conditions. I would always ask them 
whether, once the detainees were evacuated into the prison 
system, they receive follow-up information that would help them 
in their difficult job of breaking down the cellular structures 
that the enemy uses against us. At the same time, General 
Sanchez and I, probably very early on in General Sanchez's 
arriving in the theater, were concerned that we were not 
getting a good view of what was happening at the leadership 
level. So we knew that there had to be a connection between 
what the tactical units knew and what the leadership knew if we 
were ever to get at the insurgency-based problems that we were 
seeing out there. So we were dealing with a systemic problem, 
and we still do not have as good a view as we would like to 
have about the nature of the insurgency, and who is in charge, 
and where the cells move, and how they operate, et cetera. It 
is an intelligence-intensive task.
    Senator Sessions. General Miller, one of your 
responsibilities was trying to make sure that the evidence that 
had been gathered was promptly disseminated. Is that one of 
your responsibilities?
    General Miller. That is correct, Senator.
    Senator Sessions. I think my time has expired, Mr. 
Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you 
all for being here this morning.
    General Abizaid, I want to commend you, particularly for 
your candor. This city, and this group, from time to time, is 
used to what I have termed ``progressive candor.'' We learn a 
little bit at a time, and ultimately somebody has to take 
responsibility. I appreciate very much your willingness to take 
the responsibility.
    General Miller, there are photos showing MI, MPs, and 
private contractors in the vicinity of prisoner abuse. We are 
being told that it was a handful, or a few--the operative word 
of the day--bad apples engaging in activities that were 
abusive, not consistent with either Geneva Conventions rules or 
with the expectations of the command above them. So can you 
tell me who were the participants, who were the abusers in this 
situation? I am not aware of anyone outside of a handful of 
privates, sergeants, et cetera, being charged with anything. 
What about the private contractors? Are the MI people, apart 
from MPs, being charged, or do you know?
    General Miller. Senator, those events are a part of the 
investigations being done, also being done now by General Fay, 
involving the intelligence elements, both the military and any 
of the contractors who would be involved in the intelligence 
function.
    Senator Ben Nelson. Will we expect something within a 
timely manner on those investigations?
    General Miller. Sir, it is my understanding that General 
Fay's report is nearing a close and that those reports will be 
given to the chain of command very quickly.
    Senator Ben Nelson. General Miller, what instructions or 
orders were you given before you arrived on your way to 
Guantanamo?
    General Miller. Sir, on my assumption as the commander of 
JTF-Guantanamo, I went to the headquarters, SOUTHCOM, and 
General Hill laid out his responsibilities for me and gave me 
the orders. We had an opportunity to fuse two JTFs together 
that were not working as successfully. That was the priority 
mission, to be able to integrate both a detention and 
intelligence function to produce actionable intelligence for 
the Nation--in this case, operational and strategic 
intelligence to help us win the global war on terror.
    Senator Ben Nelson. Did you talk to any of the civilians 
within the DOD?
    General Miller. Sir, initially I did not. Once I made my 
assessment at JTF-Guantanamo, then I went to Washington, DC, 
and talked to both the Intelligence Community and others who 
are a part of the functionalities that we had at Guantanamo 
about detention, interrogation, and an intelligence fusion.
    Senator Ben Nelson. Anyone at the level of Under Secretary 
or Assistant Secretary of Defense?
    General Miller. Sir, I did not initially talk to them. But 
later on--as you remember, I was there for 17 months--I talked 
all the way up to the SECDEF level, briefing them on the 
operations that we had and the intelligence that we gathered 
and then the integration of those operations throughout 
Guantanamo.
    Senator Ben Nelson. Were any of those discussions directed 
at what you might do in the future if you were assigned to Abu 
Ghraib, or to Iraq in general?
    General Miller. No, sir, they were not.
    Senator Ben Nelson. Were there any differences between the 
two assignments?
    General Miller. Senator, there were substantial 
differences. JTF-Guantanamo has the responsibility to detain 
enemy combatants not covered by the Geneva Conventions, and so 
there were specific authorizations and limits that went 
directly into Guantanamo. So I became very knowledgeable of 
those. I read the Geneva Conventions, to be frank with you, in 
great depth. My lawyer probably spent 1 to 2 hours a day with 
me as I learned every day how to be more effective in doing 
this job and also doing it to the standards of America, using 
humane detention and interrogation that reflected America's 
values.
    Senator Ben Nelson. Thank you.
    General Sanchez, you suspended the entire chain of command 
that was under the command of General Karpinski, including 
General Karpinski herself. She says she objected to the 
interference with her command, which was represented by Colonel 
Pappas, in bringing intelligence operations and TACON over the 
prison. But you disagree that she objected.
    General Sanchez. Senator, General Karpinski never talked to 
me about any interference.
    Senator Ben Nelson. Did she send you a written 
communication?
    General Sanchez. Sir, she received the same order that 
assigned responsibility for FOB protection and security of 
detainees as the other commanders in the task force.
    Senator Ben Nelson. Is it usual that an MI officer would 
take over the tactical command for force protection?
    General Sanchez. Sir, it is dependent upon the senior 
commander in that FOB who has responsibility to defend his 
soldiers.
    Senator Ben Nelson. Do you know of any other instances?
    General Sanchez. A brigade commander, yes, sir. The MI 
brigade commander, no, sir. He was a senior man who was 
permanently on that FOB, and he had responsibilities for 
protecting his soldiers, and that was my intent.
    Senator Ben Nelson. Merging interrogation and force 
protection together?
    General Sanchez. Sir, a commander has integral 
responsibility, independent of his mission, to protect his 
soldiers, and that was what I was trying to institutionalize.
    Senator Ben Nelson. My time has expired. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First, let me begin by thanking all of you for your 
extraordinary service. One of the tragedies of this abuse 
scandal is that it not only obscures the fine work that you are 
doing, but it also overwhelms the thousands of acts of 
kindness, courage, and compassion by our troops every day in 
Iraq, and that is why this abuse scandal is particularly 
upsetting. I feel it sets back and undermines the good work of 
the vast majority of our troops.
    I have to say that after reading the Taguba Report, 
reviewing the various interviews, and participating in these 
hearings, I remain unclear about the answers to some very basic 
and critical questions, questions such as, who really was in 
charge of the prison, and what was allowed in the treatment of 
the prisoners?
    General Sanchez, at the committee's hearing last week, 
General Alexander referred to these guidelines, the 
interrogation ROE, as yours. Numerous press reports have 
referred to these rules as ``the Sanchez guidelines.'' But is 
it your testimony this morning that these guidelines were not 
issued by your office and that, in fact, you only saw them last 
week at our hearings?
    General Sanchez. Ma'am, absolutely not. The first time I 
saw the slide that was specifically shown to me by one of the 
Senators, that is what I was referring to. I personally issued 
the memorandums, and I have both memorandums sitting here that 
I will provide to the committee.
    [The information referred to follows:]

    The requested documents were provided to the committee at the 
conclusion of the hearing on May 19, 2004, and as part of QFR number 76 
for Lieutenant General Sanchez.

    General Sanchez. Those ROEs were my ROEs, and I personally 
approved those after I consulted with my higher headquarters 
and my staff judge advocate.
    Senator Collins. In response to a question from Senator 
Reed, you said, however, that you had never approved the 
presence of dogs, sleep deprivation, or stress positions that 
are listed on these guidelines. Is that correct?
    General Sanchez. Ma'am, that is exactly right.
    Senator Collins. General Sanchez, I also want to follow up 
on your November order putting MI in charge of some aspects of 
the prison. I also want to explore with you the role of MI, in 
general.
    In the Taguba Report, the General says that the 
recommendation of General Miller's team, that the guard force 
be actively engaged in setting the conditions for the 
successful exploitation of the detainees, would appear to be in 
conflict with the recommendations of General Ryder's team and 
AR 190-8, that MPs do not participate in MI-supervised 
interrogation sessions. He also says that having MPs actively 
set the favorable conditions for interviews runs counter to the 
smooth operation of a detention facility. Didn't your order, 
where you involved the MPs in some aspects of the supervision 
of the prison, run counter to the regulation cited by General 
Taguba?
    General Abizaid. Senator Collins, may I address this?
    Senator Collins. Yes, General.
    General Abizaid. First of all, we do not have all the 
facts. I think it is important for the committee to understand 
that. We need to see what we are going to hear from the 205th 
MI Brigade. What was in the mind of that commander? What did he 
think?
    So if we can set that aside, let me share with you one of 
the findings that came out of the Department of the Army IG 
investigations but are preliminary. They are not approved. I am 
sure they will be shared with this committee. Our doctrine is 
not right. It is just not right. There are so many things that 
are out there that are not right in the way that we operate for 
this war. This is a doctrinal problem of understanding where 
you bring--what do the MPs do? What do the MI guys do? How do 
they come together in the right way? This doctrinal issue has 
to be fixed if we are ever going to get our intelligence right 
to fight this war and beat this enemy. So we have problems that 
have to be looked at from top to bottom in order to ensure that 
there is no confusion. Because, you see, the Ryder Report says 
one thing, the Taguba Report will say one thing.
    Senator Collins. Exactly my point.
    General Abizaid. You are going to see that the Fay Report 
says something else. It is not because anybody is lying to 
anybody; it is because the system is not right. There are a lot 
of systems that are wrong out there that we had better fix if 
we are going to beat this enemy.
    Senator Collins. But, General, I guess what concerns me is, 
when you have all these contradictory doctrines or all these 
contradictory findings, it suggests to me that there was great 
confusion at the prison, and that confusion can set the stage 
for the kinds of unacceptable abuses that occurred. That is my 
concern.
    General Abizaid. It is a concern that I share, Senator, and 
we will find out the facts. But I would like to ensure that you 
understand that there is great confusion in a combat zone all 
the time--almost as much as there is here in Washington, but 
not quite.
    Senator Collins. Thank you, General.
    Chairman Warner. Thank you, Senator.
    That confusion in the combat zone goes way back in history.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I wanted to join 
with others in thanking you for convening this hearing and 
doing your utmost to get to the bottom of these matters.
    But I really question our ability to get down to the truth 
of what has occurred at 6 minutes apiece. We now have heard 
from 15 of the highest-level officials involved in this entire 
operation, from the SECDEF to the generals in command, and 
nobody knew that anything was amiss, no one approved anything 
amiss, no one did anything amiss. We have a general acceptance 
of responsibility, but there is no one to blame, except for the 
people down at the very bottom of one prison. The focus has 
been on that, although the ICRC report says that there were 
abuses at 14 different prisons under U.S. control.
    According to The New York Times today, the ICRC complained 
in writing on November 6 about some of the abuses that they had 
witnessed, which paralleled the practices that were shown in 
the pictures, of holding Iraqi prisoners naked in dark concrete 
cells for several days at a time, forcing them to wear women's 
underwear on their heads while being paraded and photographed, 
and it characterizes the response of the Army to that complaint 
as barring unannounced visits by the ICRC at the prisons. It 
cited a particular letter dated December 24 that the Army had 
described as evidence of the military promptly addressing the 
ICRC concerns, but the action that was taken, the barring of 
unannounced visits, brings into question what the content of 
that letter actually was.
    The Army has refused to release that letter, citing ``a 
tradition of confidentiality in dealing with the international 
agency.'' An Army spokesman declined on Tuesday to characterize 
the letter or to discuss what it said about the ICRC's access 
to the cell block.
    General Sanchez, is that evidence of the transparency of 
this Army's handling of these matters? How are we going to find 
anything out if no one will tell us anything or even provide 
the information that is necessary to evaluate these matters?
    General Sanchez. Senator, I swore to tell you the truth, 
and everything that I have told you in here is the truth.
    Senator Dayton. What is in the December 24 letter to the 
ICRC?
    General Sanchez. Sir, I do not recall exactly what the--we 
have the letter, obviously, and I would have to leave it to the 
Department to provide that letter to you, sir. Sir, as far as I 
am concerned, we are transparent within CJTF-7.
    Senator Dayton. All right, I will accept that, then. So you 
will provide a copy of that letter, and we can assess what the 
response was?
    General Sanchez. Sir, as long as that is within the 
approval of the higher headquarters and the DOD, yes, sir, we 
will provide that.
    [The information referred to follows:]

    The requested document was provided as an attachment to the 
Lieutenant General Sanchez QFR number 35.

    Senator Dayton. All right. That is a big caveat, but we 
will see what comes forward.
    General Sanchez. Sir, I have no problems with providing you 
that letter; however, there are higher-headquarters directives.
    Senator Dayton. Fair enough.
    Sir, on November 19, you--again, according to another 
newspaper report; sometimes I think our responsibilities in 
this body are relegated to reading the newspapers and watching 
the other news reports to find out these things that we are not 
getting any information about--but there is reportedly a memo 
from your office, General Sanchez, on November 19, that placed 
the two key Abu Ghraib cell blocks, where the abuses occurred, 
under the control of Colonel Pappas. Then there is also 
reference made to a request he reportedly made to you 11 days 
later about a interrogation plan for a particular prisoner that 
involved--first, the interrogators were to throw chairs and 
tables in the man's presence at the prison and ``invade his 
personal space.'' This is a request from Colonel Pappas, the 
man to whom you turned over that authority over those two 
cells. Then the police were to put a hood on his head and take 
him to an isolated cell through a gauntlet of barking dogs. 
There, the police were to strip-search him and interrupt his 
sleep for 3 days, with interrogations, barking, and loud music, 
according to Army documents, the plan that was sent to you. Is 
that one of the 25 requests for additional interrogation 
techniques that you approved?
    General Sanchez. Sir, first of all, you stated that I 
issued an order that I specifically put key cell blocks under 
Colonel Pappas. I never issued such an order. Second----
    Senator Dayton. Okay. So the article is incorrect?
    General Sanchez. Sir, I never issued such an order.
    Second, that request never made it to my headquarters--or 
to me, personally, rather.
    Senator Dayton. So there was not any memo on November 19 
from your office to place these cell blocks under Colonel 
Pappas?
    General Sanchez. No, sir. I never issued such an order.
    Senator Dayton. All right.
    General Sanchez. That specific request for interrogation 
methods, that never got the CJTF-7 commanding general's level, 
and I never approved any interrogation methods other than 
continued segregation.
    Senator Dayton. Thank you.
    General Abizaid, you commented on the need to stay the 
course. Speaking for myself--I will not presume to speak for my 
colleagues--the Senate has been bipartisanly resolute behind 
every request the President has made for funding and support. 
It has been virtually unanimous. It has been across the board--
the supplemental appropriations, the authorizations we are 
taking up now, the 2005 authorization. We are adding, at the 
request of the President, an additional $25 billion for 
purposes that have not even been defined. But I think it is 
something I wanted to try to get an answer on from various 
authorities. What is that course? What is the direction that we 
are on? I would just note in response particularly to some 
comments that were made about how well things are going, I do 
not know how to sort this out. I want us to succeed there. I 
just want to be told the truth about whether we are doing well 
or not, so we can assess whether the Minnesotans and other 
Americans who are serving over there are going to be there for 
months or years, and what their likelihood is of returning 
safely and alive.
    But I refer here to a Washington Post comment made by a 
Kurdish member of the IGC, that if something is not done about 
the security situation, there will be no transfer of power. 
``Uthman''--his name--``who is generally pro-American, 
described the assassination as only the most extreme example of 
the lawlessness that has grown in the year since President 
Saddam Hussein was driven from power. `Never in Iraq has it 
been like this. Never. Even under Saddam,' he said. `People are 
killed, kidnapped, and assaulted, children are taken away, 
women are raped, no one is afraid of any punishment.' '' Is 
that an accurate description of 1 percent of the country, 5 
percent, more than that? What is the security situation there, 
sir?
    General Abizaid. Yes, sir. I appreciate the question. First 
of all, not only were people carried away in the middle of the 
night and raped and tortured and killed under Saddam, but it 
happened at a huge scale, at an institutional scale unequaled 
in any recent memory, perhaps only rivaled by what the Nazis 
did. So, are things better just by the mere fact that that 
regime of torture and intimidation is gone? Yes, that is a good 
thing.
    On the other hand, I will not be Pollyannaish about where 
we are, Senator. This is a hard thing, and it is going to take 
a long time, and it is going to take a lot of courage and a lot 
of perseverance and, unfortunately, more blood, and it is going 
to take more treasure. But there are more people in Iraq that 
are working with us to try to make their country a better place 
than are trying to tear it apart. The people that are trying to 
tear it apart are ruthless. They are doing it precisely now for 
the reasons that--I think I have been about as honest as I 
could be with this committee in the past--because this is the 
vulnerable time. They must make it fail now. They are pulling 
out everything that they can to make it fail. It is hard. That 
is why we kept extra forces there. It is hard, and it is tough, 
and it is difficult. But we will prevail. I am telling you, 
there are things that are bad about Iraq, and we are 
responsible for security, and it is not like walking in 
downtown Washington, DC. It is a dangerous place. But I can 
tell you, people have a right to express their opinion. There 
is political activity, there is freedom of the press, there are 
things that are happening in Iraq that do not happen anywhere 
else in the Middle East, and we ought to be damn proud about 
it.
    Senator Dayton. May I just conclude? My time is up. How 
soon do you expect that the 200 or 4,000 or whatever Iraqi 
police and militia will be in a position to enforce their own 
law and order on their city streets?
    General Abizaid. Well, Senator, I would have said, before 
the recent events, that somewhere between September and 
December they would be ready, but we had a setback. We know we 
had a setback, and we are putting one of our best officers in 
the United States military on the job. If the creek does not 
rise, somewhere between January and April they will be ready.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, let me echo the sentiments of all of our 
colleagues up here relative to the leadership you are providing 
and the great job that all the men and women underneath you are 
doing. While we have seen this story on the front pages of the 
paper for the last 3 weeks, those of us who have followed the 
details of the battles that your men and women are waging every 
day know and understand that you have scored major victory 
after major victory in the last 3 weeks, and we commend you for 
the great job your folks are doing.
    Colonel Warren, would you tell me what the jurisdiction is 
between the Central Intelligence Agency (CIA) and the Army 
relative to the arresting, securing, transporting, and 
interrogation of these detainees in Iraq?
    Colonel Warren. Sir, I do not know that it is a matter, 
necessarily, of jurisdiction. We do know that other agencies do 
detain individuals in Iraq. They use the same legal standard 
under the Fourth Geneva Convention, which is that they are 
imperative threats to security. Once they are brought into a 
coalition force's detention facility, they are subject to our 
rules and regulations.
    Senator Chambliss. Well, is there any integration or 
cooperation between the CIA and the Army relative to the 
securing of prisoners and bringing them to places like Abu 
Ghraib?
    Colonel Warren. Sir, your question is outside the scope of 
my knowledge. I can speak to the rules that apply once they are 
inducted; the arrangements relative to operations, I am unable 
to speak to those.
    Senator Chambliss. General Abizaid, can you answer that 
question?
    General Abizaid. Sir, I would like to answer the question 
in closed session.
    Senator Chambliss. Okay.
    General Abizaid and General Sanchez, I have asked this 
question twice before, and I still have not gotten a 
satisfactory answer. General Ryder was sent to this prison. He 
was there in late October, early November 2003. During the very 
time he was there, these particular incidences that are 
alleged, the alleged abuses that we are talking about now, were 
ongoing. Yet even though he was asking questions of the 
conditions of the prison and the condition of the prisoners, 
nobody told him, apparently, one word about these incidences 
happening. Can either of you give me any explanation of why 
that would have happened when a general of his stature was 
there?
    General Abizaid. Well, I can tell you that as I travel 
around, I do not always get the whole truth and nothing but the 
truth. I get a lot of, ``Everything is okay, everything is 
fine, do not worry about it.'' That is one of the problems that 
we have in the Armed Forces, that we have to look beyond our 
rank and think about what would our son be doing in that 
particular position in that particular unit, and is he or your 
daughter doing the right thing or not. So just because General 
Ryder was there, because General Sanchez was there, because 
half a dozen other important people that went there to visit it 
did not see it does not mean it was not happening. We have a 
lot to understand about what went on in that organization, and 
why and who was responsible.
    Senator Chambliss. Well, I accept your answer. I think it 
is a repeat of the statement you made earlier that there are 
some things in this system that are broken, and you are now 
working to fix them. That is what leadership is all about; when 
you recognize a problem, you take after it, and you fix it. I 
commend you for doing that.
    General Miller, the situation at Guantanamo has been 
alluded to by a number of folks during this process. I have 
been down there a couple of times. I had the opportunity to 
visit the prison, both before the new camp was built as well as 
afterwards, and I saw the interrogation of prisoners down 
there. From what I saw, and from what I have heard, there has 
been no systemic prisoner abuse that was ongoing at any point 
in time at Guantanamo, and I just wish you would address that 
very quickly, if you will, please.
    General Miller. Thank you, Senator. Sir, there was no 
systemic abuse of prisoners at Guantanamo at any time. I 
believe that there were three or four events--I will have to 
correct that for the record as we go back and look--of 
instances of minor abuse.
    [The information referred to follows:]

    There were a total of eight instances of minor abuse requiring 
administrative action. Those infractions resulted in one reassignment, 
one counseling, three reprimands, two Article 15s, and one Special 
Court Martial acquittal.

    Two or three of those were corrected by administrative 
action, an Article 15, and one went to court-martial about an 
abuse of one of the enemy combatants down there. It was the 
effect of strong, dynamic leadership by the chain of command 24 
hours a day, 7 days a week, that did not allow the abuse to 
happen. We walked the cell blocks and the interrogation booths 
of Guantanamo around the clock--not because we did not trust 
our people, but this is a very difficult mission, and it takes 
active engagement by leadership to ensure that it is done 
correctly. That is why, in Guantanamo, because of the 
enormously talented people who were there--75 percent, as most 
of you know, were Reserve component leaders--we were 
successful.
    Senator Chambliss. Thank you.
    Colonel Warren, there is an article in The Wall Street 
Journal today, which says, ``A senior legal advisor to 
Lieutenant General Sanchez helped draft a formal response to 
the Red Cross's November report, according to one senior Army 
official.'' Is that you they are referring to?
    Colonel Warren. Sir, that may be me to whom they are 
referring. In fact, I did not draft that particular response. I 
believe, however, that my office did. As General Sanchez 
alluded to earlier, before January the intake of working 
papers--the camp visit reports from the ICRC--were handled in a 
haphazard manner. Some of them were given to the camp 
commander, some were given to the MP brigade, some went to my 
office. In the particular case that is at issue, the October 
visit, it took a period of time--and I do not know how long, 
but I believe several weeks--for the working papers to reach 
the level of my office. My office participated in the drafting 
of a response for Brigadier General Karpinski's signature. That 
response was dated December 24, and would have been delivered 
to the ICRC.
    When we discovered this haphazard process--and, frankly, 
were concerned in the December time frame, when I first became 
aware of the content of the report and its genesis--I talked to 
General Sanchez. This would have been in early January. General 
Sanchez then mandated that, from that point forward, all ICRC 
reports and working papers would be addressed to him, and that 
the single entry point for those to the command would be me. 
That way we could maintain positive accountability of those 
reports, as well as take remediative action and track the 
corrections that were done by the subordinate commands.
    Senator Chambliss. Thank you.
    Thank you, gentlemen.
    Chairman Warner. Thank you very much, Senator.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    I thank our witnesses for their service and for their 
appearance today. I know it is not an easy assignment to be 
here, given, especially, all your other responsibilities. But 
it is in line with this committee's constitutional and 
institutional responsibilities, and I believe all of us are 
trying to discharge them to the best of our ability.
    General Miller, I would like to return for a moment to this 
Interrogation ROE document that has been much discussed. 
General Sanchez characterized this document as having been 
developed at a relatively low level, at the company level, and 
indicated that he had not seen it before it became public at 
our hearings. But in an annex to the Taguba Report, it was 
revealed that this document was briefed to you as part of a 
situation report when you visited Iraq in August 2003. What was 
your reaction to that document at that time? Did you have any 
concern that the techniques described would violate the Geneva 
Conventions?
    General Miller. Senator, that report is incorrect. At no 
time was that document briefed to me during my visit in the 
August/September time frame.
    Senator Clinton. Was it briefed to you at any time prior to 
that or following that period?
    General Miller. Senator, that document was never briefed to 
me at any time.
    Senator Clinton. Were the contents of the document briefed 
to you, General?
    General Miller. The contents of that document were not 
briefed to me.
    Senator Clinton. So it is not only that you never saw the 
document, the slide; you were never briefed, orally or in 
writing, about the contents of that document. Is that correct?
    General Miller. Senator, that is absolutely correct.
    Senator Clinton. General Sanchez, at a hearing last week, 
General Alexander, the head of Army MI, distributed that slide 
to the committee. He stated, at that time, that the slide was 
prepared by CJTF staff, your staff. Do you know where General 
Alexander obtained the slide or why he believed that this came 
from your staff?
    General Sanchez. No, ma'am, I do not.
    Senator Clinton. Colonel Warren, do you have any 
information that would lend us some additional enlightenment 
about why General Alexander told us, in sworn testimony, that 
this slide came from General Sanchez' staff?
    Colonel Warren. I absolutely do, ma'am. The reason that the 
General made the statement that he did is because the slide, as 
we now know, contained a CJTF-7 logo and was posted on the wall 
of the Joint Interrogation and Debriefing Center at Abu Ghraib. 
It was titled ``The Interrogation Rules of Engagement,'' an 
unfortunate use of the term ``ROE. What it should have said is, 
``Interrogation Policy Extract.'' That is the context that is 
so vital for you to understand, ma'am. When that slide was 
created--and I talked to the person who created it; it was the 
commander of Alpha Company 519th MI Battalion----
    Senator Clinton. What was that person's name, Colonel?
    Colonel Warren. Captain Woods, ma'am.
    Senator Clinton. Thank you.
    Colonel Warren. It was intended to be a prophylaxis. There 
is really nothing insidious about that particular slide. In 
fact, if you will go back, ma'am, to the Counter-Resistance and 
Interrogation Policies, which General Sanchez has said we will 
make available to the committee, you will see that they lay out 
specific measures that are approved.
    The October 12 memorandum, in fact, approves only those 
measures which are contained within the Army Field Manual on 
interrogations that applies to POWs and segregation in excess 
of 30 days. The intent of the slide, however, was to ensure 
that interrogators understood that those measures on the left-
hand column--the ones that were approved, the ones I 
mentioned--were authorized, but that any other measures were 
not, without commanding-general approval.
    Now, why is it that some of those, again, that seem to be 
the so-called ``harsh methods'' appear on the right, ones such 
as sensory deprivation that were never in any authorized 
policy? The reason is that within the drafts that we prepared 
in the headquarters in the September and October time frame, 
we, collectively--the legal community and the MI community--
took every doctrinal approach that was authorized, we took 
every approach that had been used by interrogators in other 
places, we took every approach that was contained in any 
document that we could find, and we put that in a policy so as 
to regulate it to ensure that it complied with the Geneva 
Conventions, that there was command oversight, there was a 
specific safeguards document that was published that referenced 
the Conventions, and required that at no time could any 
interrogator in any approach violate the floor of the Geneva 
Conventions--that is, the basic requirements to food, shelter, 
water, medical care, clothing, and protection. It required an 
interrogation plan. It required that any exception to policy go 
through the senior intelligence officer and the staff judge 
advocate, me, before going to the commanding general.
    So the intent of that slide was to remind interrogators 
that anything that was not authorized had to go to the 
commanding general. By the way, that list was prepared by a 
captain with all good intentions, but it had items on it that 
could never be approved, and frankly, could never reasonably be 
requested.
    But note, ma'am, what is on the bottom. That is something 
that often is overlooked, because that captain did not do a bad 
job. That captain paraphrased the safeguards that are in 
enclosure two of our Counter-Resistance and Interrogation 
Policy. You will note that they talk about the requirement to 
treat everyone with humanity, to follow the Geneva Conventions, 
and to never unlawfully touch a person who is under 
interrogation.
    Senator Clinton. Colonel, may I just quickly follow up in 
one question. Are you aware of any requests for approval 
submitted in writing for any exceptions to the list on the 
right-hand side?
    Colonel Warren. Yes, ma'am. I am aware of approximately 25 
requests for segregation in excess of 30 days, which went 
through the process of approval that I described. I am also 
aware that there were three requests for stress positions which 
were submitted and were denied at the brigade commander level, 
so they never would have arisen to the CJTF-7 level for review 
or approval.
    Senator Clinton. Is it also your understanding that non-
military agents of our government and private contractors were 
similarly bound by the rules that you have just described?
    Colonel Warren. Ma'am, I can not speak definitively to the 
former. However, I can speak definitively to the latter, and 
any contractors who were working within our facility under 
contract to the DOD were certainly and clearly bound by our 
rules and policies.
    Chairman Warner. Thank you very much, Senator.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    General Abizaid, is it fair to say that people in the 
region, the Arab world, are watching these hearings, and have 
been?
    General Abizaid. It is fair to say that, Senator, yes, sir.
    Senator Graham. In your professional opinion--I know we are 
sort of beating on ourselves here a bit--does this help or hurt 
our cause?
    General Abizaid. It helps our cause.
    Senator Graham. I could not agree with you more.
    General Abizaid. It helps our cause, because they have to 
know that people will be held accountable who are in positions 
of responsibility.
    Senator Graham. Does anybody at this panel feel like a 
burden has been placed upon you to come here and have to talk 
about what happened?
    General Abizaid. No, sir. We feel it is our responsibility.
    Senator Graham. Colonel Warren, you are a very good JAG 
officer and a very good officer, and I know you are in a tough 
spot. But if you had talked about that slide an hour ago, that 
would have really helped. So just pipe up. [Laughter.]
    Don't be bashful.
    Now, I disagree with you a bit, General Abizaid, about a 
doctrine problem. I do not think we have a doctrine problem. I 
like our doctrine. Our doctrine, when it comes to trying to 
gather intelligence, is that anybody in Iraq is covered by the 
Geneva Conventions, and that we are going to follow the law 
because that is who we are as a nation. The idea that MPs--
General Miller, I am talking to you now--can help the 
interrogators know what is going on in the cell block is a good 
doctrine, is it not?
    General Miller. Yes, sir, it is.
    Senator Graham. It is stupid to not be able to talk to the 
people who are running the jail about how the prisoner is doing 
that day before you interrogate him, right?
    General Miller. Yes, sir, that is exactly right.
    Senator Graham. Okay. For those who are watching, in the 
Arab world or anywhere else, can you get good intelligence and 
still be humane and decent?
    General Abizaid. Yes, you can, sir.
    Senator Graham. Do you agree with that, General Miller?
    General Miller. Yes, sir, I do.
    Senator Graham. That is our doctrine.
    Our problem is that these well-thought-out policies and 
procedures, when it came to practice, failed miserably, and 
that is why we are here, is that not true?
    Now, let us talk about how that failure may have occurred. 
Colonel Warren, I need you to help me here.
    Colonel Warren. Yes, sir.
    Senator Graham. Pappas comes in November, is that correct, 
General Sanchez?
    General Sanchez. Yes, sir, that is correct.
    Senator Graham. But we know that in October abuse is 
already taking place before he gets there, is that correct?
    General Sanchez. Yes, sir, now we know that.
    Senator Graham. Okay. So there was a culture in that jail 
that was abusive before November. My question is, do we know if 
it changed after November in its tone or its application? Do we 
know the answer to that yet?
    Colonel Warren. Sir, I do not think we know. I think, as we 
have said, that the Fay Report may provide some insight, and 
also the CID report conducted by the Army is not yet final.
    Senator Graham. Is it true, or not, that some of the people 
in these abuse photos are common criminals?
    Colonel Warren. Sir, that is absolutely correct. We know, 
from the list of victims, that that is true.
    Senator Graham. So now we know that the abuse was not just 
directed at the high-value targets, but there was abuse going 
on, just in general.
    Colonel Warren. Absolutely correct, sir, and they should 
not have been in that cell block. That violated our orders and 
our policies.
    Senator Graham. So one thing we can find out pretty quickly 
is, in October, it is done to people who are not high-value 
targets. That jail was just sort of screwed up.
    Colonel Warren. Certainly, it would suggest, by the 
investigations and the evidence we have, that that statement is 
accurate. Yes, sir.
    Senator Graham. General Sanchez, I have never been in 
combat, but I do have some knowledge of the military. I have 
never seen a more dysfunctional command relationship, in the 
history of me looking at the military, like that jail. Do you 
agree with that?
    General Sanchez. Sir, it was dysfunctional before November 
19.
    Senator Graham. Right.
    General Miller, the reason you were called over is to make 
sure that we not only did this legally, but to ensure we that 
got the necessary intelligence to win this war, is that 
correct?
    General Miller. Sir, I was requested to come over to give 
an assessment and then to be able to----
    Senator Graham. Is that why you brought him over, General 
Sanchez?
    General Sanchez. Yes, sir.
    Senator Graham. I think you have done a great job at 
Guantanamo Bay. I am glad you brought him over.
    People did not misunderstand what you said. They just 
totally ignored it. That is why we are here, is it not?
    General Miller. Sir, in my opinion, that is exactly 
correct.
    Senator Graham. Now, here is my problem. When it comes time 
to assess who ignored it, I am just not convinced that it is 
six or seven MPs doing this by themselves, because we know, in 
the photos, Colonel Warren, that there are people who are not 
MPs. We know that MI analysts and maybe interrogators are 
present at abuse situations.
    Colonel Warren. That is correct, sir.
    Senator Graham. Do I have your promise and pledge, all of 
you, that you are going to make sure that whatever information 
we get out of these court-martials will answer that question?
    General Abizaid. You do, sir, absolutely.
    General Sanchez. Absolutely, sir.
    Senator Graham. I will give everybody an A-plus past 
January. I thank General Sanchez. You reported this 
appropriately to General Myers. Did you call him on January 14?
    General Sanchez. Sir, I called General Abizaid.
    Senator Graham. Okay. Who called General Myers?
    General Abizaid. I did, sir.
    Senator Graham. You told him this was a big deal.
    General Abizaid. I did, sir.
    Senator Graham. He had every assurance that you were 
investigating it. So from General Myers' point of view--he is 
running this war--it is fair to say that, in January, he 
thought you were on top of it and you were investigating the 
matter, is that correct?
    General Abizaid. That is correct, sir.
    Senator Graham. So when we look at responsibility up the 
chain, the Chairman of the Joint Chiefs was informed that it 
was being investigated in early January.
    General Abizaid. I would say immediately, yes, sir.
    Senator Graham. Please, if you can, explain how the abuse 
could have happened at this level, for this long, with this 
much devastation to our country, and no one knew about it 
before January in the photos given over by the specialist?
    General Abizaid. Explain how the abuse was taking place 
between October and November with us not knowing about it?
    Senator Graham. How did it happen so long and so deep 
without us knowing?
    General Abizaid. Well, I think there are failures in people 
doing their duty, and there are failures in systems. We should 
have known, and we should have uncovered it and taken action 
before it got to the point that it got to. I think there is no 
doubt about that. I have asked myself the question, as I am 
sure everybody else in the chain of command has, what could and 
should we have done differently? I can think of some things 
that we have to do. We have to ensure that we have transparency 
with the ICRC, for example. We have to ensure that there are 
other methods--just like when we had this problem that we 
looked at during the movement phase of the war, where there 
were a lot rapes and sexual assaults going on that were 
unreported. When we looked at our systems, what we have at Fort 
Bragg, North Carolina, does not get replicated on the 
battlefield.
    So, Senator, there is a lot of work we have to do, and we 
have to fix this one so it doesn't happen again.
    Chairman Warner. Thank you very much, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman. Thanks to the 
witnesses.
    Obviously, I express not only my gratitude for your 
service, but my support for the mission we have sent you to 
Iraq to carry out. I think it is the test of a generation, and 
I appreciate your confidence as you go forward, because it is 
going to have a lot to do with our future security. It makes 
why we are here all the more heartbreaking and infuriating, 
because it distracts us from that mission. But I absolutely 
agree with you, we have to go at this. Casualties occur in a 
war. The tragedy here is that this prison abuse scandal is a 
self-inflicted wound. But, like any wound, we have to clean it 
up, fix it up, and then try our best to make sure it does not 
happen again.
    I want to express, first, my concern that, on more than one 
occasion, at least two of you today--and you are honorable 
people, obviously, under oath--have taken specific objection to 
parts of General Taguba's report. That report has received a 
lot of credibility and I believe it was a report, General 
Sanchez, to you. Should we think less of it because of the 
objections raised today? General Miller's response to a 
question Senator Clinton asked said that something that he was 
reported to have done or seen just did not happen. You have 
separated yourself from conclusions in the report on a few 
occasions. Does it lead you to doubt the thoroughness of the 
report, or lead you to feel, as the commander, that you ought 
to send somebody else out there?
    General Sanchez. No, sir, it does not. As we have stated 
here, there are some differences, there are some concerns with 
our doctrinal foundations and the conduct of MP and MI 
operations, and I think that is what is reflected there. We 
have to fix those over time.
    Senator Lieberman. So the areas in which you disagree--and 
you have heard that General Miller has disagreed with General 
Taguba's report--you are pursuing in different ways, then.
    General Sanchez. Sir, where I disagreed with the report was 
in my placing the 205th MI commander in charge of force 
protection and security of detainees.
    I believe that was exactly the right decision to make, 
given the circumstances, the tactical circumstances, and the 
warfighting conditions that existed----
    Senator Lieberman. So, in that case, your disagreement is 
on a matter of judgment, really, not fact.
    General Sanchez. Absolutely, sir.
    Senator Lieberman. General Miller, yours is a matter of 
fact.
    General Miller. Yes, sir, mine is a matter of fact. The 
incident that Senator Clinton brought forward----
    Senator Lieberman. In your testimony, you said it did not 
happen.
    General Miller. Yes, sir, that is correct.
    Senator Lieberman. Let me go on to another concern of mine 
that follows up on Senator Graham's questions. Let me preface 
this by saying, in taking some notes myself, General Abizaid, 
you said two things here today that I want to come back to. One 
is that, to the best of your knowledge, there was no pattern of 
prisoner abuse in your command. Second, you expressed a belief 
that there were systemic problems that existed at Abu Ghraib 
that may have contributed to events there. Obviously we are all 
interested in trying to figure out when a reasonable person in 
a position of responsibility would have found that out.
    The decision by the Pentagon to send General Miller to 
Iraq, and then your decision, General Sanchez, to get Colonel 
Pappas involved--am I correct, General Sanchez, that you are 
saying that that decision was made because of your concern that 
conditions at Abu Ghraib were as--I think someone used the 
word; maybe you did, yourself--dysfunctional? Is that correct?
    General Sanchez. Sir, that is exactly right. It was 
dysfunctional in terms of the ability to defend the FOB. That 
was the judgment that I expressed in the issuance of that 
Fragmentary Order.
    Senator Lieberman. Got it. Well, that is what I wanted to 
clarify. But, at that time, the dysfunction that you saw in Abu 
Ghraib did not include your knowledge of prisoner abuse. Is 
that right?
    General Sanchez. Sir, that is exactly right.
    Senator Lieberman. General Miller, your understanding of 
the reasons why you were dispatched to Iraq last fall did not 
include--or did they?--a concern about prisoner abuse.
    General Miller. Sir, they were not focused on the concern 
about prisoner abuse. They were about the overall capability of 
CJTF-7 to develop actionable intelligence, to do intelligence 
fusion, to see how interrogations were conducted.
    Senator Lieberman. Your stress on humane treatment, on the 
Geneva Conventions, was of your own initiative, not because 
anyone, as they dispatched you to Iraq, had said, ``We think we 
have a problem of prisoner abuse.''
    General Miller. Sir, that is absolutely correct.
    Senator Lieberman. Let me now go to this chart that has 
received so much attention. I have to say, again here, this was 
put before us by General Alexander, the general in the Army who 
is in charge of intelligence, so the fact that it comes from a 
lower-ranking--well, a company commander, Captain Woods, is 
surprising. Now, maybe it was given to us in the context of 
this investigation because it is not all bad news for the Army. 
It does have a series of approved approaches for all detainees 
on the left here, which certainly, to me, seems reasonable. At 
the bottom, it lists safeguards, including ``approaches must 
always be humane and lawful, Geneva Conventions apply.''
    The problem is this section here on the right, and Captain 
Woods told anyone who saw this chart that it required General 
Sanchez's approval. Some of these seem reasonable, some of them 
literally seem in violation of the Geneva Conventions.
    I wanted to ask you, Colonel Warren, two questions. First, 
how could Captain Woods have come up with these sections that 
she said required the commanding general's approval if the 
commanding general had not approved this chart? Second, do you 
agree that the procedures listed on the right side, including 
environmental manipulation, sleep adjustments, and sensory 
deprivation, are, in fact, violations of the Geneva Conventions 
under all circumstances? Because I thought in your answer to 
Senator Reed earlier, you opened a door in which you were 
suggesting they might not be. If so, I think it is very 
important for the committee to hear that.
    Colonel Warren. My answer is that they are not.
    Senator Lieberman. That these are not violations of the 
Geneva Conventions?
    Colonel Warren. These are not, in and of themselves, in 
isolation, violations of the Geneva Conventions. Specifically, 
the Fourth Convention, when applied to security internees--in 
this case, who were unlawful combatants.
    Senator Lieberman. Which covers a number of the people at 
Abu Ghraib, is that right?
    Colonel Warren. It does. It should cover those who, in this 
circumstance, would have been permissibly under active 
interrogation. As was pointed out by Senator Graham, some of 
the people depicted in these photographs should not have been 
under interrogation at all; they were of no interest. They were 
actually criminal detainees who should not have been in that 
cell block in the first place.
    But that as an aside, sir, this is more complicated than a 
yes or no answer. Those things that were on the right that were 
placed there by Captain Woods, as I said earlier, sir, were 
placed there in order to show the range of the universe, if you 
will, of things that were not authorized. They were 
representative.
    Senator Lieberman. Where did she get the authority to not 
only put them down on paper, but to say that they required the 
approval of General Sanchez? She is a captain.
    Colonel Warren. I think I can explain that, sir, because, 
again, I was present throughout as this policy developed.
    Senator Lieberman. Please, with the chairman's consent, if 
you would just take a moment to go over this.
    Colonel Warren. If I might.
    Chairman Warner. The witness will have adequate time to 
respond.
    Colonel Warren. Thank you, sir. This goes back to General 
Miller's team's visit, where they looked at a broad range of 
interrogation and intelligence analytical operations. Their 
recommendation was that we should have an interrogation policy. 
We, as a task force, did not have one. We were focused on the 
tactical level of interrogations. We were following 
predominantly Army Field Manual approaches. In addition, we had 
other units, such as Alpha Company 519th MI Battalion, which 
had served in Afghanistan, bring in their own policies that 
have been used in other theaters.
    Additionally, we had what we called the Common Law of 
Interrogation Approaches, and that consists of approaches which 
were variations on the authorized approaches contained within 
the Army Field Manual by way of implementation. So the point 
that was made, to have a policy, I believe, was a reasoned and 
correct recommendation, and I was present at meetings in 
which----
    Senator Lieberman. Reasoned and correct.
    Colonel Warren. Reasoned and correct, absolutely, sir. I 
believed we needed to have one as we moved our focus to the 
operational level, as we became more sophisticated, and, 
frankly, if we wanted to stem the growth of this Common Law of 
Interrogations so that we could regularize it, so that we could 
regulate it, and so that we should be able to provide proper 
oversight.
    So we took a number of these SOPs and policies. Among them 
were those in use in Guantanamo Bay. Others were, as I 
mentioned, those that were imported into theater. We put 
together a team of folks who were MI and legal officers. We 
looked at those policies, we reviewed them against the 
requirements that we believe were imposed by the Fourth Geneva 
Convention. We discarded some of those procedures. An example 
is sensory deprivation. We floated these through the command in 
a series of drafts.
    To be sure, in some of these drafts--specifically one dated 
September 10--you may very well find all of those on the right-
hand side, including sensory deprivation. But during the course 
of the staffing and the deliberative process and the review--
and, sir, by no means is there a book that you can look up that 
runs through interrogation approaches and methods and has a 
check and a block that they comply or do not comply with the 
Geneva Conventions--this is a matter of judgment, a matter of 
rigor, and a matter of oversight and interpretation. We came up 
with the interrogation policy first dated September 14. We then 
sent that to CENTCOM, as General Sanchez described.
    During the course of the next 28 days, this deliberative 
and consultative process continued within the legal and the MI 
community. It resulted, ultimately, in the October 12 policy. 
The October 12 policy, as I described, requires compliance with 
the Geneva Conventions. It draws a legal contrast between POWs 
and between security internees interned for suspicion of 
hostile activity to the security of the state, and it requires 
the safeguards and oversight mechanisms I described. That 
policy contains only the field manual approaches, which applied 
to enemy POWs who enjoyed the highest, most preferred status on 
the battlefield plus segregation in excess of 30 days. When 
Captain Wood at some point, we believe in October, prepared 
that slide, what I believe that she did was to take all of the 
approaches that were floating around the command, if you will, 
in various drafts, and within the policies listed them to 
ensure that interrogators understood that only those things on 
the left were authorized without permission.
    Senator Lieberman. But again, you would say that of the 
group on the right, which has attracted the attention of the 
committee, the media, and the public, none of these are 
inherently or automatically in violation of the Geneva 
Conventions?
    Colonel Warren. In my opinion they are not, sir, and this 
is why one has to read not just Article 31 of the Fourth 
Convention but also Pictet's commentary and various legal 
treatises and interpretations of coercion as applied to 
security internees.
    I will make another point, sir, with regard to the 
environment in which we found ourselves. Remember that there 
were three Geneva Conventions, initially. In the 1929 
iteration, after World War II, the Fourth Convention, the 
Civilian's or Occupation Convention, was added. The body of 
case law, if you will, concerning interpretation of specific 
articles within the Fourth Geneva Convention is not very great 
at all. In fact, as we worked through this we did the best we 
could do under the exigencies of the circumstances and I am 
frankly very comfortable, sir, with that October 12 policy that 
remained our policy for a period of 8 months.
    If I might add one other thing, sir. It is very important--
and this is a problem with a chart like this--it is very 
important that you understand the definitions which are 
contained, for example, in the field manual and the policy of 
some of those measures. To use a term I have learned in the 
past week in Washington, the optics are bad on that chart. But 
if you read the actual definitions you will find, for example, 
with regard to environmental manipulation, it sounds horrible. 
But the fact is that environmental manipulation can be as 
simple as, while at all times maintaining the minimum 
requirements of the Geneva Conventions, that a person who 
cooperates in interrogations would get an air conditioned room. 
A person who is not cooperating gets the minimum, non-air 
conditioned room. Each of those approaches has to be laid out, 
in writing, in an interrogation plan. Each of those 
interrogation plans is reviewed at the brigade level. For an 
exception to policy it comes up for legal and senior 
intelligence review before going to the commanding general. So 
the intent of the chart, frankly, was to regulate, not to 
impose unlawful measures.
    Senator Lieberman. So though General Sanchez did not see 
the chart before last week when General Alexander put it before 
us, it accurately reflects what you think is the appropriate 
policy for interrogation?
    Colonel Warren. Those on the left and the safeguards, 
absolutely. Those on the right, again, are the range of things 
that may very well in implementation not be authorized. In 
particular, given the intensity, the magnitude, the duration, 
and the combination of measures, they may very well, as Senator 
Reed suggested, violate the Geneva Conventions. You have to 
look at it on a case-by-case basis.
    Senator Lieberman. But obviously you would agree that a lot 
of what we have seen in pictures that occurred in a particular 
cellblock in Abu Ghraib violated the Geneva Conventions?
    Colonel Warren. No question about it, sir. They also 
violated U.S. law and that is why we are seeing court martials.
    Senator Lieberman. This chart?
    Colonel Warren. Absolutely, sir.
    Senator Lieberman. Thank you very much.
    Chairman Warner. Thank you very much, Senator.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. I guess we can 
conclude that not even the combatant commanders can go very far 
without their lawyers, correct, General Abizaid?
    General Abizaid. I am going to hire Colonel Warren.
    Senator Cornyn. I do not think any of us should be 
surprised that at least six separate investigations occurring 
in a war zone might occasionally come up, at least in a 
preliminary fashion, with some conflicts or gaps in the 
investigation. But I want to make sure that we understand, at a 
baseline, where we are.
    General Abizaid, is it not true that in basic training our 
soldiers receive training on the Geneva Conventions?
    General Abizaid. Yes sir, that is true.
    Senator Cornyn. Also, prior to their deployment to the 
theater of operations they receive retraining on the terms of 
the Geneva Conventions?
    General Abizaid. They are supposed to, yes sir.
    Senator Cornyn. I believe that you have made very clear 
that under no circumstances, no matter what the category of 
detainee may be, that at a basic minimum everyone in the 
custody of the United States Military is entitled to be treated 
humanely. Is that correct, sir?
    General Abizaid. That is correct, sir.
    Senator Cornyn. I believe very strongly that in addition to 
the hearings that we have had here, which hopefully will, after 
they conclude, allow our military to get back and do what we 
have asked you to do in Iraq and Afghanistan, and that is 
defeat the enemy. That we have to let our military justice 
process work.
    But General Sanchez, you suspended the entire chain of 
command, not just privates and corporals, on January 17 or 
thereabouts. Is that correct?
    General Sanchez. Yes sir, that is correct.
    Senator Cornyn. So just to be clear, no one is pointing the 
finger at the lowest level of our military food chain and 
saying, ``You are at fault and the commanding officers are 
being protected.'' Is that right?
    General Sanchez. Sir, that is correct.
    Senator Cornyn. General Miller, I had the pleasure of 
traveling to Guantanamo Bay, like a number of committee members 
have, and meeting you there. I was enormously impressed with 
that operation. There have been some who, during the course of 
these hearings, have suggested that perhaps because of the 
various categories of detainees we have in different locations, 
whether in Iraq, Afghanistan, or Guantanamo Bay, there is some 
variation in terms of the acceptability of humane treatment. 
But would you also confirm for us that at a minimum everyone, 
regardless of their status at Guantanamo Bay or anywhere else, 
to your knowledge, is entitled to be treated humanely?
    General Miller. Yes, Senator. Every combatant who is at 
Guantanamo is detained in a humane manner.
    Senator Cornyn. In your opinion, General Miller, has the 
intelligence that you have been able to gain from those who 
have recruited, financed, and carried out terrorist activities 
against the United States or our military saved American lives?
    General Miller. Senator, absolutely.
    Senator Cornyn. Would you confirm for us, General Abizaid, 
that that is also true within CENTCOM?
    General Abizaid. Senator, I agree that it is true. I would 
also like to add that some of these people who we are dealing 
with are some of the most despicable characters you could ever 
imagine. They spend every waking moment trying to figure out 
how to deliver a WMD into the middle of our country. We should 
not kid ourselves about what they are capable of doing to us, 
and we have to deal with them.
    Senator Cornyn. If we needed any other reminder of that, 
the death of Nicholas Berg, I believe, reminded us, again, in a 
graphic fashion. But I, for one, am not troubled by the fact 
that some person who is trying to kill Americans is deprived of 
a good night's sleep in order to elicit information, consistent 
with the Geneva Conventions and our laws and humanity that 
might save American lives. I consider you all American heroes 
and congratulate you for the job that you are doing.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. General Abizaid, 
according to The Washington Post on May 8, 2004, starting in 
August 2003, Ambassador Bremer had concerns about the treatment 
of detainees and pressed the military to, ``improve conditions, 
and later made the issue of regular talking points and 
discussions with Secretary Rumsfeld, Vice President Cheney, and 
National Security Advisor Rice.'' The same Washington Post 
article notes that in August 2003, Ambassador Bremer, ``After 
interceding in one detainee's case, urged the U.S. Military in 
Iraq and top Bush administration officials to improve 
conditions and avoid potential fallout.'' General Abizaid, is 
that statement I just read essentially true?
    General Abizaid. Ambassador Bremer brought up to me on one 
of my many trips to Iraq, on more than one occasion, his 
concern about detainees.
    Senator Pryor. Okay, so you were aware that Ambassador 
Bremer had concerns about the treatment of detainees. Were you 
also aware that he raised this matter with a wide array of 
senior administration officials?
    General Abizaid. I am not aware of that, Senator, but as I 
understand the context of Ambassador Bremer's and my 
discussions, and also the context of discussions that I had 
with many Iraqis who were talking to me about the detainee 
issue, it had to do with moving into the prison system, being 
lost sight of because we did not have a good tracking system, 
not being able to get information to families in a timely 
manner. These were things that we were all concerned about. 
General Sanchez and I talked about them, and we certainly knew 
that the detainee system had to be such that we could identify 
people, track people through the system, and then release 
people in a timely fashion back to their families once we had 
determined that they served no intelligence purpose to us. 
Until General Miller got there--well, I should not say that. We 
were struggling with this very early on and I will not make any 
excuses for it other than to say, when you take a country in 
the shape that we took it, everything was broken and we were 
starting from zero.
    Senator Pryor. But are you saying that Ambassador Bremer 
did not have concerns about human rights violations? It was 
more a clerical concern?
    General Abizaid. To me the issue was how you want to 
describe human rights violations, as far as the Arabs were 
concerned and then Ambassador Bremer was concerned. ``My 
husband disappeared into your prison system and now you guys 
cannot find him.'' That is a human rights problem. I agreed 
with him and Rick agreed with him and we moved to fix it.
    Senator Pryor. Okay. General Sanchez, were you aware that 
Ambassador Bremer had concerns about the prison system?
    General Sanchez. Sir, on many occasions since the time I 
became the commanding general of CJTF-7, Ambassador Bremer and 
I had discussions about detainee operations. We talked, as 
General Abizaid stated, about the identification, the in-
processing, and the release procedures.
    Senator Pryor. What about the treatment of the prisoners 
and detainees?
    General Sanchez. We also talked at some points about the 
quality of life of prisoners and the conditions that existed, 
especially during the summer and into the early fall.
    Senator Pryor. Do you recall when he first brought those to 
your attention?
    General Sanchez. Sir, it was not a matter of him bringing 
it to my attention; it was a part of general discussions that 
we were having.
    Senator Pryor. Do you remember when those general 
discussions started?
    General Sanchez. Sir, we started having those in the mid-
summer time frame.
    General Abizaid. Senator, if I could just add, there is 
another issue here which I want to make clear to the committee. 
It has to do with what goes on at the point of capture. This is 
not police work that we are dealing with, it is not a standard 
arrest, it is combat, and there were an awful lot of people in 
Iraq at the IGC level that thought our troops were being too 
harsh in the way that they took people into custody. In my 
mind, having seen it personally on the battlefield, I thought, 
and I still think, it was some of the most professional work I 
have seen young troopers do anywhere. So, we did have a 
different point of view in that regard.
    Senator Pryor. General Sanchez, let me follow up with you, 
if I may. You mentioned you were having these general 
discussions about conditions and a variety of issues relating 
to the detainees. When did you first start to report that up 
the chain of command, and who did you report that to?
    General Sanchez. Sir, there were multiple occasions when 
General Abizaid and I had discussions, especially as they 
related to actions at the point of attack.
    Senator Pryor. Here again, do you remember when that 
started?
    General Sanchez. Sir, as I stated, immediately.
    Senator Pryor. As soon as you were aware of it.
    General Abizaid. Senator, let there be no doubt. We knew 
there were problems in the detainee system. We did not think 
that there was a set of conditions existing out there such as 
we have seen in the photographs. But we knew that there were 
problems and we moved to get them under control as quickly as 
we could. When I say immediately, I took command in July and I 
would imagine that, besides talking about operational matters, 
one of the first things that the two of us talked about was how 
we had to get this under control.
    Senator Pryor. General Abizaid, when you talked to your 
superiors, who did you talk to?
    General Abizaid. Sir, I cannot recall specifically 
mentioning the problem to the SECDEF or to the Chairman of the 
Joint Chiefs of Staff, but on one of their visits and during 
one of our phone calls--we talk all the time, and there is a 
free exchange of information--they would have known. I do not 
think that Don Ryder coming over to look at the system was 
indicative of us trying to sweep the problem under the table; 
it was indicative of us trying to fix the problem.
    Senator Pryor. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. One advantage of 
going close to last is that you can cross things off your list. 
I have done a lot of crossing off. Let me just share a concern. 
During the last 3 hours there have been eight references to 
different newspaper accounts, some of them with the same 
newspaper several times. Of the articles that were written, 
there are four of them that have been categorically denied by 
you, General Abizaid, or by General Sanchez, and I believe you 
in that. It leads me to believe this is so press-driven that it 
is just out of control. But when you get your briefings every 
morning, I know you read the different articles in the paper 
that affect you. Is that not correct?
    General Abizaid. Yes sir.
    Senator Inhofe. There are many times that you have found 
that they are in error, and I am sure you have either directly 
or indirectly called that to the attention of the newspaper or 
the publication that gave these in these articles. Is that 
correct? You have done it right here in this setting.
    General Abizaid. Well sir, there are a lot of things that 
are incorrect. I do not spend much time correcting them.
    Senator Inhofe. Well, I would hope you did not but I guess 
I would ask this: have you ever seen a retraction by any of 
these newspapers when something is proven to be wrong?
    General Abizaid. No sir.
    Senator Inhofe. All right. I have not either. I think 
Senator Collins was right when she talked about all the good 
things that are happening that you just do not see in the 
media. Not just the humanitarian things that we see when we go 
over to Iraq and go to Afghanistan and see what these great 
guys and gals are doing and how much they are loved by the 
people over there. In the case of Afghanistan, General Abizaid, 
the Oklahoma 45th, they have taken on the responsibility of 
training the Afghan National Army to train themselves, and they 
are doing a great job. When I was over there I watched the 
expressions on the faces of the new Afghan commanders, teaching 
and training their troops. This is something that would be 
worthy, certainly, of publication. I dare say very few people, 
not half of 1 percent of the people in America, know all these 
good things that are going on. Quite frankly it just breaks my 
heart to see you guys over here. I agree with what Senator 
Graham said, that we have to air this out and get it out in the 
public but we have already had the SECDEF, the Under Secretary 
of Defense, the Chairman of the Joint Chiefs of Staff, and the 
Vice Chairman of the Joint Chiefs of Staff, and quite frankly, 
I am sorry that you guys are here. I would rather be handling 
this in some way where we can get your statement, get it in the 
record and have that done with. Because you have an awesome 
responsibility. General Sanchez, as commander of CJTF-7--that 
is all the Army, all the Navy, all the Air Force, all the 
Marines, all the coalition forces, all the allies--that is your 
responsibility in Iraq. General Abizaid, you have that 
responsibility plus what is going on in Afghanistan. By the 
way, I think that the Afghanistan success story should serve 
and will serve as a model for what we are trying to get done in 
Iraq.
    So, that is just one opinion. I know that you are anxious 
to get back to the battlefield and that is where your mind is 
today and that is where your heart is. I did talk to Senator 
Warner when I found you were going to be here and he assured us 
that you had other reasons to be here. So, perhaps that takes 
care of that.
    I think some things are worth repeating. I think that until 
we see the Fay Report, until we get the results of the 
investigations, the results of the courts martial, we are not 
going to have the answers. This concept of undue command 
influence puts you in a very awkward position to say things, 
and I hope in your own minds you have not said anything 
publicly that is going to interfere with the prosecutions that 
are going on. Do you feel pretty comfortable that you have been 
able to do that?
    General Abizaid. Yes sir, I do.
    Senator Inhofe. I look at what happened when things were 
discovered and I was amazed with how quickly things were done, 
how quickly you took care of the problems that were there. The 
guards were removed, the commanders were relieved, criminal 
investigations started immediately. That was long before the 
public even knew what was going on, long before the pictures 
came out. Maybe the system is broken but it is not broken to 
the extent that you did not perform immediately when you found 
out what was going on.
    I want to say one thing, and this is just an opinion. There 
are a lot of people who have been critical that some of the 
guards, the seven guards that have been referred to many times, 
are taking the heat for all of this. I do not think there is an 
American out there, once they see the videos and the pictures 
that we at this table have seen of the behavioral pattern of 
these guards, who would be at all critical of any kind of 
punishment that they would be subjected to. Now, I am not 
saying anything that has not already been in the paper. I was 
very careful, after I saw those, not to say anything. But 
others did, and they talked about the fact that this was like 
they were staging a porn film. Well, this is something that no 
one would condone. You folks would not; no one else would. So I 
just think that we need to talk about the good things that have 
been happening and get you back in the battle where you belong.
    Before I run out of time, General Sanchez, there have been 
several things that you have taken away in terms of 
interrogation techniques. Do you think that has harmed your 
ability to get the information that you need to have?
    General Sanchez. No sir, it has not.
    Senator Inhofe. Okay. Colonel Warren, I believe it was you 
who said that, yes, in cellblock 1-A and 1-B those are the 
tough guys, those are the terrorists. But occasionally one gets 
in there who is not. I would suggest that probably the profile 
of that individual got them there and when you realized that 
they did not belong there you took them out. General Miller, is 
that what you think might have happened?
    General Miller. Sir, I was not there when they were using 
cellblock 1-A and 1-B, but in discussions that was the intent 
early on in September.
    Senator Inhofe. Okay. Well, I knew that you were not there 
at the time. In fact, I was down at Guantanamo Bay when you 
were there and you just did great work down there. My time has 
expired, but I am glad that Senator Cornyn brought up something 
most significant, and that was, did any of the information that 
you have been able to get from these detainees prevent 
something bad from happening or save American lives or save 
coalition lives and, if so, are there any specific examples 
that you would like to share with us? In other words, you were 
successfully interrogating some of these people in that 
particular section. Was some of the information that you got 
helpful in saving American lives or saving troops?
    General Abizaid. Senator, I do not know the answer to that. 
I certainly do know that in many cases good interrogation 
techniques used by very smart people have saved the lives of an 
awful lot of Americans and Iraqis.
    Senator Inhofe. Thank you very much.
    General Miller. If I could just add to that. General 
Sanchez, as one of my new jobs as the Deputy Commander for 
Detainee Operations, asked me to look at the intelligence 
function. I tell you that half the effort of CJTF-7, now Multi-
National Force Iraq, is going down to develop actionable 
intelligence at the unit level. That saves soldiers' lives 
every day. The other 30 percent goes toward theater-level 
things that come down from the commanders' decision or in 
taskings from other organizations. The other 20 percent we just 
keep as a standby that is used every day because of high 
profile. So that system, that organization works every day and 
every night to try to be able to provide actionable 
intelligence.
    Senator Inhofe. Thank you, General Miller, and I hope that 
the media is paying attention today after you gave--I know my 
time is up, but Colonel Warren wanted to say something about 
Article 32 early on.
    Chairman Warner. Please, Colonel Warren.
    Senator Inhofe. Is there anything you would like to say 
about Article 32?
    Colonel Warren. Well sir, Article 32 of the Fourth 
Convention is the one that prohibits torture and the conduct of 
medical experimentation and so forth. Those are grave breaches 
under the law of war. Of course, obviously prohibited under our 
policies, under our values, our standards, our training, and 
our interrogation policy.
    Chairman Warner. Thank you, Senator Inhofe.
    General Sanchez. Mr. Chairman, may I add something?
    Chairman Warner. Yes, General Sanchez.
    General Sanchez. As a result of the two visits from General 
Miller and then from General Ryder, the system that we put into 
place for intelligence fusion within CJTF-7 matured 
significantly because of the experience and the lessons and the 
integration of those lessons into the command under General 
Fast. There is absolutely no question in my mind that because 
of those two efforts, significant amounts of Americans' lives 
have been saved because of the turn in terms of from the time 
we find the information, develop the intelligence and get it to 
the tactical level for action, it is absolutely the right thing 
for us to have done and I would do it again.
    Senator Inhofe. Thank you for that answer.
    Chairman Warner. Thank you. General Sanchez, in my most 
recent visit I met with General Fast. Would you kindly explain 
the position that she occupies?
    General Sanchez. Yes sir. Brigadier General Fast has been 
my Director for Intelligence of the CJTF-7.
    Chairman Warner. Thank you very much.
    Senator Bayh.
    Senator Bayh. Gentlemen, thank you for your service to our 
country under most difficult circumstances. I can only hope 
that your treatment at our hands today has been humane. I 
sometimes feel empathy for those who are on the receiving end 
of these hearings.
    General Abizaid, who was responsible for the staffing 
levels at the prison, for the number of MPs and prison guards?
    General Abizaid. I would say the responsibility for a unit 
coming with the right number of people belongs to the United 
States Army. The responsibility if we have shortages then 
devolves upon CJTF-7 to tell me so I can tell the Army to fix 
it.
    Senator Bayh. The reason I ask is I understand Army 
doctrine calls for one MP brigade per about 4,000 prisoners, 
and here we had one battalion for what ultimately reached about 
7,000 or slightly more prisoners, or about five times the 
number of detainees per guard or MP that the Army doctrine 
would call for. I would like your opinion--and there have been 
some reports to this effect--this substantial overcrowding did 
not excuse the behavior, of course, but did it contribute to an 
atmosphere which might have given rise, at least in part, to 
this aberrant behavior?
    General Abizaid. Well, it contributed to systemic failures 
at the prison. I think that is clear.
    Senator Bayh. It gets to my second and somewhat broader 
concern, now that I have had a chance to reflect upon this 
whole set of circumstances. I would like your opinion, both 
with the benefit of hindsight and going forward, on whether we 
have adequate troop strength in Iraq to accomplish our mission. 
I have been concerned from day one, and I know Senator McCain 
and some others have had this concern, that we did not have 
adequate strength at the beginning to prevent some of this 
rampant looting that took place; that we did not have adequate 
troop strength to prevent some of the sabotage of vital 
infrastructure that took place; that we did not have adequate 
troop strength to immediately clamp down on the insurrection 
which has now gathered a momentum all on its own. I wonder if, 
just in a microcosm, this is another manifestation of our 
continual underestimation of the task that we have taken on 
here. In a situation like this where we are deposing a regime, 
we are trying to reconstitute a country with no history of 
democracy, it seems to me we should err on the side of having 
more strength than necessary rather than too little.
    Both looking back and looking forward, have we had adequate 
troop strength and do we have adequate troop strength to 
accomplish our mission with this critical June 30 handover fast 
approaching?
    General Abizaid. Have we had adequate troop strength? 
Certainly in February I would have told you absolutely. Things 
were where we thought they would be. Did we anticipate that 
there would be additional violence as we moved towards a 
political process? We did, and that is the reason I asked for 
the troops from the First Armored Division and the Second 
Armored Cavalry Regiment to remain there, although we did not 
specify them particularly. I would like to point out that one 
piece of hugely good news that has been lost in this period of 
the Abu Ghraib scandal is the incredible work and bravery and 
selflessness and military capability of those two units, as 
well as have the Marines in moving from positions in contact in 
Baghdad down into the south and fighting a very tough fight.
    But to answer your question directly--and forgive me for 
diverting--Senator McCain and I have had the opportunity many 
times to discuss it and I appreciate his opinion. There are 
certain types of troops that we do not have enough of and we 
still do not have enough of them, and we have to figure out how 
to get them. They are MPs and they are MI guys and they are 
human intelligence guys and they are civil affairs people. We 
must build a force structure that allows us to be able to fight 
a war like this in the 21st century and they are not in the 
force structure. We have MPs on the scene that the Army has 
done a very good job in training that do not happen to be MPs. 
We have Air Force truck units. We are doing things with our 
force structure that, in my view, we need to sit back from a 
service provider point of view and say, ``Okay, what do we 
really need?''
    Now, in terms of asking are there enough tanks, are there 
enough Bradleys, are there enough combat troops, marines, 
etcetera, I am pretty comfortable with that. It is the enablers 
I am not comfortable with. I will end it up by saying I am also 
not comfortable that there are enough international troops on 
the battlefield because the effort needs to be not just 
American, but it needs to be international. These are things 
that I have said, I believe, to the committee on numerous 
occasions.
    Senator Bayh. It is not new thinking.
    General Abizaid. Did I miscalculate the number of troops? 
Maybe. Maybe I miscalculated, but I think we have adjusted and 
will continue to adjust based on what the enemy does, because 
the enemy has a vote.
    Senator Bayh. The civilian leadership always places this at 
your doorstep, saying that they are endeavoring to get you 
everything you need and I certainly appreciate that. But Deputy 
Secretary Wolfowitz began to touch on this, I think, yesterday 
in some of his testimony up here in a different capacity, when 
he said this is not only a military undertaking, this is a 
political undertaking. I am just wondering if those who felt 
that we were going to be greeted as liberating heroes, so to 
speak, perhaps did not underestimate the magnitude of the 
societal transformation we have taken on. This goes way beyond 
the military purview, and I am just wondering if, given the 
magnitude of that task, we have been understaffed and this is 
just another manifestation of that.
    General Abizaid. Well Senator, I cannot comment for the 
political side of the house, but I can comment in saying that 
while we cannot be defeated militarily we are not going to win 
this thing militarily alone. We have to get everything 
together--economics, politics, intelligence, information, you 
name it--it all has to come together in a synchronized fashion 
that allows us to do this very important task. It is really one 
of the hardest things that this Nation has ever undertaken in 
this part of the world or anywhere else.
    Senator Bayh. Gentlemen, several of you have indicated in 
response to recent questioning that lives have been saved, 
attacks have been prevented with access to timely and accurate 
intelligence. I think, General Miller, you have indicated that 
approximately 600 of these detainees are some of the worst of 
the worst and that if released upon Iraqi society they would 
not only imperil our forces, but also innocent Iraqis. Colonel 
Warren, I think you indicated that the Geneva Conventions would 
allow somewhat more vigorous interrogations of some of those 
kind of folks, but with the exception of a few requests for 
solitary confinement we have not gone there. Is that all 
correct? Stress positions were requested but were not 
permitted.
    Where I am going with all this is that it is so important 
that we strike the right balance here. On the one hand, timely 
intelligence saves innocent Iraqi lives and the lives of our 
troops. On the other hand, there is a dividing line beyond 
which our moral integrity, our honor is vitally important if we 
are going to win this war against terrorism because we do stand 
for something better. So what has been brought before this 
committee with these pictures, which obviously go to the latter 
issue of who we are and what we stand for, let us not lose 
sight of the former, either.
    The pictures that stick in my mind also, Mr. Chairman, are 
the pictures of the young men out there at Walter Reed, some of 
them missing arms, some of them missing legs, fractured lives 
in the full flower of their youth. The pictures that came out 
of those flag-draped caskets. Those pictures are important, 
too. So, there is no excuse for the behavior that gave rise to 
the pictures of this abuse at this prison. We have to root it 
out and some of these individuals are on trial. But at the same 
time, let us not repeat some of the mistakes that we have made 
in the area of covert intelligence where the Director of the 
CIA now tells us it is going to take 5 years to reconstitute 
our covert capabilities and adequately protect this country. A 
balance is in order here and I just hope that we are empowering 
you to strike that balance in ways that protect our brave men 
and women on the one hand and preserve our honor on the other.
    Chairman Warner. Thank you very much, Senator. Is there a 
desire for any witness to speak? If not, Senator Dole.
    Senator Dole. Thank you, Mr. Chairman. Gentlemen, I 
certainly want to join my colleagues in thanking you for your 
tremendous leadership and your outstanding service to your 
country. Like Senator Cornyn, I regard you as heroes sitting in 
front of us today, and I thank you for your time with us. Since 
all of you have been very forthcoming in the last 3 hours of 
questions, I would like to take this opportunity to ask some 
questions with regard to your overall Iraqi operations.
    First of all though, General Miller, let me ask you, would 
you clarify who will be in charge of running the Iraqi prison 
system after June 30?
    General Miller. Senator, that is still in dialogue and 
discussion between the CPA, the IGC, and now the soon-to-be 
Interim Iraqi Government. Those transitions are working. I will 
tell you that as far as Multi-National Forces Iraq, our plan is 
to continue to run our theater-level, our Multi-National Forces 
Iraq three detention facilities and other detention facilities 
that allow us to ensure we can implement a safe and secure 
environment. But as we work towards transition, every day I 
meet with my Iraqi counterparts to see how we can more 
successfully move to integrate this operation.
    Senator Dole. Thank you. Now, in an intercepted letter 
written by al Qaeda operative Abu Musab al-Zarqawi, we were 
given insight to a terrorist message that was very significant 
and compelling. In noting concern that he may lose a foothold 
in Iraq he wrote, ``With the spread of the army and the police, 
our future is becoming frightening.'' He went on to detail the 
very environment of chaos his network requires to succeed--
attacks on Iraqi security forces, the targeting of Kurds, the 
Shi'ite populations, and the killing of Americans--the very 
environment evolving in Iraq that he feared the coalition 
forces would suffocate.
    General Abizaid, several reports have claimed that Zarqawi 
is in Baghdad. If he actually got into Baghdad past coalition 
forces, can we assume that he has the mobility to move to other 
regions in Iraq?
    General Abizaid. Senator Dole, I would assume that Zarqawi 
has the ability to move around the Nation, unfortunately. The 
nature of the insurgency is one that you cannot stop one person 
from moving where you would not like them to move, even as 
visible as they may be. He can move around, he can strike at 
will, and we have reason to believe that he was in Jordan 
recently and had his hands in the plot that would have killed 
thousands and thousands of Jordanians that was foiled by the 
king's special forces and intelligence forces. So there is a 
great battle going on in the region. It not only extends to 
Iraq, but it is in Saudi Arabia. It should come as no surprise 
to the committee that these people are also attacking 
foreigners in places like Saudi Arabia. There is a strategy at 
work here that we should not lose sight of, and it is happening 
in Afghanistan and it is happening in Pakistan, Saudi Arabia, 
Jordan, and elsewhere in the region, and it is also happening 
in places like Madrid.
    Senator Dole. Can you confirm that Zarqawi beheaded 
Nicholas Berg?
    General Abizaid. I do not know that I can confirm that it 
was him. I know that there are various reports of people saying 
it is his voice on the tape. I know he has claimed it, and it 
certainly would not be past him.
    Senator Dole. General Kimmitt said that the killing of 
Salim had the classic hallmarks of Zarqawi. Do you have any 
further information to share with us on that?
    General Abizaid. No Senator. I would not want to give 
Zarqawi any stature he does not deserve. He is a murderer, he 
is a torturer, and that is the status he deserves.
    Senator Dole. Do you have any indication that al Qaeda is 
coordinating with al-Sadr's resistance?
    General Abizaid. That is a very good question, but I think 
the answer is no. But in that part of the world you never know.
    Senator Dole. Saddam Hussein's government was believed to 
have produced several hundred tons of sarin as well as 
stockpiles of mustard gas. Now, the presence of both sarin and 
mustard gas has been reported in Baghdad. Do our men and women 
in theater have the equipment, the devices that they need in 
order to protect themselves from the exposure to such agents as 
these? General Sanchez?
    General Sanchez. Yes ma'am. The answer is yes, we do. We 
deploy with all of our chemical, nuclear, biological 
capabilities and those are present.
    Senator Dole. General Abizaid, defense contractors and 
private business representatives, of course, are critical to 
reconstruction efforts and rebuilding in Iraq. Terrorists seem 
to have shifted their focus; they are targeting these unarmed 
civilians. A corporation from my home State of North Carolina, 
Blackwater, of course, with four contractors who were shot, 
burned, and hung from a bridge; Nick Berg's murder--what are 
you doing to provide increased security for these unarmed 
civilians?
    General Abizaid. I think it is best left for General 
Sanchez to talk about the details, but it is clear that the 
enemy has discovered a vulnerability in the contracting system. 
It is also clear that we have to work with the contractors to 
protect them, not only in coordinating with Iraqi security 
services but with our own. For example, we should not have 
convoys moving around areas that we know to be very violent 
without some sort of coordination with the military, and that 
has happened before and that has gotten people into trouble 
before.
    Senator Dole. General Sanchez, do you want to answer that 
as well?
    General Sanchez. Yes ma'am. We are working with the CPA 
reconstruction effort. We work with all the contractors in the 
country. We have the mechanisms to provide escort for convoys 
as they move across the country, and there have been instances 
where contractors have moved without coordination with the 
local commanders and without escort and they have gotten 
themselves in trouble. But we do have the mechanisms and we are 
continuing to work that with them.
    General Abizaid. By the way, Senator Dole, if I may, I 
would just like to add by saying, we sometimes forget that a 
lot of these contractors who are out there are heroes too.
    Senator Dole. Yes.
    General Abizaid. They are out there in a very dangerous 
area. A lot of them--I would say the vast majority of them--are 
doing it because they love their country. We should not fail to 
praise them. There are times when we are not happy with the way 
contracts work, et cetera, but these young Americans and older 
Americans who are out there doing this are by and large great 
people who love the country and doing God's work.
    Senator Dole. Thank you for adding that statement. I could 
not agree with you more. My time has expired.
    Chairman Warner. I would like to also say I thank you very 
much for the recognition. It is well-deserved by that 
infrastructure that supports our forces.
    We have two remaining Senators, then the committee will 
stand in recess for just a few minutes and we will resume in 
room 219, which is in this building.
    Senator Bill Nelson.
    Senator Bill Nelson. General Miller, I think you cleaned up 
the situation at Guantanamo. I think you did a good job. Of 
course, we are trying to sort out other things but I just want 
that in the record, from my observations, having been there 
twice.
    General Abizaid, yesterday we had Lieutenant General Sharp 
in front of the Senate Foreign Relations Committee. He offered 
a little bit of clarity, and perhaps you can help clarify 
things here for us. Earlier in your testimony you stated that 
what we are facing, ``It's a hard thing, it will take a long 
time.'' One of the responsibilities that we have is looking at 
a force structure. We keep getting different statements that 
are interpreted different ways. So one of the things that I 
would like to ask you is, do you consider it part of the 
mission in Iraq to disarm the militias, such as the Mehdi army 
of al-Sadr?
    General Abizaid. I regard al-Sadr's militia right now as 
being a hostile force and it is our mission to disarm them or 
destroy them in battle.
    Senator Bill Nelson. I would think that would be the common 
sense thing; if I were the commander that would be part of my 
mission.
    General Abizaid. But Senator, if I might add, it is also 
clear that as we move towards a period of partnership in Iraq, 
which is so essential for us to move to, that those militia 
forces or armed groups that may belong to people loyal to the 
new Iraq, that are willing to move forward in a manner of 
reconciliation and work towards a better future, we need to 
work with them to integrate them into the system. So it is not 
that we will go out and destroy all militias, certainly not. It 
is that we will fight those who are working against us and will 
work to help integrate those that have worked with us, such as 
we find in the Kurdish areas and to a certain extent in some of 
the Shi'ite areas with the Badr Corps.
    Senator Bill Nelson. It would be nice if we had an Iraqi 
army that was ready to do a lot of that. It would be nice if we 
had a police force that would be able to help us. But at the 
moment we do not. So I am asking you about your mission now. 
Does your mission in Iraq include providing security on the 
streets against crime, functions normally performed by a police 
force?
    General Abizaid. Our mission in some areas, where the 
police force is not working, unfortunately causes us to have to 
do police work. That is correct. It is also correct to say, 
Senator, that we probably have overstated how bad things are 
with the Iraqi security forces, that the Iraqi security forces 
in certain areas of the country are exceptional and they are 
doing very well. In the north we see it and in some places in 
the south. There are many police forces that are doing well by 
Iraqi standards and will continue to do well. We had a failure 
during the April time frame, as you are well aware, of some 
units of the Iraqi Civil Defense Corps, of some units of the 
Army and of some units of the police. But on the other hand, 
Senator, I believe this has more to do with our willingness to 
give them authority than it has to do with their willingness to 
fight for their country. They want to fight for their country 
but they want to fight for Iraqis. So as we move towards this 
period of sovereignty and Iraqi chains of command are 
established that are reliable, I believe that the quality of 
Iraqi forces will move in a direction that will surprise a lot 
of people. I have faith in them.
    Senator Bill Nelson. I certainly hope so. I visited one of 
those police academies in Jordan where you are training them, 
but it is a long time and there are only X thousand that you 
can prepare. We will find out how many in the future. Since we 
are having to disarm militias and also having to provide some 
protection against street crime right now, the question is, is 
the 105,000 level, augmented by keeping the additional 20,000 
so that you are somewhere in the range of 125,000, 130,000 
troops, is that sufficient for you to carry out your mission 
over the course, not only before June 30 but over the rest of 
the year after June 30?
    General Abizaid. Again, I do not like to waffle in my 
answers, and this will sound like a waffle to you, but it 
depends on a couple of different things. It depends upon the 
enemy, although I would predict, and I think Rick will agree 
with me, that the situation will become more violent, even 
after sovereignty, because it will remain unclear what is going 
to happen between the interim government and elections. So 
moving through the election period will be violent, and it 
could very well be more violent than we are seeing today. So it 
is possible that we might need more forces. But I would again 
say that perhaps with a resolution in the United Nations could 
say that instead of international forces withdrawing from Iraq 
they should come to Iraq, because other nations need to 
understand how important Iraq's stability is for their future 
as well as the entire region's future. Getting more 
international forces and getting a higher quality of Iraqi 
forces will help us figure out where we stand. But I think the 
numbers about where we are now for the foreseeable future 
unless something changes, either international force-wise or in 
the quality of Iraqi troops, and is what we can expect through 
the elections.
    Senator Bill Nelson. What did you mean by a long time?
    General Abizaid. Well, we know the elections will take 
place in December or January. So, I am saying that the First 
Armored--please do not get me in any more trouble with the 
First Armored Division and the Second Armored Cavalry. We will 
rotate them out of there but the force levels will stay about 
what they are, I think, until after the elections. Or until we 
come to a point where we see that we are going to have a soft 
landing.
    Chairman Warner. Thank you very much, Senator.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my gratitude to you and praise and commendation for your 
leadership as well as to our troops in Iraq and Afghanistan. I 
too have visited Iraq and Afghanistan, and the kind of message 
I got while I was there was good. Our troops seemed to have 
been working well at that time.
    I have been very concerned about one part of the personnel 
that is there. We have talked about international and coalition 
forces, we have talked about the MPs, the MIs. One group is the 
contractors--this has been mentioned here--and I get the sense, 
and I would like to get an answer from you on this, that the 
contractors seem to be outside of the line of command. That is 
my feeling. As a result some things they do are not known by 
us.
    General Abizaid, it is my understanding that the civilian 
contractors who are interrogators--there are many different 
kinds--work directly with MI personnel. My question is, who 
supervises the civilian interrogators and do they report to any 
agencies other than the DOD? Another question is, is anyone in 
the DOD accountable for the behavior the civilian contractors?
    General Miller. Sir, if I could I would like to take this.
    Senator Akaka. General Miller. Thank you.
    General Miller. The civilian contractors who work in our 
intelligence organizations are accountable to the chain of 
command of the intelligence organization. So if you are an 
interrogator you are accountable to the chain of command of the 
interrogation company or the battalion or the brigade that goes 
in there. So there are also people who do screening. By 
screening I mean when you are captured, they do the initial 
debriefing to be able to develop intelligence. So we have a 
small number who are in our Intelligence Fusion Centers. They 
all work for the military through here. In our organization 
currently no civilian contractor is at a supervisory position. 
It is the military who sets the priorities and ensures that we 
meet our standards.
    Senator Akaka. What other types of personnel do you have 
there as contractors besides interrogators?
    General Miller. Sir, in the intelligence area there are the 
screeners, those who get initial information from those under 
interrogation, and those who are involved in intelligence 
fusion, developing intelligence from processed intelligence, 
from raw intelligence and feeding our computer systems. Those 
are the contractors that we have in the intelligence system.
    General Abizaid. You will also find interpreters, Senator.
    Senator Akaka. Thank you. My question on that is, are there 
any contractors who are from Third World nations?
    General Abizaid. I am sure there are. Yes, I have talked to 
some.
    General Miller. Our translators, some of them are from 
Third World nations. They do an excellent job for us.
    Senator Akaka. Okay. Can you name some of the nations?
    General Miller. Sir, I am sorry, I cannot.
    Senator Akaka. My concern has been--and thank you for 
answering it--that they are within the line and chain of 
command so that we know what they are doing and they are 
answerable to someone in DOD.
    General Miller. Sir, we will, for the record, get the 
Nations that those interpreters are from.
    [The information referred to follows:]

    This is in response to your request about the countries whose 
citizens are working for us as interpreters/translators through the 
Army's linguist contract. As regards JTF-GTMO, all the linguists there 
now are U.S. citizens with security clearances, although previously 
there were some linguists there who did not require a security 
clearance. At that point we did have non-U.S. citizens there, most 
notably a Chinese citizen who spoke Uighur; he has since become a U.S. 
citizen and remains on the island. Due to the high level of proficiency 
required to support Army missions, many of the linguists working as 
U.S. citizens in positions that require security clearances are 
naturalized citizens. Their countries of origin have no specifically 
been tracked--some of these individuals became U.S. citizens more than 
20 years ago while others, such as the Uighur linguist at JTF-GTMO, are 
very new citizens.
    As to the foreign nationals working under the Army linguist 
contract, the majority of the requirements for linguists who do not 
require access to classified information are hired locally. We have 
such linguists hired in Iraq, Afghanistan, Kuwait, Qatar, and Bahrain. 
OSD funded an effort for linguists without security clearances to be 
hired from the U.S. and other allied nations with the intent of 
providing the forces in Iraq with linguists who are not only fluent in 
the Iraqi dialect of Arabic and knowledgeable of Iraqi customs, but 
also are familiar with U.S./Western culture. While the majority of the 
linguists hired through this program are Iraqi citizens who are 
permanent resident aliens of the U.S., there are also some Canadians of 
Iraqi descent working for us as linguists. Additionally, there are one 
or two linguists from Lebanon, Jordan, Egypt, and Italy, all of whom 
have sufficient proficiency in the Iraqi dialect and English to allow 
them to support Army missions.

    Senator Akaka. Thank you very much. General Miller, you 
have had quite a bit of publicity and so let me ask you this 
out of my curiosity. Did you tell General Karpinski that you 
were going to ``Gitmoize'' Abu Ghraib? What did you mean by 
this statement?
    General Miller. Senator, I did not tell General Karpinski I 
was going to ``Gitmoize'' Abu Ghraib. I do not believe I have 
ever used that term. When Janis Karpinski and I were having our 
dialogues, they were about humane detention, how the detention 
centers would be run, the requirements for the MPs and the 
leadership to be present and ensure that humane detention is 
done. As we have talked about before, it is an enormously high 
leader impact, high leader-type requirement.
    Senator Akaka. Do you think it is possible that any of your 
recommendations could have been misconstrued by the civilian 
contractors?
    General Miller. Senator, I do not believe that any of those 
recommendations were misconstrued. At that time there were no 
civilian contractors employed in the organization. But once 
again, that would be speculation on my part because I was not 
there during the hiring to see how the civilian contractors 
came in.
    Senator Akaka. General Abizaid, you discussed the need to 
modify Army doctrine about Abu Ghraib, and you cited instances 
of abuse in Afghanistan and Iraq. Is the problem of detainee 
abuse systemic within CENTCOM?
    General Abizaid. No sir, I do not believe it is systemic. 
There have been instances of abuse in Afghanistan and other 
prisons, and in Iraq as well. I believe my comments concerning 
doctrine have to do more with how we fuse intelligence, how we 
distribute intelligence, how we work in a synchronized manner 
to achieve results that will help our young soldiers and 
marines on the battlefield.
    Senator Akaka. Thank you very much for your response.
    Chairman Warner. Thank you very much, Senator Akaka.
    We have had an excellent hearing, a very thorough exchange 
of views and responses. We thank you.
    Senator Talent.
    Senator Talent. I appreciate the opportunity and if we are 
going to go in a closed I will withhold my questions. I do have 
a very brief statement, though. I do want to associate myself 
with some of the concerns that Senator Inhofe raised. There is 
so much that you do do not know whether you know it or not, and 
one of the worst things that could happen out of this is if we 
ended up in a situation where some of these people got off 
because of something that was said at one of these hearings. In 
addition, I think there is something to be said for waiting 
until you all can present the comprehensive results of your 
investigations. I do want to, just for the record, Mr. 
Chairman, respectfully suggest to you and the ranking member 
that we consider whether it would be good to have the Fay 
Report in hand before we do the next hearing. I know you are 
talking constantly with the ranking member about timing and 
what we ought to do, and I think these hearings have been very 
good. But it almost comports with the Senate schedule anyway, 
given that a recess is coming up.
    Chairman Warner. Senator, in my discussions with the DOD, 
which I might say has been very cooperative, they have 
indicated that this committee will be the first to receive the 
Fay Report when it is available.
    Senator Talent. If it looks like they are stonewalling on 
it I think it is a different thing.
    Chairman Warner. No.
    Senator Talent. But you think in a couple of weeks that the 
report will be available.
    Chairman Warner. The DOD will determine the timing of the 
release of that report.
    Senator Talent. All right. Thank you, Mr. Chairman.
    Chairman Warner. Again, I thank you very much. We will now 
go to Hart 219 for a closed session. I thank the committee. I 
take note that we have had 100 percent attendance here today. I 
think that speaks to the seriousness and the solemnity with 
which this committee regards this very serious issue.
    Senator Levin. Mr. Chairman, I want to thank our witnesses 
for joining us but also indicate that I have some additional 
questions that are unclassified that we do not have time to 
ask.
    Chairman Warner. Right.
    Senator Levin. I will be submitting those to our witnesses. 
I think if the chairman would set a deadline for those so our 
witnesses will not have to be troubled by questions coming in 
for a long period of time; for instance, questions within the 
next 24 hours or 48 hours would be very helpful.
    Chairman Warner. Absolutely. Thank you.
    Senator Levin. Would that be all right?
    Chairman Warner. That would be fine.
    Senator Levin. Forty-eight hours then?
    Chairman Warner. Let us just establish midday Friday.
    Senator Levin. That would be fine. Noon Friday?
    Chairman Warner. Noon Friday. Thank you very much.
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Susan Collins
                        general taguba's report
    1. Senator Collins. General Miller, General Taguba's report stated 
that the 320th Military Police (MP) Battalion (BN) and the 372nd MP 
received no training in detention or internee operations prior to 
deployment to Iraq. I would like your assessment of the training of the 
MPs at Abu Ghraib prison. Prior to their deployment to Iraq, what was 
their experience at civilian or military prisons, and once they were 
mobilized, what training were they provided?
    General Miller. The United States Army Reserve Command could better 
comment on the exact make up from civilian life of the 320th MP BN. The 
soldiers and leaders of the 320th MP BN were trained in accordance with 
the current Department of the Army mobilization requirements. The 
Department of the Army would better be able to comment on pre-
deployment training conducted.

                            lack of training
    2. Senator Collins.General Miller, do you believe that a lack of 
training played a part in the alleged abuse at Abu Ghraib?
    General Miller. I believe it was a breakdown in the fundamentals of 
leadership within the unit that led to the alleged abuse going 
unreported. Leaders set the tone by which a unit runs; they imbued the 
morals and standards of the unit on each individual soldier and junior 
leader. In this case the leadership failed to do their primary job: to 
lead.

                    other u.s.-run prison facilities
    3. Senator Collins. General Abizaid, can you give me your 
assessment on whether abuse similar to that alleged at Abu Ghraib has 
occurred at other U.S.-run prison facilities in Iraq or Afghanistan?
    General Abizaid. The type of abuse seen in many of the photographs 
taken at Abu Ghraib appears at this time to be confined to that 
location and to have occurred during the timeframe of October-November 
2003. At other detention facilities there have been isolated incidents 
of alleged abuse, normally involving the use of excessive and 
unauthorized physical force. Each of these incidents is currently the 
subject of review and investigations are ongoing.

            international committee of the red cross report
    4. Senator Collins. Colonel Warren, with respect to the working 
paper that the International Committee of the Red Cross (ICRC) 
submitted to the Combined Joint Task Force (CJTF) officials on November 
6, 2003 to complain about abuses observed at Abu Ghraib in October, you 
testified that your ``office participated in the drafting of a response 
for Brigadier General (BG) Karpinski's signature. That response was 
dated December 24 and would have been delivered to the International 
Committee of the Red Cross.'' According to The Wall Street Journal, 
General Karpinski stated that the first time she learned of the ICRC 
report was in late November when she was summoned to a meeting with you 
and General Walter Wojdakowski, where she was told by you ``not to 
worry about the response because his officers were working on the 
response for my review.'' When did you first become aware of the 
November 6 ICRC report, to whom was it addressed, did you read the 
report, and were you aware of its content?
    Colonel Warner. I first became aware of the report in early 
December 2003 when I returned to Iraq from leave. I was on leave in 
Germany from 12-30 November 2003. The report was transmitted by the 
ICRC cover letter, dated November 12, 2003, addressed to ``BG Janice 
Karpinsky (sic), 800th MP Brigade.'' General Karpinski's December 24, 
2003, response is enclosed.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    5. Senator Collins. Colonel Warren, did you personally approve your 
office's response to the ICRC report? What actions did your office take 
to inquire into the validity of these ICRC alleged abuses?
    Colonel Warren. I approved the proposed response provided to the 
205th MP Brigade (BDE). In my absence in late November, my section 
conducted an analysis of the report, which it provided to the 
Commander, 800th MP BDE and CJTF-7 C-2 by transmittal memorandum, dated 
November 27, 2003.
    Judge Advocates from my section met with officers from the 205th 
Military Intelligence (MI) BDE and the 800th MP BDE in order to inquire 
into the validity of the reported abuses. Through this process, Judge 
Advocates were continually assured that the accusations were baseless. 
Judge Advocate General Corps (JAGC) officers responsible for ICRC 
liaison attended a meeting with the ICRC on November 16, 2003, at which 
the report was discussed and a meeting at Abu Ghraib with the MPs and 
MI personnel on December 4, 2003, called for the purpose of discussing 
the report. I personally discussed the allegations of the report with 
MI and MP personnel present at a Coalition Provisional Authority (CPA) 
Prison Meeting in December. I also personally discussed the allegations 
with the Judge Advocate of the 205th MI BDE, who was present at Abu 
Ghraib. The unanimous reaction of all military personnel with whom I 
talked was that the allegations were implausible and not credible or 
exaggerated.

    6. Senator Collins. Colonel Warren, what was BG Karpinski's role in 
the drafting and approval of the response? Did she sign the response to 
the ICRC? At that time, was it normal procedure for your office to 
draft responses to ICRC reports?
    Colonel Warren. BG Karpinski signed the response, dated December 
24, 2003. Notice of the report was provided to her command in late 
November, while I was on leave. A draft response was formulated in 
concert with her command and the 205th MI BDE and was provided to her 
office in mid-December. I understand that changes were made to the 
draft by the BDE during the coordination process before it was prepared 
in final for her signature. To the best of my knowledge, this was the 
first time that my office drafted a response to an ICRC report.
    There was no normalized procedure for handling ICRC reports and 
responses. Until January 2004, there was no clear delineation of 
responsibility for receipt of, and response to, ICRC reports in Iraq. 
This is because the 800th MP BDE, a Coalition Forces Land Component 
Command (CFLCC) unit, had operated the Enemy Prisoner of War (EPW) 
facility at Camp Bucca since the beginning of the war and had an 
established and continuing relationship with the ICRC.
    My section became involved in the ICRC visits to detention 
facilities in late May 2003. This involvement consisted of attendance 
at some portion of the inspection visits, typically the in and out-
briefs, and reviewing copies of the reports. Meetings at the ICRC 
Baghdad headquarters were attended by officers from the 800th MP BDE 
and CJTF-7 Judge Advocates. At these meetings, my officers or I would 
receive copies of ICRC reports and I was added as a courtesy copy 
addressee on most correspondence. Until January 2004, when the process 
was changed at the direction of Lieutenant General Sanchez, I believe 
that all original reports were addressed to the 800th MP BDE (either to 
BG Karpinski or to the camp [battalion] commander). The process, as 
explained to me by an ICRC delegate, was such that these reports 
(termed ``Working Papers'') were to be handled at the lowest level 
possible, typically one level up from the camp commander, and a written 
response was neither required nor expected by the ICRC. Rather, the 
ICRC would use the report content as a basis to assess corrective 
action in subsequent visits to the camp at issue.

    7. Senator Collins. Colonel Warren, what other responses to the 
ICRC did your office participate in drafting or reviewing prior to that 
time?
    Colonel Warren. To the best of my knowledge, the December 24, 2003, 
response was the first written response to a camp visit drafted by my 
section. Previously, my section drafted and reviewed correspondence to 
and from Lieutenant General Sanchez. A summary of correspondence with 
the ICRC is enclosed. While I believe this summary to be complete, it 
is possible that documents have been lost in the past 16 months of 
combat operations.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    8. Senator Collins. Colonel Warren, who in your chain of command 
did you inform of the substance of the report? Did you inform General 
Sanchez, and if so, when?
    Colonel Warren. I do not recall personally informing any superior 
officers in my chain of command of the report transmitted by letter of 
November 12, 2003, until January 2003. When I returned from leave, I 
learned that the report was being staffed within the command for a 
response. I do not recall discussing the detailed substance of the 
report with Lieutenant General Sanchez until February 2004.

    9. Senator Collins. Colonel Warren, when you learned of the report, 
what actions, if any, did you personally take to inquire into the 
validity of the ICRC alleged abuses?
    Colonel Warren. Please see my response to question number 5.

    10. Senator Collins. Colonel Warren, what corrective actions, if 
any, were taken in response to the report? Please provide the CJTF-7 
response to the ICRC report.
    Colonel Warren. For specific corrective actions on conditions of 
detention, I must refer you to the 800th MP BDE. For general conditions 
of the Abu Ghraib base camp after November 19, 2003, and for all 
matters pertaining to interrogation operations, I must refer you to the 
205th MI BDE. As to corrective actions on ICRC access beginning in 
January 2004, officers from the CJTF-7 headquarters coordinated and 
attended future visits. This approach was implemented for the next ICRC 
visit to Abu Ghraib, which occurred during the period of January 4-8, 
2004, and was the subject of positive comment by ICRC delegates. In its 
report on the January 4-8, 2004, visit, the ICRC commented on 
improvements at Abu Ghraib made since their October visit. Also in 
January 2004, the ICRC was informed that reports should be addressed to 
the commander, CJTF-7 and provided to me or one of my officers.
    There was no CJTF-7 response to the October 2003 report. The 
response provided to the ICRC was from the Commander, 800th MP BDE.

                       cjtf interrogation policy
    11. Senator Collins. Colonel Warren, could you confirm that: CJTF 
had not issued official interrogation policy guidance prior to 
September 14, 2003; the September 14, 2003 interrogation policy was 
subsequently determined to be noncompliant with the Geneva Conventions; 
and this determination led to the issuance of new guidance on October 
12, 2003?
    Colonel Warren. It is correct that CJTF-7 had not issued official 
interrogation policy guidance prior to September 14, 2003. It is not 
correct that the September 14, 2003, interrogation policy was 
subsequently deemed to be noncompliant with the Geneva Conventions. 
However, it is accurate that legal analysis conducted within CJTF-7 and 
U.S. Central Command (CENTCOM) contributed to the decision to issue the 
more conservative October 12, 2003, policy.

    12. Senator Collins. Colonel Warren, did any of the alleged 
detainee abuses that have come to light occur during the period prior 
to September 14, 2003? If so, please describe the nature of these 
alleged abuses.
    Colonel Warren. To the best of my knowledge, none of the detainee 
abuses that came to light in the U.S. Criminal Investigation Division 
Command (USACIDC) Investigation or the Army Regulation 15-6 
Investigation conducted by Major General (MG) Taguba concerning Abu 
Ghraib occurred prior to September 14, 2003. It is possible, however, 
that cases of abuse that occurred prior to that date will come to light 
in the course of MG Fay's investigation. I believe that the chronology 
of any cases of abuse will be part of the report of investigation by MG 
Fay.

    13. Senator Collins. Colonel Warren, did any of the alleged 
detainee abuses that have come to light occur during the period between 
September 14 and October 12, 2003? If so, please describe the nature of 
these alleged abuses.
    Colonel Warren. To the best of my knowledge, two incidents of 
detainee abuse occurred at Abu Ghraib between September 14 and October 
12, 2003. I believe that the first was an allegation of rough treatment 
of an Iraqi male suspected of mortar attacks. The second was an 
incident in which three MI soldiers were punished under Article 15, 
Uniform Code of Military Justice (UCMJ), for improper association with 
a female detainee (violation of policy). It is possible, however that 
additional cases of abuse that fall within that time period will come 
to light in the course of MG Fay's investigation.

    14. Senator Collins. Colonel Warren, what categories of persons 
(e.g., prisoners of war (POWs), detainees, etc.) were covered by the 
September 14, 2003 interrogation policy and the October 12, 2003 
interrogation policy?
    Colonel Warren. The September 14, 2003, policy covered both 
categories and distinguished the two. The October 12, 2003, policy 
applies by its terms only to civilian security internees.

                         military intelligence
    15. Senator Collins. Colonel Warren, is it true that MI operations 
at Abu Ghraib detention facility and other detention facilities in Iraq 
were conducted by MI units that had prior experience in Afghanistan, 
where the administration determined the Geneva Conventions did not 
apply?
    Colonel Warren. I understand that at least one MI unit (A Company, 
519th MI BN) and selected soldiers from other units had prior 
experience in Afghanistan. My understanding of the U.S. Government's 
position on the application of the Geneva Conventions in Afghanistan is 
that they did not apply to the conflict with al Qaeda. Regardless, as a 
matter of policy, the U.S. forces treat all detainees humanely and, to 
the extent appropriate and consistent with military necessity, in a 
manner consistent with the principles of Geneva Conventions.

    16. Senator Collins. Colonel Warren, in the absence of any 
interrogation policy guidance from CJTF-7 prior to mid-September 2003, 
are you concerned that those units might have utilized the 
interrogation rules that had been in effect in Afghanistan?
    Colonel Warren. Yes. This is one reason why CJTF-7 issued the 
policy that culminated in the October 12, 2003, memorandum.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                          high value detainees
    17. Senator Levin. General Abizaid, you have confirmed that the 
high value detainees at Camp Cropper fall under the responsibility of 
General Dayton, commander of the Iraq Survey Group (ISG), who reports 
directly to you. You also confirmed that the high value detainees were 
put under General Dayton as a result of a decision in Washington to 
have a better and more efficient way to understand what was going on 
with respect to weapons of mass destruction. General Sanchez testified 
that his MPs have responsibility for providing security. Who in 
Washington was involved in this decision?
    General Abizaid. The decision to establish the ISG involved 
appropriate members of the Joint Staff, the Office of the Secretary of 
Defense (OSD), the Defense Intelligence Agency (DIA), and the Central 
Intelligence Agency (CIA). The ISG is a unique organization designed to 
explore the linkage between weapons of mass destruction (WMD) and the 
former regime leadership. Its establishment required close coordination 
and careful consideration.

    18. Senator Levin. General Abizaid, is there a division in the 
chain of command for the high value detainees at Camp Cropper, with the 
detention and interrogation of the high value detainees under one chain 
of command and the protection and security of those detainees under 
another chain of command?
    General Abizaid. During the period in question, there was a 
division between responsibility for the detention facility and its 
security and responsibility for the interrogation of high value 
detainees (HVDs) at Camp Cropper. As the CJTF-7 Commander, LTG Sanchez 
was responsible for the Camp Cropper detention facility: its security; 
operations and maintenance; and disposition/protection of all resident 
HVDs. The Director, ISG, in compliance with modification 3 to the ISG 
execute order (EXORD), dated October 17, 2003, conducted interrogations 
and debriefings of HVDs resident at Camp Cropper in order to acquire 
information in direct support of ISG's unique mission: organize, direct 
and apply capabilities and expertise in Iraq to discover, take custody 
of, and exploit information and material of intelligence value on 
individuals and methods within the following three areas: weapons of 
mass destruction, counterterrorism, and the fate of Captain Michael 
Scott Speicher.

    19. Senator Levin. General Abizaid, who were the sources of the 
decision that there be dual chains of command and for what reason?
    General Abizaid. The original EXORD, dated May 31, 2003, directed 
Commander, CENTCOM, to coordinate with the Director, DIA, to stand up 
the ISG in order to accomplish national objectives in Iraq. This EXORD 
clearly stated that the ISG would generate its own taskings and that 
its priorities would be highly responsive to national requirements. The 
command relationships reflected in the original EXORD had the ISG 
operational control to the CJTF-7. In modification number one to that 
EXORD, dated June 20, 2003, the Secretary of Defense directed a change 
to the command relationships making ISG operational control to CENTCOM.
    The ISG is a unique organization, reporting to both Commander, 
CENTCOM and the DIA with strategic direction from the CIA. The 
specialized mission and requirements of the ISG demanded unique 
management, to include a direct link to the Department of Defense (DOD) 
for time sensitive permissions and authorities, as well as consistent 
alignment with national objectives. I believe this change in command 
relationships was designed to reflect the relative independence and 
unique mission of the ISG.

    20. Senator Levin. General Abizaid, in your personal view, is it 
wise to focus so much on WMD when the HVDs might have information that 
could be valuable in the day-to-day effort to protect U.S. and 
coalition forces?
    General Abizaid. At the time of the establishment of the ISG, the 
need to immediately locate and disable any possible Iraqi WMD was one 
of the highest national priorities. While ISG interrogations were 
focused on WMD, counterterrorism, and the fate of Captain Speicher, 
these were not the only topics addressed. Standing operating procedure 
(SOP) in the ISG required that all captured persons were immediately 
interrogated or debriefed for all actionable intelligence, to include 
force protection information.
    The mission of the ISG is currently under re-evaluation. I agree 
that intelligence assets, already in short supply throughout the 
theater, need proper focus and constant re-tasking to meet changing 
requirements. Currently, counterterrorism and counterinsurgency 
requirements are theater-wide priorities.

    21. Senator Levin. General Abizaid, what benefit do you see in the 
command relationship that seems to violate the tenet of unity of 
command?
    General Abizaid. The ISG, because of its unique mission, 
organizational structure and technical areas of expertise, had a dual 
reporting chain to CENTCOM and the DIA. Unity of command was not 
affected by this reporting relationship. Command and control remained 
under CENTCOM operational control, with close coordination with CJTF-7. 
This reporting relationship, which affected collection and exploitation 
priorities, merely allowed more rapid access to strategic information 
of value to national level policymakers.

    22. Senator Levin. General Abizaid, do the CJTF-7 October 12, 2003 
interrogation policy guidelines apply to those HVDs? If not, why not? 
What interrogation policy applies? Please provide a copy of the 
interrogation policy for these HVDs.
    General Abizaid. The ISG promulgated its own interrogation SOP on 
October 3, 2003. ISG had no command and control relationship to CJTF-7 
and its SOP pre-dated the CJTF-7 October 12, 2003, policy guidelines. 
Consequently, the original ISG SOP did not follow the October 12, 2003, 
interrogation policy guidelines of CJTF-7. The ISG interrogations SOP 
was updated in May 2004 and now includes by reference the October 12, 
2003, CJTF-7 interrogations policy memo. Both the October 3, 2003, and 
current ISG interrogations SOPs are classified at the SECRET level.

                      meetings with icrc officials
    23. Senator Levin. General Abizaid and General Sanchez, the 
February 2004 ICRC report makes clear that since the beginning of the 
conflict in Iraq, the ICRC regularly brought concerns about the ill-
treatment of detainees to the attention of coalition forces. 
Additionally, Secretary Powell has stated that he met with ICRC 
President Jacob Kellenberger three times since the beginning of 2003 
and they discussed the treatment of detainees, including in Iraq. 
Secretary Powell advised that Mr. Kellenberger raised this matter in 
meetings with the Pentagon and with National Security Advisor 
Condoleeza Rice over the same time period. Did any senior 
administration officials contact you with concerns about the treatment 
of detainees in Iraq following their meetings with Mr. Kellenberger or 
any other ICRC official?
    General Abizaid. I do not recall being contacted by any senior 
administration officials following their meetings with Mr. Kellenberger 
or any other ICRC representatives.
    General Sanchez. No.

    24. Senator Levin. General Abizaid and General Sanchez, which 
officials contacted you, when did they do so, and what was the nature 
of their concerns?
    General Abizaid. I do not recall being contacted by any senior 
administration officials following their meetings with Mr. Kellenberger 
or any other ICRC representatives.
    General Sanchez. No officials contacted me.

    25. Senator Levin. General Abizaid and General Sanchez, were any 
investigations, changes in policy, or other actions undertaken 
following the ICRC's meetings with administration officials?
    General Abizaid. I do not recall being contacted by any senior 
administration officials following their meetings with Mr. Kellenberger 
or any other ICRC representatives and am unaware of any investigations, 
changes in policy or other actions that may have resulted from those 
meetings.
    General Sanchez. I am not aware of any ICRC meetings with 
administration officials. If those meetings took place, I am not aware 
of any investigations, changes in policy or other actions being 
initiated as a result of those meetings.

    26. Senator Levin. General Abizaid and General Sanchez, did either 
of you keep senior administration officials informed of the ICRC's 
concerns about the ill-treatment of prisoners? If so, at what level and 
on what occasions were they informed?
    General Abizaid. I do not recall contacting any senior 
administration officials concerning ICRC concerns during the period in 
question. The ICRC provided its reports on a confidential basis which 
were designed for issue resolution at the lowest possible level. As I 
testified during the hearing, at the time in question, ICRC reports 
were not ordinarily surfaced all the way up through the chain of 
command.
    General Sanchez. I had no communication with senior administration 
officials concerning the ICRC.
    The ICRC provided confidential reports which were designed for 
issue resolution at the lowest level possible. The ICRC Working Papers 
regarding the ICRC October were enclosed in a November 12, 2003, letter 
from the ICRC to BG Karpinski, commander of the 800th MP BDE. Those 
concerns were examined by the 800th MP BDE in concert with CJTF-7 Judge 
Advocate, C2 (Intelligence), and Provost Marshal's Office. Brigadier 
General Karpinski provided a December 24, 2003, response.
    As soon as information about the detainee abuse reached my level in 
January 2004, a criminal investigation was initiated. A command-
directed investigation (the Major General Taguba investigation) quickly 
followed. This information about the abuse was provided to higher 
levels in the military chain of command immediately.
    Starting in March 2004, my command prepared a periodic, typically a 
weekly, report of ``detainee abuse'' cases that was provided to the 
Office of the Judge Advocate General of the Army.

    27. Senator Levin. General Abizaid and General Sanchez, were any 
investigations, changes in policy, or other actions undertaken as a 
result of your meetings with the ICRC or receipt of ICRC reports?
    General Abizaid. ICRC reports and concerns were normally handled at 
the CJTF-7 level and generally resulted in locally improved conditions. 
I will defer to LTG Sanchez to provide more details on any actions 
taken.
    General Sanchez. Yes. The improvement in conditions at detention 
facilities was a mutual goal of the ICRC and the command. Although not 
taken solely as a result of ICRC meetings and reports, many 
improvements did address observations of the ICRC. Particularly during 
the period April through fall 2003, improvements in shelter, food, 
clothing, showers, medical care, sanitation facilities, segregation of 
categories of prisoners, hygiene items, and overall quality of life 
were made in all detention facilities, most noticeably Camp Cropper 
and, later, Abu Ghraib. ICRC complaints about overcrowding were 
addressed by closing Camp Cropper as a Corps Holding Area.
    ICRC observations about family notification led directly to the 
decision to produce Arabic language prisoner lists in the fall of 2003 
and distribution of the lists to Civil-Military Operations Centers and, 
through the CPA, to Iraqi authorities. ICRC observations also led to 
the posting of names of detainees on the CPA Web site. ICRC 
observations about family access contributed to the decision to open a 
visitor's center at Abu Ghraib and Camp Bucca with detainees allowed 
two visits per month. Additionally, in the absence of a reliable mail 
system, CJTF-7 continued to personally deliver ``Capture Cards'' to the 
ICRC.
    ICRC complaints about access difficulties during the October visit 
to Abu Ghraib led to the decision of CJTF-7 to provide dedicated 
officers to future ICRC visits to ensure that the ICRC delegates were 
properly accommodated. This was implemented in the January 2004 visit 
to Abu Ghraib and was the subject of positive comments by the ICRC. 
Specific complaints about ICRC access to HVDs were resolved when access 
was allowed starting in May 2003. Specific complaints about access to 
eight internees at Abu Ghraib, to whom private visitation had been 
temporarily denied during the January 2004 visit, were resolved when 
the ICRC was allowed private interviews with seven of the internees in 
March and the eighth internee in April. (In January, the ICRC was 
denied private interviews of eight individuals undergoing active 
interrogation, but allowed to see the internees, observe the conditions 
of detention, and obtain the individuals' names and internee serial 
numbers).
    ICRC complaints about rough treatment of persons at the point of 
capture or in detention were addressed by the publication of command 
policy memoranda and orders. These include:

        <bullet> Issuance of interrogation policies in September and 
        October 2003, and May 2004 reiterating the application of the 
        Geneva Conventions and requiring that all interrogations be 
        conducted in a lawful and humane manner, with command 
        oversight.
        <bullet> Issuance of a memorandum in October 2003 titled 
        ``Proper Treatment of Iraqi People During Combat Operations,'' 
        and reissued on January 16, 2004, after learning about the 
        events that had taken place at Abu Ghraib.
        <bullet> Issuance of the ``Rules for Proper Conduct in Combat'' 
        memorandum, partly in response to the ICRC's February report. A 
        draft of the rules was provided to the ICRC for review and 
        comment prior to publication.

    ICRC complaints about legal process were addressed through 
implementation in the summer of 2003 of a requirement that a Magistrate 
review detentions within 72 hours of induction in a detention facility, 
service of internment orders and notice of opportunities to appeal, and 
initiation of both Criminal Detainee Release and Security Internee 
Review and Appeal Boards in August 2003. Complaints about legal status 
determination of HVDs were addressed by holding tribunals convened 
under Article 5, Third Geneva Convention, in the summer of 2003.
    ICRC complaints about availability of medical treatment were 
addressed through increased availability of both dental care and 
elective surgery and continuing planning for a hospital dedicated to 
the care of detainees, with provision for intensive care needs and 
surgery requirements. Services will include emergency physicians, an 
optometrist, and preventive medicine. Capabilities will include a 
primary care clinic, pharmacy, laboratory, x-ray capability, 
rehabilitation capability with an occupational therapist and physical 
therapist, a prosthetics unit, medical record keeping unit, and 
respiratory care unit.
    The command has centralized the command and control of detainee 
operations under a Deputy Commanding General, Detainee Operations. One 
of the goals of this reorganization is to improve the conditions and 
processes of detention, a mutual goal of the command and the ICRC. 
Detention Operations is:

        <bullet> Reviewing the entire process of notifications of 
        detainee deaths and family retrieval of remains with a view 
        towards consistency, efficiency, and responsiveness.
        <bullet> Reforming the processing of detainee medical records 
        to consolidate record keeping.
        <bullet> Providing guidance to units to further preventative 
        medicine efforts and arrange for relocation of detainees from 
        the vicinity of areas with standing water.
        <bullet> Promulgating special training to medical staff for 
        screening of detainee abuse, to include informing detainees 
        that there would be no retaliation for reporting abuse.
        <bullet> Monitoring food service upgrades to ensure improved 
        conditions for detainees with diabetes. Further nutritional 
        care is to be made available through the detainee hospital.
        <bullet> Reviewing issues associated with the rapid turnover of 
        medical personnel to ensure proper medical treatment.
        <bullet> Ensuring emplacement of sandbags around detainees' 
        tents, as well as concrete bunkers for protection against 
        mortars.

    Detention Operations has taken steps to relieve over-crowding and 
ensure cleanliness of camps. Current planning includes climate 
controlled living facilities. All detainees are issued cots, 
mattresses, and pillows. Food quality has been improved. Ice is now 
available on a daily basis. Detainee holding areas now have ``pea 
gravel'' in place to hold dust down. A mail system is now in place for 
detainees. Detainee compound leaders now meet weekly with battalion 
commanders to discuss detention issues. There is improved 
accountability and security of detainees' personal property.

                       abu ghraib visits by icrc
    28. Senator Levin. General Sanchez, the February 2004 report of the 
ICRC describes a mid-October 2003 ICRC visit to Unit 1A of the Abu 
Ghraib correctional facility. It states that in the course of that 
visit, ICRC delegates witnessed, among various methods used to secure 
the cooperation of detainees, the practice of ``keeping [detainees] 
completely naked in totally empty concrete cells and in total darkness, 
allegedly for several consecutive days.'' Upon demanding an explanation 
from authorities at the facility, the ICRC delegates were told by the 
MI officer in charge of the interrogation that ``this practice was 
`part of the process'.'' [Emphasis added.] The ICRC expressed their 
concerns about the Abu Ghraib correction facility in a November 6, 
2003, working paper submitted to CJTF-7 officials. Who received the 
November 6, 2003, ICRC working paper?
    General Sanchez. The November 6, 2003, ICRC working paper was 
transmitted by ICRC letter dated November 12, 2003, and delivered by 
the ICRC to an officer of the CJTF-7 Staff Judge Advocate's office on 
November 16, 2003. It was addressed to the Commander, 800th MP BDE.

    29. Senator Levin. General Sanchez, was there a ``process'' in 
effect at Abu Ghraib facility in October 2003 by which detainees would 
be segregated and deprived of light and clothing for days at a time, in 
order to secure their cooperation in interrogations?
    General Sanchez. Not to my knowledge. Such a ``process'' would have 
violated the CJTF-7 Interrogation and Counter-Resistance Polices, as 
well as command policies that mandate the treatment of all Iraqis, 
including prisoners and detainees, with dignity, respect, and humanity. 
(See, for example, the October 5, 2003, policy memorandum, Subject: 
Proper Treatment of the Iraqi People During Combat Operations, which is 
enclosed.)
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    30. Senator Levin. General Sanchez, did you approve the use of 
these practices at Abu Ghraib or other detention facilities in Iraq?
    General Sanchez. I never approved these practices at Abu Ghraib or 
any other detention facility within my command. Over a 7-month period, 
I approved approximately 25 requests for segregation in excess of 30 
days. Subject to safeguards, segregation from the general detainee 
population was authorized for up to 30 days for the purpose of security 
and to prevent collusion of persons believed to possess significant 
intelligence information. Requests for segregation in excess of 30 days 
had to be approved by me on an exceptional basis. I did not approve the 
deprivation of light and clothing. This is not authorized under the 
CJTF-7 Interrogation and Counter-Resistance Policy. 

    31. Senator Levin. General Sanchez, would such a ``process'' be 
consistent with the interrogation guidelines issued by CJTF-7, either 
on September 14 or October 12, 2003?
    General Sanchez. Absolutely not.

    32. Senator Levin. General Sanchez, when were the ICRC working 
paper and concerns about this ``process'' or these practices brought to 
your attention?
    General Sanchez. The existence of the ICRC working paper was 
brought to my attention in mid-January 2004 during the same timeframe 
that the CID investigation and the Army Regulation 15-6 investigation 
were initiated. I learned of the specific contents of the ICRC Working 
Papers for visits in October 2003 in February 2004 during an update on 
the status of the ongoing Abu Ghraib investigations.

    33. Senator Levin. General Sanchez, was the November 6, 2003, 
working paper provided to General Karpinski?
    General Sanchez. Yes.

    34. Senator Levin. General Sanchez, did CJTF-7 ever recommend the 
establishment of a ``give-and-take policy'' at Abu Ghraib facility in 
order to improve the effectiveness of interrogation operations? If so, 
was such a policy established based on the recommendations of the 
Miller report?
    General Sanchez. I have no knowledge of a ``give-and-take policy.''

    35. Senator Levin. General Sanchez, at the May 19 hearing, there 
was discussion of a December 24, 2003 letter, which members of your 
staff helped to prepare, in response to the ICRC November report. 
Please provide the committee a copy of that December 24 letter.
    General Sanchez. A copy of the letter is enclosed.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    36. Senator Levin. General Abizaid, when were the ICRC working 
paper and concerns about the practices described above brought to your 
attention?
    General Abizaid. I did not become aware of the contents of the 
November 6, 2003, working papers until shortly before I prepared for my 
testimony before the Senate Armed Services Committee.

    37. Senator Levin. General Abizaid, did General Sanchez, or anyone 
else, alert you to ICRC concerns about the treatment of detainees at 
the Abu Ghraib prior to January 2004?
    General Abizaid. I did not become aware of the contents of reports 
authored by the ICRC until shortly before I prepared for my testimony 
before the Senate Armed Services Committee. Historically, the ICRC 
determines at what level they would like to air their concerns and 
views their communications as confidential. The ICRC exercises their 
prerogative to address officials at the level they deem appropriate. It 
has been our practice in the CENTCOM area of responsibility (AOR) to 
address the ICRC's concern at the level of command to which they were 
raised. I have since changed that practice and directed that copies of 
ICRC reports be forwarded through the chain of command to me.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                        icrc visits and reports
    38. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, it would be helpful for the committee if you would clarify and 
complete the various pieces of testimony on the ICRC visits and reports 
by having the witnesses answer the following questions. For each answer 
indicate the witness or witnesses who are the source of the 
information, whether the information is from personal knowledge or from 
inquiries or review of records, and that each witness has reviewed the 
answer and does or does not have additional or conflicting information.
    What were the dates and locations of the visits the ICRC made 
during the period from September 11, 2001, to the present to detention 
or interrogation facilities or other holding facilities of any kind in 
Afghanistan, Guantanamo, or Iraq operated, controlled, or directed in 
whole or in part by the United States Government, the CPA, or any 
related entity?
    General Abizaid. Historically, the ICRC determined at what level 
they would like to air their concerns and viewed these communications 
as confidential. The ICRC exercised its prerogative to address 
officials at the level they deemed appropriate which was generally the 
lowest level possible. It has been our practice in the CENTCOM AOR to 
address the ICRC's concern at the level of command to which they were 
raised, and, as I testified at the hearing, with one exception, ICRC 
reports were not normally surfaced all the way up through the chain of 
command. That exception is a report, dated May 12, 2003, concerning 
facilities in Iraq that was provided directly to the CENTCOM Director 
of Policy and Plans (J-5).
    General Sanchez. Dates and locations of ICRC visits to facilities 
in Iraq are listed on the enclosed summary. A succession of commands 
has been engaged in continuous combat operations in Iraq since March 
2003. CJTF-7 records reasonably available are provided from the date of 
CJTF-7's inception on June 14, 2003, to the present. CJTF-7 does not 
have records that may have been kept by other commands, such as CFLCC 
or the 800th MP BDE.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Miller. I defer to U.S. Southern Command (SOUTHCOM) to 
respond on any ICRC visits to Guantanamo.

    39. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, who at any level of the CPA was aware of the visit before or at 
the time it took place? Who was informed of the visit after it 
occurred?
    General Abizaid. I am not aware of whom, if anyone, in CPA was 
involved with ICRC visits.
    General Sanchez. I do not know who within CPA was aware of the 
October 2003 ICRC visit to Abu Ghraib before or after it took place. In 
early February 2003, I attended one meeting with Ambassador Bremer and 
representatives of the ICRC which included discussion of the working 
papers pertaining to the ICRC's visits in October. As a matter of 
practice, I understand that the CPA Office of General Counsel 
frequently had representatives at meetings with the ICRC at which 
visits were discussed and reports were provided. Meetings between CPA 
and ICRC representatives at which CJTF-7 personnel were not present 
occurred periodically throughout the period of occupation.
    General Miller. I was assigned to CJTF-7/Multi-National Force-I on 
April 12, 2004, and am unaware of events which occurred during the 
October and November time frame in regards to CPA and ICRC visits.

    40. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, in what form, on what date, and, if oral, to whom was each ICRC 
report made? To whom was each written report delivered?
    General Abizaid. Please see my response to question #38.
    General Sanchez. Detailed information on ICRC reports in Iraq is 
provided in the enclosed summary. Prior to January 2004, ICRC reports 
were addressed to the Commander, 800th MP BDE or one of its subordinate 
organizations, with a copy furnished to the CJTF-7 Staff Judge 
Advocate. Reports were actually delivered to a CJTF-7 Judge Advocate or 
to a representative of the CPA Office of General Counsel. From January 
until April 2004, ICRC reports were addressed to the Commander, CJTF-7 
and delivered to a Judge Advocate from CJTF-7. Starting in April 2004, 
ICRC reports were addressed to the Deputy Commanding General, Detention 
Operations, and delivered to a Judge Advocate from CJTF-7. The 
procedure for the ICRC is to provide an oral out-brief to the camp 
commander at the end of each visit. The out-brief observations form the 
basis of the subsequent ICRC written report.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Miller. Prior to April 12, 2004, I do not know who received 
reports from the ICRC. Since April 12, 2004, I have served as the 
single point of contact for all matters related to the ICRC and 
detainee operations.

    41. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, to whom was each report disseminated by the person who first 
received it and by each successive recipient and when? If the witnesses 
do not know and cannot determine all the recipients, explain why.
    General Abizaid. The May 12, 2003, ICRC report delivered to the 
CENTCOM J-5 was provided by him to the CENTCOM Chief of Staff. It was 
not brought to my attention and I do not know if it was disseminated 
further.
    General Sanchez. Information on ICRC reports in Iraq is provided in 
the previously enclosed summary. Originals of reports were provided to 
the addressee. Copies of reports or extracts of the reports were 
typically disseminated within the command to C-2 (Intelligence), C-3 
(Operations), Provost Marshal, Engineer, Surgeon, and Staff Judge 
Advocate. All of the recipients of each report cannot be determined 
with specificity. The command was conducting continuous combat 
operations during this period.
    General Miller. Prior to April 12, 2004, I do not know who received 
reports from the ICRC. Since April 12, 2004, I have served as the 
single point of contact for all matters related to the ICRC and 
detainee operations.

    42. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, who wrote or otherwise gave any summaries, memoranda, reports, 
or other descriptions of each report, when and to whom were they 
disseminated and re-disseminated?
    General Abizaid. In Afghanistan, the CJTF Staff Judge Advocates 
have, in the past, designated a point of contact (POC) who routinely 
met with the ICRC and received reports together with other 
representatives from the detention center and the command. In Iraq, MG 
Miller has instituted detailed procedures for handling ICRC 
correspondence. MG Miller met with the ICRC and established himself as 
the single POC for all ICRC matters to include documents, working 
papers, visit coordination, and any other ICRC-related issues which may 
arise.
    General Sanchez. Information on summaries, memoranda, and reports 
is provided in the enclosed summary. All of the recipients of each 
report cannot be determined with specificity. The command was 
conducting continuous combat operations during this period.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Miller. Prior to April 12, 2004, I do not know who received 
reports from the ICRC. Since April 12, 2004, I have served as the 
single point of contact for all matters related to the ICRC and 
detainee operations.

    43. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, please provide copies of each report or document describing the 
report not already provided and identify any report which has already 
been provided to the committee. Please provide all summaries, 
memoranda, reports, or other descriptions of each report.
    General Abizaid. It is my understanding that copies of all 
documents responsive to your request have or will be provided by the 
Office of the Assistant Secretary of Defense for Legislative Affairs.
    General Sanchez. All known and available reports have been 
provided.
    General Miller. All known and available reports have been provided.

    44. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, were there outstanding orders, Field Manual provisions, or 
other SOPs at any level anywhere for the handling of requests for 
visits and visits from the ICRC? If so, what were they? Please provide 
copies of all versions since September 11, 2001, including any written, 
oral communications, orders, or other statements altering or providing 
exceptions to the stated procedures.
    General Abizaid. Appendix 1 to Annex E to the CENTCOM Operational 
Plan 1003V, EPW, Retained Persons, Civilian Internees, and other 
Detainees, dated September 25, 2002, paragraph 5(f), briefly addresses 
ICRC visits. In addition, an internal memo outlining procedures for 
ICRC visits was developed by CJTF-7 in February 2004. The following 
official documents may be consulted generally on the subject of ICRC 
visitations: DODD 2310.1; Joint Publication 1-0, Appendix T; and Army 
Regulation 190-8.
    General Sanchez. An internal memo outlining procedures for ICRC 
visits was developed by Judge Advocates within the command. This memo, 
dated February 7, 2004, is enclosed. In addition, our Judge Advocates 
rely upon guidance contained in the Operational Law Handbook, which 
discusses visits by the ICRC and, in particular, the role Judge 
Advocates play in the process. I am enclosing the appropriate section 
from the handbook, as well as a portion of a cited field manual (FM 71-
100-2) dealing with the same topic.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Miller. Prior to April 12, 2004, I do not know who issued 
specific guidelines, field manuals or SOPs for dealing with the ICRC. 
Since April 12, 2004, I have served as the single point of contact for 
all matters related to the ICRC and detainee operations and as such I 
receive all reports from the ICRC directly.

    45. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, were there outstanding orders, field manual provisions, or 
other SOPs at any level anywhere for the dissemination and handling of, 
or responses to, such oral or written reports? If so, what were they? 
Please provide copies of all versions since September 11, 2001, 
including any written, oral communications, orders, or other statements 
altering or providing exceptions to the stated procedures.
    General Abizaid. The tri-service regulation on EPWs and civilian 
internees, Army Regulation 190-8, paragraph 3-16, briefly addresses 
handling of ICRC reports and requires that they be forwarded by the 
relevant camp commander through Army channels to Headquarters, 
Department of the Army. As I stated in my testimony, I believe the 
reporting process for ICRC reports was broken and subsequent to that 
hearing I directed my staff to conduct a review of these procedures. 
Consequently, CENTCOM has recently implemented a new policy which 
requires subordinate units to provide copies of all ICRC correspondence 
within 48 hours of receipt to the Office of The Staff Judge Advocate, 
CENTCOM. Additionally, subordinate units are to immediately provide 
CENTCOM with responses to all ICRC concerns. ICRC correspondence is 
immediately analyzed in light of the unit responses, and submitted to 
my Chief of Staff (through the Joint Security Director) for review and 
any necessary action by me.
    General Sanchez. I am not aware of any outstanding orders, field 
manual provisions, or other SOPs that prescribe how to handle ICRC 
reports. In January 2004, I orally directed that ICRC reports would be 
addressed to me and provided to my Staff Judge Advocate section. In 
April 2004, I directed that ICRC reports would be received by the 
Deputy Commanding General, Detention Operations.
    General Miller. Prior to April 12, 2004, I do not know who issued 
specific guidelines, field manuals or SOPs for dealing with the ICRC. 
Since April 12, 2004, I have served as the single point of contact for 
all matters related to the ICRC and detainee operations and as such I 
receive all reports from the ICRC directly.

                       dod inquiry of abu ghraib
    46. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, have you been the subject of, participated in, or become aware 
of any internal DOD inquiry into or investigation of the matters raised 
by these questions or the issues raised at the May 19 hearing? If so, 
please provide the name of the person and office conducting that 
inquiry or investigation, the date it began, and copies of any 
materials or information you provided for that purpose. If you were 
interviewed, please provide the date of the interview, the name of the 
interviewer, and a copy of any notes, summary, transcript, or other 
record of the interview. If there has been a report, summary, or other 
document or oral presentation arising out of such inquiry or 
investigation, please provide a copy or if oral your knowledge of the 
contents of the oral presentation.
    General Abizaid. I am aware of the following investigations/
inquiries:

        a. Schlesinger Panel.
        b. Interrogations Special Focus Team (Admiral Church)
        c. Sec Navy Detainee Review
        d. Jacoby Assessment (CFC-A)
        e. Taguba AR 15-6
        f. MG Fay Procedure 15
        g. Miller Report
        h. Ryder Report
        i. Formica AR 15-6
        j. Army Inspector General (IG) Report
        k. Army Reserve Review of Training

    To the best of my knowledge, the Taguba, Miller, and Ryder reports 
are complete and available. In addition, I have provided an interview 
for the Schlesinger Panel and the Interrogation Special Focus Team 
(Admiral Church).
    General Sanchez. I am aware of the investigation initiated on 
January 19, 2004, at my request by MG Antonio Taguba and conducted 
under the provisions of Army Regulation 15-6. This investigation is 
complete and I understand that a copy of the report of investigation 
has been provided to Congress.
    I am also aware of the ongoing investigation initially appointed by 
me under the provisions of Army Regulation 15-6 in which MG George Fay 
is the investigating officer. At my request, a superior appointing 
authority was named by the acting Secretary of the Army. I have not 
been interviewed by MG Fay.
    I am also aware of the appointment of a DOD Independent Commission 
on Detention Practices, appointed by the Secretary of Defense in May 
2004. I was interviewed by this body on June 24, 2004. Because its 
report has not yet been completed, I refer you to the Commission for 
any records of my interview.
    I am aware of the investigation being conducted by Vice Admiral 
Church, also at the direction of the Secretary of Defense. I have not 
been interviewed by Vice Admiral Church.
    Additionally I am aware of an ongoing USACIDC investigation. I have 
not been interviewed in this investigation.
    General Miller. Yes. I have been interviewed by the OSD Schlezinger 
Independent Panel to Review DOD Detention Operations and MG Fay's 
investigation. As all investigations/panels remain ongoing, I cannot 
comment on them at this time.

                       non-disclosure agreements
    47. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, there are reports that persons with information potentially 
relevant to our inquiry have been asked to sign non-disclosure or other 
agreements precluding their disclosing what they know and that others 
may have been threatened with courts martial or other reprisals if they 
disclose what they know. Please tell us everything you know about these 
allegations.
    General Abizaid. I am not aware of persons being asked to sign 
nondisclosure statements or threatened with courts-martial or reprisals 
for providing information to investigators.
    General Sanchez. I am not aware of any such agreement within my 
command, nor do I know anything about the allegations.
    General Miller. I have no knowledge of any actions of this nature.

                    judge advocate general officers
    48. Senator Kennedy. General Abizaid, General Sanchez, and General 
Miller, there have been published allegations that JAG officers have 
been excluded from the legal decisionmaking and implementation of 
policies in the field of interrogation and detention practices, and 
have been displaced by civilian attorneys and officials at DOD. Please 
tell us everything you know about the substance of these allegations.
    General Abizaid. I am not aware of JAG officers being excluded from 
the legal decisionmaking and implementation of policies in the field of 
interrogation and detention practices at CENTCOM. I actively seek and 
routinely rely on the advice and counsel of my Staff Judge Advocate on 
all such matters.
    General Sanchez. This is not the case at the task force level. 
Judge Advocates are integral members of my command, full participants 
in operations, and relied upon to provide legal advice and support in 
the field of interrogation and detention practices in the field. I have 
no knowledge of the role of JAG officers at higher levels.
    General Miller. I have no knowledge of any actions of this nature.

                              icrc reports
    49. Senator Kennedy. Colonel Warren, apparently you received one or 
more ICRC reports yourself (as will be indicated in full in the answers 
to the previous questions). Who determined, and on what basis, that you 
should receive those reports?
    Colonel Warren. CJTF-7 Judge Advocates typically received copies of 
the reports from the ICRC at our periodic meetings. If a representative 
of the 800th MP BDE was not present at the meeting, we would also 
receive the original report and provide it to the Brigade or the CJTF-7 
Provost Marshal's office. This protocol was self-imposed and was not 
determined by superior authority. In January 2004, we informed the ICRC 
to address reports to LTG Sanchez and provide the original reports to 
me or to a CJTF-7 Judge Advocate. Previously, CJTF-7 was given copies 
of reports (often with my name on the ``copy furnished'' line) that 
were addressed to commanders within the 800th MP Brigade. It is 
certainly possible that one or more reports would have been given to me 
at a meeting, either as copies or sealed originals for another 
addressee. However, I recall receiving only other correspondence that 
was addressed by name to LTG Sanchez. After the bombing of the ICRC 
headquarters in the fall of 2003, most meetings with the ICRC were held 
at the CPA. There, ICRC meetings were also attended by one or more 
attorneys from the CPA Office of General Counsel, as well as MP 
officers (and MI officers as available as well). If a CJTF-7 Staff 
Judge Advocate officer was not present at a meeting, a CPA General 
Counsel attorney would receive the report.

    50. Senator Kennedy. Colonel Warren, what did you think your 
responsibilities and obligations required you to do with those reports? 
Which of the following did you think you were receiving them on behalf 
of: the facility Commander, JTF-7, CENTCOM, JAG, MI, DOD, or OSD? Which 
of those, and who else, did you disseminate the reports or descriptions 
of the reports to? Who told you whom to disseminate them to? Why did 
you not disseminate them to each of those people or entities?
    Colonel Warren. The reports were directed to the addressees. 
Starting in January 2004, I began accepting original reports on behalf 
of CJTF-7. For this reason, I had my officers ensure that the reports 
had been or were provided to activities that had responsibilities for 
the facilities: C-2, C-3 (PMO), 800th MP BDE, 205th MI BDE, and the 
camp commander. As a result of the October 2003 ICRC visit to Abu 
Ghraib and the delay in responding to the November 2003 ICRC report, I 
recommended to the Commander, CJTF-7 that, as a matter of procedure, 
all future ICRC reports be addressed to the Commander, CJTF-7 and given 
to a CJTF-7 Judge Advocate. Starting with the January 2004 ICRC visit 
to Abu Ghraib, this was the practice followed until changed by the 
Deputy Commanding General, Detention Operations in April 2004.

    51. Senator Kennedy. Colonel Warren, what was your personal 
reaction when you saw or heard those reports?
    Colonel Warren. For purposes of questions 51 through 55, I assume 
you are referring to the reports pertaining to the October 2003 ICRC 
visit. My reaction was one of surprise and disbelief. The report seemed 
so implausible as to be unbelievable.

    52. Senator Kennedy. Colonel Warren, did you think the activities 
described were consistent with applicable policy?
    Colonel Warren. Not if the report was accurate.

    53. Senator Kennedy. Colonel Warren, did you think the activities 
described were consistent with the Geneva Conventions?
    Colonel Warren. Not if the report was accurate.

    54. Senator Kennedy. Colonel Warren, did any of the activities 
described surprise or outrage you?
    Colonel Warren. Yes. Please see my response to question 51.

    55. Senator Kennedy. Colonel Warren, did you think that the reports 
required remedial action?
    Colonel Warren. Yes. Remedial action was taken as described in my 
responses to questions 5 and 10.

    56. Senator Kennedy. Colonel Warren, did you express your opinions 
on the preceding four questions, or on any other questions raised by 
the reports to anyone in any form? To whom and in what form? Please 
provide copies of any materials in any form containing or reflecting 
those opinions.
    Colonel Warren. I do not specifically recall to whom I stated my 
opinion at the time, although I am sure that I commented on the report 
to officers in my section, and to MP and MI officers. The only 
documents that I am aware of that could be considered as reflecting an 
opinion are those referred to in my response to question 5.

                        authority to take action
    57. Senator Kennedy. Colonel Warren, did you think it was your 
responsibility as a legal advisor to take remedial action yourself?
    Colonel Warren. Yes. In addition to my responsibility as a legal 
advisor, I believe it is my duty as a member of the U.S. military to 
ensure that captured persons are protected and treated humanely. I 
regret that I did not recommend a more formal inquiry into the 
allegations of the report. While this would not have prevented the 
abuse documented in the USACIDC report, which occurred in November, a 
more formal inquiry might have resulted in an earlier initiation of the 
CID investigation.

    58. Senator Kennedy. Colonel Warren, did you have authority to take 
that action? If so, what did you do? Please provide any documentation. 
If not, whose responsibility did you think it was or to assure that 
remedial action was taken? Did you inform that person promptly and 
fully? Please provide documentation.
    Colonel Warren. The primary authority and responsibility to take 
remedial action rested with the MP commanders of the camps and the 
facilities, and with their chain of command. Having said that, early on 
in the war and throughout the fall, in an effort to assist those 
efforts, I was personally involved, along with my officers, in 
arranging for and obtaining food, water, shelter (including tents), 
showers, and other supplies for prisoners, as well as obtaining 
detention facilities.

                   prisoner categories at abu ghraib
    59. Senator Kennedy. Colonel Warren, we have heard that the 
prisoners at Abu Ghraib fall into three categories: common criminals, 
EPWs, and security internees. Could you explain the difference between 
an EPW and a security internee?
    Colonel Warren. An EPW is a person who meets the criteria of a 
lawful combatant in accordance with the Third Geneva Convention (Geneva 
Convention Relative to the Treatment of Enemy Prisoners of War, August 
12, 1949). In Iraq, a security internee is a person who is a civilian 
(not meeting prisoner of war criteria) who is interned as an imperative 
threat to security in accordance with the Fourth Geneva Convention 
(Geneva Convention Relative to the Treatment of Civilian Persons in 
Time of War, August 12, 1949). Both EPWs and security internees are 
``protected persons'' under the Geneva Conventions.

    60. Senator Kennedy. Colonel Warren, could you elaborate on what 
circumstances of capture would lead to a determination that someone is 
a security internee? Is that decision reviewed, and if so, when?
    Colonel Warren. Authority to capture or detain is stated in the 
ROE. Upon capture, a person is to be treated humanely and with dignity 
and respect. Their status is irrelevant. Within 72 hours (until the 
summer of 2003, 21 days) after induction at a detention facility, a 
Magistrate reviews the circumstances of capture to determine whether a 
reasonable basis exists to conclude that the detainee is an imperative 
threat to security. This review exceeds the legal requirement of the 
Fourth Geneva Convention, which mandates a review within 6 months of 
detention. Whether detention should continue is reviewed by the Review 
and Appeal Board, which also considers appeals from orders of 
internment.

    61. Senator Kennedy. Colonel Warren, is a security internee an 
unlawful combatant? If a security internee is an unlawful combatant, 
does that mean the Geneva Conventions do not apply to them?
    Colonel Warren. Not all security internees are unlawful combatants. 
An unlawful combatant is a person who engages in hostilities against a 
lawful combatant without legal privilege. Simply put, legal privilege 
attaches when a person meets the criteria of Article 4 of the Third 
Geneva Convention. The significance of this legal privilege is that it 
means that the person cannot be prosecuted for lawful ``warlike acts.'' 
While an unlawful combatant can be prosecuted for warlike acts, the 
Geneva Conventions still apply to them. If captured, they, like 
security internees who are not unlawful combatants, are protected 
persons under the Fourth Geneva Convention.

    62. Senator Kennedy. Colonel Warren, does some lesser standard of 
Geneva Conventions apply to the security internees?
    Colonel Warren. The four Geneva Conventions afford different 
protections to different categories of individuals. At one end of the 
spectrum are the protections afforded by the Third Geneva Convention to 
EPWs during international armed conflict. This includes immunity from 
all lawful pre-capture acts, and is the highest protection afforded by 
the Geneva Conventions. The Fourth Geneva Convention applies to 
civilians, who are afforded many, but not all, of the protections and 
privileges afforded POWs. Security Internees (persons who present an 
imperative threat to security) are a category of civilian internees who 
are afforded fewer protections than civilian internees not suspected of 
being a security threat. The latter point proceeds from a plain reading 
of the Fourth Geneva Convention and in Pictet's Commentary to the 
Geneva Conventions. See, for example, Pictet's comments on ``coercion'' 
under Article 31 of the Fourth Geneva Convention.

    63. Senator Kennedy. Colonel Warren, why would the Geneva 
Conventions apply to unlawful combatants in Iraq, but not in 
Afghanistan?
    Colonel Warren. The Geneva Conventions apply in Iraq because there 
was a state of international armed conflict, then occupation, 
triggering the application of the Conventions by their terms. I refer 
you to the DOD for an analysis of the applicability of the Geneva 
Conventions in Afghanistan.

 criteria for determining the status of persons captured by the united 
                                 states
    64. Senator Kennedy. Colonel Warren, did the United States military 
change their criteria for determining the status of persons captured by 
United States military personnel after May 1?
    Colonel Warren. No. The criteria are not set by the military, but 
by international law. Specifically, in situations such as Iraq where it 
is applicable, Article 5 of the Third Geneva Convention would require a 
presumption of POW protection in cases ``where status is in doubt.'' In 
these cases, POW protections could only be denied based up action by 
competent tribunal convened under Article 5.
    CJTF-7 conducted such tribunals through the summer of 2003 where 
status of captured personnel was in doubt. POW protections were 
accorded to Saddam Hussein, captured in December 2003, without action 
of an Article 5 tribunal because CJTF-7 concluded that his status as a 
POW was not in doubt.
    However, for the majority of persons captured after May 1, the date 
of the announced end of major combat operations, no doubt existed as to 
their status as POWs. By May 1, 2003, the Iraqi military had 
disintegrated and had been abolished by CPA order. U.S. and U.K. 
military forces were under effective control of Iraqi territory and 
Iraq was occupied territory. Virtually all persons detained after May 1 
simply did not meet the criteria of the Third Geneva Convention as 
members of the Armed Forces, or of a militia, volunteer corps or levee 
en masse, in order to be accorded POW status.

    65. Senator Kennedy. Colonel Warren, what was the number of EPWs 
captured after May 1? How many security detainees have been captured 
after May 1? If there was a change in criteria after May 1 , why does 
this date have legal significance?
    Colonel Warren. Those numbers are not available to me, but I 
believe they can be obtained from the National Detainee Reporting 
System database. The criteria by which we discerned the status of POWs 
has never changed throughout the conduct of the war and is governed by 
the Third Geneva Convention. The significance of May 1 is discussed in 
the response to question 64.

    66. Senator Kennedy. Colonel Warren, were the implications of the 
change discussed with Pentagon leadership, Pentagon legal counsel, 
State Department leadership, State Department legal counsel, the White 
House, or White House legal counsel?
    Colonel Warren. The distinction between international armed 
conflict and occupation was and is a widely known fact, consistent with 
applicable international law, specifically the law of war and the law 
of occupation. The distinction explains the difference between the 
Third and Fourth Geneva Conventions. It was a matter of continuous 
discussion and implementation. One example of its implementation is the 
establishment and operation of the Central Criminal Court of Iraq 
(CCCI), which has had a number of prosecutions and convictions of 
unlawful combatants for attacks on coalition forces. Their very status 
as unlawful combatants makes defendants susceptible to prosecution. 
Were they POWs, they would be afforded legal privilege (immunity) for 
their acts. I discussed this matter with the DOD General Counsel and 
the JAG of the Army, and their staff.

                       scope of geneva convention
    67. Senator Kennedy. Colonel Warren, could you please provide a 
list of all legal and military treatises, texts, authorities, 
regulations, journals, and manuals that you relied upon as 
authoritative or informative for defining the scope of the Geneva 
Conventions relative to limits on interrogation and detention?
    Colonel Warren. To the best of my recollection:

    a. Third Geneva Convention Relative to the Treatment of Enemy 
Prisoners of War, August 12, 1949.
    b. Fourth Geneva Convention Relative to the Treatment of Civilian 
Persons in Time of War, August 12, 1949.
    c. The Geneva Conventions of 12 August 1949, Commentary. Jean S. 
Pictet, 1958.
    d. FM 27-10, The Law of Land Warfare, July 18, 1956.
    e. FM 34-52, Interrogation Intelligence, September 28, 1992.
    f. DA Pam 27-1 Treaties Governing Land Warfare, December 7, 1956.
    g. CENTCOM Reg 27-13, Captured Persons, February 7, 1995.
    h. CFLCC Operations Orders.
    i. CENTCOM Operations Orders.
    j. DOD Directive 2310.1, DOD Enemy POW Detainee Program, August 18, 
1994.
    k. SECDEF Memorandum, Subject: Interrogation Techniques in the War 
on Terrorism (S), April 16, 2003.
    l. AR 190-8, Enemy Prisoners of War, Retained Personnel, Civilian 
Internees and other Detainees, October 1, 1997.
    m. AR 190-14, Carrying of Firearms and Use of Force for Law 
Enforcement and Securities Duties, March 12, 1993.
    n. AR 190-40, Serious Incident Report, November 30, 1993.
    o. AR 381-10, U.S. Army Intelligence Activities, July 1, 1984.
    p. Israeli Supreme Court decision on ``Torture'' (Judgment 
Concerning the Legality of the General Security Service's Interrogation 
Methods).
    q. U.S. Code, Anti-Torture Statues, 18 USC 2340A/B.

                time line of cjtf-7 interrogation policy
    68. Senator Kennedy. Colonel Warren, could you provide a time line 
describing the development of the CJTF-7 interrogation and counter 
resistance policy signed by you on October 12, 2003?
    Colonel Warren. I did not sign the policy, which is a CJTF-7 
command policy memorandum.
    The following timeline describes the development of the policy:

          September 10, 2003: Draft Interrogation and Counter-
        Resistance Policy memorandum circulated for comment.
          September 14, 2003: Policy memorandum issued, provided to 
        CENTCOM for review.
          September 14-October 12, 2003: Review of the policy within 
        CJTF-7 and between CJTF-7 and CENTCOM.
          September 28, 2003: Second draft circulated for comment.
          October 4/5, 2003: Third draft circulated for comment.
          October 12, 2003: Final policy memorandum issued.


    69. Senator Kennedy. Colonel Warren, could you provide a time line 
describing the evolution of the chart provided to the committee by MG 
Alexander and described as the CJTF-7 Interrogation Rules of Engagement 
that appear several times in the Taguba report annexes?
    Colonel Warren. I cannot from personal experience. However, I 
understand that the chart was prepared at Abu Ghraib in late September 
or October 2003. It was not a CJTF-7 command product.

                        detainees at abu ghraib
    70. Senator Kennedy. General Sanchez, were you aware of the number 
of detainees who were there on average at Abu Ghraib in the fall and 
winter of 2003? How many?
    General Sanchez. Yes. A report is forwarded daily to the National 
Detainee Reporting System database, which is maintained by 
Headquarters, Department of the Army. During the fall and winter of 
2003, the detainee population varied between 5,000 and 6,700.

    71. Senator Kennedy. General Sanchez, were you aware of the number 
of detainees who were processed in and released on a daily basis? How 
many?
    General Sanchez. I was not aware of the number of in-processed and 
released detainees on a daily basis as the Commanding General, CJTF-7. 
Periodically I reviewed snapshots of detainee numbers in order to 
maintain situational awareness of ongoing developments in the detainee 
population. Examinations of the databases for Abu Ghraib indicate the 
following numbers in-processed during the months from October 2003 to 
March 2004:

        October - 2,429
        November - 1,980
        December - 2,105
        January - 1,922
        February - 1,143
        March - 961

    The daily report of releases may be obtained from the National 
Detainee Reporting System database, maintained at Headquarters, 
Department of the Army.

                        prisoner tracking system
    72. Senator Kennedy. General Sanchez, were you aware of the 
prisoner tracking system at Abu Ghraib?
    General Sanchez. Yes. At first, a manual tracking system was used, 
but this was replaced by the Biometric Automated Track Toolset (BATS) 
system in the latter part of 2003. This system has vastly improved our 
ability to account for those in the custody of coalition forces.

    73. Senator Kennedy. General Sanchez, were you aware of the 
problems the military had with keeping track of who was at the prison?
    General Sanchez. Yes. That is why we transitioned to more 
technologically advanced systems such as BATS. For several months, we 
had enormous problems with the identification of detainees. This was 
caused by difficulties in entering and maintaining the correct data in 
non-standard databases developed by the 800th MP BDE. Problems ranged 
from transliteration and disarrangement of detainees' multiple names 
through misunderstanding of the Arabic language to false names provided 
by some detainees. Early in the war, some prisoners had no capture tags 
or documentation. These problems were exacerbated by the use of at 
least two numbering systems for detainees and maintenance of at least 
three populations: EPWs, criminal detainees, and security internees.

                     military police at abu ghraib
    74. Senator Kennedy. General Sanchez, did you have sufficient MPs 
at Abu Ghraib to maintain security and aid in detention operations?
    General Sanchez. Yes.

                   interrogation rules of engagement
    75. Senator Kennedy. General Sanchez, do you believe that it was 
appropriate to use the tactics listed on the right hand side of the 
slide titled ``Interrogation Rules of Engagement (IROE)'' provided to 
the Committee by MG Alexander on the prisoners at Abu Ghraib when you 
didn't even know who was there and if they deserved such treatment?
    General Sanchez. The IROE slide was not approved or produced by 
CJTF-7. The slide was prepared by a subordinate command in order to 
summarize the interrogation and counter-resistance policy. The CJTF-7 
interrogation and counter-resistance policy was stated in two 
memoranda, the first dated September 14, 2003 and the second dated 
October 12, 2003. Both memoranda were furnished to the committee on May 
19, 2004.
    The September 14, 2003 policy authorized the methods listed in the 
right column of the IROE chart, except for ``sensory deprivation'' and 
``sleep deprivation.'' Use of the authorized methods was subject to the 
general and specific safeguards listed in Enclosure 2 of the Policy, as 
well as the implementation guidance of the commander, 205th MI BDE. The 
September policy remained in effect for less than 1 month, until 
superceded by the October 12, 2003, policy.
    The October 12, 2003, policy which remained in effect for 7 months, 
authorizes the methods listed at its enclosure 1, subject to the 
safeguards listed at its enclosure 2. These methods do not include 
sleep deprivation, presence of military working dogs, or excessive 
noise. Use of any methods not listed at enclosure 1 of the October 12 
policy is not authorized without a written exception to policy granted 
by me, as well as legal review and review by the command's senior 
intelligence officer. The methods listed in the right column of the 
IROE chart are similarly not authorized under the October 12 policy.
    Except for segregation in excess of 30 days, I have neither 
received nor approved any requests for the use of any methods requiring 
an exception to policy. Except for segregation in excess of 30 days, I 
have not approved the use of any of those methods for a particular 
prisoner.
    Safeguards for all interrogation methods included: limited use of 
the techniques only by trained personnel; medical evaluations of all 
candidates prior to employment of interrogation approaches and their 
combinations; interrogation plans with specific attention to proposed 
limits on duration, intervals between applications of interrogation 
approaches, termination criteria, and the presence of qualified medical 
personnel; appropriate supervision; provision for adequate sleep, food 
and water; monitoring for adverse medical or psychological effects 
during segregation; adequate supervision of the use of interrogation 
approaches.
    By its terms, the October 12, 2003, policy enunciates the purpose 
of interviews and interrogations to obtain the ``most information from 
a security internee with the least intrusive method, applied in a 
humane and lawful manner with sufficient oversight by trained 
investigators or interrogators. Further, ``Interrogators must ensure 
the safety of security internees, and approaches must in no way 
endanger them.''
    Additionally, interrogations were subject to a October 5, 2003, 
command policy memorandum entitled ``Proper Treatment of Iraqi People 
During Combat Operations'' which emphasized treatment of all persons 
under coalition forces' control, including prisoners and detainees, 
with dignity, respect, and humanity. This memorandum was reissued by 
order in January 2004. Similar memoranda and orders were issued in 
April and March 2004.
    Finally, the slide itself reiterates adherence to these standards 
outlined above: ``[a]pproaches must always be humane and lawful, 
[d]etainees will NEVER be touched in a malicious or unwanted manner--
[t]he Geneva Conventions apply within CJTF-7. . . . VIOLATIONS MUST BE 
REPORTED IMMEDIATELY TO THE OIC.'' The slide concludes with the 
reiteration that the use of all the techniques are subject to general 
safeguards as well as guidance from the 205th MI BDE Commander, CJTF-7 
Commander and FM 34-52, Interrogation Intelligence.

    76. Senator Kennedy. General Sanchez, could you describe your 
rationale for the development of the October 12 guidance for IROE and 
the October 5 memorandum on the CJTF-7 Interrogation and Counter 
Resistance Policy? Are these documents different? If so, how? Please 
provide copies of both and any earlier drafts of both documents.
    General Sanchez. The October 12 memorandum was the ``Interrogation 
and Counter-Resistance Policy.'' There was no CJTF-7 document termed 
IROE. There was an October 5, 2003, memorandum entitled, ``Proper 
Treatment of the Iraqi People During Combat Operations.''
    The October 12, 2003, memorandum was developed to state the 
command's policy on Interrogation and Counter-Resistance. It was 
preceded by the September 14, 2003, policy on the same subject, and a 
series of drafts, all of which are enclosed in classified form 
(enclosures retained in committee files). The October 5, 2003, 
memorandum on Interrogation and Counter-Resistance was a draft that 
reflects the process leading to the October 12, 2003, policy.
    The October 12 document is very different from the October 5 
memorandum. The October 5, 2003, memorandum applies to Interrogation 
and Counter-Resistance only generally in that it requires the treatment 
of all persons, including detainees, with dignity, respect, and 
humanity. There were no prior drafts of this memorandum. The rationale 
behind the October 12 policy was to ensure that the command had a 
single interrogation policy that comported with the Geneva Conventions. 
The rationale behind the October 5 memorandum was to reemphasize to 
soldiers that they had an obligation to follow the law of war and treat 
all persons, including detainees, with dignity, respect, and humanity.

    77. Senator Kennedy. General Sanchez, did you adopt General 
Miller's recommendations from his September report in your October 5 
memorandum? To what extent did you accept General Miller's 
recommendations? If you rejected any of his recommendations, could you 
explain why?
    General Sanchez. The October 5 memorandum was developed to 
reinforce the obligation of coalition forces to treat the Iraqi people 
with dignity, respect and humanity. This obligation specifically 
extended to detainees. MG Miller's recommendations had no connection to 
the drafting or issuance of the October 5 memorandum. A copy of the 
memorandum is enclosed.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    There was an October 5, 2003, unsigned draft of the CJTF-7 
Interrogation and Counter-Resistance Policy. The draft led to the final 
policy, issued on October 12, 2003. The promulgation of a command 
Interrogation and Counter-Resistance Policy was based on the 
recommendations of MG Miller's assessment. With regard to the 
observation that CJTF-7 should have a specific interrogation policy, no 
aspect of MG Miller's recommendation was rejected.

    78. Senator Kennedy. General Sanchez, did you coordinate 
recommendation of MG Miller with anyone in the Pentagon? Was this 
policy coordinated with interrogation policies in any other theaters or 
with any other agencies? Who approved this policy?
    General Sanchez. I did not coordinate MG Miller's recommendations 
with anyone in the Pentagon and I am not aware of any such coordination 
by my staff. I understand that the September 14 Interrogation and 
Counter-Resistance Policy was modeled on the policy from Guantanamo 
Bay, modified for use in a theater of war in which the Geneva 
Conventions were applicable. I understand that other policies were 
consulted in the development of the CJTF-7 policy, but I am unaware of 
any coordination with other agencies.

                              copper green
    79. Senator Kennedy. General Sanchez, I would like to ask you a 
question that may require a classified response. If such a response is 
necessary, I would appreciate it if you would provide unclassified and 
classified answers for the record. Are you aware of the existence of a 
program that was called ``Copper Green''?
    General Sanchez. No.

                         special access program
    80. Senator Kennedy. General Sanchez, are you aware of any Special 
Access Program to gather intelligence from detainees at Abu Ghraib?
    General Sanchez. No.

                   assessment of detainee operations
    81. Senator Kennedy. General Miller, after you completed your 
assessment of detainee operations on September 9, did you provide 
recommendations to LTG Sanchez? Did you provide those recommendations 
to Colonel Pappas?
    General Miller. I gave an outbrief to LTG Sanchez and MG Fast 
covering those topics covered in the Assessment of DOD Counterterrorism 
Interrogation and Detention Operations in Iraq (MG Miller Assistance 
Visit Report). This included recommendations in detention, information 
management and fusion, and interrogation operations. Colonel Pappas, 
though present during visits to Abu Ghraib and consulted at Camp 
Victory, was not provided with a copy of the final report by the 
assessment team.

    [Whereupon, at 12:21 p.m. the committee adjourned.]


   THE DEPARTMENT OF THE ARMY INSPECTOR GENERAL REPORT ON DETENTION 
                    OPERATION DOCTRINE AND TRAINING

                              ----------                              


                        THURSDAY, JULY 22, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Sessions, Talent, Levin, Kennedy, Reed, Akaka, Bill Nelson, E. 
Benjamin Nelson, Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Paula J. Philbin, professional staff member; Lynn F. 
Rusten, professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Peter K. Levine, minority counsel; and William 
G.P. Monahan, minority counsel.
    Staff assistants present: Alison E. Brill, Andrew W. 
Florell, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; James P. Dohoney, Jr., assistant to Senator 
Collins; Clyde E. Taylor IV, assistant to Senator Chambliss; 
Meredith Moseley, assistant to Senator Graham; Christine O. 
Hill, assistant to Senator Dole; Russell J. Thomasson, 
assistant to Senator Cornyn; Mieke Y. Eoyang and Jarret A. 
Wright, assistants to Senator Kennedy; Erik Raven, assistant to 
Senator Byrd; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi and Richard Kessler, assistants to 
Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Andrew 
Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets today to continue its 
series of hearings relating to allegations on prisoner abuse 
and otherwise the manner in which the Department of Defense 
(DOD), particularly the Department of Army, maintains and 
conducts its detention and interrogation of the prisoners. This 
is a very important segment of the U.S. commitment in the 
ongoing war on global terrorism.
    Today's hearing will focus on the Department of Army 
Inspector General's Detainee Operations Inspection Report that 
focuses on detention operations, doctrine, and training. I 
welcome our witnesses this morning: the Honorable Les Brownlee, 
Acting Secretary of the Army; General Peter J. Schoomaker, 
Chief of Staff of the United States Army; and Lieutenant 
General Paul Mikolashek, Inspector General (IG) of the Army. 
Good morning, gentlemen, and thank you for coming.
    General Mikolashek. Good morning, sir.
    Chairman Warner. On February 10, 2004, the Secretary of the 
Army as executive agent for the Department of Defense, Enemy 
and Prisoner of War Detention Program, issued a directive for 
the Army IG to establish an assessment team to complete a 
functional analysis of the Department's internment, enemy-
prisoner of war, and detention policies, practices, and 
procedures.
    Secretary Brownlee took this action after allegations of 
detainee abuse and inadequate training for soldiers involved in 
the detention of prisoners came to the Secretary's attention.
    I have the full text of that directive here, and I ask that 
it be placed following my opening statement in the record. It 
is here for anybody to inspect.
    I apologize to my colleague for the short notice about this 
hearing, but Senator Levin and I feel as these matters become 
available we should bring them to the attention of our 
colleagues promptly with a hearing, and we have done so this 
morning.
    I want to thank the Department of Defense and the 
Department of the Army for making this information available to 
the committee in a timely and a forthright manner. I have been 
in consultation with the Secretary for a week or 10 days about 
the timing, and he assured me that it would be forthcoming as 
soon as it has been completed, and that has been done. So I 
thank you, Mr. Secretary.
    At a time when the Army is decisively engaged around the 
world, especially in Iraq and Afghanistan, the Army is also 
committed to rigorously and thoroughly reviewing its practices 
and procedures and making constructive adjustment and changes 
along the way. I commend you, Mr. Secretary, the Chief, and 
others for that course of action.
    As a result of allegations of abuse of prisoners and the 
related scrutiny of interrogation policy and procedures, the 
Department has directed 11 senior-level reviews--that is the 
Department of Defense--in addition to many unit-level reviews 
and criminal investigations. That list of reviews was provided 
to the committee at the last hearing, but basically five of 
these reviews are now complete and have been provided to the 
committee in their entire text. Five of the remaining six 
senior-level reviews are estimated to be completed over the 
course of the next several months, including the Fay report on 
interrogation procedures at the Abu Ghraib prison and Dr. 
Schlesinger's independent review together with Secretary Harold 
Brown of the DOD detention operation. That review was directed 
specifically by the Secretary of Defense (SECDEF).
    I wish to remind members of the committee that the report 
that will be presented this morning is not, and I repeat, is 
not, an investigation of specific allegations of abuse. Rather, 
it is an IG inspection, which is focused on the adequacy of 
current Army training and doctrine to prepare soldiers to 
properly and safely capture, care for, control, and interrogate 
prisoners in a combat theater of operations.
    It is intended to examine the presence or absence of 
systemic issues, not just individual cases. It must be viewed 
in that context. It is but one piece of a larger picture, but 
in my view a very important piece, and it is a timely public 
disclosure of that piece.
    As the committee has conducted its oversight 
responsibilities, we have learned that detention operations are 
complex and are not limited to the operation of just prisons. 
Detention operations start at the moment of capture, often in 
the heat of battle and the ensuing confusion, and continue 
through the screening, transportation, interrogation, and in 
some cases the long-term internment.
    Prior to September 11, few people in our military had 
experience in the detention of prisoners. It was a skill not 
often practiced. That has changed since operations began in 
Afghanistan and now continuing through Iraq.
    In the case of the Abu Ghraib prison, we have experienced 
an unacceptable breakdown in military discipline. This 
represents an extremely rare chapter in the otherwise 
extraordinary proud history of our Armed Forces. It defies 
common sense and contradicts all the values that Americans 
stand for and that our military defends. Once again, I commend 
the Department of Defense and specifically the Department of 
the Army for the manner in which it is proceeding under the 
Uniform Code of Military Justice (UCMJ) to hold those 
accountable where they have been determined to have broken the 
Military Code and the Geneva Conventions.
    Of our uniformed personnel, 99.9 percent are performing 
difficult tasks humanely and honorably and in some cases making 
the ultimate sacrifice of life and limb to win the war on 
terror. Each of us on the committee has nothing but the 
strongest support for our brave men and women in uniform and 
their families.
    Congress has the responsibility to get at the facts, to 
make sure that the conditions that have allowed this misconduct 
to occur have been identified and corrected, and to ensure that 
systems are in place so that the misconduct of this type never 
happens again. But as we conduct our necessary oversight, it is 
just as important to ensure that the Armed Forces have the 
ability to vigorously conduct the missions required to defend 
our Nation and to win the global war on terrorism. 
Intelligence-gathering is at the very heart of that.
    I thank our witnesses for their service and their 
dedication to do the right thing for the Army and our Nation.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming our witnesses and thanking them on behalf of the 
entire committee for their service to the people of the United 
States and what we represent.
    Today we receive testimony on the Army Inspector General's 
analysis of the Army's prisoner detention operations doctrine 
and training.
    General Mikolashek, your report examines whether there were 
systemic problems with detention operations in Iraq and 
Afghanistan that may have contributed to abuse of detainees in 
U.S. custody, including the abuses, which were so graphically 
depicted in photos from Abu Ghraib.
    When General Abizaid appeared before this committee in mid-
May, he testified that one of the preliminary findings of the 
Army IG's investigation was that, ``Our doctrine is not 
right.'' Based on a very quick perusal of the final report, 
which we just received, it claims that the incidents of abuse 
in Iraq and Afghanistan were not the result of systematic 
problems. Nonetheless, the report finds that Army doctrine 
needs to be adapted to the environment in which our soldiers 
are working to provide security, and in this regard the report 
makes over 50 recommendations for improving Army detention 
operations.
    The findings and recommendations of this report will need 
to be closely examined in light of the additional allegations 
of abuse and legal and policy memoranda that have emerged in 
the last few months. This additional information includes the 
February 2004 International Committee of the Red Cross (ICRC) 
report, which documents a wide variety of ``methods of ill 
treatment'' in the detention and interrogation of detainees in 
Iraq. It reports that these methods were used ``in a systematic 
way,'' and, quoting again from the ICRC February 2004 report, 
``appeared to be part of the standard operating procedures by 
military intelligence personnel to obtain confessions and 
extract information.''
    Interrogation techniques witnessed by the ICRC during their 
visits to Abu Ghraib appear consistent with techniques that we 
now know were approved and later rescinded by high-level 
Defense Department officials or by in-theater commanders in 
Iraq. In light of the frequently changing ``rules of 
engagement,'' as they were called, for interrogations in Iraq, 
Afghanistan, and elsewhere, it is difficult to believe that 
there were not systemic problems with our detention and 
interrogation operations.
    The report that we receive today is the first of a half 
dozen reports that we expect to receive over the next several 
weeks, including a report from Generals Fay and Jones on the 
role of military intelligence personnel at Abu Ghraib. Each of 
these reports will be helpful to us and the Nation in 
understanding what really happened with the detainees in Iraq.
    I look forward to your testimony. I also want to thank our 
chairman because he continues to pursue the reports and to 
schedule hearings, when appropriate, when these reports are 
received. Very strong oversight by this committee is surely 
appropriate under the circumstances we face.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you, Senator Levin. Again, in 
consultation with you we have arranged today in S-407 of the 
Capitol to have additional matters relating to the ICRC 
available for inspection by members and such other material as 
has been made available by the Department relative to the 
overall question of the prisoners throughout the world.
    Secretary Brownlee, we welcome you before our committee, 
that you remember with, I hope, great fondness. You were our 
Chief of Staff under a series of chairmen. We just admire so 
much your work in the Department of Defense, your love for the 
United States Army, the men and women in uniform and their 
families, and the around-the-clock care that you try to provide 
for your family in the Army. Thank you, sir, for your service.

 STATEMENT OF HON. LES BROWNLEE, ACTING SECRETARY OF THE ARMY; 
ACCOMPANIED BY GEN PETER J. SCHOOMAKER, USA, CHIEF OF STAFF OF 
THE ARMY; AND LTG PAUL T. MIKOLASHEK, USA, INSPECTOR GENERAL OF 
                            THE ARMY

    Mr. Brownlee. Mr. Chairman, Senator Warner; Senator Levin; 
and distinguished members of the committee, I appreciate the 
opportunity to be here today along with our Chief of Staff of 
the Army, General Schoomaker, and our Inspector General, 
General Paul Mikolashek. I might add, sir, that the lavish 
praise that you just heaped on me should be spread among all 
these people in uniform and those serving around the world, 
because it is their service and sacrifice that really counts.
    Chairman Warner. You have followed that same message ever 
since you were a platoon leader.
    Mr. Brownlee. Which I might still should be doing, sir.
    But we are here this morning, sir, to offer testimony on 
the Department of Army Inspector General's report on the 
detention operations. When I last appeared before you on 7 May 
to testify about detainee abuses at Abu Ghraib, the Inspector 
General's inspection was ongoing. It is now complete.
    Let me begin by emphasizing again that this is a report of 
an assessment of detention operations across the Central 
Command area of operations. It is not the result of an 
investigation of a single incident.
    In mid-January 2004, credible reports led senior commanders 
in the Central Command area of responsibility to begin 
investigations into allegations of detainee abuse at Abu Ghraib 
Prison. Concerned that there might be systemic problems in the 
planning, doctrine, or training of how the Army was conducting 
detention operations in Central Command, on 10 February I 
directed the Inspector General of the Army, Lieutenant General 
Paul Mikolashek, to conduct a functional analysis of the 
Department's internment, enemy prisoner of war, and detention 
policies, practices, and procedures.
    General Mikolashek conducted a thorough and balanced 
inspection in the following 5 months. He and his team looked at 
ongoing detention operations in Central Command with assessment 
visits to 16 detention facilities in that theater. During the 
course of their inspection, they interviewed some 650 soldiers, 
noncommissioned officers, and officers.
    Three key findings emerged based on this inspection: First, 
all the leaders and soldiers interviewed by General Mikolashek 
and his team understand the requirement and obligation to treat 
all detainees humanely, and they are doing so.
    Second, while the inspection revealed some deficiencies, 
shortfalls, and required adjustments, we were unable to 
identify system-wide failures that resulted in incidents of 
abuse. This inspection indicates that these incidents of abuse 
resulted from the failure of individuals to follow known 
standards of discipline and Army values and in some cases the 
failure of a few leaders to enforce these standards of 
discipline.
    Third, just as the current operational environment demands 
that we adapt, so too we must adapt our organization, doctrine, 
and training. We are making these adjustments.
    General Mikolashek's team concentrated on two key 
components of detention operations: the capture, security, and 
humane treatment of the detainees; and the conduct of 
interrogation operations in order to gain useful intelligence. 
While he did not find any systemic failures that led directly 
to the abusive situations we reviewed, his report makes 
recommendations to improve the effectiveness of detention 
operations. We are reviewing those recommendations. We are 
implementing them as quickly as possible.
    It is worth noting that our soldiers are conducting 
operations under demanding, stressful, and dangerous conditions 
against enemies who do not follow the Geneva Conventions, who 
take hostages and ruthlessly execute them, who maim and kill 
noncombatants indiscriminately and without remorse, who fight 
from inside mosques and other protected sites.
    Our soldiers are in an environment that demands significant 
volumes of human intelligence, particularly at the tactical 
level, where the need for this actionable intelligence is most 
critical to protect our forces and the intelligence itself is 
most perishable.
    They understand their duty to treat detainees humanely and 
in accordance with the laws of land warfare and report 
incidents of abuse when they occur. I am proud of our soldiers, 
as I know all of you are. They are indeed doing their duty 
every day under harsh, difficult, dangerous conditions, and the 
allegations and reports of abuse have in many cases come from 
the soldiers themselves, who saw something wrong and informed 
their chain of command.
    We have developed, trained, and educated our leaders to 
adapt to the environments in which they find themselves. They 
understand their tasks, conditions, and standards and to the 
best of their abilities and capabilities have adapted their 
tactics, techniques, and procedures to accommodate this 
operational environment.
    Institutionally, we are expanding our doctrine on detainees 
to provide our commanders greater flexibility and adaptability 
within well-defined principles. Our training and education at 
the individual, unit, installation level, and institutional 
levels must continue to be thorough and reflect the intensity 
of the environment in which we now operate.
    During the course of his inspection, General Mikolashek's 
team noted that since October 2001 U.S. forces have detained 
some 50,000 individuals in Afghanistan and Iraq. As of June 9, 
2004, which was the cutoff date for General Mikolashek's 
report, there were 94 cases of confirmed or possible abuse of 
any type, which include theft, physical assault, sexual 
assault, and death. The Army has initiated criminal 
investigations into these allegations and, where appropriate, 
legal action has been and will be taken.
    The Inspector General's review of all reported cases of 
abuse determined that these incidents resulted from the failure 
of individuals to follow known standards of discipline and Army 
values and, in some cases, the failure of a few leaders to 
enforce those standards of discipline. These incidents are not 
representative of Army policy, doctrine, or soldier training. 
These actions, while regrettable, are aberrations when compared 
to the actions of the hundreds of thousands of our soldiers who 
have served and continue to serve around the world with 
distinction and honor.
    Mr. Chairman, all of you are aware that these incidents of 
detainee abuse have occurred. Army soldiers and leaders were 
involved in these incidents, and the Army is responsible for 
their actions. As the senior civilian official in the Army, I 
accept this responsibility.
    Mr. Chairman, I appreciate this opportunity to appear 
before this distinguished committee today. I thank you and the 
members of the committee for your continuing support of our men 
and women in the Army, and we look forward to answering your 
questions.
    Let me just say as I yield to my friend here what a great 
pleasure it is to serve every day with General Pete Schoomaker. 
He brings such great leadership to the Army and our soldiers, 
and I am so proud just having the honor on a daily basis to 
work with a soldier like this.
    Chairman Warner. I share those views.
    Mr. Secretary--General, if you will just wait a minute--you 
and I met earlier this morning on a subject, which is not 
directly before the committee today, and that is the reported 
problems with the Army budget. I wonder if you would just 
provide the committee with a brief synopsis of what we 
discussed because one or more members may wish, given the 
opportunity here to have you this morning, to probe into this 
budget matter. I think you can bring some clarity to it.
    Mr. Brownlee. Yes, sir. The article certainly reflects that 
there are continuing demands for resources through our efforts 
in Iraq and Afghanistan. The Department has met with us and the 
other Secretaries, Chiefs, and the staff of the Office of the 
Secretary of Defense (OSD) has worked closely with us. A plan 
was in place and we have all taken actions to defer some things 
into the next fiscal year where possible.
    But also, we want to be sure and express our sincere 
appreciation to the members of this committee and the entire 
Congress because the appropriations bill, the defense 
appropriations bill that is now before the Senate and we hope 
will pass today. This bill has within it a $25 billion bridge 
supplemental, which includes a provision that will make that 
$25 billion accessible to the Department upon enactment of the 
bill, which is a little unusual. Normally it would be available 
at the first of the fiscal year.
    But Congress, recognizing the demand for resources, the 
situation we were in, and some of the deferrals we were making, 
recognized this and took steps. Sir, we are greatly 
appreciative.
    Chairman Warner. I hope you can assure us that this 
shortfall has not in any way affected the combat operations or 
deprived any soldier, sailor, or airman working with the Army 
of the means by which to carry out their missions?
    Mr. Brownlee. Sir, to my knowledge there is no shortfall 
anywhere as a result of these kinds of issues. We would ensure 
that that did not happen.
    Chairman Warner. Thank you.
    General Schoomaker.
    General Schoomaker. Sir, thank you very much.
    Chairman Warner. You also joined in the discussion with the 
Secretary this morning, and I presume you can give us the same 
assurances?
    General Schoomaker. Sir, I can, and I would just amplify 
the Secretary's comments there, that the Department of Defense 
helped us with the corporate decision of a little more than $4 
billion to fulfill----
    Chairman Warner. Added it to your cash?
    General Schoomaker. Added it to us, to ensure the 
continuity of operations and that we did not have to do things 
that were not in our best interests. So we appreciate their 
support as well.
    Sir, thank you very much for your kind statements. Chairman 
Warner, Secretary Levin, distinguished members of the 
committee, I appreciate the opportunity to appear here today 
with Secretary Brownlee and with General P.T. Mikolashek.
    We currently have more than one million soldiers in the 
Army and more than 300,000 of them are deployed around the 
globe in over 120 countries. The vast majority of our soldiers 
are performing their duties with honor, dignity, courage, and 
respect.
    We are, have been, and will remain a value-based 
institution. When I was sworn in as Chief of Staff in August of 
last year, I said our values will not change. That was true in 
August, and it is true today. Our values will not change, and 
they are nonnegotiable. Our soldiers are warriors of character. 
They exemplify our values every day and are the epitome of the 
American spirit. They are the heart of our Army.
    As the Chief of Staff of the Army, as the senior uniformed 
officer in the Army, I am responsible to train and equip 
soldiers and grow leaders. I am also responsible to provide 
ready and relevant land power to the combat commanders and the 
joint team. Although I am not in the operational chain of 
command, I am responsible for our soldiers' readiness, and it 
has been made very clear over the last couple of months that we 
could have prepared our soldiers better, and I feel a great 
deal of responsibility for the actions of our soldiers, both 
good and bad.
    Having said that, I believe the inexcusable behavior of a 
few is not representative of the courageous and compassionate 
performance of the majority of our soldiers. The IG report 
confirms that belief. As the Secretary has already stated, the 
report focuses on the training, material, leadership, 
personnel, facilities, standards, force structure, and policy. 
It identifies what went right as well as where we could do 
better as related to the internment of enemy prisoners of war 
and other detention operations and intelligences procedures. It 
also recommends actions to begin addressing the identified 
shortfalls right away.
    Commanders and leaders at every level have a duty to 
respect the established international laws of armed conflict, 
to treat those within our military detention facilities with 
dignity and decency in the same ways that we expect to be 
treated as Americans. This inspection shows that our commanders 
and leaders in nearly every case know this and did this.
    Abuses that did occur by a few have hit at the very core of 
the values of our institutions, caused us grave concern, and 
prompted us to take a very focused and thorough review of this 
matter. I am pleased that the Inspector General has completed 
this very important review.
    In our Army we expect all soldiers to demonstrate the basic 
core values of dignity and respect for others, to include those 
we have detained. We remain steadfastly committed to dealing 
expeditiously with any complaint or allegation of mistreatment, 
and I am confident that our commanders have been taking 
appropriate action.
    Thank you very much.
    Chairman Warner. Thank you very much.
    General Mikolashek.
    General Mikolashek. Chairman Warner, Senator Levin, I 
appreciate the opportunity to speak to you and the members of 
this committee on this important subject. As has already been 
mentioned, the Secretary did direct us on February 10 to 
conduct this functional analysis of how the Army conducted 
detention operations in the context of our doctrine, 
organization, current and future organizations, training 
material, leadership, and soldiers, and recommend changes to 
those as we saw fit.
    While this inspection began with this directive on 10 
February, the Army had already begun to assess detention 
operations internally. An assessment of interrogation 
operations as well as an assessment by the Provost Marshal 
General regarding corrections operations in theater had been 
completed. Further, commanders of forward-deployed units were 
using their own inspectors general to conduct assessments of 
detention operations in both Afghanistan and Iraq. While a 
catalyst for this specific inspection was the initial report of 
the crime at Abu Ghraib, we had been looking at these processes 
for some time.
    This inspection represents one of several ongoing 
inspections and investigations. It is not a criminal 
investigation. The Criminal Investigation Department (CID) will 
continue to conduct investigations into the specific crimes 
involving detainee abuse. This inspection does not seek to find 
culpability or fix responsibility regarding questionable 
activity by military intelligence personnel, as the Procedure 
15 report seeks to accomplish that task.
    This inspection, as previously stated, was not an 
investigation of a particular incident or a unit or solely 
focused on abuse, but a comprehensive, broad examination of all 
our systems that influence the conduct of these operations in 
both Iraq and Afghanistan and how the Army prepares and 
supports its soldiers in the execution of these tasks.
    We approached this mission with an eye toward the future by 
offering recommendations as to how the Army can adjust its 
doctrine, organizational structures, training, and other key 
systems. To some degree, it does represent a snapshot in time. 
Even during the conduct of our visits, we noticed continual 
adjustments and improvements by the commanders and soldiers in 
the field. Many of the recommendations contained in this report 
are already being acted upon.
    We conducted this inspection, as the Secretary mentioned, 
through the use of interviews, sensing sessions, surveys of 
over 650 soldiers from private to major general. We visited 
sites from the point of capture to the internment and 
resettlement facilities in both Afghanistan and Iraq. We 
visited our combat training centers at Fort Polk and Fort 
Irwin, as well as the Army's Survival, Evasion, Resistance, and 
Escape Training Center. We visited units and soldiers who had 
redeployed to the continental United States (CONUS) and Reserve 
component soldiers who were demobilizing who had been 
conducting detention operations in theater. We visited the 
Military Intelligence School, the Military Police School, as 
well as reviewed all known previously conducted reports and 
investigations regarding detention operations.
    We also analyzed 125 case summaries of alleged abuse in an 
effort to establish a pattern, a trend, or a root cause. We did 
conduct a thorough review of the systems affecting detention 
operations through the eyes of the soldiers and the leaders who 
are tasked with executing those operations. We looked for 
systemic issues and problems, and we defined a systemic problem 
as one that is widespread or presents a pattern. We attempted 
to determine what problems exist within these systems and to 
determine if any directly related to abuse.
    This report must also be taken in context of the world in 
which our soldiers are operating. We see that this is a tough, 
demanding, dangerous, and different environment that is in a 
constant state of flux. The enemy we face is ruthless and 
determined, who seeks to accomplish their objectives through 
terror, murder and intimidation. They seek to hide among the 
people and gain support from the populace as well as from 
external sources. They adapt as we adapt.
    This environment puts a tremendous burden on our soldiers 
who confront this enemy and their supporters eyeball-to-eyeball 
every day. You will see our soldiers have responded to this 
challenge very well.
    This kind of battlefield puts a premium on knowing the 
enemy in detail on virtually a personal basis, and thus a 
premium on human intelligence, particularly at the tactical 
level.
    In order to examine these operations, we determined that 
there are fundamentally two components of detention operations: 
first, the capture, care, and control of detainees; and second, 
the interrogation process itself. These components enable the 
goals of detention operations: first, to keep the enemy off the 
battlefield in a humane and secure manner; and then to gain 
intelligence from those who would do us harm.
    In summary, during our inspection we found that, as the 
Secretary mentioned, our soldiers and leaders do understand the 
requirement to treat people humanely. They are doing so. They 
also understand their duty obligation to report incidents of 
abuse and they do so. They also have done a remarkable job of 
adjusting their procedures to the environment that I described.
    While we did find shortcomings and flaws in each of the 
systems we looked at, we also found that in our analysis of 
those abusive situations that did occur they were not the 
result of any widespread systemic failure. In those cases that 
we reviewed, the result was of an individual's failure to 
adhere to known standards of discipline, training, or Army 
values, or in some cases an individual failure that was 
accompanied by the failure of a leader to enforce discipline, 
provide supervision and oversight.
    We found that the current operational environment puts 
demands on our soldiers and leaders to adapt rapidly, and they 
are doing so. We saw that our soldiers and leaders, when 
confronted with the difficult and unexpected, responded exactly 
the way they should have: creatively, rapidly, and 
aggressively. Our leader development doctrine and process 
produced these leaders who are unafraid to take risks and, 
despite a wide range of adversities and uncertainty, adapted 
and are getting the job done.
    Our training doctrine teaches that we train to a task, 
condition, and a standard. But when the conditions become so 
different new tasks are created, our soldiers and leaders must 
respond and react, and they are doing so today.
    However, as I mentioned, not all of these systems function 
perfectly and, just as our soldiers and leaders in the field 
are adapting, our doctrinal, organization, and training systems 
must also continue to adapt to support these soldiers in these 
kinds of operations.
    Throughout the report we identify 8 significant findings, 
15 other observations, and suggest 52 recommendations that, 
when implemented, will assist our soldiers and commanders in 
accomplishing their mission. I will discuss the major findings 
in the context of the two key components of detention 
operations.
    Regarding the capture, care, and control of detainees, as I 
previously mentioned, we find that commanders, soldiers, and 
leaders at all levels throughout the process do treat them 
properly and emphasize the importance of doing so. We found 
that leaders are visible during the conduct of detention 
operations from the point of capture up through the internment 
and resettlement operations. We found that soldiers are aware 
of that responsibility to report infractions and they do report 
them. In fact, during the course of our inspection five 
soldiers came forward and reported to my inspectors incidents 
of abuse.
    We examined all known cases of abuse that had been reported 
in Army channels as of June 9, 2004. As of that time, there 
were 125 reports of abuse cases. We recognize that since that 
time other reports of alleged abuse have come forward and you 
have probably seen a different set of numbers, and those 
differences can be accounted for by the time gap since our data 
cutoff and what has gone on since then. Our information only 
includes Afghanistan and Iraq, not Guantanamo. Our reports are 
based on those made to the Army CID or to Army units as of that 
cutoff date of June 9.
    Having said that, for the purpose of our analysis the use 
of the all known reports at that time, the study of those 125 
cases does provide us a solid basis for analysis in an effort 
to determine if there was a pattern, a root cause, or perhaps a 
systemic failure.
    As mentioned before, we found that the abuse that did 
occur, based on a review of those incidents, it was the result 
of an individual failure of discipline or compounded by the 
actions or failure of actions of a leader at the tactical level 
to enforce those standards of discipline, provide the right 
kind of oversight and supervision.
    We defined ``abuse'' as wrongful death, assault, sexual 
assault, or theft. As of June 9, we had reviewed 103 summaries 
of completed and ongoing CID investigations and 22 unit 
investigations conducted by the chain of command, hence the 125 
total.
    Not all of the investigations are closed, but nevertheless 
we attempted, based on the information we had, to categorize 
each of them in order to identify a pattern. We separated the 
125 cases into two categories where it was determined through 
the course of the investigation that no abuse had occurred. 
There were 31 of those cases, leaving 94 that abuse was 
confirmed, that was possible, or that was in an unknown or 
undetermined category.
    As the Secretary mentioned, this number must be taken in 
the context of the estimated 50,000 detainees that had been 
under U.S. control for some period of time, not to mention the 
volume and number of contacts with Iraqi people through 
checkpoints, patrols, and other operations. We view the 50,000 
as a conservative estimate.
    We then associated each case with a location on the 
battlefield. We determined that nearly half the cases, 45 out 
of the 94, took place at the point of capture. Of note, 20 of 
those 45 cases were theft and 25 had some element of physical 
abuse associated with them. The point of capture is the place 
on the battlefield that is the most uncertain, dangerous, and 
violent.
    Most of the allegations of abuse that occurred at the point 
of capture were the result of actions by a soldier or soldiers 
who failed to maintain their self-discipline or follow 
procedures when dealing with recently captured detainees. Some 
were a reflex or impulse action on the part of the detainee or 
the part of the soldier. There are a few incidents that clearly 
show criminal activity.
    Twenty-one of the cases took place at internment and 
resettlement facilities, including the highly publicized case 
at Abu Ghraib. There were 19 incidents that occurred at 
division and brigade level collection points throughout the 
battlefield. Our review of those cases also establishes that 
abuse was caused by an individual or individuals acting 
criminally or failing to follow the known standards, or the 
failure of a leader to be involved and intercede to stop 
potentially abusive situations from occurring.
    There are nine other cases for which the location precision 
of what happened is unknown or undetermined, and that accounts 
for the 125.
    Our report also identified several other findings regarding 
security, administration, medical support, organization, 
training, regarding the capture, care, and control of 
detainees.
    We also examined and inspected all the four internment and 
resettlement facilities and found among all of them only Abu 
Ghraib was in an undesirable location based on its proximity to 
hostile fire and the location near an urban area.
    Regarding interrogation operations, we looked at the 
process and the necessity to gain valuable information from 
those we detain. We recognize that this environment has placed 
a premium on human intelligence, particularly at the tactical 
level. We found that our commanders recognized this quickly and 
adapted their procedures in an effort to meet this demand. They 
realized the necessity to hold detainees long enough at the 
tactical level to take advantage of the knowledge that both the 
command has of the environment and the possible information 
that the detainee may have.
    The commanders then must provide, however, for their 
security, medical care, accountability of the detainees and 
then be able to conduct more extensive questioning 
interrogation at that tactical level.
    We found that our doctrine must be expanded to further 
define the relationship between military police (MP) and 
military intelligence (MI). Both must understand not only their 
roles, but also the roles and limitations of the other.
    We also must provide our commanders more precise guidance 
on how to establish and operate joint-interrogation facilities. 
We found that our commanders need more interrogators and 
interpreters, particularly at the tactical level, and that 
contract interrogators, while providing considerable value, 
must be trained on military interrogation techniques, 
procedures, and policy.
    We found that our tactical intelligence officers have the 
need to conduct complex human intelligence missions and must be 
able to manage the full spectrum of human intelligence (HUMINT) 
assets that are being used now in this current environment. Our 
training of these officers must be expanded to include these 
types of operations.
    We reviewed the existing command policies developed for the 
conduct of interrogations to determine their compliance with 
law and policy. We found that the approved command policies 
regarding interrogation approach techniques developed for 
Operations Enduring Freedom (OEF) and Iraqi Freedom (OIF), 
along with the published safeguards, were generally consistent 
with law and policy. We also found, however, that training and 
oversight of these policies was inconsistent, but could also 
find no confirmed instance involving the application of an 
approved approach technique that led to abuse.
    We also identified another series of observations. We 
provide recommendations that will clarify our policy, expand 
our doctrine, verify our ongoing organizational efforts, 
improve the living conditions for our soldiers and detainees, 
and refine our training to support these operations and better 
enable our commanders to accomplish the mission in its current 
environment and into the foreseeable future.
    Our recommendations have been reviewed and an action plan 
has been developed that tasks the Army staff and the 
subordinate commands for further review and implementation.
    I appreciate the opportunity to provide this summary of our 
report and look forward to your questions. Thank you.
    [The Department of the Army Inspector General's Detainee 
Operations Inspection follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Warner. Thank you very much. I am impressed by 
your report, General. It seems to me to track very carefully 
within the prescribed guidelines issued by the Secretary.
    If I might inform our witnesses and all others present, 
there will be three votes stacked at 11 o'clock. Furthermore, 
my distinguished colleague the ranking member has to be on the 
floor at 10:30 to address the issues in one or more of those 
votes. So it is the intention, I will announce it now, of the 
chairman to continue this hearing to approximately 11:15 and 
then, if Senators are unable to come, I will entertain with the 
ranking member the option of keeping this hearing open. We will 
almost take an hour hiatus. So I am certain those who are 
monitoring the hearing will let us know in that event.
    Now I will yield to the distinguished ranking member and 
then follow him, and then we will have a first round of 
questions with those members who are here.
    I also advise the witnesses that unexpectedly the 
leadership announced this morning that all Senators were 
invited to a briefing on the 9-11 report. Consequently, there 
are a number of conflicts that made it unable for Senators to 
attend this morning.
    Senator Levin.
    Senator Levin. Mr. Chairman, thank you for yielding to me. 
I appreciate that very much.
    General Mikolashek, you have testified that your inspection 
did not find systemic problems in doctrine and training. But 
General Abizaid told us on May 19 that he had reviewed the 
preliminary findings of the IG's inspection, and at that time 
he told us that, ``Our doctrine is not right. It is just not 
right. There are so many things out there that are not right in 
the way that we operate for this war. This is a doctrinal 
problem of understanding what do the MPs do, what do the 
military intelligence guys do, and how do they come together in 
the right way. This doctrinal issue has to be fixed if we are 
ever going to get our intelligence right to fight this war and 
beat this enemy.'' \1\
---------------------------------------------------------------------------
    \1\ Senate Armed Services Committee, ``Hearing to Continue to 
Receive Testimony on Allegations of Mistreatment of Iraqi Prisoners.'' 
Wednesday, May 19, 2004, 8:30 a.m.
---------------------------------------------------------------------------
    I am just wondering how that statement of his squares with 
your testimony here.
    General Mikolashek. Sir, it squares perfectly. Let me just 
emphasize that what we found was that none of those--well, we 
did find doctrinal problems, and they are laid out in the 
report. But as we went back, we looked at each of those cases 
of abuse, what caused them: was it a doctrinal problem, was it 
a problem with our training, our organization, and when the 
leadership failed was it a result of a large-scale widespread 
leadership failure in each of those specific cases? In that 
kind of autopsy, we found that, while there were problems and 
there are problems in our doctrine, our organization, how we 
train and prepare soldiers for this kind of operation, we found 
no direct linkage to each of those cases of abuse that we 
reviewed.
    We do make a considerable number of recommendations 
regarding our doctrine that specifically addresses the points 
that you addressed regarding the MI and MP relationship, the 
doctrinal and organizational structures for our interrogation 
facilities, and how those interview approach techniques should 
be applied and safeguards applied to make sure they are done in 
a safe manner.
    We also again addressed the training issues.
    Senator Levin. Thank you.
    The February 2004 ICRC report that has been published--it 
is on the Internet--says that several military intelligence 
officers confirmed to the ICRC that it was part of the military 
intelligence process to hold a person deprived of his liberty 
naked and in a completely dark and empty cell for a prolonged 
period, to use inhumane and degrading treatment, including 
physical and psychological coercion. Then they went into 
details of some ill-treatment and abuses.
    Then they said: ``These methods of physical and 
psychological coercion were used by the military intelligence 
in a systematic way to gain confessions and extract information 
or other forms of cooperation from persons who had been 
arrested in connection with suspected security offenses or 
deemed to have an intelligence value.''
    Did you read that report?
    General Mikolashek. Yes, sir.
    Senator Levin. Do you disagree with those conclusions?
    General Mikolashek. Sir, if those occurred as they 
described--and of course those matters are under investigation 
by the Procedure 15 report that will determine those kinds of 
activities and determine the outcome of those. But if you 
assume for a minute that they did occur, that still they were 
not the result of an approved technique, based on our 
investigation. They still would have been an individual 
breakdown in following orders, following the procedures that 
had been published, and a failure of the leaders who should 
have known that those kinds of incidents are wrong and should 
have been stopped.
    Senator Levin. That makes it much more systematic.
    General Mikolashek. Yes, sir.
    Senator Levin. You make a distinction between systematic 
and systemic.
    General Mikolashek. Yes, sir, we do make a difference 
between systematic and systemic.
    Senator Levin. Thank you.
    Did you review who received the November ICRC report?
    General Mikolashek. Sir, we did not, and I know there are 
other people looking at the audit trail on how that report was 
provided to the command and others.
    Senator Levin. Now, you made some findings relative to the 
subordination of MP custody and control mission to the need for 
intelligence and indicated that this need for intelligence can 
create settings in which unsanctioned behavior, including 
detainee abuse, could occur and that failure of the MP and the 
MI, the intelligence personnel, to understand each others' 
specific missions and duties could undermine the effectiveness 
of safeguards associated with interrogation techniques and 
procedures.
    General Taguba raised in his report concerns about the 
recommendation of General Miller that an MP force be 
subordinate to the commander at the Joint Interrogation Center. 
General Taguba recommended that the military police should not 
be involved with setting ``favorable conditions'' for 
subsequent interviews.
    I am wondering, General, whether you agree with General 
Taguba's recommendation regarding subordinating MPs to the 
intelligence command and whether or not the policy of 
subordinating MPs, military police, to the military 
intelligence's need for intelligence contributed at least 
indirectly the prisoner abuse by creating a setting in which 
unsanctioned behavior, including detainee abuse, could occur.
    General Mikolashek. Sir, that strikes at the heart of one 
of our recommendations regarding the MI-MP relationship. To 
answer perhaps your last question first, our effort to look at 
that particular process was an effort to ensure that we put our 
doctrine in place, that we provide our commanders how to 
organize these facilities, that we provide the right kind of 
direction, guidance, and training to both our MPs and our MIs, 
MI personnel, to prevent the kind of situation that may occur.
    While we did find no direct relationship to any of those to 
an abuse situation, because the cases we looked at, the most 
notable ones in Abu Ghraib, were outside the confines of 
interrogations. I would rather defer to the other 
investigations that will look at the environment, because we 
were not able to interview the people directly involved in that 
or we decided not to interview them because of the ongoing 
criminal proceedings.
    Senator Levin. Could there have been at least an indirect 
connection?
    General Mikolashek. But our----
    Senator Levin. Could there be an indirect contribution of 
the failure of the Army doctrine to clearly address the role of 
military police in the interrogation process? That absence of 
doctrine, could that have indirectly contributed to the 
problem?
    General Mikolashek. In that case I do not think so, sir, 
because again what I know and what we looked at from Abu 
Ghraib, it was outside the bounds of interrogation. But it does 
demand that we look at how the MPs are trained and prepared and 
how the MI personnel are trained and prepared. They need to 
acknowledge and be aware of other people's roles and 
responsibilities. We need to provide the guidance as to how 
they organize these facilities to prevent those things in the 
future or, if that were the case, that environment did ensue, 
that we would find a way to help prevent that.
    Senator Levin. Thank you.
    I will save the balance of my questions
    Mr. Brownlee. Could I add one thing to that, sir, just 
about doctrine in general? We do have doctrine, and we go to 
war with that doctrine. These are guiding principles. But as 
you well know, war is a fluid, dynamic situation. Things 
change; the environment changes. We went from a rather linear 
kind of battlefield to an urban insurgency. As the environment 
changed, the nature of the detainees changed. We did not have 
large bodies of compliant soldiers who were coming in with 
their hands up. We were detaining individuals who were 
suspected of perhaps acting against the coalition. We in some 
cases had hardened criminals in these groups.
    It was a different environment, and in different 
environments we educate our soldiers, leaders, and commanders 
to adapt to these environments. The doctrine will catch up with 
this, and it is already doing that. But the same is true of our 
organization and our training. Much of this stems from these 
changing environments. But that is the reason we train our 
leaders and soldiers to be adaptable and not to follow in a 
rote sense a plan or even a doctrine.
    Chairman Warner. Chief, you wish to reply. Go right ahead.
    General Schoomaker. Sir, I would just like to add 
something, and I would ask General Mikolashek to confirm this. 
But it is in the report if you read it, there is a difference 
in the MP doctrine that articulates what the MP's role is in 
this process. If you go to the military intelligence doctrine 
published, the manual, you will find a nuance in there that 
indicates that the MPs are part of the process. This is one of 
his findings and one of the corrections that we need to make, 
and that is the reconciliation of this Joint Intelligence 
Center operation so that we remove the confusion that may have 
existed in this.
    I would just ask, is that accurate?
    General Mikolashek. Sir, that is exactly right.
    Senator Levin. That is doctrinal.
    General Schoomaker. Exactly.
    Mr. Brownlee. But even with that, sir, it is important to 
add, even if there was a nuance between the two field manuals 
in the doctrines, that would not have given anyone the notion 
that they had approval to engage in some of these abusive acts.
    General Schoomaker. I did not mean to indicate it was an 
excuse for anything. Still the bottom line is the actions that 
we are most concerned about are breakdowns in discipline and 
people doing things that fundamentally they knew to be wrong.
    Senator Levin. Thank you. Thank you very much.
    Chairman Warner. Thank you, Senator Levin.
    Again, Secretary Brownlee, you touched on the fact that our 
forces in the rapid advancement up through and into Baghdad 
were encountering a lot of unanticipated factors, among them it 
is my recollection Saddam Hussein opened the doors of all the 
prisons.
    Mr. Brownlee. Yes, sir.
    Chairman Warner. At least some, I have heard, 60,000----
    Mr. Brownlee. Yes, sir. I have heard up to 70,000, sir.
    Chairman Warner. 70,000 individuals----
    Mr. Brownlee. Criminals.
    Chairman Warner.--just out into the nation, across the 
nation again. Those are individuals that through some means or 
for some reason had been incarcerated for actions contrary to 
whatever the law was in Iraq. That was an enormously 
complicating factor for our forces moving in.
    Mr. Brownlee. Yes, sir.
    Chairman Warner. And dangerous to them.
    Mr. Brownlee. Probably led to a great deal of the looting 
that occurred.
    Chairman Warner. I share that view.
    Mr. Secretary, the United States quite justifiably has 
refused to enter into international treaties that would subject 
U.S. military personnel to an international court of criminal 
justice. However, it is imperative that the U.S. demonstrate to 
the world a firm resolve to vigorously investigate potential 
criminal actions by members of the Armed Forces and that 
appropriate actions are taken under the United States Uniform 
Code of Military Justice.
    Are you satisfied the Army is thoroughly investigating all 
allegations of potential criminal activity?
    Mr. Brownlee. Yes, sir. In fact, I have a periodic update 
on that. I need to be careful here that I do not indicate in 
any way to influence it or cause command influence. But I am 
convinced that the allegations and incidents of abuse that we 
know about are being thoroughly investigated and will be 
pursued where appropriate with legal action under the UCMJ.
    By the way, sir, we brief your staff on that periodically 
also.
    Chairman Warner. That is correct.
    General Schoomaker, we have heard the Inspector General 
discuss what he observed and his recommendations for what he 
needs to be fixed. Please summarize for the committee what the 
Army has already done to better prepare the units, especially 
tactical units, for the environment they will face in Iraq and 
Afghanistan and the detention operations and tactical human 
intelligence they will have to conduct to be successful?
    General Schoomaker. Sir, we have a continual process of 
rolling the things that we are learning back into the training 
and mobilization process of our units. We have affected all the 
way from the point of how we are alerting units, how we are 
preparing them for deployment, what their post-mobilization 
training is, the reinforcement of the individual annual 
recurring training on the Geneva Conventions and the law of 
land warfare, reinforcing with the leadership the challenges 
that they will face in this highly violent environment that 
requires a great deal of adaptation and judgment.
    We have rolled it into our combat training center so that 
we offer specific replication of actual incidents that have 
been experienced in theater. We have brought soldiers from 
theater or that have recently served in theater into these 
training centers to address their specific experiences and 
setting the specific scenarios that we train on.
    Of course, we are doing a comprehensive review of our 
doctrine, and as we speak there is a detailed action plan that 
the Department of the Army has put together. Many of these 
actions are already being implemented. But we have a matrixed 
action plan that we will follow up through and do a very 
comprehensive--it is going to take us months to do.
    Having said all of that, as we get ourselves set we are 
going to continue to roll lessons learned in, to monitor the 
adaptations and the nuances of the environments that we find 
ourselves in, and this is going to be a continuing, evolving 
process.
    But again, I would like to reemphasize: the principles, the 
values, the standards do not change. Having an Army of 
character, with soldiers of character that understand the 
values of the American people, that understand the values of 
our government, that understand the values of our institutions, 
are fundamental. Those do not change. We have to continue to 
reinforce them. We have to continue to reinforce the leadership 
aspects of what we have.
    So this is something that as we go into the 21st century is 
going to continue to be a challenge for us to deal with.
    I would just wrap up one thing. As you heard, the majority 
of the incidents of abuse occurred at the point of capture. You 
have to remember that at the point of capture you are 
transitioning from a very high level of violence, where the 
very same people you have captured have been trying to kill you 
just seconds before, where it is in the middle of a rumble that 
this is occurring. It is understandable that there can be 
misjudgments, and that is why we have to train our leadership 
and remind our leadership that it is at this point that they 
have to be very well-prepared to control the aggression and the 
instincts of people that are in this situation.
    You can remember having your adrenalin up before and how 
sometimes what you think might be a minor shove turns out to be 
something else.
    Chairman Warner. I am glad you brought that point up, 
because you can speak, as can Secretary Brownlee and indeed 
General Mikolashek, from personal experience under those 
circumstances in your earlier years of military service.
    Mr. Brownlee. I might say, sir, that not only might these 
people have been the ones who were trying to kill you, but they 
may also have just killed some of your squad members.
    Chairman Warner. That is a very important point.
    My last part of that question, I want to go back to it, and 
that is as a consequence of all of this recognition now that we 
have a problem, whether it is at the point of initial contact 
of the detainee following a firefight or other combat 
activities all the way through the prison system, I hope the 
pendulum has not swung so far that we are not fully exercising 
our obligation to those combat forces to, within the framework 
of the several treaties, Geneva treaties, and Army doctrine, to 
continue to get the intelligence that is essential for that 
battlefield soldier.
    If you could just touch on that and then perhaps amplify it 
for the record, I would be appreciative.
    General Mikolashek. I can promise you that is of the 
highest concern to me. We must be very careful that we must not 
mistake the fact that this is a very dangerous environment and 
one which is going to continue our leadership and our soldiers, 
and one in which we must be very careful that we do not 
overreact and fail to or put in place such things that they 
make fatal mistakes, fatal hesitation, or we fail to do what we 
are allowed to do and what is proper to do and what we must do 
to ensure the safety and the success of our operation.
    [The information referred to follows:]

    The Commander of U.S. Central Command can provide the most 
authoritative assessment as to the effects of the investigations, 
inspections, and assessments of Abu Ghraib, as well as detention and 
interrogation operations, on intelligence production.

    Chairman Warner. Secretary Brownlee, do you have anything 
to add to that?
    Mr. Brownlee. Sir, I share the concern. We all worry about 
it. I have talked in some detail with our G-2, General 
Alexander, that you know well. We have all discussed that some 
of these abuses that occurred, many of them, most of those that 
occurred at Abu Ghraib, did not occur with detainees who were 
even being interrogated, were not even the subjects of 
interrogation. But unfortunately, some of the measures that may 
have been effective are no longer used.
    But sir, we would never want our soldiers to engage in 
anything that was inhumane anyway. The intelligence experts 
that I have talked to tell me that these abusive methods are 
usually not very effective anyway.
    Chairman Warner. I have to move along. If you wish to 
amplify that for the record----
    Mr. Brownlee. Yes, sir. We trust that our people are going 
to find ways to be effective within the right constraints.
    Chairman Warner. I say to colleagues, we went out of order 
of our regular order to accommodate Senator Levin. So I will go 
back. Senator Sessions, and then we will come to this side.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I want to 
express, Secretary Brownlee, my appreciation for the effective 
way the military has dealt with this issue from day one. I 
remember distinctly that when the first report of these abuses 
in Abu Ghraib were made, investigation was commenced the next 
day. Within just a few days, people were suspended from their 
positions. People are being charged criminally who have been 
abusing privileges.
    Mr. Chairman, it is good for America, the military, the 
people of Iraq, and the world to know that we will not tolerate 
the kind of abuses that we saw there.
    It is a very dangerous and stressful area of the world. It 
is hostile. Our enemy, which we do not spend enough time 
talking about, decapitate their prisoners. They have no mercy 
for their prisoners. They for the most part overwhelmingly do 
not qualify for treatment under the Geneva Conventions. That is 
a fact. We have had that hearing in the Judiciary Committee a 
number of times, and we have discussed it here. They are not 
lawful combatants; they are unlawful terrorist combatants. But 
we give them the protections anyway because we have high 
standards of character and discipline and decency, and I 
appreciate that.
    General Schoomaker, it is absolutely correct that we should 
not overreact. We want our soldiers right up to the limit of 
what they legally can do to obtain good intelligence, to help 
save our lives, to help save the lives of President Karzai or 
Prime Minister Allawi or our soldiers that we sent there, our 
sons and daughters who are there. Intelligence saves lives.
    I have to tell you, I came back from Iraq the week of July 
4 with Senator Lieberman and Senator Nickles. Several others 
were not able to make it at the last minute. We had a nice 
group that went there. I heard on two different occasions that 
our soldiers are worried. They are tentative in interrogations. 
They feel that if they violate some rule, they are not real 
sure what that rule is, they might get prosecuted, be held up 
before some Senate committee, be second-guessed by people who 
are not in combat, not at risk, and that the intelligence, the 
level of intelligence has dropped off noticeably.
    General Schoomaker, can you share any thoughts on that?
    General Schoomaker. Sir, I share your feelings. I have no 
evidence that intelligence has dropped off as a result of 
anything that has happened over there. But I do not have daily 
insights into that anyway, so your observations may be much 
more accurate than mine.
    Senator Sessions. I will just say this. I heard it from two 
different sources from people absolutely in a position to know. 
In both cases it was raised early in the conversations to me 
spontaneously. So I hope that when we come up with the 
regulations, Mr. Secretary, that we do not overreact and deny 
our people legitimate techniques, just like sophisticated 
detectives use in America and other things. You do not have to 
give people steak three times a day. There are things you can 
do to create a situation that would enhance the possibilities 
of obtaining information that do not violate standards of 
decency.
    General Schoomaker. Sir, if I could just add. Those of us 
in this room and the American people ought to understand how 
dangerous this enemy is and how dangerous a situation we are 
in. Folks that are underestimating the challenge that we face 
in this century and today are making a serious mistake.
    That does not excuse unlawful conduct, unethical conduct, 
and the rest of it on our part. But I absolutely subscribe to 
what you just said. We have to be darn sure that we are not 
overreacting in a way that is removing lawful tools or setting 
conditions that will cause people to be hesitant, to second-
guess, and to think that we would not stand behind them if they 
are acting in good faith to do what is proper in the situation.
    If you have never been in one of these places, been in 
proximity to these prisoners, and seen what kind of people they 
are, what goes on, and the kind of pressure that these soldiers 
are under day in and day out, having to live and deal with 
these people, and the things that they do and the things that 
they want to do, you cannot comprehend the pressure 
psychologically, physically, emotionally, and all the rest of 
it, that these soldiers are under.
    That is one of our most important responsibilities, the 
Secretary and myself, to ensure we prepare these soldiers for 
that environment and that we do everything that we can to stand 
behind those that are attempting to serve honorably and do what 
is right for this Nation.
    Senator Sessions. You said something else, General 
Schoomaker, that is correct. I was a Federal prosecutor and 
most of the abuse situations do occur at the conclusion of the 
hostile act. The police officers I have had to investigate and 
prosecute, are pumped up at that moment. They have been afraid. 
Their life has been at risk. This is a life and death struggle, 
and it is hard to just stop that and be perfectly nice. 
Sometimes they cannot control themselves or do not control 
themselves. They should. So that is difficult.
    With regard to the regulations, between the MP and the MI, 
that is a minor nothing. That is what General Abizaid was 
expressing frustration about, not that the doctrines had caused 
this abuse. He was frustrated about the doctrines that did not 
make sense, that an MP may have been a police sergeant back in 
the United States and could not in any way participate in 
assisting an interrogation. I hope that when you write the 
doctrine you break down that wall. It makes little sense to me.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Kennedy.
    Senator Kennedy. Mr. Chairman, I would like to yield to 
Senator Reed for this round and reclaim my right after that.
    Chairman Warner. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Mikolashek, Secretary Rumsfeld has acknowledged 
that he ordered an individual in Iraq, a detainee, to be 
hidden. General Taguba in his report indicated that he observed 
on several occasions individuals who were being hidden from the 
International Committee of the Red Cross. This seems to be a 
pattern. Did you examine this issue?
    General Mikolashek. Sir, we looked at detainee 
accountability. We asked those questions about the so-called 
``ghost detainees.'' During the conduct of our inspection we 
found no evidence of the so-called ghost detainees that were in 
existence. However, we did find that our processes for 
accounting for detainees based on the volume and the number of 
them, the automated processes we have, the administration of 
those, are overwhelmed. The systems are complicated. They do 
not interact.
    So it is certainly----
    Senator Reed. Let me understand your response, General. 
Today there are no ghost detainees that you found?
    General Mikolashek. That we have found during our 
inspection, no, sir.
    Senator Reed. Are you disputing General Taguba and the 
Secretary of Defense?
    General Mikolashek. No, sir, I am not.
    Senator Reed. But you chose not to look into how that 
happened?
    General Mikolashek. We did not go back and do a postmortem 
on that particular issue.
    Senator Reed. So how can you conclude today that there has 
been no systemic problems with respect to the treatment of 
detainees in Iraq?
    General Mikolashek. Again, we looked at during our 
inspection whether those people existed, and we could find no 
evidence at the time.
    Senator Reed. There is evidence that they did exist. There 
is evidence that that is contradictory to our obligations under 
the Geneva Conventions. There is certainly a suggestion that an 
order was given by the Secretary of Defense that had to be 
transmitted through the chain of command, which would include 
higher ranking officers. You looked at none of that?
    General Mikolashek. No, sir, we did not look at that detail 
into that specific line on that particular issue. We looked at 
how we accounted for and took care of the detainees.
    Senator Reed. General, the premise of your report, that 
there has been no systematic problems, is undercut by the fact 
that you didn't look at some systematic problems. That was one.
    General Mikolashek. We viewed the system as accountability 
of detainees, sir, and that was our approach.
    Senator Reed. Let me go back to another situation and that 
is the command climate that existed, not just as you inspected 
but prior to the inspection. Did you indicate or did you ask 
people about what policies, either verbal or whatever, were in 
effect? Was there any condoning of this or any encouragement?
    General Mikolashek. Sir, again, as we looked at all the 
abuse cases, and we did--I think your question gets right at 
the Abu Ghraib case in particular, and that was just one of 
many--we did talk to the soldiers who were not necessarily 
involved in the criminal side of that investigation. In terms 
of leadership and command climate, it did present some 
problems. In terms of an environment that would condone this 
kind of behavior in an overt way, we did not see that, but 
probably in an omissive sense.
    Senator Reed. How far did you go up the chain of command in 
your climate survey?
    General Mikolashek. Sir, our climate survey, we really 
focused on the soldier level.
    Senator Reed. So you cannot offer a conclusion with respect 
to anything above the battalion or brigade headquarters? You 
did not look at that, is that correct?
    General Mikolashek. No, sir, in terms of command climate--I 
am not sure--the soldiers participate in the survey and they 
gave us a lot of feedback on the command climate across the 
board, because these surveys went throughout the population and 
not, again, focused on an individual unit. But in our look at 
that one particular case, interviews with soldiers who had 
redeployed, it was a less than ideal command climate.
    Chairman Warner. Excuse me, Senator.
    I understood you to say in your opening comment that your 
inspection went up to the major general level.
    General Mikolashek. We did; we interviewed. We interviewed, 
but they did not necessarily participate in the command climate 
type survey.
    Senator Reed. Did you follow up the results of the survey, 
which suggested a very poor climate, however you define it, 
with higher ranking officers at the major general level and 
above?
    General Mikolashek. I am not sure I understand your 
question, sir.
    Senator Reed. The finding is that there is a poor command; 
there is a poor climate, presumptively in the situation where 
orders about treatment, recordkeeping, all of this. Soldiers 
are telling you, ``we just did not get the direction, no one 
cared about it,'' which would suggest I think to you as a 
professional officer there is a real problem here. Did you 
pursue that problem?
    General Mikolashek. How far up did that go is your 
question. Yes, sir, that probably extended up to the brigade 
level.
    Senator Reed. Did you go beyond the brigade level?
    General Mikolashek. No, sir, because we think it ended 
there. That is where the problem was and the solution was.
    Senator Reed. You are defining the investigation to limit 
the investigation. I find that to be unsatisfactory.
    One other systemic issue is the responsiveness of the chain 
of command at the highest levels to reports of abuse. I think 
you would agree that is a systematic issue. Last fall, in 
October, the ICRC gave a report to General Sanchez's 
headquarters, which suggested in very detailed terms that there 
were abuses, blatant abuses: naked prisoners, prisoners being 
abused, prisoners' physical marks, not--well, I do not have to 
go any further.
    Did you look into whether that complaint was responded to 
effectively by General Sanchez and his chain of command?
    General Mikolashek. No, sir, we did not follow that thread 
from the ICRC reports. We did know that the command was 
concerned about the treatment of the detainees and hence the 
Miller and Ryder reports that investigate, or inspection visits 
were called for. But again, when those ICRC reports were made 
available we did not go back and do the postmortem as part of 
this inspection. But I know that there are others that are 
looking at that.
    Chairman Warner. I would put a word of caution in. The 
committee is guarding meticulously the material of the ICRC. It 
is classified. It has been made available by the Department of 
Defense. So in your colloquy, continue your questions, Senator.
    Senator Reed. Mr. Chairman, I have a public report from the 
ICRC which was placed on the web by somebody, which we have had 
access to for years. So any questions about the report, I can 
refer it back to that report.
    Just a final comment. It seems to me, General, that it is 
very difficult to reach the conclusion that there was no 
systematic problems in the treatment of detainees. You have not 
looked seriously at the ghost detainees situation. You have not 
looked at the responses of the chain of command to evident 
explicit reports of abuse. This is just again reinforcing the 
conclusion that there were five or six aberrant soldiers, and I 
do not think you have done the job that you have to do. Maybe 
you were told not to do it, but I do not think you have done 
the job.
    General Mikolashek. No, sir, we were clearly not told not 
to do it, sir.
    Mr. Brownlee. May I respond, sir? May I respond?
    Chairman Warner. I think it is an important question. Take 
such time as you need yourself, Mr. Secretary and the General, 
because he is raising an issue that is of concern to a number 
of Senators, and that is the level of accountability, whether 
or not it is confined to the soldier level or it goes on up.
    It is clear in your opening statement that you interrogated 
general officers at the rank of two stars. Am I not correct in 
that?
    General Mikolashek. Sir, I would say we interviewed rather 
than interrogated.
    Chairman Warner. Let us check the dictionary, but anyway.
    Secretary Brownlee.
    Mr. Brownlee. Let me just re-emphasize, sir, that this was 
a theater-wide investigation of detention operations or 
inspection of detention operations to determine if there were 
problems elsewhere. Now, when General Mikolashek went and did 
his inspection he found no indication of detainees. When it was 
later revealed there was one, it did not indicate to anybody 
that was a systemic problem across the operation.
    Second, what General Mikolashek said when he was talking 
about command climate, when he found something less than 
satisfactory, it was primarily in the soldiers that were in the 
units at Abu Ghraib.
    General Mikolashek. A few others across the theater, mostly 
having to do with quality of life and austere living conditions 
and so forth, sir.
    Mr. Brownlee. Which we had determined, and those are still 
under investigation and some of the cases are now within the 
purview of the UCMJ.
    Chairman Warner. We have made a determination that this 
hearing will continue after the votes, so we will have an 
opportunity for a second round. But I want to make sure that 
the Inspector General had adequate opportunity to explain 
exactly what questions he did pose to general officers and did 
it relate to the culture issue, which was one brought up by 
Senator Reed.
    General Mikolashek. Sir, when we talked to the senior 
leadership we were trying to find out what their expectations 
were, the difficulties they were having in managing these 
operations. So we looked at it from a perspective of what kind 
of problems are you having.
    We also asked some specific questions about how the 
decisions to make the organization of some of those 
interrogation facilities were--we talked to General Taguba 
about his findings. So it was more on the line of the details 
of the inspection and a look at how those operations were 
conducted, rather than on their perspective of the command 
climate.
    Chairman Warner. We will have to return to this issue.
    Senator Reed. Mr. Chairman, if I may.
    Chairman Warner. Yes, I will give you adequate opportunity 
before this hearing is concluded.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Warner. Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    I do not resist the conclusions that you have reached. This 
Senator never doubted for a minute, and said so repeatedly at 
home and here, that no senior leader in the United States Army 
or in the Government in any administration would tolerate 
inhumanity or cruelty to prisoners. I never doubted it for a 
minute, and I am not surprised that that is what you concluded.
    Nor did I ever doubt for a minute, given my experience with 
the men and women in America's military, your conclusion that 
the overwhelming majority of our leaders and soldiers 
understood the need for humanity and fulfilled their duty and 
their obligations. That would be their instinct as well. We are 
talking about American soldiers, by training, by instinct, not 
just within the Army but within our culture as a whole. I 
should hope that they are not people who would abuse prisoners. 
I just never doubted for a minute, and I am not surprised that 
that was your conclusion.
    I saw those pictures. It looked to me like what it is. It 
was a sicko scrapbook that a few bored people who were 
inadequately supervised--and I think we need to find that out--
decided to compile about their experiences in Iraq.
    The question that I have always raised, and I am confident 
that these court-martial proceedings will clear this up, is 
where was the immediate chain of command in that prison. People 
need to be held responsible for what happened.
    The other concern that I have, and I will reflect what 
Senator Sessions said, is that we do not in our scrupulousness 
about this, which is very appropriate, and in these oversight 
hearings, which are very appropriate because they are leading 
to a conclusion that is vindicating our leaders and our 
soldiers and it ultimately will benefit the effort, that we do 
not create an overincentive not to do what they need to do to 
collect intelligence.
    It is going to take a lot of courage on your part, but I 
hope that you and the senior officers will make clear to our 
people we have to get this intelligence. Ultimately this is 
about winning this war, and we need intelligence to win this 
war.
    I appreciate you all being here. I would encourage members 
to ask questions about the process by which this report reached 
its conclusions. But as I said, I am not at all surprised. I 
would have been very surprised if any other conclusion had been 
reached, knowing what I know about the United States Army. You 
can comment on that if you want. That is really my only 
statement, Mr. Chairman.
    Mr. Brownlee. Sir, first of all, we appreciate your 
comments. Just to reiterate, one of our great concerns remains 
that we continue to get intelligence, useful intelligence, that 
is useful at the tactical level, which is where we really need 
it in this urban insurgency in which we now find ourselves.
    These kinds of changes in environment have changed our 
requirements somewhat. One of the things we found with the 
urban insurgency as compared to a large linear battlefield with 
large armies arrayed is that the demand for human intelligence 
increased our requirement for interrogators and interpreters. 
It also caused us to relook how we were training our 
intelligence officers and, rather than training them spending 
most of their training time on how to use technical overhead 
means, to use human intelligence.
    So we are adjusting to this and our soldiers in the field 
are adjusting.
    Senator Talent. Mr. Secretary, I would not want my comments 
to be interpreted as meaning that I do not think there is more 
we could do to get intelligence or that I am shocked by 
isolated type instances or would be shocked by more isolated 
instances. It happens. War is very messy.
    But anything that I have seen about this in the classified 
documents and in the open hearings supports your conclusion. As 
soon as this happened in a prison and as soon as senior 
officers--first of all, a soldier came forward--
    Mr. Brownlee. Yes, sir.
    Senator Talent. --at considerable risk. As soon as senior 
officers outside that brigade found out about it, it stopped. 
In fact, it stopped before that. But I remember, and I was very 
proud of that fact, General Taguba went in there and within 
like 48 hours it stopped, and it stopped before. Senator 
Sessions and I were talking about that. But that put a stop to 
it.
    So I am not at all surprised by the conclusions.
    Yes, General?
    General Schoomaker. Senator Talent, if I could, I would 
just like to reinforce something here. First of all, I feel 
very strongly that those people that broke the law or knowingly 
violated regulations should be held accountable for that, 
regardless of where they are, whether they are soldiers, 
noncommissioned officers, or commanders that were involved 
here.
    But going back to the line that you had and what Senator 
Sessions had, we all are going to have to be very careful here, 
and especially members on this committee, those on the Hill, 
and those in the Department, that we do not take a great big 
broad brush and paint everybody that was anywhere near this 
business and taint them. If we send that message to our 
leadership, to our noncommissioned officers, and to our 
soldiers that that is what this is about, we will have exactly 
what you do not want, and that is overcaution. We will have 
people that do not believe that we stand up behind them when 
they were in positions under great pressure making decisions. 
We are going to have to be very careful that we pay attention 
to this in a way that this does not become something I do not 
think anybody in here wants it to be.
    I do not mean to editorialize, but I am concerned as a 
professional officer because I have seen this occur in the 
past. When you start putting that kind of pressure down on 
people and they become overcautious--this business about zero 
defects. If you have not been under these conditions that these 
soldiers are operating in before, and nobody has ever tried to 
kill you and you do not understand what this is about, you 
cannot appreciate it.
    We have to think about it. We have to stand up behind 
people that are trying to do right, underwrite some things that 
need to be underwritten, and hold those accountable who failed 
in their responsibilities or who knowingly violated our 
standards, our values, our laws, our regulations. They should 
be held accountable.
    Senator Talent. I am done, Mr. Chairman. I will just say, 
one of my staff people who is a former Army officer, as soon as 
this thing broke he sent me an e-mail, just incensed. He said 
that these knuckleheads would have imperiled what 900 of their 
comrades have died to achieve. That e-mail was the spirit of 
the United States Army.
    Thank you.
    General Schoomaker. Thank you, sir.
    Chairman Warner. Thank you very much, Senator.
    I thank you, General, for your observation. I share that 
observation. To the extent I and other members of this 
committee have been able to address this issue, we have done it 
fairly and we have done it openly, so that the world can see 
that in the United States when there is a wrong we address it. 
We hear all parties, and that is precisely what we are doing.
    General Schoomaker. Yes, sir.
    Chairman Warner. No one is trying to push this under the 
rug. But at the same time, those that are accountable will be 
held accountable, and in no way should their actions taint the 
heroic service of the 99.9 percent, as I said in my opening 
statement.
    General Schoomaker. Sir, first of all, I appreciate that, 
and I know that is what you are doing. I am making a statement 
that was not an allegation that anything like that was 
occurring.
    Chairman Warner. This hearing gives you that opportunity to 
make that statement openly and to the Nation, as you are the 
Chief of this Army. You proudly carry out your duties, and I 
thank you for it.
    Senator Kennedy.
    Senator Kennedy. Thank you. Thank you very much.
    All of us at the outset of these hearings are enormously 
impressed by the courage and the training that our personnel 
have received in a very general way and the extraordinary 
heroism in which they are performing their duties. As someone 
that was in the Army a number of years ago, the level of the 
training for infantry members is just absolutely extraordinary, 
and all of us are very much aware of it.
    What we are talking about are some policy issues and also 
some actions. But before getting into that, and I know I have 
limited time, but first of all, Secretary Brownlee, I want to 
thank you for all your good work on the up-armoring of the high 
mobility multi-purpose wheeled vehicle as well as the arming of 
the military, the trucks and other activities. You have just 
been enormously responsive to these challenges and been very 
responsive to any of us who have been interested in trying to 
follow this. I am very grateful for all you have done. You have 
been very proactive, gone out and visited these plants and 
factories, taken a great interest in it, and we are very 
appreciative of your leadership.
    I want to ask you, Mr. Secretary, just before getting into 
these other issues. On the front page of the New York Times 
today, it paints a rather frightening picture of the Army 
recruiting. I have limited time, and I want to get into the 
other, but ``in my lifetime I have never seen the Army as 
strained as it is today . . .'' and ``you have already taken 
the drastic measures to ensure enough soldiers--the recruiting, 
the retention benefits, the stop-loss expansion, the extensive 
Reserve and National Guard call-ups.''
    Then we have the final part of the column: ``By dipping 
into the personnel bank, some recruiters say the Army is eating 
their seed corn; they are stealing from its future to 
accomplish their current mission, said one Army recruiting 
officer, referring to the enlistment of recruits sent to basic 
training.''
    What will you do if you miss the recruiting goals this 
time? Just a quick response on this if you would, please.
    Mr. Brownlee. Sir, I want to tell you that the Army takes 
that very seriously. One of our highest concerns is our levels 
of recruiting and retention. I have told the Army many months 
ago. They know that the Army is under stress. I have told them: 
You watch the dashboard and do not come in and tell the Chief 
and I when the light is red; you come in and tell us when one 
flickers amber.
    We have meetings on that. We just had one this week. We are 
staying abreast of it. We will take such measures as necessary 
to continue to meet our goals. We are concerned as you are that 
this gets more challenging as we go.
    But we have never fought a war like this with a volunteer 
force and it is a challenge. I can only say that every American 
can be proud of these wonderful young men and women who have 
volunteered to serve their country in uniform during time of 
war. That is both active and Reserve components.
    Senator Kennedy. Thank you. We will have another chance to 
go through this.
    General Mikolashek, part of the sense that you are probably 
feeling here is many of us have had the opportunity to go 
through these ICRC reports. We are also mindful that, even 
under the DOD detainee-related investigations, they are looking 
at currently, you are looking at 23 deaths--this has been 
announced by the Secretary--of individuals that died in 
detention, and 68 detainee abuses, now that they are getting 
into. The Secretary talked about it. There are a number of 
detainee deaths, some 30 cases, which have been closed, and a 
number of them are standing for court-martial.
    I mean, so we have that kind of activity that the Secretary 
has commented on. We have, as has been mentioned, the public 
ICRC report that talks about beatings with hard objects, legs, 
lower back, groin, being stripped naked, solitary confinement, 
paraded naked, acts of humiliation.
    Their conclusion: These methods of physical and 
psychological coercion were used by the military intelligence 
in a systematic way. The ICRC used the words ``systematic 
way.'' We are not just making this up. This is in this report.
    The list of reports that go on have been well-documented, 
and this represents only a part of them. Some of them 
demonstrate the progress that has been made after these matters 
were brought to the attention.
    So this is a very important measure, and it is something 
that some just say, ``well, it is just an occasional, a few bad 
apples.'' But if you take the numbers of different camps where 
these things were happening, the numbers of people that have 
been actually killed, even the court-martials, which are under 
now being considered because of abuses, they are not 
insignificant.
    Now, in your report, in your summary, your report on page 
3, you say: ``Officially approved Combined Joint Task Force 
(CJTF)''--that is Iraq--``and CJTF-180, Afghanistan, and early 
CJTF-180''--again, Afghanistan--``practices generally met legal 
obligations under U.S. law, treaty obligations and policy, if 
executed by trained soldiers under the full range of 
safeguards. The Department of the Army Inspector General (DAIG) 
team''--your team--``found that policies were not clear and 
contained ambiguities.''
    This is your report. ``The DAIG team found implementation, 
training and oversight of these policies was inconsistent.'' 
This is your report. It is not ours. ``The DAIG team found the 
policies were not clear and contained ambiguities. The DAIG 
team found implementation, training, and oversight was 
inconsistent. The team concluded, however, that, based on the 
review, that no confirmed incident of detainee abuse was caused 
by the approved policies.''
    Well, this is what we are getting at. Is your report just 
about the approved policies or is it the total kind of picture, 
which includes the kinds of not clear, found that they were not 
clear and contained ambiguities? What was going on in those 
kinds with regard to detainees and training? Where you did not, 
the DAIG team found implementation of these policies was 
inconsistent; well, what happened when you had this 
inconsistent part?
    I do not question or doubt that where everything was going 
well you are getting your results. What many of us are 
concerned about is in your own report you say that was not 
always the way; it was not going on. But we evidently did not 
deal with that issue.
    General Mikolashek. Sir, our attempt to look at those 
policies that you described was twofold. One was to determine 
if they were within legal bounds; and the second was to 
determine if those that either applied within legal bounds or 
outside legal bounds did result in a case of abuse.
    The report as written there talks about these are very 
high-risk measures that require an awful lot of oversight, 
supervision, and insurance. They were not always disseminated 
fairly, properly, and well-understood, nor were there all the 
safeguards in place or the risk mitigation efforts in place to 
ensure that those techniques were applied properly.
    Then we looked at the abuse cases. We looked at the 94 that 
we had, went back and tried to find what caused those abuse 
cases. We could not find any direct link to one of those 
approach techniques that was used either properly that resulted 
in abuse or an approach technique that was used inappropriately 
as an intent.
    But what we did find was that when people really stepped 
out of the bounds of those approach techniques or just the 
normal bounds of discipline and behavior, that is when abuse 
occurred. Or most of our cases, half of them, were the result 
of incidents right at the point of capture, so it did not 
involve interrogation. Actually, of the 94 there are somewhere 
around 8 or so that were involving interrogation processes 
themselves.
    Chairman Warner. Thank you, General.
    Senator Clinton, there are just a few minutes left on our 
vote. So you take such time as you need and I will see that 
that vote is held for you.
    Senator Clinton. Thank you so much, Mr. Chairman. I 
appreciate your courtesy as always.
    Let me say at the outset that I agree with the report's 
conclusion that the vast majority of soldiers serving in our 
theaters of operation are serving with distinction. I also 
agree and endorse strongly General Schoomaker's passionate 
description of the dangers and threats that we face in this 
challenging environment. I say that because, at least speaking 
for myself, what I am attempting to understand and to point out 
are the ways in which our actions and the ways they are viewed 
around the world either assist or undermine our ultimate 
objective.
    The 9/11 Commission is reporting today and in the executive 
summary among the recommendations which it makes is to prevent 
the continued growth of Islamist terrorism. Obviously that has 
to be one of our paramount goals.
    In that, they make two points that I would just put into 
the record here: ``Define the message and stand as an example 
of moral leadership in the world. To Muslim parents, terrorists 
like bin Laden have nothing to offer their children but visions 
of violence and death. America and its friends have the 
advantage. Our vision can offer a better future. Where Muslim 
governments, even those who are friends, do not offer 
opportunity, respect the rule of law, or tolerate differences, 
the United States needs to stand for a better future.''
    Then finally: ``Develop a comprehensive coalition strategy 
against Islamist terrorism using a flexible contact group of 
leading coalition governments and fashioning a common coalition 
approach on issues like the treatment of captured terrorists.''
    So I wanted to put that into the broader context because, 
although I agree with the conclusion that the vast majority of 
our soldiers and other military personnel are serving with 
distinction, it is a mistake to refer to the Abu Ghraib Prison 
abuses merely as regrettable. That sends the wrong message.
    I do not see the conflict between being as forceful in 
going up the chain of command, wherever that leads, in 
prosecuting those who have committed these abuses, and in 
recognizing we have to send a very clear message to all of 
those who are facing the daily dangers that General Schoomaker 
described so poignantly and effectively, that we do expect them 
to use their best judgment, their discretion; we know they are 
in a dangerous situation.
    Several times the Secretary has made reference to the urban 
insurgency that we face, and we know that in an urban 
insurgency the track record is not good. You know what? When 
you look at urban insurgencies, governments and militaries like 
ours do not have a record of success. So we are starting to a 
great extent behind the eight-ball, and therefore we have to be 
smart about the strategies we employ. We also have to be smart 
about how we communicate what we do.
    When someone like Senator Reed, with all of his experience 
and his deep love and devotion to our military and particularly 
to the Army, asks these questions, they are asked from a 
perspective of how are we going to win. Winning means we have 
to be smart about what we do, the example we set, the moral 
leadership we continue to hold in the world.
    Now, there are many specific questions, but we have run out 
of time. I wanted to put that in context because I know that 
sometimes it seems a little bit as though there is total 
division even on our committee, which probably operates in a 
more bipartisan way than any committee in the Senate, thanks to 
our leader and our ranking member. Some people use their time 
very appropriately to defend and say very strong statements of 
support for the military. Others use their limited time to ask 
very hard questions. Both approaches are trying to get to the 
same point, but language matters. ``Regrettable'' is not strong 
enough, and failing to go up the chain of command is not smart.
    So that is where many of us find ourselves, because we want 
to both recognize and support the dangers we face and, frankly, 
the uphill struggle we have against an urban insurgency that is 
populated by people who have no compunction about dying 
themselves. This is new for us, and we have to hold on to the 
moral leadership.
    I would strongly recommend that perhaps a process could be 
started in line with this recommendation, one of the very 
excellent recommendations in the 9/11 Commission, that we would 
look at a new way to deal with this whole issue of 
interrogation and detention. There is a different imperative 
when you capture someone on a battlefield. But when they are 
inside a prison, that is a different environment as well. We 
have to begin to make better distinctions and communicate 
those.
    I thank you for your work. But I would hope, General 
Mikolashek, that we could perhaps take another look at some of 
the ways what you have found were described. In the other 
reports that are being done, I hope we do go into the climate 
and up the chain, into the Secretary of Defense's office, not 
just because there are those of us who would like answers, but 
because we need to send that message.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    We will resume the hearing. I intend to initiate it as the 
third vote is taking place, for all members. Then we will wait 
to see if any further come. Thank you very much.
    [Recess from 11:24 a.m. to 12:13 p.m.]
    Chairman Warner. The hearing will resume.
    Before turning to Senator Nelson, I would like to first put 
into the record regarding Senator Levin's opening questioning 
and the reply by General Mikolashek, the entire set of comments 
made by General Abizaid, and then invite our witnesses to make 
any further comments with respect to Senator Levin's question 
in the context of the entire statement by General Abizaid.
    [The information referred to follows:]
    Senate Armed Services Committee Hearing to Continue to Receive 
Testimony on Allegations of Mistreatment of Iraqi Prisoners, Wednesday, 
                        May 19, 2004, 8:30 a.m.
    Senator Collins. General Sanchez, I also want to follow up on your 
November order putting MI in charge of some aspects of the prison. I 
also want to explore with you the role of MI, in general.
    In the Taguba Report, the General says that the recommendation of 
General Miller's team that the guard force be actively engaged in 
setting the conditions for the successful exploitation of the detainees 
would appear to be in conflict with the recommendations of General 
Ryder's team and AR 190-8, that MPs do not participate in MI-supervised 
interrogation sessions. He also says that having MPs actively set the 
favorable conditions for interviews runs counter to the smooth 
operation of a detention facility. Didn't your order, where you 
involved the MPs in some aspects of the supervision of the prison, run 
counter to the regulation cited by General Taguba?
    General Abizaid. Senator Collins, may I address this?
    Senator Collins. Yes, General.
    General Abizaid. First of all, we do not have all the facts. I 
think it is important for the committee to understand that. We need to 
see what we are going to hear from the 205th MI Brigade. What was in 
the mind of that commander? What did he think?
    So if we can set that aside, let me share with you one of the 
findings that came out of the Department of the Army IG investigations 
but are preliminary. They are not approved. I am sure they will be 
shared with this committee. Our doctrine is not right. It is just not 
right. There are so many things that are out there that are not right 
in the way that we operate for this war. This is a doctrinal problem of 
understanding where you bring--what do the MPs do? What do the MI guys 
do? How do they come together in the right way? This doctrinal issue 
has to be fixed if we are ever going to get our intelligence right to 
fight this war and beat this enemy. So we have problems that have to be 
looked at from top to bottom in order to ensure that there is no 
confusion. Because, you see, the Ryder Report says one thing, the 
Taguba Report will say one thing.
    Senator Collins. Exactly my point.
    General Abizaid. You are going to see that the Fay Report says 
something else. It is not because anybody is lying to anybody; it is 
because the system is not right. There are a lot of systems that are 
wrong out there that we had better fix if we are going to beat this 
enemy.
    Senator Collins. But, General, I guess what concerns me is, when 
you have all these contradictory doctrines or all these contradictory 
findings, it suggests to me that there was great confusion at the 
prison, and that confusion can set the stage for the kinds of 
unacceptable abuses that occurred. That is my concern.
    General Abizaid. It is a concern that I share, Senator, and we will 
find out the facts. But I would like to ensure that you understand that 
there is great confusion in a combat zone all the time--almost as much 
as there is here in Washington, but not quite.
    Senator Collins. Thank you, General.

    Chairman Warner. Second, I want to give the witnesses an 
opportunity--I will let you lead off, Mr. Secretary--with 
regard to questions proposed by Senator Reed. Then I did a 
series of follow-up questions about, first, any restrictions on 
the Inspector General whatsoever to go up the ladder and talk 
to senior officers. He indicated in his opening statement he 
went to the two-star level, and was there some reason he did 
not go to the three, if necessary to the four. There is some 
need to have that part of the record clarified.
    So if you would like to address that now, we would be 
pleased to receive your clarification, and then such additions 
as you desire to make to the record.
    General Mikolashek. Thanks, Mr. Chairman. I appreciate the 
opportunity to respond to Senator Reed's and your comments as 
well regarding those important issues.
    Chairman Warner. Senator Reed, and to the extent I joined 
in, raised a question which is very much on the mind of many 
Senators. The question is well put, and we want to make certain 
that you had full opportunity to respond to it.
    General Mikolashek. Sir, we had no restrictions placed on 
us other than the guidance that was issued to conduct this 
inspection to assess the whole system as was described.
    Chairman Warner. But that guidance in no way limited your 
ability to go all the way up?
    General Mikolashek. It did not if we would have seen it 
necessary, and our estimate was that our inspection concept and 
plan did not necessarily require that, although I think in 
retrospect had we found some need to go up we certainly could 
have and would have. But based upon where we were going and 
what we had found, we found that unnecessary.
    We are also not bounded by the fact that if we found a 
crime that took place or another matter of concern or any other 
adverse action, we had the authority certainly to report that 
to the proper investigatory channels. We would not have pursued 
that as an investigation since that was not our intent, to 
investigate specific incidents that may have cropped up.
    I mentioned the five cases that soldiers came to us and 
referred to as matters of abuse. We took those and reported 
them to the CID for their investigation. So when those things 
happened, we certainly referred them to the right channel.
    To get at Senator Reed's question--and we may have been 
talking by one another as he was asking questions about command 
climate. I believe what he was asking--and I am going to put 
words in his mouth, but I think his question----
    Chairman Warner. You will have the opportunity to examine 
the record. Say what you can now and then examine the record 
and if necessary have a chat with him by phone.
    General Mikolashek. I will, yes, sir.
    Chairman Warner. I just spoke with him on the floor. He 
just was unable to get back over, but I want to make sure that 
that line of questions to my satisfaction is completed. We are 
concerned that so much emphasis--and the early facts clearly 
led to young and enlisted individuals, in most instances, 
obviously some officers in the intelligence chain of command. 
We want to clearly project, not only to the Army, to the DOD, 
to Congress, and to America, that we are looking at this thing 
top to bottom.
    General Mikolashek. Thoroughly and fully.
    I think his question, if I could restate it, had to do with 
not so much the command climate as we described around the 
attitude of the soldiers--and I will talk about that in a 
minute--but I think his question was, did we find a command 
environment that existed anywhere that would have condoned, 
permitted, encouraged, or looked the other way when abusive 
situations took place or could have taken place.
    We, our team, interviewed soldiers that were capturing 
people on the ground, that were detaining them at the forward 
collection points, up through all the internment and 
resettlement facilities. We talked to the commanders that were 
responsible for those facilities. I talked to the general 
officer level commanders at the division and task force level 
that had been involved in that.
    I spoke with General Metz, who at the time of our visit was 
the commander of what is now the Multinational Corps in Iraq. I 
talked to him about our inspection and what we had seen, at 
least in the immediate aftermath of our visit. I spoke with 
Lieutenant General McKiernan, who is the land component 
commander in Kuwait who was overseeing the Taguba investigation 
at the time.
    So we did speak with them and tried to get this assessment 
of that command environment, if that was his question. We found 
again, across all those commands and down to the tactical level 
commanders at almost any level, that they did understand their 
responsibility to treat these people humanely. It was very 
evident that it was a sincere, well understood, important 
requirement that they had to treat these people humanely.
    So we found no evidence, again, in all those across the 
breadth of our inspection that there was that environment that 
permeated CJTF-7 or CJTF-180. We found very well-disciplined 
brigade, battalion commanders, and soldiers who understood 
that.
    His second part of that I believe deals with the situation 
at Abu Ghraib.
    Chairman Warner. Take a moment to read your paper there.
    General Mikolashek. I did. Actually, it says ``Tell him 
about Abu Ghraib.'' [Laughter.]
    Chairman Warner. Note where it came from. [Laughter.]
    General Mikolashek. So I think he was trying to hone in on 
the Abu Ghraib situation.
    Chairman Warner. And understandably.
    General Mikolashek. Exactly. It is certainly the most 
egregious, visible, and really horrible. It is off the scale.
    So we did look at that and tried to determine, based on the 
information we had, without trying to contaminate or duplicate 
the criminal investigations that were ongoing or to confound 
the Fay investigation under Procedure 15 that is looking at the 
MI activities. So what was the command environment there? Was 
there this case of permission, encouragement, or just looking 
the other way?
    We sought to determine that environment by talking to the 
soldiers who had redeployed, because they at the time of our 
inspection were in the demobilization process or had 
demobilized. So we looked at this through the eyes of the 
soldiers.
    What we found, as I mentioned, was not a good picture. The 
soldiers told us that their living conditions were--and that is 
the case at Abu Ghraib--austere, the chain of command perhaps 
not as responsive to improving their living conditions; their 
security requirements there, that when mortar attacks started 
to occur or when the situation changed and became dangerous, 
the leadership failed to show up, was not present, beyond the 
people who were permanently stationed there; that visits were 
not--basically stopped from the chain of command.
    Chairman Warner. You mean the senior officers after a 
mortar attack on the prison compound just did not appear?
    General Mikolashek. This is the perspective of these 
soldiers who told us these things, and yes, sir, that is 
correct.
    Chairman Warner. Did you confirm the accuracy of those 
observations by the soldiers?
    General Mikolashek. Sir, if you review the Taguba report it 
generally agrees with what we found.
    Chairman Warner. That they found that to be correct?
    General Mikolashek. Sir, I think what we have to do is 
balance what these soldiers told us and what the Taguba report 
says, and they are generally in coincidence. So our assessment 
then again, based on the information that we had, is exactly 
that. Probably to go much further would now get into an 
investigation of that case and we did not want to cross that 
line.
    Chairman Warner. Did you have occasion to talk to Colonel 
Pappas or to General Karpinski?
    General Mikolashek. Sir, we talked to General Karpinski and 
Colonel Pappas about the guidance that they received and how 
they understood the orders that were communicated to them to 
conduct these kinds of operations.
    Chairman Warner. What about the environment or the culture, 
which is the subject of the----
    General Mikolashek. We did not ask that question 
specifically, but you can deduce from their statements and 
their responses that they were concerned mostly about the how-
to piece. At least certainly Colonel Pappas was. But we did not 
find again across the breadth of our inspection that kind of 
environment.
    Within Abu Ghraib it was a unique set of leadership 
circumstances that were unfortunate.
    Chairman Warner. You mean the improper leadership?
    General Mikolashek. Exactly, yes, sir, to go beyond that 
now gets into----
    Chairman Warner. Then you're into the investigation.
    General Mikolashek. Gets into the investigation which 
General Fay is doing and which the----
    Chairman Warner. Did you talk to General Fast?
    General Mikolashek. Yes, sir, we did, as part of our 
inspection, and again it was to achieve an understanding as to 
how the process was set up, how the internment or the joint 
interrogation and debriefing center was established, the 
decisions that she made on how to establish it and who to put 
in command. That was to help us gain an understanding of how 
our doctrine did or did not support what she was trying to do 
and how our training and so on and so forth.
    Chairman Warner. What conclusions did you reach from what 
she advised you?
    General Mikolashek. Sir, not only just from what she 
advised but also from our own observations and interviews of 
the soldiers who were there, it is reflected in our conclusion 
about the need for more precise doctrinal specificity on how to 
organize these kinds of facilities, how to separate and more 
clearly define the independent and interdependent roles of the 
MPs and the MI; and then also to make sure that our training 
events replicate as close as possible those kinds of 
interactions that take place. All of those are confirmed in our 
report.
    Chairman Warner. General Fast had overall responsibility 
there, did she not? She is the two-star general who is the----
    General Mikolashek. She is the intelligence officer.
    Chairman Warner. --intelligence officer for General 
Abizaid; is that correct?
    General Mikolashek. For General Sanchez, now General Casey.
    Chairman Warner. General Casey.
    General Mikolashek. Sir, in terms of the interrogation 
process and the intel systems, she is as a staff officer 
responsible for that.
    Now, since our inspection they have established a position 
of the deputy commanding general for detainee operations and in 
terms of the administration, in terms of the resettlement 
facilities, that has been transferred to him.
    Chairman Warner. Are General Fast's actions being further 
scrutinized in the several inquiries going on?
    General Mikolashek. Sir, I believe that--I am almost 
certain that under the Procedure 15, the General Fay report, 
that she is a witness.
    General Schoomaker. Sir, if I could, we need to clarify. 
General Fast is the----
    Chairman Warner. If I said ``Fay,'' I meant ``Fast.''
    General Schoomaker. ``Fast,'' yes. Major General Fast is 
the intelligence staff officer----
    Chairman Warner. That is correct.
    General Schoomaker. --for now General Casey, previously 
General Sanchez, not to be confused with being in the chain of 
command. However, General Mikolashek is correct. I believe her 
responsibilities and her interaction is being looked at under 
the Procedure 15, which is the intelligence investigation going 
on now.
    Chairman Warner. I just want to make sure that that is 
being examined.
    General Schoomaker. But the chain of command, again, ran 
through General Karpinski at Abu Ghraib, through the military 
chain of command.
    Chairman Warner. But this committee, you may recall, Mr. 
Secretary, was specifically asked to move her promotion 
expeditiously, and we did that based on the recommendations 
from the Pentagon. I am just concerned about that situation.
    Colleagues, thank you for indulging the chairman. I think 
Mr. Akaka is next.
    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for being so patient.
    I want to thank our witnesses also for being patient. 
General Mikolashek, I am interested in your finding 22 in your 
report, which refers to civilian contractors. Some quick 
questions here. Were all of the contractors U.S. citizens?
    General Mikolashek. Sir, let me--I believe so. Of the 31 
interrogators, I believe so, if I could ask one of my officers. 
Yes, sir, they were. Those are all U.S. citizens, the 
interrogators.
    Senator Akaka. Who did the contractors report to in the 
military chain of command?
    General Mikolashek. There is a military intelligence 
supervisor or detachment commander that they reported to for 
their day-to-day work, as stated in the contract.
    Senator Akaka. Who in the military was responsible for 
overseeing or keeping track of the activities of the 
contractors?
    General Mikolashek. The immediate supervisor is responsible 
for how they perform their mission, their security, and what 
they did. Of course there is a contracting officer that then 
ensures that the contract was being followed. But in terms of 
what they did and how they performed, their oversight on a day-
to-day basis was that military supervisor, that MI person in 
that organization to whom they reported.
    Senator Akaka. Since I read stories in the media and the 
mention of contractors I have been interested in knowing where 
they fit and who they were, the reason for my questions.
    This question is to the Secretary and to General Schoomaker 
as well as you, General Mikolashek. You have testified that 
contract interrogators and translators were of considerable 
value in Afghanistan and Iraq and state that in the future all 
such interrogators would receive formal military training in 
interrogation techniques. However, our laws provide that 
inherently governmental functions, including functions that 
call for the exercise of sovereign government authority and 
those that may significantly affect the life, liberty, or 
property of private persons--and this is what I want to 
underscore--must be performed by government employees.
    An Army memorandum dated December 26, 2000, and still in 
effect today made the express determination that gathering 
tactical intelligence is an inherently governmental function. 
The memorandum states that intelligence at the tactical level 
is integral to the application of combatant power by the 
sovereign authority. The memorandum concludes: ``At the 
tactical level, the intelligence function under the operational 
control of the Army, performed by the military in the operating 
forces, is inherently a governmental function, barred from 
private sector performance.''
    Now, my question to all of you: Are you aware of this Army 
memorandum? In view of the memorandum, what is the legal basis 
for the Army's decision to contract out inherently government 
functions?
    Mr. Brownlee. May I respond to that, sir?
    Senator Akaka. Mr. Secretary.
    Mr. Brownlee. Yes, sir. Sir, we have reviewed that 
memorandum. There is another place in that memorandum where it 
says that if these--I do not recall the exact wording, but if 
these functions are performed by contract interrogators under 
an entity, which in this case was Central Command or CJTF-7 
specifically, then they would not be considered inherently 
governmental.
    Senator Akaka. Thank you. That answers it.
    To all of you: One of the concerns that has been raised 
about the use of contract employees as interrogators and 
translators is that they stand outside the chain of command. 
The Taguba report states:

        ``In general, U.S. civilian contract personnel do not 
        appear to be properly supervised within the detention 
        facility at Abu Ghraib. During our on-site inspection, 
        they wandered about with too much unsupervised free 
        access in the detainee area. Having civilians in 
        various outfits in and about the detainee area causes 
        confusion and may have contributed to the difficulties 
        in the accountability process and with detecting 
        escape.''

    A draft DOD directive included in the Army's September 2003 
guidebook for contractors accompanying the force specifically 
notes that commanders lack the authority to directly discipline 
contractor personnel. The directive states: ``Commanders have 
no penal authority to compel contractor personnel to perform 
their duties or to punish any acts of misconduct beyond the 
Military Extraterritorial Jurisdiction Act of 2000. Contractor 
employees are disciplined by their contracted business entity 
through the terms of the employee and employer relationship.''
    Do you see any problem with accountability under a system 
which provides that, absent emergency circumstances, a 
contracting officer rather than a commander of a facility like 
a prison is responsible for providing direction to a contractor 
and the contractor's employees? Mr. Secretary?
    Mr. Brownlee. Sir, may I respond? Yes, sir. Sir, clearly 
any contract employee like that, especially a contract 
interrogator, is supposed to work under the direct supervision 
of an officer or noncommissioned officer who would be the 
supervisor of that person. So these procedures are in place and 
if they were not followed then somebody was not following the 
law, the procedures.
    The contract person of course can be terminated in terms of 
the contract. They can be fired. If the commander or the 
supervisor is unhappy with their actions, they can request that 
that person be terminated. If it is a criminal act they are 
subject to U.S. law and can be prosecuted under U.S. law.
    Senator Akaka. Thank you very much, Mr. Secretary.
    Thank you very much, Mr. Chairman. My times has expired.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson, you have been very patient.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Gentlemen, there have been so many reports and 
investigations that it is almost like a mosaic. Some of the 
pieces are in place, and many of the pieces are not in place. 
We are not always sure when they are all going to be in place 
or what will be the next piece put in, which gives it an 
appearance that it is not all done, which is accurate.
    The question I have is that at the end of the day, whenever 
that is, and all the investigations are in and all the reports 
are in, can you assure this committee and the American public 
that we will have not only gotten to the bottom of it, but have 
also gotten to the top of it, whether it goes to the highest 
uniformed officer or the highest civilian officer?
    Mr. Brownlee. Sir, I can assure you that these matters are 
under investigation and that I trust our legal system and the 
UCMJ and the U.S. legal system.
    Senator Ben Nelson. So that there will not be any question 
left about whether, well, that was not part of my 
investigation, but it was not part of any investigation? That 
is one of the things that my colleague from Rhode Island was 
trying to get to: at the end of the day do we have enough to 
know that every uniformed officer who might be involved has 
been interviewed, interrogated, or whatever is required, and 
that nobody will be left out of the process or out of the 
investigation process when it is all said and done?
    Mr. Brownlee. Sir, our intention is certainly to 
investigate this to the absolute limit and, when appropriate, 
prosecute it under the UCMJ.
    Senator Ben Nelson. By saying that I am not trying to 
prejudge complicity here. I just want to make sure that we do 
not find out that was not looked into or it did not go that 
high or this is in another investigation, so that we know when 
it is all said and done that everything has been done that 
needs to be done.
    General Schoomaker. Sir, if I could attempt to do this.
    Senator Ben Nelson. Yes.
    General Schoomaker. This is less like a puzzle and more 
like an architecture here. It has probably not been well-
explained over time, but if you take a look at the Taguba 
report, that was done under the provisions of the investigative 
authorities of AR 15-6, which is our normal way of 
investigating, called upon by the commander in theater that had 
the problem. So that was one of them.
    Another one was the Ryder report, which you are familiar 
with. The third one was the----
    General Mikolashek. Miller.
    General Schoomaker. The Miller report. Those three were all 
initiated early on in the situation here and were foundational.
    The Secretary then directed the Department of the Army 
Inspector General, General Mikolashek, conduct an inspection, a 
broad-based inspection across the system, to find out not just 
in theater but across the whole system, to look at everything 
within the purview of what his charter is that you have seen. 
That excluded the things that are being actually investigated 
under Procedure 15 and the intelligence business.
    I would say that the Miller, the Taguba, and the Ryder 
reports are like the foundation, that one of the pillars of 
this building now is this DAIG report of inspection. Another 
one will be the Fay investigation under Procedure 15.
    There is also a Church investigation going on, and there is 
a Schlesinger one. I would say that is more like the umbrella 
over these columns that are there.
    In all of these, if there is criminal activity or suspected 
criminal activity or malfeasance, it is referred to the 
Criminal Investigation Division. It is then investigated as a 
criminal matter, regardless of what the source of the 
information was on it. That is where in my view I am very 
confident that all of these allegations, regardless of where 
they may appear, will be investigated for their criminal aspect 
of it.
    Senator Ben Nelson. Is the ghost detainee issue under 
investigation? Because there is an authorization, is that 
currently being investigated?
    General Alexander. Yes, sir, in the Fay----
    Chairman Warner. If the gentleman will kindly stand and 
identify himself.
    Mr. Brownlee. This is General Alexander, our G-2, sir.
    General Alexander. Sir, it is being looked at in two areas, 
by the Central Intelligence Agency, by their Inspector General; 
and it is also addressed in the Fay report as we understand it.
    Senator Ben Nelson. So that at the end of the day if there 
is any kind of inappropriate activity or questionable activity 
or illegal activity associated with that under the Geneva 
Conventions or in violation of any internal rules, it will be 
fully investigated? Or is it possible that that is a waiver 
that might be issued that will not involve any violation of any 
rules, it may be a waiver of rules? Or do we know?
    Mr. Secretary?
    Mr. Brownlee. I do not know of any waiver, sir. What 
General Schoomaker said I would have said also, is that as 
these other investigations are ongoing and as they emerge and 
activity is identified that appears to be criminal, we will 
then have the Criminal Investigation Division of the Army 
investigate those events and incidents to determine criminal 
liability and if necessary prosecute them under the UCMJ.
    Senator Ben Nelson. No matter whether it is above you or 
below you in terms of command or authority?
    Mr. Brownlee. Above?
    Senator Ben Nelson. Someone superior to your position 
within DOD as well as below you. I think that is what we are 
really trying to get to. It will not stop somewhere.
    Mr. Brownlee. If it is criminal activity involving a person 
in the United States military and is investigated by the CID 
and determined that then it would be referred to the Uniform 
Code of Military Justice.
    Senator Ben Nelson. What if it is civilian?
    Mr. Brownlee. Civilians, sir, are subject to U.S. law.
    Senator Ben Nelson. My point is that at the end of the day 
these investigations are not just related to military 
personnel, or are they related to military personnel? That is 
what I would like to get clear: all these investigations, the 
architecture that you are talking about, General. I am not 
trying to trap anybody here. I am just trying to understand 
where it ends. I think I know where it begins, but I do not 
know where it ends, and then what happens for investigation of 
civilian authority.
    Mr. Brownlee. Sir, even the General Taguba report 
identified civilians and recommended appropriate action be 
taken.
    Senator Ben Nelson. But nobody above General Taguba's rank. 
I am just trying to find out how you get investigations and 
reports above your rank.
    General Schoomaker. Maybe it should help, our authority, 
the Secretary of the Army's authority, extends to the Army. The 
criminal activity that is identified that resides within the 
Army, the Secretary of the Army has the authority. He has UCMJ 
authority; I do not. He is the ultimate authority in the Army 
under UCMJ.
    If there is indication of criminal activity that extends 
beyond the boundaries of the Army, it is referred to the 
appropriate investigating agency to be criminally prosecuted, 
whether that be the Federal Bureau of Investigation (FBI) or 
something in the civilian sense or whether it might be----
    Chairman Warner. Excuse me a minute. Senator, I think what 
you are trying to ascertain is, will some group of individuals 
or body look at, frankly, the senior presidential appointees in 
the Department of Defense.
    Senator Ben Nelson. Thank you, Mr. Chairman. That is 
exactly what I am trying to say, without saying it.
    Chairman Warner. May I point out the following.
    Senator Ben Nelson. Yes.
    Chairman Warner. That is that our committee initiated its 
hearing with the Secretary of Defense. Secretary Cambone came 
before the committee. We may have others before this committee 
in due course.
    Second, the Schlesinger panel really has no limits. They 
can examine whomever they wish. So in the course of these 
matters there will be a review of the actions and inactions of 
those in the chain of command as it relates to the civilian 
control of the Department of Defense.
    Senator Ben Nelson. But that will be generally, if I might 
ask, Mr. Chairman, within the oversight of this committee 
rather than within the purview of the military investigations?
    Chairman Warner. The Senator is correct, together with the 
Schlesinger panel, the Schlesinger-Brown.
    Senator Ben Nelson. I appreciate the clarification.
    Chairman Warner. I thank the Senator.
    Senator Ben Nelson. Thank you.
    Chairman Warner. In order of rotation, Senator McCain would 
be next. Thank you very much.
    Senator McCain. Thank you, Mr. Chairman.
    General, in your summary here it says: ``We are unable to 
identify system failures that resulted in incidents of abuse.'' 
Then later on you say: ``Officially approved CJTF/CJTF-180 
policies and early CJTF-180 practices generally met legal 
obligations under U.S. law.''
    I am very troubled by the statement ``generally.'' What 
does that mean? What was not if it was ``generally''? It is 
either specifically they were complied with or they were not. 
Now, what does ``generally'' mean?
    General Mikolashek. Sir, this reflects back on one of 
Senator Sessions' earlier questions regarding ensuring that we 
had the ability to use the best approaches to gain information 
from these detainees. What we found as we looked through this 
process in terms of the development of the command policies, 
the commanders struggled to identify what approach techniques 
they could use within the bounds of legal limits to get the 
most information from these detainees.
    Senator McCain. They were either legal or they were 
illegal. ``Generally'' does not satisfy me.
    General Mikolashek. What we attempted to do was determine 
if intrinsically in any one of those approaches did they 
violate the standards of U.S. law.
    Senator McCain. Were there violations?
    General Mikolashek. Sir, in terms of the individual 
approach technique, we looked at each one of those to determine 
if in and of itself, if applied properly, would be illegal, and 
with the appropriate safeguards and risk mitigation efforts. We 
found that if all those things were in place they would be 
within the bounds of U.S. law.
    Senator McCain. Were they or were they not, General?
    General Mikolashek. Sir, they were, as with all those 
qualifiers, within the bounds.
    Senator McCain. If the qualifiers need to be far more 
specific: Unmuzzled dogs, is that in keeping with those 
policies or in violation of those policies?
    General Mikolashek. Sir, unmuzzled dog to be used in 
interrogation is in violation.
    Senator McCain. Yet those were approved by General Sanchez.
    General Mikolashek. Sir, we found no evidence of an 
unmuzzled dog to be approved by General Sanchez, based on our 
look.
    Senator McCain. We did.
    What about the ghost prisoners? Does it not require a 
degree of coordination to move prisoners around a prison in 
order to avoid the ICRC?
    General Mikolashek. Prisoner accountability. Yes, sir, it 
requires that----
    Senator McCain. Was that in keeping with the approved CJTF-
7 and CJTF-180 policies?
    General Mikolashek. Sir, those policies that we talked 
about, they specifically address the approach, the 
interrogation techniques, is what we are talking about.
    Senator McCain. So you do not even look at whether 
prisoners were moved around a prison in order to avoid ICRC 
interviews?
    General Mikolashek. Sir, we looked at accountability 
measures and how those----
    Senator McCain. Did you or did you not look at the 
situation which has been well-documented, where prisoners were 
moved around a prison in order to avoid interviews with the 
ICRC?
    General Mikolashek. Sir, during our inspection, the time of 
our inspection, we did look to see if that was taking place. We 
could not find any evidence of a----
    Senator McCain. There has been testimony before this 
committee that it happened.
    General Mikolashek. I think prior to our inspection that 
had taken place and was documented elsewhere. But in terms of 
our----
    Senator McCain. So it did not come to your attention?
    General Mikolashek. During the time that we visited these 
sites and talked to the commanders, we did not see that was 
taking place, although they did have struggles with and 
difficulty with accounting for the detainees in terms of 
administration.
    Senator McCain. A well-documented case of moving prisoners 
around to avoid ICRC interviews, which is in clear violation of 
any rule of war and treatment of prisoners of war, you did not 
address that issue?
    General Mikolashek. Those were being investigated under 
other means and our inspection attempted to look at what were 
those safeguards that would have prevented that from happening 
in place. In other words, the accountability, the 
documentation, the transfer of detainees between other 
governmental agencies or within our system, were those in 
place.
    We found that, while the procedures were established, in 
terms of execution, it was not up to task. There were a lot of 
difficulties in accountability, processing.
    Senator McCain. But General, you say ``officially approved 
policies and the early CJTF practices generally met legal 
obligations under U.S. laws.'' Is moving prisoners around to 
avoid the ICRC investigation in keeping with CJTF-7 and CJTF-
180 policies and obligations under U.S. law?
    General Mikolashek. Sir, those policies that I refer to in 
that particular finding address only the interrogation 
techniques and not the accountability.
    Senator McCain. So you did not address the issue of 
prisoners being moved around?
    General Mikolashek. We did address the issue of 
accountability, but it is in another----
    Senator McCain. Was it in keeping with approved--this is 
getting a bit bizarre.
    Mr. Brownlee. Senator, may I? I can help a little bit.
    Chairman Warner. Mr. Secretary.
    General, these are important questions. Take such time as 
you need to respond now. The Senator has tried to clarify.
    Senator McCain. Go ahead, General. I apologize if I 
interrupted you.
    General Mikolashek. No, sir, I understand. We did look at 
accountability under a separate finding that we have in terms 
of how detainees are being accounted for and managed and 
transferred. The finding that you are referring to specifically 
addresses only the interrogation policies that were published.
    Senator McCain. It addresses the treatment of prisoners if 
you are moving them around in order to avoid an interview with 
the ICRC. Maybe we are quibbling over words here, but the 
average citizen would say is it or is it not a violation if you 
are carrying out such practices, which are clearly in violation 
of every Geneva Conventions, every rules for the treatment of 
prisoners of war that I know of.
    General Mikolashek. Yes, sir, and the command policies that 
we reviewed that we refer to in that quote that you gave speak 
only of interrogation approach techniques.
    Senator McCain. But you see, that is not what your 
statement says, though. What your statement says, ``Officially 
approved CJTF-7 and CJTF policies and early CJTF-180 
practices.'' It does not say ``interrogation practices.''
    General Mikolashek. Yes, sir, and perhaps it should have. 
But that was the intent behind that finding, to focus on the 
interrogation practices. Elsewhere we address the 
accountability issue.
    Senator McCain. Did you want to say something, Mr. 
Secretary? I thought you had something to add.
    Mr. Brownlee. I was just going to say that the movement of 
detainees around we did not find was an approved policy in 
CJTF-7.
    Senator McCain. I am sure that cutting off their heads was 
not an approved policy. To say that it was not an approved 
policy, so therefore it does not need to be investigated----
    General Mikolashek. Sir, there are established procedures 
on how to account for detainees in terms of the forms that are 
required when you transfer a detainee from the military. Even 
from an MP to an interrogator, if he is going to be moved 
outside of the MP's facility, there are procedures that have to 
be done and forms to be filled out, and so on and so forth.
    Senator McCain. Were those procedures violated when they 
moved the prisoners around to avoid ICRC interviews?
    General Mikolashek. Sir, we in our inspection did not find 
that that particular thing was happening during the course of 
our visits on the ground over there. But we did find that 
accountability procedures overall in terms of in-processing the 
detainees----
    Senator McCain. Do you know now that that practice took 
place?
    General Mikolashek. Yes, sir, and we believe that that was 
or is being looked at or examined in one of these other 
investigations that are ongoing. Since we did not investigate 
those particular incidents----
    Senator McCain. Of course, then the question springs to 
mind, what else did you not investigate? If we did not 
investigate a gross and egregious violation such as that, I am 
curious what else you did not investigate.
    General Mikolashek. Sir, our effort was to assess how all 
these processes and systems are working across all those 
functions throughout the commands in Iraq and Afghanistan.
    Senator McCain. Did you interview General Karpinski?
    General Mikolashek. Yes, sir, we did.
    Senator McCain. She claims publicly that she was prohibited 
from visiting certain interrogation areas. Did you get into 
that?
    General Mikolashek. Sir, we looked at the orders that she 
was given and her understanding of them and our understanding 
of the orders that were issued would be contrary to that. Much 
of that is still under investigation; that is apart from our 
inspection.
    Senator McCain. I thank you, sir.
    Chairman Warner. We will return to your questions if you 
will allow----
    Senator McCain. My time has expired.
    Chairman Warner. All right, let us have Senator Nelson, and 
then we can have another round here.
    Senator Bill Nelson. Mine will be very quick.
    Mr. Secretary, earlier the testimony had suggested that a 
lot of the abuse had taken place at the point of capture.
    Mr. Brownlee. Yes, sir.
    Senator Bill Nelson. There was an incident in the late 
1990s in Kosovo, an airborne battalion that you had familiarity 
with as a former member of the staff of this committee, where 
there was roughing up detainees. There was rape; there was 
murder. A lieutenant had held a pistol to the head of a 
detainee.
    So my question is, what are the lessons learned? What did 
we do to try, as a result of that experience in Kosovo, to 
change the doctrine and the training?
    Mr. Brownlee. Sir, again those actions you describe were 
certainly not a part of any doctrine or training that was a 
part of the Army. These were individuals operating outside of 
that. These were individual actions and the lack of proper 
supervision by leaders where in this case the officers and the 
noncommissioned officers failed and the soldiers failed as 
well.
    Senator Bill Nelson. Certainly this is not a part of the 
doctrine. Did we hold people accountable?
    Mr. Brownlee. Of course, sir.
    Senator Bill Nelson. All right. Then, Mr. Chairman, I would 
like to submit several follow-up questions for the record----
    Chairman Warner. The record will remain open.
    Senator Bill Nelson. --to find out how, if this battalion, 
if it was held accountable, how that did not infiltrate through 
the organization so that we would have been more sensitive to 
this at the point of capture than we were once we got into the 
different circumstances in Iraq instead of Kosovo.
    Mr. Brownlee. Could I respond to that, Senator?
    Senator Bill Nelson. Please.
    Mr. Brownlee. I would like very much to.
    Chairman Warner. The record will remain open until close of 
business tomorrow for purposes of questions related to this.
    Thank you, Senator.
    Senator Bill Nelson. Mr. Secretary, I have to be on air in 
3 minutes.
    Mr. Brownlee. Twenty seconds, sir. If you look at the 
magnitude of what our soldiers are facing there, we have had in 
our custody over time over 50,000 detainees. We have had 
several hundred thousand U.S. soldiers pass through this area 
of operations. We have during this period of time that General 
Mikolashek looked at 94 cases of abuse. The perspective of that 
would indicate to you that the Army has paid attention.
    The Army is not perfect. Mistakes were made. They are still 
being made. This is a very dangerous and difficult environment, 
where soldiers are under great stress and pressure. As General 
Schoomaker pointed out earlier, many times down at the point of 
capture a soldier who has just been in a firefight with some of 
these people captures them. They have been trying to kill him. 
They may have just killed some of his buddies, and now he has 
them in his custody.
    The American people should be greatly proud of the manner 
in which our soldiers have conducted themselves in this kind of 
environment.
    Senator Bill Nelson. I do not dispute that. That is not the 
point. The point is did we learn any lessons? The point is if 
we are in a war in another 5 years will we have learned the 
lessons from what we are going through now, which maybe we 
should have learned from the experience in Kosovo 5 years ago.
    Mr. Brownlee. But Senator, I would assert that you cannot 
take one incident that happened in one battalion and say the 
Army should have learned from that and no soldier will ever 
make another mistake.
    Senator Bill Nelson. Was the commanding officer held 
accountable? Was he disciplined?
    Mr. Brownlee. I would like to talk to you about that.
    Chairman Warner. The Chief of Staff is nodding his head. We 
cannot record that.
    General Schoomaker. The answer is yes, but it is 
inappropriate for us to discuss the specifics of that in this 
forum.
    Chairman Warner. We will take that for the record.
    General Schoomaker. He was held accountable.
    Chairman Warner. Now we have Senator Sessions, and then we 
will return to another round of questions here.
    Senator Sessions. As a result of this, Secretary Brownlee, 
has there been any enhancement in training for active and Guard 
and Reserve who may find themselves handling prisoners? Has the 
Army, as Senator Nelson raised, taken some steps for even 
greater emphasis on how to treat prisoners?
    Mr. Brownlee. Sir, I want to give the Chief of Staff of the 
Army full credit here because he has totally revamped our 
training programs to reflect as near as is humanly possible the 
situation that we find on the ground in Iraq and Afghanistan. 
We have villages in our national training centers and other 
training centers where soldiers are exposed to conditions that 
some describe as even more demanding, but with less death and 
injury, than they might find there, with more difficult 
situations, dealing with people representing Iraqis, some of 
them are Iraqis, and in situations that will demand the utmost 
of them under a lot of stress.
    Yes, sir, we are doing the best we can to replicate that.
    Senator Sessions. I understand that, and I am glad that you 
are doing that. I thank you.
    I would just note, I remember even in the early 1980s or 
late 1970s when I was in the Army Reserve I used to have to 
train our soldiers on the Geneva Conventions and the rules of 
warfare. So it has been taught for every soldier that has ever 
come through. What you are talking about is you are going to 
enhance the emphasis on it, and I appreciate that.
    With regard to the higher ups, I suggest if they are 
involved--if they are involved, and I doubt that they are--in 
these kind of activities, it will come out this way: When those 
soldiers get prosecuted, if somebody either by written order or 
verbal directive told them to do this, they are going to say 
who told them. They are going to defend themselves by blaming 
whoever gave them authority to do this.
    In fact, the danger is some of them may blame higher ups 
just to cover themselves, which is my experience in criminal 
justice. You always have to wrestle with it.
    The aggressive approach you are taking to prosecute the 
people first who you have evidence on will result in a lot of 
information coming out. Will it not, General Schoomaker?
    General Schoomaker. Could I respond just quickly?
    Senator Sessions. Yes, sir.
    General Schoomaker. What General Mikolashek was tasked to 
do was to conduct a widespread inspection of the system during 
a period of time, during a snapshot, a window of 5 or 6 weeks, 
where the intent was to make sure we have the procedures in 
place and the people understand, we understand, our 
responsibilities for the future. Those points that came up 
during his inspection--not investigation, but inspection--that 
indicated that there might be some reason to pursue this in a 
criminal sense, it was referred. But that was not his task to 
do that, nor was it his task to recover ground that has already 
been covered or is being covered by investigations that are 
ongoing.
    So what he is talking about here is, was he going and 
looking at whether or not we have in place the proper 
procedures, policies, and doctrine that, if followed, will have 
us be effective within the law and within the purpose of which 
we operate. That was his task, understanding, as I tried to 
describe in the architecture, that he was not doing what the 
Fay investigation is doing in the intelligence aspect of this. 
That is complementary to his efforts, and then it will be 
covered in more detail as the Church and the Schlesinger 
reports wrap it all together.
    It is important. It is like an accident report. Almost 
every time in an accident report, whether it is an aircraft or 
an automobile accident or something, one of the first questions 
is were there procedures in place that, had they been followed, 
would have prevented this? The answer is generally yes. The 
next question is, were those procedures followed, and the 
answer is generally no when there has been an accident. That is 
really what this is about in this inspection.
    Chairman Warner. I just want to thank the General. I think 
that helped clarify precisely what this hearing--when we opened 
this hearing I went into that in my opening statement. But it 
needed to be repeated.
    Thank you.
    Senator Sessions. I agree that we do not have and should 
not have any policies that allow prisoners to be moved around, 
to be hidden from the Red Cross or any other group or that 
kind. But General Mikolashek, the accountability problems you 
are talking about, if the paperwork is done right and prisoners 
are properly accounted for it either makes it impossible to do 
that or it makes it easy to prosecute anybody who does that; is 
that correct?
    General Mikolashek. That is correct, sir.
    Senator Sessions. That is what you have been focusing on, 
is tightening up those procedures?
    General Mikolashek. Yes, sir. The procedures are in place, 
and it is sound. Now, there are some ways that we could improve 
it, because it is fairly complex in many ways. It has created a 
backlog for processing the detainees. Those are the things that 
we need to fix. As I mentioned earlier, the commanders on the 
tactical level are holding people longer, so they too need to 
have those systems in place to make sure they account for the 
detainees they do have in custody or in movement.
    Senator Sessions. With regard to the civilians, somebody 
raised a question about their being able to be prosecuted. In 
2000, I sponsored legislation that is the basis now of 
prosecuting civilians abroad who violate law. They cannot be 
prosecuted under the Uniform Code of Military Justice because 
they are not a soldier, but they can be prosecuted under this 
law by the Department of Justice.
    We reviewed it again and, Mr. Chairman, as part of the 
defense authorization, bill language that will strengthen that 
a good bit. We are in a stronger position than perhaps we used 
to be in the ability to prosecute any contractor abroad who 
would violate the law.
    We found, General Mikolashek, that you never found any 
order from any higher-up, either written or verbal, that would 
have authorized the kind of abuses we saw at Abu Ghraib. Have 
you?
    General Mikolashek. No, sir. No, sir.
    Senator Sessions. Has any report to your knowledge found 
that?
    General Mikolashek. No, sir, we did not see any.
    Senator Sessions. The order that General Karpinski referred 
to, I know General Taguba did not agree with her interpretation 
of that, and you also do not agree with that?
    General Mikolashek. That is a correct statement.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator McCain.
    Senator McCain. Thank you.
    Let me just make one thing clear, General. One of the 
terrible things, many terrible things about war, and one of the 
terrible things throughout history is the brutality that is 
inflicted on the battlefield. I do not think anyone that 
understands war--and I think most Americans at least have some 
understanding--feels that this is anything other than a 
situation where sometimes these things happen. We try to 
prevent them. We try to train our military personnel not to 
commit abuses on the field of battle. But they happen.
    What I am trying to get at here and what I hope that the 
focus of your investigation was whether there was a systemic 
problem, and that is what this is all about. I would appreciate 
very much in writing if you would tell me what practices 
``generally'' means, in other words what exceptions were they 
and under what circumstances.
    I am still troubled by this aspect of the ghost prisoners 
because it seems to me that that should have been a subject of 
your investigation. Any violation should have been. So I hope 
that you will take another look at that. Or maybe it is the 
subject of other investigations, but I do not see how you can 
judge the practices and keeping with approved policies if this 
kind of violation took place.
    [The information referred to follows:]

    During my testimony on 22 July, you asked me several questions 
regarding the policies in place regarding detainees. Specifically, you 
asked me to explain language from the following finding: ``The DAIG 
Team found that officially approved CJTF-7 and CJTF-180 policies and 
the early CJTF-180 practices generally met legal obligations under U.S. 
law, treaty obligations and policy, if executed carefully, by trained 
soldiers, under the full range of safeguards.'' While this response is 
unclassified, the CJTF-7 and CJTF-180 policy documents that it refers 
to are classified. Therefore, a meeting in a closed session may be a 
useful forum to explain the meaning more completely.
    The language in question is in Finding 8 of our report. The 
specific topic of that finding was the ``interrogation approach 
technique'' policies that were in place in CJTF-7 and CJTF-180. This 
finding had a singular focus--interrogation approach techniques. As 
such, that specific finding statement did not relate to other policies 
regarding administration and care of detainees. An ``interrogation 
approach technique'' is specifically defined in PM 34-52 as part of the 
interrogation process. It relates to the atmosphere with which the 
interrogator will question the detainee. As such it may relate to 
matters regarding security of the detainee.
    We used the term ``generally met'' to indicate that the vast 
majority of the ``approach techniques'' were in compliance with legal 
obligations. A few of the techniques, however, give rise to legal and 
practical concerns, hence the use of ``generally.'' In the classified 
version of this report, we have included greater discussion of the 
specific techniques that gave rise to legal concerns. The major point 
that we intended to make in our report, however was that the 
instructions that were transmitted were fraught with legal peril, 
required an extraordinary degree of specialized training and careful 
legal interpretation and close supervision during use of those 
techniques. Legal obligations under treaties, U.S. law and policy 
established a minimum standard of behavior. The published policies took 
soldiers right to the limits of the law and, probably, required them to 
apply techniques that required great precision to avoid violating the 
law.
    At the same time, I understand that the commanders and their legal 
advisors in theatre were operating under extreme pressures. In the 
hopes of saving U.S. and coalition lives, they created high-risk 
procedures. We could not say whether the publication of those 
procedures led directly to any case of detainee abuse. The policies may 
have established conditions for abuse, but our assessment did not 
reveal where this may have occurred. Other investigations, both 
administrative and criminal, examining specific incidents of abuse, 
have, and will be able to, shed additional light on this connection.
    During the hearing, you asked me if the policy regarding so-called 
``ghost detainees'' practice ``generally met legal obligations under 
U.S. law, treaty obligations and policy.'' As noted above, the finding 
that included the language cited did not deal with ``ghost detainees.'' 
We did make separate findings on prisoner accountability systems and 
procedures. We found that our regulations require all detainees to be 
accounted for properly. We found no direct evidence of the ghost 
detainees at the time we inspected. Accordingly, we determined the 
policy stated in the regulation to be proper. If ``ghost detainees'' 
were being held, that would appear to be a violation of that policy. 
Our Finding 8 noted above only applied to interrogation techniques 
policies and did not apply to any other policy regarding detainees. 
Therefore, your question regarding whether the ``ghost detainee'' 
practice ``generally met'' legal standards is inapposite as it crosses 
between two unrelated issues.
    As stated in Finding 12, we did find that there was a failure of 
prisoner accountability across the theatre. My inspectors did inquire 
into the ``ghost detainees'' and found no hard evidence of them at the 
time of our inspection, only second-hand reports, including those of 
the ICRC. Therefore, we were unable to make concrete conclusions in our 
report. Furthermore, my mandate to inspect did not include access to 
programs being administered outside the Army, either by the Department 
of Defense or other agencies. We did find, as noted in Finding 12, a 
general failure to administer prisoner and detainee accountability in 
accordance with law and procedure. Other investigations have considered 
violations of the prisoner accountability policy, to include reports of 
instances of ``ghost detainees.'' As you are aware, the report by 
General Kern has made specific findings on this issue and recommended 
further investigation by other Departments.
    Our report was an inspection, not an investigation. It examined 
systems across the Army. Where the systems failed, the inspectors 
attempted to make a determination of a root cause. Other reports--of 
investigations into specific acts of alleged misconduct--should shed 
additional light on the issues you have raised.

    Senator McCain. Secretary Brownlee, one of the worst things 
I have learned from Senator Warner is that occasionally we 
stray from the subject at hand, and I am straying now. The 
General Accounting Office (GAO) reports a $12.3 billion 
shortfall between now and September. What can you tell us about 
that?
    Mr. Brownlee. Sir, I read that article this morning in the 
paper, and I know that there is a shortfall.
    Chairman Warner. That was my first question to him this 
morning.
    Senator McCain. I am sorry, I am sorry.
    Chairman Warner. I want him to repeat it for your benefit.
    Senator McCain. I can read it.
    Mr. Brownlee. I would be happy to address it, sir.
    Chairman Warner. Let us repeat it for your benefit.
    Go ahead.
    Mr. Brownlee. Sir, we of course have been having meetings 
in the Pentagon frequently about these same issues. We knew 
what the shortfall was. We addressed them. All the Services 
came forward and identified items that could be deferred and 
dollars that could be moved around, and the Army received an 
additional $4 billion in that exercise to help the Army.
    In addition, Congress is considering an appropriations bill 
now that includes a $25 billion supplemental for 2005, but the 
Department would have access to those funds upon enactment. So 
that could be used also to bridge this gap.
    I was not aware it was $12.3 billion. I pretty much knew 
what the Army's shortfall was.
    Senator McCain. Here is my point. I am sure that Senator 
Warner made the same point. We are robbing Peter to pay Paul if 
we are taking money out of the $25 billion for 2005 in order to 
pay for 2004, because the 2005 $25 billion was to take care of 
problems in 2005.
    It would be very helpful to all of us if in September--and 
we are going to be in session for 4 weeks in September--that 
DOD--and the reason why I address you is the bulk of these 
expenses are Army-related since the bulk of the mission is 
being carried by the United States Army. I mean, certainly you 
could argue that, with all deference to the outstanding job 
that the other Services, particularly the Marine Corps, are 
doing.
    If you would give us some estimate--there is no reluctance 
on the part of Congress that I have ever seen to providing the 
money that is necessary to get the job done in Iraq. So I would 
hope that you would carry the message back to Secretary 
Rumsfeld or whoever needs to ``come and tell us what you 
need.'' The worst thing: we really feel that it is not in 
keeping with our responsibilities if we have to read about a 
shortfall in the newspaper or get it from the General 
Accounting Office, which is a branch of Congress, not of the 
executive branch.
    It would be helpful to us, because immediately people come 
to us: Well, what do you think about the shortfall? Well, I do 
not know anything about the shortfall because we have not been 
briefed on it.
    Chairman Warner. Your objection is well-taken, Senator, if 
I may say. Several colleagues have raised this today, and I 
intend to write a letter to the Secretary of Defense broadening 
your question to throughout the DOD structure, not just limited 
to the questions primarily we discussed on the Department of 
the Army this morning. I intend to see that all Members get the 
Secretary's response to this, even though the Senate will not 
be in session.
    Senator Sessions. Mr. Chairman, could I clarify one last 
question I raised.
    Chairman Warner. Yes.
    Senator McCain. Could I ask? General Schoomaker wanted to--
--
    General Schoomaker. Sir, I just wanted to help clarify this 
a little bit, because we appreciate exactly what you said. More 
than 2 months ago, we addressed this kind of at the DOD 
corporate level. The figure at that time for us was a little 
closer to $6 billion. The DOD helped us with the corporate 
decision to give us the bulk of that money, the bridge 
supplemental, as you say.
    There are plenty of things that we could defer, but it is 
not smart to defer. We want to maintain our momentum for long, 
lead time orders and things like that to keep our reset going. 
So the bridge supplemental, as has been said, will allow us to 
do that. But it is not for the Army in the magnitude of $12 
billion something. It is less than half of that.
    Mr. Brownlee. I also know, sir, in line with what you said, 
that there will be great care from the DOD, they have already 
told us, in going into the 2005 money to use in 2004. That is 
not going to be done lightly, I am told.
    Chairman Warner. I am going to step out with Senator 
McCain. Would you continue, and then I will be back to close 
out the hearing.
    Senator Sessions [presiding]. General Mikolashek, with 
regard to General Karpinski's interpretation of a certain 
order, I want to clarify things a little bit so people are not 
left with confusion. As I understand it, her view was that an 
order from the command relieved her from responsibility of 
monitoring interrogations, and in fact she publicly stated that 
she could not go in that area of the prison.
    You have answered that question. But it did not in any way 
have any language in it that suggested that any of these abuses 
would be approved. The disagreement was not that the order 
authorized abuses. It was simply whether she had responsibility 
over those abuses.
    General Mikolashek. Correct, or the command of her soldiers 
that remained intact, and that was not disputed.
    Sir, Mr. Chairman, with your indulgence I would like to 
make one correction to a statement I made earlier. I mentioned 
that we talked to Colonel Pappas as part of our inspection. We 
did not.
    Chairman Warner [presiding]. In answer to my question you 
said that.
    General Mikolashek. We talked to Colonel Foster Payne, who 
is the current commander of the MI group out there, and Colonel 
Pappas was under inquiry at that time.
    Chairman Warner. The Procedure 15 inquiry.
    General Mikolashek. Yes, sir. Yes, sir.
    Chairman Warner. Those under the inquiry 15 Procedure, 
UCMJ, I can clearly understand why you did not try and question 
them.
    General Mikolashek. Yes, sir. Some of it had to do with the 
time of who was present and who was the commander at the time 
of our inspection.
    Senator Sessions. Mr. Chairman.
    Chairman Warner. Go right ahead, Senator.
    Senator Sessions. Slightly off the mark, for General 
Schoomaker.
    When I was in Iraq over the 4th, General Abizaid in 
conversation--we were in a C-17 flying to Baghdad--shared with 
us his view that he did not want to put more soldiers in Iraq, 
that he believed it was critical for us to bring the Iraqi 
force up and for them to take responsibility. He thought it was 
the wrong step; it would send the wrong message if we thought 
we could just send in more forces to attack people.
    Is that still his position and are you comfortable with 
that?
    General Schoomaker. Sir, first of all, I totally agree with 
that position. Second, I believe that is still his position.
    Senator Sessions. I know Congress wants to be supportive, 
but we also need to listen to our commanders.
    General Schoomaker. Sir, the Secretary of Defense has made 
it very clear that what the commander asks for he will get. We 
are certainly constantly planning about all kinds of 
contingencies and what we will do in case he asks for more, or 
what are we going to do if we draw down, and all the rest of 
it. I subscribe to exactly that. If I were the commander on the 
ground, I would want exactly that same support.
    Senator Sessions. He convinced me that we need, the Iraqis, 
the good people in Iraq, need to know they have to step up, 
that we are not going to continue. They can do it. They are 
going to do it. I was impressed with that, Mr. Chairman, the 
courage that the leaders are showing there. We met with the 
defense minister of Iraq. We met the top two generals in Iraq. 
They were impressive and determined and courageous. They are 
going to make this thing work.
    General Petraeus met with us. He is training, helping train 
those soldiers. One of the little things I thought was good was 
that the defense minister referred to him as ``Brother 
Petraeus.'' They had a good personal relationship that can be 
successful in helping strengthen the Iraqi forces.
    Chairman Warner. Senator, I thank you very much.
    Gentlemen, this will conclude the hearing. In my judgment, 
and several colleagues have shared with me, we have had an 
excellent hearing. I think it is terribly important that the 
American public and the world see that we address these matters 
in open, and we see the responses from those who are in charge. 
I commend each of you for what has been done by the Department 
of the Army to date, and I am reassured that you are going to 
continue to press on.
    Thank you again.
    The record will remain open for questions until close of 
business tomorrow.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
detainee rights to communicate with the international committee of the 
              red cross (icrc) under army regulation 190-8
    1. Senator Levin. Secretary Brownlee, section 3-16 of Army 
Regulation 190-8 provides that prisoners of war have the right to 
``make complaints and requests to camp commanders and the ICRC . . . 
regarding the conditions of their internment.'' That section further 
provides that detainees who exercise this right to complain to the ICRC 
may do so, among other ways, ``in person to the visiting 
representatives of the ICRC. . . .'' Did the DAIG investigate whether 
procedures were in place in OEF and OIF to fully implement detainee 
rights under section 3-16 of Army Regulation 190-8? If so, what were 
the DAIG's findings regarding the implementation of section 3-16? If 
not, why not?
    Secretary Brownlee. The DAIG inspected units involved in OEF and 
OIF to determine if procedures were in place to implement Enemy 
Prisoner of War and Civilian Internee rights in accordance with Army 
Regulation 190-8, chapters 3-16, 6-4, and 6-9. The inspection team 
observed that procedures were in place that allowed detainees, 
regardless of their classification, to lodge complaints to camp 
commanders through several different methods. Internee committees had 
been established at the internment/resettlement (I/R) facilities that 
permitted members to forward complaints on behalf of other civilian 
internees. I/R commanders at Camp Bucca and Abu Ghraib had established 
weekly meetings with committee members to improve communication. The 
inspection team observed unsupervised ICRC interviews with detainees at 
the Bagram I/R facility. At a Mosul brigade collecting point, the 
inspection team observed city council members visiting with detainees 
offering another opportunity for detainees to make complaints. 
Additionally, through interviews and sensing sessions with leaders and 
soldiers, the team found that detainees have the opportunity and did 
communicate regularly, one-on-one, with guards and interrogators to 
pass complaints through the chain of command. At collecting points, 
this was the primary means of communicating complaints to the 
commander.

    2. Senator Levin. Secretary Brownlee, section 3-16 also requires 
that ``If [the] ICRC . . . communicates directly with an Enemy Prisoner 
of War/Counterintelligence (EPW/CI) camp commander about any matter 
requiring an answer, the communication and commander's reply will be 
forwarded to Headquarters, Department of the Army; Office of the Deputy 
Chief of Staff, Operations and Plans (HQDA, ODCSOPS) Department of the 
Army, Military Operations-ODL (DAMO-ODL) National Prisoner of War 
Information Center (NPWIC), for proper action.'' The Army IG Report 
says that the Office of the Provost Marshall General has redesignated 
the NPWIC as the National Detainee Reporting Center (NDRC). [p. 56] Did 
the Army IG Report investigate whether any ICRC communications with 
camp commanders, or any replies to such communications, were forwarded 
to the NDRC? If so, what were the IG's findings? If not, why not?
    Secretary Brownlee. During the inspection, the Army Inspector 
General team determined that no ICRC facility inspection reports 
addressed to camp commanders had been forwarded to the NDRC.

                         contract interrogators
    3. Senator Levin. Secretary Brownlee, an Army memorandum dated 
December 26, 2000, and still in effect today made the express 
determination that gathering tactical intelligence is an inherently 
governmental function. The memorandum states that ``intelligence at the 
tactical level is integral to the application of combat power by the 
sovereign authority.'' The memorandum concludes: ``At the tactical 
level, the intelligence function under the operational control of the 
Army performed by military in the operating forces is an inherently 
governmental function barred from private sector performance.'' Office 
of Management and Budget (OMB) Circular A-76 expressly states that 
agencies ``shall . . . Perform inherently governmental activities with 
government personnel.'' At the hearing, you testified that ``if these 
functions are performed by contract interrogators under an entity, 
which in this case was Central Command, or CJTF-7 specifically, then 
they would not be considered inherently governmental.'' What specific 
language in the December 26, 2000, memorandum do you read as 
establishing an exception for functions performed under Central Command 
or CJTF-7?
    Secretary Brownlee. The December 26, 2000, memorandum from the 
Assistant Secretary of the Army for Manpower and Reserve Affairs to the 
Assistant Deputy Chief of Staff for Intelligence states in the first 
paragraph that ``[m]y determinations do not apply to Army assets under 
the operational control of other Defense activities or executive 
agencies.''

    4. Senator Levin. Secretary Brownlee, do you agree or disagree with 
the statement in the memorandum that ``intelligence at the tactical 
level is integral to the application of combat power by the sovereign 
authority''? If you agree with this statement, on what basis do you 
believe that it is appropriate to contract out this function?
    Secretary Brownlee. I agree with the statement in the December 26, 
2000, memorandum from the Assistant Secretary of the Army for Manpower 
and Reserve Affairs (ASA M&RA) to the Assistant Deputy Chief of Staff 
for Intelligence that ``intelligence at the tactical level is integral 
to the application of combat power by the sovereign authority.'' The 
tactical level refers to the level of war at which battles and 
engagements are planned and executed to accomplish military objectives 
assigned to tactical units of forces. Thus, intelligence gathering at 
the tactical level is performed as part of a combat operation. However, 
the ASA M&RA policy memorandum states that operational and strategic 
level intelligence functions are not inherently governmental. The 
policy allows for outsourcing operational and strategic level 
intelligence functions in situations where there are not enough 
military and civilian in-house employees to perform the function. 
Intelligence gathering at the Abu Ghraib prison is considered at the 
operational or theater level as opposed to the tactical level. 
Therefore, contracting out the interrogator function at the prison did 
not violate the December 26, 2000, policy memorandum. That said, the 
Army is currently reexamining its inherently governmental and policy 
decisions in the intelligence area and would like to build additional 
force structure so that operational and theater level intelligence 
functions will be performed in-house in the future. Additionally, we 
will explore the possibility of having civilian employees perform this 
function.

    5. Senator Levin. Secretary Brownlee, you also testified that a 
contract interrogator ``is supposed to work under the direct 
supervision of an officer or noncommissioned officer who would be the 
supervisor of that person.'' Section 37.104 of the Federal Acquisition 
Regulation defines a ``personal services contract'' as a contract in 
which ``contractor personnel are subject to the relatively continuous 
supervision and control of a Government officer or employee.'' The same 
section states that: ``The Government is normally required to obtain 
its employees by direct hire under competitive appointment or other 
procedures required by the civil service laws. Obtaining personal 
services by contract, rather than direct hire, circumvents those laws 
unless Congress has specifically authorized acquisition of the services 
by contract.'' In light of your statement that contract interrogators 
are under the ``direct supervision'' of government personnel, it would 
appear that these personnel are ``subject to the relatively continuous 
supervision and control of a Government officer or employee.'' Do you 
agree or disagree?
    Secretary Brownlee. The contract under which the government 
obtained intelligence services changed as of August 9, 2004. Since that 
date, the services are being obtained through a personal services 
contract that was awarded by the Army Contracting Agency. The personal 
services contract, awarded pursuant to the statutory authority granted 
to the military departments by title 10 U.S. Code, Section 129b, 
permits the contract employees to be under the direct supervision of 
Multinational Forces-Iraq personnel and it also includes higher 
personnel qualification standards than did the previous contract 
vehicle. The change to a personal services contract was made in order 
to provide more positive controls over the contractor's employees in 
the performance of their intelligence support services. The Assistant 
Secretary of the Army (Acquisition, Logistics, and Technology) approved 
the personal services aspect of the contract on July 30, 2004.

    6. Senator Levin. Secretary Brownlee, in your view, was this 
contract a personal services contract? If so, why is the contract not 
prohibited by section 37.104 of the Federal Acquisition Regulation?
    Secretary Brownlee. We understand that the contract through which 
intelligence support services were obtained prior August 9, 2004, was a 
non-personal services contract. The supervisory responsibility was 
performed by the contractor's supervisory chain. Therefore, we believe 
that this contract did not violate FAR 37.104.

    7. Senator Levin. Secretary Brownlee, do you agree or disagree with 
the statement in section 37.104 of the Federal Acquisition Regulation 
(FAR) that the government should be ``required to obtain its employees 
by direct hire under competitive appointment or other procedures 
required by the civil service laws''? If you agree with this statement, 
on what basis do you believe that it is appropriate to contract out 
this function?
    Secretary Brownlee. I agree with FAR 37.104(a) that ``[t]he 
Government is normally required to obtain its employees by direct hire 
under competitive appointment or other procedures required by the civil 
service laws.'' FAR 37.104(b) states that, ``[a]gencies shall not award 
personal services contract unless specifically authorized by statute.'' 
With respect to the current intelligence support services contract, the 
specific statutory authority to award a personal services contract is 
title 10 U.S. Code, section 129b(d)(I) (A) or (B). Use of this 
authority is amply justified by the circumstances. If the Army were to 
hire employees to perform these tasks, I agree that competitive civil 
service procedures should be followed. However, in this case the 
government was obtaining intelligence support services. Over the past 
year, the intelligence operations support has proven to be essential to 
national defense. These services enable effective collection and 
distribution of intelligence directly supporting military operations. 
We believe that the lives of several coalition forces personnel have 
been saved based on the intelligence data collected and distributed 
throughout multinational forces-Iraq (MNF-I). The preponderance of the 
intelligence services provided support the collection, analysis, and 
dissemination of HUMINT. In MNF-I, U.S. Forces are not adequately 
staffed to manage the amount of HUMINT operations required for daily 
operations. Without these vital intelligence services, the coalition, 
at all levels, would lose a large portion of HUMINT capability, 
essential to conducting military operations. The use of contractor 
provided intelligence support, allows military personnel to execute 
HUMINT operations from forward operating bases. Without the additional 
intelligence support, military personnel would have to remain in base 
camps, hampering effective intelligence collection and analysis 
operations. In addition, the Department of Defense does not have an 
adequate number of personnel available to execute the critical 
intelligence support at the current level necessary to support MNF-I. 
The vast intelligence collection requirements, needed to properly 
support the theater has stretched the military intelligence military 
occupational specialty field to capacity and requires additional, 
skilled personnel, to assist the military in collection, analysis, and 
dissemination of intelligence products.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                    training and leader development
    8. Senator Bill Nelson. Secretary Brownlee and General Schoomaker, 
I recall press reports of detainee abuse involving an Army battalion 
participating in peace enforcement operations in Kosovo from September 
1999 to March 2000. Apparently soldiers and some leaders of this 
battalion were involved in misconduct and abuses of authority including 
unauthorized interrogations, inappropriate handling of females, 
threatening detainees with the use of weapons, and, although not a 
detainee incident, one soldier committed a rape and murder. 
Investigations by the Army suggested that the chain of command failed 
to appropriately train the unit for a peacekeeping mission, exceeded 
their authority in aggressively favoring one faction over another, and 
tolerated misconduct by members of the unit. According to 
investigators, the battalion's command climate fostered actions by 
troops that, ``violated the limits and terms of their military 
assignments by intimidating, interrogating, abusing, and beating 
Albanians.''
    Detainee abuse in Iraq and Afghanistan echoes the incidents 
reported in Kosovo, with the clear exception of the more dangerous and 
stressful conditions of combat versus peace enforcement operations. 
This begs questions, however, about how the Army may have used the 
lessons of Kosovo and will use the lessons of Iraq and Afghanistan to 
better prepare leaders and soldiers for the realities of military 
operations today and tomorrow.
    Press reports at the time of the Kosovo situation indicate that the 
Army ordered detainee treatment training for U.S. based units. Can you 
determine if this training specifically used the incidents in Kosovo as 
an illustration of what soldiers should not do and what leaders should 
not allow to happen?
    Secretary Brownlee and General Schoomaker. The training of soldiers 
following the Kosovo incident incorporated the Army's experience with 
peacekeeping operations from the Sinai to the long-term missions 
conducted in the Balkans. This was mandatory for all units before 
deploying on future peacekeeping missions. The training was a 2-week 
long peacekeeping scenario that forced soldiers to operate under the 
realistic conditions they would encounter in a likely peacekeeping role 
versus operating under a traditional combat role with a known enemy. 
The training took place at the Combat Training Centers, either at the 
Combat Maneuver Training Center in Hohenfels, Germany, or the Joint 
Readiness Training Center at Fort Polk, Louisiana. The training was 
formalized as a ``Mission Rehearsal Exercise'' in a peacekeeping role. 
Through the use of role players and translators, the soldiers were 
forced to deal with an unstable environment of opposing sides and 
multiple problems. The soldiers had to sort through the problems while 
facing escalating threats and take the appropriate action to solve 
those threats.
    Through the use of feedback by the observer controllers, the 
soldiers received after action reviews of the actions they took to 
determine any strengths or weaknesses and to include any consequences 
of the decisions made from their actions. Placing the soldiers under 
these varying conditions addressed the similar shortfalls noted by the 
battalion involved in the Kosovo abuse, which had difficulty 
transitioning from a combat role to a peacekeeping role. Furthermore, 
Military Police units conducting detainee operations in Kosovo 
requested and received correctional specialists who provided technical 
and training expertise on how to maintain and improve the overall 
operations of a detention facility, especially with regard to the care 
and treatment of detainees within those facilities. The assistance 
teams deployed to Kosovo worked with the Military Police in improving 
the detention and correctional operations until a Military Police 
Reserve component unit with enemy prisoner detention skills arrived and 
assumed the detention mission.

    9. Senator Bill Nelson. Secretary Brownlee and General Schoomaker, 
if specific examples were not use, can you explain why not?
    Secretary Brownlee and General Schoomaker. Specific examples of 
proper and improper ethical behavior are routinely used in training our 
soldiers and leaders on the Law of War. The Kosovo incident has been 
used in classroom discussion and as part of reading lessons during the 
leadership instruction at Fort Leavenworth, Kansas where we train our 
brigade and divisional level staff officers (normally at Major rank). 
Additionally, the U.S. Army Europe and The Center for Army Lessons 
Learned retained lessons learned from the Kosovo incident. Both had 
copies of after action reports of not only the incident from the 82nd 
Airborne Division, but that of the operational challenges and solutions 
worked through by Task Force Falcon in detention operations while 
serving in Kosovo.

    10. Senator Bill Nelson. Secretary Brownlee and General Schoomaker, 
was the detainee treatment training directed by the Army in 2000 
integrated into long-term Army training requirements and plans? If not, 
why not?
    Secretary Brownlee and General Schoomaker. The Army instituted an 
intense 2-week peacekeeping Mission Rehearsal Exercise conducted at the 
Combat Maneuver Training Center (CMTC) for peacekeeping missions in 
Kosovo, the Sinai, and the Balkans. Using a mock-up of an urban setting 
in these CMTCs, soldiers previously trained for high intensity combat 
learned about conflict resolution, group  dynamics and graduated levels 
of force in response to various provocations. The investigation into 
the Kosovo incident pointed to a failure of leadership as the primary 
problem. It was also noted that the battalion where the incident 
occurred received its deployment orders late in its training cycle and 
did not receive a peacekeeping mission rehearsal exercise. The 
investigation reported that the soldiers had difficulty adjusting from 
a combat mentality to one required for the complexities of 
peacekeeping. The soldiers undergoing the peacekeeping mission 
rehearsal exercise experienced the complexity working through various 
problems and applying escalating levels of force depending on the 
circumstances. The Army continues to refine the scenarios at our Combat 
Training Centers by deploying mobile training teams with knowledge of 
detainee lessons learned to assist other units during their training. 
The mobile training teams also provide valuable experience and 
expertise to improve the quality of training at the Combat Training 
Centers. This improvement incorporated brigade level detainee holding 
areas into the tactical scenarios that are based on lessons learned in 
Iraq. Additionally, our soldiers and leaders training at the Combat 
Training Centers received increased feedback from an increased number 
of observer evaluations of detainee operations. Our Combat Training 
Centers have also increased the use of combat veterans with experience 
in detention operations and role players speaking Arabic to train help 
soldiers who will be deploying to Iraq and Afghanistan.

    11. Senator Bill Nelson. Secretary Brownlee and General Schoomaker, 
was or is the Kosovo situation used as a case study, as is often done 
with the case of My Lai during the Vietnam War, in either training or 
leader development courses in the Army's institutional training and 
professional development and education systems? If so, where and how? 
If not, why not?
    Secretary Brownlee and General Schoomaker. The Kosovo incident 
involving A Company, 3rd Battalion, 504th Parachute Infantry is not 
used as a stand-alone case study. However, it has been used in 
classroom discussion and reading during leadership instruction at Fort 
Leavenworth, Kansas, where we train our brigade and division level 
staff officers (normally at Major rank). As the incident was reported, 
the leadership instructors incorporated the information into ongoing 
instruction on ethical decisionmaking and building command climate. The 
Kosovo situation was also incorporated into a 3-hour lesson in an 
elective on leadership in battle. This 3-hour lesson centered on My Lai 
and drew on the Kosovo incident to show relevance to modern day 
operations. In addition, Military Review published an article in March/
April 2001, which discussed the negative aspects of cohesion. This 
article, although it centered on My Lai, mentioned the Kosovo incident 
as a possible contemporary example. Currently we teach a 2-hour lesson 
on war crimes and ethical decisionmaking in combat. We use the war 
crimes committed at My Lai as the case study. Students are required to 
read 27 pages from Lieutenant General William Peers' book on the 
inquiry into My Lai. These pages specifically focus on the nine factors 
that contributed to the tragedy. The class discussion centers on how 
these factors can be found in today's contemporary operating 
environment. During this class discussion last year, information from 
the recent prison incident was used and analyzed according to LTG 
Peers' factors. As part of this discussion, the Kosovo incident as well 
as other incidents from Operation Iraqi Freedom come up and are 
discussed in some classes. Ultimately, students determine that the root 
cause of the war crimes committed at My Lai or the Kosovo incident can 
be found in the values a cohesive group establishes and in the command 
climate that fails to establish the proper conditions for the 
inculcation of the Army's values. Students also discuss how they can 
foster a climate and establish systems that prevent the factors 
identified by LTG Peers from influencing the values and behaviors of 
their units and how they can positively impact the formation of 
cohesive groups. Regardless of the case studies used, the goal is to 
determine the root cause, apply it to today and understand the actions 
required to prevent it from occurring.

    12. Senator Bill Nelson. Secretary Brownlee and General Schoomaker, 
will the lessons learned from Iraq and Afghanistan be integrated into 
the Army's institutional training and leader development and education 
systems? How and on what time line?
    Secretary Brownlee and General Schoomaker. Yes, the lessons learned 
from both Operation Iraqi Freedom and Operation Enduring Freedom have 
already been incorporated into ongoing institutional training of our 
soldiers and their leaders. The U.S. Army Center for Lessons Learned 
(CALL), a subordinate unit of the U.S. Army Training and Doctrine 
Command, collects and analyzes data and information from a variety of 
current and historical sources, including Army current operations and 
training events, and produces lessons for military commanders, staffs, 
and military schools. Dedicated collection teams conduct focused data 
collection and observations from ongoing operations in Iraq and 
Afghanistan based on guidance from Headquarters, Department of the Army 
and commanders. These observations are analyzed and lessons derived. 
The lessons are then disseminated to the Army through a variety of 
print and electronic media, including the CALL Army Web page. The web 
page provides access to articles, publications, and procedures 
developed from lessons learned, and research materials. This training 
includes individual and collective training tailored to the specific 
theater to include country orientations, antiterrorism/force 
protection, rules of engagement, weapons qualification, unexploded 
ordnance and improvised explosive device training, land navigation, 
combat stress and suicide awareness, individual movement techniques, 
combat lifesaver training, and introduction to detainee operations. 
Individual leaders also receive training to understand the military, 
political, cultural, economic and religious environment of a specific 
theater. Brigade and division leaders are encouraged to attend a 5-day 
cultural awareness seminar provided by the Jordanians. Additional 
training also includes using an interpreter/translator, performing 
negotiations, supervising convoy operations, employing non-lethal 
capabilities, supervising the rules of engagement and its application, 
conducting medical evacuation and performing risk management, 
supervising traffic control, cordon and search procedures, crowd 
control, enforces the Law of War, and supervising the handling of enemy 
personnel. Additional mission training is tailored for units at each 
echelon of command based on real-world lessons learned and allowing 
them to conduct a multitude of likely missions they will encounter in 
Afghanistan or Iraq.

    [Whereupon, at 1:16 p.m., the committee adjourned.]


  THE INVESTIGATION OF THE 205TH MILITARY INTELLIGENCE BRIGADE AT ABU 
                          GHRAIB PRISON, IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 9, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Collins, Talent, Graham, Levin, Kennedy, 
Lieberman, Reed, Bill Nelson, E. Benjamin Nelson, Dayton, and 
Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Lynn F. Rusten, professional staff 
member; and Scott W. Stucky, general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Maren R. Leed, professional staff member; and 
William G.P. Monahan, minority counsel.
    Staff assistants present: Catherine E. Sendak, Bridget E. 
Ward, Nicholas W. West, and Pendred K. Wilson.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Darren M. Dick, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Lindsey R. 
Neas, assistant to Senator Talent; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Meredith Moseley, assistant to 
Senator Graham; Christine O. Hill, assistant to Senator Dole; 
Russell J. Thomasson, assistant to Senator Cornyn; Mieke Y. 
Eoyang, assistant to Senator Kennedy; Erik Raven, assistant to 
Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Davelyn 
Noelani Kalipi and Richard Kessler, assistants to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator E. Benjamin Nelson; Mark Phillip 
Jones, assistant to Senator Dayton; and Andrew Shapiro, 
assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone.
    The committee meets today to receive testimony on the 
investigation of the 205th Military Intelligence (MI) Brigade 
at Abu Ghraib Prison in Iraq, commonly referred to as the Fay-
Jones Report.
    We welcome our witnesses: General Paul Kern, United States 
Army, appointing officer for the investigation; Lieutenant 
General Anthony R. Jones, investigating officer; Major General 
George Fay, investigating officer; Major General Anthony 
Taguba, investigating officer concerning the detainee abuse by 
members of the 800th Military Police Brigade at the prison; and 
Major General R. Steven Whitcomb, United States Army, Special 
Assistant to the Commander of Central Command, representing the 
command responsible for acting on the majority of the 
recommendations that are flowing from this investigation and 
how they are being implemented.
    General Fay was originally appointed as the investigating 
officer by General Sanchez and was tasked with investigating 
allegations that members of the 205th Military Intelligence 
Brigade were involved in detainee abuse at the Abu Ghraib 
detention facility and whether military intelligence personnel 
comported with established interrogation procedures and 
applicable laws and regulations.
    General Fay's investigation was subsequently augmented by 
the addition of Lieutenant General Jones as an investigating 
officer. General Jones was charged with focusing on whether 
organizations or personnel higher than the 205th Brigade chain 
of command or events and circumstances outside of the 205th 
Military Intelligence Brigade were involved directly or 
indirectly in the activities regarding alleged detainee abuse 
at the prison.
    I commend each of you for your professional performances to 
date. Speaking for myself, I think they meet the highest 
standards of Army traditions. It was not an easy task, but in 
the judgment of this Senator, you performed it very 
commendably.
    I would like to review for the committee that this 
committee initiated the series of hearings in Congress. I thank 
the members of the committee for the support they have given 
me, Senator Levin, and others, as we proceed with our numerous 
hearings on this very important subject. As a consequence I 
think somewhat of the initiatives taken by this committee, the 
executive branch, under the direction of the President, the 
Secretary of Defense, the acting Secretary of the Army, and 
others, have initiated 11 senior level investigations. Copies 
of eight of these reports have been received by the committee. 
Of the remaining three ongoing investigations or reviews, two 
should be completed later this month. The final one should be 
completed by December. Over 17,000 pages of documentation have 
been received to date by the committee. In my years on the 
committee, over a quarter of a century, I believe this is an 
unprecedented amount of information for this committee to have 
received as a direct consequence of the initiatives of the 
committee and I say commendation to the executive branch for 
their prompt attention to this very serious issue.
    We began this series of hearings on the events at the 
prison on May 7, immediately after all the allegations of 
prisoner abuse surfaced. As I said at that first hearing, the 
events at the prison represent a serious case of military 
misconduct, as serious as I had ever seen in the many years I 
have had the privilege of associating with the men and women of 
the United States military. This is simply not the way for 
anyone, any individual or group of individuals who have the 
privilege of wearing the uniform of the United States of 
America to conduct themselves. I know that all of our witnesses 
today agree with that statement. I remember so well in our 
briefing, General Kern, you drew upon your extensive experience 
in the uniform that you proudly wear and commented much to that 
effect.
    Trials are still going on. Several have already been tried 
and sentenced or have accepted nonjudicial or administrative 
punishment. In addition, 11 senior level reviews of detainee 
operations of detainee abuse throughout the Department of 
Defense (DOD) were initiated. Seven of those reviews have been 
completed, as I reported here.
    I think the combination of the actions by Congress--and I 
note with some interest that the House of Representatives 
today, the committee of jurisdiction, the Armed Services 
Committee, is having identical hearings. This panel appears 
before the House this afternoon, as we this afternoon hear from 
the civilian panel of the two former Secretaries of Defense: 
Schlesinger and Brown.
    So I think Congress has done its job thus far, but more 
remains to be done to assess, in particular, the thoroughness 
of these reports, to determine whether any significant portion 
of the investigation is left to be done, and also to assess the 
accountability. Now, when I say ``assess the accountability,'' 
I mean to indicate to those people from the Commander in Chief, 
the President, on down the actions that we deem appropriate to 
establish that level of accountability that may have not been 
taken thus far.
    We will ask your professional judgment as to the 
thoroughness you individually and collectively believe with 
regard to the investigations to date. You have invested the 
better part of your lives proudly wearing that uniform, and you 
have participated in these investigations with the intent of 
determining what the facts are and how best never to let the 
Army, which you proudly serve, ever experience this again.
    Findings contained in the investigation before us this 
morning are troubling. The investigation identifies cases of 
individual criminal behavior, abuses conducted by soldiers who 
knew or should have known they were violating the prescribed 
rules and doctrine of the United States Army, cases of abuse 
which resulted from some confusion, nevertheless, over the 
doctrine and policies that were promulgated and certain 
leadership failures. All of these factors were at play at the 
Abu Ghraib Prison.
    Several conclusions contained in this investigation are 
particularly instructive and help put the abusive behavior in 
context.
    First, the primary causes of the violent and sexual abuses 
were relatively straightforward. Individual criminal 
misconduct, clearly in violation of law, policy, and doctrine, 
and contrary to every value which the United States Army has 
been proudly holding all these many years.
    Second, not all of the violent or sexual abuses occurred 
separately from scheduled interrogations and did not focus on 
the persons held for intelligence purposes.
    Finally, according to one of the investigation's major 
findings, neither defense nor Army doctrine is really the root 
cause of any of these abuses. Abuses would not have occurred 
had doctrine been followed and mission training conducted. This 
investigation, its predecessor reviews, and the report of the 
Schlesinger panel we will receive later today all conclude that 
no approved procedures, policy, doctrine, or training called 
for, allowed, or encouraged the kind of abuses that we have 
witnessed.
    Our job this morning is to examine why then did these 
abuses occur and what must be done to prevent them from ever 
occurring again.
    We also will have later reports about Afghanistan. As we 
continue to assemble the facts concerning the allegations of 
detainee abuse at Abu Ghraib and elsewhere, it is important 
that we keep these incidents in context. Any instance of abuse 
is unacceptable, and we all have been disappointed to hear of 
over 300 allegations of abuse of prisoners in Iraq and 
Afghanistan. As of mid-August, 66 allegations of abuse had been 
substantiated, and one-third to one-half of those incidents 
occurred at the point of capture during transit, often in the 
heat of battle. Over the past 3 years, the U.S. has apprehended 
over 50,000 personnel in Iraq and Afghanistan. Thousands of 
soldiers, sailors, airmen, and marines have done their job 
courageously, humanely, and honorably. So, the misdeeds of a 
few have to be judged against the vast 99.9 percent performing 
their duties in a commendable way.
    Today's GI, like those who preceded him or her, is a symbol 
of hope to the world and the overwhelming majority fully 
understand the difference between right and wrong, both from 
their upbringing and from their military training.
    I also would like to touch on today, for you to give your 
personal view, as to the consequence that flowed from these 
incidents, then the investigations as to whether it has 
degraded in any way our ability to have the essential, ongoing 
intelligence collection, provide that information which is 
absolutely needed for primarily our tactical forces, and 
whether that pendulum, as a consequence of these incidents and 
the series of investigations, may have gone too far and in any 
way have degraded that collection system.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. First, let me join 
you in thanking our panelists for their service to our Nation 
in helping us sort out these abuses, but far more importantly, 
for their lifelong commitment to service to this Nation. We are 
indebted to each and every one of you.
    Thank you, Mr. Chairman, for your leadership and your 
initiative in trying to get these matters before us, to get 
them thoroughly examined and to get them understood. As you 
point out, we have a ways to go, but at least we have started 
this process. It is because of your initiative that we have 
started this process, and we are all grateful to you for it.
    This is a subject that needs the most important, thorough, 
and objective review. It is important for our Nation that this 
review take place. It is important for our Army, for our 
military and for all of us that we make it clear by a 
willingness to publicly face up to what has occurred, that we 
are unwilling to accept this kind of conduct as a people or as 
a military. That is the greatest proof that we can provide that 
what happened here is not us. It is not our military. It is not 
our Nation. Our willingness to look straight in the eye at 
these abuses, to find out the sources of them, and to try to 
hold people accountable for them, is the best way in which we 
can truly support what this Nation stands for and prove that 
the values and the standards that we stand for were not those 
that were implemented at Abu Ghraib during these violations.
    The findings of the Fay report should put to rest the 
contention that abuses at Abu Ghraib were simply the aberrant 
behavior of a few military police reservists on the night 
shift. The Fay report cites 27 soldiers of the 205th MI Brigade 
for requesting, encouraging, condoning, or soliciting military 
police personnel to abuse detainees or participating in such 
abuse or violating established interrogation procedures and 
applicable laws and regulations during interrogations at Abu 
Ghraib. General Fay cites an additional 17 military 
intelligence soldiers or contractors who used unauthorized or 
improper harsh interrogation techniques such as clothing 
removal, improper isolation of detainees, and the use of dogs. 
General Fay identifies over 40 separate alleged instances of 
detainee abuse committed by soldiers and civilian contractors.
    The direct causes of these incidents of abuse identified in 
the Fay report include a number of factors; including the 
failure of the leaders and soldiers of the 205th MI Brigade to 
impose discipline, a leadership failure at multiple echelons 
within Combined Joint Task Force-7 (CJTF-7) and the misconduct 
of a small group of ``morally corrupt soldiers and civilians.''
    But beyond these direct causes of abuse, the Fay report 
identifies a number of ``systemic problems and issues'' that 
contributed to an environment conducive to abuse. This finding 
contrasts with the conclusions of the Army Inspector General's 
report issued in June of this year which said that he could not 
identify any system failures that resulted in incidents of 
abuse in Iraq or Afghanistan. The Fay report contains 24 
findings and 2 observations regarding systemic failures. Among 
these systemic failures are inadequate interrogation doctrine 
and training, severe shortages in MP and MI personnel, 
ambiguous lines of responsibility between MI and MP chains of 
command, and the presence of a number of confusing and 
constantly changing interrogation policies in Iraq.
    I would like to just highlight a couple of General Fay's 
findings which I hope will be specifically addressed in their 
testimony this morning. First, he has found that ``leaders 
failed to take steps to effectively manage pressure placed 
upon'' personnel at the Joint Interrogation and Detention 
Center at Abu Ghraib. The Fay report explains that the military 
Intelligence Community felt that intense pressure from ``higher 
headquarters, to include Central Command (CENTCOM), the 
Pentagon, and the Defense Intelligence Agency (DIA) for 
timelier, actionable intelligence'' was adversely affecting 
their decisionmaking at the interrogation facility. This 
pressure took the form of requests for information being passed 
down to the lowest levels at Abu Ghraib from numerous 
headquarters without being prioritized by leaders. General Fay 
will hopefully address the question of who at higher 
headquarters was bringing this pressure and how this pressure 
impacted intelligence operations at Abu Ghraib.
    Another finding of the Fay report that requires further 
exploration is the impact of national policies and DOD guidance 
in contributing to confusion among soldiers at Abu Ghraib. The 
report finds that ``DOD's development of multiple policies on 
interrogation operations for use in different theaters or 
operations confused Army and civilian interrogators at Abu 
Ghraib.'' It adds, by way of explanation, that ``national 
policy and DOD directives were not completely consistent with 
Army doctrine concerning detainee treatment or interrogation 
tactics.'' The root of this confusion is the administration's 
decision in early 2002 that al Qaeda and Taliban personnel 
would not be entitled to prisoner of war status under the 
Geneva Conventions. This led to the development of harsh 
interrogation techniques going beyond established Army doctrine 
for use at Guantanamo Bay. How did these policies and 
interrogation techniques, including the use of stress 
positions, isolation for up to 30 days, removal of clothing, 
and the use of detainees' phobias such as the use of dogs, come 
to be incorporated in CJTF-7 interrogation policy guidance for 
use in Iraq, where the Geneva Conventions were to be applied 
from the beginning of the conflict? To what extent did the 
higher-level promulgation of national and DOD policies, 
inconsistent with Army doctrine, contribute to the abusive 
environment at Abu Ghraib?
    In looking at causes beyond the chain of command of the 
205th MI Brigade, General Jones finds that senior level 
leaders, while not involved in directing the abuses, did bear 
some responsibility. He points to a lack of oversight at the 
Abu Ghraib detention facility, a failure at the CJTF-7 level to 
respond adequately to indications and warnings of possible 
abuses, including reports of the International Committee of the 
Red Cross (ICRC), and the issuance by CJTF-7 of unclear and 
inconsistent policy guidance regarding the conduct of 
interrogations.
    Among other contributing factors identified by General 
Jones was the under-resourcing of CJTF-7 headquarters. The 
failure to approve a CJTF-7 joint manning document, the 
document which establishes the number and types of personnel 
required to staff the CJTF-7 headquarters, contributed to it 
being severely under-resourced during the period in question. 
The Jones report finds that this lack of resources and staffing 
degraded the ability of CJTF-7 staff to oversee operations at 
Abu Ghraib. Why were they under-resourced? Who had decided or 
assumed that the end of major hostilities would be followed by 
a non-violent aftermath? Why did it take senior leadership so 
long to act once the insurgency became apparent?
    Another contributing factor identified in the Jones report 
is the presence of other Government agencies (OGA) which is an 
euphemism for the Central Intelligence Agency (CIA), at the 
DOD-run detention facilities. The Jones report finds that 
``there was at least the perception, and perhaps the reality, 
that non-DOD agencies had different rules regarding 
interrogation and detention operations. Such a perception 
encouraged soldiers to deviate from prescribed techniques.'' 
That raises the question of what were the rules governing OGAs 
at DOD-run facilities and how are those officials going to be 
held accountable for abusive behavior in violation of 
established procedures?
    While the different aspects of the prisoner abuse issue 
have been or are being addressed piecemeal through the various 
DOD investigations to date, this committee is still missing 
significant information necessary to fully understand where 
responsibility lies for the abuse of prisoners in U.S. custody. 
I expect that we will get some of that information or a better 
sense of that when we receive testimony this afternoon from the 
Schlesinger panel, but there is much beyond that, as our 
chairman has pointed out. Again, I want to thank our chairman 
for his determination to get a thorough and objective review of 
the incidents and the abuses against prisoners at Abu Ghraib.
    Chairman Warner. Thank you very much, Senator Levin. I 
acknowledge your strong support from the first, as well as the 
members of this committee. We could not have done our work 
without unity among our committee.
    Very well, General Kern. We are ready to hear from you.

STATEMENT OF GEN PAUL J. KERN, USA, COMMANDING GENERAL, UNITED 
  STATES ARMY MATERIEL COMMAND; ACCOMPANIED BY LTG ANTHONY R. 
 JONES, USA, DEPUTY COMMANDING GENERAL, CHIEF OF STAFF, UNITED 
    STATES ARMY TRAINING AND DOCTRINE COMMAND; MG R. STEVEN 
   WHITCOMB, USA, SPECIAL ASSISTANT TO THE COMMANDER, UNITED 
     STATES CENTRAL COMMAND; MG GEORGE R. FAY, USA, DEPUTY 
    COMMANDER, UNITED STATES ARMY INTELLIGENCE AND SECURITY 
   COMMAND; AND MG ANTONIO M. TAGUBA, USA, DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR RESERVE AFFAIRS, READINESS, TRAINING, 
                        AND MOBILIZATION

    General Kern. Thank you, Mr. Chairman. With your 
permission, I will submit my formal testimony for the record 
and summarize using these charts.
    Chairman Warner. Without objection, the testimony in 
complete form of all witnesses will be accepted into the 
record.
    General Kern. Thank you.
    I would like to restate the people who are at the table 
with me just so that everyone knows. General Whitcomb, former 
Chief of Staff of CENTCOM, is representing CENTCOM here today 
and is still part of the CENTCOM headquarters. He brought with 
him, behind him, Colonel Quantock, who is the 16th MP Brigade, 
Military Police Brigade, who now is responsible for the 
detention operations, and we had visited with him at Abu Ghraib 
about a month ago. General Fay is the Deputy to the Army's 
intelligence staff officer, the G-2 of the Army, and is one of 
our chief investigators, as you pointed out. General Jones, to 
my left, is the Deputy Commanding General of the Training and 
Doctrine Command, the other senior investigator. Major General 
Taguba, formerly part of our 3rd Army and the Land Component 
Commander now on the OSD staff, whose report you have heard 
previously as part of the focus on the Military Police Brigade. 
We are all prepared to answer questions today, and we, Senator 
Levin, clearly understand the issues that you laid out and we 
will do our best to address them in our testimony today.
    I would like to start, if I could, by the comment that all 
of us are bound by values. We believe in them. Whether it is 
our source of commission or whether it is our upbringing in the 
United States Army, the set of values that we have been trained 
to follow are a creed which we believe in and we are very proud 
of people who follow them. We are here today to report to you 
about some people who failed to meet those standards. That is 
very unfortunate and that is something which we have taken 
strong actions to correct within the United States Army. Those 
actions which are underway have corrected them and we will be 
able to report to you today many improvements, from what we 
report in this period of the investigation, have already taken 
place.
    The second point I would make is that we all represent 
strong operational backgrounds, as well as functional 
backgrounds. So, we respect the conditions of which they are 
being reported to you for the people who were operating in Iraq 
at the time of these abuses.
    If I could go to the first chart, we will summarize one of 
the issues which you laid out which is the hierarchy of the 
many ongoing investigations, to put into perspective what we 
are reporting to you today and some of the gaps that are to be 
filled.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    First, we did not go back and redo the previous assessments 
and investigations, but we used them as part of our assessment, 
our investigation, and our evaluation. So the Ryder report, 
which focused on our military police and detention operations, 
was part of that and the Department of the Army Inspector 
General report, which you referred to. We both reviewed their 
entire report and listened to their comments. The Miller 
report, which is an assessment of how we could learn from the 
detention operations at Guantanamo and the integration of 
detention and interrogations was part of our assessment. We 
spent a great deal of time studying and discussing with Major 
General Taguba his previous assessment of Abu Ghraib with the 
Military Police Brigade. All of these were inputs and are 
contained in many excerpts to our investigation.
    Additionally, we shared all of our information with the 
Schlesinger panel, whom you will hear from this afternoon, and 
they were fully briefed on all of our findings as we developed 
our investigation.
    Admiral Church, who is the Inspector General of the U.S. 
Navy, was appointed to fill the gaps. His report is still due. 
We expect it towards the end of this month. He also has been 
apprised of all of the information which we have provided and 
his personnel have been part of our team as we went through our 
review of the investigation.
    I would like to summarize quickly the methodology which we 
used. We believe it was thorough. We believe it was well-
documented. This investigation took part under what is called a 
Procedure 15, which is the method by which we review 
intelligence operations. It was done in accordance with an Army 
regulation 15-6, which prescribes that for a formal 
investigation, we have substantial legal review to ensure that 
all of our recommendations are substantiated so that when we 
hand them off for further actions for commanders and other 
organizations, that the information there is usable, for 
whatever action they may deem appropriate. All of that has been 
part of our review.
    We conducted, primarily by Major General Fay's efforts, 170 
interviews. We looked at more than 9,000 documents and these 
were all collected and collated using state-of-the-art 
intelligence tools which allowed us to cross reference 
information, identify places where there were disconnects, and 
identify information which required further interviews so that 
we could fill in those gaps.
    The team, as noted there, consisted of numerous personnel 
who were both subject matter experts and experts in 
investigations and review. I should point out that General Fay 
not only is a military intelligence officer but in his civil 
duties, works in the investigative part of insurance 
operations. He has brought both those talents as a Reserve 
officer with him to this effort, as well as the capabilities 
within our Intelligence Community.
    Finally, after the reports were assimilated, we conducted 
an independent review using DOD, Department of the Army 
personnel, to look at the information which we had accumulated, 
specifically to ensure that all of our recommendations were on 
point and substantiated by the information which we had 
collected.
    I know this is very difficult to see, and I will try to 
describe this for you in terms of what the picture is meant to 
say. This is a map of Iraq, a country about the size of Texas 
and a country that has been beset by the dictatorship of Saddam 
Hussein, which is no longer present today. The charts show you 
detention facilities in two different colors: blue and red.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The blue facilities are primarily those facilities which 
were maintained by the Iraqis. Each of them, however, had U.S. 
presence as the operation that overthrew the Saddam-Baath 
regime took on the responsibility as the governor of Iraq. So 
Lieutenant General Sanchez's role with Ambassador Bremer 
included oversight of all of those facilities.
    The red indicates those which were dedicated to U.S. 
operations, and you will note that Abu Ghraib is shown in both 
red and blue on the outskirts of Baghdad. That in itself points 
to the fact that there were civil detainees held by the Iraqis; 
murderers, looters, and rapists who were held in that facility. 
This is a violation of our own regulations and policy that says 
we should not co-mingle military detainees with civil 
detainees, but it was a clear decision made by the Coalition 
Provisional Authority (CPA), that this was the only facility 
available that we could use. It did contain a facility, which I 
will talk about in a minute, with a capability to hold about 
12,000 detainees, the way it was designed. Lieutenant General 
Sanchez made the decision that we would also use it for the 
military detainees. So, it was designed to keep them separate 
from the civil detainees. But, that in itself, is a problem 
with the way our own regulations require us to operate.
    If I could look specifically at the next chart of Abu 
Ghraib. This is an overhead photograph of the facility. I think 
most of you are generally familiar with it, but I think it is 
important to note a few points.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    First, the facility is a detention facility for 12,000 
people, but most of it had been destroyed during the previous 
months of war. It had been destroyed both by attacks but also 
by a significant amount of looting by the Iraqi citizens after 
the fall of Baghdad. Much of the facilities, as detention 
facilities, were not usable.
    What is shown in the lower left, as you are looking at the 
picture, is the tent area where the detainees were housed. This 
plays a role in the way operations took place because during 
the summer period, it was hot and most of that tentage had the 
sides rolled up, so one could see what was occurring inside it. 
There are very few reports of any abuse or any other irregular 
activities that took place during that time.
    However, it was under mortar attack, and so people were 
vulnerable to those attacks living in those tents. A decision 
was made to rebuild and use the hard sites, 1A and 1B. Those 
facilities provided protection and also where the military 
intelligence high-value detainees were to be held and 
interrogations were to be held. It is in these hard-site 
facilities, which were not visible from the outside and for 
which no cameras were present inside to observe, that the 
majority of the abuses take place. So that has a bearing 
clearly on the facilities that were used and what happened.
    If I could talk about the next point. The expectation, when 
Lieutenant General Sanchez was given command of CJTF-7, was 
that we were in a transition period. Specifically, the orders 
called for moving from a period of hostilities, which were 
declared ended in May, to a period of stability and support in 
phase 4 when he took command. General Sanchez entered the 
theater as a division commander, a Major General, and commanded 
the 1st Armored Division, and in June he was promoted to 
Lieutenant General and given command of the U.S. 5th Corps, the 
corps which had conducted the attack into Baghdad. The corps 
then was quickly converted to a Combined Joint Task Force, 
CJTF-7. In the process, as noted in our report, the manning 
documents took until December to be finally approved for the 
Combined Joint Task Force as opposed to the U.S. Army's 5th 
Corps. During this period, we found that the resources of the 
personnel in the brigade were about 40 percent of the final 
agreed-to strength, which was not made available at the time 
and was not agreed upon until December 2003.
    There was also an expectation, in stability and support 
operations, that the number of detainees would decrease, not 
increase. Our chart here points out to you that during this 
period of transition, that is not what occurred. In fact, the 
number of detainees increased over the entire period, and shown 
in the dark purple at Abu Ghraib they increased consistently 
during that period, even after they decreased throughout the 
country as we collapsed detention facilities and eliminated 
some of them, so that those personnel were brought into Abu 
Ghraib.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    In addition, increased hostilities were taking place during 
this period and so the number of operations, which were 
conducted both to collect intelligence and to provide security 
for our forces, so that the mission of reconstructing Iraq 
could go on, resulted in increased numbers of detainees. So 
those numbers continued to increase during the entire period of 
this transition.
    The mission that General Sanchez received with his task 
force to conduct stability and support operations and to 
support Ambassador Bremer in the reconstruction of Iraq found 
that, in fact, he was being attacked during that entire period. 
This addresses one of the issues which you raised about the 
pressure from General Sanchez to collect intelligence. He saw 
his forces and the Iraqi citizens being attacked. As a division 
commander, he was using information which we call order-of-
battle, which defined what the enemy looked like, how their 
organizations were put together, their personalities, and the 
types of equipment that they used. He now found himself being 
attacked with a faceless enemy and it was his job to define 
that enemy. So collection of intelligence became a critical 
part of that effort.
    In order to accomplish that during this period, he asked 
for additional help and assessments be brought in by Major 
General Miller, who was running the detention facilities at 
that time at Guantanamo and by Brigadier General Fast, who came 
and did an intelligence assessment of how intelligence fusion 
was to take place. Brigadier General Fast was assigned to the 
command as the chief intelligence officer, all with the purpose 
of fusing intelligence and creating the intelligence picture of 
who was conducting the attacks and how General Sanchez could 
prevent further attacks against U.S. forces and Iraqi forces. 
That is the background and the environment that General Sanchez 
found himself in, as the operations continued during this 
period.
    If I go specifically to Abu Ghraib, one of the issues that 
we point out is that while the number of detainees, again shown 
in the dark purple, was increasing, the number of military 
intelligence holds, shown in the lighter blue, also was 
increasing during that entire period to over 1,000, but the 
delta is also somewhat misleading because a number of those 
detainees arrived at Abu Ghraib without proper documentation so 
that the interrogators had to do some sorting to define who was 
of military intelligence value and who was not. So, the 
interrogations required much more of a focus than just military 
intelligence high-value targets; it included a much larger 
number of personnel.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    The number of people assigned to do that interrogation at 
the joint interrogation center, shown in green, was at a low of 
about 14 when they got started and today numbers over 160, but 
they clearly did not achieve those numbers during the period of 
this investigation, and that has a bearing on the number of 
people he had to conduct those investigations.
    Senator Levin, you pointed out a number of the figures 
which we reported and I would like to summarize these very 
quickly as to what we did find. It is clear that this was not 
just an aberration by the military police, that the military 
intelligence personnel were involved. But it went beyond that 
as well, as we will point out to you. We show that abuse, which 
we define very specifically as a violation of international law 
under the Geneva Conventions, did take place by military 
intelligence personnel. Numbers get confusing, so I will try to 
clarify then.
    We report 44 cases of abuse, separate incidents of abuse. 
What I am reporting to you on these charts are the people, the 
individuals whom we found.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Some of them were involved in more than one incident, and 
so those two numbers do not correlate; the number of incidents 
versus the people which we are showing here. But we found that 
23 military intelligence personnel were guilty of abuse, and 
this ranged from relatively simple things because they did not 
understand, such as interrogating somebody who was naked, which 
is defined as an abuse of humility in the interpretations of 
the Geneva Conventions, to very severe abuses such as we 
reported to you with dogs, which we did find, misinterpreted, 
and used as part of the interrogation process. We found, of 
those 44 sets of abuses, that 13 of them involved 
interrogation, and so those are the personnel that we are 
reporting to you who fall into both of those categories.
    In addition, we found four contractors guilty of abuse. 
Contractors were used as linguists, as interrogators, and as 
analysts. The contractors are being reported to the Department 
of Justice (DOJ) for further recommendations as to how they are 
to be handled since they do not fall under the Uniform Code of 
Military Justice (UCMJ). How we handle contracts is an issue 
which we all need to resolve in the future to ensure that we 
all abide by the same standards and it is very clear within our 
contracts what the rules are.
    In addition, we found that there was a failure to report by 
both military intelligence personnel and contractors. We felt 
that this was significant. It was very clear in our doctrine 
and our training that people are to report violations of 
international law and the Geneva Conventions. These were 
failures of leadership and failures of individuals who walked 
by abuses and did not report them. In a civilian context, in 
our view, this would be like a policeman walking past a crime 
scene and not reporting it or doing something.
    Chairman Warner. Do you have a breakdown of rank in the 23 
officers, enlisted and likewise, in the failure to report?
    General Kern. We have that in our report, Senator. I do not 
have it at the tip of my fingers.
    Chairman Warner. It is a mix.
    General Kern. It is a mix.
    In addition, for non-military intelligence personnel, 
military police, as was reported previously by Major General 
Taguba, there are seven who were previously charged. Those are 
the court cases which you see that are being followed today. In 
addition, we found three more and we also found one more 
military police failure to report.
    We also found that there were medical personnel who failed 
to report abuses even though they could clearly see what had 
happened.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    I would like to summarize our findings in these points.
    [The chart referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    First, there is no single cause. There are multiple causes 
of the abuses that took place at Abu Ghraib.
    Second, as you pointed out, Senator, the primary cause of 
detainee abuse was individual misconduct, but also very 
disappointing to us is there was a failure of leadership and a 
failure of discipline, both hallmarks of our soldiers that we 
expect to be followed. In these cases, we found that there were 
failures in the entire chain of command and in many cases a 
lack of a chain of command to oversee the operations that took 
place. What should have been reported by noncommissioned 
officers and officers was not.
    I really would like to emphasize this point, the vast 
majority of our soldiers are doing the right thing and are 
following the right standards. We are reporting to you on those 
that did not. We are taking action to ensure that those 
corrections are in place, and I will tell you today that if you 
visited Abu Ghraib, if you visited with our soldiers, you would 
see a very different picture. The 7,000 is now fewer than 
2,400. The number of boards takes place on a regular basis to 
review the detainees and to ensure their release is 
appropriate. 1A and 1B now belong entirely to the Iraqi 
government, and so when a determination is made that a detainee 
is no longer to be held in U.S. custody, if they violated an 
Iraqi law, they are turned over to the Iraqi government for 
detention and further disposition in their court system. Others 
are returned to their hometowns, but not just let out the front 
gate and said go home. They make a strong effort today to go to 
the town, bring in the community, to talk to the religious 
leaders, the imams, to talk to the community leaders to ensure 
that they welcome these people back and know that they have 
been cleared even if they had been brought into a U.S. 
detention facility. So we are working both for the quality-of-
life for these people and the cultural issues as they are 
returned to their towns from which they were originally 
captured.
    The soldiers there, are being screened through a 
certification process to know that they clearly understand the 
rules of interrogation and detention. The medical personnel are 
providing medical care today in those facilities far better 
than most of those people have seen in their entire lives. So 
all of those previous problems which were reported are greatly 
improved today, and I would report that it is also underway 
that we will close out this facility for U.S. operations in the 
future.
    Finally, ghost detainees. This is perhaps one of the more 
troubling pieces of our investigation. We did find, in fact, 
that there were detainees brought into Abu Ghraib who were not 
registered in accordance with our regulations and policy. These 
personnel in some cases, eight that we could identify, were 
done under an article 143 exception which says for military 
security purposes, you do not have to register them 
immediately. That is part of the Geneva Conventions. It is 
allowed. But we also found many reports, which we cannot 
document for you because the documentation does not exist, of 
people who were brought into the facilities and who were moved 
so that they could not be identified by the ICRC. This is in 
violation of our policy which requires us to register people so 
that it can be reported that they are being held in detention.
    We have taken those actions and, as required by the 
instructions that we have given, asked two organizations to do 
further investigations, the DOD Inspector General and the CIA 
Inspector General. Both have agreed that they will take on that 
task of investigating this ghost detainee policy. The CIA has 
provided us a document that says their current policy is to 
abide by our regulations and policies if they bring a detainee 
to our facilities. But that policy was apparently, from what we 
can find, either not in effect or not known at the time that 
the violations that we believe happened are being reported. 
That is what we are asking for further investigation to go 
into.
    Chairman Warner. What is the volume of cases?
    General Kern. I cannot give you a precise volume, Mr. 
Chairman, because there is no documentation of the numbers, but 
we believe, and I would ask General Fay to perhaps add to this, 
that the number is in the dozens perhaps up to 100. I cannot 
give you a precise number.
    General Fay. Yes, that is accurate, sir. We were not able 
to get documentation from the Central Intelligence Agency to 
answer those types of questions, so we really do not know the 
volume, but I believe it is probably in the dozens.
    Senator Levin. Up to 100?
    General Fay. I doubt that it is that high, sir, but I think 
it is somewhere in the area of maybe 2 dozen or so, maybe more.
    General Kern. It is a very difficult question for us to 
answer, Mr. Chairman, because we do not have the documentation. 
What you see in our report is during the interviews of people 
reporting to us what happened without documentation.
    That is a summary of what we found and the causes of it: 
failures of leadership, failures of our own discipline when we 
expect people without leadership to do the right thing, 
failures to follow our own policy, doctrine, and regulations 
which allowed these to take place, confusion because other 
policies which were designed for other theaters, Guantanamo, 
Afghanistan, found their way into documentation that we found 
in Abu Ghraib which led to numerous iterations of how 
interrogations and the limits of authority were to be 
conducted. Those policies were being debated while we were 
asking soldiers to conduct interrogations, and so they were 
seeking to find their limits of authority. At the same time, as 
reported, they were receiving pressure to produce intelligence. 
The purpose of interrogations clearly is to produce 
intelligence, and so that is a natural state of affairs. What 
was not occurring, though, was the leadership to stand in, in 
between the interrogators and those who were trying to 
determine the intelligence, to relieve the pressure on the 
interrogators. This is again a failure in the leadership and 
the chain of command to do the right thing. We have found and 
it is reported in here, that it is not just enlisted soldiers. 
There are commissioned officers through the grade of colonel 
whom we believe are culpable and through the grade of general 
officer whom we believe are responsible for these allegations 
and for the actions that took place.
    Mr. Chairman, that summarizes our findings for you and we 
are ready for your questions.
    [The prepared statement of General Kern follows:]
                Prepared Statement by GEN Paul Kern, USA
    Mr. Chairman, Senator Levin, and members of the committee, on 
behalf of Lieutenant General Jones, Major General Fay, and Major 
General Taguba, I appreciate the opportunity to appear before you today 
and report to you the findings of our investigations concerning the 
events surrounding the allegations of detainee abuse at Abu Ghraib.
    I am General Paul Kern, the Commander of the United States Army 
Materiel Command at Fort Belvoir, Virginia. On June 16 of this year, 
acting at the direction of the Secretary of the Defense, the acting 
Secretary of the Army designated me as the new appointing authority for 
the investigation that Lieutenant General Sanchez began back on March 
31, 2004. This investigation, or ``Procedure 15'' specific purpose was 
to look into the alleged misconduct by certain personnel assigned or 
attached to the 205th Military Intelligence Brigade at Abu Ghraib 
Detention Facility. As you know from prior hearings, Major General 
Taguba's investigation focused on the 800th Military Police Brigade. I 
have spent 41 years wearing an Army uniform, and was taught to live by 
standards--duty, honor, country, the Code of Conduct, the Army values, 
the Soldiers' Creed.
    Over the years of my career, I have been led by and inspired by 
incredibly talented and dedicated individuals--soldiers like SPC 
Patrick Miller, an Ordnance Soldier who fought bravely and courageously 
until he was captured in An Nasiriya--to senior officers such as 
Generals McArthur and Patton. These people, and thousands like them, 
dedicate their lives to their country quietly, with honor.
    Our report, however, discusses the failure of a relatively small 
number of soldiers who served at Abu Ghraib prison. The teams conducted 
an investigation that focused on the 205th Military Intelligence 
Brigade and its chain of command; however, we went where the facts led 
us. Our final report from this investigation is complete. In the course 
of this investigation, we discovered serious misconduct and a loss of 
moral values. We set our course to find truth, not to ``whitewash'' nor 
to convict those who are not incriminated. We found the pictures you 
have seen were not the result of any doctrine, training or policy, but 
violations of law.
    We learned there were leaders in Abu Ghraib who knew about this 
misconduct--knew better and did nothing. Some soldiers behaved 
improperly because they were confused by their experiences and 
direction. We violated our own regulations by allowing ``ghost 
detainees'' in detention facilities.
    All this was happening as thousands of soldiers, sailors, airmen, 
marines, civilians, and contractors fought bravely to restore an 
elected government in Iraq and Afghanistan. We are very proud of their 
service, commitment, courage, and values. They and their families can 
stand tall and proud. I regret, however, that we must report on those 
who failed.
    Our investigation team brings a depth of knowledge and experience 
necessary to the task of investigating the activities regarding alleged 
detainee abuse at Abu Ghraib.
    Lieutenant General Jones has over 34 years military service, 
commanding at all levels up through major general. He is currently the 
deputy commander of one of our Army major commands. He has served in 
the operational Army, both conventional and special operations, leading 
soldiers in war, contingency operations, and in peace. He is a great 
trainer, and was the commander of Fort Rucker, AL, where he was charged 
with initial military training, doctrine, leader development and 
creating the vision for the future. He has served in assignments 
overseas including duties in Europe, Korea, Bosnia, and Southwest Asia. 
His experience also includes being the chief of staff for the 24th 
Infantry Division and the U.S. Army Europe. His depth and breadth of 
operational assignments, experience at the tactical through strategic 
levels, and knowledge of training and doctrine have been invaluable to 
the scope of our investigation. He is a soldier's soldier who knows 
what is right.
    Major General Fay served on active duty for 4 years, followed by 27 
years in the Army Reserve. He was mobilized immediately after September 
11 and has been on active duty for almost 2\1/2\ years since then. The 
vast majority of both his active and Reserve experience has been in 
Military Intelligence. In civilian life, Major General Fay is a 
managing director of a major global property/casualty insurance 
company. He has nearly 30 years' experience investigating and 
overseeing complex claims and litigation.
    The investigative teams conducted a comprehensive review of all 
available background documents and statements pertaining to Abu Ghraib 
from a wide variety of sources. These sources included the reports 
written by MG Geoffrey Miller, MG Donald Ryder, MG Antonio Taguba, and 
the Department of Army Inspector General. Lieutenant General Jones did 
extensive review of previous reports, operations plans, policy 
memorandums, and sworn statements collected by the Major General Fay 
team. He also personnally interviewed LTG Richardo Sanchez and MG 
Barbara Fast, the CJTF-7 Senior Intelligence Staff Officer. Major 
General Fay's team conducted over 170 interviews concerning the 
interviewees' knowledge of interrogation and detention operations at 
Abu Ghraib and/or their knowledge of and involvement in detainee abuse. 
Major General Fay's interviews included interviews with Major General 
Fast, MG Walter Wojdakowski, MG Geoffrey Miller, MG Thomas Miller, and 
BG Janis Karpinski. Over 9,000 documents were collected, catalogued, 
and archived into a database. My review team consisted of 12 people, 
including general officers, subject matter experts and legal advisors. 
The investigative teams traveled to Iraq eight times, including a visit 
by the appointing authority and investigating officers in early August 
2004.
    The events at Abu Ghraib cannot be understood in a vacuum. Three 
interrelated aspects of the operational environment played important 
roles in the abuses that occurred at Abu Ghraib. First, from the time V 
Corps transitioned to become Combined Joint Task Force-7 (CJTF-7), and 
throughout the period under investigation, it was not resourced 
adequately to accomplish the missions of the Combined Joint Task Force. 
Those missions were stability and support operations (SASO) and support 
to the Coalition Provisional Authority (CPA). The CJTF-7 headquarters 
lacked adequate personnel and equipment. In addition, the military 
police and military intelligence units at Abu Ghraib were severely 
under-resourced. Second, providing support to the CPA required greater 
resources than envisioned in operational plans. Third, operational 
plans envisioned that CJTF-7 would execute SASO and provide support to 
the CPA in a relatively nonhostile environment. In fact, opposition was 
robust and hostilities continued throughout the period under 
investigation. Therefore, CJTF-7 had to conduct tactical 
counterinsurgency operations, while also executing its planned 
missions. That is the operational context in which the abuses at Abu 
Ghraib took place.
                                 abuses
    We found that abuses--on the part of military intelligence and 
military police personnel--clearly occurred at the prison at Abu 
Ghraib. For purposes of this report, abuse is defined as treatment of 
detainees that violated U.S. criminal law or international law or 
treatment that was inhumane or coercive without lawful justification. 
Whether the soldier or contractor knew, at the time of the acts, that 
the conduct violated any law or standard, is not an element of the 
definition.
    There is no single, simple explanation for why this abuse at Abu 
Ghraib happened. The primary causes are misconduct (ranging from 
inhumane to sadistic) by a relatively small group of soldiers and 
civilians, a lack of discipline on the part of the leaders and soldiers 
of the 205th MI BDE and a failure or lack of leadership by multiple 
echelons within CJTF-7. Contributing factors can be traced to issues 
affecting command and control, doctrine, training, and the experience 
of the soldiers we asked to perform this vital mission.
    The abuses at Abu Ghraib primarily fall into two categories: a) 
intentionally violent or sexual abuse and, b) abusive actions taken 
based on misinterpretations or confusion regarding law or policy.
    Lieutenant General Jones found that while senior level officers did 
not commit the abuses at Abu Ghraib, they did bear responsibility for 
lack of oversight of the facility, failing to respond in a timely 
manner to the indications and warnings provided by reports of incidents 
within the command and as reported by agencies such as reports from the 
International Committee of the Red Cross (ICRC), and for issuing policy 
memos that failed to provide clear, consistent guidance for execution 
at the tactical level.
    Major General Fay found that from 25 July 2003 to 6 February 2004, 
27 205th MI BDE Personnel allegedly requested, encouraged, condoned, or 
solicited Military Police (MP) personnel to abuse detainees and/or 
participated in detainee abuse and/or violated established 
interrogation procedures and applicable laws and regulations during 
interrogation operations at Abu Ghraib.
    Most, though not all, of the violent or sexual abuses occurred 
separately from scheduled interrogations and did not focus on persons 
held for intelligence purposes. No policy, directive or doctrine 
directly or indirectly caused violent or sexual abuse. In these cases, 
soldiers knew they were violating the approved techniques and 
procedures.
    Confusion about what interrogation techniques were authorized 
resulted from the proliferation of guidance and information from other 
theaters of operation; individual interrogator experiences in other 
theaters; and, the failure to distinguish between interrogation 
operations in other theaters and Iraq. This confusion contributed to 
the occurrence of some of the nonviolent and nonsexual abuses but did 
not contribute to the abuse that you have seen in the photographs.
    Alleged incidents of abuse by military personnel have been referred 
to the CID for criminal investigation and the chain of command for 
disciplinary action. Alleged incidents of abuse by civilian contractors 
have been referred through the Department of Defense (DOD) to the 
Department of Justice (DOJ).
                       discipline and leadership
    Military Intelligence and Military Police units had missions 
throughout the Iraqi Theater of Operations (ITO); however, 205th MI 
Brigade and 800th Military Police Brigade leaders at Abu Ghraib failed 
to execute their assigned responsibilities. The leaders from units 
located at Abu Ghraib or with supervision over soldiers and units at 
Abu Ghraib, failed to supervise subordinates or provide direct 
oversight of this important mission. These leaders failed to properly 
discipline their soldiers. These leaders failed to learn from prior 
mistakes and failed to provide continued mission-specific training. The 
205th MI Brigade commander did not assign a specific subordinate unit 
to be responsible for interrogations at Abu Ghraib and did not ensure 
that a Military Intelligence chain of command at Abu Ghraib was 
established. The absence of effective leadership was a factor in not 
sooner discovering and taking actions to prevent both the violent/
sexual abuse incidents and the misinterpretation/confusion incidents.
    Neither Department of Defense nor Army doctrine caused any abuses. 
Abuses would not have occurred had doctrine been followed and mission 
training conducted. Nonetheless, certain facets of interrogation and 
detention operations doctrine need to be updated, refined or expanded, 
including, the concept, organization, and operations of a Joint 
Interrogation and Debriefing Center (JIDC); guidance for interrogation 
techniques at both tactical and strategic levels; the roles, 
responsibilities and relationships between Military Police and Military 
Intelligence personnel at detention facilities; and, the establishment 
and organization of a Joint Task Force structure and, in particular, 
its intelligence architecture.
                       other contributing factors
    Demands on the Human Intelligence (HUMINT) capabilities in a 
counterinsurgency and in the future joint operational environment will 
continue to tax tactical and strategic assets. The Army needs trained 
and experienced tactical HUMINT personnel.
    Working alongside non-DOD organizations/agencies in detention 
facilities proved complex and demanding. The perception that non-DOD 
agencies had different rules regarding interrogation and detention 
operations was evident. Interrogation and detention policies and limits 
of authority should apply equally to all agencies in the Iraqi Theater 
of Operations.
                          ``ghost detainees''
    My investigation resulted in specific findings regarding the issue 
of ``ghost detainees'' within Abu Ghraib. It is clear that the 
interrogation practices of other government agencies led to a loss of 
accountability at Abu Ghraib. DOD must document and enforce adherence 
by other government agencies with established DOD practices and 
procedures while conducting detainee interrogation operations at DOD 
facilities. This matter requires further investigation and, in 
accordance with the provisions of AR 381-10, Part 15, is being referred 
to the DOD Inspector General, as the DOD liaison with other government 
agencies for appropriate investigation and evaluation.
    Soldiers/sailors/airmen/marines should never be put in a position 
that potentially puts them at risk for non-compliance with the Geneva 
Conventions or Laws of Land Warfare.
                               conclusion
    Leaders and soldiers throughout Operation Iraqi Freedom were 
confronted with a complex and dangerous operational environment. 
Although a clear breakdown in discipline and leadership, the events at 
Abu Ghraib should not blind us from the noble conduct of the vast 
majority of our soldiers. We are a values based profession in which the 
clear majority of our soldiers and leaders take great pride.
    A clear vote of confidence should be extended to the leaders and 
soldiers who continue to perform extraordinarily in supporting our 
Nation's wartime mission. Many of our soldiers have paid the ultimate 
sacrifice to preserve the freedoms and liberties that America and our 
Army represent throughout the world. The events of this report stand in 
stark contrast to the values and honor of all these Americans. With 
that, we look forward to answering your questions.

    Chairman Warner. Did you specify in your report the names 
of those individuals?
    General Kern. Sir, we did.
    Chairman Warner. Thank you.
    General Kern. They have all been referred to their chain of 
command for proper disposition.
    Chairman Warner. General Jones, do you have anything that 
you would like to say?
    General Jones. No, sir.
    Chairman Warner. Would any other member of the panel like 
to have the option to have an opening statement?
    General Whitcomb: No, sir.
    General Fay. No, sir.
    Chairman Warner. If not, we will proceed to the questions 
then. Thank you very much.
    First, General Kern, I have had the privilege of knowing 
you for a very long time and I commend you and your colleagues 
for a very professional job.
    Do you have a personal opinion, and we have always said 
when you achieve the rank of four stars you have the privilege 
of expressing your personal opinion when you come before this 
committee, as to whether or not there remains to be other areas 
in this overall investigation that have to be pursued?
    General Kern. As we have stated in our report, clearly the 
issue of the ghost detainees, which pertains to the question 
that was asked by Senator Levin, how did these other documents 
find their way into it, were there other sets of rules for 
other agencies, needs to be further investigated.
    I believe that part of the answer, personally, is that we 
are in the information age and the information that we found on 
computers that were located in the prison virtually came from 
everywhere. So the worldwide web works, and information which 
was being debated back here in the United States found its way 
into the hard drives of the computers that we found in the 
prison. So that is part of today's world that we have to learn 
how to deal with, in this flow of information.
    My personal view is that we ought not to make a soldier and 
in this case also contractors, a determination of what their 
limits of authority are while the debates are going on. We need 
to be crisp and clear in our delivery of orders to these people 
so that they know what the rules are.
    Chairman Warner. Have you reached any conclusions about the 
current viability of the system to collect intelligence 
desperately needed at the tactical level? Has that collection 
procedure been degraded in any way by the seriousness of this 
problem and consequently the reluctance of others maybe to go 
to the limit of regulations for fear of reprisal as they 
conduct their ongoing operations of intelligence?
    General Kern. Mr. Chairman, I think the answer is in two 
parts. First, the intelligence fusion today is significantly 
better than it was in June when the CJTF-7 was established. 
That is a result of work that was done by General Fast in 
bringing in these collection efforts and integrating both the 
intelligence efforts of the outside agencies, outside of the 
DOD, with our efforts, providing the information and 
interrogations so that those informations are cross referenced 
against other interrogations which are ongoing. The inclusion 
of the BAT system, a biometric system, of identifying 
individuals so that we can identify specifically who the person 
is and make sure that it could be cross referenced against FBI 
files or any other system. So, the intelligence collection/
infusion process is considerably better today than it was early 
on in the process by the work of the folks who are in this 
theater.
    But I would also report to you that we have very serious 
concerns that there are going to be people who are holding back 
because of all of the allegations currently underway. I cannot 
document for you the fact that that is happening, but that is a 
clear concern that we need this intelligence right now, to make 
sure that we can prosecute military operations to their fullest 
capability and that is a concern.
    Chairman Warner. Then that would shift, General Fay, to 
your position, together with the chief of intelligence in the 
United States Army. Are you addressing that issue now?
    General Fay. Yes, sir, indeed, we are. In fact, we did see 
a significant drop-off in intelligence reports that resulted 
from interrogations in Iraq when all of these things started to 
come to light. We believe we have effectively addressed that 
already. The numbers have risen back up to approximately the 
same number they were before these abuses came to light, and I 
think we are doing a very effective job of educating soldiers 
with the tools they have. Those approved techniques within the 
Field Manual (FM) can be used very effectively without 
resorting to other harsher techniques and still obtain the 
intelligence that we need.
    Chairman Warner. Have you promulgated instructions along 
the line to the current MI folks down in the trenches?
    General Fay. There has been a significant amount of ongoing 
retraining and refocusing and a lot of instructive material 
being provided and teams being provided to update and bring 
them back up the soldiers. As General Kern said, there is a 
recertification process that is currently going on in all of 
our facilities to make sure that every single one of the 
soldiers and contractors, that are doing the interrogations 
today, are certified before they are allowed to go into the 
interrogation booth.
    Chairman Warner. General Whitcomb, you are the user. How do 
you feel about the current situation?
    General Whitcomb. Mr. Chairman, that soldiers, initially I 
would agree primarily, at the point of capture, were a little 
more reticent to try to get into any information intelligence 
gathering. As General Kern and General Fay both pointed out, 
the current system has been vastly improved upon. I do not see 
reluctance on the part of interrogators, at this point, to 
conduct interrogations. The quality of intelligence that is 
being provided, perhaps because we have better focused what we 
are asking for, has resulted in better intelligence and more 
usable information for our folks.
    Chairman Warner. The checks and balances are in place such 
that, in your professional judgment, this type of situation 
would not happen again?
    General Whitcomb. Absolutely, Chairman.
    Chairman Warner. Lastly, to General Taguba, General, for a 
while you were a lone voice, and I think the extraordinary 
professionalism, conviction, and determination that you 
manifested gave an inspiration to those who followed. Again, I 
commend you for your job.
    But I would ask, it has been over 5 months since you 
completed your report and forwarded your recommendations for 
action, including to conduct an investigation of the 205th MI 
Brigade. In the intervening months, several more investigations 
have been completed. What was your recommendation concerning 
General Karpinski and what action was subsequently taken by the 
chain of command and did it meet your satisfaction?
    General Taguba. Sir, first of all, thank you for your kind 
comments.
    With regard to your question, the recommendation that we 
provided to our chain of command, in this case to the 
appointing authority and General McKiernan, was to relieve her 
for cause, sir, and other administrative actions. As far as I 
know, she is still under suspension from command, and I was 
informed that there were subsequent other investigations that 
are being meted out with regard to her status.
    Chairman Warner. Your judgment with regard to Colonel 
Pappas?
    General Taguba. Sir, the same. We stood by our 
recommendation. But that was all predicated on the 
recommendation that we made to Generals McKiernan and Sanchez 
at the time that based on the credible information that we 
received that a Procedure 15 be initiated. Subsequently, of 
course, their findings would provide other recommendations in 
regards to his actions.
    Chairman Warner. Thank you very much. My time is up.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. Let me add my 
thanks for the testimony. It was very helpful.
    Has there been a direct request to the CIA for the 
information which so far has not been forthcoming?
    General Kern. I will answer that in two parts. First, 
General Fay had made earlier requests for documentation. That 
has not been provided. Second, the CIA, both their Inspector 
General and their General Counsel, have met with myself and our 
committee and have agreed to pursue that investigation.
    Senator Levin. Mr. Chairman, that is totally unacceptable 
that the documents requested from the CIA have not been 
forthcoming either to General Kern and his colleagues or, in 
effect, to this committee and to the American people. I would 
urge that this committee weigh in on that issue.
    Chairman Warner. Yes. Both of us serve on that committee, 
and I have been in consultation with Chairman Roberts on that 
because in many ways we have dual jurisdiction. But we will 
continue to pursue that.
    Senator Levin. I think there should be a direct request 
here. This is totally unacceptable.
    General Jones, you have said that the military police and 
military intelligence units at Abu Ghraib were severely under-
resourced. I am wondering what was the cause of the failure to 
adequately resource both the Combined Joint Task Force and the 
units at Abu Ghraib, because in your report, you have talked 
about the severe under-resourcing at both?
    General Jones. I think it goes back to the genesis of the 
cessation of hostilities and movement into the next phase of 
the campaign and the lack of cessation of hostilities, which 
caused them to not only take on the new missions but continue 
to fight the war. In addition, the understaffing of Mr. 
Bremer's staff in the CPA caused General Sanchez to split his 
staff to successfully prosecute the insurgency fight, continue 
the operations to support the CPA, and execute all his 
missions.
    A joint manning document was slowly created. Initially they 
saw they needed additional staff. They needed intelligence 
personnel. They needed equipment. They also needed people to 
establish the joint interrogation and debriefing center. As the 
skills identified that they needed to execute their mission up 
through the CENTCOM came up to the Joint Staff, that process to 
either mobilize the right skills and/or to task the services 
for people was extremely slow.
    Senator Levin. Now, you also said that the operational 
plans envision that CJTF-7 would execute stability and support 
operations in a relatively non-hostile environment. In fact, 
opposition was robust and hostilities continued. Was that part 
of the problem?
    General Jones. Yes, sir, it was because they had to 
continue to prosecute the fight.
    Senator Levin. So, the failure to have adequate people 
there was based in part, was it then, on the fact that there 
was in the planning the belief that there would be a relatively 
non-hostile environment?
    General Jones. Yes, sir.
    Senator Levin. Who was responsible for that planning?
    General Jones. That plan originated early on because that 
was a phased campaign plan that came out of the CENTCOM. The 
phase 4, which they transitioned to create the CJTF-7 
headquarters, took 5th Corps and their staff of approximately 
495 people and transitioned the responsibilities to what was 
the combined forces land component commander to the CJTF-7. So 
the magnitude of task was in the plan originally, but it had 
not perceived that hostilities would continue.
    Senator Levin. Now, the Schlesinger panel suggests that 
CJTF-7 was reluctant to submit a request for forces for 
additional units because CENTCOM had refused to forward a 
previous request for additional personnel to the Joint Staff 
and that that, in turn, created an understanding among military 
commanders that requests for additional forces would not be 
favorably considered and that they were to make do with the 
forces that were currently available. Do you concur with the 
Schlesinger panel on that?
    General Kern. I would comment and then let General Jones.
    Two issues. First, the original phase 4 order called for 
return of forces, and so that was part of the direction given 
to the CJTF-7 at the time. I think General Abizaid quickly 
realized and put a stop to the return of forces when he took 
over as commander and recognized the need of a new headquarters 
to be established, which is the case today with General Casey 
in the theater. But that took, as described, a long time for 
that to happen.
    General Jones?
    General Jones. Sir, in the plan, one of the assumptions was 
that with the cessation of hostilities, we would have more 
support from our allies and other coalition forces, which would 
offset the need for additional forces.
    The second part of that, I would say the primary concern of 
General Sanchez and his staff was getting the operational 
intelligence architecture in place to try to find out who the 
insurgents were, what was their chain of command, and what was 
their support base. This was done to fuse the intelligence 
efforts with all the agencies in theater and to get more of an 
operational and strategic focus based on the missions they 
assumed.
    Senator Levin. In terms of my question, though, the 
Schlesinger report's suggestion, that there was an 
understanding among the commanders that request for additional 
forces would not be favorably considered, based upon a 
rejection of a previous request, and that they should make do 
with the forces that they had, do you concur with the 
Schlesinger panel?
    General Jones. Sir, I cannot comment on that because I did 
not see that.
    General Whitcomb. Sir, perhaps I could comment from a 
CENTCOM perspective. We worked very closely with CJTF-7, of 
course, on their manning requirements. I know of no request for 
forces that was submitted by any of our subordinate units that 
we did not take action with and work with the Joint Staff and 
the Services to resource.
    Senator Levin. There was not a request, but General, my 
question was, was there an understanding that requests would be 
favorably considered?
    General Whitcomb. Sir, I cannot comment on an understanding 
by anyone on the CJTF-7 staff that a request would not be 
favorably considered by CENTCOM. What I can address is that, 
from a CENTCOM perspective, every request for forces was 
actioned, and I know of no request for forces that we turned 
down.
    General Kern. Senator Levin, I think you see two things 
that happened here. First, the original order for phase 4 had 
return forces, and so you have an order that says, ``do not ask 
for more return forces.'' General Abizaid realized very quickly 
and stopped that. So he modified that period. So I think there 
was a period in which one could assume that that was what you 
were directed to do, but the reality very quickly set in that 
we were going to have to go the other direction and that 
happened.
    Senator Levin. My time is up. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you. I want to thank the witnesses.
    Mr. Chairman, I would like included in the record an 
article in this morning's Wall Street Journal by Jim 
Schlesinger that I think puts this situation that we are facing 
in a good perspective. The last paragraph of his article says: 
``Our panel's report recorded both errors of commission and of 
omission, but we found no indication of a policy encouraging 
abuse. The abuses that did occur and the failed oversight that 
allowed them are an embarrassment. They do not reflect the 
standards that America sets for itself. We must take the steps 
necessary to see that these standards are upheld in the future. 
These actions by historical standards are quite limited in 
number and not representative of the overall behavior of our 
forces which has been generally admirable.''
    Chairman Warner. Without objection.
    [The article of Dr. Schlesinger follows:]

      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator McCain. Thank you.
    General Kern or General Fay, the situation with the CIA and 
ghost soldiers is beginning to look like a bad movie. What 
happens when you ask the CIA? You get no answer? They say we do 
not have to answer? I mean, what is it? Is it dropping a stone 
down a well? What happens here in the interface?
    General Kern. Let me answer that in two parts, Senator. 
First, when General Fay asked, it was he who was not allowed to 
have the documentation which was requested.
    Senator McCain. They said he was not allowed to have it?
    General Kern. I will ask him to specifically comment on 
that. But that did change later when I was brought into this in 
June, and the Central Intelligence Agency, both their Inspector 
General and General Counsel met with me personally and said we 
will cooperate in the investigation, but they have not provided 
it.
    Senator McCain. Why does it require an investigation when 
you ask for documents?
    General Kern. I do not have a good answer for you, Senator.
    Senator McCain. I think you should say I am not satisfied 
with an investigation. I want the information.
    In addition to that, were their CIA operatives in there 
just moving around themselves? Did it not require the active 
participation of the MI people or other Army people?
    General Kern. I will let General Fay put some detail on 
this, but specifically we do report that there was verbal 
communications that said, ``cooperate with the agency.''
    Senator McCain. That came from?
    General Kern. That came from the Combined Joint Task Force 
intelligence headquarters.
    Senator McCain. Headed by?
    General Kern. General Fast and Colonel Bolts.
    Senator McCain. That said to cooperate with the CIA and 
carry out their instructions?
    General Kern. No. I believe from what we found there were 
two facts to this. One is intelligence comes from multiple 
sources and you have to bring it together to be effective. The 
agency, not just the CIA but other agencies as well, provide 
that information and that is part of the cooperation that was 
directed.
    Specifically, General Fast was asked, could the agency 
bring detainees to Abu Ghraib, and she said yes. Her 
expectations, though, were that the agency would abide by our 
rules in our facilities, not create another set.
    Senator McCain. But somehow that did not happen?
    General Kern. That is correct, Senator.
    Senator McCain. What do we know about that?
    General Kern. We know for a fact that there were people who 
were brought in who were not recorded.
    Senator McCain. We know that somehow the personnel manning 
the prison, the Army personnel, were told or believed that they 
should act under the instructions of the CIA to move prisoners 
around. I think General Fay said dozens so that they would not 
be made known to the ICRC.
    General Kern. That is clearly what we report, that the MI 
Brigade commander allowed that to happen within his facilities, 
and we have reported both he and the commander of the joint 
interrogation and debriefing center, should be held accountable 
for what their actions were.
    I would ask General Fay if he might want to comment.
    Senator McCain. Go ahead, General Fay.
    General Fay. Sir, if I can just get back to the original 
question, which was how the requests were made of the CIA. 
Originally when I was in Iraq, I made the request to CIA Chief 
of Station through General Fast. She received no response, and 
I followed up a number of times and still received no response.
    Then, when I came back to the United States and continued 
my investigation here, still getting no response from CIA after 
making additional inquiries, I eventually made an appointment 
with the Inspector General of the CIA. I met with the Inspector 
General and went over my requirements and why I needed the 
information, and at that point I was informed that CIA was 
doing its own investigation.
    Senator McCain. Investigation?
    General Fay. Yes, sir. They said they would not provide me 
the information that I requested.
    Senator McCain. How did you find that this happened that 
the Army personnel manning the prison carried out the 
instructions of the CIA? Were the CIA people physically there 
in the prison?
    General Fay. Yes, sir. They would come and bring their 
detainees to the prison and they would turn the detainees over 
to the folks at the prison, the military intelligence and 
military police personnel, in the hard site, in the 1A area. 
They would be detained there by Army personnel.
    Senator McCain. They would be moved around by Army 
personnel?
    General Fay. They would be moved around by Army personnel 
occasionally, sir, but it was not always being moved around. As 
an example, on the first ICRC visit that everyone is most 
familiar with, the one where they found the naked detainees, 
the CIA ghost detainees were in their cells at that point in 
time and on the cells were signs that said OGA 1, OGA 2, OGA 3. 
There was no attempt at that point to hide those detainees. We 
believe at other points in time, though, that some of those 
detainees may have been moved.
    Senator McCain. I think that this is something that needs 
to be asked, Mr. Chairman, of the incoming director of the CIA. 
This needs to be cleared up rather badly.
    Mr. Chairman, I have one quick question. General Fay, did 
Colonel Pappas retract his sworn testimony to General Taguba in 
his interview with you that he had approval by General Sanchez 
and General Miller to use dogs during interrogation with 
detainees?
    General Fay. Colonel Pappas believed that he had the 
authority to use dogs. He thought he had the authority.
    Senator McCain. I think he told General Taguba that he had 
authority, not that he believed it, but that he had authority. 
Is that not true, General Taguba?
    General Taguba. Yes, sir. He made that comment.
    General Fay. Yes.
    Senator McCain. There is a difference, believing and 
having.
    General Fay. Yes, sir. I believe that he thought that he 
had such authority. I do not believe he was given such 
authority. I know he was not given such authority by General 
Sanchez.
    I think there was a miscommunication between Colonel Pappas 
and General Miller as regards to the conversation with dogs. 
General Miller did have a conversation with Colonel Pappas, but 
he was suggesting the use of dogs for security purposes, just 
as they used them in Guantanamo Bay. They do not use dogs in 
Guantanamo Bay during the interrogation process and never did. 
I think it was miscommunicated on the part of Colonel Pappas 
and he misunderstood that conversation to interpret it to mean 
that he could use it in the interrogation booth.
    Senator McCain. Do you have a comment on that, General 
Taguba?
    General Taguba. Sir, with regards to his authority line, 
the interrogation rules of engagement did indicate that he had 
to make a request for the use of dogs. That was all in the 
discussions that was made prior to the publication of the 
interrogation rules of engagement. I think that was dated 
October 12.
    General Kern. I think, Senator, there are two additional 
points. First, there is a confusing memo that the CJTF-7 
published, where in their final memo it leaves in question the 
part about the dogs because it says that the dogs should be 
muzzled if they are there, and so it is left to the 
interpretation of where ``there'' is. It was clear, though, 
that they were not intended to be used in interrogation, though 
that is what Colonel Pappas believed he was allowed to do.
    The second point is that the dog teams actually did not 
show up until late November, and so most of the abuses had 
already taken place.
    General Fay. That lack of clarity and confusion in all of 
those memos and those directives that went back and forth is 
covered in detail in our report as to how that confusion 
occurred.
    Senator McCain. Thank you very much, Mr. Chairman. I thank 
the witnesses. I thank you for your outstanding service.
    Chairman Warner. Senator McCain, your comments with regard 
to the Committee of the Armed Services and its responsibility 
towards this ghost detainee issue are taken under advisement by 
Senator Levin and myself. We intend to probe and may well have 
our own independent hearing on this important subject.
    Before leaving it, though, one question. Did your report 
reflect observations of military personnel as to how CIA 
personnel conducted the interrogation of ghost detainees?
    General Fay. No. There were no Army personnel present 
during the interrogations that were being done by CIA.
    Chairman Warner. That would presume then, that the CIA 
secreted these people to another area where no MPs or MIs were 
able to observe. Is that correct?
    General Fay. I do not think they secreted them, sir. I 
believe they were given specific areas within the prison. 
Nobody was observing them, but they were given those areas for 
their interrogation by the military intelligence and military 
police personnel.
    Chairman Warner. Senator Kennedy.
    Senator Kennedy. Thank you. I join all of those on the 
committee and thank you for your an excellent presentation, 
General Kern, and thank those that are appearing here. You 
joined the Army to serve the country in the Army, and I am not 
sure that this particular task that you had was something that 
you envisioned, but it is enormously important. We thank you 
for the service to the United States Army, importantly to the 
country.
    On May 7, 2004, Secretary Rumsfeld testified before the 
committee about torture and other abuses at Abu Ghraib, and he 
testified before the House Armed Services Committee that same 
day. Several of his top aides testified in subsequent hearings. 
Secretary Rumsfeld told this committee that a ``small number'' 
of U.S. military perpetrated the abuses. In the House, he said 
a ``few members'' of the U.S. military were responsible. Then 
on May 24, President Bush said that the scandal involved 
disgraceful conduct of a ``few American troops.''
    It is now clear, however, that the responsibility for these 
abuses does not simply lie with a few bad apple soldiers. Your 
report, General Fay, identified 54 MI/MP medical soldiers and 
civilian contractors who had some degree of responsibility of 
complicity in the abuses that occurred at Abu Ghraib. That is 
in the Fay report, pages 7 and 8. You found that, ``leaders in 
key positions failed properly to supervise the interrogations 
at Abu Ghraib.'' That is on page 7. You identified, ``serious 
systemic problems that contributed to the volatile environment 
in which the abuse occurred.'' These systemic problems 
included, ``inadequate interrogation doctrine and training, an 
acute shortage of MP and MI soldiers, the lack of clear lines 
of responsibilities between MP and MI chains of command, the 
lack of clear interrogation policy for the Iraq campaign, an 
intense pressure felt by personnel on the ground to produce 
actionable intelligence from detainees.'' All of that on page 
8.
    Now, Secretary Rumsfeld also told this committee that the 
abuses were brought to light by Specialist Joseph Darby in 
January 2004 and that the military chain of command acted 
promptly on learning of those abuses. This claim too was false. 
Senior leaders had ample warning that these abuses were 
occurring long before January 2004. We have the Red Cross 
report that lists 13 of them prior to January and then 3 that 
came in January at the same time of the Darby reports.
    As General Jones found, indication and warnings had 
surfaced at the CJTF-7 level, General Sanchez's command, that 
additional oversight and corrective actions were needed in the 
handling of detainees, including at Abu Ghraib. That is in 
General Jones' report on page 12.
    The ICRC reported on abuses in the prisons as early as May 
2003 and during a visit to Abu Ghraib in October 2003, Red 
Cross inspectors were so upset about what they found, they 
broke off their visit and demanded an immediate explanation 
from our military authorities. Yet, the worst abuse at the 
prisons occurred during the next 3 months from October to 
December 2003.
    The repeated warnings of the Red Cross should have rung 
loud alarm bells. Instead of correcting the abuses, the 
military officials responded by trying to limit access by the 
Red Cross and by hiding prisoners from Red Cross inspectors, a 
clear violation of the Geneva Conventions.
    So, General Kern, based on the results of your 
investigation, is it not fair to conclude that Secretary 
Rumsfeld and his aides misled this committee and in turn misled 
the American people when they claimed that only a few low-level 
soldiers were responsible for the abuses and that the military 
leadership responded quickly and effectively to the abuses as 
soon as they were reported?
    I have been listening to the reports this morning. You are 
talking about the change as soon as we had the cessation of 
hostilities. That reminds me of President Bush being out on 
that aircraft carrier saying, ``mission accomplished,'' May 1. 
You are talking about the change, the cessation of hostilities. 
We expected more support from our allies, General Jones said at 
that time. This is a clear misrepresentation, a clear 
miscalculation of what was going to happen in Iraq at that 
particular time, and the Army is taking the brunt because of 
failed oversight and leadership in the civilian area. I believe 
that.
    When you say that there is a confusion of policies, the 
importation of policies from Guantanamo and Afghanistan into 
Iraq, these were policies that were brought in there at some 
time by who? Who is getting held accountable besides those 
members of the Armed Forces that were actually in those 
prisons? Who is getting held accountable for the failure of 
providing leadership at the top level? I think we have some 
responsibility of finding out that as well.
    That would be my only complaint about the excellent reports 
that you have given is that there is some civilian authority up 
on top and those are individuals that are not being held 
accountable and the service men and women that are down at the 
lower level of the line in the chain of command in the military 
have been left holding the bag, whether it is the shortage of 
troops over at Abu Ghraib, the shortage of having MPs over 
there, the shortage of training, the shortage of oversight, the 
miscalculation in terms of other allies coming in. When will 
the American people understand where true responsibility lies?
    General Kern. Senator, what we reported was a clear 
differentiation between those people who were culpable for the 
crimes, as we reviewed them, and those who were responsible. We 
do hold the chain of command responsible, and specifically we 
asked Lieutenant General Sanchez where he was getting a great 
deal of this pressure from, as has been previously reported. 
His answer to us was that he was generating that pressure. In 
looking back at both what General Fay had found earlier, in 
terms of this, and the circumstances that General Sanchez found 
himself in, it is clearly understandable that he would generate 
pressure to produce intelligence. He was being attacked. He 
owed that to his soldiers to protect them, and he demanded of 
his chain of command their response.
    The failure took place, in my view, in that there was no 
clear chain of command down to the interrogators, and so they 
were seeking this information. How do I respond to this 
pressure and at the same time do it within the limits of the 
authority that we have? So we found, as we reported, a number 
of documents going back and forth trying to clarify that. They 
never did clarify that to our satisfaction, and so you end up 
with a few people at the bottom without the clear direction 
that they needed.
    Unfortunately, the way we have laid this out in our 
structure, the military police have a clear chain of command 
and they understood that there was a battalion commander there 
responsible for the health and welfare and the operation and 
security of that detention facility. Did he do his job well? 
No, and that has been reported by General Taguba and others.
    Second, in the military intelligence, that did not exist. 
There is no clear distinction of how that chain of command 
goes. So the pressure went directly from Lieutenant General 
Sanchez, and his chain of command to the CENTCOM commander to 
the Secretary of Defense. So there is a clear chain that he has 
there, and the next person in the military intelligence is the 
interrogator.
    Now, in our view that is not right. It should be fixed. 
There should be clear accountability. Regardless of that, there 
are non-commissioned officers and there are officers who we 
expect to have exerted leadership and discipline, and they 
failed to do that.
    Senator Kennedy. Just to follow up, because my time is up, 
if General Sanchez felt this pressure because of increasing 
activity and threat to his troops and pressure because of Abu 
Ghraib, why in the world did he not ask for more troops and 
more support so we find that out who has responsibility?
    General Kern. His staff, through him was, as reported 
previously, asking for additional help, and that is why they 
brought in General Miller. That is why they brought in General 
Fast. The issue is, did it get there in time? I would let 
General Whitcomb comment.
    General Whitcomb. Senator, that is absolutely right. If I 
go back to the comments earlier on the June-July time frame, as 
we saw the mission evolving from a stability and security 
operation, we saw an increasing insurgency that General Abizaid 
identified in July, not fully there but certainly increasing 
from what we had expected, as we saw the increased support 
required from the CPA, all these things had CJTF-7 working with 
the CENTCOM staff on how could/would we man. What were the 
requirements? They were more than just requirements for people. 
As we well know, they were high demand/low density skill sets 
such as military police, such as military intelligence, such as 
planners to assist both the CJTF-7 staff and the CPA staff, do 
that necessary work.
    So this dialogue of working the joint manning document was 
one of an ongoing dialogue between General Sanchez's staff and 
the CENTCOM staff and the Joint Staff who was also a part of 
this process. The Joint Staff needed a finished document in 
order to go to the Services to man the force, but they were at 
least in the process and knew what was going to be coming up 
the pipe.
    The other piece of it, Senator, that complicates the matter 
is where do those folks come from, very reliant on individual 
augmentees? So to bring a soldier, sailor, airman, or marine on 
active duty and get them prepped to go in takes a period of 
time. So there is some lead time in this process to be able to 
get the required forces in.
    But the bottom line is this was an ongoing dialogue. We 
recognized from the CENTCOM level, in daily conversations with 
General Sanchez and his staff, that there was going to be a 
requirement for more troops, and that was part of what drove 
General Abizaid's decision to keep the 1st Armored Division and 
the 2nd Armored Calvary Regiment in theater to help the 
situation.
    Senator Kennedy. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. General Kern, I have to interject here a 
minute. You were brought in as a four star to make judgments 
with regard to four stars and below. General Sanchez, as a 
commander, had a degree of accountability down the line for his 
actions. Have you and your group found any deficiency in the 
fulfillment of his responsibility as a commander? Have you 
found professional failure on his part in discharging his 
duties, and how would you characterize it?
    General Kern. Mr. Chairman, I would characterize Lieutenant 
General Sanchez as a hero.
    Chairman Warner. As a what?
    General Kern. As a hero. He was given numerous tasks to 
accomplish both in supporting Ambassador Bremer and the CPA and 
rebuilding an Iraqi government; establishing those ties to the 
Iraqis at the same time that he was fighting this war against 
the growing insurgency. So we are focused on a specific set of 
circumstances here in which we found some shortcomings in his 
responsibility as a commander, but overall, one would have to 
step back and see what we asked him to do. I find that, 
overall, we asked him to do a great deal and he accomplished 
almost all of it.
    We found in particular in this case he published a number 
of documents that said to treat detainees humanely. We found 
that he, as a three-star commander, took his time to go down to 
Abu Ghraib on numerous occasions because they were being 
attacked and he was dissatisfied with the security at those 
operations, and he took action. He had some strong comments 
with General Karpinski. That has been reported previously by 
General Taguba. He then took an unusual action of taking the MI 
Brigade Commander and assigning him a task for security of the 
facility.
    So we find that while we hold him responsible for the 
things that did not get done, there were many things that he 
did do to try to improve intelligence, improve security, and 
treat people the right way. When he did find that things were 
reported to him, he immediately assigned General Taguba to do 
an investigation. When General Taguba came back and said it 
goes beyond this, he immediately assigned General Fay to do an 
investigation. When he found that it went beyond the levels 
that General Fay was asked to look at, he asked to be recused 
from that and bring somebody else in. So I think his actions 
are very honorable.
    Did he do it all right? No. Do we all do everything all 
right? I doubt it every day. But he was given a very difficult 
task. He accomplished the majority of what he was asked to do, 
but we did find shortcomings in this one specific case.
    Chairman Warner. Thank you, sir.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I have a little 
different view of this whole thing. I think everyone is aware 
of that. I would like just to review and maybe put something in 
perspective certainly the media has, I believe, intentionally 
not put in perspective.
    On April 28, the media broke a story about the abuses that 
were occurring in Abu Ghraib, in the prison in Iraq. Then 
pictures were released of American soldiers committing these 
acts of abuse and Iraqi detainees in the prison. Many people 
expressed outrage at this time, and the media particularly did. 
They were acting as if the Army had. They were demanding they 
take some action as if they had not already taken action. I 
think what few people realize is that long before April 28, the 
Army had been performing and performing well.
    Granted, having come from an Army background, maybe I am a 
little bit prejudiced, but I know how this works. I did serve 
in the military justice system as a court reporter many years 
ago.
    But let us just review quickly what did happen. Mr. 
Chairman, I will try to do this in the time allotted me.
    January 13, yes. Those things that people are so concerned 
about right now and have created such a media frenzy, first 
began on the report of Specialist Darby on January 13.
    On January 14, a day later, the Criminal Investigation 
Division (CID) conducts interviews. Now, that is starting the 
day after this is reported.
    On January 16, General Kimmit notifies reporters that an 
investigation had been opened to alleged abuse at the 
unspecified prison in Iraq. Now, that was the Army taking the 
initiative to go to the media and give them information as to 
what was going on.
    On January 17, Captain Reese was suspended. That is just 4 
days after all this happened. On the 17th, General Karpinski 
had a memorandum of admonition. I guess that is what I would 
have called a letter of reprimand when I was in the Army. I 
assume it is the same thing. That was on the 17th. Colonel 
Fillibaum was suspended the same day. This all happened 4 days 
after they first found out about the abuse that was taking 
place in Abu Ghraib.
    On January 19, General Sanchez requested that the CENTCOM 
appoint an investigative officer to investigate the conduct of 
the operations of the 800th Military Police, 6 days after the 
discovery of this.
    On January 24, the chief of staff directed that General 
McKiernan conduct an investigation of the 800th Military 
Police.
    The initial CID report on criminal abuses actually came out 
15 days after it first began.
    On February 6 and 7, General Taguba and his team conducted 
extensive training sessions. Now, let us keep in mind this is 3 
weeks after it is first discovered. Not only had the 
investigation started, not only had people already been 
punished, but they are already in a retraining program, all 
that happening in the first 3 weeks.
    On February 10, they began the Department of Army Inspector 
General assessment.
    Then, of course, on February 23, 17 U.S. soldiers were 
suspended.
    So 5 weeks after it is first discovered, not only was a 
letter of reprimand issued to General Karpinski, but a captain 
and a colonel were suspended and 17 soldiers were suspended. I 
cannot imagine how that could have happened that quickly. I 
have often said that if we, in the United States Senate, would 
act that quickly and that responsibly, we would have had our 
bills passed and would have already adjourned several months 
ago.
    On March 20, charges are lodged against six accused 
noncommissioned officers (NCO), and then another press 
conference on that day. Now, that is the second time General 
Kimmit has had a press conference, going to the media saying 
this is what is going on and we want everyone to know we have 
had a press conference.
    Then on April 15, the Fay investigation was initiated.
    Then on April 28, all of a sudden 60 Minutes comes out with 
this thing, as if something has been going on, nobody has been 
releasing to the press, and abuses are taking place, and the 
pictures then start circulating. It is this ``gotcha'' 
mentality that the media has at that time.
    Now, keep in mind since that time we have had nine 
hearings. We have had 14 investigations.
    I would like to put three things into perspective. One is 
that there are some 700 of our soldiers in Abu Ghraib, of which 
a very small number, and I know that you can debate this, but 
if you take out the MI Brigade personnel, which is primarily 
interrogation, that leaves the non-MI personnel at seven and 
they said they have newly identified some three. So let us say 
10. Let us say even 12. I can tell you right now, when I went 
up and looked at those pictures a second time, because I only 
could count seven different faces that were accountable for 
those abuses. But let us just say it is 10. That is 10 out of 
700 in that one prison. We have three other prisons, and I 
think that needs to be talked about. We need to make sure that 
the American people understand that even though a few soldiers 
did something that was wrong, that is a few out of a very large 
number; a very small percentage.
    Chairman Warner. You can take another minute.
    Senator Inhofe. Yes, I have to take a little more time. The 
previous Senator had 12 minutes. I will not take that long.
    Second, if you go back to the reign of terror of Saddam 
Hussein where they go in the prison, they would cut off their 
hands, they would cut out their tongues, they would do all 
these things, they had the rape rooms, the beheadings, all 
these things that were going on, yes, what we did was wrong. 
Those people have been punished. They have been reprimanded and 
the Army has acted quickly. But that is a perspective people 
need to understand. It is a reality.
    Third, since the beginning of the hostilities in 
Afghanistan, over 50,000 individuals have been apprehended by 
United States military personnel. Only 300 allegations of abuse 
took place, and there are 66 substantiated cases. That is 66 
cases out of 50,000, 1 out of 1,000 roughly. I think that when 
you realize in that short of period of time, Mr. Chairman, that 
we have had 45 court martials, numerous article 15s, numerous 
general officer letters of reprimand, administratively 
separated 13 soldiers from the Army, 120 of 225 cases closed, 4 
article 32s, I just want to say that I applaud you for the 
quick response for getting into this long before the media got 
involved in it, and I am very proud. I join Schlesinger when he 
complimented you folks, as well as the troops, as to what is 
going on over there and the fine work that you have done. So I 
am here this morning and I have waited through all this just to 
tell you that this ex-soldier is very proud of the leaders of 
today.
    Thank you, Mr. Chairman.
    Chairman Warner. I thank you, Senator. I tried in my 
opening comments to make very clear my own personal view that 
the DOD and most specifically the Department of Army has shown 
that it can fairly and pragmatically and thoroughly, I hope, 
investigate itself. So I thank the Senator for his views.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your effort, but more importantly for your 
service to the country. I have had the chance to know General 
Kern for several years and I respect and admire him greatly. 
Thank you.
    Let me go to page 17 of your report, General Jones. In your 
words, ``there is sufficient evidence to reasonably believe 
that personnel in the CJTF-7 staff, primarily in the Office of 
Staff Judge Advocate and the JC 2X, the intelligence staff, had 
knowledge of potential abuses and misconduct in violation of 
the Geneva Conventions at Abu Ghraib. This knowledge was not 
presented to the CJTF-7 leadership.'' I find that statement 
shocking.
    I will again go to page 69 of General Fay's report. ``The 
duty to report detainee abuse is closely tied to duty to 
protect. The failure to report an abusive incident could result 
in additional abuse. Soldiers who witness these offenses have 
an obligation to report the violations under the provisions of 
article 92, UCMJ. Soldiers who are informed of such abuses also 
have a duty to report violations. Depending on their position 
and their assigned duties, the failure to report detainee abuse 
could support a charge of dereliction of duty.''
    Who were these officers on the staff of CJTF-7 that had 
this knowledge and failed to communicate it to the commander?
    Let me emphasize something else. This is not just UCMJ. 
This goes to the values that you gentlemen live with all your 
life, the duty of a subordinate to inform their commander of 
all information, not just the good news, but the bad news. You 
have cited specifically a failure to do that.
    Who are these officers, General?
    General Kern. In our report, first we separated 
responsibility from culpability, as I stated earlier.
    Senator Reed. Excuse me, General. Under article 92 of the 
UCMJ, do they have a responsibility to report these abuses?
    General Kern. When they know, that is correct.
    We found that the ICRC report, which I have referenced, was 
reported through the staff judge advocate and staff and 
delivered to General Karpinski. It never made it past that 
point.
    General Wojdakowski, whom we cite in the report, is the 
deputy commanding general who was responsible for the brigades, 
which included both military intelligence and military police. 
That was not adequately addressed, and we cite that in our 
report.
    So, the personnel and the circumstances that you addressed 
are correct, and we have cited them in our report. I would ask 
General Jones to comment.
    General Jones. Yes, sir, you are exactly right. What I 
found, under what I considered indications and warnings that 
there was not specifically abuse but there was sufficient 
evidence out there that needed to be looked at and inform the 
chain of command on. Obviously, the legal counsel section in 
the CJTF staff saw the CID reports and the things they were 
working on. They get the reports up to the division's 
subordinate commands. They also got the ICRC report and worked 
that. So if you put that all together in a cumulative effect, 
they should advise the commander of the types and the magnitude 
of the trends that they may have seen and he should have been 
aware of it, and they did not do that.
    Senator Reed. They failed to do that.
    General Jones. Yes, sir.
    Senator Reed. How do you then conclude, General, that in 
light of all of the circumstances, the CJTF-7 staff did 
everything they could have reasonably been expected to do to 
successfully complete all their assigned missions? One of their 
assigned missions was to ensure that the Geneva Conventions and 
detention policy was appropriately used.
    General Jones. Sir, you are exactly right. What I concluded 
there was because the legal section itself, Colonel Warren was 
also split supporting the CPA.
    Senator Reed. Let me ask this specifically. Was Colonel 
Warren aware of this ICRC report, these potential abuses?
    General Jones. Yes, sir.
    Senator Reed. He did not inform General Sanchez?
    General Jones. He did not.
    Senator Reed. Was General Fast aware of these abuses?
    General Jones. She was not aware of it until it surfaced in 
late December, December 24.
    Senator Reed. Now, I find this again extraordinary. Here is 
the chief staff officer responsible for implementation of the 
Geneva Conventions, interpretation in a very complicated 
situation, receiving a report from the ICRC of serious alleged 
abuses, who does not communicate that to the commander. You 
find that is a functioning staff?
    General Jones. If you look at the system for the ICRC 
reports, they are handled in confidentiality.
    Senator Reed. Excuse me, sir.
    General Jones. Yes, sir.
    Senator Reed. That is confidentiality between the ICRC and 
the greater world. Here is a colonel, Judge Advocate General 
(JAG) officer, with a report of abuses and he does not 
communicate that to his commander?
    General Jones. He had reports from the ICRC.
    General Kern. Senator Reed, I think there are two issues.
    Chairman Warner. Senator, let him finish the answer. I will 
give you time.
    Senator Reed. Thank you.
    Chairman Warner. But I do not think General Jones had 
completed his answer. Had you completed your answer?
    General Jones. The other thing I would add is with regard 
to the human intelligence section within the intelligence 
staff. The reason I thought that they should believe it, based 
on my question with General Fast, they were involved with the 
detention facilities because they were outlining the priorities 
that were needed from the human intelligence collection, and 
they had a lot of interface with the interrogators not only at 
Abu Ghraib but with all the prisons. So they should have known 
something or heard some feedback, but they did not surface any 
reports of abuses.
    Chairman Warner. The ``they'' is two star General Fast and 
the colonel. Is that correct?
    General Jones. General Fast at the time was a one star, 
sir.
    Chairman Warner. This committee was rushed to put her to 
two star at some point. But I will take my time. I do not mean 
to detract from yours.
    But when you say ``they,'' you are talking about two 
officers, one General Fay and the other colonel. Is that 
correct?
    General Jones. What we are talking about is Colonel Warren 
who is the legal counsel in the staff judge advocate in the 
CJTF-7 staff and his people. The other is a sub-element, a 
subordinate element, in the C-2 which is the human resources 
intelligence (HUMINT) management cell, generally made up of 
majors and captains. That subordinate element, though, works 
directly with the collection effort and the human intelligence 
effort with the interrogators down at subordinate elements. 
Nothing surfaced out of them. But it appeared to me, in my 
findings, that their work at the interrogator level, down at 
the lowest level, should have surfaced abuses if they were 
known.
    General Kern. Could I add to Senator Reed's question?
    Senator Reed. If I could, I would like to introduce one 
other aspect.
    Chairman Warner. I will see that you get time to reply, 
General. Go ahead.
    Senator Reed. I apologize, but the time is very short. That 
is one of the frustrating aspects of this. The chairman has 
done a remarkable job getting us this far, but this is a report 
of many pages requiring intense questioning, and I apologize if 
I am a little bit more direct than I should be.
    Let me go to page 54 of the report. ``Local CIA officers 
convinced Colonel Pappas and Lieutenant Colonel Jordan that 
they should be allowed to operate outside the established local 
rules and procedures. When Colonel Pappas raised the issue of 
CIA use of Abu Ghraib with Colonel Bolt, Colonel Bolt 
encouraged Colonel Pappas to cooperate with the CIA because 
everyone was all one team. Colonel Bolt directed Lieutenant 
General Jordan to cooperate.''
    Did Colonel Pappas raise the issues of abuse and violations 
of regulations by the CIA with Colonel Bolt?
    General Kern. Senator, to my knowledge, he did not, but I 
think there is an issue here of what the word ``cooperate'' 
means. Cooperate does not mean violate laws, regulations, and 
policies. There is a development that was going on here to 
build intelligence architectures, to build intelligence fusion, 
and so there are two ways you could interpret those words. 
Colonel Pappas, in my view, did not interpret it correctly.
    Senator Reed. Did Colonel Pappas relate, as it appears in 
this statement, that the CIA was operating outside the 
established local rules and procedures?
    General Kern. We believe that they were and that is what we 
found out after the fact, and that is why we have asked for 
that particular piece to be further investigated.
    Senator Reed. I understand that. Let me ask it another way. 
Was Colonel Bolt, because Colonel Pappas told him, aware of 
potential abuses at Abu Ghraib? Here is a commanding officer in 
a very difficult position who is making difficult decisions 
every day, and I think the first response of any commander is 
to go to his higher commander or the staff and ask for the 
commander's guidance. What do I do when the CIA walks in with a 
prisoner? You are suggesting that Pappas never did that, that 
he simply came in and said they are not following rules? He 
gave no specific examples?
    General Jones. Sir, let me add some clarification, if I 
may. When the initial request for the CIA to use facilities, 
not only at Abu Ghraib but at our detention facilities manned 
by our military police, General Fast directed Colonel Pappas to 
consult the commanders of the military police to see if they 
had a problem with that.
    Now, subsequent to that, there is no documented memorandum 
of agreement between CJTF-7 staff and/or any other agencies to 
do that. My assumption and what I read was that Colonel Pappas 
coordinated with the military police who were in charge of the 
detention facilities to see if they would accept that request. 
He himself was not in charge of the detention facility.
    Senator Reed. But it says specifically that he informed the 
staff of abuses by the CIA overstepping regulations and 
established local rules. That is what I read. Is that right, 
General Fay?
    General Fay. Sir, I do not believe that it reads that they 
knew about abuses. My recollection was the conversations 
related to the control of the detainees and the lack of 
accountability of the detainees. There were never any 
conversations relating to the direct abuses. It was the ghost 
detainee issues, of bringing them in, undocumented.
    Senator Reed. Which is a violation of the Geneva 
Conventions?
    General Fay. Which is a violation but is not----
    Senator Reed. Now we are making a very nice distinction 
between the abuses and other violations of the Geneva 
Conventions. As I read your report, subject to article 92 of 
the UCMJ, those are abuses that have to be reported. Did 
Colonel Bolt have knowledge of those types of abuses, the ghost 
detainees?
    General Fay. We did not consider that, nor are they one of 
those 44 that we enumerated as abuses. That did not meet our 
definition of abuse when we were writing the report.
    Senator Reed. So you never asked General Fast or Colonel 
Bolt whether they had specific knowledge of ghost detainees.
    General Fay. Yes, we did ask them that.
    Senator Reed. What did they say?
    General Fay. General Fast did not know about the ghost 
detainee issues until later on. When Colonel Bolt had that 
conversation with Colonel Pappas, they had a conversation about 
what was occurring with the CIA bringing in undocumented, 
unaccounted-for detainees. Colonel Bolt did know that that was 
going on.
    Senator Reed. What date was that, sir?
    Chairman Warner. Senator, we will come back on a second 
round here and you will have that opportunity.
    Senator Reed. May I have just the date, sir?
    General Fay. I am actually not sure. I would have to go 
back and check what the statements say. I do not remember what 
specific date it was.
    Chairman Warner. This is an important line and I intend to 
return to that and the role of General Fast in this matter.
    Yes, Senator Sessions.
    Senator Sessions. Mr. Chairman, thank you and I could not 
agree with Senator Inhofe more. I agree with former Secretary 
Schlesinger and his report and the article he put in the 
newspaper, the Wall Street Journal, Senator McCain read from, 
that our soldiers have performed exceedingly well. In 
situations such as this, under the stress they have been under, 
mistakes are going to happen. There is just no doubt about it.
    Secretary Schlesinger, who has been around a long time, 
said the vast majority of our force has behaved in Iraq with 
extraordinary forbearance, including countless acts of 
kindness. In this respect, its performance has been vastly 
superior to that of World War II, Korea, and Vietnam. While we 
did not spell this out in the panel's report, I can only say, 
in light of some of the public commentary, that it deserves 
emphasis and repetition. He put in capital letters our troops 
have performed well, and you certainly reacted immediately.
    General Sanchez, General Kern, I agree, is a hero. That is 
one of the most difficult circumstances for any commander to be 
in. I visited with him in August a year ago and saw the stress 
and demands that were on that fine general. I bet he did not 
get a half a dozen hours sleep once in 6 months, trying to save 
and protect his soldiers, and he had pressure on him to gain 
intelligence. We are here on this committee blaming the CIA for 
not having enough intelligence. We should have had more 
intelligence. Intelligence saves lives.
    We need our soldiers, our interrogators to stay within the 
bounds of law, and I salute you for taking firm steps to make 
sure this happens. We have not covered it up. We brought it 
forth. It was announced immediately when the matters were 
brought forth, and I believe steps have been taken to see that 
it does not happen again. We do not need to discourage, General 
Kern, as you noted, or demoralize soldiers who are out there 
conducting inquiries every day.
    We have had 8 reports so far, 3 more anticipated, over 
15,000 pages received thus far, 950 interviews, 43 
congressional briefings and hearings on this subject, and we 
have a war on. Soldiers are out there, at risk, this very day 
in hostile combat. I want to express my strong support and 
appreciation for that.
    With regard to the ghost detainees, General Fay, I think 
you made the point. I was a Federal prosecutor and I know when 
you get an organized crime or big drug case, certain people you 
may apprehend are very sensitive. Maybe with a few more days, 
you could break them or get them to roll on the people they 
deal with. Maybe they are in danger because they have already 
given you information.
    Now, the CIA did not have a prison of their own, I assume, 
in Iraq. They had to put people somewhere. Could that be some 
explanation for why they might want to handle these prisoners 
in a different way than you would normally handle them, 
recognizing it is important that documentation be kept of 
prisoners?
    General Fay. It could be one of the explanations, sir.
    Senator Sessions. Do you have any information, General Fay, 
that any of those soldiers that the CIA handled were abused 
physically or otherwise?
    General Fay. There was one instance in one of the 44 cases 
that we talked about. There was abuse that did occur before the 
detainee was brought into Abu Ghraib, and because the detainee 
was not properly processed into Abu Ghraib, failed to receive a 
physical, and indeed, that detainee died soon after being 
brought into Abu Ghraib.
    Senator Sessions. How do you see the CIA's human 
intelligence operation? Was it effectively moving the 
information forward so that commanders in the field could 
utilize it?
    General Fay. Yes. From my knowledge and my experience 
working with CJTF-7, and also from my visits there on the 
centralized processing of the intelligence that General Fast 
brought into country, they were very effective in Iraq.
    Senator Sessions. General Kern, when you deal with 
intelligence gathering operations, as you were in this area, 
and trying to maintain discipline in a prison, how important is 
it to the commander, though, in the field that the intelligence 
they gather gets to them so that they can utilize it? Are we 
doing a good enough job? I know we are pointing out the errors 
that have occurred here, but can we approve the ability to get 
information to the commanders in the field so that it can save 
lives?
    General Kern. The answer is yes, we can. This has always 
been one of the challenges of how you collect information. We 
teach our soldiers to do tactical intelligence primarily 
focused on enemy prisoners of war. The detainee puts them into 
a different category and makes it even more challenging to 
collect that right intelligence. But the intelligence 
collection process begins at the point of capture. Initial 
interrogations that take place and moves all the way back to 
the strategic level, which is really the part that we are 
talking here at Abu Ghraib.
    One of the challenges and one of the frustrations of the 
commanders at the lowest level is once they give up a detainee, 
they rarely get the information flowing back down as to what is 
further developed. One of the challenges that was being taken 
on here, then, was to complete that loop so that information 
not only went into the intelligence collection process but was 
also disseminated back down to the operational commanders at 
the division brigades, battalions and below. That was a 
challenge which, from my perspective, has been improved 
considerably over the last year since this investigation took 
place and since most of these abuses took place. I would ask 
that General Whitcomb might comment on that because he has 
firsthand knowledge.
    General Whitcomb. Senator, that was one of General 
Abizaid's priorities during this time frame, the summer time 
frame of June-July-August. He challenged his subordinate 
commanders to work this fusion of intelligence. His concern was 
what happened at the point of capture with the tactical unit 
and as that captured individual went through the process to 
some detention site, how did we close the loop back to that 
battalion, brigade, and company commander so that he could 
utilize that information. General Abizaid's thought was that we 
were not doing very well at closing the loop.
    To some degree, he was concerned that as a prisoner was 
passed off, the tactical units did not provide as much 
information as they should have or could have to enable 
interrogators at the next level to be able to continue that 
kind of process. So that was really his emphasis with his 
subordinate commanders, how do we improve that process? That 
was really the genesis for the joint interrogation and 
debriefing center, in putting that together, so that you could 
get intelligence operators from all the intelligence sources, 
HUMINT, as well as the other intelligence capabilities, 
together in one room to really maximize that kind of 
capability. So that was a part of the dynamic that was changing 
during the summer months, as the insurgency that we saw 
unfolding was gaining some momentum.
    Senator Sessions. You are confident that following the 
approved policies of interrogation are now being handled and 
that with this kind of more sophisticated work toward sharing 
intelligence and moving intelligence in the right way through 
the system, we are able to function well at this point?
    General Whitcomb. I am, Senator.
    Senator Sessions. I do share General Kern's concern from my 
previous visit to Iraq earlier this year, the week of the 
Fourth of July, that there was a feeling among a number of 
people expressed to me, that they had to be more careful maybe 
than the law allowed because they might be prosecuted or 
investigated or hauled before Congress. We do not need to 
intimidate them from doing anything that is legal and proper to 
gain the most amount of intelligence we can get. At the same 
time, we need to stay within that rule.
    I think the Army is doing an excellent job in trying to 
accomplish that difficult task under very stressful 
circumstances. We thank you for your service.
    Chairman Warner. Thank you very much, Senator. I associate 
myself with your remarks there.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me also thank you for your service and for a very 
thorough investigation of a difficult set of circumstances. 
What you are really proving is that if you do not have rules, 
you nearly have a state of nature where almost anything goes. 
So, I certainly appreciate the fact that you want a crisp set 
of rules and an understanding, fusion of intelligence, but to 
avoid confusion about how you go about getting it. I certainly 
concur with my colleague from Alabama when I say that you do 
not have to demoralize the system in order to have a crisp 
understanding of how you go about getting intelligence and 
gathering it from a variety of sources, including HUMINT.
    In this case, I certainly appreciate, as well, the 
distinction between culpability and level of responsibility. 
General Kern, I agree with you about General Sanchez. A very 
difficult set of circumstances in which he was placed, 
performed very well. I understand what you are saying in the 
sense that there may have been some shortcomings in what he 
did, but you are probably not saying, well, nobody is perfect. 
You are identifying an area that probably could have and should 
have been handled differently, but in the fog of his 
circumstances, it was difficult to get it done. Is that an 
accurate description of what you were saying?
    General Kern. Yes, Senator, I think that is fairly 
accurate. But it is not just the fog of it, he did take 
positive actions.
    Senator Ben Nelson. I am not suggesting he did not, but the 
shortcomings that you have alluded to would be different than 
saying nobody is perfect.
    General Kern. I think that is correct. General Sanchez was 
given a very difficult mission, and as we have pointed out, the 
mission he was given turned out to be quite different than the 
mission he actually was accomplishing in his support to the CPA 
and the fighting of an insurgency. So he used all of the best 
capabilities that he had, and at the same time we found that he 
did a significant amount of work to improve the quality of the 
operations. He brought in General Fast and he brought in 
General Miller to improve detention and intelligence 
operations. He implemented many of their guidance and 
instructions. It has improved, it has been reported. He made 
statements and published orders that told people to treat 
detainees properly. He investigated things when he found them 
out. There were some things he did not find out that he should 
have, we have pointed that out.
    Senator Ben Nelson. Excuse me. That is where you get the 
responsibility versus culpability.
    General Kern. That is correct.
    Senator Ben Nelson. I understand the distinction. I just 
want to make sure that that applied here as well.
    General Kern. That is correct, Senator.
    Senator Ben Nelson. Let me also say that I agree with my 
colleague from Oklahoma that we ought not to overreact to this 
situation, but I certainly appreciate the fact that you have 
not under-reacted to it. I think your approach has been 
appropriate with the chain of command. I think a distinction 
exists between the chain of command with the uniformed officers 
and personnel versus, let us say, a chain of command of the 
civilians above. Your role was to investigate from four stars 
below, not the Pentagon above. Is that also a fair statement?
    General Kern. I think it is a fair statement, but I would 
also tell you that if we had found that there was clear 
direction for somebody to do something illegally, we would have 
reported it, regardless of where it came from.
    Senator Ben Nelson. Yes, that would be culpability again as 
opposed to responsibility.
    General Kern. Correct.
    Senator Ben Nelson. So the question of responsibility above 
the chain of command in uniform is still an open question at 
this point in time from your reports because that is not within 
your responsibility. Culpability but not responsibility. Is 
that fair?
    General Kern. That is fair, Senator.
    Senator Ben Nelson. General Taguba, I have been concerned 
about the suspension of General Karpinski from the very 
beginning. I think there are questions about whether her 
command was severed and whether she was in a position to make a 
determination. She said she had words with, I believe, General 
Sanchez, and he says that did not exist. Have you had any 
further clarification on that different set of circumstances 
and facts?
    General Taguba. Not that I have been informed, no further 
on that.
    Senator Ben Nelson. Has anything occurred and come up in 
the investigation that would change your mind about whether 
General Karpinski had the responsibility here, whether 
responsibility was severed by the set of circumstances that we 
now understand with the Military Intelligence as well as the 
CIA intelligence situation?
    General Taguba. No, sir. I stand firm with our findings and 
our recommendations.
    Senator Ben Nelson. I thank you very much once again for 
your answers to the questions. I would ask the chairman if 
there is a way to follow up on the civilian side below with the 
contractors, those who are now going to be reported to the DOJ, 
to make sure that while it works within the administration of 
justice for uniformed personnel, there is going to be a 
question here of what happens, if anything, to the civilian 
contractors.
    Chairman Warner. The Senator is correct. This committee 
will continue to exercise its oversight as to how the question 
of accountability was administered by the overall executive 
branch with regard to non-military participants.
    Senator Ben Nelson. I thank the chairman. I think that is 
our responsibility for oversight. It is perhaps not exactly 
part of the armed services but certainly connected.
    Chairman Warner. I thank the Senator.
    Senator Ben Nelson. I thank you. I thank you, gentlemen.
    Chairman Warner. The Senator from South Carolina.
    Senator Graham. Thank you, Mr. Chairman.
    I too want to thank you for a very thorough report, and I 
believe corrective action is being taken in a positive manner. 
I know you have been in sort of a political tennis match here 
and I do not want to ask you to comment on what we should be 
doing. That is up to us. I do appreciate the inputs you have 
given.
    But, General Kern, to me it is important that we learn from 
the mistakes of this problem. Do you agree with that?
    General Kern. Senator, I completely agree. Of all these 
investigations, I believe, and General Jones may add to this, 
that there are more than 220 actions which have already been 
taken to fix problems identified through these investigations.
    Senator Graham. One of the things we have learned 
apparently is you do not need to torture people to get good 
information. Is that correct?
    General Kern. That is correct, Senator.
    Senator Graham. Not only is it legally and morally wrong, 
it is not the most effective technique.
    What hangs in the air for me, that I have a hard time 
coming to grips with, is that a blind person could see that we 
do not have enough people in that prison during the time in 
question to effectively elicit good intelligence.
    General Fay, did General Miller tell General Sanchez you 
are understaffed?
    General Fay. Sir, the situation when General Miller 
appeared there in Iraq was at the later part of August, the 
beginning of September--he was only there for 9 days. At that 
point in time at Abu Ghraib, there were only 600 and some-odd 
prisoners at Abu Ghraib. They were not overwhelmed at that 
point in time. The overwhelming population did not occur until 
the October-November-December time frame. So the situation 
dramatically changed. General Miller did have a conversation 
regarding different types of people and more people being 
needed, but not in the severe numbers that it later became 
after General Miller left the theater.
    Senator Graham. That is a very good point.
    About the dogs, Colonel Pappas is saying, or at least has 
said in the past, that he was told to use the dogs as part of 
interrogation. You believe that was a misunderstanding. Is that 
correct?
    General Fay. That is correct. I believe that was a 
misunderstanding between Colonel Pappas and General Miller.
    Senator Graham. General Taguba, do you believe that General 
Karpinski lied about what she actually did?
    General Taguba. Sir, in terms of her understanding? Sir, 
she had made some you might call non-disclosing type of 
statements because she had, at least from the ICRC reports, 
that the commander had been briefed and subsequently had 
informed her.
    Senator Graham. Did she lie about how many times she went 
to the prison?
    General Taguba. Sir, I believe based on the information 
that was provided to us that there was some question of the 
number of times she visited the prison.
    Senator Graham. General Kern, the general officers, are 
they allowed to lie?
    General Kern. No, Senator, and it does not make any 
difference whether you are a private or a general officer. None 
of us are allowed to lie.
    Senator Graham. That is the point. I think we will have 
failed the privates and the sergeants if the only people who 
are court martialed here are privates and sergeants.
    Dereliction of duty will be redefined one way or the other 
after this investigation.
    General Fay, when the prison was overwhelmed in terms of 
the number of detainees, did anyone at that time in October or 
November tell General Sanchez you do not have enough people to 
manage this problem?
    General Fay. Sir, I do believe it came to his attention. 
Both by General Karpinski and also from the intelligence staff, 
they were telling him. In fact, there was a request for forces 
that was put in for, I know, the MI personnel for additional 
personnel. That request for forces was responded to. The 
difficulty was it takes a long time to find the personnel 
throughout the rest of the Army, notify them, and then move 
them to Iraq. But early on, it was in October, that the MI 
personnel recognized a severe shortage that put in a request 
for forces, was responded to. Those troops began to arrive in 
November and then followed on. More soldiers became available 
after that.
    Senator Graham. What percentage of the MI operatives or 
soldiers during the abuse period were involved in failing to 
report or actually involved in abuse?
    General Fay. Sir, do you mean those present there? Of those 
present MI soldiers, they began in the early parts of only 
having 14 present, and ultimately by February there are about 
160 present.
    Senator Graham. But from October to December, how many were 
present?
    General Fay. It varied because they were coming in in bits 
and pieces two, three, four, five at a time. So it probably 
went from probably around 30 or 40 up to, by the end of 
November, probably raised to somewhere close to over 100, 120.
    Senator Graham. My question is, given the close confines of 
this situation, the limited number of people, do you believe 
that there are only 23 people who failed to report? How could 
the others not know, given the extent of what was going on?
    General Fay. You have to understand the circumstances. 
These abuses, most of them were occurring in the hard site, 
which had very limited access. Not all of those soldiers that 
we just spoke about had access to the hard site area. So it was 
impractical to believe that they were going to see what was 
going on in those areas that they did not even frequent.
    Senator Graham. How did the ones who wound up there, the MI 
people, get into the hard sites?
    General Fay. They would be doing interrogations at the hard 
site in some of the shower areas of the hard site because there 
was an inadequate number of interrogation booths available. So 
they would show up there at the hard site and they would be 
granted access by the military police personnel to do their 
interrogations.
    Senator Graham. My final question. General Kern, do you 
know General Shinseki?
    General Kern. Yes, Senator, I do.
    Senator Graham. He made a comment at one time, I cannot 
remember when, that we would need 200,000 people, or whatever 
number, to do this operation effectively. Have you ever 
experienced, believed or perceived that if a commander anywhere 
in theater asks for more troops that that would be unfavorably 
viewed? Or a commander would be reluctant to do so because of 
what happened to this general?
    General Kern. I do not know that I can put myself in 
everybody's mind who is in theater. We teach our military 
commanders pretty ruthlessly to do a mission-to-task analysis, 
and we go through a process of understanding what is required 
to do the job. When you are given a job where you are not given 
the resources to do it, we expect the commanders to go back and 
ask for them. So despite all of that, I believe that our 
commanders will ask for the resources they need.
    Senator Graham. If you do not, you let the troops down, do 
you not?
    General Kern. That is correct, Senator.
    Senator Graham. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General Kern, you stated in your testimony that we set our 
course to find truth, not to whitewash or to convict those who 
are not incriminated. I respect that that is your undertaking 
and your sincerity. However, the report that we have here that 
has been released publicly is 176 pages, the two reports 
combined unclassified. The two reports in total, we are told, 
are over 9,000 pages. This is 9,000 pages of paper here. This 
is 176 pages here that are made public. All the rest of this is 
classified or secret or whatever, but is not being revealed to 
the public. This is 2 percent of this amount.
    Who makes the decision on classification or release of 
these pages, and how can it be that out of 9,000 pages, only 
176 of them can be made public?
    General Kern. I believe that more than 176 pages can be 
made public. Many of those have been published as parts of 
other reports which we have included in our report.
    Senator Dayton. How many pages are being withheld of the 
9,000?
    General Kern. We have not withheld anything. We have given 
the committee the full report, unredacted and redacted 
versions.
    Senator Dayton. How many of the pages are being withheld 
from the press and the general public?
    General Kern. I do not know how many. We have given the 
redacted versions, as far as I know, to the press with the 
classification taken out.
    To answer your original question, there is an original 
classification authority. I do not have the authority to 
declassify everybody else's documents.
    Senator Dayton. Who makes that decision, sir?
    General Kern. The person who classified the document.
    Senator Dayton. Who classified whatever number----
    General Kern. There are dozens of people who have 
classified different parts of those different documents. I 
could not tell you.
    Senator Dayton. Just so I understand, not being a military 
person, the 9,000 pages are completed and those are sent 
through various channels, and then anybody in those chains of 
decision-makers can classify and then those that are classified 
and not released.
    General Kern. No. There is a very clear set of regulations 
that says who can classify at what level, the different 
classification levels that we use from official use only, all 
the way up through top secret SCI. Each of those has different 
regulations and rules about how they can be declassified.
    Senator Dayton. The published press reports that I have 
reviewed, the Congressional Quarterly, for example, which is 
considered here authoritative, non-slanted, says here that of 
the 9,000 pages, 176 are available, are unclassified, are made 
available to the press and therefore to the general public. 
This is the document we have here which is 176 pages of a 9,000 
page report. I would appreciate, sir, being informed, via the 
chairman or however, how many pages are being made public, and 
by that I mean not to the committee. I understand we have. But 
how many are made public to the general public? After all, it 
is their tax dollars that are paying for these investigations 
and these reports. Then, how many are withheld and on what 
basis they are being withheld.
    General Kern. We will comply with that, Senator.
    Senator Dayton. Thank you.
    In the testimony today and on this chart that was passed 
out, you cite that in October 2003 at Abu Ghraib prison, it is 
under 2,000 according to the chart. It looks to be 
approximately 1,800 detainees in that month at Abu Ghraib. The 
Schlesinger report, which we are going to be hearing from this 
afternoon, says that in October 2003 at Abu Ghraib there were 
up to 7,000 detainees housed. That is quite a discrepancy, 
1,800 according to your testimony today and 7,000 according to 
this document. Can you reconcile that discrepancy?
    General Kern. There are two charts that we have used there, 
and if you will look at them precisely, the numbers do not 
correspond one to one. We used the Schlesinger numbers for the 
total number of detainees. We do report that the number of 
detainees achieved about 7,000, but it was in November. I would 
have to go back and look specifically----
    Senator Dayton. In the Schlesinger document, it says here 
on page 11, in October 2003 Abu Ghraib housed up to 7,000 
detainees, and in this chart here it shows less than 2,000. It 
looks like about 1,800 detainees. I am just saying that is 
quite a discrepancy, and I am trying to reconcile it.
    The point I want to make, and it is actually one I think is 
in your favor or at least in favor of those who are being 
charged with whatever it is here, the prisoner-to-guard ratio 
by this count here would be about 20 to 1. In the Schlesinger 
report, it would be 78 to 1. I checked with the Department of 
Corrections and nationwide, of all the prisons in the United 
States, State and Federal, all levels of security, the average 
prisoner-guard ratio is 5.5 to 1. In Minnesota, it is 4.5 to 1. 
Those are mostly minimum to medium security prisons. We have 
two maximum security prisons.
    So here we are in Minnesota, 4.5 prisoners to 1 guard, 
nationwide 5.5 prisoners to 1 guard at all classifications. 
Here you have a very dangerous situation, people under constant 
pressure, threat of bombardment, actual bombardment, and a very 
dangerous prison population, and the prisoner-to-guard ratio is 
either 20 to 1 or 78 to 1. That to me is begging for serious 
difficulties.
    I guess I am wondering as a matter of military policy, is 
there a ratio that is subscribed to? Is there a point where an 
alarm bell goes off and says, hey, we over 5 to 1, we are over 
10 to 1, we are over 15 to 1, and we have dangerous, 
unmanageable conditions?
    General Kern. I do not know the precise number how you 
describe that, but I will tell you that we recognize in the 
United States Army that we have been short military policemen 
for the detention operations and we have been converting 
battalions at as fast a rate as we can to military police to 
overcome those shortages.
    General Taguba I think may have a ratio that is the 
doctrinal ratio.
    General Taguba. Sir, the doctrinal ratio was one battalion, 
roughly 500 to 600 MP personnel, depending on how their tasks 
were organized, per 4,000 detainees.
    Senator Dayton. I am sorry. 4,000 detainees for 500?
    General Taguba. Yes, sir, one battalion.
    Senator Dayton. So that would be 8 to 1.
    General Taguba. Yes, sir.
    Senator Dayton. That would be appropriate. So this spirals 
seriously out of control here in terms of manageable numbers of 
prisoners I would say.
    General Taguba. Yes, sir. That is indicative of the 
shortcomings in terms of personnel shortfalls at Abu Ghraib at 
that time.
    Senator Dayton. Mr. Chairman, one last question quickly.
    How many total detainees approximately were there during 
the time of your investigation or the two investigations in Abu 
Ghraib prison?
    General Kern. The total was over 6,000 at Abu Ghraib prison 
during the period and it is what we show on our charts.
    Senator Dayton. During that time, you documented or there 
were alleged, I should say, 44 instances of abuse according to 
the definition of abuse you provide in your testimony.
    General Kern. That is right and more than 2,500 
interrogations during that period.
    Senator Dayton. Okay, 44 alleged abuses and 2,500 
interrogations.
    Thank you, Mr. Chairman.
    General Kern. Thirteen of the abuses were during 
interrogations, 44 total abuses.
    Senator Dayton. I see. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Before we proceed to Senator Pryor, I would like to clarify 
the material that you have there displayed. The classification 
of much of this material is owing to the numerous ongoing 
judicial proceedings under the UCMJ. Am I not correct in that, 
General?
    General Kern. Yes.
    Chairman Warner. That is to afford the appropriate 
protection, innocent until proven guilty, by a number of 
individuals that are now being investigated. Am I correct that 
a considerable portion of that relates to some of those trials?
    General Kern. The release of the information directly 
relates to that so that we can continue with due process.
    Chairman Warner. That is correct.
    The files are open for inspection by any Senator here on 
the committee or members of their staff. If the Senator from 
Minnesota is concerned that there is some material which you 
feel should be released, I will direct my attention to that to 
determine whether or not it would invade the UCMJ protections. 
I do not want to leave this hearing with the impression that 
the Kern report in any way is put together in such a manner as 
to preclude public disclosure of facts relevant to the 
investigation because at the very outset, the chairman with the 
assistance of the ranking member, we have tried to make 
available to the public all that information that we feel is 
relevant without injuring the due process of the UCMJ.
    Senator Dayton. Mr. Chairman, I am not questioning the 
general or the others who have conducted these reports. That is 
what I am trying to ascertain. They completed the reports. 
There are reportedly 9,000 pages in those reports. Somebody 
else along this line took 8,824 of those out of public view. It 
is not my role to determine which of those pages should be 
properly withheld or which should not. But that is over 98 
percent of all the pages that are withheld from public view, 
not from our committee, but from the public, and they are the 
ones whose representatives, both here and in Iraq, are being 
judged. I think for those who are conducting the investigation 
in the broad sense, the military, to be deciding then among 
themselves at some level what information to withhold from 
their investigation of themselves from the public and the press 
I think is bad form, without at least an explanation as to 
exactly why that was necessary, which is what I am asking for.
    Chairman Warner. A good deal of the explanation is owing to 
the judicial process in which we must protect the rights of the 
accused. A committee of the Senate, not only this, but any 
committee, has the right to petition the executive branch to 
have matters declassified. Our staffs are now going through 
that. If I feel that there are materials in there or you or any 
other committee member, then I will petition for such 
declassification because I certainly want the public to 
understand that in fulfilling our oversight responsibilities 
with this series of hearings, in no way are we condoning the 
wrongful embargoing of material.
    Senator Dayton. I do not think you are condoning it at all, 
sir. You have been very resolute in these hearings in getting 
to the bottom of this. It was not your decision to make, what 
is to be withheld and what is not. But it is a very high 
percentage. I hope to serve as long as the chairman in this 
body, but I do not know if that allows me enough time to go 
through a petition process with the executive branch under any 
administration or series of administrations given the 
realities. So I just point out, though, that that is a very 
high percentage of pages to be withheld from public view.
    Chairman Warner. I note your concern.
    Senator Dayton. Thank you, sir.
    Chairman Warner. Now we have our distinguished Senator from 
Florida. You have had a big agenda, Senator, with regard to 
your State and we all admire the manner in which you and your 
colleagues are carrying on your responsibilities in these 
extraordinary times. But we are glad that you found time, as 
you always do, to join us here with this hearing.
    Senator Bill Nelson. I am going to defer to Mr. Pryor.
    Chairman Warner. You can if you wish. Mr. Pryor, then in 
the sequence, you would be next. We will come back to you.
    Senator Pryor. Thank you, Mr. Chairman. I would like to 
thank the Senator from Florida for doing that. That was 
unnecessary.
    Let us see. General Taguba, you will be happy to know that 
most of my colleagues have asked the questions that I was going 
to ask. But I did have a follow-up for you, and that is you 
mentioned the 8-to-1 ratio. I think you said 500-ish to 4,000. 
So that is roughly an 8-to-1 ratio. We had a worse ratio than 
that in Abu Ghraib. It sounds like significantly worse. Is that 
due to a shortage of these type of soldiers in our system, or 
is it due to a lack of planning about Iraq, that we just did 
not make what we had available inside Iraq?
    General Taguba. Sir, I recollect there had been comments 
from those that I interviewed that shortages of personnel not 
just in Abu Ghraib but in the other detention centers that we 
visited. It was either a series of folks who had redeployed 
back, but were not being replaced.
    With regard to the shortage at Abu Ghraib, as I interviewed 
the operations officer for the 800th MP Brigade, that based on 
doctrinal precepts that he fully understood was perhaps as a 
temporary measure until he can get further replacements of 
reallocating forces, MP soldiers within the other three 
detention centers to help obviate or at least relieve the 
pressure at Abu Ghraib at the time. He could not come up with a 
good enough response of why he could not have done that.
    Senator Pryor. So let me make sure I understand your 
answer. Is it a lack of resources within the system, or was it 
more of a lack of planning or a lack of availability of 
American forces inside Iraq?
    General Taguba. Sir, two things. One was an inability to 
adjust their planning factors when they assumed the mission at 
Abu Ghraib, and second was a matter of requesting for 
additional forces within the command.
    Senator Pryor. So as I understand it then, I am not trying 
to put words in your mouth, it really was a lack of planning or 
at least a lack of making the existing resources available 
where they needed to be.
    General Taguba. Yes, sir.
    Senator Pryor. General Fay, we have all covered the fact 
that you found 44 cases of alleged abuse and we talked about 
the chain of command leading up to General Sanchez and I think 
in your words other senior level officials on what was going on 
inside the prison. But at the same time, you did not and your 
commission here, your group, did not recommend disciplinary 
action against General Sanchez or anybody else. Do you want to 
explain why you did not, and how we should understand that?
    General Fay. Sir, my role was the 205th MI Brigade and on 
the 205th MI Brigade soldiers and the contractors that worked 
with the 205th MI Brigade, we either referred them to the 
commanders, after we outlined all of the things that we 
believed that those people did do, or to the DOJ. The 
individuals above the 205th MI Brigade was not within my----
    Senator Pryor. They were beyond your scope.
    General Fay. But it was within General Jones' scope.
    Senator Pryor. General Jones, do you want to answer that?
    General Jones. Yes, sir, I can address that. I think 
General Kern has also talked about the challenges that the 
CJTF-7 leaders and their staff had. When I looked at it above 
the 205th command, I looked at it to determine if they had 
direct or indirect involvement in the abuses and the cases that 
happened, did they provide clear and consistent guidance, and 
did they resource the subordinate units for the missions they 
had given them.
    In this case, I found that the leadership above the 205th 
was not directly responsible for the abuses or the causes of 
abuses that happened. There are some things they could have 
done as far as the guidance and the policy memos, making sure 
that the lowest level soldiers understood what the policies 
were. But they did fight for resources. They did reprioritize 
some things and they did publish memos that emphasized that the 
law of land warfare and the rules of the Geneva Conventions 
would be upheld.
    Senator Pryor. General Jones, you have had a chance, I am 
sure all your colleagues have, to look at the Schlesinger 
report. I would just like to ask is there anything in there 
that you disagree with? Are all the findings in the Schlesinger 
report consistent with your findings?
    General Jones. I have looked at it. I am trying to think 
because we had this discussion earlier. I think a couple things 
that I think I would disagree with, not particularly disagree 
with because I thought it was a very good report. I think all 
of the reports that you see come out are very much 
synchronized.
    Senator Pryor. No. I think the committee understands the 
spirit in which you are going to answer the question, not to 
blame anyone or not to--but give me your thoughts on it.
    General Jones. I think there are some comments in there 
that talk about other Services' responsibility in terms of 
human intelligence, which is something they do not have at this 
time. So to refer to other Services, when the Army basically 
has the lead for human intelligence, may not be making the 
right point.
    Senator Pryor. Anybody else on the panel like to address 
that?
    General Kern. There is one that I do not think we 
completely agree with because we do not know all the facts that 
they were using and that is a judgment on General Fast's role. 
It goes back, I think, a little bit to questions that Senator 
Reed was asking earlier as well.
    We found that General Fast came into the theater to do an 
architectural assessment and to do work on improving the 
integration of all of the activities of intelligence 
activities, and she did a very good job at that, as noted. We 
have seen significant improvements from the time she showed up 
in theater until today.
    There are a series of vacuums in there which relate to this 
issue of the ICRC reports and abuses, I think. What we found, 
and I would ask anybody else to correct me if I misinterpret 
this, is that General Fast was not in country. She was out for 
health reasons at the time that the ICRC report was delivered. 
The Staff Judge Advocate, Colonel Warren, in his assessment of 
it, delivered the report after he made his assessment to 
General Karpinski, not to General Fast, because the military 
police were responsible for the detention operations.
    So our assessment is that she did what she was asked to do 
in terms of improving intelligence activities, and we have seen 
significant results as a result of that. We do not have the 
evidence that would suggest that she was overlooking things 
that she should have.
    We also know that she spent a significant amount of time 
working not just with the CJTF-7 but also with the CPA. What I 
cannot tell you is if there are other things that Secretary 
Schlesinger's panel found that may have come from other sources 
that we do not know.
    General Jones. I would add to that. First of all, she is 
the one that went back after the death of the one detainee in 
November and surfaced that later on, and she is the one who 
went back to the agency and told them they will comply if they 
detain personnel in military facilities. So she was the 
catalyst for that. She was also the one to ensure that they 
investigated that incident and it was properly handled. It did 
not get pushed aside.
    I would tell you I had to be involved with the leadership 
above the 205th, and probably the two people that stand out 
that are totally taxed with their duties, responsibilities; 
particularly in supporting the CPA and the Iraqi people, 
building a coalition, building the intelligence fusion, and 
getting those reports that Senator Sessions talked about from 
tactical to the strategic and the reach-back capability in 
place because they did not have the communications and did not 
have the equipment and the personnel, the two people that stand 
out not only is General Sanchez but is General Fast. She did 
yeoman work in theater. That was shown in her relationship with 
the coalition and the allies.
    General Fay. Sir, just one point on your original question 
about some of the factual data that is contained in the 
independent review by Dr. Schlesinger. There was one issue in 
the beginning of his report. He states that none of the abuses 
occurred during interrogations, and we found that there were 13 
instances. Dr. Schlesinger has corrected that in his statement 
to this committee.
    General Kern. Could I make a correction to what I was told? 
General Fast was out of the country during the development of 
the policy memos. She was there when the ICRC report was given, 
but it was not given to her. It was given to General Karpinski.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Warner. At this juncture, I will ask the committee 
to bear with me because the Senator asked a question and one of 
them was, did you disagree in any way with the Schlesinger 
report? I would like to read a short paragraph with regard to 
the findings of the Schlesinger report specifically relating to 
General Fast, ``The CJTF-7 C-2,'' that was her designation as 
the intelligence officer for General Abizaid. Is that correct?
    General Kern. Yes.
    Chairman Warner. ``Director for Intelligence failed to 
advise the commander properly on directives and policies needed 
for the operation of the Joint Interrogation and Debriefing 
Center (JIDC) for interrogation techniques and for 
appropriately monitoring the activities of OGAs within the 
joint area of operations.''
    Now, given that we must move along, I would like to have 
you take for the record the question of our colleague from 
Arkansas, with regard to whether you agree or disagree and this 
written report of Schlesinger and reflect on it among 
yourselves and come back and provide for the record your 
response, because General Fast, whom I incidentally met on the 
occasion of my most recent visit over to the area, impressed 
me. This committee was asked specifically to promote her out of 
the normal order of promotion from one star to two star. We did 
so at the request of the DOD. She has now been reassigned in 
the normal course of events to a very important post within the 
intelligence structure of the Army. Is that correct, General 
Fay? She is now the head of the intelligence school?
    General Fay. That position is pending, sir.
    Chairman Warner. Pending, but anyway, it is under 
consideration.
    General Fay. Yes, sir.
    Chairman Warner. Therefore, I think it is important that 
clarification be brought to her professional performance at the 
time she served in her capacity with the Central Command. Do 
you have some comments on that, General?
    General Whitcomb. Chairman, I would just make one 
correction, sir. She was the C-2 for General Sanchez for CJTF-
7.
    Chairman Warner. Did I misspeak?
    General Whitcomb. Yes, sir.
    Chairman Warner. Fine. General Fast was under General 
Sanchez. That is correct.
    Thank you for the questions, Senator Pryor. We have Senator 
Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    I would like to ask a question about lessons learned, and I 
would like for you all to reflect in your professional judgment 
on the embarrassment that we suffered in Kosovo as a result of 
detainee abuse. Why were the lessons that we learned from that 
not apparent and taught that would be available for people to 
avoid something like this? Why do we not just start with you, 
General Whitcomb, and go right on down?
    General Whitcomb. First, Senator, I would say I am not 
familiar with the detainee abuse issue in Kosovo.
    But I would comment on our lessons learned and what the 
Services do, specifically in the Army, in analyzing operations. 
This has been a very painful lesson learned that has resulted 
in a much smoother operation, but it has caused great damage to 
our Army and our Nation.
    We went into this operation expecting the detention 
operations would be more in the flavor of enemy prisoners of 
war. So I think that was a good planning assessment. It was an 
integral part of our plan, but it is a different dynamic than 
what we, in fact, faced on the ground with an insurgency and 
the type of internees and detainees that we are seeing, 
everything from former regime elements to criminals to 
terrorists to foreign fighters and to innocent civilians that 
are wrapped up.
    What we have done, Senator, throughout this process is to 
make course corrections. They have not been as rapid as any of 
us would like them to be, whether it is the number of 
linguists, whether it is the number of MI professionals, 
whether it is the number of military police that are required 
to do the job. But throughout this process, we have, from a 
CENTCOM perspective, recognized where we had shortfalls and 
have taken steps to correct them.
    We have also worked this, not only in concert with 
CENTCOM's subordinate commands but also with the Joint Staff 
and the Services, to try and identify those.
    As you also know, Senator, there was a very robust joint 
lesson learned effort before the war that was embedded with 
Central Command and our units headed by Joint Forces Command. 
So we did, in fact, have an apparatus in place that was able to 
feed back to the Services, feed back to us at Central Command 
on a pretty rapid basis when they saw areas that we should and 
could address.
    Senator Bill Nelson. I am specifically interested in 
lessons learned from Kosovo, and you are not aware of any 
abuses in Kosovo.
    General Whitcomb. Sir, I am not.
    Senator Bill Nelson. It was widely reported.
    How about you, General Fay?
    General Fay. No, sir. I am sorry I did not know of any 
abuses that occurred in Kosovo.
    Senator Bill Nelson. How about you, General Kern?
    General Kern. Sir, I know of abuses that occurred in the 
Balkan theater, but not associated with detention in 
interrogation operations. But we have made a comparison of the 
Balkan operations to what is going on here, and the part that 
we find that is significantly different and why it is hard to 
apply lessons learned from one theater to the other is one of 
scale. So we have some very good MI fusion efforts that have 
been going on in that theater for some years, coalition and 
multiple agencies. So, there are some very good lessons learned 
that we did work through this, but the scale is so different 
and the ability to put the resources on it then with that scale 
is what we believe is significantly different here. It goes 
back to the earlier questions about having enough people, 
having enough capability in terms of equipment, et cetera so 
that you can do it. So the lessons learned from Kosovo are 
different significantly from what we saw in Iraq simply because 
of the scale and the number of people that you had to put 
through those operations.
    Senator Bill Nelson. There were abuses at the time of 
capture. Are you specifically familiar with those that occurred 
in Kosovo?
    General Kern. I am not.
    Senator Bill Nelson. General Jones?
    General Jones. Sir, I am vaguely familiar with them, and my 
understanding is appropriate action was taken for the people 
involved. I would have to go back and look at them. I will tell 
you, similarly here, if proper discipline and training and 
doctrine was followed, abuses would not occur.
    Senator Bill Nelson. General Taguba?
    General Taguba. Sir, I am not familiar with what happened 
in Kosovo other than the genocide types of events that happened 
there.
    But with regard to lessons learned at the onset of the 
training of our MP and MI personnel prior to their deployment, 
the conditions changed where detention operations, as we 
experience today, is not exclusive of just those two functions 
and operations. That has now become an interagency interactive, 
coordinated action that goes just beyond those MPs and MI, 
medical, legal, OGAs and the like, inclusive of course of 
proper coordination and the proper guidance meted out to those 
individuals and also the units and the commanders.
    Senator Bill Nelson. Mr. Chairman, I will not continue this 
but I would like to leave the record open for further inquiry 
because I want to make sure that the information that I have is 
correct. I had understood that it was widely understood about 
the abuses that occurred in Kosovo, and if that is factual what 
I have said, then it would be a concern of mine that the senior 
leadership of the United States Army did not know about that in 
applying those lessons learned to prevent similar kinds of 
situations, albeit as General Kern said, it is a different 
situation, different theater, different in scope. So I will 
pursue that, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator. Again, thank 
you for joining us today.
    Gentlemen, I am going to ask a question or two here. To the 
extent you can provide a response in this open hearing, I would 
appreciate it very much. To the extent that you need to reflect 
on the question and make study of the documents, that is 
understood, and provide the committee for the open record a 
further response. But this question of accountability will be 
probed by the committee as we go ahead with our oversight 
responsibilities.
    I draw your attention to the following. First is page 47 of 
the final report of the independent panel referred to as the 
Schlesinger-Harold Brown panel, and then I am going to refer to 
page 24 of the Kern-Jones report. This is interesting as I look 
at how these two conscientious groups, in working through the 
difficulty of trying to determine some initial observations on 
accountability, use different words.
    In the Schlesinger report, there is a consistent use of the 
word ``failed.'' For example, General Wojdakowski, CJTF-7 
Deputy Commander, failed to initiate action to request 
additional military police for detention operations after it 
became clear that there were insufficient assets in Iraq. The 
second relates to General Fast. I have already read that into 
the record. The third, CJTF-7 staff judge advocate failed to 
initiate an appropriate response to the November 2003 ICRC 
report on the conditions at Abu Ghraib.
    Now, you use different language, and I will go back to the 
Kern-Jones report. But you very carefully, General Kern, in 
some of your previous comments and according to my notes here, 
used the word that certain officers did not exercise proper 
responsibility. Some were culpable. No one thus far has gone 
down to the other definition in the Uniform Code, ``dereliction 
of duty.''
    But somehow this committee and others examining this 
material have to reconcile where ``failed'' falls in terms of 
your judgment as to whether or not certain individuals should 
be further scrutinized under the UCMJ for their actions. For 
example, let us talk about General Wojdakowski. Have you 
recommended that he be further scrutinized under the 
appropriate procedures of the UCMJ for those failures as 
indicated in the Schlesinger report? I will come back to the 
Jones comments later. I will ask you, General, and then you can 
designate your subordinates to answer the question if you so 
desire.
    General Kern. Our analysis looked at it from the legal 
determination of what was ``culpable'' and therefore could be 
brought to any UCMJ action versus responsibility as a staff or 
commander's action, and that is the distinction that we make in 
our report. We reviewed this with our legal advisors on a 
number of occasions to ensure that we had not overlooked people 
who should have been held culpable. So I believe our judgments 
of responsible versus culpable, where culpable could be subject 
then to UCMJ further action, are fairly well thought out.
    But I would ask for the record that we be allowed to go 
back because we have not made the comparison, other than the 
judgments we just made here earlier, on how that is reflected 
in the Schlesinger report in part because we do not know all 
the background material the Schlesinger-Brown independent panel 
had versus what our material was.
    Chairman Warner. I am certain that material would be 
available to you.
    General Kern. I believe that is right.
    Chairman Warner. I will make certain that it is. I believe, 
gentlemen, that given your charge from the Secretary of Defense 
and others that you should go back and examine the 
documentation that led to the use of the word ``failure.'' To 
me, failure measures up to culpability. Now, there may be some 
legal distinctions here which I will pursue, but I think they 
equate. Determine in your judgment whether General Wojdakowski 
should be further scrutinized under the UCMJ for his actions, 
as described by a failure in the Schlesinger panel, and why you 
did not make any specific reference to General Wojdakowski in 
your report? I am reading from page 24. You did have the 
following findings: ``I find that the chain of command above 
the MI Brigade was not directly involved in any of the abuses 
that occurred at Abu Ghraib.'' Now, that finding would reflect 
on General Wojdakowski's actions, would it not?
    General Kern. Yes.
    Chairman Warner. So at that point, he was not directly 
involved.
    Then you go to the next one, B: ``I find that the chain of 
command above,'' again General Wojdakowski, ``promulgated 
policy memoranda that inadvertently left room for 
interpretation and may have indirectly led to some of the non-
violent and non-sexual abuse incidents.''
    So I would like to have you examine again General 
Wojdakowski in relation to the findings of the Schlesinger 
commission and determine whether that is consistent with your 
finding here that it was simply an inadvertence. Do I make 
myself clear?
    General Kern. Yes, Senator.
    Chairman Warner. Then you go down to the third one. ``I 
find that Lieutenant General Sanchez and his DCG Major General 
Wojdakowski failed,'' now the word ``failed'' comes in--``to 
ensure proper staff oversight of detention and interrogation 
operations.''
    Now, you have responded very carefully and I commend you 
for the manner in which you addressed General Sanchez. I 
certainly concur, in your observations, that his overall 
discharge of his duty certainly is exemplary. But you do charge 
him with failures to ensure proper staff oversight of 
detention. Does that then merit any further examination under 
the UCMJ? It refers also to General Wojdakowski. Should he 
then, based on that finding, in your judgment be further 
scrutinized under the provisions of the UCMJ? So I ask you to 
provide the committee with those findings.
    General Kern. Mr. Chairman, as I understood the first group 
that you laid out included General Wojdakowski, General Fast, 
SGA, which would have been Colonel Warren, and then General 
Sanchez.
    Chairman Warner. Yes.
    General Kern. I would point out that role in providing our 
assessments is to make a recommendation to a commander as to 
whether or not UCMJ is followed. I cannot make that judgment, 
and in fact I would be improper if I did so. So I will need to 
make sure that what information I provide to you I get legal 
counsel on, that we make sure we do it in accordance with our 
own regulations and laws so I do not violate any of them.
    Chairman Warner. But you did say your charge from the 
Secretary of Defense is to make recommendations to commanders 
for appropriate action under the UCMJ, which means someone has 
to determine, based on your recommendations, whether or not to 
initiate or not initiate one of several procedures under the 
UCMJ.
    General Kern. I hate to get in a debate with lawyers in 
front of me because I know I will lose. But I want to be very 
clear that our recommendation that comes out of the 15-6 
investigation or in this case Procedure 15, in accordance with 
that, we can only recommend to the commander our findings and 
the severity of them. The commanders have to decide whether it 
is an administrative action or whether it is under UCMJ, and 
that is the line I am trying to be careful of that we do not 
violate in terms of command influence.
    Chairman Warner. I fully understand that. But you also bear 
in mind that Congress in its oversight responsibility has to 
determine whether or not these series of investigations under 
the executive branch, most specifically the DOD, have fully 
exhausted the question of accountability. You have specific 
findings on facts that presumably some came before you, perhaps 
other did not, but are in the Schlesinger report. You have to 
take that into consideration as you look at your 
recommendations.
    General Kern. Mr. Chairman, I understand that and we will 
provide that for the record.
    [The information referred to follows:]

    In order to answer your questions, an additional review was 
conducted of the Schlesinger report. As a result of that review, it is 
the opinion of the appointing authority and the investigating officers 
that no further recommendations on their part are necessary.
    In accordance with Army Regulation 20-1, paragraph 8-3, The 
Inspector General is conducting a thorough and candid analysis of these 
reports and will provide an objective assessment of potential 
impropriety by Army senior leaders, whether they were identified 
directly, or their involvement was implied. This assessment will be 
conducted in accordance with established and detailed Army procedures, 
to include a full legal review. Credible allegations of impropriety or 
failures in leadership will be referred to senior Army leadership for 
appropriate disciplinary action. The reports will be made available to 
the committee.
    With regards to the CJTF-7 Staff Judge Advocate and other legal 
support, an investigating officer has been assigned by The Judge 
Advocate General's Corps under the provisions of Army Regulation 27-1 
to determine if any standards of professional responsibility have been 
violated. The investigating officer will also make a recommendation as 
to actions that should/may be taken under article 92 of the Uniform 
Code of Military Justice.

    Chairman Warner. Because if there is somewhere along the 
line, whether it is the law or the charge by the Secretary of 
Defense to you or the charge by the Secretary of Defense to 
Schlesinger, some kind of a gap, then it is incumbent upon this 
committee to bring that to the attention presumably of the 
Secretary of Defense or the President, the Commander in Chief. 
Say that this has to be addressed as it relates to the question 
of accountability because those are three very important 
officers and you address it with some specificity on page 24 of 
your findings.
    Why do you not take a question or two? I have taken a good 
deal of time here, Senator, and I may come back.
    Senator Levin. Here is where I think we are in terms of the 
lack of personnel. We know from your report and from other 
reports that there was, as you put it, a severe under-
resourcing at Abu Ghraib in the military police and MI units. 
We know that at the headquarters of CJTF-7 there was 
undermanning. That is part of your report as well. It is clear 
that when General Sanchez placed an MI brigade commander in 
command of force protection at Abu Ghraib, that they were not 
the ideal folks to engage in force protection. That was 
bringing in a unit which was not designed for force protection. 
I presume it is fair to say that that is a resource failure as 
well. It reflects a resource failure, and I am going to make 
that assumption. If you disagree with it, you can include that 
in your answer. But there is a whole litany here of significant 
undermanning. We start with that.
    We know some of the reasons for that. One of the key 
reasons being your report's statement that there was an 
operational plan that envisioned a non-hostile environment. You 
already indicated this morning that that plan's mistake in 
projecting a non-hostile environment contributed to the failure 
to have adequate people on the ground to do what had to be 
done. So at least we know some of the causes, including that 
one, of the shortfall in troops.
    Now, as to who is responsible for that erroneous plan, that 
is perhaps a different subject. That is an important subject. I 
happen to think it goes back to the whole question of whether 
General Shinseki was right and what the reaction was to General 
Shinseki's point, but I will not get into that today other than 
to state that is my belief.
    Nonetheless, the plan was wrong because it projected a non-
hostile environment and it turned out we had a very hostile 
environment.
    The next question then is, since there was such a clear 
shortfall in forces and troops to do the job correctly, why did 
we not get a request or why was there not a request from 
General Sanchez for more troops? That is the question I want to 
ask you. Did he request more troops to do the job? We have 
these ratios which are incredible, without going back into 
them. An 8-to-1 ratio is your doctrinal ratio and this was 60-
to-1 or 100-to-1, whatever it was. It was so far out of kilter 
it was obvious to everybody that there were massive shortfalls 
in personnel. Did General Sanchez request more people, and if 
not, why not?
    General Kern. Senator, I would like to answer the question 
in two parts and then particularly ask General Jones, who did 
interview General Sanchez in some detail, and then clearly 
General Whitcomb, who was part of the CENTCOM operations, to 
add their comments.
    First, when General Sanchez was given his initial mission 
as the CJTF-7 commander and all that description, as both you 
and I have gone through, his mission was to redeploy forces and 
to conduct stability and support operations. That was his 
stated mission; in addition to that, to support the CPA. 
General Abizaid, who was General Sanchez's immediate commander, 
very quickly took action shortly after the CJTF-7 was 
established to reverse the flow of forces, to stop it and to 
hold, as we have described earlier, forces in theater and to 
bring in additional forces as necessary.
    Part of it goes back to General Jones. There was an 
assumption of how much the coalition forces would take a role.
    Senator Levin. That is why there was the shortfall, but my 
question is, did he ask for more? Did General Sanchez ask for 
more troops?
    General Kern. The answer is well, let me be very specific, 
and let General Jones answer because he conducted the interview 
with General Sanchez, and I do not want to put words into that.
    General Jones. General Sanchez thought that he had 
sufficient MPs in theater at the time. He may not have had them 
at the right place, but he thought that the numbers of military 
police in theater, I think at the time he had three brigades, 
were sufficient to do the mission. He did see a need for people 
in the headquarters, intelligence personnel, and specific skill 
sets to allow the headquarters to execute the missions they 
were given. Those resources were requested through the joint 
manning document he submitted to CENTCOM.
    Senator Levin. But that was not for the military police and 
military intelligence units at Abu Ghraib, was it, that joint 
manning document?
    General Jones. In part it was. I think it had 169 positions 
for the joint interrogation and debriefing center at Abu 
Ghraib.
    Senator Levin. So there were enough people in that joint 
manning document to handle the shortfalls at Abu Ghraib?
    General Jones. To handle the military interrogators and 
analysts, yes, sir.
    Senator Levin. The military police?
    General Jones. I did not look at military police.
    General Kern. Not in that part of it.
    Senator Levin. Not in that part. So now, when he saw 
himself so dramatically short of personnel, did he ask for 
more?
    General Jones. The manning document was 1,400 people.
    Senator Levin. Not the manning document. I am talking about 
the part that is not in the manning document, the military 
police.
    General Kern. I cannot answer the question's specifics. I 
would like General Whitcomb, who was part of the CENTCOM staff, 
if he could.
    General Whitcomb. Sir, I do not recall specifically if 
General Sanchez asked for military policemen for Abu Ghraib. I 
do know that General Abizaid spent quite a lot of time in Iraq 
with General Sanchez. They reviewed the force structure on a 
regular basis in terms of what was enough, specific types of 
forces that were required. At some point we did recognize, and 
I do not know whether it was late summer or the fall, but we 
had our military police forces, which are a low density, not 
many numbers, in high demand. Everybody needs them for the type 
of insurgency that we were seeing, that we need military police 
type units for convoy security, security in cities, and a 
number of traditional military----
    Senator Levin. You do not know of any specific requests 
from General Sanchez for more troops.
    General Whitcomb. For Abu Ghraib MPs, I do not, sir.
    Senator Levin. All right. Now, the report of the 
independent panel, the so-called Schlesinger Panel, says that 
first of all there was a time when CENTCOM refused to forward a 
request for additional personnel. On page 50, CENTCOM would not 
forward it to the Joint Chiefs. So there is an example. Do you 
disagree with that example, General Whitcomb?
    General Whitcomb. Senator, I read that report last night 
and I saw that. I know of no request that was not put in the 
process.
    Senator Levin. Including that one?
    General Whitcomb. Sir, I am not familiar with a particular 
JAG officer or lawyer.
    Senator Levin. So you are not familiar with that one?
    General Whitcomb. No, sir.
    Senator Levin. But here is what it says after that. It said 
that there is no evidence that any of the responsible officers 
considered any option, and this is to get more personnel, other 
than the response given to Brigadier General Karpinski to wear 
her stars, reallocate personnel among her already overstretched 
units. Are you familiar with that?
    General Kern. That was reported by General Taguba and our 
assessment.
    Senator Levin. Was she told ``Wear your stars, reallocate 
personnel'' instead of asking for more?
    General Taguba. Sir, I am not familiar with that particular 
comment, but she did convey to me that she had gone up to her 
chain of command. At this time she is under the tactical 
control of CJTF-7. She requested or at least conveyed to 
General Wojdakowski that she was needing of personnel.
    Senator Levin. What was the answer?
    General Taguba. Excuse me, sir?
    Senator Levin. What was Wojdakowski's answer?
    General Taguba. I was not privy to what the response was.
    Senator Levin. Did she tell you what the response was?
    General Taguba. Yes. She said the answer was to continue to 
march until such time as I could get you more forces.
    Senator Levin. Use your troops?
    General Taguba. Yes, sir.
    Senator Levin. Did he say he would pass along the request?
    General Taguba. No, sir. She did not indicate that to me.
    However, though, sir, I just want to make a comment that it 
was recognized that when the MPs were given the mission to do 
Abu Ghraib exclusively, that they had already been under 
strength. To what she reported those, her personnel status, we 
did not go into that, other than she said that she had 
requested numerous times not just personnel but material.
    Senator Levin. This really gets to the question of Senator 
Graham, as to if you need additional forces, you should ask for 
them and not think that it will not be welcome. Whether or not 
that feeling existed, that a request for additional forces 
would not be welcome and what role that played. That is 
something which is a very serious question. It is addressed by 
implication somewhat in the Schlesinger report. It is not 
really addressed in your report.
    General Kern. Senator, I think what we both state and we 
both agree, there are insufficient military police and MI for 
the missions at hand because not only were these military 
policemen being asked to secure detention facilities, they were 
also conducting road security operations and many other 
security operations. The Army has felt for a number of years 
now that we have been short military police and are converting 
artillery units to military police as quickly as possible.
    Senator Levin. The issue that needs to be addressed, 
though, is the one I raise as to why there was no additional 
request for those police, and there is no answer in your 
report. It is essential we find out whether it was because 
someone thought wrongly they had enough troops or because they 
thought a request would not be welcome, which is what the 
Schlesinger Panel suggests happened, relative to the Karpinski 
request.
    General Kern. I think, as General Jones reported, the 
initial assessment, and I cannot tell you whether it was the 
final assessment or not, was that there were enough, if they 
had been reallocated within theater because, remember, we were 
collapsing the number of detention facilities and trying to 
consolidate. But at the same time that that happened, the 
number of detainees started growing. So you had two opposing 
issues and exactly how that assessment was presented to General 
Sanchez is not clear.
    Senator Levin. Thank you.
    General Jones. If I may add, that is exactly right. In May 
2003, there were certain units that had already been mobilized 
who were demobilized because we were reversing and drawing down 
the troop strength.
    The other thing that was dysfunctional was the tactical 
control relationship to CJTF-7 of the 800th MP Brigade. So 
their logistics and support chain was back through the 377th 
back in Kuwait where there is not an adequate individual 
replacement system. The MP brigade was losing people going back 
to the States all the time and there was an insufficient 
individual replacement system set up.
    Senator Levin. Thank you.
    General Whitcomb. Senator, if I may, Mr. Chairman. Just to 
add, hearing a lot of conversations with General Abizaid and 
his component commanders, his statement from the time he took 
command was very clear. If you need another ship, airplane, 
soldier, or marine, do not hesitate to ask and we will go up. 
So there was not any command pressure from the CENTCOM 
commander to not ask for forces, and that carried down through 
the Central Command staff also.
    Senator Levin. Thank you.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Alabama had three MP companies in the 
Baghdad area, and one, the 1165th, was extended for an extra 90 
days more than they expected to be there. We frankly did not 
have as many MPs in our system as we needed as we configured 
our military today. I think we will have more in the future 
when we continue our transformational process. So I do not 
think there is any doubt about that.
    But, General Fay, from your review or, General Taguba, if 
you would like to comment, normally a shortage of personnel 
would result in such things as failure to feed prisoners 
sufficiently, exercise them, poor conditions, maybe inability 
to maintain discipline and put down a revolt or something like 
that. I do not see being short of personnel, the ideal number 
we would like to have had for them to have there, could be a 
justification for guards taking their time that presumably was 
short to take people out of the prisons and abuse them. Would 
you agree with that?
    General Fay. Certainly there is no justification for ever 
doing any sort of prisoner abuse no matter what the numbers 
ratios are, sir.
    Senator Sessions. I just would say I think if we have too 
few MPs in a prison, you can have things like failure to really 
take care of the prisoners, failure to maintain discipline, put 
our guards at risk because they do not have enough strength 
there, but I do not think that should be a basis to justify 
this kind of action.
    I think I would ask this, General Kern, just to reiterate 
your analysis and review of all of these reports, has there 
been any policy statement or document that would have advocated 
policies such as the abusive policies that we have seen in 
photographs in these internment operations, or did the soldiers 
who carried out these abusive acts know they were in violation 
of military standards in your opinion?
    General Kern. I think we found cases that we have reported 
that reflect all of those circumstances. There were policy 
directives that resulted in techniques to be used not in Iraq 
that found their way in there. There were misinterpretations of 
policy, as we reported earlier, with respect to how dogs were 
to be used that turned into an abuse but was clearly not 
directed that way. Then finally, we found soldiers who thought 
that they had approval to do something, interview a naked 
detainee. When asked about it afterward, was that a violation 
of the Geneva Conventions, and they said, ``Well, yes, I guess 
it was.'' So that was a failure for their system there for them 
to interpret, in fact, that they were creating a violation.
    Senator Sessions. So some of them could have thought some 
of the techniques that they were doing were legitimate in your 
view. Is that what you are saying?
    General Kern. In our view, in fact, we found cases where 
they thought they had an approval to do something that was an 
abuse.
    Senator Sessions. But the kind of abuses we saw in the 
photographs, you found nothing that would have justified that 
kind of action.
    General Kern. Absolutely nothing.
    The abuses in the photographs are a very different set of 
issues from the abuses that we are reporting here. I will ask 
General Fay because he went through those photographs in detail 
trying to identify each individual against the personnel that 
we have identified in our reports. Those cases were willful 
misconduct in our view on the part of the individuals. There 
was at least one case where we identified a picture and a 
photograph which corresponds to one of the abuses that we have 
reported. But the vast majority of everything that you have 
seen in the photographs was just misconduct not in accordance 
if anybody had followed the doctrine.
    Senator Sessions. But if you read the doctrines and if you 
read the policies and you read them carefully and followed them 
strictly, it would not have justified a muzzled dog in 
interrogation, would it? I mean, that was something possible in 
Guantanamo.
    General Kern. It is not even possible in Guantanamo.
    Senator Sessions. Is that right?
    General Kern. That is right, Senator.
    Senator Sessions. But some of these things may have worked 
their way through some way into the system, but technically 
speaking, no authorization for those abuses, no actions outside 
the Geneva Conventions were authorized?
    General Kern. We found continuously, when we asked the 
question, did you know that the Geneva Conventions apply to 
everything that you were doing in Iraq with respect to 
detainees, the answer came back, ``Yes, we understood that.'' 
Did they understand what that really meant in terms of the 
actions that they took? It was either a willful misconduct of 
disobeying that or a few cases that we reported where they just 
thought they had an approval but did not.
    I would ask General Fay because he really, I think, has 
some of the details that would help.
    General Fay. Yes, sir. First, I just want to make sure we 
are clear as regards to the dogs issues, because Colonel Pappas 
did believe he had the authority to use muzzled dogs and was 
granting that authority. So therefore the soldiers that were 
using muzzled dogs were doing it, we considered it an abuse, 
but they thought they were doing things appropriately.
    Senator Sessions. Was there any instance of dogs actually 
being allowed to maul or bite a prisoner?
    General Fay. There were actually some bitings that 
occurred. That was not part of an interrogation process, but a 
number of the 44 instances we go through, there was one 
instance, maybe two.
    Senator Sessions. In the prison?
    General Fay. In the prison, and there actually are pictures 
of the detainee after he was bitten by the dog. But that was 
not relating to the interrogation process.
    There is one set of photos that we believe was part of the 
softening up process where MI was encouraging MPs to use the 
dogs to soften up a particular detainee who was a high-value 
detainee.
    Senator Sessions. Police officers use dogs, and if a person 
resists arrest or something, they are authorized to allow the 
dog to either threaten or even attack, if they feel threatened. 
You can use dogs in prisons for legitimate prison activities to 
protect guards so you do not have to shoot perhaps a prisoner. 
There might be an alternative of letting a dog keep the person 
back rather than deadly force.
    General Fay. Yes, sir, and that is the way they are used in 
Guantanamo, and that is what General Miller was referring to in 
his conversations that he had with Colonel Pappas and with 
others in Iraq. Dogs are currently being used in Abu Ghraib 
even today, but for the reasons and the methodologies that you 
outlined, not for the incorrect use, which is to use them in 
the interrogation process.
    Senator Sessions. I salute you for maintaining discipline 
and reasserting the fundamental values that America adheres to. 
We know that mistakes occur. I think you have gone beyond--
frankly, I hate this taking so much time and effort, but you 
have accomplished a lot and we thank you for it.
    Chairman Warner. Thank you, Senator.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Jones, let me follow up. I want to make sure I 
heard you correctly. You indicated that General Fast was aware 
of the death of detainee 28?
    General Jones. I am not sure which number it is. She was 
informed of the November 4 case of the detainees brought in. 
She was called and informed of that death and she reported 
directly to General Sanchez that it had happened.
    Senator Reed. So as of November 4, General Sanchez was 
aware that there were significant violations, the death of a 
detainee. Is that correct?
    General Jones. She was aware of the death of the detainee 
and she followed up, as General Sanchez directed, to go to the 
chief of station and ensure that an investigation was 
initiated.
    Senator Reed. Is there not a responsibility, since the 
death was in the custody of the United States Army, to do 
something more than that?
    General Jones. The CID took that on.
    Senator Reed. Was informed?
    General Jones. I think the results of that just came out 
recently.
    Senator Reed. You also indicated, General Kern, that 
General Fast also worked for the CPA. Is that correct?
    General Kern. She supported the CPA. A considerable amount 
of her time was spent supporting the CPA.
    Senator Reed. So she essentially had, if not formally, 
informally two commanders, Ambassador Bremer and General 
Sanchez, maybe not in the strict formal sense.
    General Kern. Formally, she had one commander. Informally, 
she was reporting to two different headquarters, yes.
    Senator Reed. You have not had an opportunity to interview 
Ambassador Bremer or other CPA officials?
    General Kern. That is correct, Senator.
    Senator Reed. So it is conceivable that she was receiving 
instructions from Ambassador Bremer and the CPA that were 
different or inconsistent from instructions she received from 
General Sanchez?
    General Kern. It is conceivable, but it never came out in 
any of our interviews that that is the case.
    General Fay. I do not believe it is conceivable, sir. I 
spent a great deal of time with General Fast on two occasions, 
and I believe, through all my questioning, she would have 
revealed that to me if that were the case.
    General Jones. General Sanchez----
    Senator Reed. Excuse me. Did you ask her specifically if 
she received guidance from anyone else?
    General Fay. I did not, sir.
    Senator Reed. You did not. So that is a conjecture on your 
part.
    General Fay. It is, sir.
    Senator Reed. General Jones?
    General Jones. I specifically asked General Sanchez if he 
got direction from Mr. Bremer, and he said occasionally he 
would ask us to do things. If any of his guidance or requests 
conflicted with the guidance he got from the CENTCOM commander, 
he would go back to the CENTCOM commander to clarify the----
    Senator Reed. That is General Abizaid?
    General Jones. Yes, sir.
    Senator Reed. With respect to the information that Colonel 
Warren had with potential violations of the Geneva Conventions, 
as you cite in the report, how long did he wait before 
informing General Sanchez of the possible violations of the 
Geneva Conventions?
    General Kern. In my view General Sanchez was not informed 
until after the atrocities came out. The person that he 
informed was General Karpinski. Let me make sure I have that 
correct from General Taguba because that was the part that he 
followed.
    General Taguba. Yes, sir. The trail was the serving 
battalion commander, an acting battalion commander at Abu 
Ghraib was at an out-brief by ICRC in October, which was in 
General Karpinski's chain of command.
    Chairman Warner. Let us put his name in the record.
    General Taguba. Yes, sir. It is Lieutenant Colonel Chew, C-
h-e-w.
    Senator Reed. Let me try to understand this. Colonel Warren 
is the staff judge advocate for General Sanchez.
    General Kern. CJTF-7, correct.
    Senator Reed. He is the staff judge advocate. He has been 
informed that there are serious violations potentially of the 
Geneva Conventions. He is the chief legal officer in theater. 
He is responsible more than anyone else on a staff level to 
ensure that these laws are interpreted correctly and followed. 
He received that notification, roughly when would that be? Does 
anyone know?
    General Kern. It was November I think.
    General Jones. He was on leave from November 8 or 12 to the 
end of November, his mid-tour leave. He came back and the ICRC 
report had been worked by his staff, and they had prepared a 
response for General Karpinski. It is that time, early 
December, that he saw it.
    Senator Reed. Now, he was not notified while on leave of 
this development? This was done at a staff level by a deputy?
    General Jones. Not that I am aware of.
    Senator Reed. The officer assigned to investigate these 
charges, at least to validate them, and prepare a letter was 
Major O'Kane of the Australian Army. Is that correct?
    General Kern. He was at least one of the people involved.
    Senator Reed. He apparently, from the report, actually 
drafted the response that General Karpinski said she signed 
without any specific knowledge. Is that accurate?
    General Fay. Yes. I believe it was Major O'Kane from the 
Australian Army that actually went to Abu Ghraib.
    Senator Reed. Major O'Kane has refused to make himself 
available to any questioning by this panel. Is that correct?
    General Fay. I am not sure that is technically correct. We 
made our request through the Australian government. I am not 
sure whether the lack of a response to produce Major O'Kane was 
his decision or the Australian government's decision. They did 
respond in writing very recently to some written questions we 
submitted to Major O'Kane.
    Senator Reed. But a key witness, if you will, to the 
incidents of the ICRC report, who knew what within the JAG 
section, whether Colonel Warren was fully apprised of it, when 
General Sanchez was apprised, has been beyond the scope of your 
investigation. You have not reached him.
    General Fay. That is correct, sir.
    Senator Reed. But the situation which troubles me, frankly, 
is you have the key staff officer responsible for informing the 
commander of the operation of the Geneva Conventions, respect 
for it, and that person has information, credible information, 
which he withholds. Again, I will re-ask the question. I did 
not get an answer. When did he finally indicate to General 
Sanchez that this had been going on? How many weeks or months?
    General Kern. I would have to go back and check for a 
specific date, but I believe the answer is January, which would 
have been about a month after he knew of it.
    Senator Reed. He knew it for a month, and his revelation to 
the General was contemporaneous with the photographs coming to 
light. Is that correct?
    General Kern. That is our knowledge, yes, Senator.
    Senator Reed. That is correct. To me, that is a gross 
disservice to General Sanchez as the Commander. Yet, this 
report concludes, General Jones, that the staff of CJTF-7 did 
everything reasonably they could do. I beg to disagree. I 
respect your position, but I beg to disagree. I think the 
obligation of that officer was to inform his commander 
immediately. Maybe these suspicions were unfounded, but then to 
investigate fully. Apparently the investigating officer has 
gone to Australia and has not cooperated with any degree. I 
think that is a glaring omission in this report.
    General Kern. Senator, I think what we conclude in the 
report is that the whole method of receiving and processing the 
ICRC reports is inadequate and it needs an independent person 
involved. Our suggestion is that it ought to be somebody in the 
Inspector General chain of command who would take that report, 
not somebody in the staff process.
    Senator Reed. General, I respect that and that is a good 
recommendation. But it still does not answer the question why 
in terms of your recommendations, you have not indicated that 
it was a glaring error from the staff of this combined task 
force to inform their commander. Then there is another 
dimension, which is the UCMJ, which General Fay cites in his 
report very accurately the responsibility to report that 
officially as a crime.
    This raises to me in my mind two very important questions. 
First, the question of the scope of this investigation. Are you 
applying the same standard of justice and accountability to low 
ranking officers as you are to higher ranking officers?
    General Kern. In our judgment, we are and I would expect 
that you would hold us to that standard as well. That is why we 
clearly went through and did the reviews of what we define as 
culpability versus responsibility. We have had a number of 
discussions with our legal staffs about where that line is. 
Now, Senator Warner has asked us to relook that in the light of 
the recommendations made with the Schlesinger report, and we 
will do that and relook those recommendations.
    Senator Reed. I appreciate it.
    Chairman Warner. I think the line of questioning by our 
colleague merits, with regard to this particular colonel, that 
similarly should be examined in that light.
    General Kern. He was one that I included in that list.
    Senator Reed. Yes, and he is in here.
    General Jones. I have not seen the ICRC report, whether or 
not it specifically referred to instances that could be 
categorized as abusive. I think the responsibility, I agree 
with you, to inform the commander if the substance of those 
reports were such that there were abuses was there. Now, having 
not seen the ICRC report and the details, they did owe an 
investigation also, at least an analysis, to determine if there 
were abuses. Or if the report of the ICRC was doing merited 
further investigation, and they should have done that before 
they informed the commander also.
    Senator Reed. I have seen the reports, General. My 
recollection is they report the prisoners were kept naked, 
prisoners were being held in conditions that I think the 
reasonable person, let alone the reasonable international 
lawyer, would conclude were, per se, violations or at least 
plausible violations.
    But let me go on. There is something here too. You are 
making this differentiation between culpability and 
responsibility. I assume under the UCMJ it is the 
responsibility of someone who has been informed about abuses to 
report the violations. Apparently Colonel Warren did not report 
those violations to his immediate commander. Colonel Bolt, who 
was cited in the report, the discussion with Colonel Pappas--
and again, there is a gap in the information. But I have to 
believe that if I were the 06 witnessing what happened on 
November 4 and other incidents, that I would simply not walk in 
and have a technical discussion about the standard operating 
procedure (SOP) for the CIA. I think I would tell them this is 
what they are doing down there in this prison. What do I do? 
The message was cooperate. We are just one big team. In other 
words, look away.
    Now, the real question that troubles me and I do not think 
you reached this in the report, these are all professional 
soldiers, highly capable people. You might disagree with some 
of them as being not up to the standards of a general officer 
or a colonel or a captain, but I have met General Fast. I share 
your judgment. She is a superb professional. I think General 
Wojdakowski would not be the Deputy Commander unless he 
similarly had those skills. Colonel Warren was here testifying. 
He impressed all of us as a remarkably intelligent and 
dedicated officer, not only a professional soldier but a 
lawyer.
    Why would all these people not follow Army regulations, not 
report violations of the Geneva Conventions, wait months to 
inform commanders of vital information, and then take action 
which was designed not to report these violations, but simply 
to try to fix them going through the CIA?
    There are many answers I have. One, is that they were told 
to do that. I do not think they were told that by General 
Sanchez because frankly, it appears to me based on the report, 
General Sanchez was kept in the dark. But somebody I think 
suggested that these people should not do what professional 
soldiers should do.
    I am looking at all of you gentlemen. I think if you found 
out that your staff officers, your subordinates were doing 
this, it would not take a year of investigations. They would be 
fired immediately and charged with dereliction of duty, 
particularly if you found out if they were hiding information 
from you.
    I do not think you have reached that, to me, basic question 
of what went on out there. I appreciate what you have done. I 
appreciate your service to the country and to the Army.
    Chairman Warner. Thank you. Let us give the panel an 
opportunity to reply to the Senator's observation. He may not 
have couched it in a direct question but the chair gives you 
such opportunity as you and your colleagues wish.
    General Kern. Senator Reed, I think we are troubled by the 
same issues that you raise, and in our review of it, our 
judgment was to hold these people responsible for their staff 
actions but not culpable for criminal actions. That was the 
judgment which we reached in looking at it. If there is 
additional information, as you suggested that there may be, 
that is a different circumstance than what we found in our 
investigation.
    I take very seriously and I think every member of this 
panel takes very seriously that we hold all ourselves to the 
same standard. We looked at this very seriously. There was a 
great deal of review by multiple personnel, to include lawyers, 
and the judgment we made is the one of responsibility. The 
people that you referred to all acknowledge that they should 
have done more. The line that we drew was whether or not they 
were in a position to have prevented, taken part, condoned, or 
participated in an abuse, and that is the distinction that we 
worked through from a legal standpoint.
    The issue that you bring up of dereliction of duty, we 
report as where they failed in their responsibilities and their 
staff action. That report has been provided to their chains of 
command, the same as we provided it to you. So they have the 
same information to deal with as you and I do.
    We are taking on also, to further avail ourselves of the 
information which the Schlesinger panel may have found, which 
may provide different information and get back to your 
committee in response to whether or not our judgments would 
have a different outcome if we considered that information.
    I would clearly ask my other panel members to comment.
    General Jones. I would agree, sir, and I appreciate your 
logic and how you are seeing what we have reported. I think 
that same logic has to be applied by the commanders in the 
chain of command, the people we have given the report to. 
Certainly if there was knowledge, it should have been reported. 
The issue becomes how much knowledge did they have and to 
ascertain that level of knowledge and what actions they did 
take. There are instances, outside of the ICRC report in terms 
of the CID and other investigations that were reported. They 
did have a method to track it, and they did keep the commander 
informed. So it is an issue of which abuses and knowledge level 
of abuses, and they applied their military experience to tell 
that commander. Certainly in some cases they should have.
    I will tell you in other cases they told the commander 
right away and investigations were initiated and it was done 
properly. There were instances that dealt with the agency that 
were handled very quickly and to get a response to make sure 
they complied with the rules and the policies in place.
    Senator Reed. Thank you, gentlemen.
    Chairman Warner. Thank you.
    The revelation by our distinguished colleague about this 
Australian officer, that he is somehow at the moment beyond 
your ability to interrogate, it seems to me you ought to 
consider sending someone from the judge advocate staff out 
there to take his deposition under oath. I would assume the 
government of Australia would agree to that because I think 
that is an integral piece of evidence here as to the timing and 
the circumstances under which the staff judge advocate to 
General Sanchez had knowledge.
    General Fay. Sir, just so you understand, we did ask for 
that.
    Chairman Warner. Did you?
    General Fay. Yes, and all that we were provided was that 
they would agree to have us submit questions in writing and for 
him to give the answers in writing. In fact, we only got those 
answers 2 weeks ago.
    Chairman Warner. Did they bear on this issue with any 
detail in your judgment?
    General Fay. No. They were insufficient to answer the 
questions being raised today. It really would be much more 
beneficial if we were able to question the gentleman directly.
    Chairman Warner. I personally agree with my colleague here, 
to intervene, if necessary, with the Australian government, but 
I would like first to have the Secretary of Defense review what 
his options are to back up the work of this panel.
    Senator Levin. Just one last question on the Secretary of 
Defense, if I may. It has to do with the fact they apparently 
approved Tenet's request to keep a CIA detainee at a military 
detention facility in Iraq without informing the ICRC of that 
presence. Did you talk to the Secretary of Defense about that 
approval? Did it take place and whether that approval, if it 
occurred, relates to the presence of the ghost detainees at Abu 
Ghraib?
    General Kern. Sir, we did not ask him about that. It did 
not occur at Abu Ghraib.
    Senator Levin. No, but could it relate to----
    General Kern. --it could relate, yes.
    Senator Levin. Should he not be asked then about why he did 
that, and should you not tell us in a report whether or not 
that decision on his part to approve that, which is a violation 
of the Geneva Conventions, whether that in some way is related 
also to the presence of ghost detainees at Abu Ghraib?
    General Kern. Sir, there are enough unknown questions about 
the ghost detainees and what agreements were made with whom. It 
is why we asked, per the directions that we have, for the DOD 
Inspector General and the CIA Inspector General to take it on.
    Senator Levin. I think we ought to be informed of that. I 
think it is an important part of the ghost detainee issue.
    Thank you, Mr. Chairman.
    Chairman Warner. Gentlemen, we compliment you once again 
for a very thorough job, and I thank you for taking on the 
added responsibility to try and reply to several questions.
    Senator Levin. I think we are all grateful.
    Chairman Warner. The record will remain open through the 
close of business tomorrow night for such other questions that 
might be promulgated by members of the panel to you.
    Thank you again very much. You have done a great service to 
the country, to the DOD, and to your Army which you have given 
so much of your life, together with your families. We are 
adjourned.
    [The report ``Investigation of Intelligence Activities at 
Abu Ghraib'' follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Susan Collins
                            chain of command
    1. Senator Collins. General Taguba, did you see any indication that 
the initial reports of abuse at Abu Ghraib prison were not taken 
seriously by investigators of the Department of Defense (DOD) chain of 
command?
    General Taguba. The CG, Combined Joint Task Force-7 (CJTF-7), 
immediately directed an investigation by the Army Criminal 
Investigation Division into the allegations of prisoner abuse at Abu 
Ghraib upon being notified of the allegations on or about 16 Jan 04. 
Subsequently, Lieutenant General Sanchez requested Commander, Central 
Command (CENTCOM) for a two-star general officer to conduct an 
investigation into the allegations. On 24 Jan 04, I was initially 
notified of my appointment to conduct the investigation under the 
provisions of AR 15-6. The formal appointment was signed by Lieutenant 
General McKiernan, CG, Combined Forces Land Component Command (CFLCC) 
on 31 Jan 04. I found no evidence that any investigators or members of 
the chain of command at CJTF-7 or above did not take the allegations 
seriously.

    2. Senator Collins. General Kern, who in General Sanchez's chain of 
command reported directly to him regarding detention and interrogation 
operations?
    General Kern. The Deputy Commanding General, Major General 
Wojdakowski, and the CJTF-7 Staff reported directly to Lieutenant 
General Sanchez. General Karpinski and Colonel Pappas reported to the 
Deputy Commander rather than to General Sanchez directly.

    3. Senator Collins. General Kern, did General Karpinski ever 
directly brief General Sanchez?
    General Kern. Yes, Brigadier General Karpinski briefed General 
Sanchez on several occasions.

    4. Senator Collins. General Kern, did Colonel Pappas report to 
General Karpinski, or up through a separate intelligence chain of 
command?
    General Kern. Both were separate brigade commanders and reported 
separately through different channels of the CJTF-7 chain of command.

                              use of dogs
    5. Senator Collins. General Fay, was there any link of using dogs 
in Afghanistan and Iraq?
    General Fay. We are unaware of any evidence to suggest that dogs 
where used during interrogations in Afghanistan. Therefore, we do not 
believe there was a link.

    6. Senator Collins. General Fay, who conceived the idea of using 
dogs as an interrogation technique?
    General Fay. We do not know who originally conceived the idea to 
use dogs during interrogations at Abu Ghraib. We do know that Major 
General Geoffrey Miller spoke to Colonel Thomas Pappas and others when 
Major General Miller made his visit to Iraq in late August early 
September 2003 about the use of dogs. Major General Miller suggested 
that dogs be used for security and control purposes as they are used at 
Guantanamo (GTMO). Pappas asserts that he perceived that Major General 
Miller was suggesting that dogs be used during interrogations. When 
Colonel Pappas later authorized the use of dogs during interrogations 
he believed he was following Major General Miller's suggestion.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin
                            white house memo
    7. Senator Levin. General Fay, on February 7, 2002, the President 
determined that the Geneva Conventions did not apply to the conflict 
with al Qaeda, and that detainees were to be treated consistent with 
the principles of the Convention only ``to the extent appropriate and 
consistent with military necessity.'' The Schlesinger Panel Report (p. 
10) states that when General Sanchez approved interrogation techniques 
that included a dozen techniques beyond those authorized by Field 
Manual (FM) 34-52 and five beyond those approved for Guantanamo, he 
used ``reasoning from the President's Memorandum of February 7, 2002.'' 
What is your understanding of the leeway given military interrogators 
to deviate from the standards of the Geneva Conventions by the phrase 
``to the extent appropriate and consistent with military necessity?''
    General Fay. I did not interview Lieutenant General Sanchez. We do 
not believe that Lieutenant General Sanchez and his staff relied 
directly on the 7 February 2002 document. The 7 February 2002 document 
led to the adoption of the 16 April 2003 policy that Secretary Rumsfeld 
approved for detainees at Guantanamo. The Guantanamo policy became a 
principal source for the CJTF-7 policies of September and October 2003. 
Our understanding is that the interrogators at Abu Ghraib did not have 
any leeway to deviate from the standards of the Geneva Conventions. 
(See also answer to question #9.)

    8. Senator Levin. General Fay, do you believe that military 
interrogators understood that guidance?
    General Fay. I do not think that the military interrogators at Abu 
Ghraib understood the guidance issued by CJTF-7 as it was issued in 
September and October 2003.

    9. Senator Levin. General Fay, how did the President's February 7, 
2002 decision end up influencing interrogation guidelines in 
Afghanistan and Iraq?
    General Fay. I did not investigate interrogation operations in 
Afghanistan. The President's decision dated February 7, 2002 influenced 
policy in Iraq indirectly in that it was used to justify methods 
approved and used in Afghanistan and Guantanamo. Written documents from 
both places were then used as references for drafting the Iraq policy/
guidance documents. Additionally, military interrogators had worked in 
both Afghanistan and Guantanamo before being sent to Iraq and brought 
the techniques used in those other places with them.

    10. Senator Levin. General Jones, do you agree with the Schlesinger 
Panel's statement that General Sanchez used the reasoning in the 
President's determination when formulating the aggressive interrogation 
techniques for Iraq and, if so, what arguments from that decision did 
General Sanchez rely on when he approved those interrogation methods?
    General Jones. Lieutenant General Sanchez repeatedly stated that 
the Geneva Conventions applied to detainees in Iraq. He also reiterated 
this guidance in his policy memos. CJTF-7 Interrogation and Counter-
Resistance Policy memos were modeled after the 16 April 2003, Secretary 
of Defense (Secretary of Defense) memo directed to Guantanamo Bay, but 
modified for applicability to a theater of war in which Geneva 
Conventions apply. I have no evidence that Lieutenant General Sanchez 
or anyone on his staff had knowledge of the President's Memorandum 
dated February 7, 2002, subject: Humane Treatment of al Qaeda and 
Taliban Detainees. To the extent that Lieutenant General Sanchez and 
his staff relied on the Guantanamo policy and to the extent that policy 
was based on the President's 7 February 2002 document, Lieutenant 
General Sanchez relied indirectly (but unknowingly) on the President's 
determination.

                               confusion
    11. Senator Levin. General Jones and General Fay, your reports 
contain numerous findings concerning confusion or lack of clarity:

        <bullet> There was a lack of clear command and control of 
        detainee operations at the CJTF-7 level;
        <bullet> The fragmentary order appointing Colonel Pappas as the 
        commander at Abu Ghraib was unclear;
        <bullet> The lines of authority and accountability between 
        Military Intelligence (MI) and Military Police (MP) were 
        unclear and undefined;
        <bullet> Responsibilities for managing operations and 
        establishing good order and discipline in the Joint 
        Interrogation and Debriefing Center were unclear and led to 
        lapses in accountability; and most importantly,
        <bullet> DOD's development of multiple policies on 
        interrogation operations for use in different theaters or 
        operations confused Army and civilian interrogators at Abu 
        Ghraib.

    General Fay, as you succinctly put it in your report: ``Concepts 
for the non-doctrinal, non field-manual approaches and practices came 
from documents and personnel in GTMO and Afghanistan. By October 2003, 
interrogation policy in Iraq had changed three times in less than 30 
days and it became very confusing as to what techniques could be 
employed and at what level non-doctrinal approaches had to be 
approved.''
    Who was responsible for the confusion that General Fay reports?
    General Jones and General Fay. The confusion referred to was the 
result of the lack of a clear Military Intelligence Chain of Command 
for Interrogation Operations. The Joint Interrogation and Debriefing 
Center (JIDC) was an organization quickly patched together by bringing 
together individuals from all over the Army. Additionally, civilian 
contractors were used and that further complicated the situation and 
contributed to the confusion due to their inadequate training and 
organization. There was only one officer, a captain, assigned to the 
JIDC that had any interrogation experience. At the CJTF-7 level there 
was also an almost total lack of experience on the C2 staff on 
interrogation operations and the C2 staff was never adequately staffed 
during this critical time period. The Staff Judge Advocate office was 
also short on experience in the area of interrogation operations and it 
too was understaffed for all the demands being placed on it during the 
period being investigated. Lines of authority and accountability for 
executing the interrogation mission were not established below the 
brigade level in the 205th MI Bde. The establishment of the JIDC and 
appointment of LTC Jordan was a measure intended to provide leadership 
within the interrogation soldiers working at Abu Ghraib. LTC Jordan did 
not execute his leadership role or take ownership of the mission given. 
There was a clear failure to establish leadership at the lower levels 
of responsibility and to provide appropriate guidance to soldiers 
executing the mission.

                   coercive interrogation techniques
    12. Senator Levin. General Fay, one of the findings of your report 
is that as a result of national policies and DOD directives that were 
inconsistent with Army doctrine on detainee treatment or interrogation 
tactics, leaders at CJTF-7 developed interrogation policies and 
practices that lacked a basis in Army interrogation doctrine. Which 
``national policies and DOD directives'' are you referring to? Would 
these include:

        <bullet> The December 2002 Secretary of Defense memo--later 
        rescinded--approving for use at Guantanamo interrogation 
        techniques including nudity, exploiting detainees' fears, 
        including through use of dogs, and stress positions.
        <bullet> The April 16, 2003, memorandum signed by Secretary of 
        Defense Rumsfeld approving approaches for use on Guantanamo 
        ``unlawful'' combatants, including six techniques not included 
        in the Army FM 34-52.
        <bullet> A Special Operation Forces (SOF) Standard Operating 
        Procedures (SOPs) which, according to the Schlesinger Report, 
        referred to non-doctrinal techniques in use in Afghanistan 
        starting in late 2002.
        <bullet> The Guantanamo SOPs provided by General Miller to 
        CJTF-7 during his assessment visit in early September 2003.

    General Fay and General Jones. The national policies and DOD 
directives referred to did include the December 2002 Secretary of 
Defense memo, the April 16, 2003 Secretary of Defense memo, and the 
Guantanamo SOPs. We did not refer to a SOF/SOP from Afghanistan. The 
SOF/SOP we referred to was from Joint Task Force (JTF)-121 that was 
operating in Iraq and the document was titled ``Policy No. 1--
Battlefield Interrogation Team and Facility (BIT/F) Policy'' dated 15 
July 2003. However, based on my investigation, I believe the contents 
of that policy were derived from SOF operations in Afghanistan.

    13. Senator Levin. General Fay, did these high-level policy 
memoranda contribute to the use at Abu Ghraib of aggressive 
interrogation techniques not provided for in the Army FM 34-52?
    General Fay. Yes. As noted in my report the confusion created by 
the lack of clear guidance to the interrogators at Abu Ghraib led to 
the use of dogs during interrogations, improper use of isolation that 
amounted to abuse, and forced nudity that was intended to be 
humiliating to the detainees.

    14. Senator Levin. General Fay, in your personal opinion, why did 
soldiers get the impression that techniques approved by the Secretary 
of Defense or incorporated into the SOPs of U.S. forces in Afghanistan 
were condoned for use in Iraq?
    General Fay. My opinion as investigating officer is that when the 
conflict in Iraq first began there was no written guidance on 
interrogation operations except for the Army FM. When the conflict 
shifted from combat operations to a counterinsurgency the soldiers 
involved in interrogations determined that they needed more than what 
the FM provided as regards to techniques. Some of them had served in 
Afghanistan and saw the developing situation in Iraq as being similar 
to that situation and thought that they should have the same 
authorities in Iraq that they had in Afghanistan.

                         ``gloves coming off''
    15. Senator Levin. General Fay, according to press reports, an Army 
intelligence officer at CJTF-7 in Baghdad issued a memo to subordinates 
in July 2003 stating that ``the gloves are coming off, gentlemen'' 
regarding the treatment of insurgents detained in Iraq. The memo 
solicited a ``wish list'' of interrogation techniques felt to be 
effective. The memo reportedly also cited the senior intelligence 
officer at CJTF-7 as stating that ``we want these individuals broken.'' 
(Washington Post, 8/23/04; Baltimore Sun, 8/24/04; New York Times, 8/
24/04.) In the course of your investigation, did your team see this 
memorandum or question senior officers regarding its contents?
    General Fay. During our investigation we did not see that specific 
memo. However, we now have a copy of it. It was actually an e-mail 
message. Although we did not see that specific e-mail in initial 
investigation, we did speak with many witnesses that substantiated what 
that message and other such communications were saying. Those 
communications were both verbal and written and their intent was to 
heighten the awareness of the interrogators regarding the urgency of 
their mission and to ensure they were taking all possible steps within 
the law and regulations to elicit information. We found no 
documentation that directed that law or regulation be violated in order 
to obtain that information. No one told us of any verbal direction they 
received to suggest they violate law or regulation.

    16. Senator Levin. General Fay, did you find evidence that senior 
officers at CJTF-7 encouraged the use of harsher interrogation 
techniques on insurgents detained during the period in question?
    General Fay. By senior officers I understand you to mean general 
officers. I did not find any evidence that suggests that senior 
officers encouraged the use of harsher techniques. I did find that 
Lieutenant General Sanchez wanted to make sure that interrogators were 
using all the techniques available to them that were in accordance with 
laws and regulations. I am assuming that by ``insurgents'' you are 
referring to all detainees at Abu Ghraib (many of whom were not 
insurgents).

    17. Senator Levin. General Fay, the memo also reportedly solicits a 
list of individuals in detention who would come under the category of 
``unlawful combatants,'' stating that such individuals ``may be treated 
as criminals under the domestic law of the captor.'' Is it your 
understanding that security internees at Abu Ghraib constituted 
``unlawful combatants'' for purposes of the Geneva Conventions?
    General Fay. As stated above, I did not review the specific memo in 
question. All detainees were to be treated in accordance with the 
applicable Geneva Conventions.

    18. Senator Levin. General Fay, did your investigation uncover any 
evidence of confusion regarding the proper categorization of 
individuals captured in Iraq?
    General Fay. I did not find confusion as regards how detainees were 
to be categorized. There was a huge challenge connected to finding out 
enough information on detainees in order to categorize them properly.

                     major general miller/gtmo role
    19. Senator Levin. General Fay, didn't the decision to send Major 
General Geoffrey Miller to Abu Ghraib, and the subsequent deployment of 
teams from Guantanamo Bay and Fort Huachuca to train military 
intelligence personnel at Abu Ghraib in Guantanamo operations, lead to 
the perception that techniques employed at Guantanamo Bay--which you 
find include stress positions, isolation for up to 30 days, removal of 
clothing, and the use of dogs to exploit detainees' phobias--were being 
encouraged or condoned for use at Abu Ghraib?
    General Fay. Major General Miller's visit to Iraq and Abu Ghraib 
did not result in the abuses detailed in my report. The use of dogs 
during interrogations did result from a miscommunication between Major 
General Miller and Colonel Pappas as noted in Question #6. However, the 
terrible, purposeful, abuses regarding dogs that occurred cannot in any 
way be considered a result of that miscommunication.

    20. Senator Levin. General Fay, who directed that Major General 
Miller go to Abu Ghraib in August 2003?
    General Fay. Major General Miller was sent to Iraq as a result of a 
request from Major General Ronald Burgess, Director of Intelligence 
(J2), Joint Chiefs of Staff.

                     conduct of the investigations
    21. Senator Levin. General Fay, the Schlesinger Report (p. 74) 
refers to written objections filed by the 72nd MP Company out of 
Nevada, calling into question interrogation practices of the MI brigade 
at the Abu Ghraib facility regarding nakedness of detainees. Did you 
investigate these objections by the 72nd MP Company?
    General Fay and General Jones. We interviewed seven soldiers from 
the 72nd MP Company, whom we believed to be the most knowledgeable 
regarding the events that took place at the ``hard site,'' in Nevada 
during one of their drill weekends. The results of those interviews 
were considered during the conduct of the investigation.

    22. Senator Levin. General Fay, in one MI soldier's statement he 
mentions a journal kept by a member of the 72nd MP Company detailing 
incidents of ill-treatment. Did you follow up on this reference to a 
journal?
    General Fay. We identified the individual as being SPC Donna 
Menesini, 72nd MP Company. She was interviewed by the media and stated 
that contrary to reports they had received she kept a diary of her 
experiences in Iraq but none of those involved detainee abuse. See 
Associated Press Report dated May 14, 2004. SPC Menesini was also 
interviewed by a team from the Nevada National Guard and told them the 
same thing.

    23. Senator Levin. General Fay, a September 6, 2004, report in 
Newsweek criticizes your investigation for leaving out an ``especially 
damaging allegation'' of abuse from the final report. The incident 
reportedly involved interrogators physically abusing the teenage son of 
an Iraqi general in order to ``break'' the general. The article cites a 
sworn statement by a military intelligence officer saying that 
``interrogators took his son and got him wet,'' ``put mud on face,'' 
and ``placed the son in an area where the father could observe him.'' 
According to the report, ``this broke the general.'' Did you receive 
any statements relating to this incident?
    General Fay. We did take two statements that related to the 
incident described in question 23. Those statements are attachments to 
our report. The statements are from Sergeant Samuel J. Provance and SPC 
James C. Gehman. The two witnesses did not know the identity of the 
interrogators and we could find no record of this interrogation. It was 
therefore impossible to verify if abuse occurred during this event.

    24. Senator Levin. General Fay, are there any allegations of 
incidents of abuse that were not included in your report? If so, why?
    General Fay. All allegations of abuse at Abu Ghraib prison from 
July 2003 through January 2004 were included to the best of my 
knowledge. We also had all statements reviewed by an experienced 
investigator who was not otherwise a part of the investigative team and 
he found no other allegations that were not addressed.

    25. Senator Levin. General Jones, your tasking was to examine 
whether organizations or personnel above the 205th MI Brigade chain of 
command, or events and circumstances outside the 205th MI Brigade, were 
involved, directly or indirectly, in the activities regarding alleged 
detainee abuse at Abu Ghraib. Did you interview any officers besides 
General Sanchez and General Fast?
    General Jones. The scope of my investigation was the chain of 
command above the 205th MI Brigade, with a specific task to interview 
Lieutenant General Sanchez. I relied on the very thorough interviews 
and sworn statements that had been collected by Major General Fay and 
other investigations to respond to the Appointing Authority directive. 
In addition to Lieutenant General Sanchez and Major General Fast, I 
interviewed LTC William H. Brady, LTC Melissa A. Sturgeon, and Major 
William (nmn) Ponce who were assigned to the C2, CJTF-7.

    26. Senator Levin. General Jones, did General Sanchez and General 
Fast's statements ever conflict with statements by others interviewed 
by General Fay, such as General Karpinski or subordinate officers?
    General Jones. Certain statements made by BG Karpinski were not in 
agreement with statements provided by Lieutenant General Sanchez or 
Major General Fast.

    27. Senator Levin. General Jones, did you or General Fay go back 
and re-interview anyone as a result of conflicting statements provided 
by either General Sanchez or General Fast?
    General Jones. I went back and questioned Lieutenant General 
Sanchez and Major General Fast as a result of subsequent statements 
made by BG Karpinski (who was interviewed by Major General Fay).

    28. Senator Levin. General Jones, did you interview either the 
Deputy Commanding General or the Deputy J2 at CJTF-7?
    General Jones. No. I relied on the interviews and sworn statements 
from Major General Fay's interviews.

    29. Senator Levin. General Jones, did you interview anyone at 
CENTCOM? If so, whom did you interview? If not, why not?
    General Jones. This was outside of the scope of my investigation. I 
did review CENTCOM orders and FRAGOs which were published and directed 
actions by the CJTF-7 during phase IV operations.

    30. Senator Levin. General Jones, did you interview anyone on the 
Joint Staff? If so, whom did you interview? If not, why not?
    General Jones. I did not interview anyone on the Joint Staff. This 
was out of the scope of my investigation. I did obtain documents from 
the Joint Staff which were needed to clarify orders and directives 
given to CENTCOM and had applicability to the Iraqi theater.

    31. Senator Levin. General Jones, did you interview anyone other 
than military officers within the DOD? If so, whom did you interview? 
If not, why not?
    General Jones. I did not. This was outside the scope of my 
investigation.

                       scope of the investigation
    32. Senator Levin. General Jones and General Fay, did you 
investigate whether actions by the White House contributed to a 
perception among the military Intelligence Community of high-level 
pressure to produce intelligence?
    General Jones and General Fay. Neither officer investigated this. 
Major General Fay asked all witnesses about ``pressure.'' Those that 
answered that they felt significant pressure were asked where that 
pressure came from. No one mentioned pressure as coming from the White 
House.

    33. Senator Levin. General Jones and General Fay, did any senior 
National Security Council (NSC) staff visit Abu Ghraib during the 
period in which abuses are alleged to have occurred? If so, who?
    General Jones and General Fay. LTC Jordan did provide information 
to the media about pressure he felt as a result of a visit to Abu 
Ghraib by Ms. Townsend of the NSC staff. He did not mention that visit 
to me on the two interviews I had with him. When I asked for a third 
interview to cover this and other points I discovered during my 
investigation he declined to make any further statements on advice of 
his attorney. I do not know when Ms. Townsend visited Abu Ghraib.
    I do not have any further information to answer Question #33.

    34. Senator Levin. General Fay, did you investigate any abuses 
alleged to have occurred either at the point of capture or at division-
level detention facilities prior to detainees arriving at Abu Ghraib?
    General Fay. I did not investigate any abuses at point of capture 
or division level detention facilities. Those instances were not within 
the scope of my assignment. However, during my investigation of abuses 
at Abu Ghraib, alleged abuses were reported to me by Special Operations 
units. I reported those allegations to Lieutenant General Sanchez and 
he immediately ordered another separate investigation, now known as the 
Formica investigation, into those instances.

    35. Senator Levin. General Fay, did you investigate the failure of 
medical personnel at Abu Ghraib to report indications of abuse of 
detainees that they may have seen or treated?
    General Fay. I did investigate instances of medical personnel 
failing to report abuses they either saw directly or saw the results of 
during treatment. Those involved were medics, not medical doctors. 
There were two medics cited. We also investigated an instance where a 
medical doctor failed to respond to a medical situation that required 
medical attention. See Incident #19 in the report of investigation.

    36. Senator Levin. General Fay, in one of your findings, you state 
that medical records were requested but not obtained. Why were you 
unable to get these medical records?
    General Fay. Although the medical personnel we interviewed told us 
that medical records were kept on the detainees, those records 
apparently were not maintained as detainees were released or 
transferred to Iraqi control. Even the records on some of the detainees 
that were still in our custody could not be located by the medical 
personnel. This is a significant shortcoming that was addressed in our 
recommendations.

    37. Senator Levin. General Fay, what steps have been taken on the 
recommendation in your report that an inquiry be conducted into whether 
medical personnel were aware of or failed to document and report 
prisoner abuse?
    General Fay. I do not know what specific steps have been taken.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                            jag involvement
    38. Senator Kennedy. General Jones and General Fay, to what extent 
did your investigation find that COL Marc Warren, his staff, and other 
JAG officers in Iraq (including CPT Fitch, MAJ Krazmier, and MAJ 
Franklin Raab named at page 25) gave incorrect legal advice on the 
application of the Geneva Conventions to interrogation of civilian 
detainees in occupation, or drafted interrogation standards not in 
compliance with the Geneva Conventions?
    General Fay and General Jones. The Judge Advocate General (JAG) of 
the Army has initiated an inquiry into matters regarding the activities 
of Army lawyers in this situation and the sufficiency of legal advice 
given to commanders. It would be inappropriate for General Kern, 
Lieutenant General Jones, or Major General Fay to comment at this time.

    39. Senator Kennedy. General Jones and General Fay, if they gave 
correct advice, was it followed?
    General Jones and General Fay. The JAG of the Army has initiated an 
inquiry into matters regarding the activities of Army lawyers in this 
situation and the sufficiency of legal advice given to commanders. It 
would be inappropriate for General Kern, Lieutenant General Jones, or 
Major General Fay to comment at this time.

    40. Senator Kennedy. General Jones and General Fay, during the 
period of September and October 2003, to what extent did consultation 
occur with legal officers outside of this command?
    General Jones and General Fay. The JAG of the Army has initiated an 
inquiry into matters regarding the activities of Army lawyers in this 
situation and the sufficiency of legal advice given to commanders. It 
would be inappropriate for General Kern, Lieutenant General Jones, or 
Major General Fay to comment at this time.

    41. Senator Kennedy. General Jones and General Fay, to what extent 
did the legal staff have access to the ``Working Group Report'' headed 
by the General Counsel of the Department of the Air Force or drafts or 
extracts from this document?
    General Jones and General Fay. The JAG of the Army has initiated an 
inquiry into matters regarding the activities of Army lawyers in this 
situation and the sufficiency of legal advice given to commanders. It 
would be inappropriate for General Kern, Lieutenant General Jones, or 
Major General Fay to comment at this time.

    42. Senator Kennedy. General Jones and General Fay, did the level 
of performance of such JAG officers meet appropriate professional 
standards of competence, and if not, did inadequate performance 
constitute dereliction of duty or otherwise merit consideration of 
Uniformed Code of Military Justice (UCMJ) or disciplinary action?
    General Jones and General Fay. The JAG of the Army has initiated an 
inquiry into matters regarding the activities of Army lawyers in this 
situation and the sufficiency of legal advice given to commanders. It 
would be inappropriate for General Kern, Lieutenant General Jones, or 
Major General Fay to comment at this time.

    43. Senator Kennedy. General Jones and General Fay, did the 
understanding of the Geneva Conventions and other aspects of the law of 
occupation by COL Warren, his staff, and other JAGs in the command 
reflect adequate preparation by them and sufficient support by JAG 
resources at CENTCOM and DOD?
    General Jones and General Fay. The JAG of the Army has initiated an 
inquiry into matters regarding the activities of Army lawyers in this 
situation and the sufficiency of legal advice given to commanders. It 
would be inappropriate for General Kern, Lieutenant General Jones, or 
Major General Fay to comment at this time.

    44. Senator Kennedy. General Jones and General Fay, were Major 
General Miller and his staff, notably his JAG adviser, aware of the 
legal standards applicable in occupation, as distinguished from those 
applicable in Afghanistan and Guantanamo, and if so, did they take 
these distinctions into account in their advice on interrogation in 
Iraq?
    General Jones and General Fay. The JAG of the Army has initiated an 
inquiry into matters regarding the activities of Army lawyers in this 
situation and the sufficiency of legal advice given to commanders. It 
would be inappropriate for General Kern, Lieutenant General Jones, or 
Major General Fay to comment at this time.

                             caci contract
    45. Senator Kennedy. General Fay, your report notes that there were 
significant problems with the CACI contract:
        <bullet> CACI employees sat down with the contracting officer 
        to write the contract requirements--a violation of Federal 
        contracting rules. [Fay p. 49]
        <bullet> The contract did not go through the normal contracting 
        process, but through a loophole in the GSA Schedule. [Fay p. 
        49]
        <bullet> Captain Wood at Abu Ghraib never received any guidance 
        on how the CACI personnel were to be used, and the contracting 
        manager was nowhere to be found. [Fay p. 50]
        <bullet> Even contractors who had previous military 
        intelligence backgrounds had little or no experience as 
        interrogators. [Fay p. 51]
        <bullet> Despite these deficiencies, some of the contract 
        personnel were supervising military personnel, and vice versa. 
        [Fay p. 51]

    The problems with contractors are no small matter. Other contractor 
services at Abu Ghraib cost up to $650 million. These are serious and 
possibly criminal problems, and we need to understand how they could 
have occurred. What organization within DOD requested the CACI 
contracts?
    General Fay. The delivery order under the CACI contract was 
requested by CJTF-7 personnel. The chief proponent of the action was 
Colonel Boltz. He was initially the CJTF-7 Deputy Chief of Staff for 
Intelligence (C2) until the arrival of Major General Fast and then 
Colonel Boltz became the Deputy C2.

    46. Senator Kennedy. General Fay, who authorized the CACI 
contracts?
    General Fay. The specific delivery order in question to CACI for 
interrogators was authorized by MG Walter Wojdakowski, Deputy 
Commanding General, CJTF-7.

    47. Senator Kennedy. General Fay, who decided that the CACI 
contract would go through the GSA schedule instead of through a 
separate RFP process?
    General Fay. The interrogators and screeners at Abu Ghraib were 
actually provided under Delivery Orders awarded under a Blanket 
Purchase Agreement (BPA) with the National Business Center (NBC), an 
activity of the Interior Department. The BPA between CACI and NBC set 
out the ground rules for ordering from the GSA Schedule Contract GS-
35F-5872H. CJTF-7 was the requiring and funding authority. The approval 
of the contract came from the NBC contracting office at Fort Huachuca, 
AZ. CACI already had a contract for military intelligence personnel 
support with V Corps. Assistant Deputy Chief of Staff, Intelligence, 
G2, V Corps LTC Brady knew that contract existed and when requirements 
were identified in Iraq he thought about using the V Corps contract 
because CJTF-7 was made up mostly of V Corps assets. Brady decided not 
to use the V Corps contract because the requirement would continue 
after V Corps returned to Germany and was replaced by another unit. One 
of the CACI Vice Presidents, Charles Mudd, was in Iraq at the time and 
suggested that CJTF-7 use the Fort Huachuca contract instead.

    48. Senator Kennedy. General Fay, what was the total value of the 
CACI contract?
    General Fay. The value of the CACI interrogator Delivery Order 
NBCHA010005, which includes interrogators, is $19,915,407. The value of 
the CACI screener Delivery Order NBCHA010005, which includes screener 
support, is $3,222,502.80. There is another delivery order for screener 
support totaling $21,799,921.00.

    49. Senator Kennedy. General Fay, what organization paid for the 
CACI contract?
    General Fay. CJTF-7 was the funding authority.

    50. Senator Kennedy. General Fay, did you interview LTC Brady, the 
contracting officer?
    General Fay. I did interview LTC Brady. However, he was never 
formally appointed as the contracting officer. In his words he was the 
closest thing they had in Iraq to a contracting officer for the CACI 
delivery order. His statements to me and to the V Corps Judge Advocate 
General are attachments to my report.

    51. Senator Kennedy. General Fay, what organization does LTC Brady 
work for?
    General Fay. LTC Brady was on the CJTF-7 staff.

    52. Senator Kennedy. General Fay, did you investigate the 
circumstances of LTC Brady's contacts with CACI?
    General Fay. I interviewed LTC Brady as part of my investigation.

    53. Senator Kennedy. General Fay, where does LTC Brady currently 
work?
    General Fay. LTC Brady is currently assigned to Office of the G-2, 
HQ U.S. Army Europe, Heidelberg, Germany, APO AE 09102.

    54. Senator Kennedy. General Fay, were there any violations of 
Federal contracting rules in the award of the CACI contract?
    General Fay. The use of the BPA noted above may have been a 
violation. Additionally, as noted in my report a CACI employee, Thomas 
Howard, participated with LTC Brady in writing the statement of work 
prior to issuance of the delivery order. This situation may have 
violated the provisions of a Federal Acquisition Regulation (FAR) 
9.505-2(b)(1). Consulting with the CACI Vice President about the 
appropriate contract vehicle may have also been a violation.

    55. Senator Kennedy. General Fay, did Under Secretary Cambone, 
Major General Miller, Major General Fast, General Sanchez, Lieutenant 
General Boykin, or Colonel Warren have any knowledge of the CACI 
contract prior to knowing of the abuses at Abu Ghraib?
    General Fay. Nothing in my investigation would indicate that Under 
Secretary Cambone, Major General Miller, Lieutenant General Boykin, or 
Colonel Warren had any knowledge of the CACI delivery order prior to 
knowing of the abuses at Abu Ghraib. Major General Fast did know that 
CACI was providing personnel support, but was not party to the contract 
discussions.

    56. Senator Kennedy. General Fay, did any of these individuals 
propose, request, authorize, approve, or fund the CACI contract?
    General Fay. None of the above named individuals requested, 
proposed, authorized, approved, or funded the CACI delivery order in 
question.

                        interrogation techniques
    57. Senator Kennedy. General Jones and General Fay, how and under 
what authority did techniques like stripping detainees, using dogs to 
induce fear, and placing detainees in painful stress positions come 
into use in Afghanistan?
    General Jones and General Fay. Issues pertaining to Afghanistan 
(CJTF-180) and Guantanamo were not within the scope of our 
investigation.

    58. Senator Kennedy. General Jones and General Fay, did CJTF-180 
issue any formal orders or policies authorizing such methods prior to 
the March 2003 Special Forces SOPs?
    General Jones and General Fay. Issues pertaining to Afghanistan 
(CJTF-180) and Guantanamo were not within the scope of our 
investigation.

    59. Senator Kennedy. General Jones and General Fay, were these 
procedures revised after April 2003 when Secretary Rumsfeld rescinded 
his approval of harsh interrogation techniques for Guantanamo? If not, 
why not?
    General Jones and General Fay. Issues pertaining to Afghanistan 
(CJTF-180) and Guantanamo were not within the scope of our 
investigation.

    60. Senator Kennedy. General Jones and General Fay, did the 
Pentagon know the military was still using those methods?
    General Jones and General Fay. Issues pertaining to Afghanistan 
(CJTF-180) and Guantanamo were not within the scope of our 
investigation.

    61. Senator Kennedy. General Jones and General Fay, when the 
Commander of CJTF-180 forwarded a list of techniques being used in 
Afghanistan to the Joint Chiefs in January 2003, why didn't the 
Pentagon use that opportunity to object to methods that clearly 
violated Army doctrine?
    General Jones and General Fay. Issues pertaining to Afghanistan 
(CJTF-180) and Guantanamo were not within the scope of our 
investigation.

    62. Senator Kennedy. General Jones and General Fay, the Fay Report 
tells us that techniques such as forced nudity, sleep deprivation, and 
the use of dogs in interrogations violated international law and 
contributed to the abuses in Abu Ghraib. It also tells us that in 
December 2002, Secretary Rumsfeld authorized these techniques for 
Guantanamo and that in September 2003, General Sanchez authorized their 
use in Iraq. If so, don't these leaders bear a large share of 
responsibility for legitimizing methods designed to terrify and 
humiliate prisoners?
    General Jones and General Fay. Lieutenant General Sanchez did not 
ever authorize forced nudity. His initial counterresistance policy 
authorized the use of dogs during interrogation if they were muzzled 
and under the control of a dog handler. If dogs were used in that way 
it would not have been a violation of any law or regulation. The 
subsequent policy issued in October removed the authority to use dogs. 
Sleep deprivation within reasonable bounds may not be a violation of 
law depending on the specifics of how it is administered and length of 
time. The brutal acts to terrify and humiliate detainees were not 
legitimized by Lieutenant General Sanchez.
    Secretary Rumsfeld did authorize the removal of clothing in his 
December 2002 memo. His memo was for Guantanamo and never intended to 
be used in Iraq. After further legal review, that authority was 
rescinded 6 weeks later. Dogs were not used at Guantanamo in 
interrogations but only for detainee control and security. Such use 
does not violate law. The sleep deprivation issue is as stated above. 
The policies of the Secretary of Defense did not authorize or 
``legitimize'' the detainee abuse that occurred at Abu Ghraib.

    63. Senator Kennedy. General Jones and General Fay, didn't these 
leaders authorize the commission of unlawful acts?
    General Jones and General Fay. No.

    64. Senator Kennedy. General Jones and General Fay, referring to 
techniques such as the use of dogs, the Fay Report states that ``at the 
time the soldiers or contractors committed the acts . . . some of them 
may have honestly believed the techniques were condoned.'' Since 
General Sanchez at one point specifically authorized the use of dogs in 
interrogation, and this and other coercive techniques appeared in lists 
of approved interrogation methods circulating in Abu Ghraib, didn't 
soldiers have reason to believe they were not only condoned, but 
encouraged?
    General Jones and General Fay. As stated above, Lieutenant General 
Sanchez only authorized dogs in his first policy memo and only if they 
were muzzled and under the control of a dog handler. I believe your 
question refers to the IROE chart authored by Captain Wood. That chart 
specifically stated that the Geneva Conventions applied. It also listed 
techniques that did not need approval, none of which were abusive. It 
further listed techniques requiring CG (Lieutenant General Sanchez) 
approval. Of the more severe techniques on that list however, the only 
techniques Lieutenant General Sanchez actually approved were 
segregation for more than 30 days. Requiring the approval of a three 
star general does not indicate encouragement to use those techniques.

    65. Senator Kennedy. General Jones and General Fay, the Fay Report 
states: ``Interrogations at Abu Ghraib . . . were influenced by several 
documents that spoke of exploiting the Arab fear of dogs.'' What were 
these documents and who drafted them?
    General Jones and General Fay. These documents were: JTF-121 Policy 
No. 1-Battlefield Interrogation Team and Facility (BIT/F) Policy dated 
15 July 2003. 519th MI Bn draft IROE titled Sadaam Fedeyeen 
Interrogation Facility approved by LTC Whalen on 7 August 2003 and sent 
to the 205th MI Brigade.

    66. Senator Kennedy. General Jones and General Fay, did they 
reflect widespread thinking in the Pentagon or Intelligence Community?
    General Jones. Concur.
    General Fay. This question goes beyond the scope of my 
investigation. I did not question anyone at the Pentagon as part of my 
investigation.

    67. Senator Kennedy. General Jones and General Fay, earlier this 
year, the Senate passed an amendment to the DOD authorization bill, 
sponsored by Senators Durbin and McCain, requiring the Pentagon to 
implement clear guidelines for the lawful and humane treatment of 
detainees. On June 15, DOD wrote Senator Warner that it opposed this 
provision on the grounds that such regulations are already in force. Do 
you believe that current interrogation guidelines are sufficiently 
clear and well-understood?
    General Jones and General Fay. FM-34-52 is being rewritten, as is 
the Policy Guidance for Interrogation Operations, in order to ensure 
that they are clear. After publication it will be necessary to follow 
up to ensure that the new guidance is understood and is being taught 
properly to soldiers.

                           field manual 34-52
    68. Senator Kennedy. General Jones and General Fay, Field Manual 
34-52 states U.S. interrogators should not engage in actions that would 
be considered unlawful if perpetrated by the enemy on American 
personnel. Did the interrogation methods approved by U.S. commanders 
for Afghanistan and Iraq meet that test?
    General Jones and General Fay. Issues pertaining to Afghanistan 
were not within the scope of our investigation. Regardless of whether 
certain methods were approved, some of the activities perpetrated by 
U.S. personnel in Iraq were unlawful.

    69. Senator Kennedy. General Jones and General Fay, in your report, 
you concluded that had Army doctrine, expressed in FM 34-52, been 
followed faithfully, the abuses in Abu Ghraib would not have happened. 
Shouldn't the Pentagon affirm that this Field Manual will once again 
guide all interrogation policy?
    General Jones and General Fay. FM-34-52 is being rewritten as is 
the Policy Guidance for Interrogation Operations in order to ensure 
that they are clear. After publication it will be necessary to follow 
up to ensure that the new guidance is understood and is being taught 
properly to soldiers. The field manual applies only to military 
servicemen and women, so steps must be taken to ensure that all U.S. 
personnel operate properly.

                   decision on the geneva conventions
    70. Senator Kennedy. General Jones and General Fay, how did the 
President's February 7, 2002 decision on the Geneva Conventions 
influence interrogation guidelines in Afghanistan and Iraq?
    General Jones and General Fay. See answers to questions #7 and #9.

    71. Senator Kennedy. General Jones and General Fay, what arguments 
from that decision did General Sanchez rely on when he approved the use 
of dogs and other coercive techniques as interrogation methods?
    General Jones and General Fay. Lieutenant General Sanchez 
repeatedly stated that the Geneva Conventions applied to detainees in 
Iraq. He also reiterated this guidance in his policy memos. CJTF-7 
Interrogation and Counter-Resistance Policy memos were modeled after 
the 16 April 2003, Secretary of Defense memo directed to GTMO, but 
modified for applicability to a theater of war in which Geneva 
Conventions apply. We have no evidence that Lieutenant General Sanchez 
had knowledge of the President's Memorandum dated February 7, 2003, 
subject: Humane Treatment of al Qaeda and Taliban Detainees at the time 
the CJTF-7 Interrogation Policy was formulated.

    72. Senator Kennedy. General Jones and General Fay, when he advised 
the President on his February 7 decision, White House legal counsel 
Alberto Gonzales passed on warnings from Secretary Powell and the Joint 
Chiefs that a failure to apply the Geneva Conventions to all detainees 
``could undermine U.S. military culture which emphasizes maintaining 
the highest standards of conduct in combat.'' To what extent did this 
in fact happen?
    General Jones and General Fay. This issue is outside of the scope 
of our investigation. Our investigation was limited to Abu Ghraib. We 
did not uncover any facts that would suggest that the President's memo 
was in any way considered by those that committed the abuses. As stated 
above, all personnel interviewed knew that the Geneva Conventions 
applied to detainees in Iraq.

                        justice department memo
    73. Senator Kennedy. General Jones and General Fay, the Schlesinger 
Report says that the Justice Department Office of Legal Counsel (OLC) 
memo on torture influenced the development of interrogation guidelines 
at the Pentagon. What impact did it have and was it seen as a 
definitive legal opinion by DOD?
    General Jones and General Fay. There is no evidence to suggest the 
DOJ memo had any direct impact on operations at Abu Ghraib.

               cia interrogation practices and guidelines
    74. Senator Kennedy. General Jones and General Fay, how do CIA 
interrogation practices and guidelines differ from the military's and 
have they been revised since the Abu Ghraib scandal came to light?
    General Jones and General Fay. This issue is outside of the scope 
of our investigation.

    75. Senator Kennedy. General Jones and General Fay, did CIA 
interrogators introduce and influence the military to adopt in 
Afghanistan and Iraq coercive interrogation techniques that it employed 
against senior Al Qaeda suspects in its custody?
    General Jones and General Fay. We did not find any evidence to 
suggest that CIA interrogators introduced or influenced the military in 
adoption of coercive techniques. The CIA did not fully cooperate in our 
investigation.

    76. Senator Kennedy. General Jones and General Fay, your report 
concluded that every agency should follow the same interrogation policy 
when they work together in the same theater of action. How can we 
ensure this happens?
    General Jones and General Fay. DOD, through the combatant 
commander, must document and enforce adherence by other government 
agencies while conducting detainee operations at DOD facilities with 
established DOD practices and procedures.

    77. Senator Kennedy. General Jones and General Fay, should the 
President direct the CIA to adopt and publish a policy that's 
consistent with the Army's FM 34-52?
    General Jones and General Fay. This issue is outside of the scope 
of our investigation.

                            ghost detainees
    78. Senator Kennedy. General Jones and General Fay, who is 
responsible for hiding ``ghost detainees'' from the Red Cross?
    General Jones and General Fay. Based on our investigation, the 
responsibility would be shared among the yet unknown CIA personnel, 
Colonel Boltz, Colonel Pappas, and LTC Jordan. The leader of the MP 
unit at Abu Ghraib, LTC Phillabaum, also bears responsibility since he 
allowed the ghost detainee situation occur in a confinement facility he 
was responsible for keeping to Army standards. In general, the military 
commander in charge of a DOD facility housing detainees is responsible 
for documentation, security, and safety of detainees.

    79. Senator Kennedy. General Jones and General Fay, if this 
practice of hiding ghost detainees from the Red Cross violates the 
Geneva Conventions, why did Secretary Rumsfeld OK it?
    General Jones and General Fay. We found no evidence that Secretary 
Rumsfeld authorized it for any detainees at Abu Ghraib. Situations and 
approvals at other detainment facilities in Iraq were not within the 
scope of our investigation.

                  interrogation techniques violations
    80. Senator Kennedy. General Jones and General Fay, your report 
says that some of the interrogation techniques employed in Iraq 
violated the Geneva Conventions. Didn't they also violate the 
Convention Against Torture and Other Cruel, Inhuman, and Degrading 
Treatment, as well as U.S. military doctrine and regulations, and if 
so, shouldn't such techniques have been banned in Guantanamo and 
Afghanistan even if the President decided the Geneva Conventions didn't 
apply there?
    General Jones and General Fay. This issue is outside of the scope 
of our investigation and should be answered by the DOD General Counsel.

               u.s. policy regarding detainees worldwide
    81. Senator Kennedy. General Jones and General Fay, on June 25, 
2003, the DOD General Counsel wrote a letter to Senator Leahy stating 
that it was U.S. policy that no detainee anywhere in the world would be 
subjected to treatment that would be considered cruel and unusual in 
the U.S. under the 5th, 8th, and/or 14th Amendments to the 
Constitution. Was that standard followed in Guantanamo, Afghanistan, or 
Iraq?
    General Jones and General Fay. The question is outside the scope of 
our investigation and should be answered by DOD General Counsel.

    82. Senator Kennedy. General Jones and General Fay, were commanders 
aware of this policy when they adopted interrogation rules?
    General Jones and General Fay. We do not know the answer to this 
question. The Commander of CJTF-7 did make clear that detainees were to 
be treated in accordance with the Geneva Conventions.

    83. Senator Kennedy. General Jones and General Fay, did the 
Pentagon make any effort to enforce this policy?
    General Jones and General Fay. This issue is outside of the scope 
of our investigation and should be directed to the DOD.

                               oversight
    84. Senator Kennedy. General Jones and General Fay, did either of 
you personally question all of the military intelligence and military 
police personnel who had been assigned to the ``guard force,'' security 
duty, or escort duty at Abu Ghraib or who in any other way were in 
close contact with the interrogators, the Military Police, the medics, 
or the CIA personnel or with anyone else who had observed or 
participated in the alleged abuses?
    General Jones and General Fay. During the period investigated from 
June 2003 until January 2004 there were well over 2,000 U.S. military 
personnel at Abu Ghraib for at least some part of that time. I or a 
member of my investigation team interviewed all U.S. personnel whom we 
believed had information germane to the scope of this investigation 
unless those persons invoked their rights against self-incrimination. 
We also used and referred to the interviews conducted by Major General 
Taguba as well as the Army CID investigators. Additionally, we 
interviewed three detainees that were not interviewed by Major General 
Taguba. In all, over 170 interviews were conducted.

    85. Senator Kennedy. General Jones and General Fay, did either of 
you personally question the personnel who had not been questioned by 
CID because they had originally answered in the negative when 
informally surveyed by CID as to their knowledge of abuses?
    General Jones and General Fay. I interviewed many of those 
personnel who completed the survey done by CID who had answered in the 
negative depending if I believed they might have information germane to 
the investigation.
    I did not interview personnel surveyed by the CID.

    86. Senator Kennedy. General Jones and General Fay, did either of 
you personally question all members of General Pappas' staff, including 
Major Potter, the Deputy JIDC Commander?
    General Jones and General Fay. Major Potter was the Deputy 
Commander of the 205th Military Intelligence Brigade, not of the JIDC. 
Major General Fay interviewed Major Potter and Major Williams. Both 
were staff members of the 205th MI Brigade commanded by Colonel Pappas. 
Major General Fay's investigation team also interviewed Colonel Pappas' 
Judge Advocate, Captain Fitch.

    87. Senator Kennedy. General Jones and General Fay, did either of 
you personally question each of the persons listed on the JIDC 
organization chart dated January 23, 2004?
    General Jones and General Fay. I and my team interviewed those that 
I felt might have information germane to the investigation who did not 
exercise their right against self-incrimination.

    88. Senator Kennedy. General Jones and General Fay, did either of 
you personally question any of the FBI or CIA personnel who were 
assigned at any time during 2003 or January 2004 to Abu Ghraib or other 
detention or interrogation functions or facilities?
    General Jones and General Fay. I did not see a need to question any 
FBI personnel. I was denied access to CIA personnel.

    89. Senator Kennedy. General Jones and General Fay, did either of 
you personally question to the extent some such potential witnesses 
were not questioned by either of you, please list each such person and 
the reason he/she was not questioned by you, and if questioned by 
someone else, whether either of you personally reviewed the results and 
whether and why you determined that direct inquiry by one of you was 
not called for.
    General Jones and General Fay. See answers above. The team 
attempted to question all relevant witnesses.

    90. Senator Kennedy. General Jones and General Fay, did either of 
you personally question all those who may have observed General 
Sanchez's visits to Abu Ghraib as to exactly where he went and what he 
saw, and particularly whether he saw the very large version of the IROE 
posted on the premises?
    General Jones. Lieutenant General Sanchez asserts that he first saw 
the IROE poster during his testimony before the Senate Armed Services 
Committee in May 2004.
    General Fay. I interviewed at least three people that were present 
during that visit, Colonel Pappas, LTC Jordan, and Captain Wood. Others 
were no doubt present but no one brought it up as an issue. Whether or 
not Lieutenant General Sanchez ever saw the chart in question was not 
asked.

    91. Senator Kennedy. General Jones and General Fay, is it true that 
there was no permanent or separate night shift at Abu Ghraib, but that 
various personnel were assigned to night duty as needed and as 
available?
    General Jones and General Fay. As regards to the MPs, there was a 
specific night shift assigned to the hard site. As regards MI, there 
was no permanent or separate night shift and personnel were used on an 
as needed and as available basis. There had been an early attempt to 
split responsibilities day and night between the 519th MI Battalion 
interrogators and the 323rd MI Battalion interrogators when they were 
the only MI units there. But that split seems to have only lasted a 
short time before the JIDC was organized and divided into Tiger Teams.

    [Whereupon, at 1:17 p.m., the committee adjourned.]


  THE REPORT OF THE INDEPENDENT PANEL TO REVIEW DEPARTMENT OF DEFENSE 
                          DETENTION OPERATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 9, 2004

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:41 p.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Talent, Graham, Cornyn, Levin, Kennedy, 
Lieberman, Reed, E. Benjamin Nelson, Dayton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Regina A. Dubey, research assistant; 
Paula J. Philbin, professional staff member; and Lynn F. 
Rusten, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; and William G.P. Monahan, minority counsel.
    Staff assistants present: Alison E. Brill, Andrew W. 
Florell, Catherine E. Sendak, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Meredith Moseley, assistant to Senator Graham; 
Russell J. Thomasson, assistant to Senator Cornyn; Mieke Y. 
Eoyang, assistant to Senator Kennedy; Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; 
Andrew Shapiro, assistant to Senator Clinton; and Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will come to order. I 
apologize to our distinguished panel of witnesses. The Senate 
has had a series of votes. One is still underway, but I think 
we must get started here. I anticipate, here he comes right 
now, the distinguished ranking member any moment.
    We meet today to receive the testimony on the final report 
of the Independent Panel to Review Department of Defense 
Detention Operations, commonly referred to as the Schlesinger-
Brown report. We welcome our witnesses: Dr. Schlesinger, 
chairman of the panel; and Dr. Brown, a distinguished member of 
the panel. Two other members of the panel, former Congresswoman 
Tillie Fowler, and retired General Chuck Horner, were unable to 
be with us today.
    We commend you all for a very splendid job. It was an 
important one at a critical time. I commend the Secretary of 
Defense for reposing in you the trust that he has and will 
always have in two former distinguished colleagues and close 
personal and professional friends.
    On May 12, the Secretary of Defense chartered the 
Independent Panel to Review the Department of Defense Detention 
Operations, and I quote from his charter: ``It would be helpful 
to me to have your independent professional advice of the 
issues that you consider most pertinent related to the various 
allegations. I am especially interested in your views on the 
cause of the problems and what should be done to fix them.''
    I say to you gentlemen and your panel in absentia, the 
other two members, you have done just that. You have stayed to 
the charter, and indeed I think you have showed a measure of 
independence which the Secretary and indeed Congress 
anticipated. You did it pragmatically and fairly.
    At this point numerous investigations are being conducted 
under the Uniform Code of Military Justice (UCMJ). Trials are 
ongoing. Several have already been tried and sentenced or have 
received nonjudicial and administrative punishments. In 
addition, 7 of the 11 senior level reviews of detainee 
operations and allegations of detainee abuse throughout the 
Department of Defense (DOD) have been completed, and 3 more 
will be completed in the very near future.
    Again, I commend the Secretary and the Department for the 
manner in which they have confronted these important issues. I 
find the Kern report, for example, I speak for myself, but 
other colleagues I think share these views, did an equally fine 
and commendable job.
    It is noteworthy that the Secretary of Defense sought your 
independent professional advice on detainee abuses, what caused 
them, and what actions should be taken to prevent their 
repetition. We have shown the world that we are a Nation of 
laws. We will investigate wrongdoing and those found 
accountable and responsible will be dealt with accordingly.
    The findings contained in this report before us today are 
indeed sobering. It is important to note your conclusion that 
the abuse the world saw in the infamous photographs from the 
Abu Ghraib prison ``were not part of an authorized 
interrogation procedure nor were they directed at intelligence 
targets. They represent a deviant behavior and a failure of 
military leadership and discipline.''
    You do note, however, that other abuses occurred during 
interrogation activities that were not photographed both in 
Iraq and Afghanistan. You conclude that no approved procedures, 
policy, doctrine, or training called for, allowed, or 
encouraged the kind of abuses we have witnessed.
    But you also advise the following: ``The abuses were not 
just the failure of some individuals to follow known standards 
and they are more than the failure of a few leaders to enforce 
proper discipline. There is both institutional and personal 
responsibility at higher levels.''
    When Dr. Schlesinger and other members of the panel 
released the report on August 24, Dr. Schlesinger stated, ``We 
believe there is institutional and personal responsibility 
right up the chain of command as far as Washington is 
concerned.'' I hope today that you will elaborate on that very 
important personal opinion and I presume that of the panel you 
represent, and what do you mean by responsibility and how high 
up the chain of command that responsibility goes.
    Your report clearly establishes accountability up to the 
level of the Military Intelligence (MI) and Military Police 
(MP) Brigade commanders at Abu Ghraib, but the report is less 
clear on the accountability, to the degree it exists, of higher 
commanders and their staff, although significant failures and 
shortcomings were identified in your report. I ask that you 
clarify these conclusions about accountability. Such judgments 
are subjective but your collective professional judgment is of 
great value to the committee, to the DOD, and to the country as 
a whole.
    During your press conference on this report, you 
specifically were asked about Secretary Rumsfeld, whether or 
not he should resign because of the problems identified. Dr. 
Brown stated, and I quote him, ``If the head of a Department 
had to resign every time anyone down below did something wrong, 
it would be a very empty cabinet table.'' Your views on the 
accountability of the Secretary will be again reviewed with 
both of you today.
    We seek your counsel on what must be done to preclude a 
repetition of such abuses, how justice is best served in 
restoring good order and discipline to our Armed Forces, and 
what constructive role this committee can continue to provide 
through its oversight responsibilities. As we continue to 
assemble the facts concerning allegations of detainee abuse at 
Abu Ghraib and elsewhere, it is important that we keep these 
incidents in context. You were clear on this point in your 
report. Over the past 3 years, the U.S. has apprehended over 
50,000 personnel in Iraq and Afghanistan. As of mid-August 
2004, only 66 out of the 50,000 gave rise to allegations of 
abuse that had been substantiated with one-third to one-half of 
those incidents occurring at the point of capture or during 
transit, periods which are often in the very heat of battle and 
extraordinary stress. Thousands of soldiers, sailors, and 
airmen have done their job humanely and honorably, 99.9 
percent, throughout these two operations and elsewhere. They 
are as horrified or more horrified than anybody about the 
abuses of their fellow soldiers in uniform.
    I want to commend the independent panel for also pointing 
out the need for urgency in providing well-documented policy, 
procedures, and training to our troops on approved 
interrogation techniques in order to counteract the current 
chilling effect the reaction to the abuses has had on the 
collection of valuable intelligence through interrogations. 
Intelligence, especially human intelligence, is critical to our 
success in the global war on terror. Our deployed forces 
throughout the world, wherever they are today, must have the 
ability in obtaining such intelligence and have the confidence 
in the techniques, the training, and leadership in obtaining 
that intelligence. The pendulum could well have swung too far, 
and we must be certain to right that position.
    As I said at our earlier hearing today, this report and 
others before us should dispel the notion that the Armed Forces 
cannot investigate itself. That is the DOD of the executive 
branch. All of the investigations, in the opinion of this 
Senator, have been thorough, professional, frank assessments 
that have contributed to an understanding of the complexities 
and the demands of detainee operations in a combat environment. 
All have provided important recommendations for how to correct 
the problems identified. We should all have confidence that the 
UCMJ and the values held dear by our Armed Forces will ensure 
that justice will be served. We have the assurance of senior 
leaders of the Armed Forces and the DOD that corrective 
measures have been and are being implemented to preclude the 
possibility of such a lapse of leadership and discipline in the 
future. We, in Congress, must work with the Department to 
ensure these corrective actions are effective and continue to 
take place.
    We also have responsibility to remember the vast majority 
of our brave men and women in uniform were performing 
remarkable tasks at great risk around the world on a daily 
basis, in some cases making the ultimate sacrifice of loss of 
life and limb, to win the war on terror performing their duties 
in the finest traditions of our military. We honor their 
service and that of their families. Our efforts in gathering 
this information and openly discussing it with the American 
people and the world are intended to strengthen the Armed 
Forces.
    I commend our witnesses again for their participation and 
their colleagues for this excellent report.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
welcoming our two very distinguished witnesses today and 
thanking them for, literally, a lifetime of service. We hope 
that service continues for a long time.
    Their report builds upon the reports of previous 
investigations and assessments, including the investigation of 
intelligence activities at Abu Ghraib, which was the subject of 
the committee's hearing this morning.
    This panel's report concluded, despite numerous pervious 
assertions that the abuses at Abu Ghraib were the work of a 
small handful of rogue military police, that in the words of 
the panel before us, ``there is both institutional and personal 
responsibility at higher levels.'' The report cites a number of 
developments that were contributing factors to the detainee 
abuse.
    The first contributing factor was the issuance of a series 
of policy memoranda from the President and the Secretary of 
Defense on down that established a different process for the 
treatment of the Taliban and Al Qaeda detainees than that which 
had traditionally been applied in our Nation's wars. That 
treatment was based upon legal opinions from the Office of 
Legal Counsel (OLC) of the Department of Justice (DOJ), 
including one dated August 1, 2002 that, according to this 
panel, ``held that in order to constitute torture, an act must 
be specifically intended to inflict severe physical pain and 
suffering that is difficult to endure.''
    Accordingly, Secretary Rumsfeld, responding to a request 
from the field, authorized some 16 additional interrogation 
techniques for use at Guantanamo beyond the 17 techniques that 
were authorized under the military's longstanding doctrine. 
Although the Secretary soon thereafter rescinded most of the 
additional interrogation techniques and directed that the more 
aggressive techniques could be used only with his approval, the 
more aggressive original techniques were applied in Afghanistan 
and migrated to Iraq where they were used at Abu Ghraib.
    Moreover, although it was decided that the Geneva 
Conventions would apply to the conflict in Iraq and would 
govern the treatment of all detainees there, Lieutenant General 
Sanchez, the commanding general of the Combined Joint Task 
Force-7 (CJTF-7), issued a memorandum on September 14, 2003, 
authorizing a dozen interrogation techniques beyond those 
authorized by standard DOD doctrine, including five which went 
beyond the techniques approved by Secretary Rumsfeld for 
Guantanamo. While General Sanchez's memorandum was subsequently 
rescinded and the new guidance that he issued was closer to 
that which was authorized by DOD doctrine, the result was 
severe confusion in the field, and in the words of the panel 
before us, ``the belief that additional interrogation 
techniques were condoned.''
    We heard this morning from General Fay whose report states, 
``By October 2003, interrogation policy in Iraq had changed 
three times in less than 30 days and it became very confusing 
as to what techniques could be employed and at what level non-
doctrinal approaches had to be approved.''
    Compounding the problem of confusing and inconsistent 
guidance was the lack of leadership and oversight by those in 
command and senior staff positions. Those failures took place 
despite the fact that there was evidence of abuse that 
surfaced, including a report in November 2003 from the 
International Committee of the Red Cross (ICRC) detailing 
abuses that were actually seen by ICRC personnel at Abu Ghraib.
    Another contributing factor was the failure of higher 
authority both to properly plan for the insurgency that took 
place after major combat operations, and that continues to this 
day, as well as the failure to promptly adjust to the 
insurgency after it became a clear reality.
    According to our panel's report today, the October 2002 
Central Command war plan ``presupposed that relatively benign 
stability and security operations would precede a hand-over to 
Iraq's authorities.'' In that regard, I am reminded that 
General Franks told Senator Warner and me that he was told by 
the civilian leadership of the DOD to leave the planning for 
the stability and security phase of Operation Iraqi Freedom to 
the Pentagon's civilian leadership. In any event, once it 
became clear in July 2003 that there was a major insurgency 
growing in Iraq, senior leaders should have adjusted the plan 
to the violent aftermath on the ground.
    The panel before us notes that responsible leaders could 
have been more adaptive in the face of changing conditions and 
specifically identifies a number of such leaders in CJTF-7, the 
Coalition Forces Land Component Command, U.S. Central Command 
(CENTCOM), the Joint Staff, and the Office of the Secretary of 
Defense (OSD).
    Although General Sanchez and the senior leaders of CJTF-7 
were identified for leadership lapses, the panel also noted 
that CJTF-7 was never adequately resourced to meet the size and 
complexity of its mission and at one point had only 495 of the 
1,400 personnel authorized.
    Among the severe personnel shortages which they noted, MP 
detention units did not receive detention-specific training 
during their mobilization period. Training at the mobilization 
sites was inadequate. Deployment to Iraq was chaotic. Hand-over 
from the ongoing units in Iraq was too brief. There were major 
difficulties in training to their new mission once in country. 
They were not properly equipped for combat. Equipment, like 
Army-issued radios, were frequently inoperable and too few in 
number. Perhaps most significantly, according to our panel, 
there were insufficient MP personnel at Abu Ghraib resulting in 
a 75-to-1 ratio of detainees to MPs: 7,000 detainees to 92 MPs. 
In addition to all that imbalance, Abu Ghraib was under 
frequent mortar attack, thus adding a force protection task, 
and compare all that to the Guantanamo situation where there 
was a 1-to-1 ratio of detainees and the Army doctrinal ratio of 
8-to-1.
    To complicate things even further, Central Intelligence 
Agency (CIA) personnel used different interrogation techniques 
than those used by military personnel, and the CIA was allowed 
to keep the presence of detained personnel off the books so 
that the ICRC was not aware of those ghost detainees. Secretary 
Rumsfeld personally approved this practice on at least one 
occasion. A number of us earlier this morning, including the 
chairman, expressed to the panel our determination that we are 
going to get the CIA responses to these issues that have been 
raised about the fact that they kept detained personnel ``off 
the books'' in violation of the Geneva Conventions 
requirements.
    Finally, the panel before us has reported on a number of 
significant questions which they do not purport to answer. They 
have raised them, they are very important ones, and they 
require an answer at some point.
    For instance, did the Joint Staff or the OSD realize that 
there was a need to ensure that interrogation techniques 
specifically devised for Guantanamo were not being used in 
Afghanistan and certainly not in Iraq, and if not, why not?
    Why did CENTCOM not ensure that there was separate guidance 
for detainee interrogations for Afghanistan and Iraq?
    Why was the planned flow of forces to the theater of 
operations pursuant to the time phased force deployment list 
scrapped in favor of piecemeal unit deployment orders?
    Why did CENTCOM approve CJTF-7 interrogation policies that 
apparently were based on an outdated version of the field 
manual which authorized interrogators to control all aspects of 
the interrogations?
    Why did it take so long to finalize the joint manning 
document?
    Why did Secretary Rumsfeld agree to the use of military 
detention facilities in Iraq to house a ghost detainee at the 
request of the Director of Central Intelligence (DCI)?
    Why did a senior member of the National Security Council 
(NSC) staff visit Abu Ghraib?
    We thank this panel again. It has been a terrific service 
that they have performed for us. We look forward to their 
testimony.
    Chairman Warner. Thank you, Senator Levin.
    Dr. Schlesinger?

 STATEMENT OF DR. JAMES R. SCHLESINGER, CHAIRMAN, INDEPENDENT 
   PANEL TO REVIEW DEPARTMENT OF DEFENSE DETENTION OPERATIONS

    Dr. Schlesinger. Thank you, Mr. Chairman.
    Mr. Chairman, if I may, I would like to introduce James 
Blackwell, who was the executive director of the panel. Mr. 
Blackwell is a graduate of West Point. He is also the author of 
On Brave Old Army Team. As you may know, that was a study of 
ethical lapses in the athletic program at West Point in the 
early 1950s.
    Chairman Warner. We welcome you. Would you care to identify 
the others here with you, Dr. Brown?
    Dr. Brown. This is my assistant, Daniel Rankin.
    Chairman Warner. Mr. Rankin. Thank you very much.
    Dr. Schlesinger. Thank you, Mr. Chairman, Senator Levin, 
members of the committee.
    I will skip some of my testimony. I thank you for your 
complimentary references to our study. You have all obviously 
had a chance to read it, and since you have quoted it 
extensively, there is no need for me to summarize it. Instead I 
should like to place the details of a primarily descriptive 
report in a wider context and make some observations about some 
salient issues that may be overlooked. In a matter of this 
sort, it is important we not overlook the forest for the trees.
    The focus of the panel and our primary concern should be 
the morale, the health, and the performance of our Armed 
Forces, I am sure that that resonates with the members of this 
particular committee, that those forces and their behavior 
uphold the standards that the American society believes 
appropriate. If there are any defects, they must be diagnosed 
and any infected areas must be lanced and cauterized as we seek 
to avoid repetition. In this manner, we can cleanse any stain 
on the reputation of our Armed Forces so that their overall 
performance continues to be understood and highly valued by the 
larger American society.
    In this regard, we must continuously bear in mind that the 
overall performance, as the chairman mentioned, of these Armed 
Forces has been commendable. We must not lose sight of this 
fundamental reality which reflects both technology and a 
professional force. Through the advance of technology, we have 
been able to target enemy forces with precision. As a 
consequence, we sought in Iraq to preserve the infrastructure 
so that it could serve Iraq's future and also to successfully 
limit collateral damage. Moreover, we now have, by and large, a 
trained professional force. The vast majority of that force has 
behaved in Iraq with extraordinary forbearance and including 
countless acts of kindness. In this respect, their performance 
has been vastly better than our performance in previous wars, 
World War II, Korea, and Vietnam. While we did not feel it 
necessary to spell this out in the report, in light of some of 
the public commentary, I can only say that it deserves emphasis 
and repetition. Our troops have performed well.
    Bear in mind that we have had some 50,000 detainees and 
that over 300,000 of our troops have now served in Iraq. To be 
sure, any abuses are too many. But to date we have identified 
some 300 cases of possible abuse, of which fewer than 100 have 
been confirmed. One-third of those abuses have been at the 
point of capture. War is a matter of violence and in combat, 
passions run high.
    The administration may have initially erred in 
characterizing the actions at Abu Ghraib as the result of a 
handful of MPs. Still in the overall performance, the 66 cases 
of confirmed abuse is a small number, comparing quite well, as 
I say, with previous wars. War remains a brutal business. Some 
critics reveal that they understand neither war nor history. We 
must not confuse the speed and extent of communication today 
with the extent of abuse as compared to the past.
    The panel found no policy that encouraged or justified 
abuse and more than a few actions to avoid abuse. To be sure, 
given the initial act of terrorism on September 11 and the 
spurt in U.S. casualties in the summer of 2003, it was 
concluded that interrogation should be thorough and aggressive. 
In the war on terrorism, we would be naive to limit ourselves 
to the traditional ``name, rank, and serial number.'' In the 
conditions of today, aggressive interrogation would seem 
essential.
    Mr. Chairman, your remarks earlier about the chilling 
effect that might have developed as a result of the Abu Ghraib 
incidents is a point very well taken. The marines, for example, 
up in Fallujah no longer move on the basis of intelligence 
unless that intelligence can be confirmed, and as a result, 
they are missing opportunities to deal with some of the 
insurgents.
    The injunction from the top, from the President, was to 
ensure humane treatment of detainees, even those who were 
judged outside the scope of the Geneva protection. Admittedly 
what constitutes humane treatment lies in the eye of the 
beholder. Some, including some in the Services, argued that 
aggressive interrogation went too far. Indeed, the revision of 
Secretary Rumsfeld's initial memorandum that Senator Levin 
referred to was a result of protests that had come from Navy 
personnel. That remains a matter of judgment. It also remains a 
far cry from a policy that encourages abuse.
    These issues and the public reaction have been exacerbated 
by the photographs taken on the night shift at Abu Ghraib. 
Those photos constitute, to say the least, an idiosyncratic and 
obviously unauthorized activity by that night shift. The 
photographs are quite misleading. In contrast to the inferences 
that some initially drew, those photographs have nothing to do 
with interrogation policy. None of the detainees abused in the 
photographs were targets of intelligence or of interrogation to 
gain intelligence. The latest development indicates that one of 
those photographs may have had to do with the pursuit of 
intelligence.
    Nonetheless, abuses did occur at Abu Ghraib and elsewhere 
during interrogation. In such cases the MPs had been encouraged 
by MI personnel to use aggressive tactics. Those excesses must 
be identified and corrected to discourage any recurrence in the 
future. Such excesses may have resulted from confusion as to 
what was permissible. Some of that confusion may be 
understandable but not justified since we did have 
interrogation operations in three different places with varying 
rules. That created ambiguity. Nonetheless, in the future such 
ambiguity is unacceptable. A general policy should be designed 
and enshrined in doctrine so that military personnel are 
properly trained to observe appropriate rules.
    Though abuses were indeed more widespread than observed on 
the night shift at Abu Ghraib, nonetheless it is correct to 
characterize the situation on that night shift as having its 
unique aspects. Some have seized upon the photographs to 
suggest that torture was condoned. This is simply wrong. The 
actions of the night shift on Tier 1 were an aberration. The 
members were off on their own. As one participant admitted, 
``we did it for the fun of it.'' I have characterized those 
activities by the night shift on Tier 1 as an ``Animal House.''
    In this connection, President Kennedy said during the Cuban 
Missile Crisis that a picture is worth a thousand words. It 
clearly is if, and only if, one knows what the picture means. 
But if pictures are misinterpreted, they can readily become a 
distorting mechanism. That can easily create an inaccurate 
impression, hiding, indeed distorting the overall performance, 
as I have suggested with regard to our Armed Forces in Iraq.
    Mr. Chairman, as your remarks and Senator Levin's remarks 
indicated, the panel's report delineated both errors of 
commission and errors of omission. But we found no indication 
of a policy encouraging abuse. To be sure, these abuses and the 
failed oversight that allowed them are an embarrassment. They 
do not reflect the standards that this society believes 
appropriate. We must take those steps necessary to see that 
those standards are, indeed, upheld in the future. Yet, we must 
not allow some of the trees to obscure the view of the entire 
forest. These actions, by historical standards quite limited in 
number, are not representative of the overall behavior of our 
forces, which has been generally admirable.
    When sitting for his portrait, Oliver Cromwell ordered his 
portraitist, who wanted to pretty Cromwell up, that the 
portrait should include warts and all. Of necessity, our panel 
was charged to concentrate on the warts. Yet, Members of 
Congress must remain aware of the full portrait. I have tried 
to stress that a full portrait is more than those warts, which 
in our panel we were obliged to analyze.
    Thank you very much, Mr. Chairman. I shall be happy to 
answer any questions that you may have.
    [The prepared statement of Dr. Schlesinger follows:]
             Prepared Statement by Dr. James R. Schlesinger
    Mr. Chairman, members of the committee: I am grateful to the 
committee for providing the opportunity to discuss the Panel's report 
on abuses at Abu Ghraib Prison and elsewhere. Secretary Rumsfeld 
established the panel to provide an independent and objective 
assessment of what had gone wrong in our detention operations, to 
review the other Department of Defense (DOD) investigations that were 
underway for gaps, and to provide any recommendations and additional 
observations that were required. He added in his charge to us: ``Let 
the chips fall where they may.'' We have striven to fulfill that 
mandate. In that effort, we have received the full cooperation of the 
DOD, which is already moving ahead in numerous areas with adjustments 
and reforms to prevent a recurrence.
    We believe that we have provided a full and accurate, down to the 
time of publication, description regarding the extent of these abuses 
and how they came about--and what might be done in the future to reduce 
the risk of reoccurrence. Since the full report, including the 
Executive Summary, has been available for more than 3 weeks, I shall 
not attempt to summarize it here. Instead, I should like to place the 
details of a primarily descriptive report in a wider context--and make 
some observations about salient issues that may readily be overlooked. 
In a matter of this sort, it is important that we not overlook the 
forest for the trees.

    1. Our focus and our prime concern should be the morale, health, 
and performance of our Armed Forces--and that their behavior upholds 
the standards that the American society believes appropriate. If there 
are any defects, they must be diagnosed and any infected areas must be 
lanced and cauterized--as we seek to avoid repetition. In this manner, 
we can cleanse any stain on the reputation of our Armed Forces--so that 
their overall performance continues to be understood and highly valued 
by the larger society.
    2. In this regard, we must continuously bear in mind that the 
overall performance of those Armed Forces has been commendable. We must 
not lose sight of that fundamental reality, which reflects both 
technology and a professional force. Through the advance of technology, 
we have been able to target enemy forces with precision. As a 
consequence, we sought in Iraq to preserve the infrastructure, so that 
it could serve Iraq's future, and to successfully limit collateral 
damage. Moreover, we now have, by and large, a trained professional 
force. The vast majority of that force has behaved in Iraq with 
extraordinary forbearance, including countless acts of kindness. In 
this respect, their performance has been vastly better than in previous 
wars: World War II, Korea, and Vietnam. While we did not feel it 
necessary to spell this out in the report, in light of some of the 
public commentary, I can only say that it deserves emphasis and 
repetition. Our troops have performed well. Bear in mind that we have 
had some 50,000 detainees--and that over 300,000 of our troops have 
served in Iraq. To be sure, any abuses are too many. But, to date, we 
have identified some 300 cases of possible abuse of which fewer than 
100 have been confirmed. One-third of those abuses have been at the 
point of capture. War is a matter of violence, and, in combat, passions 
run high.
    3. The administration may have initially erred in characterizing 
the actions at Abu Ghraib Prison as the result of a handful of MPs. 
Still in the overall performance, the 66 cases of confirmed abuse is a 
small number--comparing quite well, as I say, with previous wars. War 
remains a brutal business. Some critics reveal that they understand 
neither war nor history. We must not confuse the speed and extent of 
communication today with the extent of abuse, as compared to the past.
    4. The panel found no policy that encouraged or justified abuse--
and more than a few actions to avoid abuse. To be sure, given the 
initial act of terrorism on September 11 and the spurt in U.S. 
casualties in the summer of 2003, it was concluded that interrogation 
should be thorough and aggressive. In the war on terrorism, we would be 
naive to limit ourselves to the traditional ``name, rank, and serial 
number.'' In the conditions of today, aggressive interrogation would 
seem essential. The injunction from the top was to insure ``humane 
treatment'' of detainees, even those who were judged outside the scope 
of Geneva protection. Admittedly, what constitutes ``humane treatment'' 
lies in the eye of the beholder. Some, including some in the Services, 
argued that aggressive interrogation went too far. That remains a 
matter of judgment. It also remains a far cry from a policy that 
encourages abuse.
    5. These issues and the public reaction have been exacerbated by 
the photographs taken on the night shift at Abu Ghraib. Those photos 
constitute, to say the least, an idiosyncratic, and obviously 
unauthorized, activity by the night shift on Tier 1. The photographs 
are quite misleading. In contrast to the inferences that some initially 
drew, those photographs had nothing to do with interrogation policy. 
NONE of the detainees abused in the photographs were targets of 
intelligence or of interrogation to gain intelligence. Nonetheless, 
abuses did occur at Abu Ghraib Prison and elsewhere, during 
interrogation. In such cases, the MPs had been encouraged by MI 
personnel to use aggressive tactics. Those excesses must be identified 
and corrected--to discourage any recurrence in the future. Such 
excesses may have resulted from confusion as to what was permissible. 
Some of that confusion may be understandable, since we had 
interrogation operations in three different places with varying rules. 
That created ambiguity. Nonetheless, in the future such ambiguity is 
unacceptable. A general policy should be designed, and enshrined in 
doctrine, so that military personnel are properly trained to observe 
appropriate rules.
    6. Though abuses were indeed more widespread than observed on the 
night shift at Abu Ghraib; nonetheless, it is correct to characterize 
the situation on that night shift as having its unique aspects. Some 
have seized upon the photographs to suggest that torture was condoned. 
That is simply wrong. The actions of the night shift on Tier 1 were an 
aberration. The members were off on their own. As one participant 
admitted: ``We did it for the fun of it.'' I have characterized those 
activities by the night shift on Tier 1 as ``Animal House.''
    7. In this connection, President Kennedy said, during the Cuban 
Missile Crisis, that a picture is worth a thousand words. It clearly 
is--if, and only if, you know what the picture means. But if pictures 
are misinterpreted, they can readily become a distorted mechanism. That 
can easily create an inaccurate impression; hiding, indeed distorting, 
the overall performance, as I have suggested with respect to our Armed 
Forces in Iraq.

    Mr. Chairman, the Panel's report delineated both errors of 
commission and errors of omission. But we found no indication of a 
policy encouraging abuse. To be sure, these abuses and the failed 
oversight that allowed them are an embarrassment. They do not reflect 
the standards that this society believes appropriate. We must take 
those step necessary to see that those standards are, indeed, upheld in 
the future. Yet, we must not allow some of the trees to obscure the 
view of the entire forest. These actions, by historical standards quite 
limited in number, are not representative of the overall behavior of 
our forces, which has been generally admirable.
    When sitting for his portrait, Oliver Cromwell ordered his 
portraitist, who wanted to pretty Cromwell up, that the portrait should 
include ``warts and all.'' Of necessity, our panel was charged to 
concentrate on the warts. Yet, Members of Congress must remain aware of 
the full portrait. In these somewhat personal remarks, I have tried to 
stress that a full portrait is more than those warts, which in our 
panel we were obliged to analyze.
    Thank you very much, Mr. Chairman. I shall be happy to answer any 
questions that you or other members of the committee may have.

    Chairman Warner. Thank you, Dr. Schlesinger.
    Secretary Brown.

  STATEMENT OF DR. HAROLD BROWN, MEMBER, INDEPENDENT PANEL TO 
       REVIEW DEPARTMENT OF DEFENSE DETENTION OPERATIONS

    Dr. Brown. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Levin, members of the committee, I am glad of the opportunity 
to appear before you today to give you my personal conclusions 
and to report on the work of the independent panel, conclusions 
on the issues involved. Some related investigations, some in 
the DOD, one outside, are still in progress, and further facts 
may well emerge. So a degree of tentativeness remains, but the 
panel's own work and our access to almost all the other 
investigations have revealed enough so that conclusions, if not 
final ones, can be drawn. I hope that unlike the case of Oliver 
Cromwell who was dug up after the restoration and hanged, you 
will not have to go through the same process with us. 
[Laughter.]
    The abuses in Tier 1 at Abu Ghraib Prison displayed a 
pathology not, so far as we were able to find, duplicated 
elsewhere. But as has been pointed out by several of you, there 
have been several hundred other cases of abuse of detainees 
that have been alleged at Abu Ghraib Prison and elsewhere in 
Iraq and Afghanistan and Guantanamo, a significant fraction 
confirmed, and a third appear to have been connected with 
interrogations. These, of course, are completely unacceptable 
on humanitarian grounds, but in addition, those events have 
been extremely damaging to U.S. standing, policies, and 
objectives in the Greater Middle East and to the struggle 
against transnational terrorism, as well as to the image and 
self-image of the Armed Forces and of America itself.
    The underlying context for abuses was framed by two 
judgments made before combat operations began in Iraq and 
indeed Afghanistan. First, the DOD leadership, along with much 
of the rest of the administration, expected that following the 
collapse of the Saddam Hussein regime through coalition 
military operations, a stable successor regime would soon 
emerge in Iraq. Now, there was planning for some contingencies, 
but as Senator Levin noted, those plans did not include 
planning for what actually happened: a breakdown of order, 
widespread looting and infrastructure destruction, strong 
resistance to the occupation. In turn, and this had a direct 
impact on the abuse situation that produced a large, mixed 
population of detainees, Baathist holdouts, high level 
officials, surrendered military, domestic and foreign religious 
extremists, ordinary criminals, individuals captured in the act 
of attacking coalition forces or suspected of doing so, and 
undoubtedly some innocents, maybe many innocents. That was what 
happened rather than what was expected, which was a relatively 
large number of relatively passive prisoners of war. 
Furthermore, the detention operations took place within a 
situation that is a more serious product of the misjudged 
forecast of what would happen after the overthrow of the Saddam 
regime. Iraq, including urban areas, remained and remains a 
zone of continued and substantial combat, as well as economic 
deprivation and political instability.
    The second judgment was embodied in the policy adopted 
toward various classes of detainee, set for al Qaeda and 
Taliban after September 11, following debate within the U.S. 
Government and decision by the President. The President 
determined that the provisions of the Geneva Conventions did 
not apply to our conflict with al Qaeda, that Taliban detainees 
were unlawful combatants not qualifying as prisoners of war. I 
think that was a reasonable judgment. Furthermore, the 
President reaffirmed a previous order by the Secretary of 
Defense that all detainees be treated humanely and, to the 
extent appropriate and consistent with military necessity, in a 
manner consistent with the Geneva Conventions principles.
    Now, that process led, in turn, to a series of 
determinations about allowed interrogation methods beyond those 
long customary under Army Field Manual (FM) 34-52. As Senator 
Levin pointed out, the Secretary of Defense authorized and then 
rescinded a list of such methods for Guantanamo. After study by 
a working group that was headed by the Air Force General 
Counsel, he promulgated a narrowed-approved list, again limited 
to interrogations of unlawful combatants held at Guantanamo. 
These events occurred before operations took place in Iraq.
    We did not find any evidence of a policy on the part of 
senior civilians or military authorities that countenanced, let 
alone encouraged or directed, abuse. Approval of interrogation 
techniques beyond those in the Air Force Manual was limited to 
Guantanamo. It required that any of them be used only with the 
specific approval of the Secretary of Defense in each case. He 
approved any of them in only two cases, and those additional 
methods of interrogation, which were not torture, by the way, 
but they were more permissive than Army FM 34-52, were intended 
for and limited to resistant al Qaeda members at Guantanamo 
knowledgeable about what had been their plans for September 11 
and for the future, and they were productive.
    All that said, nevertheless, various versions of expanded 
lists migrated, unauthorized, to Afghanistan and to Iraq where 
the Geneva Conventions continued to apply, according to the 
President's decision, except for foreign terrorists--that is, 
foreign to Iraq. That migration of rules and of personnel led 
to confusion about what interrogation practices were authorized 
and to several changes in directions to interrogators. I 
believe that was a contributing factor in the abuse of 
detainees. Whether the initial, more expansive, approach 
adopted during the working group that the Secretary of Defense 
convened or whether the findings of the OLC in the DOJ, some of 
which I consider over the top, further contributed to an 
atmosphere of permissiveness in the field is more difficult to 
assess. It is a matter of psychological influence rather than 
of direction.
    A result of the first misjudgment, especially at Abu 
Ghraib, was a situation in which both MP capabilities for 
custody and protection and MI capabilities for interrogation to 
obtain tactical, strategic, and counter-terrorist intelligence, 
suffered extreme lack of resources. Another result, as I 
mentioned, was that the mix and number of detainees went far 
beyond what had been planned for. The respective 
responsibilities, authorities, and modes of cooperation for 
military police and military intelligence units were poorly 
defined, and separately, the policy failure at all levels to 
assure a clear and stable set of rules for treatment and 
interrogation further opened the door to abuse. The problems 
were compounded by inadequate training, confused command 
arrangements, and at Abu Ghraib personal deficiencies at 
command levels up to and including the brigade level.
    Now, it is always easy in hindsight--too easy--to assign 
blame. Nevertheless, varying degrees of responsibility for 
failure to provide adequate resources to support the custodial 
and intelligence requirements throughout the theater and for 
the confusion about permissible interrogation techniques extend 
all the way up the chain of command, to include the Joint 
Chiefs of Staff and the OSD.
    Now, the report is considerably more detailed about why, 
how, and when abuses occurred and lessons learned. We gave 
about a dozen, I guess 14 or so, recommendations to improve the 
way we deal with such matters. Action on some of them is 
already underway. The DOD does do well at facing up to and 
correcting its mistakes.
    The report notes, as has Secretary Schlesinger, that 
although any abuse of detainees is too much, these cases were 
only a small percentage of the tens of thousands of prisoners 
and detainees. In many cases, I should point out, they were 
brought to light by American military personnel who spoke up. 
As we look forward, the kind of conflict we are engaged in 
poses difficult problems of many kinds, detention and 
interrogation among them. The U.S. needs to deal with them more 
effectively. I hope that our report helps in that effort.
    Thank you for your indulgence, Mr. Chairman. I will be 
prepared to answer questions.
    [The prepared statement of Dr. Brown follows:]
                 Prepared Statement by Dr. Harold Brown
    Mr. Chairman, Senator Levin and members of the Committee: I am 
pleased to appear before you today to report on the work of the 
Independent Panel and to present my personal conclusions on the issues 
involved. Let me begin by noting that some related investigations are 
still in progress and that further facts may well emerge. That means 
that a degree of tentativeness remains. But the panel's own work and 
our access to almost all of the other investigations have revealed 
enough so that conclusions, if not final ones, can be drawn.
    The abuses in Block 1A at Abu Ghraib Prison displayed a pathology 
not, so far as we were able to find, duplicated elsewhere. But there 
have been several hundred other cases of abuse of detainees alleged at 
Abu Ghraib and elsewhere in Iraq, in Afghanistan and at Guantanamo; a 
significant fraction have been or will be confirmed as such. About a 
third of the cases appear to have been connected with interrogations. 
In addition to their unacceptability on humanitarian grounds, these 
events have been extremely damaging to U.S. standing, policies and 
objectives in the Greater Middle East and to the struggle against 
transnational terrorism, as well as to the image and self-image of the 
Armed Forces and of America itself.
    The underlying context for abuses was framed by two judgments made 
before combat operations began. First was the expectation by the 
Defense Department (DOD) leadership, along with most of the rest of the 
administration, that following the collapse of the Saddam Hussein 
regime through coalition military operations, a stable successor regime 
would soon emerge in Iraq. Though there was planning for some 
contingencies, those planned for did not include what actually 
happened; a breakdown of order, widespread looting and infrastructure 
destruction and strong resistance to the occupation. This, in turn, 
produced a large mixed population of detainees--Baathist holdouts; high 
level officials; surrendered military; domestic and foreign religious 
extremists; ordinary criminals; individuals captured in the act of 
attacking coalition forces or suspected of doing so; and undoubtedly 
some innocents--rather than a large number of relatively passive 
prisoners of war. Moreover, detention operations took place within a 
situation that is a more serious product of the misjudged forecast of 
what would happen following the overthrow of the Saddam regime: Iraq, 
including urban areas, remained (and remains) a zone of continued and 
substantial combat, as well as economic deprivation and political 
instability.
    The second judgment was the policy adopted toward various classes 
of detainee, set for al Qaeda and Taliban after September 11, following 
debate within the U.S. Government and decision by the President. The 
President determined that the provisions of Geneva did not apply to our 
conflict with al Qaeda, that Taliban detainees were ``unlawful 
combatants,'' not qualifying as prisoners of war, but reaffirmed a 
previous order by the Secretary of Defense that detainees be treated 
humanely and, to the extent appropriate and consistent with military 
necessity, in a manner consistent with the Geneva principles. This, in 
turn, led to a series of determinations about allowed interrogation 
methods beyond those long customary under Army Field Manual (FM) 34-52. 
The Secretary of Defense authorized, then rescinded, a list of such 
methods for Guantanamo and, after study by a working group, promulgated 
a narrowed approved list ``limited to interrogations of unlawful 
combatants held at Guantanamo.'' These events occurred before 
operations took place in Iraq. We found no evidence of a policy on the 
part of senior civilian or military authorities that countenanced, let 
alone encouraged or directed, abuse. Approval of interrogation 
techniques beyond those in Army FM 34-52 was limited to Guantanamo and 
required that any of them be used only with the specific approval of 
the Secretary of Defense in each case. He approved any of them in only 
two cases. Those additional methods of interrogation were intended for 
and limited to resistant al Qaeda members at Guantanamo knowledgeable 
about what had been their plans for September 11 and for the future.
    Nevertheless, various versions of expanded lists migrated 
unauthorized to Afghanistan, and to Iraq where the Geneva Conventions 
continued to apply. That migration of rules, and of personnel, led to 
confusion about what interrogation practices were authorized and to 
several changes in directions to interrogators. I believe that was a 
contributing factor in the abuse of detainees. Whether the initial, 
more expansive, guidelines or the findings of the Office of Legal 
Counsel (OLC) in the Department of Justice (DOJ) further contributed to 
an atmosphere of permissiveness in the field is more difficult to 
assess.
    A result of the first misjudgment was, especially at Abu Ghraib 
Prison, a situation in which both Military Police (MP) capabilities for 
custody and protection, and Military Intelligence (MI) capabilities for 
interrogation to obtain tactical, strategic and counterterrorist 
intelligence, suffered extreme lack of resources. Another result was 
that the number and mix of detainees went far beyond what had been 
planned for. The respective responsibilities, authorities and modes of 
cooperation for MP and MI units were poorly defined. Separately, the 
policy failure at all levels to assure a clear and stable set of rules 
for treatment and interrogation further opened the door to abuse. The 
problems were compounded by inadequate training, confused command 
arrangements and, at Abu Ghraib, personal deficiencies at command 
levels up to and including the brigade level. Hindsight always finds it 
too easy to assign blame. Nevertheless, varying degrees of 
responsibility for failure to provide adequate resources to support the 
custodial and intelligence requirements throughout the theater, and for 
the confusion about permissible interrogation techniques, extend all 
the way up the chain of command, to include the Joint Chiefs of Staff 
and the Office of the Secretary of Defense.
    Our report goes into considerably more detail about why abuses 
occurred, how they occurred and lessons learned. It includes a dozen or 
so recommendations to improve the way we deal with such matters. Action 
on some of these is already under way. It also notes that, though any 
abuse of detainees is too much, these cases were only a small 
percentage of the tens of thousands of prisoners and detainees in the 
theater of combat, and that in many cases they were brought to light by 
American military personnel who spoke up. This new sort of conflict 
poses difficult problems of many kinds, detention and interrogation 
among them. The U.S. needs to deal with them more effectively. I hope 
that our report helps in that effort.

    Chairman Warner. Thank you very much. I called you 
Secretary Brown. My recollection is when I went to the Pentagon 
in 1969, you were still there as Secretary of the Air Force, 
were you not?
    Dr. Brown. Yes. I hung on for about 6 weeks. [Laughter.]
    Chairman Warner. I remember that very well, and I had the 
privilege of serving under Dr. Schlesinger when he joined the 
Department. I had a marvelous opportunity to know both of you 
and learn from you through these many years of association.
    Dr. Schlesinger, I listened very carefully as Secretary 
Brown talked about his concern as to the impact of this series 
of incidents and the ongoing investigations on our Nation's 
credibility abroad as it relates to security matters and 
foreign policy. I think the record should reflect your views on 
that because you have had a wide knowledge of that sphere of 
responsibility in your many undertakings.
    Dr. Schlesinger. There are peoples and nations that do not 
like the United States very much. Understandably that has 
increased since the end of the Cold War, since during the Cold 
War, most of them were more terrified by the Soviet Union. Now 
we are alone and we have become a more natural target for 
others. It does not seem to me that these events have altered 
significantly the view of the United States as portrayed by Al 
Jazeera, for example. It does not matter very much what we do. 
We will be given a very unsatisfactory report on Al Jazeera.
    In the case of our splendid performance during the war in 
precision targeting and holding down the number of victims of 
collateral damage, none of this was conveyed on Al Jazeera. All 
they did was to show the destruction that did occur. So there 
is a lack of nuance in that case.
    We also have some opponents in Europe. I do not believe 
that much of the European press is going to change its 
attitudes toward the United States. What this event does is to 
provide different and perhaps additional fuel to the fire of 
those who are anti-American. As I indicated in my comments, our 
responsibility and I think the responsibility of this committee 
is to make sure that the health and performance of the United 
States Armed Forces survive this particular incident.
    Chairman Warner. I think to the extent that we may have had 
some temporary degradation, it will be remedied by the manner 
in which the administration has done these very thorough and 
pragmatic series of investigations, and hopefully as Congress 
addresses it and there is a suitable accountability established 
at the end. So I thank you.
    Do you want to say something further?
    Dr. Brown. I think that Secretary Schlesinger is right, 
that the people who do not like us would not have liked us in 
any event. This has given them a stick to beat us with, which 
is not a good thing to give them. As you point out, some of our 
remedial efforts may provide us with something of a shield 
against that stick.
    Chairman Warner. Surely. I think we can recover from it.
    Dr. Schlesinger. May I add, Mr. Chairman, that these 
episodes of abuse are very few in number, even though they are 
more extensive than the handful of people at Abu Ghraib Prison. 
However, people tend to focus on symbolic events, and as Joseph 
Stalin said at Potsdam: ``one death is a tragedy, a million 
deaths are a statistic.'' Part of our problem here is that we 
have something that is very confined but has been portrayed as 
representative.
    Chairman Warner. You found that there were violations of 
the Geneva Conventions regarding failures to account for some 
detainees called the ghost category. This committee is going to 
undertake, presumably in conjunction with the Intelligence 
Committee, an examination of that issue. Were you able to get 
sufficient information when requested from the CIA on this 
matter?
    Dr. Schlesinger. We did not receive sufficient information, 
and therefore we recommend in our report that the relationship 
between the CIA and the DOD be better defined in the future.
    Chairman Warner. Now, looking at your report, you are very 
specific on page 47. The CJTF Deputy Commander, that is General 
Wojdakowski, failed to initiate action to request additional 
military police and so forth. Then you addressed the CJTF C-2. 
That was General Fast. Then you addressed a colonel. You did 
not include General Karpinski in that recitation. My question 
to you is, what do you think the appropriate action should be 
other than initiating under the UCMJ the appropriate 
investigation?
    Dr. Schlesinger. Assessing blame, providing judgments as to 
punishment was specifically excluded from our mission.
    Chairman Warner. Correct.
    Dr. Schlesinger. The Secretary said leave that to the UCMJ.
    Chairman Warner. To him personally, I would presume, as the 
UCMJ works through its course of actions.
    Dr. Brown. General Karpinski gets her own paragraph.
    Chairman Warner. I saw her own paragraph a little later. I 
just wondered why she was not in that particular paragraph.
    As you look at the series of investigations, it is 
incumbent upon this committee in our oversight capacity to 
determine if the full range of investigations probed all of the 
needed areas. Have you found any gaps in the investigations 
thus far that you could bring to our attention?
    Dr. Schlesinger. No, sir. I think that those investigations 
have been thorough with respect to the DOD which was also our 
charge. As you indicated, it did not cover anything of other 
government agencies.
    Dr. Brown. Some of the investigations are not finished yet.
    Chairman Warner. That is correct.
    Dr. Brown. So it is premature to exercise a negative 
judgment--that gaps exist--which, in any event, I think is not 
justified.
    Dr. Schlesinger. Admiral Church's investigation I think 
will be the culmination.
    Chairman Warner. Yes, we look forward to receiving that. I 
presume that the DOJ will perform such investigation as needed 
with regard to non-military allegations.
    Senator Levin.
    Senator Levin. Thank you. Again, my thanks to both you and 
to the colleagues that helped produce this report.
    Chairman Warner. Just a minute, Senator Levin. A vote is in 
progress. The time has expired. So I expect that we will have 
to take a brief recess here. We will come back as quickly as 
possible. [Recess.]
    I think we will continue. We will await Mr. Levin's return, 
but in the meantime, is there a colleague on the other side 
that would proceed? Mr. Lieberman, why do you not proceed in 
Mr. Levin's place at this time?
    Senator Lieberman. Did you ask questions before?
    Chairman Warner. Yes, I have asked my questions.
    Senator Lieberman. Okay.
    I thank our two witnesses for their service. I regret that 
I broke early to go to vote, so I did not hear Senator Warner's 
questions. So I apologize if there is any overlap.
    I am interested in the numbers that both Senator Warner and 
Mr. Schlesinger talked about and just want to clarify a little. 
If you take the cases in which there are allegations of abuse 
and then go to the confirmed cases of abuse, it comes to a 
fraction of 1 percent of the detainees. I want to get the 
universe clear for the record, the detainees in Iraq, 
Afghanistan, and--or is that it? The 50,000 number.
    Dr. Schlesinger. 50,000 is the total.
    Senator Lieberman. Is it Iraq and Afghanistan?
    Dr. Brown. And Guantanamo.
    Senator Lieberman. And Guantanamo.
    Dr. Brown. Over time.
    Senator Lieberman. Over time, understood.
    Let me also understand, if I can, this other interesting 
question which is the percentage of the cases of abuses, either 
alleged or confirmed, maybe it is easier to do confirmed and 
more relevant, that were in cases related to intelligence, 
trying to get intelligence out of the detainees. Is there a 
number on that?
    Dr. Brown. About a third.
    Senator Lieberman. About a third of the confirmed abuse 
cases. Does that mean that the other cases of abuse were with 
civilian detainees or might they be military detainees who 
nonetheless were not targets of interrogation for intelligence 
purposes?
    Dr. Schlesinger. They might be, sir.
    Senator Lieberman. I did not hear you.
    Dr. Schlesinger. They might be, sir.
    Senator Lieberman. Okay, and let us focus specifically. So 
that the others would be either military who were not targets 
of an intelligence interrogation or just plain criminals who 
were in there.
    Dr. Schlesinger. Yes, sir. Most of those photographs that 
you saw involve criminals.
    Senator Lieberman. That is what I wanted to ask. Can you 
give any more detail about that in terms of numbers of those we 
see in the photographs, that we have all seen and have now 
become very public in Abu Ghraib Prison? Were most of those not 
subjects of interrogation?
    Dr. Schlesinger. Right, absolutely.
    Dr. Brown. All but perhaps one.
    Senator Lieberman. All but perhaps one. I am sorry. One of 
you testified to that. What is the judgment you reached or 
conclusion you reached about what the motivation was for the 
abuse we see? If it was not to get intelligence-relevant 
information out of the detainees, why were the dogs put on 
them, why were they held on leashes, why were they asked to 
strip?
    Dr. Schlesinger. In some cases just pure sadism. I think 
that it was sadism primarily, but also I think Senator Levin 
referred to the fact that the MPs had been encouraged by the 
MIs, and one of the things that they were encouraged to do was 
to strip the prisoners.
    Dr. Brown. Some of it is misplaced attempts at maintaining 
discipline, of the same kind that occurs in civilian prisons.
    Senator Lieberman. Right.
    Let me go to a different subject, General Kern this morning 
made a statement, and I wanted to ask you to respond to it 
because there are obviously questions here about how this 
happened, even though it is a very small number, a fraction of 
1 percent of the detainees, and interestingly to me a fraction 
of those who were the targets of intelligence interrogation. 
But the phrase was used both publicly and earlier again today 
that people higher up the chain of command could be considered 
responsible but not culpable. These are not your words. They 
are his. I was not able to be here to ask him about what he 
meant. But does that express what you have said or does it go 
further than you want to say about how you would describe, I do 
not want to use the word ``responsibility,'' the relevance of 
people higher up the chain of command to the abuses that you 
saw? Secretary Brown.
    Dr. Brown. Yes, it varies with the level. As you go up the 
level of command, an individual may not have taken any action 
that deserves punishment, but nevertheless be responsible 
because it happened under his command. Take the highest level, 
take for example the level of the Secretary of Defense. I do 
not think that you can punish somebody, demand resignation on 
the basis of some action, an individual action by somebody far 
down the chain. I think at that level the decision has to be 
made on the basis of broad performance, and indeed at the very 
highest level, it is made at election time.
    Senator Lieberman. Yes, indeed.
    This is really a question of if you saw some, to use a 
frame of reference from another place, sins of omission as 
opposed to commission, and you both have been heads of this 
Department. How do you make a judgment about how to hold people 
accountable? Clearly, in this and so many other cases, there 
has been more accountability here than in other cases so far, 
but at a lower level. How do you decide when the interest in 
holding people accountable is outweighed by other public 
interests? I guess that is the general question that I raise.
    Dr. Brown. I do not think that is ever the case. I do not 
think the interest of holding people accountable is outweighed 
by the public interest. I think at many levels it is a question 
of criminal prosecution, and that is in train. That is in 
process. At higher levels, it is a question of failure to 
perform duty and you deal with that differently. At a still 
higher level, you can raise the question of what kind of 
atmosphere was produced. But it seems to me that is a different 
kind of accountability, and that is where you can perhaps 
separate it from culpability.
    Dr. Schlesinger. If one is not aware, that is, even though 
one might have had the opportunity to be aware, that is not 
culpable in my judgment. It is when one has a concrete decision 
to make. For example, when General Sanchez put together his 
first list of acceptable techniques and sent it to CENTCOM, 
CENTCOM said this is impermissibly aggressive and sent it back 
for correction. In that case I think that CENTCOM was acting 
correctly.
    Senator Lieberman. My time is up. Thank you very much.
    Dr. Schlesinger. Can I throw in a couple of comments?
    Chairman Warner. Yes, go ahead, Dr. Schlesinger.
    Dr. Schlesinger. Of the 66 cases, or the so-called 66 
cases, 24 of them are serious. The others are less serious. 
That 66 has now been dropped to 65 cases of abuse. Why? Because 
one of the alleged cases of abuse was of an Iraqi prisoner 
throwing a cup of water at a guard and the guard, who was 
holding a cup of water, threw his cup of water at the prisoner. 
That was first regarded as an abuse and then it was decided 
that it did not rise to the level of abuse.
    Senator Lieberman. We do that around here all the time. 
[Laughter.]
    Thank you very much.
    Chairman Warner. Thank you.
    Senator McCain.
    Dr. Schlesinger. No one monitors Senators' operations of 
that sort, Senator. [Laughter.]
    Senator McCain. I want to thank the witnesses for the 
excellent work. Secretary Schlesinger, this morning I 
introduced your piece that was in the Wall Street Journal as 
part of the record, and I think it is important to maintain a 
proper balance as we go through this investigation, which was 
clearly the intent and effect of your piece.
    But I would like to get back a little bit to the line of 
conversation that you were having with my friend, Senator 
Lieberman. There is accountability but there is also 
responsibility. Now, I read through the report here. As you 
just referred to, General Sanchez, on advice of his staff, 
issued guidelines which were later rescinded, one of which was 
the presence of military working dogs. You go on to say, 
``compounding these problems was the inadequacy of leadership, 
oversight, and support needed in the face of such 
difficulties.'' That is on page 10.
    Then you go on to say on page 13, ``the aberrant behavior 
on the night shift in cell block 1 at Abu Ghraib would have 
been avoided with proper training, leadership, and oversight.''
    You go on to say on the bottom of page 14, ``CENTCOM 
disapproved, but things were left out of the CJTF-7 policies 
and were corrected by.'' This clearly led to confusion on what 
practices were acceptable. We cannot be sure how much of the 
number and severity of abuses would have been curtailed had 
there been early and consistent guidance from higher levels. 
Nevertheless, such guidance was needed and likely would have 
had a limiting effect.
    Finally on page 15, you say, ``We believe Lieutenant 
General Sanchez should have taken stronger action in November 
when he realized the extent of the leadership problem at Abu 
Ghraib. Major General Wojdakowski and the staff should have 
seen that urgent demands were placed on higher headquarters. 
Lieutenant General Sanchez and Major General Wojdakowski failed 
to ensure proper staff oversight of detention and interrogation 
problems.''
    Now, I understand they were fighting a war and I understand 
their responsibilities, as one of the generals this morning 
stated. But this series of events has had a huge effect in the 
Arab world and around the world. So my question to you is, is 
there not some accountability? Is there not some responsibility 
here for a series of events which had profound impact, as I 
say, throughout the world and not to mention egregious 
violations in many respects of basic human rights, of which 
this Nation has always been the leader on? Let us talk about 
responsibility.
    Dr. Schlesinger. I think that it is quite clear that when 
General Sanchez signs that document and then ships it to 
CENTCOM for approval, that he is responsible for his signature. 
Now, it may be that General Sanchez, who was seriously 
understaffed, just signed a document that was put together by 
his staff, but he is still responsible for that document. That 
goes for the revised edition as well.
    I think that, for example, Colonel Warren, who when he was 
away on leave. We comment that there seemed to have been 
extraordinary frequency of vacations during this period on that 
staff. When Colonel Warren was away, the ICRC critique came in. 
He was away. When he came back, he looked at the critique by 
the ICRC. He said that he did not regard it as credible or 
believable, and he did not convey that to General Sanchez. That 
was an action for which he has a responsibility, and in his 
interview with us, he said, ``that is what I will carry to my 
dying day as my failing.''
    Senator McCain. I guess my point here is that there is some 
belief that the only thing that went wrong was a group of 
enlisted people that were guilty of aberrant behavior late at 
night.
    Dr. Schlesinger. I think we have gone beyond that.
    Senator McCain.Okay. Now, if there are people responsible--
and I would want to be very careful--are they not held 
responsible? Is there some action? Is there something besides a 
report, as important as it is? I am not trying to----
    Dr. Schlesinger. They should be and these are being 
processed under the UCMJ.
    Dr. Brown. Some of them have legal culpability.
    Senator McCain. Yes. I am not talking about UCMJ here, Dr. 
Schlesinger.
    Dr. Brown. Some of them have legal culpability. At other 
levels, believe me, I am convinced careers will be negatively 
affected. That is a consequence of responsibility that is seen 
as having been inadequately addressed.
    Senator McCain. I just want to clear that up because it 
seems to me that I do not think that any individual in 
positions of higher command would be liable particularly for 
UCMJ. But I do not think that is the standard by which we judge 
leadership, not whether they violate the UCMJ or not.
    I thank you both for a very helpful document and one which 
I think is a very important one, and I appreciate it.
    I thank you, Mr. Chairman.
    Chairman Warner. Senator McCain, you framed a series of 
questions here as it related to General Sanchez, and I wanted 
to give Dr. Schlesinger once more an opportunity, if you so 
desire, to more fully respond to very carefully selected 
portions of your report which reflect less than the highest 
standards of professional judgment.
    Dr. Schlesinger. Two initial observations. First, as Dr. 
Brown indicated or hinted, General Sanchez likely would have 
gotten his fourth star and now is unlikely to get his fourth 
star. That is a kind of comment on failed responsibility. That 
is quite clear.
    Second, there are extenuating circumstances.
    Chairman Warner. In his case, very definitely.
    Dr. Schlesinger. In his case, because he had only one-third 
of the complement that a corps commander had. He was a major 
general in charge of a division. He suddenly becomes a corps 
commander and he is left essentially with a division staff. So 
I think that, yes, there was a failure of responsibility in 
that but being shorthanded in part explains that.
    Chairman Warner. Then I think Secretary Brown used the 
phrase, you have to look at the full, broad range of everything 
this one individual was asked to do. We had him before this 
committee and I think he very commendably acknowledged that 
there were things, that if he had time, maybe adequate staff, 
he would have done differently.
    But I just want to give you the full opportunity.
    Now, there it is not a UCMJ situation. It is left to the 
Secretary of Defense. Am I correct in that instance?
    Dr. Schlesinger. Yes.
    Chairman Warner. I think that could well be in other 
instances here. He, as we well know, recognized the 
responsibility of command, so to speak, on the civilian side 
and accepting responsibility for those below you, your 
subordinates, who take actions which are not in the best 
interest of sound professional judgment. Am I correct in that?
    Dr. Schlesinger. May I throw in something here, Senator?
    Chairman Warner. We are not trying to fish.
    Senator McCain. Could I make one additional comment that I 
think has to be taken into consideration?
    Chairman Warner. Yes.
    Senator McCain. I happen to believe from some personal 
encounters that there were enormous pressures that were brought 
to bear on the command in Iraq to get better intelligence 
information because of the increase in deaths, and that 
pressure is something I do not think we will ever be able to 
define or track down, but I am convinced that it was there. I 
would like you to comment on that as well.
    Dr. Schlesinger. Absolutely, there was psychological 
pressure. I do not think any senior official suggested that in 
order to do this, take these kinds of actions, but there was no 
doubt psychological pressure as that spurt in U.S. mortalities 
rose in the summer of 2003.
    Chairman Warner. Mortalities and personal injuries. There 
was an enormous number of injuries.
    Dr. Schlesinger. If I may interject something. We may have 
to reexamine existing doctrine. Existing Army doctrine says 
that commander is responsible for his entire area of 
responsibility (AOR). We give General Sanchez the 
responsibility of fighting a war. Suddenly he is elevated. In 
addition, he is supposed to take care of detention operations. 
It seems to me that we might reexamine that and have a unit 
that is different that handles detention and that is 
responsible for detention and not impose it on a fighting 
commander simply on the belief that he should be responsible 
for everything in his AOR.
    Chairman Warner. Senator Levin, I thank you for your 
patience. We missed you on the first round.
    Senator Levin. There is no problem.
    On the accountability issue, there is a great deal of 
confusion about what the legitimate methods of interrogation 
were. You pointed this out in detail in your report. You have a 
statement that your report makes that when General Sanchez 
approved interrogation techniques that included a dozen 
techniques beyond those authorized by Army FM 34-52 and five 
beyond those approved for Guantanamo, he used the reasoning, in 
your words, from the President's memorandum of February 7, 
2002.
    Now, in what way did he use that reasoning?
    Dr. Schlesinger. As I recall it, Senator, and I can be 
corrected on this, his judgment and perhaps the advice that he 
received was that as the commander in the field, he had that 
inherent authority to expand beyond the list that FM 34-52, 
expand beyond the list that the Secretary of Defense had used.
    Dr. Brown. An analogy may have been drawn with the finding 
of the OLC that the President, acting as commander in chief, 
cannot be challenged anywhere, a view that I think might not 
find a strong resonance in this body.
    Senator Levin. Not only in this body, but I would hope in 
much of the civilized world.
    Is that the reasoning you referred to in the President's 
memorandum, that the commander in chief has great flexibility, 
can do no wrong? Is that what you are referring to?
    Dr. Schlesinger. As a combatant commander, he had the 
inherent authority to make those decisions on his own and he 
was aware of higher level authorization.
    Senator Levin. I want to pin it down, though. But that 
reasoning you are saying you attribute to the reasoning in the 
President's memorandum of February 7.
    Dr. Brown. It is an analogy. Whether that in fact was his 
reason is not clear.
    Senator Levin. All right. So you did not get an explicit 
statement from him that he is using the same reasoning in his.
    Dr. Brown. No.
    Senator Levin. You are analogizing the reasoning.
    Dr. Brown. That is correct.
    Dr. Schlesinger. I think that that was the explanation that 
we received from Colonel Warren who asserted that the combatant 
commander had this inherent authority in his judgment.
    Senator Sessions. Mr. Chairman, I believe that is the 
Colonel Warren that testified here before us so ably. Was it 
not?
    Chairman Warner. He was present at a previous panel.
    Senator Sessions. A very impressive officer and under a lot 
of pressure. He explained the situation here in a confused 
hearing. He just brought clarity to the whole picture that we 
had never seen before.
    Dr. Schlesinger. He was very impressive in our interview. 
As I say, on the issue of the ICRC, he said, ``I shall carry 
that with me till the end of my life.''
    Chairman Warner. Having accepted responsibility for failing 
to do his duty.
    Dr. Schlesinger. Yes.
    Senator Levin. I do not know what accepting responsibility 
means if it does not mean accountability. Hey, I have heard 
people accept, at this table, responsibility for everything. I 
have heard George Tenet accept responsibility for all the 
intelligence failures, but nothing follows from it. The 
question is, what follows? Where is the accountability? That is 
what I want to get to next.
    Dr. Brown. There is more than one kind of penalty, Senator 
Levin.
    Senator Levin. That is true. But we are talking, really, 
about accountability. One way or another it is accountability. 
It is not just a general ``I accept responsibility'' because 
that does not do anything. Those are just words. That is 
rhetoric.
    Now, your panel also found that there was not only a 
failure to plan for a major insurgency, but to quickly and 
adequately adapt to the insurgency that followed. Now, what is 
the source of the failure to plan for the major insurgency? 
What is the source of that failure, in your words? Where did 
that come from?
    Dr. Brown. My own judgment is that there was, in the DOD, 
including the OSD, and in some but not all other parts of the 
Government, a belief that we would be welcomed as liberators 
and that there would be an easy transition.
    When you believe that, you do not plan for some kinds of 
things.
    Dr. Schlesinger. May I add to that? The plans did include 
an expectation of ``some resistance,'' but nobody anticipated 
the extent of a major insurgency.
    They did plan for some other things. They planned for 
sectarian fighting, followed by large numbers of refugees, 
attacks on the oil-producing facilities. Those were not what 
happened.
    Senator Levin. So that failure goes back to the basic plan 
that there would not be any major problem after the major 
operation was finished. That then becomes the source of great 
problems, the failure to plan that.
    Dr. Schlesinger. Not that there would not be a major 
problem. That there would not be a major insurgency.
    Senator Levin. Major insurgency. Thank you.
    There is also here, in your words, a failure to quickly and 
adequately adapt to the insurgency that followed. What is the 
source of that failure? Who is accountable for that failure?
    Dr. Brown. That accountability, it seems to me, extends up 
to the higher headquarters because they did not provide the 
additional resources that the new situation demanded. Now, to 
what extent the people down below did not ask hard enough and 
to what extent the ones up above were not responsive enough, 
that I think has to be sorted out. We could not do that.
    Dr. Schlesinger. Let me throw in something here, Senator. 
Some of the military took the view that security is not our 
responsibility. That was plainly seen in the early days. The 
reality is that security is the heart of the problem in the 
post-attack period, and as a consequence, the early-on 
adaptation should have recognized, in my judgment, that only 
trained Iraqis could provide security, that the United States 
would not have the intelligence, it was not aware of the 
culture. We should have started from day one to create the 
necessary Iraqi security forces. That was a long lag.
    Senator Levin. Just to tie this up, and this will be my 
last question. You just made reference to it, I believe it was 
Dr. Brown, about reluctance to ask for additional forces 
because your report does make reference to the possibility, at 
least, that there was a reluctance on the part of the Joint 
Task Force to submit a request for forces for MP units. There 
is no evidence, you say, that any of the responsible officers 
considered any option other than the response given to 
Brigadier General Karpinski to ``wear her stars'' and 
reallocate personnel among her already-overstretched units. In 
other words, she apparently did ask for additional people and 
was told--am I correctly reading your report?
    Dr. Brown. She asked the wrong person.
    Dr. Schlesinger. She was not in that chain of command.
    Senator Levin. Who told her to ``wear her stars?''
    Dr. Schlesinger. When she talked to the people at CJTF-7.
    Senator Levin. She did ask someone at CJTF-7 for additional 
people and they said, ``wear your stars,'' reallocate 
personnel. That is their answer?
    Dr. Schlesinger. That is correct, but the request should 
have gone to General McKiernan who was in charge of General 
Karpinski.
    Senator Levin. The response, though, is interesting. It was 
not, ``you went to the wrong place, go over there.'' It was, 
``wear your stars, reallocate your people.'' There is something 
improper about asking for more personnel. That is the whole 
implication here. So you are understaffed and, oh, hey, I 
understand that. Go over there to ask. That is not what she 
hears. It is rather make do with what you got. That is a big 
problem which your report has suggested, it seems to me.
    Dr. Schlesinger. If they were understaffed at Abu Ghraib, 
if there were other military police within country that could 
have been reallocated, I think that that was the intent of the 
advice to General Karpinski.
    Senator Levin. Thank you.
    Chairman Warner. Thank you.
    Colleagues, our colleague here from Oklahoma has to depart.
    Senator Inhofe. Just for a unanimous consent request. I 
thank you very much. I am not going to jump in front of you 
here. I took quite a bit of time this morning.
    I think it needs to be in the record someplace that prison 
life is not easy. It is a tough thing, and here in the United 
States we have very serious problems. When I look at the 
results of your study and combine that, as I did this morning, 
with other studies that have taken place, such as 44 incidents 
of non-interrogation abuses in a prison population of 7,000, 
that is remarkable. We are talking about a half of 1 percent.
    What I want to submit for the record is a very interesting 
article that compares prison abuse in America to be somewhere 
around 14 percent of the prison population are abused, either 
raped or beaten or injured in other ways. It goes on to 
graphically talk about some of the prisons, Mr. Chairman, in 
Virginia's Red Onion prison and the Wallens Ridge prison, 
talking about using stun guns and shotguns loaded with rubber 
pellets to control prisoners. In Massachusetts, it graphically 
talks about some of the things that happened.
    So I think it is appropriate to have, as a part of the 
record at this point, that the incidence of abuses in our 
prisons in the United States appears to be far greater than 
what we are experiencing over there at Abu Ghraib Prison. I ask 
unanimous consent that this be made a part of the record.
    [The information referred to follows:]
      
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Dr. Brown. It is notable, Senator, that at least two of the 
noncommissioned officers involved in the photograph abuses were 
reservists who in civilian life were prison guards.
    Senator Inhofe. Now, that is interesting because when you 
talk about the photographs, they say what is the difference. 
Why is there no public outcry? These human rights groups say it 
is because there are no photographs. If there were, there would 
be because the incidence is far greater than it was in Abu 
Ghraib.
    I thank you folks for the fine work that you have done.
    Thank you, Mr. Chairman. Pardon the interruption.
    Dr. Schlesinger. Let me add on that we do understand that 
prison life is hard in the United States, and that is not when 
you are under mortar fire as Abu Ghraib was. As those mortar 
shells came in from time to time, it did not improve the 
disposition of the MPs in the facility. So it is harder out 
there in the field in a combat zone.
    The reason that we had them at Abu Ghraib was that the rise 
of the insurgency meant that it was hard to transport 
elsewhere. Abu Ghraib in itself had been, in a sense, loaded on 
to what had been intended to be a civilian prison. Next door in 
Tier 2, you had Iraqi criminals under Iraqi guards. The 
atmosphere was, as a result, even worse in some sense than an 
American prison.
    Chairman Warner. We must proceed now. Thank you very much.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, and I join those in 
commending Secretary Schlesinger and Secretary Brown for their 
extraordinary service to our country. I thank them.
    I would just mention quickly I would like to put in the 
record that New York Times article. ``General says less 
coercion of captives yields better data. American interrogators 
who have worked in Iraq have obtained as much as 50 percent 
more highly valued intelligence since the series of coercive 
practices like hooding, stripping, and sleep deprivation were 
barred, said Major General Miller, who has basically had it 
both ways.'' So if we are really interested in trying to get 
the information, I think we have pretty good examples of how 
that best can be done.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Kennedy. Now, before the war, the Pentagon simply 
ignored some of the post-war planning carried out by the State 
Department. I was here in the Armed Services Committee. We had 
Doug Feith who gave a single presentation. I thought it was 
extremely weak myself. Others thought it was very adequate. But 
the civilian leadership at the DOD was convinced the war would 
be fast, cheap, and easy, and they ridiculed those like General 
Shinseki, the then Chief of Staff of the Army; and Larry 
Lindsey, former Chairman of the White House National Economic 
Council, who said that a successful war would require hundreds 
of thousands of soldiers and hundreds of billions of dollars. 
They put their own ideology above practical military planning. 
We continue to see the catastrophic results.
    The abuses at Abu Ghraib are just one part of a much larger 
failure and our soldiers have been paying the price since day 
one. They were not adequately trained for their mission and 
they did not have adequate equipment for it either, talking 
about the Abu Ghraib and these reports that we have been 
considering today. After the President prematurely declared the 
mission accomplished, the civilian leadership at DOD took him 
seriously and left our Armed Forces in Iraq, I think, 
underprepared, understaffed, underled for the mission they were 
really just beginning.
    Our soldiers have responded to the challenges with immense 
courage and dedication. That does not excuse the incompetence 
of civilian leadership.
    According to the Jones-Fay report, the leadership plans 
envisioned that General Sanchez would be provided the stability 
and support to the Coalition Provisional Authority (CPA) in a 
relatively non-hostile environment. That has been referred to 
here. The defense leadership did not anticipate or prepare for 
the robust hostilities that actually occurred. That is on page 
2 of the Jones-Fay report. General Sanchez was missing two-
thirds of the personnel he needed for his command in Iraq. That 
is on page 8 of the report. Of the 1,400 personnel required, 
the B Corps staff transitioned to 495, roughly a third of the 
manning requirements. ``The military police, military 
intelligence unit at Abu Ghraib under-resourced.'' That is on 
page 2. ``Failure to distinguish between Iraq and the other 
theaters of operation led to confusion about what interrogation 
techniques were authorized in Iraq,'' page 5. ``The 
intelligence structure was undermanned, under-equipped, and 
inappropriately organized for counterinsurgency,'' page 11.
    We also know from General Taguba's report that few, if any, 
of the MP soldiers assigned to Abu Ghraib had been trained on 
how to run a prison or on the requirements of the Geneva 
Conventions.
    Again and again, the glaring mismanagement of the Iraq war 
has been, I believe, a colossal failure of leadership. No one 
has been held accountable.
    Compare this to the way the Pentagon has handled other 
leadership failures. A few weeks ago, the Navy fired the 
captain of the U.S.S. John F. Kennedy for running over a small 
boat in the Persian Gulf. The Navy said they had lost 
confidence in his ability to operate the carrier safely. He was 
the 11th commanding officer of the Navy to be fired this year. 
The Navy fired 14 commanding officers in 2003.
    In February 2004, the commanding officer of the U.S.S. 
Samuel Roberts was fired for a loss of confidence after he 
spent a night off the ship during a port visit in Ecuador.
    On October 3, 2003, a commanding officer of an EA-6B 
Prowler aircraft squadron lost his job after one of his jets 
skidded off a runway. The Navy cited a loss of confidence when 
they made the decision to fire him.
    In December 2003 and January 2004, respectively, the 
commanding officers of the submarine Jimmy Carter and U.S.S. 
Gary were fired both for loss of confidence.
    For the military officers in the Navy, the message is 
clear. If you fail, you are fired.
    Is it not time the DOD ran a tighter ship at all levels of 
command, including the civilian leadership? Dr. Schlesinger, 
Dr. Brown, do you not believe that civilian leadership in the 
Pentagon should be held to the same standard of accountability 
that military officers in the Navy, for example, have been held 
to? Who is accountable? Who should be fired? Should it be 
General Sanchez, General Abizaid, General Myers, Deputy 
Secretary of Defense Wolfowitz, Secretary of Defense Rumsfeld, 
the President? The buck has to stop somewhere. Every naval 
officer knows where it stops. Why does the civilian leadership 
that has made the grievous errors left the soldiers and sailors 
holding the bag? Why are they not held accountable too?
    Dr. Schlesinger. It is more complicated.
    Senator Kennedy. More complicated than what?
    Dr. Schlesinger. It is a more complicated issue with regard 
to these command levels. In the case of the Navy, if a naval 
commander runs his ship aground or fails to cover his ship, the 
Navy has this long tradition that you have pointed out. But 
that does not mean that at higher levels, in which one is 
facing a determined opposition, that the same ``fire 
immediately'' is appropriate. If we had had those rules in 
World War II, we would have fired General Eisenhower right 
after Kasserine Pass. General MacArthur would never have landed 
at Inchon simply because he would have been fired.
    Senator Kennedy. We are not in World War II.
    Senator Sessions [presiding]. Let him answer, Senator 
Kennedy.
    Senator Kennedy. My time is up.
    Dr. Schlesinger. The point is that it is different 
standards.
    Senator Kennedy. Different standards. We are not in World 
War II. These are the reports that are coming out. This is not 
just what I am saying. This is what is in the reports. This is 
what is in those reports. These are the findings, and there has 
not been, as far as I know, a single member of the civilian 
authority that has been held accountable.
    Dr. Brown. Let me answer from a perspective that may be 
rather different from Jim's on the question of how to deal at 
the highest level, the presidential level.
    At each level, the question is loss of confidence, and in 
the Navy, the loss of confidence goes with grounding your ship. 
At a higher level, the loss of confidence has to be determined 
on a basis that is somewhat broader, the full performance. I 
think that applies at the highest military levels and it 
applies at the level of the Secretary of Defense and his staff. 
The Secretary of Defense has to decide whether he has lost 
confidence in his under secretaries or his assistant 
secretaries on the basis of their performance, and the 
electorate has to decide on the basis of its confidence at 
election time.
    Senator Sessions. Your time has expired, Senator Kennedy.
    Senator Kennedy. Yes, if you will just yield.
    Senator Sessions. You are well beyond your time, Senator 
Kennedy.
    Senator Kennedy. Are you going to cut--I will be the first 
one that has been----
    Senator Sessions. I be glad to go to the second round, but 
Senator Graham has been here and the time is well long since 
expired.
    Senator Graham.
    Senator Graham. Thank you.
    We will probably get a better answer to this after 
November. I am convinced of that. But generally speaking, a 
disproportionate response will haunt us for years, and it goes 
both ways. I totally believe that one of the most damaging 
things that can happen to our military and all of us believe to 
the core of our being that the many do great, the few will not 
be excused. But the many have a sense of fairness and if at the 
end of the day, gentlemen, the only people that are court-
martialed are sergeants, you are going to have a very 
dispirited group of men and women in uniform because they 
understand some of the things that Senator Kennedy said.
    Now, to my colleague from Massachusetts, if we take this 
event, which is a blight on our military's honor and an 
aberration of who we are, and we try to make it a November 
issue, we are creating an equal disservice.
    My belief, in terms of Secretary Rumsfeld, and you confirm 
this if you think it is accurate, is that when he tried to 
implement the policy that people and the Taliban and Al Qaeda 
would not be subject to the Geneva Conventions, but would be 
treated humanely, he received legal recommendations that came 
out of the White House, the DOJ, and the Pentagon. There were 
35 interrogation techniques initially presented. Is that 
correct?
    Dr. Brown. That is correct.
    Dr. Schlesinger. Yes.
    Senator Graham. Now, I am going to call on this committee 
to release the Judge Advocate memos that are classified, I 
think, inappropriately. Those memos suggest that those 
interrogation techniques that were being proposed by civilian 
authorities were way out of bounds, that they violated the 
UCMJ, they violated international law, and they would get our 
people in trouble.
    I think an appropriate response is for those people who 
tried to cut the corners too close in the Justice Department 
and the White House set in motion some legal reasoning that 
literally got our people in trouble. Now, I am going to ask the 
chairman to release that information.
    But when it came time for Secretary Rumsfeld to deal with 
this dilemma, is this an accurate statement, when he heard that 
there was push-back from military lawyers, he stopped the 
process and convened a collaborative group, is that correct?
    Dr. Schlesinger. Yes.
    Dr. Brown. Correct.
    Senator Graham. That group looked at this anew and the 
policy was changed. Is that correct?
    Dr. Brown. Correct.
    Dr. Schlesinger. Yes. I think he behaved very responsibly 
in that regard.
    Senator Graham. So do I, but I think our policies about 
troops, enough people were not well-conceived. That is not for 
you to decide. That is for us to decide.
    But during the course of your investigation, did you ever 
sense that a commander was afraid to ask for more troops 
because it may be a career adverse event?
    Dr. Schlesinger. One can speculate on that. We did not have 
any evidence or sense during the course of that.
    Dr. Brown. We did not see it, but that does not mean that 
it was not there.
    Senator Graham. One final question about the dogs. Let me 
tell you about the photos. The first explanation about the 
photos was a suggestion by some members of this committee that 
the people involved in the photos were the worst terrorists in 
the world and they deserve what they got. Then Colonel Warren 
comes along and says some of the people in the photos were just 
normal criminals, which made me to suggest this was aberrant 
behavior unconnected with interrogation.
    Now we have gone to where there is only one person in the 
photo subject to interrogation. That is a 180 degree turn.
    I keep getting back to the use of the dogs. You have a 
colonel, who is a well-respected person in his field, telling 
investigators that the dogs came about as a result of a 
suggestion or a recommendation from General Miller, the use of 
the dogs in interrogation. We know that the use of the dogs got 
written down somewhere. How did that happen? What happened with 
the dogs?
    Senator Sessions. Is this Colonel Pappas you are talking 
about?
    Senator Graham. Yes. Somebody is lying at the highest 
level. There is no way to reconcile this. You cannot say it is 
confusion on his part because it came on a document out of his 
control. Do you have any idea how that scenario with these dogs 
got to be part of the interrogation techniques of the United 
States Army?
    Dr. Schlesinger. Just two comments. General Miller 
indicated that dogs could be used but they must be muzzled, as 
I understand it.
    Senator Graham. Were they used as part of an interrogation 
technique?
    Dr. Schlesinger. I am not saying that because I have no 
remembrance of that.
    Senator Graham. It is my understanding--and I do not want 
to confuse you, that he suggested the dogs be used for 
perimeter security. Colonel Pappas is saying no, the reason we 
used the dogs is because it came from Guantanamo Bay. But apart 
from General Miller and Colonel Pappas, you have, on one of 
these forms about interrogation, military dogs. Do we know how 
that happened? To me that is very important.
    Dr. Schlesinger. The dog trainers believed that they were 
there to provide perimeter security. When they got there, they 
were seduced, persuaded into using the dogs in interrogation.
    Senator Graham. Who did the seducing and persuading?
    Dr. Schlesinger. That was either the MI people or the MP 
people. Now, that does not preclude having the suggestion come 
from higher up. We did not have that kind of evidence.
    Senator Graham. How did it get into a written interrogation 
policy?
    Dr. Schlesinger. I beg your pardon?
    Senator Graham. How did it get on the sheet from General 
Sanchez's office?
    Dr. Schlesinger. I indicated earlier that General Sanchez, 
as described by his legal advisor, felt that he had this 
inherent authority. Now, I do not know how it got on there. 
That is something that you may well explore.
    Senator Graham. Thank you. You both have served your Nation 
well. Thank you for what you have done.
    Senator Sessions. I would note that in General Sanchez's 
defense, I do not think the report mentions that. As I recall, 
he did add some techniques that probably are not justifiable 
under the strict rulings of the law, but he did say they could 
not be used without his personal approval. Is that correct?
    Dr. Schlesinger. That is correct.
    Dr. Brown. Yes.
    Senator Sessions. Nobody ever requested to use any of those 
enhanced techniques, and he never approved any of those 
enhanced techniques.
    Senator Graham. But, Senator, they were used and I do not 
know how that started.
    Senator Sessions. Well, you know how, Senator Graham.
    Dr. Schlesinger. He did approve isolation.
    Senator Sessions. I am trying to help a little bit on 
General Sanchez. He did not say, ``Go use these techniques.'' 
He said these are possible techniques. If you decide that you 
want to use them, I want to personally approve it.
    Senator Reed.
    Chairman Warner [presiding]. Senator Reed is next, yes.
    Senator Reed. Thank you very much.
    Mr. Secretary, thank you for your report. I think one thing 
you did, among many admirable things, is to make it quite clear 
that Operation Iraqi Freedom was governed by the Geneva 
Conventions. Afghanistan was not. Guantanamo was not. But I 
think you also raised the complexity. I think the best way, 
from my view, to approach this is not the procedures but the 
types of people that are categorized: enemy prisoners of war 
under the third Geneva Conventions, protected persons under the 
fourth Geneva Conventions, and a third category perhaps of 
unlawful combatants.
    Now, Dr. Brown, in your testimony you suggested that this 
definition of unlawful combatant, as applied to Iraq, was 
restricted to foreign terrorists.
    Dr. Brown. That is my understanding.
    Senator Reed. Is that your understanding? Foreign 
terrorists?
    Dr. Brown. Yes. Resisters do not qualify under that 
category.
    Senator Reed. Now, in October 2003, Secretary Rumsfeld, at 
the request of Mr. Tenet, ordered military chain of command to 
deny at least the registration rights under the Geneva 
Conventions to an individual who I believe is an Iraqi citizen, 
part of Al Ansalam. Do you think that is consistent with the 
application of the Geneva Conventions to Iraq?
    Dr. Schlesinger. The answer to that is no. It is not 
consistent.
    Dr. Brown. If that happened, that is not consistent.
    Dr. Schlesinger. I think that that is something that should 
be examined under the heading of intelligence, if I may just 
throw in that.
    Senator Reed. Thank you, Mr. Secretary.
    Now, this decision was staffed down the line from General 
Myers, General Sanchez, and General Abizaid. It was a decision 
of the Secretary of Defense. It was an order given by him. Do 
you think that in any way colored their judgments about what 
they could do; i.e., we can declare anybody an enemy combatant 
if we think they are dangerous enough? Or it simply reflected 
the fact that this issue of the rules of the game were confused 
not just in Iraq and with General Sanchez, but all the way up 
to the Secretary of Defense's Office?
    Dr. Schlesinger. There are, I think, special rules that 
apply to the CIA, and in our discussion we recommended that 
there needs to be a better definition of the relationships 
between the CIA and the DOD.
    Senator Reed. Dr. Brown?
    Dr. Brown. I am not sure how this event affected the 
thinking of those military commanders, but we did not see any 
sign that they acted in a way that corresponded, that is, that 
they created ghost prisoners.
    Senator Reed. Let me ask a follow-up question, if I may. My 
understanding of the opinion of the White House counsel, Mr. 
Gonzales, is that the only individual that could designate 
people as enemy combatants or to relieve the restrictions of 
the Geneva Conventions was the President of the United States. 
Is that correct? Was that delegated to the Secretary of 
Defense?
    Dr. Brown. I do not know.
    Dr. Schlesinger. I do not know the answer to that.
    Senator Reed. Is that a question that is worth pursuing?
    Dr. Schlesinger. Yes, indeed. I think that you have to 
pursue that, as I say, in the intelligence area.
    Senator Reed. Thank you.
    Let me change the subject. You are critical of General Fast 
for her performance of her duties. We heard today from General 
Kern and from his colleagues that they have a great deal of 
admiration for her performance in many aspects, and I share 
that having met her briefly.
    But what is revealing to me is that General Fast's 
responsibilities were divided, not formally but effectively, 
between General Sanchez and Mr. Bremer. Did you ask Ambassador 
Bremer or anyone in the CPA what instructions or decisions that 
they gave to her or anyone else with respect to Abu Ghraib 
intelligence operations? Dr. Schlesinger, Dr. Brown?
    Dr. Schlesinger. No.
    Dr. Brown. We did not speak with Jerry Bremer.
    Senator Reed. So you have a critical intelligence officer 
who is at the heart of so much of this who is responding not 
only to General Sanchez but to the direct representative of the 
Secretary of Defense, Ambassador Bremer, and he has not been 
questioned, that is correct?
    Dr. Brown. That is correct.
    Senator Reed. Who did the CIA station chief work for 
effectively in Iraq?
    Dr. Schlesinger. Let me modify that statement about 
Ambassador Bremer. He was nominally under the Secretary of 
Defense, but in fact he responded directly to the White House.
    Senator Reed. He responded directly to the White House.
    Again, my time has expired. Effectively who did the CIA 
station chief work for in Iraq?
    Dr. Schlesinger. The CIA station chief should be working 
for Ambassador Bremer.
    Senator Reed. Should be working for Ambassador Bremer? 
General Fast is working for Ambassador Bremer. Much of the 
difficulties we have seen, the reports of abuse, stem from a 
failure to coordinate military rules and regulations with the 
CIA. All roads seem to lead to CPA and through CPA directly to 
the White House in this regard. Is that the subject of an 
appropriate inquiry?
    Dr. Schlesinger. Well, ``all these lead'' strikes me as a 
little strong, but it certainly points in that direction, yes.
    Senator Reed. Dr. Brown?
    Dr. Brown. Yes.
    Senator Reed. Thank you very much.
    Chairman Warner. The question is an important one, and I 
want to make sure the implications from the question and your 
very brief response are quite clear. Are you suggesting that 
there was anything specifically relating to this prisoner issue 
that was dealt with by Ambassador Bremer that was inconsistent 
with law or regulation or could have contributed to the 
problems that we are dealing with?
    Dr. Schlesinger. No. We are dealing with a somewhat 
different issue.
    Chairman Warner. I know but we are going astray here.
    Dr. Schlesinger. Ambassador Bremer was the one who set up 
Abu Ghraib as a civilian prison. Later on that was adapted to 
bring in military prisoners, and the MPs were in charge of Tier 
1. But that was an adjustment that was made because of the 
insurgency that precluded movement to other facilities that 
would have been preferable. Those roads were dangerous to go 
over, but yes, he was deeply involved in Abu Ghraib.
    Chairman Warner. But you laid the foundation, Secretary 
Schlesinger, that Ambassador Bremer was responsive to the White 
House in large measure, as opposed to the Secretary of Defense.
    Dr. Schlesinger. As a practical matter, yes.
    Chairman Warner. I want to make certain that you were not 
implying that the White House had something to do with this 
prison situation.
    Dr. Schlesinger. Oh, absolutely not.
    Chairman Warner. I want to make that clear. I listened very 
carefully.
    Dr. Schlesinger. Oh, yes, absolutely. I was responding to 
Senator Reed. He raised the question about the relationship 
between the military and the civilian authorities, and they 
were not good in Iraq. They were not as good, for example, as 
the relationship between General Abrams and Lawrence Bunker in 
the later on in Vietnam after the early days. That, as the 
Senator pointed out, was a defect in our operations.
    Chairman Warner. Vietnam. I remember that. But nothing to 
do with this prison situation.
    Dr. Schlesinger. No, sir.
    Chairman Warner. I want to get that clear.
    Senator Reed. Mr. Chairman, if I may, since I posed the 
question. I do not want to unfairly take advantage of the 
response. My question, simply stated, is that Ambassador Bremer 
had significant responsibilities for both coordinating the CIA 
operations and also coordinating many of the activities of the 
intelligence chain of command in the military under General 
Fast. He has not been asked by any panel any significant 
questions about what guidance he gave to either the CIA or to 
General Fast. I think this is all correct. I assumed, until I 
was corrected by Secretary Schlesinger, that he was directly 
under the direction of the Secretary of Defense.
    So my question was simply that. I just think that is a 
huge, huge gap in any kind of accountability of what went on 
with respect to Abu Ghraib and many other things in Iraq.
    Thank you, Mr. Chairman.
    Chairman Warner. For the record, Senator Levin and I tried 
to get Ambassador Bremer here before we went on the summer 
recess period, but we were unsuccessful in achieving that.
    Now we will go next to our colleague. Have we completed on 
this side? We will then now proceed with Senator Ben Nelson.
    Senator Sessions. I think I am next.
    Chairman Warner. Sorry. I had to depart the room for a 
period of time. I thought you had gotten your time.
    Senator Sessions. No, I did not.
    Gentlemen, you both served as Secretary of Defense. You, 
Secretary Schlesinger, as Secretary of Energy under President 
Carter and Secretary of Defense later under President Reagan.
    But I thought that it was significant that the report all 
agreed that no approved procedures called for or allowed the 
kind of abuse that in fact occurred and no evidence of a policy 
of abuse promulgated by senior officials or military 
authorities.
    I also noticed that the first soldier that was court-
martialed in an Associated Press report, I am quoting from 
them, ``He said the mistreatment was not authorized by higher-
ups in the chain of command. `Our command would have slammed 
us,' he said. `They believe in doing the right thing. If they 
knew what was going on, there would have been hell to pay.' ''
    So I think one of the things that is causing us confusion 
and some of this I think may be almost deliberate confusion 
here. But you have the situation in which we had the 
photographs of these abuses, which were absolutely against any 
policy, any regulation. Nothing could have justified those 
abuses, I think we would all agree.
    Then there is a second question and that is, were any of 
the written guidelines and policies that came down from General 
Sanchez, the Secretary of Defense, CENTCOM, or wherever, 
improper, and did any of them lead to abuses?
    I guess you would agree that none of the policies, and your 
report stated that plainly I think, would have justified the 
photographed abuses by that night shift group?
    Dr. Brown. That is correct.
    Dr. Schlesinger. Turn that around, Senator.
    Dr. Brown. They prohibited them.
    Dr. Schlesinger. No one who had suggested these kinds of 
abuses if hypothetically somebody had suggested these kinds of 
abuses, the last thing that would have been ordered would be 
that there be photographic evidence of it.
    Senator Sessions. I think no doubt of that.
    So you get to the point of what about these 44 abuses. You 
take 10, I do not know how many, 10 or so individuals involved 
in the photograph situation. Then you have some more abuses. 
Most of those, I guess you would say, were the result also of a 
lack of discipline and a failure to follow any of the policies 
that might have been in existence. Is that fair to say?
    Dr. Schlesinger. Yes.
    Dr. Brown. They were all against policy, yes.
    Senator Sessions. There might be some. I do not know. Were 
there any of the abuses in this gray area that we keep hearing 
about that somehow one of these orders that said you might use 
a dog muzzled or whatever, that may have led to an abuse? Are 
there any that come down on the question of gray areas and 
interpretation?
    Dr. Brown. I think the problem, Senator Sessions, is that 
when the rules keep changing, some people may say, well, the 
rules keep changing, maybe some other things are allowed.
    Dr. Schlesinger. Also, there was a migration of personnel 
from Afghanistan into Iraq and the rules in Afghanistan were, 
to say the least, more lenient on these issues than they should 
have been in Iraq.
    Senator Sessions. I think clearly the President was correct 
in declaring al Qaeda an unlawful combatant and not legally 
subjected to the Geneva Conventions, although he ordered they 
be treated humanely. I think many of the people in Iraq do not 
qualify clearly for the same protections, but the President 
gave it to them and they decided to give it to them and treat 
them as if they did qualify. But un-uniformed terrorist 
attackers on American soldiers and civilians in Iraq are not 
soldiers that qualify as lawful combatants under the rules of 
warfare.
    But regardless, my only point was to suggest that, yes, it 
is great that we look at the rules, the definitions, make sure 
that our soldiers know that with more clarity. But really, most 
of the problems that occurred were people that would have been 
in violation of any definitions in any of the rules. Is that 
correct?
    Dr. Schlesinger. Yes, unquestionably.
    Dr. Brown. Yes.
    Senator Sessions. I do understand. As a former Federal 
prosecutor, I had to investigate police abuse cases, and it is 
a thankless task. A lot of times it occurred; you say one-third 
of the abuse cases occurred on the scene when somebody is 
chasing an outlaw, in a shoot-out with an outlaw, in a high-
speed chase, sometimes those police officers are pumped up and 
they go too far, and it is wrong. It should not happen. Most 
officers do not go too far, but some do, and that is when a lot 
of the problems occur. I think that is distinct from the 
confusion over what is a legitimate interrogation technique and 
what is not.
    Dr. Schlesinger. Right.
    Senator Sessions. Thank you, Mr. Chairman. That is all.
    Chairman Warner. Thank you very much.
    Now, Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your service and certainly this has not been the 
easiest assignment that you have had over the years but clearly 
one of the most important ones.
    General Kern, this morning, was talking about General 
Sanchez, and he said, without taking anything away from General 
Sanchez's overall performance, that there were some 
shortcomings in that performance. But he also referred to him 
as a hero. So I do not want to take anything away either.
    But if there is a responsibility, rather than just 
culpability, in the case of General Sanchez and we evaluate the 
overall performance, is there a different standard for General 
Sanchez with those shortcomings than running a ship aground? Do 
you just not get another star? Can you shed some light from 
your own experience about what happens if there are 
shortcomings in someone's performance, whether they are as 
egregious as this may appear to be or they may be egregious in 
another manner?
    Dr. Brown. Every case is different and every standard is 
different depending upon the institution. As I said, when a 
captain runs his ship aground or collides with another ship, 
even if he was not personally on the bridge, they lose 
confidence in him.
    Senator Ben Nelson. What is the standard for the Army, or 
do we know?
    Dr. Brown. You do not run your ship aground in the Army.
    Senator Ben Nelson. That is right.
    Dr. Brown. It is more complicated. It is not so easy to 
formulate a simple rule in the Army. General Sanchez is 
responsible. He did a great job in some ways. He under-
performed in other ways, and that has had a consequence on his 
promotion. Indeed, in the Navy, the captain is not sent to jail 
when he runs his ship aground. He is pretty unlikely to be 
promoted.
    Senator Ben Nelson. I wonder, is that the standard here for 
the Army? It is probably unfair to General Sanchez to be 
dragging it out like this and speculating, but the question has 
been raised about the shortcomings. So I am curious about what 
kind of penalty, what kind of standard is being considered 
here.
    Dr. Schlesinger. That is for the Army to decide.
    Senator Ben Nelson. But from your experience of having been 
in that civilian control in the past, what would you think 
might be a consequence?
    Dr. Brown. Failure of promotion is a pretty severe 
consequence.
    Senator Ben Nelson. Stuck at three stars.
    Dr. Schlesinger. That is right. In General Sanchez's case, 
may I repeat that there are extenuating circumstances in that 
he had only one-third of his staff, one-third of the authorized 
staff. He was trying to fight a war. He was adjusting from a 
role as division commander to corps commander. He did sense 
there was something wrong at Abu Ghraib. He went there four 
times to visit the facility. So there were things going on, but 
he was a busy man.
    Senator Ben Nelson. Do we know whether he asked for 
additional headquarters staff?
    Dr. Schlesinger. Oh, absolutely.
    Senator Ben Nelson. Now, if there is a standard for the 
military, now let us go to the civilian. We go from the chain 
of command now to the DOD, from chain of command to DOD. What 
kind of standards would we expect people there to be held to? 
You have said you would not fire the Secretary of Defense for 
this situation, but is there anybody below that level, as you 
have looked at this and studied it, that you think Donald Trump 
ought to say ``you are fired''?
    Dr. Schlesinger. We were prepared to consider that. Now, in 
testimony before this committee, General Sanchez and General 
Abizaid stated that the Secretary of Defense states the policy. 
We in the Army execute that policy. We do not go back for 
additional guidance. What they were saying is we do not seek 
oversight from the OSD once the policy is established.
    We looked into a number of people in the OSD, and there 
were some who might, at the outset, have expected to find 
greater evidence there of responsibility. There was none in our 
judgment at lower levels in the OSD.
    If you look up at the military chain of command, the area 
in which we found a problem was in terms of organizing the 
appropriate forces for Iraq and seeing to it that there were 
enough MPs there.
    The information on the photos came up through to CENTCOM. 
There was a lieutenant colonel there who looked at the photos 
and kind of shrugged and did not send them any further up. Now, 
it seems to me that that is a real failure to recognize the 
policy significance and the political significance for the 
United States of America of those photos being unleashed on the 
world. So that was a failure of an individual in CENTCOM.
    Further up the chain of command, one can argue that there 
should have been a better sense that there was a problem with 
regard to MPs, interrogators, interpreters and the like, and 
there was none. That we characterize as a sin of omission.
    Dr. Brown. I would add one point. I think at the level of 
the staff of the Secretary of Defense, I would agree with Jim 
Schlesinger that there is a distinction between policy and 
execution, and that the military chain of command was 
responsible for the execution. The staff of the Secretary of 
Defense, I think, could have been more aware and attentive to 
what was going on and exercised some sort of oversight that 
they failed to do in connection with some of these.
    Senator Ben Nelson. How serious is that and is that 
punishable?
    Dr. Brown. It is up to the Secretary of Defense to decide, 
and I think he cannot decide it on the basis solely of this 
particular issue, prisoner abuse. He has to decide it for each 
individual on the totality of that individual's performance. 
Again, it is not like running your ship aground.
    Senator Ben Nelson. They may not get promoted but they do 
not have to worry about getting another star.
    Dr. Brown. Well, lots of things can happen.
    Senator Ben Nelson. I understand.
    Dr. Schlesinger. In that case, the promotion or the 
decisions about whether to keep a man or a woman depends upon 
their direct responsibilities more than what is in this case an 
indirect responsibility. As Harold indicated, they might well 
have been more curious about what was going on, but they too 
had other responsibilities.
    Senator Ben Nelson. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Chairman Warner. Thank you, Senator.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman. I really want to 
thank the witnesses for, I think, a really extraordinarily 
helpful investigation and testimony.
    Let me give a summary and tell me if it is basically 
correct just to make sure my understanding of your report is 
accurate.
    The pictures we all saw that started all this ironically 
enough are not related to the interrogation abuse that we are 
now really discussing. That really was a kind of sicko 
scrapbook that those people put together on their own, if I 
understand your report correctly. There was no policy or 
sanctioning by senior officers or civilians of abuse of any 
kind. I would have been very surprised to find otherwise. The 
abuse resulted from an unexpectedly unstable overall 
environment, under-resourcing, and an unexpectedly large and 
varied mix of prisoners in Iraq. Then added to that, was 
confusion over the specific rules of interrogation because, in 
some places, the Geneva Conventions did not apply, in some 
places it did, and it was not made clear enough to the forces 
on the ground what exactly they were supposed to do. Is that a 
fair summary? As I take away from this and I am asked back 
home, what does all this amount to, that is a fair summary?
    Dr. Schlesinger. Yes, sir.
    Dr. Brown. Yes. I think you should add that the results 
were serious. It happened in a fairly widespread way. I think 
we at least got over the idea there were only a few bad apples 
pretty early, but it happened as you describe.
    Senator Talent. Yes. I would have been surprised if the 
kind of stuff I saw in those pictures was at all widespread 
because that was just sick.
    Dr. Brown. We were not able to find evidence of that sort 
of pathology anywhere else.
    Senator Talent. Yes. People going too far in an effort to 
get information in an insecure environment where their friends 
are being shot at and they are desperate to find out what is 
going on, while inexcusable in one sense, in another sense is 
at least understandable, in a way, those pictures never were to 
me. So this is certainly a common sense conclusion.
    The only other thing I would say, Mr. Chairman, I think we 
have gone over the issues, is something the two Secretaries 
said in response to Mr. Nelson that I think is worth repeating. 
In hindsight, we are focusing on this aspect of the war and 
appropriately so, and it is certainly important. When you are 
actually operating the thing, as you all have done in different 
contexts, it is very important to maintain a sense of 
proportion. Had they gone too far in the other direction, 
focused too much on all of this, and taken resources away from 
other things, we could now be holding a hearing about why you 
did not resource adequately enough in other areas and you spent 
too much time on this. So clearly more should have been done. I 
just think we ought to keep in mind that we are acting with the 
benefit of a hindsight that they did not have.
    Thank you, Mr. Chairman.
    Senator Levin. You are the chairman.
    Senator Talent [presiding]. I guess I am the chairman. All 
right. [Laughter.]
    We have been through one round. We will recognize the 
Senator from Michigan.
    Senator Levin. Thank you, Senator Talent.
    On the ghost detainees issue, at this morning's hearing I 
asked our witnesses if they had looked into the relationship, 
if any, of Secretary Rumsfeld's approval of Director Tenet's 
request to keep a CIA detainee at a military detention facility 
in Iraq without informing the ICRC of his presence, to the 
presence of ghost detainees at Abu Ghraib. We were informed 
that their investigation had not looked into that issue.
    Did your panel or did any other DOD investigation you know 
of look into that issue as to the approval of a maintenance of 
a CIA detainee without notice, anonymously, and in violation of 
the Geneva Conventions?
    Dr. Schlesinger. In Camp Cropper, General Dayton heard 
about assertions that there might be abuse on the part of CIA 
people and declared, as a matter of commander, that from then 
on CIA people would not be permitted to question detainees in 
the absence of DOD personnel being present.
    Senator Levin. First of all, what is your reaction to the 
approval by the Secretary of Defense of the CIA keeping a 
detainee in violation of the Geneva Conventions rules?
    Dr. Schlesinger. As I have said several times, the 
committee should look at that from an intelligence standpoint. 
I think that there are authorities that apply to the Secretary 
of Defense and the notion that he was sort of a free agent 
here, I think should be looked at with some care.
    Dr. Brown. In relation to another matter that is under 
active consideration, the committee ought to think about what 
would happen if you had a Director of National Intelligence who 
was in charge of such detention operations because they were 
national intelligence and could use quite different rules from 
Army FM 34-52.
    Senator Levin. I think it is very good advice.
    Now, is the panel aware of how CIA interrogation practices 
and guidelines differ from the military's?
    Dr. Schlesinger. By reputation, the practices were somewhat 
more severe, but the panel did not have clear information in 
that regard. I simply report the reputation.
    Dr. Brown. Yes. We know of it but we do not know it.
    Senator Levin. The ICRC has reviewed your report apparently 
and has posted a response on its web site taking exception to a 
number of your panel's findings. I would like to get your 
comment on one of their responses.
    In your report you state, ``If we were to follow the ICRC's 
interpretations, interrogation operations would not be 
allowed.'' The ICRC response to that statement was on their web 
site: ``The ICRC has never stated, suggested, or intimated that 
interrogation of any detainee is prohibited regardless of the 
detainee's status or lack of status under the Geneva 
Conventions.''
    So what is then the basis of your assertion that the ICRC's 
view is that interrogation operations are not allowed?
    Dr. Brown. It depends on what you mean by interrogation. If 
finding out someone's name and serial number----
    Senator Levin. They were talking beyond that.
    Dr. Brown. Are they?
    Senator Levin. Oh, yes, absolutely.
    Dr. Brown. Not in what you have said.
    Senator Levin. No, but in your report you said name, rank, 
and serial number. They take exception to your report.
    Dr. Brown. My understanding is that the ICRC serves a very 
useful purpose and its early warning signals were ignored here, 
and that was part of the problem. But it is my understanding 
that they support the protocol, which we do not, to the Geneva 
Conventions. The protocol identifies what we call terrorists as 
prisoners of war. The ICRC is really pretty clear on how you 
can treat prisoners of war. You can ask them their name, rank, 
and serial number.
    Senator Levin. You can ask them other questions, but they 
do not have to give anything more than name, rank, and serial 
number. Is that not accurate? That is not a quibble.
    Dr. Brown. No, I think that is true. But they have also 
characterized pushing them beyond that as torture.
    Senator Levin. Asking questions?
    Dr. Brown. No. Doing more than asking questions.
    Senator Levin. No, no. I am not talking about anything 
other than asking questions.
    Dr. Brown. No, no. But interrogation consists of more than 
asking questions.
    Senator Levin. But has the ICRC ever said that you cannot 
ask questions beyond name, rank, and serial number?
    Dr. Brown. No.
    Senator Levin. They have never said that. I think that is 
what they are objecting to.
    Dr. Brown. I see. There is a distinction between 
interrogation and asking questions.
    Senator Levin. There is a distinction between interrogation 
and improper interrogation too.
    Dr. Brown. That is another distinction, but it is not the 
same distinction.
    Senator Levin. From what they say, apparently as I 
understand it, they do not have any objection to asking proper 
questions. No one has to answer them. But as I understand it 
from what they say, they have not said you cannot interrogate 
somebody. What they have said is that no one has to give you 
more than name, rank, and serial number, and anything improper 
obviously is improper.
    Dr. Schlesinger. No, Senator. The staff had a meeting with 
the ICRC and the ICRC made several points. The first of those 
points was, according to the notes of the meeting, the ICRC 
believes that the integration of interrogation and detention 
has become psychological torture.
    Senator Levin. Automatically. So in other words, you think 
it is the ICRC position? I am not disagreeing with you.
    Dr. Schlesinger. That is what was recorded in the notes.
    Senator Levin. In that case, then the ICRC has an 
explanation as to whether they believe that interrogation, 
which does not involve any abusive stuff, just asking 
questions, is improper. That is something which we ought to ask 
the ICRC, and we will do that.
    My last question.
    Dr. Schlesinger. If the integration of interrogation and 
detention represents psychological torture, that is a 
continuation of a belief that we should not engage in 
interrogation.
    Senator Levin. I would agree. If that is their position 
that you cannot ask anything, when someone is detained, other 
than name, rank, and serial number, and that to ask a question 
without any improper, abusive conduct, just asking, no 
isolation, no dogs, no anything, just asking the questions is 
improper, then there is a real difference here.
    My last question is this. You indicate in your report that 
in November 2003, a senior member of the National Security 
staff visited Abu Ghraib, leading some personnel at the 
facility to conclude, perhaps incorrectly, that even the White 
House was interested in the intelligence gleaned from their 
interrogation reports. You also then indicate that, and this, I 
guess, is the Fay report that indicated that the pressure that 
was felt by members of the Intelligence Community, the intense 
pressure that they felt from higher headquarters, and here I am 
quoting the Fay report, ``to include CENTCOM, the Pentagon, and 
the Defense Intelligence Agency for timelier, actionable 
intelligence,'' in their words, ``adversely affected their 
decisionmaking,'' that intense pressure. Can you comment on 
that? Do you agree with that?
    Dr. Schlesinger. I think that that is likely to be true, 
that there was an eagerness for intelligence, for actionable 
intelligence, and that eagerness constituted psychological 
pressure.
    Senator Levin. Do you agree with that, Dr. Brown?
    Dr. Brown. Yes, but that is different from being instructed 
to do something. It is hard to apportion blame under such 
circumstances.
    Senator Levin. Do you know the purpose of that visit of the 
NSC staff to Abu Ghraib in November 2003?
    Dr. Schlesinger. The staff member was there to look at 
intelligence resources that might be required. That was the 
purpose of the visit or the stated purpose of that visit.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    One short question, gentlemen, and then we will terminate a 
very good hearing.
    Senator Graham. Mr. Chairman, I am sorry.
    Chairman Warner. Yes.
    Senator Graham. Can I just have a few questions once you 
get through?
    Chairman Warner. We will do that. We note there is a vote 
on.
    My question would be as follows. Drawing on your own 
experience, what measures would you take, were you to be 
Secretary of Defense today, to ensure the effective functioning 
of a rapid reporting system back to you of news which could 
have major international and other serious implications on the 
ongoing operations of a military operation and/or foreign 
policy such that you can communicate with the President about 
any problems within your respective commands? I know Secretary 
Rumsfeld has this under consideration. He has noted the 
imperative need for change in this regard in view of the 
instantaneous transmission of news worldwide now. What kind of 
procedures would you put in place, and how must those 
procedures be adapted to protect the UCMJ and the 
responsibilities thereunder?
    Dr. Schlesinger. The Air Force has had such a procedure and 
we recommend that the DOD, the other Services, embrace the Air 
Force's procedure in this regard. I should, of course, caution 
that there is no way of assuring that that will ever happen.
    Chairman Warner. You are suggesting that is a model for 
each to look at.
    Dr. Schlesinger. Yes, that is a model.
    Dr. Brown. It is and it involves the establishment of a 
very small group that pays attention to this kind of thing and 
sends the word up.
    Chairman Warner. We have a vote, and one of our gentlemen 
has to get on an airplane. But you go ahead as best you can.
    Senator Graham. Very quickly. I do appreciate your 
patience.
    You said something before, that General Sanchez asked for 
more headquarters personnel, that he asked for more people. Is 
that correct?
    Dr. Schlesinger. That is correct in the sense that he was 
entitled to 1,400 and he had something on the order of 400, and 
therefore the message was bring me up to my necessary 
complement.
    Senator Graham. Did he get the number he requested?
    Dr. Schlesinger. No, he did not.
    Senator Graham. Who told him no?
    Dr. Schlesinger. Oh, I am not sure that he was told no. It 
is just that there was a build-up from the low 33 percent level 
but it never got to the full complement. I think there was an 
effort to respond, a natural effort to respond, but he never 
got to the full complement.
    Dr. Brown. That request went to CENTCOM.
    Senator Graham. CENTCOM, okay.
    Finally, the root cause I am trying to get to, and you have 
been so patient, about how we got on this slippery slope about 
interrogation techniques to me is very interesting, and I do 
not think it is within the Pentagon. Is my understanding 
correct that the Pentagon was receiving information from the 
DOJ and the White House counsel about a suggested game plan for 
interrogating al Qaeda and Taliban members that came from 
outside the Department? Is that correct?
    Dr. Brown. I do not know that that is the case. I think 
that they were aware of the very broad authority suggested in 
the OLC memorandum.
    Dr. Schlesinger. I do not know that there was any direct 
recommendation to the Department, but it certainly is fair to 
say both that the Department would understandably pay some 
deference to an OLC memorandum and that some of the influence 
was there.
    Senator Graham. Do you believe, given all that you know 
about this, that part of the problem, we experienced later on, 
is that some legal forces were set in motion that clearly cut 
corners, that clearly violated the spirit of international law, 
not only the letter, clearly violated the spirit of the Geneva 
Conventions, clearly were going in the direction against humane 
treatment, that that was a phenomenon that existed early on?
    Dr. Schlesinger. Certainly some of the statements that 
appeared in the second OLC memorandum are in that direction.
    Senator Graham. I am referring to the second, yes.
    Dr. Schlesinger. I think that it is clear.
    Senator Graham. Secretary Brown?
    Dr. Brown. Yes.
    Dr. Schlesinger. The eagerness with which that has been, if 
not disowned, pushed aside suggests that.
    Dr. Brown. The way I would put it is that there were 
clearly some lawyers who were saying, ``here is what you might 
be able to get away with rather than saying here is what is 
right.''
    Senator Graham. Thank you very much.
    Dr. Schlesinger. But it is also clearly an exercise in 
constitutional expression of constitutional limits, a long 
tradition, I think, of the OLC do not impose limits on the 
President of the United States. I think that goes back many 
years.
    Chairman Warner. Gentlemen, the vote is about to come. We 
want to thank you very much for another chapter of public 
service, by no means the last. You have brought an important 
perspective to this otherwise very difficult issue. I commend 
the Secretary of Defense for convening this panel and I commend 
each of you for discharging your responsibility in a very 
pragmatic, forthright, and honest way.
    Dr. Schlesinger. Thank you, Mr. Chairman.
    Dr. Brown. Thank you so much, Mr. Chairman.
    Chairman Warner. Thank you. The hearing is adjourned.
    [The Final Report of the Independent Panel to Review DOD 
Detention Operations follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Susan Collins
                            ghost detainees
    1. Senator Collins. Dr. Schlesinger, do we know precisely how many 
detainees were kept off the books?
    Dr. Schlesinger. No, our panel did not have that information. 
Indications were that there was a small, though significant, number. In 
just one case was the authorization at senior levels of the department 
sought.

    2. Senator Collins. Dr. Schlesinger, what was the motivation for 
this? Was it due to concerns that mistreatment of these prisoners would 
be revealed or was it because military leadership wanted to keep the 
identities of these individuals secret?
    Dr. Schlesinger. The motivation in the DOD was to accommodate the 
DCI, and whatever authorization he may have had from higher levels. I 
suspect that the purpose was to keep unknown the questioning of 
particular individuals--rather than that they were being 
``mistreated,'' which in any event was certainly not authorized. As a 
general proposition, military leadership was uneasy about keeping 
identities of these individuals secret, and was, in some cases, 
resisted.

 cooperation with central intelligence agency and department of defense
    3. Senator Collins. Dr. Schlesinger, were you satisfied with the 
level of cooperation you received from the CIA and the DOD?
    Dr. Schlesinger. Our panel was created by Secretary Rumsfeld for 
the DOD. We received total cooperation from the DOD. We are not 
authorized to investigate the CIA. We did receive some courtesies from 
the agency, but I would not characterize it as cooperation.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                           geneva conventions
    4. Senator Kennedy. Dr. Schlesinger, your report suggests you are 
recommending the U.S. needs to redefine its understanding of 
international human rights law in relation to the global war on 
terrorism. Do you believe that international human rights laws do not 
provide for terrorists or enemy combatants?
    Dr. Schlesinger. The Geneva Conventions adopted in 1949, envisaged 
a continuation of wars between nation states. It did not envisage 
insurgencies (and was never applied by colonial powers)--or ``wars of 
national liberation.'' More importantly, it clearly does not apply to 
terrorism. The attempt in the 1970s to redress these omissions through 
Protocol I was regarded by the United States as inappropriate, if not 
pernicious, in treating terrorists as prisoners of war.
    I believe that international law in the form of the Geneva 
Conventions does, indeed, provide for enemy or illegal combatants in 
that those entitled to protection as prisoners of war must meet 
specific standards. Therefore, by logic, if they do not meet those 
specific requirements, they are not entitled to prisoner of war status. 
If they are engaged in combat, therefore, they logically belong in a 
different category--of enemy or illegal combatant. On the other hand, 
it is quite clear that international law deals quite ineffectively with 
widespread terrorism, and should be adjusted to deal with terrorism.

    5. Senator Kennedy. Dr. Schlesinger, do you feel that international 
human rights law is inadequate, even though it includes basic 
requirements related to conditions and treatment of prisoners or 
internees, specifically provides for the prosecution of combatants and 
of ``enemy combatants'' alike for criminal conduct and/or war crimes 
carried out during a conflict?
    Dr. Schlesinger. International law provides adequately for the 
prosecution of criminal conduct and/or war crimes carried out in a 
conflict. It does not provide adequately for criminal conduct carried 
on as terrorism.

    6. Senator Kennedy. Dr. Schlesinger, do you believe that the Third 
and Fourth Geneva Conventions allow indefinite detention without any 
independent legal review?
    Dr. Schlesinger. The Geneva Conventions do not allow indefinite 
detention in the absence of review by a ``competent tribunal.'' The 
latter should be distinguished from ``independent legal review.''

    [Whereupon, at 5:19 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
